<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2012</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
  DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2012

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    [Clerk's note.--The subcommittee was unable to hold 
hearings on departmental and nondepartmental witnesses. The 
statements and letters of those submitting written testimony 
are as follows:]

                         DEPARTMENTAL WITNESSES

     Prepared Statement of the Corporation for Public Broadcasting

    Chairman Harkin, Ranking Member Shelby, and members of the 
subcommittee, thank you for allowing me to submit testimony on behalf 
of our Nation's public media system.
    Every day across the country, people turn to public radio and 
television for programs that inform and inspire; for lifelong 
education; for local news and information; for arts and cultural 
content, and for a variety of other services. Public broadcasting, or 
what should more accurately be called ``public media,'' has many faces, 
and employs around 24,000 people, but is best-known by the 1,300 local 
public radio and television stations across the country that provide 
unique local service to their communities. These stations collectively 
reach more than 98 percent of the U.S. population with free, over-the-
air television and radio programming and other services. When Congress 
appropriates money to the Corporation for Public Broadcasting (CPB), it 
is benefitting the 170 million Americans who use public broadcasting 
each month by supporting the stations that serve them.
    CPB distributes Federal funds in accordance with a statutory 
formula contained in the Public Broadcasting Act of 1967, under which 
more than 70 percent of our funds go directly to local public 
television and radio stations. CPB also supports the creation of 
programming for radio, television, and digital media. The statute 
ensures diversity in this programming by requiring CPB to fund 
independent and minority producers. CPB fulfills these obligations by 
funding the Independent Television Service and the five Minority 
Consortia in television (which represent African American, Latino, 
Asian American, Native American, and Pacific Islander producers) and 
similar organizations in radio. CPB funds the National Program Service 
at PBS, which supports signature programs like ``PBS NewsHour'', 
``NOVA'' and ``American Experience''; as well as educational, 
scientifically researched, impactful and trusted children's programming 
like ``Sesame Street'', ``Curious George'', and ``Word Girl''.
    In addition, CPB spends 6 percent of its funds on projects that 
benefit the entire public broadcasting community, befitting its role as 
the only entity responsible for and answerable to the entirety of the 
public media system. CPB negotiates and pays music royalties for all of 
public broadcasting, for example, and funds research to explore 
audience needs and technological opportunities. Added together, these 
efforts account for 95 percent of the funds appropriated to CPB (which 
is limited by law to an administrative budget of no more than 5 
percent).
    Some have suggested that public broadcasting can easily do without 
Federal funding. Let me briefly explain the critical importance of 
Federal funding to public media as it exists today, and what the impact 
would be if it were to go away. Congress designed the public media 
system in this country as a public-private partnership, where minimal 
Federal dollars are leveraged to the maximum extent to ensure universal 
service to every American and every community. While CPB's 
appropriation accounts for around 15 percent of the entire cost of 
public broadcasting, this ``lifeblood'' funding leverages critical 
investments from State and local governments, universities, businesses, 
foundations and from viewers and listeners of local stations. Put 
simply, CPB funding is the foundation on which the entire system is 
built. Undermining the foundation puts the entire structure in 
jeopardy.
    CPB funding is particularly important to minority-owned public 
stations and stations in rural areas, which are more challenging to 
operate due to low population density of viewers and listeners; the 
need to operate multiple transmitters to reach far-flung populations; 
and the limited disposable incomes and potential for private support 
often found in rural America. In fiscal year 2009, individual donations 
represented 17 percent of an average rural station's total revenue, 
versus almost 28 percent for the industry as a whole. The 
disproportional importance of Federal funding to stations in rural 
areas is clear--in fiscal year 2009, 108 rural stations relied on CPB 
for at least 25 percent of their revenue; while 22 rural stations, many 
on Native American reservations, relied on CPB funding for at least 50 
percent of their revenue.
    Finally, CPB funding is also the only funding source without a 
station cost associated with it--all other fundraising costs money (for 
stations and for any nonprofit). For example, in fiscal year 2008 it 
costs the average station 40 cents on the dollar to raise funds from 
individuals and local businesses.
    Numerous studies, including one conducted by the Government 
Accountability Office (GAO), have shown that the loss of Federal 
funding would create a void not easily filled by other sources of 
funding. For the vast majority of stations, this would mean a drastic 
and immediate cutback in service, local programming and personnel, and 
in many cases stations would ``go dark.'' Further, the loss of Federal 
funding would have a severe impact on a station's ability to acquire 
national programming, such as ``The Electric Company'', ``Super Why!'', 
``NOVA'', ``American Experience'', ``Frontline'', ``PBS NewsHour'', 
Marketplace and many others, from PBS, NPR, American Public Media and 
other sources. Federal funding has been the basis for this highly 
successful public media model since CPB was created nearly 45 years 
ago. Without it, public media ceases to exist as its creators intended.

Core System Support
    One of CPB's core responsibilities is to preserve, protect, and 
advance public media. Public television and radio stations are facing 
an unprecedented array of challenges. These include the challenging 
economy, reductions in Federal and State support, shifting community 
demographics, fracturing audiences and emerging patterns in the way 
content is delivered and consumed. Public television has been hit 
especially hard. Over the past two years, the public television economy 
has declined by $250 million, and CPB projects a further $250 million 
decline over the next two years. In addition, while the digital 
conversion in public television has provided exciting new opportunities 
for service, digital equipment becomes obsolete much more quickly than 
the analog equipment it replaced. The more or less constant cost of 
equipment replacement is further affecting public television. To cope 
with declining revenue and increasing equipment expenses, many stations 
have been forced to cut local service. As a result, the need to 
maintain infrastructure is draining resources from content and local 
service at stations.
    CPB is working in two areas to help the system begin to facilitate 
collaboration and operational efficiencies: mergers and consolidations, 
and joint master control operations.
    Mergers and Consolidation.--Most communities are served by one or 
more stand-alone public broadcasting stations. While independent local 
stations theoretically have a great deal of flexibility in choosing how 
to serve their community, the limited scale of many stand-alone 
operations drives up operating costs and constrains stations' ability 
to offer local service.
    State networks like Iowa Public Television and Alabama Public 
Television have demonstrated the advantage of taking an alternative 
approach. Combining management and back office operations to serve 
multiple communities can increase efficiency and free resources for 
additional local service. CPB plans to continue to work with stations 
to explore operating models that bring multiple stations together as an 
important focus of our work. Our efforts include offering informal 
advice to stations considering mergers and, once stations issue a 
formal intent to merge, providing some financial assistance with 
merger-related costs.
    Central Master Control.--A master control room is the central hub 
of a television station's technical operation, the point where content 
sources come together to be routed to the station transmitter. In the 
past, each television station has needed a master control room. Digital 
technology now allows the master control function to be provided from a 
remote location. A single master control facility can now serve 
multiple stations. This is important because master controls are 
expensive; they are both capital- and people-intensive. Combining 
master control operations can yield significant cost savings, increase 
productivity, and encourage station collaboration in other back-office 
areas.
    CPB is supporting the design and construction of multi-station 
master control facilities. We are also exploring the practicality of 
creating a nationwide ``master plan'' for master control facilities. As 
the specifics of a new consolidated master control function evolve, 
there is an opportunity to realize cost savings, reduce the capital 
burden on stations, and improve efficiency for public television.

American Graduate
    In the words of our statute, ``[I]t is in the public interest to 
encourage . . . the use of [public] media for instructional, 
educational, and cultural purposes.'' Education continues to be a core 
value of the public broadcasting community, as it has been since its 
inception. For over 40 years, public broadcasting stations have made a 
robust and vital contribution to education and an informed and 
strengthened civil society, and these contributions are reflected in 
CPB's recently-launched American Graduate initiative.
    American Graduate is a significant new public media initiative to 
help improve our Nation's high school graduation rates. Every year, 
more than 1 million students drop out of high school. If that trend 
continues, over the next 10 years, it will cost the Nation more than $3 
trillion in lost wages, productivity and taxes. American Graduate 
expands on public media's record of success in early childhood 
education to reach students in middle school--a critical point when the 
disengagement that leads to dropping out in high school often begins. 
Local public radio and television stations are at the core of this 
initiative and are uniquely positioned to educate and engage various 
stakeholders on the dropout problem, rally support and help coordinate 
efforts in communities, something experts say is crucial to a solution.

CPB's Requests for Appropriations
    Public media stations continue to evolve, both operationally and 
more importantly in the myriad ways they serve their communities. 
Stations are committed to reaching viewers and listeners on whatever 
platform they use--from smart phones to iPads to radios to television 
sets. While stations can and will continue to adapt and thrive in the 
digital age, without sufficient support they cannot provide service on 
evolving platforms. As the Federal Communications Commission's National 
Broadband Plan noted, ``Today, public media is at a crossroads . . .  
[it] must continue expanding beyond its original broadcast-based 
mission to form the core of a broader new public media network that 
better serves the new multi-platform information needs of America. To 
achieve these important expansions, public media will require 
additional funding.''
    CPB Base Appropriation (Fiscal Year 2014).--CPB has requested a 
$495 million advance appropriation for fiscal year 2014, to be spent in 
accordance with the Public Broadcasting Act's funding formula. The two-
year advance appropriation for public broadcasting, in place since 
1976, is the most important part of the ``firewall'' that Congress 
constructed between Federal funding and the programs that appear on 
public television and radio. President Gerald Ford, who initially 
proposed a 5-year advance appropriation for CPB, said it best when he 
said that advance funding ``is a constructive approach to the sensitive 
relationship between Federal funding and freedom of expression. It 
would eliminate the scrutiny of programming that could be associated 
with the normal budgetary and appropriations processes of the 
government.''
    Our fiscal year 2014 request balances the fiscal reality facing our 
Nation with the stark fact that stations are struggling to maintain 
service to their communities in the face of shrinking non-Federal 
revenues--a $218 million, or 9.2 percent, drop between fiscal year 2008 
and 2009 alone. Even with these challenges, public broadcasting 
contributes to American society in many ways that are worthy of greater 
Federal investment. In fiscal year 2014, CPB will continue to support a 
range of programming and initiatives through which stations provide a 
valuable and trusted service to millions of Americans.
    CPB Digital Funding (Fiscal Year 2012).--CPB requests $48 million 
for CPB Digital for fiscal year 2012, $11.5 million less than requested 
in fiscal year 2011. The digital conversion of public media is a much 
more extensive process than simply replacing analog with digital 
equipment. Digital conversion requires the development of new 
organizational models optimized for the digital environment, with new 
workflows, multi-channel services, and multi-platform distribution. CPB 
Digital funding, which can fund a wider range of projects than our 
formula-governed main account, has led to some of the most important 
innovation in public broadcasting's history. The continuing 
availability of this funding is critical to public broadcasting's 
progress toward a true, digital public service media.
    Ready To Learn (Fiscal Year 2012).--CPB requests that the U.S. 
Department of Education's Ready To Learn (RTL) program be funded at 
$27.3 million, the same level as fiscal year 2011. A partnership 
between the Department, CPB, PBS and local public television stations, 
RTL leverages the power of digital television technology, the Internet, 
gaming platforms and other media to help millions of young children 
learn the reading and math skills they need to succeed in school. The 
partnership's work over the past few years has demonstrably increased 
reading scores particularly among low-income children and has erased 
the performance gap between children from low-income households and 
their more affluent peers. An appropriation of $27.3 million in fiscal 
year 2012 will enable RTL to develop tools to improve children's 
performance in math as well as reading and bring on-the-ground, 
station-convened early learning activities to more communities.
    All told, the Federal contribution to public media through CPB 
amounts to $1.39 per American per year and, in a model private-public 
partnership, the public media system takes each of these dollars and 
raises six dollars more. The returns for taxpayers are exponential. 
They include in-depth news and public affairs programming on the local, 
State, national and international level; unmatched, commercial-free 
children's programming; formal and informal educational instruction for 
all ages; and inspiring arts and cultural content.
    Mr. Chairman and Ranking Member, thank you again for allowing CPB 
to submit this testimony. We are under no illusions about the pressures 
you face on a daily basis as Congress works to address our country's 
perilous fiscal situation. As such, on behalf of the public 
broadcasting community, including the stations in your states and those 
they serve, we sincerely appreciate your support.
                                 ______
                                 
          Prepared Statement of the Railroad Retirement Board

    We are pleased to present the following information to support the 
Railroad Retirement Board's (RRB) fiscal year 2012 budget request.
    The RRB administers comprehensive retirement/survivor and 
unemployment/sickness insurance benefit programs for railroad workers 
and their families under the Railroad Retirement and Railroad 
Unemployment Insurance Acts. The RRB also has administrative 
responsibilities under the Social Security Act for certain benefit 
payments and Medicare coverage for railroad workers. During the past 2 
years, the RRB has also administered special economic recovery payments 
and extended unemployment benefits under the American Recovery and 
Reinvestment Act of 2009 (Public Law 111-5). More recently, we have 
administered extended unemployment benefits under the Worker, 
Homeownership, and Business Assistance Act of 2009 (Public Law 111-92), 
and the Tax Relief, Unemployment Insurance Reauthorization, and Job 
Creation Act of 2010 (Public Law 111-312).
    During fiscal year 2010, the RRB paid $10.8 billion, net of 
recoveries, in retirement/survivor benefits to about 582,000 
beneficiaries. We also paid $156.3 million in net unemployment/sickness 
insurance benefits to some 38,000 claimants. Unemployment benefits 
included $19.4 million under Public Law 111-92, and about $0.8 million 
under Public Law 111-5. In addition, the RRB paid benefits on behalf of 
the Social Security Administration amounting to $1.3 billion to about 
116,000 beneficiaries.

               PROPOSED FUNDING FOR AGENCY ADMINISTRATION

    The President's proposed budget would provide $112,239,000 for 
agency operations, which would enable us to maintain a staffing level 
of 902 full-time equivalent staff years (FTEs) in 2012. The proposed 
budget would also provide $1,810,000 for information technology (IT) 
investments. This includes $700,000 for costs related to systems 
modernization and e-Government, and $654,000 for improvements related 
to cyber security and continuity of operations. The remaining $456,000 
would be used for network operations, infrastructure replacement and 
emergency restoration services.

                            AGENCY STAFFING

    The RRB's dedicated and experienced workforce is the foundation for 
our tradition of excellence in customer service and satisfaction. Like 
many Federal agencies, however, the RRB has a number of employees at or 
near retirement age. Nearly 70 percent of our employees have 20 or more 
years of service at the agency, and about 40 percent of our current 
workforce will be eligible for retirement by January 1, 2013. To help 
prepare for the expected staff turnover in the near future, we are 
placing increased emphasis on strategic management of human capital. 
Our human capital plans provide for employee support and knowledge 
transfer, which will enable the RRB to continue achieving its mission. 
In addition, with the agency's formal human capital plan, succession 
plan and various action plans in place, we are ensuring that succession 
management supports a systematic approach to ensuring a continuous 
supply of the best talent through helping individuals develop to their 
full potential.
    In connection with these workforce planning efforts, our budget 
request includes a legislative proposal to enable the RRB to utilize 
various hiring authorities available to other Federal agencies. Section 
7(b)(9) of the Railroad Retirement Act contains language requiring that 
all employees of the RRB, except for one assistant for each Board 
Member, must be hired under the competitive civil service. We propose 
to eliminate this requirement, thereby enabling the RRB to use various 
hiring authorities offered by the Office of Personnel Management.

                  INFORMATION TECHNOLOGY IMPROVEMENTS

    We are actively pursuing further automation and modernization of 
the RRB's various processing systems to support the agency's mission to 
administer benefit programs for railroad workers and their families. 
Key capital initiatives for fiscal year 2012 include projects to add 
new reporting services to our Employer Reporting System, and to 
continue with long-term system modernization efforts. In recent years, 
the agency has moved to a relational database environment and optimized 
the data that reside in the legacy databases. In fiscal year 2012, our 
staff will work with an experienced DB2 Database Administrator to 
ensure that the master database remains platform independent and to 
develop stored procedures that will be used by reengineered mainframe 
programs that access the master database. We also plan to move forward 
with reengineering the applications to the agency's LAN enterprise 
program platform, several of which are programmed in outdated, 
commercially unsupported technologies.
    Our budget request also provides for cyber security improvements to 
ensure that the RRB continues to control the risks that threaten the 
agency's critical assets and to meet the security requirements set 
forth in the Federal Information Security Management Act (FISMA) of 
2002, and infrastructure investments to maintain our operational 
readiness and provide a firm foundation for our target enterprise 
architecture.

                        OTHER REQUESTED FUNDING

    The President's proposed budget includes $51 million to fund the 
continuing phase-out of vested dual benefits, plus a 2 percent 
contingency reserve, $1,020,000, which ``shall be available 
proportional to the amount by which the product of recipients and the 
average benefit received exceeds the amount available for payment of 
vested dual benefits.'' In addition, the President's proposed budget 
includes $150,000 for interest related to uncashed railroad retirement 
checks.

                  FINANCIAL STATUS OF THE TRUST FUNDS

    Railroad Retirement Accounts.--The RRB continues to coordinate its 
activities with the National Railroad Retirement Investment Trust 
(Trust), which was established by the Railroad Retirement and 
Survivors' Improvement Act of 2001 (RRSIA) to manage and invest 
railroad retirement assets. Pursuant to the RRSIA, the RRB has 
transferred a total of $21.276 billion to the Trust. All of these 
transfers were made in fiscal years 2002 through 2004. The Trust has 
invested the transferred funds, and the results of these investments 
are reported to the RRB and posted periodically on the RRB's website. 
The net asset value of Trust-managed assets on September 30, 2010, was 
approximately $23.8 billion, an increase of $0.5 billion from the 
previous year. As of April 2011, the Trust had transferred 
approximately $11 billion to the Railroad Retirement Board for payment 
of railroad retirement benefits.
    In June 2010, we released the annual report on the railroad 
retirement system required by Section 22 of the Railroad Retirement Act 
of 1974, and Section 502 of the Railroad Retirement Solvency Act of 
1983. The report addressed the 25-year period 2010-2034, and included 
projections of the status of the retirement trust funds under three 
employment assumptions. These indicated that barring a sudden, 
unanticipated, large decrease in railroad employment or substantial 
investment losses, the railroad retirement system would experience no 
cash flow problems for the next 23 years. Even under the most 
pessimistic assumption, the cash flow problems would not occur until 
the year 2033. The report did not recommend any change in the rate of 
tax imposed by current law on employers and employees.
    Railroad Unemployment Insurance Account.--The RRB's latest annual 
report on the financial status of the railroad unemployment insurance 
system was issued in June 2010. The report indicated that even as 
maximum daily benefit rates rise 39 percent (from $64 to $89) from 2009 
to 2020, experience-based contribution rates are expected to keep the 
unemployment insurance system solvent, except for small, short-term 
cash-flow problems in 2010 and 2011. Projections show a quick repayment 
of loans even under the most pessimistic assumption.
    Unemployment levels are the single most significant factor 
affecting the financial status of the railroad unemployment insurance 
system. However, the system's experience-rating provisions, which 
adjust contribution rates for changing benefit levels, and its 
surcharge trigger for maintaining a minimum balance, help to ensure 
financial stability in the event of adverse economic conditions. No 
financing changes were recommended at this time by the report.
    Due to the increased level of unemployment insurance payments 
during fiscal years 2009 and 2010, loans from the Railroad Retirement 
(RR) Account to the RUI Account became necessary beginning in December 
2009. The balance of loans from the RR Account was $47.4 million at the 
end of fiscal year 2010, including $0.9 million in accrued interest. 
The estimated loan balance at the end of fiscal year 2011, is $3.0 
million, and full repayment of the loans is expected during fiscal year 
2012.
    Thank you for your consideration of our budget request. We will be 
happy to provide further information in response to any questions you 
may have.
                                 ______
                                 
 Prepared Statement of the Inspector General, Railroad Retirement Board

    My name is Martin J. Dickman and I am the Inspector General for the 
Railroad Retirement Board. I would like to thank you, Mr. Chairman, and 
the members of the Subcommittee for your continued support of the 
Office of Inspector General.

                             BUDGET REQUEST

    I wish to inform you of our fiscal year 2012 appropriations request 
and describe our planned activities. The Office of Inspector General 
(OIG) respectfully requests funding in the amount of $9,259,000 to 
ensure the continuation of its independent oversight of the Railroad 
Retirement Board (RRB). During fiscal year 2012, the OIG will focus on 
areas affecting program performance; the efficiency and effectiveness 
of agency operations; and areas of potential fraud, waste and abuse.

                         OPERATIONAL COMPONENTS

    The OIG has three operational components: the immediate Office of 
the Inspector General, the Office of Audit (OA), and the Office of 
Investigations (OI). The OIG conducts operations from several 
locations: the RRB's headquarters in Chicago, Illinois; an 
investigative field office in Philadelphia, Pennsylvania; and five 
domicile investigative offices located in Arlington, Virginia; Houston, 
Texas; San Diego, California; Miami, Florida; and New York, New York. 
These domicile offices provide more effective and efficient 
coordination with other Inspector General offices and traditional law 
enforcement agencies with which the OIG works joint investigations.

                            OFFICE OF AUDIT

    The mission of the Office of Audit is to promote economy, 
efficiency, and effectiveness in the administration of RRB programs and 
detect and prevent fraud and abuse in such programs. To accomplish its 
mission, OA conducts financial, performance, and compliance audits and 
evaluations of RRB programs. In addition, OA develops the OIG's 
response to audit-related requirements and requests for information.
    During fiscal year 2012, OA will focus on areas affecting program 
performance; the efficiency and effectiveness of agency operations; and 
areas of potential fraud, waste, and abuse. OA will continue its 
emphasis on long-term systemic problems and solutions, and will address 
major issues that affect the RRB's service to rail beneficiaries and 
their families. OA has identified four broad areas of potential audit 
coverage: Financial Accountability; Railroad Retirement Act & Railroad 
Unemployment Insurance Act Benefit Program Operations; Railroad 
Medicare Program Operations; and Security, Privacy, and Information 
Management.
    During fiscal year 2012, OA must accomplish the following mandated 
activities with its own staff: Audit of the RRB's financial statements 
pursuant to the requirements of the Accountability of Tax Dollars Act 
of 2002 and evaluation of information security pursuant to the Federal 
Information Security Management Act (FISMA).
    During fiscal year 2012, OA will complete the audit of the RRB's 
fiscal year 2011 financial statements and begin its audit of the 
agency's fiscal year 2012 financial statements. OA contracts with a 
consulting actuary for technical assistance in auditing the RRB's 
``Statement of Social Insurance'', which became basic financial 
information effective in fiscal year 2006. In addition to performing 
the annual evaluation of information security, OA also conducts audits 
of individual computer application systems which are required to 
support the annual FISMA evaluation. Our work in this area is targeted 
toward the identification and elimination of security deficiencies and 
system vulnerabilities, including controls over sensitive personally 
identifiable information. OA will also conduct an audit of employer 
compliance with the provisions of the Railroad Retirement and Railroad 
Unemployment Insurance Acts. Our work in this area is designed to 
verify the completeness and accuracy of the external reviews performed 
by the RRB's compliance group.
    OA undertakes additional projects with the objective of allocating 
available audit resources to areas in which they will have the greatest 
value. In making that determination, OA considers staff availability, 
current trends in management, Congressional and Presidential concerns.

                        OFFICE OF INVESTIGATIONS

    The Office of Investigations (OI) focuses its efforts on 
identifying, investigating, and presenting cases for prosecution, 
throughout the United States, concerning fraud in RRB benefit programs. 
OI conducts investigations relating to the fraudulent receipt of RRB 
disability, unemployment, sickness, and retirement/survivor benefits. 
OI investigates railroad employers and unions when there is an 
indication that they have submitted false reports to the RRB. OI also 
conducts investigations involving fraudulent claims submitted to the 
Railroad Medicare Program. These investigative efforts can result in 
criminal convictions, administrative sanctions, civil penalties, and 
the recovery of program benefit funds.

              OI INVESTIGATIVE RESULTS FOR FISCAL YEAR 2010
------------------------------------------------------------------------

------------------------------------------------------------------------
Civil Judgments.........................................              19
Indictments/Informations................................              47
Convictions.............................................              50
Recoveries/Receivables..................................     $29,296,188
------------------------------------------------------------------------

    OI anticipates an ongoing caseload of about 450 investigations in 
fiscal year 2012. During fiscal year 2010, OI opened 244 new cases and 
closed 210. To date in fiscal year 2011, OI has opened 188 new cases 
and closed 135. At present, OI has cases open in 47 States, the 
District of Columbia, and Canada with estimated fraud losses of over 
$37 million. Disability fraud cases represent the largest portion of 
Ol's total caseload. These cases involve more complicated schemes and 
often result in the recovery of substantial amounts for the RRB's trust 
funds. They also require considerable resources such as travel by 
special agents to conduct surveillance, numerous witness interviews, 
and more sophisticated investigative techniques. Additionally, these 
fraud investigations are extremely document-intensive and require 
forensic financial analysis.
    During fiscal year 2012, OI will continue to coordinate its efforts 
with agency program managers to address vulnerabilities in benefit 
programs that allow fraudulent activity to occur and will recommend 
changes to ensure program integrity. OI plans to continue proactive 
projects to identify fraud matters that are not detected through the 
agency's program policing mechanisms.

                               CONCLUSION

    In fiscal year 2012, the OIG will continue to focus its resources 
on the review and improvement of RRB operations and will conduct 
activities to ensure the integrity of the agency's trust funds. This 
office will continue to work with agency officials to ensure the agency 
is providing quality service to railroad workers and their families. 
The OIG will also aggressively pursue all individuals who engage in 
activities to fraudulently receive RRB funds. The OIG will continue to 
keep the Subcommittee and other members of Congress informed of any 
agency operational problems or deficiencies.
    The OIG sincerely appreciates its cooperative relationship with the 
agency and the ongoing assistance extended to its staff during the 
performance of their audits and investigations. Thank you for your 
consideration.
                                 ______
                                 

                       NONDEPARTMENTAL WITNESSES

            Prepared Statement of ADAP Advocacy Association

    Thank you on behalf of the ADAP Advocacy Association (aaa+) and its 
board of directors for the opportunity to submit our written testimony 
to the Senate Committee on Appropriations, Subcommittee on Labor, 
Health and Human Services and Education (LHHSE) about the AIDS Drug 
Assistance Programs (ADAPs). aaa+ is a national 501(c)(3) nonprofit 
organization incorporated in the District of Columbia to promote and 
enhance the AIDS Drug Assistance Programs and improve access to care 
for persons living with HIV/AIDS. We appreciate the opportunity to 
share our testimony on fiscal year 2010 appropriations.
    State ADAPs are primarily federally funded under Part B of the Ryan 
White Comprehensive AIDS Resources Emergency (CARE) Act. ADAPs provide 
medications to treat HIV disease and prevent and treat AIDS-related 
opportunistic infections to low income, uninsured and underinsured 
individuals living with HIV/AIDS in the 50 States, District of 
Columbia, Puerto Rico, Guam, U.S. Virgin Islands, American Samoa, 
Marshall, and Northern Marianas Islands. Additional funding is directed 
toward State ADAPs from other Ryan White CARE Act funds, including Part 
A Eligible Metropolitan Area (EMA) funds. Many States also directly 
contribute funding. ADAPs represent the ``access to treatment'' window 
for the community-based continuum of HIV/AIDS healthcare so carefully 
built and supported by all the parts of the Ryan White CARE Act, which 
was reauthorized for 4 years by both Houses of Congress and signed into 
law by President Barack Obama on October 30, 2009. The law in general 
has enjoyed strong bipartisan support since it was first passed in the 
1990s, and ADAPs specifically have been a Return on Investment (ROI) 
model since the Federal Government began pumping money into them when 
President Bill Clinton and Speaker Newt Gingrich were in office.
    At the time when our testimony is being submitted to the 
subcommittee for its consideration, there are 7,553 people living with 
HIV/AIDS in 11 States on ADAP waiting lists--including 31 people in 
Arkansas, 3,848 people in Florida, 1,221 people in Georgia, 11 people 
in Idaho, 816 people in Louisiana, 21 people in Montana, 177 people in 
North Carolina, 303 people in Ohio, 560 people in South Carolina, 563 
people in Virginia and 2 people in Wyoming. Overall, 95.54 percent of 
these people reside in the South. Additionally, it is being submitted 
for the people living with HIV/AIDS who are the ``invisible'' waiting 
lists because they have been kicked-off the program due to changes in 
eligibility requirements--including 99 people in Arkansas, 257 people 
in Ohio, and 89 people in Utah, as well as the 6,500+ people in Florida 
who have been transitioned off the program.
    Faced with the ``Perfect Storm'' that is being fueled by high 
unemployment, record number of uninsured, State budgetary cutbacks, 
high cost of medications and inadequate Federal funding, there are a 
historic number of people being denied access to treatment. Without the 
subcommittee's leadership and fortitude to recognize the ROI from 
ADAPs, several thousand people living with HIV/AIDS will be at risk of 
developing Opportunistic Infections (OIs), and thousands of others who 
are HIV-negative will be at greater risk of contracting the virus 
because their HIV-positive counterparts are more infectious when not 
taking Highly Active Anti-Retroviral Therapy (HAART).
    Each year a sophisticated pharmacoeconomic model is employed by the 
ADAP Coalition--a unique coalition of AIDS advocates, community-based 
organizations and representatives of research-based pharmaceutical and 
biotechnology companies--referencing the data collected from ADAPs from 
the previous 2 years to forecast the dollar resources that will be 
needed for the coming 2 years to enable ADAPs to provide HAART 
(combination antiretroviral therapy) to Americans living with HIV 
disease.
    Many are familiar with this process and its remarkable accuracy 
over the past 12 years. The Congress and White House have provided us 
with support very close to the amounts we projected in fiscal year 
1996, 1997, 1998, 1999, 2000, always in amounts above the original 
Administration budget requests; funding in subsequent fiscal year 2001-
05 was sustainable, but often short of the necessary amounts needed to 
avert waiting lists. Between 2000 and 2008, States increased their 
share of the ADAP budget by 155 percent while the Federal Government 
increased its share by only 46 percent overall. The chart shows the 
increase by each party each year over the previous fiscal year in 
percentage points. States have basically increased--as well as 
pharmaceutical rebates--while the Federal commitment has gone down!

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The ongoing ADAP crisis is being fueled, by in large, because 
Federal spending has been inadequate--despite small budget increases 
under both President George W. Bush and President Obama since 2005. The 
Federal share of ADAP funding has fallen steadily over the last several 
years. In fiscal year 2003 the Federal earmark was 72 percent of the 
overall ADAP budget. In fiscal year 2009, the Federal share had fallen 
to 49 percent of the ADAP budget. ADAPs have long had a strong State-
Federal partnership; however despite the economic downturn many States 
have increased funding in fiscal year 2010 by an additional $121 
million for a total of $346.2 million. Pharmaceutical manufacturers 
have also helped to alleviate fiscal challenges for ADAP by agreeing to 
lower drug prices and enhance rebates, which amounted to $259 million 
in saving for fiscal year 2009. Supplemental agreements will save an 
additional $160 million per year starting in July 2010.\1\
---------------------------------------------------------------------------
    \1\ The ADAP Coalition, ADAP Need Fiscal Year 2012, January 2011.
---------------------------------------------------------------------------
    ADAPs truly need an increase of $410 million in fiscal year 2012 to 
maintain their programs and fill the structural deficits that have 
built up over the last several years. In fiscal year 2012, the HIV/AIDS 
community is asking for an increase of $131 million to continue to 
serve an average of 1,312 new clients per month. The funding level of 
$991 million is the authorized level in the Ryan White reauthorization 
of 2009.\2\
---------------------------------------------------------------------------
    \2\ The ADAP Coalition, ADAP Need Fiscal Year 2012, January 2011.
---------------------------------------------------------------------------
    A large gap remains for ADAPs in fiscal year 2010. Included in the 
fiscal year 2011 need number was a revised estimate for the ADAP 
Federal need number for fiscal year 2010 of $961 million, an increase 
of $126 million over the current funding level. The fiscal year 2010 
need number was revised based upon new survey data. Coupled with 
estimated State funding, this funding will provide continued services 
to a total of 153,875 clients in fiscal year 2010, including the 
ability to enroll 15,760 new clients and eliminate waiting lists. This 
includes individuals who are fully covered by ADAP and those who 
receive assistance with Medicare Part D cost sharing requirements or 
private insurance continuation. The fiscal year 2010 need number has 
been adjusted from the previous level to account for the $20 million 
already received through the fiscal year 2010 Congressional 
appropriations process.\3\ This problem is only worsens moving into 
fiscal year 2012.
---------------------------------------------------------------------------
    \3\ The ADAP Coalition, ADAP Need Fiscal Year 2010 & Fiscal Year 
2011, January 2010.
---------------------------------------------------------------------------
    The problem of growing ADAP waiting lists is exacerbated because we 
are facing an American HIV/AIDS epidemic of devastating proportion. 
According to some estimates, the number of people living with HIV/AIDS 
in the United States was approximately 2 million by the end of 2010. 
These numbers are not due to decrease in the near future. In 2006 
alone, the Centers for Disease Control and Prevention (CDC) estimated 
that there have been more than 56,000 new HIV infections per year for 
the last decade. If this was not severe enough, the disease is far from 
color blind. Currently, the incidence rate of new HIV infection among 
African American men and women is seven times that of the Caucasian 
population. Furthermore, racial disparities are echoed regionally as 
the epidemic has seen its most recent unfettered growth in southern 
States, which often times have smaller State budgets and fewer access 
points to comprehensive care.
    The ADAP need is being driven by simple factors. As we all know 
HAART AIDS treatments has dropped U.S. death rates from AIDS by about 
75 percent starting in 1996. Whereas annual AIDS deaths use to run 
about 40,000 a year, now 15,000 to 17,000, even less in areas of very 
good medical care.
    While dramatic improvements in lifespan and quality of life are 
almost miraculous, HAART treatments must continue for ADAP patients. 
Therefore patients living longer will likely require ADAP services for 
medications longer. There are 200,000 to 300,000 Americans who are 
unaware that they are HIV+. Extensive multi-million dollar efforts for 
outreach and HIV testing are going on all over the country, and the CDC 
now urges routine testing for those at risk for HIV. Funded by 
churches, foundations, Minority Health Initiatives, pharmaceutical 
companies and AIDS service groups, these efforts are identifying ``hard 
to reach'' populations many of whom lack adequate health insurance. 
These individuals, when identified, must look to ADAP to cover the 
costs of their drugs. For most, access to Medicaid is limited. State 
Medicaid programs typically require disease progression to full-blown 
AIDS to meet the Social Security definition of disabled. U.S. 
Government treatment guidelines consider progression to full-blown AIDS 
to be months and years too late for optimum treatments. As we decided 
in Congress to allow timely early treatment of breast and cervical 
cancers in women, so too should we allow States the option to provide 
early treatments for HIV through Medicaid to both men and women.
    While we hope that Congress will pass the Early Treatment for HIV 
Act (ETHA) to allow States the option to provide HIV care and 
treatments through Medicaid early in the disease process when health 
benefits are greater and costs are less, for now we are stuck with 
folks who can't qualify for Medicaid looking to ADAP for basic 
coverage. Increases in private sector health insurance costs forces 
steady streams of HIV+ patients from private health insurance programs 
to State ADAPs. This is a result of rising costs in premiums and co-
payments that become unaffordable, and in some instances by HMO-type 
providers with drug benefits leaving the market for more profitable 
locations. These factors together, ensure need for State ADAPs for the 
coming years. The increasing rate of need will be substantial until key 
provisions of the Patient Protection and Affordable Care Act (PPACA) 
can provide adequate benefits to our entire senior, elderly and 
disabled populations. As the profile of the American AIDS epidemic has 
expanded further into communities of color, marginalized populations, 
rural areas, and particularly to women of color in their child bearing 
years, ADAPs feel these additional strains from groups which 
traditionally may work low-paying jobs with inadequate health insurance 
or no healthcare benefits.
    In the past 12 months, 20 State ADAPs have instituted other cost-
containment strategies. ADAPs with other cost-containment strategies 
instituted since April 1, 2009, as of February 2, 2011) include: 
Arizona: Reduced formulary, Arkansas: Reduced formulary, lowered 
financial eligibility to 200 percent of FPL, (disenrolled 99 clients in 
September 2009), Colorado: Reduced formulary, Florida: Reduced 
formulary, lower financial eligibility to 300 percent FPL, transition 
clients to Welvista from 2/14-3/31/11, Georgia: Reduced formulary, 
implemented medical criteria, continued participation in the 
Alternative Method Demonstration Project (AMDP), Idaho: Capped 
enrollment, Illinois: Reduced formulary, instituted monthly expenditure 
cap, Kentucky: Reduced formulary, Louisiana: Discontinued reimbursement 
of laboratory assays, North Carolina: Reduced formulary, North Dakota: 
Capped enrollment, instituted annual expenditure cap, lowered financial 
eligibility to 300 percent FPL, Ohio: Reduced formulary, lowered 
financial eligibility to 300 percent of FPL (disenrolled 257 clients), 
Puerto Rico: reduced formulary, South Carolina: Lowered financial 
eligibility to 300 percent FPL, Utah: Reduced formulary, lowered 
financial eligibility to 250 percent of FPL (disenrolled 89 clients), 
Virginia: Reduced formulary, only distribute 30-day prescription 
refills, Washington: Instituted client cost sharing, reduced formulary 
(for uninsured clients only), only pay insurance premium for clients 
currently on antiretrovirals, and Wyoming: Reduced formulary, 
instituted client cost sharing.
    As previously stated, ADAP waiting lists--as well as the 
aforementioned cost-containment strategies put the lives of people 
living with HIV/AIDS at risk (e.g., developing OIs), as well as put 
HIV-negative people at higher risk of becoming infected (e.g., HIV-
positive people are more infectious when not properly treated with 
HAART). Without congressional leadership and adequate Federal funding, 
current circumstances could easily lead to a public health emergency 
that will only cost the taxpayers much more.
    In hindsight, it becomes easy to argue that ADAPs have historically 
been underfunded. In reality however, it is the emergence of highly 
active anti-retroviral therapy over the past 7 years and the successes 
of these treatment options that have made dramatic changes in people's 
lives; that have made access to HIV treatment and care such a dramatic 
national policy concern. We now understand how HIV replicates in the 
body, beginning its destructive impact on the immune system from the 
moment of infection. Where in the recent past we divided people into 
categories such as asymptomatic and symptomatic in order to make 
treatment decisions, current treatments dictates that we no longer make 
these distinctions in our approach to therapy. The latter simply 
reflects a more advanced state of immune damage.
    The standard of care today recommends that patients start on 
antiretroviral therapy with a combination of drugs earlier in the 
disease in order to preserve immune function. It also presumes the 
earliest possible knowledge of HIV status and informed medical care to 
decide the exact timing of treatment commencement and treatment type 
selection. Improved immune function has a direct impact on those topics 
you are most likely interested in today, saving and improving the 
quality of lives and cost savings to the healthcare system.
    By now it is really not necessary to explain the benefits of 
antiretroviral treatments or even its cost effectiveness. Everyone 
knows these things. In fact thousands of people are dedicated to seeing 
that the ``AIDS miracles'' of the last few years available in the 
United States are delivered to the rest of the world before societal 
damage in excess of the plagues of the Middle Ages is inflicted upon 
whole countries in the Caribbean, Africa, Asia and parts of the former 
Soviet Union. In sharing the wealth of the medical knowledge and 
expertise, which the United States have lead in developing we must not, 
and should not forget the homeland. We must make sure that no American 
with HIV is forgotten and allowed to fall through the cracks. The time 
has come to end the wait for people living with HIV/AIDS.
    In closing the following two hypothetical examples demonstrate the 
ROI of the AIDS Drug Assistance Program:
  --Charlie is a 29-year old black single father living in Gadsden 
        County Florida. He and his wife found out they were infected 
        with HIV when she died from complications of AIDS related 
        pneumonia the previous year. Charlie is on a waiting list to 
        receive AIDS drugs but between his depression and efforts to 
        care for his children he is unable to access the help he needs 
        to navigate the Patient Assistance Programs. He himself gets 
        sick. He enters an emergency room in Tallahassee, Florida and 
        is subsequently admitted for a 5-day stay. His emergency room 
        visit is near the average for this hospital at $2,783 (source 
        Florida Heath Finder.org.) The hospital stay is near the 
        national average of $24,000. He receives additional bills from 
        doctors, radiologists and therapists for $750. You can compare 
        this total to the cost of the AIDS drug he would need for an 
        entire year. Charlie is what is known as therapy naive so the 
        most inexpensive combination therapy drugs would be effective 
        in reducing the virus to undetectable levels. The annual drug 
        cost would be around $15,000 per year. Compare that to $33,830 
        in 6 days for hospitalization.
  --Now consider Patricia. She has had AIDS for 20 years and the AIDS 
        virus she carries is resistant to all but the most expensive 
        AIDS drugs. She has fallen out of care and is now getting 
        progressively sicker. She goes to ADAP at the nearest county 
        health department which is 20 miles away only to be told that 
        she has been wait listed due to budget shortfalls. Patricia 
        falls ill while trying to navigate assistance programs and is 
        hospitalized. Her ER costs are similar to that of Charlie's but 
        she stays in the hospital for 20 days and then dies. Her costs 
        are well over $100,000 not including funeral and burial costs. 
        Her drugs would have cost $30,000 per year.
    We urge to you fully fund the ADAP program in fiscal year 2012 with 
an increase of $131 million. No one need be denied the new standard of 
care for HIV disease. We have come too far as a Nation to turn our 
backs on HIV/AIDS now. Please make sure that the resources are there 
for every HIV-positive American to be treated regardless of their 
financial resources or ability to access adequate health insurance 
coverage.
                                 ______
                                 
      Prepared Statement of the Ad Hoc Group for Medical Research

    The Ad Hoc Group for Medical Research is a coalition of more than 
300 patient and voluntary health groups, medical and scientific 
societies, academic and research organizations, and industry. The Ad 
Hoc Group appreciates the opportunity to submit this statement in 
support of enhancing the Federal investment in biomedical, behavioral, 
and population-based research supported by the National Institutes of 
Health (NIH).
    We are deeply grateful to the Subcommittee for its long-standing, 
bipartisan leadership in support of NIH. These are difficult times for 
our Nation and for people all around the globe, but the affirmation of 
science is the key to a better future. To improve Americans' health and 
strengthen America's innovation economy, the Ad Hoc Group for Medical 
Research recommends $35 billion for NIH in fiscal year 2012.
    The partnership between NIH and America's scientists, medical 
schools, teaching hospitals, universities, and research institutions 
continues to serve as the driving force in this Nation's search for 
ever-greater understanding of the mechanisms of human health and 
disease. More than 83 percent of NIH research funding is awarded to 
more than 3,000 research institutions located in every State. These are 
funded through almost 50,000 competitive, peer-reviewed grants and 
contracts to more than 350,000 researchers.
    The foundation of scientific knowledge built through NIH-funded 
research drives medical innovation that improves health and quality of 
life through new and better diagnostics, improved prevention 
strategies, and more effective treatments. NIH research has contributed 
to dramatically increased and improved life expectancy over the past 
century. A baby born today can look forward to an average life span of 
nearly 78 years--almost three decades longer than a baby born in 1900, 
and life expectancy continues to increase. People are staying active 
longer, too: the proportion of older people with chronic disabilities 
dropped by nearly a third between 1982 and 2005. Thanks to insights 
from NIH-funded studies, the death rate for coronary heart disease is 
more than 60 percent lower--and the death rate for stroke, 70 percent 
lower--than in the World War II era.
    NIH research continues to create dramatic new research 
opportunities, offering hope to the millions of patients awaiting the 
possibility of a healthier tomorrow. For example, a new ability to 
comprehend the genetic mechanisms responsible for disease already is 
providing insights into diagnostics and identifying a new array of drug 
targets. We are entering an era of personalized medicine, where 
prevention, diagnosis, and treatment of disease can be individualized, 
instead of using the standardized approach that all too often wastes 
healthcare resources and potentially subjects patients to unnecessary 
and ineffective medical treatments and diagnostic procedures.
    Peer-reviewed, investigator-initiated basic research is the heart 
of NIH research. These inquiries into the fundamental cellular, 
molecular, and genetic events of life are essential if we are to make 
real progress toward understanding and conquering disease. The 
application of the results of basic research to the detection, 
diagnosis, treatment, and prevention of disease is the ultimate goal of 
medical research. Clinical research not only is the pathway for 
applying basic research findings, but it also often provides important 
insights and leads to further basic research opportunities. Additional 
funding is needed to sustain and enhance basic and clinical research 
activities, including increasing support for current researchers and 
promoting opportunities for new investigators and in those areas of 
science that historically have been underfunded.
    Ongoing efforts to reinvigorate research training, including 
developing expanded medical research opportunities for minority and 
disadvantaged students, continue to gain importance. For example, the 
volume of data being generated by genomics research, as well as the 
increasing power and sophistication of computing assets on the 
researcher's lab bench, have created an urgent need, both in academic 
and industrial settings, for talented individuals well-trained in 
biology, computational technologies, bioinformatics, and mathematics to 
realize the promise offered by modern interdisciplinary research.
    To move forward, it will be essential to maintain the talent base 
and infrastructure that has been created to date. Large fluctuations in 
funding will be disruptive to training, to careers, long range projects 
and ultimately to progress. The research engine needs a predictable, 
sustained investment in science to maximize our return.
    Further, NIH-supported research contributes to the Nation's 
economic strength by catalyzing private sector growth and creating 
skilled, high-paying jobs; new products and industries; and improved 
technologies. Industries and sectors that benefit include the high-
technology and high value-added pharmaceutical and biotechnology 
industries, among others. In particular, the NIH funds ``enabling 
science'' that explores and identifies discoveries at a point earlier 
than businesses often invest, stoking and sustaining the discovery 
pipeline.
    The investment in NIH not only is an essential element in restoring 
and sustaining both national and local economic growth and vitality, 
but also is essential to maintaining this Nation's prominence as the 
world leader in medical research. As Raymond Orbach, former Under 
Secretary for Science at the Department of Energy for President George 
W. Bush, noted in a recent editorial in Science, ``Other countries, 
such as China and India, are increasing their funding of scientific 
research because they understand its critical role in spurring 
technological advances and other innovations. If the United States is 
to compete in the global economy, it too must continue to invest in 
research programs.'' To succeed in the information-based, innovation 
driven world-wide economy of the 21st century, we must recommit to 
long-term sustained growth in medical research funding.
    The ravages of disease are many, and the opportunities for progress 
across all fields of medical science to address these needs are 
profound. In this challenging budget environment, we recognize the 
painful decisions Congress must make. The community appreciates that 
this subcommittee always has recognized that discoveries gained through 
basic research yield the medical advances that improve the fiscal and 
physical health of the country. Strengthening the Nation's commitment 
to medical research is the key to ensuring the future of America's 
medical research enterprise and the health of her citizens.
    The Ad Hoc Group for Medical Research respectfully requests that 
NIH be recognized as an urgent national priority as the subcommittee 
prepares the fiscal year 2012 appropriations bills.
                                 ______
                                 
          Prepared Statement of the AIDS Healthcare Foundation

    On behalf of the over 1 million Americans with HIV/AIDS, and the 
over 56,000 Americans who will become infected with HIV this year, AIDS 
Healthcare Foundation (AHF) submits the following recommendations and 
proposals for funding domestic HIV/AIDS programs for fiscal year 2012.
    AHF is the largest HIV/AIDS nonprofit in the United States. For 
over 20 years, it has delivered high quality medical care, pharmacy 
services, research, and HIV prevention and testing services throughout 
the country. It currently provides medical care to over 150,000 people 
with HIV/AIDS in 22 countries around the world.
    Based on this experience, it is clear to AHF that the battle 
against HIV/AIDS is winnable, and that the keys to winning this fight 
are:
    Find those Americans who have HIV, but don't know it.
    It is estimated that approximately 20 percent of all Americans who 
have HIV do not know they are infected. It is not surprising that this 
group unwittingly is the source of up to 70 percent of all HIV 
infections in the United States--if you don't know you have HIV, you 
don't take steps to protect others, and you don't get treatment.
    Provide AIDS drug treatment to all Americans with HIV/AIDS who need 
it.
    It cannot be stressed enough--treatment is prevention. AIDS 
treatment is one of the most effective tools we have to prevent new 
infections. The point of treatment is to reduce the amount of the HIV 
virus in a person. People with HIV/AIDS who are on treatment are less 
infectious, and simply are far less able to transmit the virus. AIDS 
treatment is 92 percent effective in preventing new infections.
    If we could find those who don't know they have HIV, and get them 
treatment, new HIV infections would plummet. Not only would these 
people be healthier and able to work and care for their families, but 
we would save tens of billions per year in future medical costs.
    Currently, there are approximately 56,000 new HIV infections in the 
United States every year. As the lifetime medical cost (the majority of 
which will be borne by the Federal Government via Medicare, Medicaid, 
or the Ryan White CARE Act) for each HIV infection is over $600,000, 
the United States accrues over $36 billion in future medical costs 
every year due to new HIV infections.
    Therefore, effectively battling the AIDS epidemic requires 
prioritizing scarce funds into two main areas: Testing (to find those 
who are unaware they have HIV) and treating (providing AIDS drugs and 
medical care to the newly diagnosed, to prevent new infections).
    AHF recognizes the prevailing economic and budget climate, and 
understands that finding new money to pay for these necessary programs 
is extremely challenging. AHF therefore makes the following 
recommendations that would free up existing funding to focus more on 
testing and treatment:
    Re-prioritize AIDS prevention funding within the Centers for 
Disease Control toward HIV testing.
    Yearly new HIV infections have not declined for well over a decade. 
As a result, it is time to re-think the CDC's approach to HIV 
prevention. In recent times CDC has spent approximately 30 percent of 
its HIV prevention budget on HIV testing. AHF recommends that, for 
fiscal year 2012 and beyond, the CDC be required to spend at least 50 
percent of its prevention budget on testing. The more tests the CDC 
performs, the more people who are unaware of their HIV status will be 
found, which is the first step in preventing new infections.
    Increase funding for the AIDS Drug Assistance Program (ADAP) by 
$108 million.
    ADAP is a lifeline for thousands of Americans who cannot afford 
AIDS treatment, which can cost well in excess of $12,000 per year. 
Nationwide, ADAP serves over 165,000 people, approximately one-third of 
all people on AIDS treatment in the United States.
    Ensuring access to treatment is the backbone in our fight against 
HIV/AIDS. Without treatment, people with AIDS become sicker. Without 
treatment, new infections will increase, and every new infection 
carries with over $600,000 in lifetime medical costs. For these 
reasons, it is of grave concern that access to care for thousands of 
Americans is now at risk.
    Currently, there are over 7,800 Americans on ADAP waiting lists 
across the country--7,800 people who cannot get access to these drugs 
due to budgetary constraints. This list continues to grow as infections 
continue, State financial support is reduced, and drug prices increase.
    To reverse this trend, AHF supports the consensus of the AIDS 
community that ADAP funding should be increased by $108 million for a 
total of $991 million. In the absence of new money, AHF proposes 
funding this increase via the following means:
    Implement administrative and overhead caps within CDC, HRSA, and 
NIH AIDS programs, and redirect the savings to ADAP.
    In tight budgetary times, Government must become more cost 
effective. Currently, Government agencies like HRSA require that 
contractors spend no more than 10 percent of grants on administrative 
overhead. These agencies, which are tasked with implementing ADAP and 
other AIDS programs, spend a combined $2.3 billion on administration 
and overhead. As a recipient of Government funds that has operated 
under these requirements, AHF submits that these caps should be applied 
to these agencies as well. Controlling administrative costs will free 
up money that can be spent on services, not bureaucracy.
    Secure additional drug price discounts/rebates from AIDS drug 
manufacturers.
    Drug price increases are one of the main causes of the current ADAP 
crisis. Additional discounts would mean ADAPs could serve everyone who 
needs it without new funding. Moreover, given the unique nature of 
ADAP, these discounts would not have any significant impact on drug 
company profitability, as they would not impact price calculations for 
other drug programs or reduce drug company revenues.
    AIDS Healthcare Foundation (AHF) supports increasing Federal 
funding for ADAP. However, additional funding must go hand in hand with 
changes to ADAP that protect the program from high drug prices. To 
achieve this, AHF proposes that for every dollar of additional Federal 
funding drug companies contribute $2 in additional rebates or price 
cuts. This would effectively triple the purchasing power of each 
additional ADAP dollar, and ensure the sustainability of this vital 
program. Congress can implement this solution by directing the 
Secretary of Health and Human Services to negotiate the drug company 
contribution as a condition of receiving new money for ADAP.
    Call for the National Institutes of Health to make an independent 
review of prevention interventions being supported by CDC to determine 
their effectiveness.
    Even though the AIDS epidemic is over 25 years old, there is still 
very little evidence concerning what prevention programs work, and are 
cost effective. In order to better target scarce resources to the most 
effective interventions, AHF recommends that $1 million of NIH's fiscal 
year 2012 AIDS research budget be spent on determining which HIV 
prevention methods are in fact cost-effective ways of reducing HIV 
infections.
    The implementation of the recommendations would forcefully re-
orient America's AIDS response in a way that would significantly reduce 
new infections, save billions of dollars, and improve the health of 
hundreds of thousands of Americans.
                                 ______
                                 
                   Prepared Statement of AIDS United

    On behalf of AIDS United and our diverse partner organizations I am 
pleased to submit this testimony to the Members of this Subcommittee on 
the urgency of needed funding for the fiscal year 2012 domestic HIV/
AIDS portfolio. AIDS United is a national organization that seeks to 
end the AIDS epidemic in the United States by combining private-sector 
fundraising, philanthropy, coalition building, public policy expertise, 
and advocacy--as well as a network of passionate local and State 
partners--to effectively and efficiently respond to the HIV/AIDS 
epidemic in the communities most impacted by it. Through its unique 
Community Partnerships program, Public Policy Committee and targeted 
special grant-making initiatives, AIDS United represents over 400 
grassroots organizations. These organizations provide HIV prevention, 
care, treatment, and support services to underserved individuals and 
populations most impacted by the HIV/AIDS epidemic including 
communities of color, women and people living with HIV/AIDS in the 
United States as well as education and training to providers of 
treatment services.
    June 5, 2011 marks the 30th year since the Centers for Disease 
Control and Prevention (CDC) reported the first cases of what later 
became identified as HIV disease. Sadly, the HIV/AIDS epidemic in the 
United States is characterized by needless mortality, inadequate access 
to care, persistent levels of new infection, and stark population and 
regional disparities. Although improved treatment has made it possible 
for people with HIV disease to lead longer and healthier lives, these 
stark realities remain.

HIV Remains a Major Public Health Danger
    More than 1.2 people are living with HIV or AIDS; nearly one-half 
living with HIV/AIDS are not in care.
    56,300 people are estimated to have been newly infected with HIV in 
the United States in 2006, the year for which the most recent data is 
available--one new infection every 9\1/2\ minutes. According to the 
Centers for Disease Control and Prevention (CDC) the HIV infection rate 
has not fallen in 16 years.
    There is neither a cure nor a vaccine for HIV and current 
treatments do not work for everyone.

HIV Severely Affects African Americans, Latinos, Women and Gay Men
    African Americans represent 13 percent of the United States 
population but nearly 50 percent of all newly reported HIV infections.
    Hispanics/Latinos represent 13 percent of the United States 
population but account for 18 percent of newly reported cases of HIV.
    The percentage of newly reported HIV/AIDS cases in the United 
States among women tripled from 8 percent to 27 percent between 1985 
and 2007. AIDS is a leading cause of death among black women aged 15-
54.
    Gay, bisexual, and other men who have sex with men, especially in 
communities of color, are the population most severely affected by HIV.
AIDS United Supports the Goals of the National HIV/AIDS Strategy
    The Federal Government has created a first ever National HIV/AIDS 
Strategy that commits to four basic goals: reducing the number of 
people who become infected with HIV; increasing access to care and 
optimizing health outcomes for people living with HIV; reducing HIV-
related health disparities; and achieving a more coordinated national 
response to the HIV Epidemic.
    AIDS United strongly supports achievement of these goals and 
strongly urges the Labor, Health and Human Services, and Education 
Subcommittee of the Senate Appropriations Committee to ensure that 
meeting these goals is a top priority. Unfortunately given the growth 
in the epidemic, meeting these goals, particularly lowering the new HIV 
infection rate, will require greater funding than has been made 
available. The Federal Government's commitment to HIV domestic funding 
is even more important this year as we see many States lowering their 
State funding contributions due to the economic realities States are 
facing. AIDS United strongly urges Congress to meet this challenge 
through the good work of this subcommittee and to recognize and address 
the true funding needs of the programs in the HIV/AIDS portfolio.

AIDS Budget and Appropriations Coalition HIV Community Fiscal Year 2012 
        Request (Increases Over Fiscal Year 2010)
    The HIV community has come together under the umbrella of the AIDS 
Budget and Appropriations Coalition with the community funding request 
for the HIV/AIDS domestic portfolio for fiscal year 2012, the 
comparisons are based on fiscal year 2010 finals. We fully understand 
the budgetary constraints that are impacting this time, but we feel it 
is imperative to let this subcommittee know of the true needs in the 
HIV community.
    HIV Prevention.--According to CDC estimates contained in the 
agency's 2009 HIV/AIDS Surveillance Report, since the beginning of the 
epidemic there have been 1,142,714 AIDS cases reported with a total of 
617,025 deaths in the United States. Based on previous CDC estimates 
more than 1.2 million people are living with HIV/AIDS and that an 
estimated 21 percent of people living with HIV are unaware of their HIV 
status and could unknowingly transmit the virus to another person. 
Prior to fiscal year 2010 funding had remained flat for more than 8 
years. As a result, grants to States and local communities have 
decreased significantly even as the United States seeks to increase 
prevention and testing services. To begin to reach the goals of the 
National HIV/AIDS Strategy the Congress must give the CDC the necessary 
funding to invest in meaningful prevention. AIDS United requests an 
increase of at least $57.2 million to $857.6 million in fiscal year 
2012 to address the true need of $1,324.6 billion.
    Education.--The National HIV/AIDS Strategy acknowledges the need to 
educate all Americans about the threat of HIV and how to prevent it. 
The United States must invest in programs that provide our young people 
with complete, accurate, and age-appropriate sex education that helps 
them reduce their risk of HIV, other STDs, and unintended pregnancy. 
AIDS United supports the Administration's teen pregnancy prevention 
initiative but urges Congress to find opportunities to fund true, 
comprehensive sex education that promotes healthy behaviors and 
relationships for all young people, including LGBT youth. Negative 
health outcomes are related to lack of knowledge and we must provide 
youth with the information and services they need to make responsible 
decisions about their sexual health. AIDS United requests that the teen 
pregnancy prevention initiative funding increase by $6.7 million to a 
level of $161.4 million. AIDS United also requests an increase of $10 
million, for a total of $50 million, for the Division of Adolescent and 
School Health's HIV Prevention Education at the CDC. AIDS United is 
pleased that the President's budget includes zero funding for failed 
abstinence-only-until-marriage programs and urges the subcommittee also 
to ensure that funding is not included for these ineffective programs.
    Policy Rider, Syringe Exchange.--CDC estimates that approximately 
13 percent of all HIV cases and 60 percent of all hepatitis C cases in 
the United States are related to intravenous drug use. Eight Federal 
studies and numerous scientific peer reviewed papers have conclusively 
established that syringe exchange programs reduce the incidence of HIV 
among people who inject drugs and their sexual partners and that 
syringe exchange reduces drug abuse. Syringe exchange programs connect 
people who use drugs to healthcare services including substance abuse 
treatment, HIV and viral hepatitis prevention services and testing, 
counseling, education, and support. AIDS United recommends that the 
Subcommittee maintain the current compromise language letting local 
jurisdictions make their own decision about using Federal funds to 
prevent HIV and viral hepatitis through the use of proven syringe 
exchange programs.
    HIV/AIDS Treatment.--The Ryan White HIV/AIDS Treatment Extension 
Act, administered by the Health Resources and Services Administration 
(HRSA) provides services to more than 529,000 people living with and 
affected by HIV throughout the United States and its territories. It is 
the largest source of Federal funding solely focused on the delivery of 
HIV services and has provided the framework for our national response 
to the HIV epidemic. In recent years, funding for the Ryan White 
Program has not kept pace with the growing epidemic leading to waiting 
lists and other cost containment measures for the AIDS Drug Assistance 
Program (ADAP), increasing wait times to receive medical appointments 
and loss of some support services. Ryan White Programs are designed to 
compliment each other. As such, all parts of the Ryan White Program 
require substantial increased funding to address the true needs of the 
hundreds of thousands of people living with HIV who are uninsured, 
underinsured, or who lack financial resources for healthcare and 
require Ryan White Program services. AIDS United recommends that the 
Ryan White Program funding level be increased by $369.7 million to a 
total of $2.686 billion in fiscal year 2012.
    Ryan White Programs, Part A.--This Part of the Ryan White Programs 
provides physician visits, laboratory services, case management, home-
based and hospice care, and substance abuse and mental health services 
in the jurisdictions most affected by HIV/AIDS. These core medical and 
supportive services are critical to ensuring patients have access to 
and can effectively utilize life-saving therapies. AIDS United 
recommends funding for Part A at $751.9 million, an increase of $73.8 
million in fiscal year 2012.
    Ryan White Programs, Part B (base).--This program ensures a 
foundation for HIV related healthcare services in each State and 
territory, including the critically important ADAP. Part B base grants 
(excluding ADAP). AIDS United recommends funding for Part B base grants 
at $495.0 million, an increase of $76.2 million in fiscal year 2012.
    Ryan White Programs, Part B (ADAP).--The AIDS Drug Assistance 
Program provides medications for treating people with HIV who cannot 
access Medicaid or private health insurance. According to the 2011 
National ADAP Monitoring Project, ADAP provided drugs to about 190,936 
clients in fiscal year 2009, including 33,672 new clients. As of April 
15, 2011, 11 State ADAPs had waiting lists of 7,885 individuals and an 
additional 8 States had taken or were considering taking cost-
containment measures. According to a respected pharmacoeconomic study 
that measures the funds needed to let State ADAPs provide a minimum 
clinical standard formulary the actual need for increases last year was 
more than $370.1 million. The community recognizes the difficult budget 
environment and asks for a much lower amount. AIDS United recommends 
$991 million, the authorized amount for ADAP, an increase of $131 
million, in fiscal year 2012.
    Ryan White Programs, Part C.--This Part awards grants to community-
based clinics and medical centers, hospitals, public health 
departments, and universities in 22 States and the District of Columbia 
under the Early Intervention Services program. These grants are 
targeted toward new and emerging sub-populations impacted by the HIV 
epidemic. Part C funds are particularly needed in rural areas where the 
availability of HIV care and treatment is still relatively new. AIDS 
United requests $272.2 million, the authorized amount for Part C an 
increase of $65.8 million, in fiscal year 2012.
    Ryan White Programs, Part D.--Part D awards grants under the 
Comprehensive Family Services Program to provide comprehensive care for 
HIV positive women, infants, children, and youth and their affected 
families. These grants fund the planning of services that provide 
comprehensive HIV care and treatment and the strengthening of the 
safety net for HIV positive individuals and their families. AIDS United 
requests $83.1 million, an increase of $5.5 million, for Part D.
    Ryan White Programs, Part F, the AIDS Education and Training 
Centers (AETCs).--The AETCs train Ryan White program doctors, advanced 
practice nurses, physicians' assistants, nurses, oral health 
professionals, and pharmacists about HIV treatment, testing, viral 
hepatitis and more. The AETCs also ensure that education is available 
to primary healthcare providers who do not specialize in HIV but are 
asked to treat the increasing numbers of HIV positive patients who 
depend on them for care. AIDS United requests a total of $50 million, a 
$15.2 million increase in fiscal year 2012.
    Ryan White Programs, Part F, Dental Care.--Dental care is a crucial 
service needed by people living with HIV disease. Oral health problems 
are often an early manifestation of HIV disease. Unfortunately oral 
health is often neglected by those who cannot afford, or do not have 
access to, proper medical care creating missed opportunities to find 
early HIV infections. AIDS United request $19 million, a $5.4 million 
increase, for this program in fiscal year 2012.
    Department of Health and Human Services, Minority AIDS 
Initiative.--The Minority AIDS Initiative directly benefits racial and 
ethnic minority communities that are the most deeply affected by HIV/
AIDS infection rates with grants to provide technical assistance, 
infrastructure support and strengthen the capacity of minority 
community based organizations to deliver high-quality HIV healthcare 
and supportive services. Communities of color are deeply affected by 
the HIV epidemic. The Minority AIDS Initiative funds needed programs 
throughout HHS agencies and is included in every Part of the CARE Act. 
It was authorized within the Ryan White Program for the first time in 
2006. AIDS United requests a total of $610 million for the Minority 
AIDS Initiative.
    HIV/AIDS Research.--Research to prevent, treat and ultimately cure 
HIV is vital to the domestic and global control of the disease. The 
United States through the National Institute of Health (NIH) must 
continue to take the lead in the research and development of new 
medicines to treat current and future strains of HIV. The NIH's Office 
of AIDS Research must continue its groundbreaking research in both 
basic and clinical science to develop a preventative vaccine, 
microbicides, and other scientific, behavioral, and structural HIV 
prevention interventions. Commitment to research will ultimately help 
to bring the epidemic under control decreasing the funds that must be 
spent on care and treatment of HIV. AIDS United requests that the NIH 
be funded at $35 billion in fiscal year 2012 and the AIDS portfolio be 
funded at $3.5 billion, a $410 million increase.
    The HIV epidemic is a continuing health crisis in the United 
States. We must expand resources for our domestic HIV prevention, 
treatment and care, and research efforts to meet the goals of the 
National HIV/AIDS Strategy. On behalf of our more than 400 
participating organizations, HIV positive Americans and those affected 
by this disease, AIDS United urges the subcommittee help us save lives 
by to fully funding the domestic response to the ongoing, tragic, HIV 
epidemic in the United States.
                                 ______
                                 
      Prepared Statement of the Adult Congenital Heart Association

Introduction
    The Adult Congenital Heart Association (ACHA)--a national non-for-
profit organization dedicated to improving the quality of life and 
extending the lives of adults with congenital heart disease (CHD)--is 
grateful for the opportunity to submit written testimony regarding 
fiscal year 2012 funding for congenital heart research and 
surveillance. We respectfully request $3 million for CHD surveillance 
at the Centers for Disease Control and Prevention (CDC) as well as 
additional CHD research at the National Heart, Lung and Blood Institute 
(NHLBI).

Adult Congenital Heart Disease
    Congenital heart defects are the most common group of birth defects 
occurring in approximately 1 percent of all live births, or 40,000 
babies a year. These malformations of the heart and structures 
connected to the heart either obstruct blood flow or cause it to flow 
in an abnormal pattern. This abnormal heart function can be fatal if 
left untreated. In fact, congenital heart defects remain the leading 
cause of birth defect related infant deaths.
    Many infants born with congenital heart problems require 
intervention in order to survive. Intervention often includes one or 
multiple open-heart surgeries; however, surgery is rarely a long-term 
cure. The success of childhood cardiac intervention has created a new 
chronic disease--CHD. Thanks to the increase in survival, of the nearly 
2 million people alive today with CHD, more than half are adults, 
increasing at an estimated rate of 5 percent each year. Few congenital 
heart survivors are aware of their high risk of additional problems as 
they age, facing high rates of neuro-cognitive deficits, heart failure, 
rhythm disorders, stroke, and sudden cardiac death, and many survivors 
require multiple operations throughout their lifetime. 50 percent of 
all congenital heart survivors have complex problems for which life-
long care from congenital heart specialists is recommended, yet less 
than 10 percent of adult congenital heart patients receive recommended 
cardiac care. Delays in care can result in premature death and 
disability. In adults, this often occurs during prime wage-earning 
years.

ACHA
    ACHA serves and supports the more than 1 million adults with CHD, 
their families and the medical community--working with them to address 
the unmet needs of the long-term survivors of congenital heart defects 
through education, outreach, advocacy, and promotion of ACHD research.
    In order to promote life-saving research and accessible, 
appropriate and quality interventions which, in turn, will reduce the 
public health burden of this chronic disease, ACHA advocates for 
adequate funding of CDC initiatives relating to CHD, and encourages 
funding within the National Institutes of Health (NIH) for CHD 
research. ACHA continues to work with Federal and State policy makers 
to advance policies that will improve and prolong the lives of those 
living with CHD.
    ACHA is also a founding member of the Congenital Heart Public 
Health Consortium (CHPHC). The CHPHC is a group of organizations 
uniting resources and efforts to prevent the occurrence of CHD and 
enhance and prolong the lives of those with CHD through targeted public 
health interventions by enhancing and supporting the work of the member 
organizations. Representatives of Federal agencies serve in an advisory 
capacity. In addition to ACHA, the Alliance for Adult Research in 
Congenital Cardiology, American Academy of Pediatrics, American College 
of Cardiology, American Heart Association, March of Dimes Foundation, 
National Birth Defects Prevention Network, and the National Congenital 
Heart Coalition are all members of the CHPHC.

Federal Support for Congenital Heart Disease Research and Surveillance
    Despite the prevalence and seriousness of the disease, CHD data 
collection and research are limited and almost non-existent for the 
adult CHD population. In 2004, the NHLBI convened a working group on 
CHD, which recommended developing a research network to conduct 
clinical research and establishing a national database of patients.
    In March 2010, the first CHD legislation passed as part of Patient 
Protection and Affordable Care Act (ACA).\1\ The ACA calls for the 
creation of The National Congenital Heart Disease Surveillance System, 
which will collect and analyze nationally representative, population-
based epidemiological and longitudinal data on infants, children, and 
adults with CHD to improve understanding of CHD incidence, prevalence, 
and disease burden and assess the public health impact of CHD. It also 
authorized the NHLBI to conduct or support research on CHD diagnosis, 
treatment, prevention and long-term outcomes to address the needs of 
affected infants, children, teens, adults, and elderly individuals. 
These provisions included in the ACA were originally in the Congenital 
Heart Futures Act (H.R. 1570/S.621, 111th Congress), which garnered bi-
partisan support in both the House and Senate and was championed by 
Senators Richard Durbin (D-IL) and Thad Cochran (R-MS), Representative 
Gus Bilirakis (R-FL) and former Representative Zack Space (D-OH).
---------------------------------------------------------------------------
    \1\ Patient Protection and Affordable Care Act, Sec. 10411(b).
---------------------------------------------------------------------------
    Recently, the National Center on Birth Defects and Developmental 
Disabilities included preventing congenital heart defects and other 
major birth defects, in its recently published 2011-2015 Strategic 
Plan, specifically recognizing the need for understanding the 
contribution of birth defects to longer term outcomes (i.e., beyond 
infancy) and the economic impact of specific birth defects.

The National Congenital Heart Disease Surveillance System at CDC
    As survival improves, so does the need for population-based 
surveillance across the lifespan. Funding to support the development of 
the National Congenital Heart Disease Surveillance System through both 
a pilot adult surveillance program, and the enhancement of the existing 
birth defects surveillance system will be instrumental in driving 
research, improving interventional outcomes, improving loss to care, 
and assessing healthcare burden. In turn, the National Congenital Heart 
Disease Surveillance System can serve as a model for all chronic 
disease states.
    The current surveillance system is grossly inadequate. There are 
only 14 States currently funded by the CDC to gather data on birth 
defects, presenting limitations in generalizing the information across 
the entire population. Thus, there are significant inconsistencies in 
the methods of collection and reporting across the various State 
systems which limits the value of the data. Given the absence of 
population-based data across the lifespan, the data we do have excludes 
anyone diagnosed after the age of one, as well as those who are lost to 
care. It is this population, those lost to care, that is of greatest 
concern, and most difficult to identify. Evidence indicates that those 
with CHD are at significant risk for heart failure, rhythm disorders, 
stroke, and sudden cardiac death as they age, requiring ongoing 
specialized medical care. For those who are lost to care, for reasons 
such as limited access to affordable or appropriate care or poor 
education about the need for ongoing care, they often return to the 
system with preventable advanced illness and/or disability. Population 
based surveillance across the life span is the only method by which 
these patients can be identified, and, as a result, appropriate 
intervention can be planned. ACHA is currently working with the CDC to 
address these concerns through the National Congenital Heart Disease 
Surveillance System.
    ACHA requests that Congress provide the CDC $3 million in fiscal 
year 2012 to support data collection to better understand CHD 
prevalence and assess the public health impact of CHD. This level of 
funding will support a pilot adult surveillance system and allow for 
the enhancement of the existing birth defects surveillance system.

Funding of Research Related to Congenital Heart Disease at NIH
    Our Nation continues to benefit from the single largest funding 
source for CHD research, the NIH. Yet, as a leading chronic disease, 
congenital heart research is significantly underfunded.
    The NHLBI supports basic and clinical research to establish a 
scientific basis for the prevention, detection, and treatment of 
congenital heart disease. The Bench to Bassinet Program is a major 
effort launched by the NHLBI to hasten the pace at which heart research 
on genetics and basic science can be developed into new treatments 
across the life span for people with congenital heart disease. The 
overall goal is to provide the structure to turn knowledge into 
clinical practice, and use clinical practice to inform basic research.
    ACHA urges Congress to support the NHLBI in efforts to continue its 
work with patient advocacy organizations, other NIH Institutes, and the 
CDC to expand collaborative research initiatives and other related 
activities targeted to the diverse life-long needs of individuals 
living with congenital heart disease.

Summary
    Thank you for the opportunity to highlight this important disease. 
We know that you face many difficult funding decisions for fiscal year 
2012 and hope that you consider addressing the life-long needs of those 
with CHD. By making an investment in the research and surveillance of 
CHD, the return will be seen through reduced healthcare costs, 
decreased disability and improved productivity in a population quickly 
approaching 2 million.
                                 ______
                                 
         Prepared Statement of the Alliance for Aging Research

    Chairman Harkin and members of the Subcommittee, for 25 years the 
not-for-profit Alliance for Aging Research has advocated for medical 
research to improve the quality of life and health for all Americans as 
we grow older. Our efforts have included supporting Federal funding of 
aging research by the National Institutes of Health (NIH), through the 
National Institute on Aging (NIA) and other NIH institutes and centers. 
The Alliance appreciates the opportunity to submit testimony 
highlighting the important role that the NIH plays in facilitating 
aging-related medical research activities and the ever more urgent need 
for increased Federal investment and focus to advance scientific 
discoveries to keep individuals healthier longer.
    Research toward healthier aging has never been more critical for so 
many Americans. In January 2011, the first of the baby boomers began 
turning age 65. Older Americans now make up the fastest growing segment 
of the population. According to the U.S. Census Bureau, the number of 
people age 65 and older will more than double between 2010 and 2050 to 
88.5 million or 20 percent of the population; and those 85 and older 
will increase three-fold, to 19 million, according to the U.S. Census 
Bureau. Late-in-life diseases such as type 2 diabetes, cancer, 
neurological diseases, heart disease, and osteoporosis are increasingly 
driving the need for healthcare services in this country. Many diseases 
of these aging are expected to become more prevalent as the number of 
older Americans increases. Preventing, treating or curing chronic 
diseases of the aging, is perhaps the single most effective strategy in 
reducing national spending on healthcare.
    Consider that the number of Americans age 65 and older with 
Alzheimer's disease is projected to more than double by 2030. A report 
in the Journal of Clinical Oncology projected cancer incidence will 
increase by about 45 percent from 2010-2030, accounted for largely by 
cancer diagnoses in older Americans and minorities, and by 2030, people 
aged 65 and older will represent 70 percent of all cancer diagnoses in 
the United States. Currently, the average 75-year old has three chronic 
health conditions and takes five prescription medications. Six 
diseases--heart disease, stroke, cancer, diabetes, Alzheimer's and 
Parkinson's diseases--cost the United States over $1 trillion each 
year. In the absence of new discoveries to better treat and prevent 
osteoporosis, it is estimated to cost the United States $25.3 billion 
per year by 2025. According to an Alzheimer's Association report from 
2010, research breakthroughs that slow the onset and progression of 
Alzheimer's disease could yield annual Medicare savings of $33 billion 
in 2020 and as much as $283 billion by 2050.
    The rising tide of chronic diseases of aging threatens to overwhelm 
the U.S. healthcare system in the coming years. Research which leads to 
a better understanding of the aging process and human vulnerability to 
age-related diseases could be the key to helping Americans live longer, 
more productive lives, and simultaneously reduce the need for care to 
manage costly chronic diseases. Scientists who study aging now 
generally agree that aging is malleable and capable of being slowed. 
Rapid progress in recent years toward understanding and making use of 
this malleability has paved the way for breakthroughs that could 
increase human health in later life by opposing the primary risk factor 
for virtually every disease we face as we grow older--aging itself. 
Better understating of this ``common denominator'' of disease could 
usher in a new era of preventive medicine, enabling interventions that 
stave off everything from dementia to cancer to osteoporosis. As we now 
confront unprecedented aging of our population and staggering increases 
in chronic age-related diseases and disabilities, a modest extensions 
of healthy lifespan could produce outsized returns of extended 
productivity, reduced caregiver burdens, lessened Medicare spending, 
and more effective healthcare in future years.
    The NIA leads national research efforts within the NIH to better 
understand the aging process and ways to better maintain the health and 
independence of Americans as they age. NIA is poised to accelerate the 
scientific discoveries. The science of aging is showing increasing 
power to address the leading public health challenges of our time. 
Leaders in the biology of aging believe it is now realistically 
possible to develop interventions that slow the aging process and 
greatly reduce the risk of many diseases and disabilities, including 
cancer, diabetes, Alzheimer's disease, vision loss and bone and joint 
disorders. While there has been great progress in aging research, a 
large gap remains between promising basic research and healthcare 
applications. Closing that gap will require considerable focus and 
investment. Key aging processes have been identified by leading 
scientists as potentially yielding crucial answers in the next 3-10 
years. These include stress response at the cellular level, cell 
turnover and repair mechanisms, and inflammation.
    A central theme in modern aging research--perhaps its key insight--
is that the mutations, diets, and drugs that extend lifespan in 
laboratory animals by slowing aging often increase the resistance of 
cells, and animals, to toxic agents and other forms of stress. These 
discoveries have two main implications, each of which is likely to lead 
to major advances in anti-aging science in the near future.
    First is the suggestion that stress resistance may itself be the 
facilitator (rather than merely the companion) of the exceptional 
lifespan in these animal models, hinting that studies of agents that 
modulate resistance to stress could be a potent source of valuable 
clinical leverage and preventive medicines. Second is the observation 
that the mutations that slow aging augment resistance to multiple 
varieties of stress--not just oxidation, or radiation damage, or heavy 
metal toxins, but rather resistance to all of these at the same time.
    The implication is that cells have ``master switches,'' which, like 
rheostats that can brighten or dim all lights in a room, can tweak a 
wide range of protective intracellular circuits to tune the rate of 
aging differently in long-lived versus short-lived individuals and 
species. If this is correct, research aimed at identifying these master 
switches, and fine-tuning them in ways that slow aging without unwanted 
side-effects, could be the most effective way to postpone all of the 
physiological disorders of aging through manipulation of the aging rate 
itself. Researchers have formulated, and are beginning to pursue, new 
strategies to test these concepts by analysis of invertebrates, cells 
lines, laboratory animals and humans, and by comparing animals of 
species that age more quickly or slowly.
    One hallmark of aging tissues is their reduced ability to 
regenerate and repair. Many tissues are replenished by stem cells. In 
some aged tissues, stem cell numbers drop. In others, the number of 
stem cells changes very little--but they malfunction. Little is 
currently known about these stem cell declines, but one suspected cause 
is the accumulation of ``senescent'' cells. Cellular senescence stops 
damaged or distressed cells from dividing, which protects against 
cancer. At advanced ages, however, the accumulation of senescent cells 
may limit regeneration and repair, a phenomenon that has raised many 
questions. Do senescent cells, for instance, alter tissue 
``microenvironments,'' such that the tissue loses its regenerative 
powers or paradoxically fuel the lethal proliferation of cancer cells?
    A robust research initiative on these issues promises to illuminate 
the roots of a broad range of diseases and disabling conditions, such 
as osteoporosis, the loss of lean muscle mass with age, and the age-
related degeneration of joints and spinal discs. The research is also 
essential for the development of stem cell therapies, the promise of 
which has generated much public excitement in recent years. This is 
because implanting stem cells to renew damaged tissues in older 
patients may not succeed without a better understanding of why such 
cells lose vitality with age. Importantly, research in this area would 
also help determine whether interventions that enhance cellular 
proliferative powers would pose an unacceptable cancer risk.
    Acute inflammation is necessary for protection from invading 
pathogens or foreign bodies and the healing of wounds, but as we age 
many of us experience chronic, low-level inflammation. Such insidious 
inflammation is thought to be a major driver of fatal diseases of 
aging, including cancer, heart disease, and Alzheimer's disease, as 
well as of osteoporosis, loss of lean muscle mass after middle age, 
anemia in the elderly, and cognitive decline after 70. Just about 
everything that goes wrong with our bodies as we age appears to have an 
important inflammatory component, and low-level inflammation may well 
be a significant contributor to the overall aging process itself. As 
the underlying mechanisms of age-related inflammation are better 
understood, researchers should be able to identify interventions that 
can safely curtail its deleterious effects beginning in mid-life, 
broadly enhancing later-life, and with negligible risk of side effects.
    While important advances have been made toward the goal of adding 
healthy years to life, it cannot be achieved in a timely way without 
significant financial support. In stark contrast to the rapidly rising 
costs of healthcare for the aging, we as a Nation are making a 
miniscule, and declining, investment in the prevention, treatment or 
cure of chronic diseases of aging. Out of each dollar appropriated to 
NIH only 3.6 cents goes toward supporting work of the NIA. Between 
fiscal year 2003 and fiscal year 2010, NIA-funded scientists saw a 
series of nominal increases and cuts that amounted to a 14.7 percent 
reduction in constant dollars. The November 11, 2010 issue of Nature 
notes that ``[a]lthough the funding situation is tight all around for 
NIH-supported investigators, the NIA is in an exceptional predicament . 
. . . As both the United States and global populations age, the 
prevalence of chronic diseases such as cancer, heart disease and 
diabetes will also grow, along with neurodegenerative ailments . . . 
The NIA deals with age-related aspects of all of these.''
    An increase in funding for aging research is urgently needed to 
enable scientists to capitalize on the field's recent exciting 
discoveries. Advocates for age-related diseases like Alzheimer's 
disease and cancer in the past have called for congressional 
appropriations of $2 billion annually in order to achieve major 
breakthroughs in treating and curing those diseases. Thus, a goal of $2 
billion annually in Federal funding for aging research on the basic 
underpinnings of aging over the next 3 to 10 years seems modest 
considering its great potential to lower overall disease risk 
(including Alzheimer's, cancer, and more) and add healthy years to 
life. For the NIA in particular, an increase in funding would enable 
flexibility in supporting high-quality grant proposals that fall within 
the 20th percentile of submitted grants. In recent years, the percent 
of grant applications receiving funding by the NIA has dropped 
precipitously and currently only the top 9 percent are being funded. 
This means that many valuable projects are being set aside due to 
budget constraints, and many talented scientists who might make major 
contributions to aging research are being dissuaded from making this 
their life's work.
    In addition to increased resources, the field would also benefit 
greatly from the creation of a trans-NIH initiative that could improve 
the quality and pace of research that advances the understanding of 
aging, its impact on age-related diseases, and the development of 
interventions to extend human healthspan. The initiative would be most 
effective if it included the representatives from the National 
Institute on Aging (NIA) and the major-disease focused institutes that 
have some role in aging research such as the National Institute of 
Neurological Disorders and Stroke (NINDS), National Heart, Lung, and 
Blood Institute (NHLBI), National Institute of Diabetes and Digestive 
and Kidney Diseases (NIDDK), and the National Cancer Institute (NCI).
    The field of aging research is poised to make transformational 
gains in the near future. Few if any areas for investing research 
dollars offer greater potential returns for public health. The Alliance 
for Aging Research supports funding the NIH at $35 billion in fiscal 
year 2012 with a minimum of $1.4 billion in funding for the NIA 
specifically. This level of support would allow the NIH and the NIA to 
adequately fund new and existing research projects, accelerating 
progress toward findings which could prevent, treat, slow the 
progression or even possibly cure conditions related to aging. With a 
Silver Tsunami of age driven chronic ailments looming as our population 
grows older, an increased emphasis on NIH's aging research activities 
has never been more urgent, with potential to impact so many Americans.
    The payoffs from such focused attention and investment would be 
large and lasting. Therapies that delay aging would lessen our 
healthcare system's dependence on the relatively inefficient strategy 
of trying to redress diseases of aging one at a time, often after it is 
too late for meaningful benefit. They would also address the fact that 
while advances in lowering mortality from heart attack and stroke have 
dramatically increased life expectancy, they have left us vulnerable to 
other age-related diseases and disorders that develop in parallel, such 
as Alzheimer's disease, diabetes, and frailty. Properly focused and 
funded research could benefit millions of people by adding active, 
healthy, and productive years to life. Furthermore, the research will 
provide insights into the causes of and strategies for reducing the 
periods of disability that generally occur at the end of life.
    Mr. Chairman, the Alliance for Aging Research thanks you for the 
opportunity to outline the challenges posed by the aging population 
that lie ahead as you consider the fiscal year 2012 appropriations for 
the NIH and we would be happy to furnish additional information upon 
request.
                                 ______
                                 
 Prepared Statement of the Alliance of Information and Referral Systems

    The Alliance of Information and Referral Systems (AIRS) thanks you 
for providing the opportunity to submit testimony as you consider an 
fiscal year 2012 Labor-HHS, Education Appropriations bill. AIRS is the 
national voice of Information and Referral/Assistance (I&R/A) services 
and we provide a professional umbrella for over 1,200 I&R/A providers 
in both public and private organizations. Our primary purpose for 
submitting this testimony is to urge you not to cut Title IIIB funding 
of the Older Americans Act (OAA) as this provides Federal funding to 
the States for I&R. President Obama's proposed fiscal year 2012 budget 
emphasizes an increase in funding of $48 million for Title IIIB of the 
OAA.
    Information and Referral brings people and services together. When 
people don't know where to turn, I&R/A is there for them. Last year, 
AIRS members answered more than 20 million calls for help. 
Comprehensive and specialized I&R/A programs help people in every 
community and operate as a critical component of the health and human 
services delivery system. I&R/A organizations have databases of 
programs and services and disseminate information through a variety of 
channels to individuals and communities. People in search of critical 
services such as, food, shelter, child care, work and job training, 
mental health support often do not know where to begin. More often than 
not, I&R/A organizations provide the answers.
    We encourage you to support a $48 million increase in funding for 
Title III of the Older Americans Act and at a very minimum, not cut 
funding for I&R/A services. Thank you for your consideration.
                                 ______
                                 
                   Prepared Statement of Alluviam LLC

    As a small business, we're writing to you today to bring to your 
attention what we feel is an urgent issue regarding the National 
Library of Medicine (NLM) decision to enter and unfairly compete with 
private industry in the market for software for firefighters and other 
emergency responders.
    It has come to our attention that NLM has been funding development 
of a software program (``WISER'') that they then give away at no cost 
to first responders. Apparently, NLM has been funding this effort for 
the last several years; in spite of the fact that there are at least 6 
other companies within this market segment that provide similar 
decision support tools for first responders, and have been doing so 
prior to NLM entering the marketplace.
    Providing government funding to a program that competes with an 
established segment of private industry kills jobs, stifles innovation 
and seems inherently unfair and contrary to the long term best interest 
of the emergency response community and a poor use of taxpayer money. 
With NLM's continued practices, there will cease to be any private 
industry R&D, innovation or other commercial investment in this market 
segment, effectively killing innovative technologies like ours, and the 
other companies currently providing products to this market. We have 
attempted to raise this issue to the attention of NLM without success, 
even though OMB circular A-76 (revised), supra note 182 at A-3 
articulates a ``Red Light for On-Line and Informational Government 
Activity: Principle 10: The government should exercise substantial 
caution in entering markets in which private-sector firms are active.''
    We feel that NLM is acting far outside its charter as a library 
information service. While we certainly applaud their efforts to 
provide concise and useful chemical and health related information to 
emergency responders and the public, it seems clear that with the 
development of software that they then give away, NLM has crossed the 
line of what it has been chartered to do, and is in conflict with OMB 
A-76, whose basic tenets are that ``in the process of governing, the 
Government should not compete with its citizens'' and that ``a 
commercial activity is not a governmental function.'' These principles 
provide fundamental policy direction to agencies that the Government 
should not be in the business of providing commercial goods and 
services in competition with private markets.
    We've attempted to contact NLM directly, but their position has 
been that they are fulfilling their duty of publishing Government 
information. We feel that developing and distributing analytical 
software, running focus groups to solicit user feedback, then promoting 
the software at the same industry trade shows that we attend is not 
consistent with publishing Government data. In fact, it is quite 
disingenuous, as if their intent was to publish the information, they 
could make the information widely available in any number of portable 
document or html formats that would be accessible from a range of 
devices, from laptops to smartphones, and would not put them in direct 
competition with private industry.
    The Government doesn't provide emergency responders free emergency 
response vehicles, protective clothing, respirators, radios or chemical 
detectors, and neither should the Government be competing with 
established private industry companies that are already providing 
decision support software to emergency responders. I'm sure that 
Microsoft would take umbrage with the Department of Commerce if 
Commerce decided to develop and then give away a free spreadsheet 
program simply because they thought it would benefit U.S. business.
    We respectfully request that you look into defunding this NLM 
program and get NLM out of the business of competing with private 
industry for this type of software. Since NLM started promoting their 
software, we've had existing customers and potential clients wonder why 
they should pay for software that NLM makes available for free.
    By way of background, as part of the Homeland Security Act of 2002, 
Public Law 107-296, known as the SAFETY ACT, Congress passed the Act as 
a mechanism to foster and support the development of innovative and 
effective anti-terrorism technology. Today, our company is one of a few 
companies in the United States that has a CBRNE/IED decision support 
system that has earned SAFETY ACT certification and designation as an 
approved anti-terrorism technology. We've spent over 5 years, and 
nearly 25,000 man hours--all at our own private expense, developing, 
fielding and deploying our technology. Today our technology, 
HazMasterG3 is deployed with the FBI, the Secret Service Presidential 
Protective Detail, every CST/WMD team in the country, the USMC's CBIRF, 
DHS, US Special Forces, and many civilian fire departments, HAZMAT 
teams and bomb squads throughout the United States.
                                 ______
                                 
    Prepared Statement of the American Academy of Family Physicians

    The American Academy of Family Physicians representing 97,600 
family physicians, residents, and medical students nationwide, is 
pleased to submit this statement for the record in support of our 
funding priorities for inclusion in the fiscal year 2012 appropriations 
bill.
    The AAFP urges the Senate Appropriations Subcommittee on Labor, 
Health and Human Services, and Education to make a robust fiscal year 
2012 investment in our Nation's primary care physician workforce in 
order to ensure that it is adequate to provide efficient, effective 
healthcare delivery addressing access, quality and value.
    We recognize the difficult decisions which our Nation's budgetary 
pressures present and remain confident that wise Federal investment 
will help to transform healthcare to achieve optimal, cost-efficient 
health for everyone. Specifically, we recommend that the Committee 
provide the Health Resources and Services Administration and the Agency 
for Healthcare Research and Quality with the fiscal year 2012 funding 
levels called for in the President's budget request.
Health Resourses and Services Administration
    HRSA is the Federal agency chiefly responsible for improving access 
to healthcare services for Americans who are uninsured, isolated or 
medically vulnerable. HRSA's mission also calls for a skilled health 
workforce, and the AAFP supports their efforts to train the necessary 
primary care physician workforce. Primary care physicians will serve as 
a strong foundation for a more efficient and effective healthcare 
system.
    The AAFP recommends that the Committee provide at least $449.5 
million for all of the Health Professions Training Programs authorized 
by Title VII of the Public Health Service Act and administered by the 
Health Resources and Services Administration (HRSA) as requested in the 
President's fiscal year 2012 budget.
    Within that line, we urge you to provide at least:
  --$140 million for Health Professions Primary Care Training and 
        Enhancement authorized under Title VII, Section 747 of the 
        Public Health Service Act;
  --$10 million for Teaching Health Centers development grants 
        authorized by Title VII, Section 749A; and
  --$4 million for Title VII, Section 749B Rural Physician Training 
        Grants.
            Title VII Health Professions Training Programs
    As the only medical specialty society devoted entirely to primary 
care, the AAFP appreciates this Committee's commitment to a strong 
primary care physician workforce. We are concerned that a failure to 
provide adequate funding for the Title VII, Section 747, the Primary 
Care Training and Enhancement (PCTE) program, would destabilize ongoing 
efforts to increase education and training support for family 
physicians, exacerbating primary care shortages and further straining 
the Nation's healthcare system.
    Title VII, Section 747 primary care training grants to medical 
schools and residency programs have for decades helped to increase the 
number of physicians who select primary care specialties and work in 
underserved areas. A study published in the Annals of Family Medicine 
on the impact of Title VII training programs on community health center 
staffing and national health service corps participation found that 
physicians who work with the underserved in CHCs and NHSC sites are 
more likely to have trained in Title VII-funded programs.\1\ Title VII 
primary care training grants are vital to departments of family 
medicine, general internal medicine, and general pediatrics; strengthen 
primary care curricula; and offer incentives for training in 
underserved areas.
---------------------------------------------------------------------------
    \1\ Rittenhouse DR, et al. Impact of Title VII training programs on 
community health center staffing and National Health Service Corps 
participation. Ann Fam Med. 2008;6(5):397-405.
---------------------------------------------------------------------------
    In the coming years, medical services utilization is likely to rise 
given the increasing and aging population as well as the insured status 
of more of the populace. These demographic trends will cause primary 
care physician shortages to worsen. We urge the Committee to increase 
the level of Federal funding for primary care training to reinvigorate 
medical education, residency programs, as well as academic and faculty 
development in primary care to prepare physicians to support the 
patient centered medical home.
            Teaching Health Centers
    The AAFP has long called for reforms to graduate medical education 
programs in order to encourage the training of primary care residents 
in non-hospital settings where most primary care is delivered. An 
excellent first step is the innovative Teaching Health Centers program 
authorized under Title VII, Section 749A to increase primary care 
physician training capacity now administered by HRSA.
    Federal financing of graduate medical education has led to training 
which occurs mainly in hospital inpatient settings in spite of the fact 
that most patient care is delivered outside of hospitals in ambulatory 
settings across the Nation. The Teaching Health Center program provides 
resources to any qualified community based ambulatory care setting that 
operates a primary care residency program including federally Qualified 
Health Centers or federally Qualified Health Centers Look Alikes, Rural 
Health Clinics, Community Mental Health Centers, a Health Center 
operated by the Indian Health Service, or a center receiving Title X 
grants.
    We were pleased that the Patient Protection and Affordable Care Act 
authorized a mandatory appropriations trust fund of $230 million over 5 
years to fund the operations of Teaching Health Centers. However, if 
this program is to be effective, there must be funds for the planning 
grants to establish newly accredited or expanded primary care residency 
programs.
            Rural Health Needs
    Another important HRSA Title VII grant program is the Rural 
Physician Training Grants program to help medical schools to recruit 
students most likely to practice medicine in rural communities. This 
modest program authorized by Title VII, Section 749B will help provide 
rural-focused training and experience and increase the number of recent 
medical school graduates who practice in underserved rural communities.
            National Health Service Corps
    The National Health Service Corps (NHSC) recruits and places 
medical professionals in Health Professional Shortage Areas to meet the 
need for healthcare in rural and medically underserved areas. The NHSC 
provides scholarships or loan repayment as incentives for practitioners 
to enter primary care and provide healthcare to Americans in Health 
Professional Shortage Areas. By addressing medical school debt burdens, 
the NHSC also helps to ensure wider access to medical education 
opportunities.
    The Government Accountability Office (GAO-01-1042T) described the 
NHSC as ``one safety-net program that directly places primary care 
physicians and other health professionals in these medically needy 
areas.'' Currently most of the more than 7 million people who rely on 
NHSC clinicians for their healthcare needs would not have access to 
care without the NHSC.
    Since its inception in 1972, the NHSC has helped place 37,000 
primary care health professionals in underserved communities across the 
country, many of whom remain in these areas following the completion of 
their service. According to the fiscal year 2009 Health Resources and 
Services Administration budget justification, over 75 percent of the 
clinicians placed by the NHSC in underserved areas continued to serve 
in their position for at least 1 year after the completion of their 
service obligation.
    Today, there are over 9,000 vacancies at NHSC approved sites across 
the country with more added every day, yet funding is inadequate to 
fill all of these needed slots.
    The AAFP recommends that Committee provide at least the President's 
requested level of $418.5 million for the National Health Service Corps 
for fiscal year 2012 to include $295 million in funds made available 
for NHSC operations, scholarships and loan repayments by the Affordable 
Care Act.

Agency for Heatlhcare Research and Quality
    The mission of the Agency for Healthcare Research and Quality 
(AHRQ)--to improve the quality, safety, efficiency, and effectiveness 
of healthcare for all Americans--closely mirrors the AAFP's own 
mission. AHRQ is a small agency with a huge responsibility for research 
to support clinical decisionmaking, reduce costs, advance patient 
safety, decrease medical errors and improve healthcare quality and 
access. Family physicians recognize that AHRQ has a critical role to 
play in patient-centered outcomes research also known as comparative 
effectiveness research.
            Patient-Centered Outcomes Research
    AHRQ's investment in patient-centered outcomes research will help 
Americans make the informed decisions we must make to focus on paying 
for quality rather than quantity. By determining what has limited 
efficacy or does not work, this important research can spare patients 
from tests and treatments of little value. Today, patients and their 
physicians face a broad array of diagnostic and treatment options 
without the scientific evidence needed to know what procedure or which 
drug is most likely to succeed or how best to time a given therapy. 
AHRQ is supporting research to answer those questions so that 
physicians and their patients can make the choices about care that are 
most likely to succeed. AHRQ also supports the essential research into 
the prevention of medical errors and reducing hospital-acquired 
infections.
            Medical Liability Demonstrations
    Solving the professional medical liability has long been one of the 
AAFP's highest priorities. Although the medical liability 
demonstrations announced by AHRQ in fiscal year 2010 are quite modest, 
we support the effort to find alternatives to the current medical tort 
system.
            Primary Care Extension Program
    The AAFP supports the Primary Care Extension Program to be 
administered by AHRQ to provide support and assistance to primary care 
providers about evidence-based therapies and techniques so that 
providers can incorporate them into their practice. As AHRQ develops 
more scientific evidence on best practices and effective clinical 
innovations, the Primary Care Extension Program will disseminate them 
to primary care practices across the Nation in much the same way as the 
Federal Cooperative Extension Service provides small farms with the 
most current information and guidance.
    The AAFP recommends that the Committee provide at least $405 
million for AHRQ in fiscal year 2012. In addition, we ask that the 
Primary Care Extension program receive the authorized level of $120 
million in fiscal year 2012.
                                 ______
                                 
   Prepared Statement of the American Academy of Physician Assistants

    On behalf of the nearly 80,000 clinically practicing physician 
assistants in the United States, the American Academy of Physician 
Assistants is pleased to submit comments on fiscal year 2012 
appropriations for Physician Assistant (PA) educational programs that 
are authorized through Title VII of the Public Health Service Act.
    AAPA believes that the Title VII Health Professions Programs are 
essential to placing health professionals in medically underserved 
communities. According to the Health Resources and Services 
Administration, an additional 301,000 healthcare practitioners are 
needed to alleviate existing professional shortages. One of three 
healthcare professions providing primary medical care in the United 
States, the PA profession is deemed by many economists to be among the 
fastest growing professions. Title VII will not only encourage greater 
numbers of students to enter PA educational programs; it will also help 
increase access to care for millions of Americans who live in medically 
underserved areas.
    As a member of the Health Professions and Nursing Education 
Coalition (HPNEC), AAPA respectfully supports the coalition's request 
to fund Title VII health professions education program at the 
President's request of $449,454,000.
    AAPA recommends that Congress continue its support to grow the PA 
primary care work force. The U.S. healthcare system will require a 
much-expanded primary healthcare workforce, both in the private and 
public healthcare markets. For example, the National Association of 
Community Health Centers' March 2009 report, Primary Care Access: An 
Essential Building Block of Health Reform, predicts that in order to 
reach 30 million patients by 2015, health centers will need at least an 
additional 15,585 primary care providers, just over one-third of whom 
are non-physician primary care professionals.
    A review of PA graduates from 1990-2009 demonstrates that PAs who 
have graduated from PA educational programs supported by Title VII are 
67 percent more likely to be from underrepresented minority populations 
and 47 percent more likely to work in a rural health clinic than 
graduates of programs that were not supported by Title VII. 
Additionally, a study by the UCSF Center for California Health 
Workforce Studies found a strong association between physician 
assistants exposed to Title VII during their PA educational preparation 
and those who reported working in a federally qualified health center 
or other community health center.
    Title VII programs are essential to the development and training of 
primary healthcare professionals and, in turn, provide increased access 
to care by promoting healthcare delivery in medically underserved 
communities. Title VII funding is especially important for PA programs 
as it is the only Federal funding available on a competitive 
application basis to these programs.
    We wish to thank the members of this subcommittee for your 
historical role in supporting funding for the health professions 
programs, and we hope that we can count on your support to maintain 
funding to these important programs in fiscal year 2011 at the 
President's request.

Overview of Physician Assistant Education
    Physician assistant educational programs are located within schools 
of medicine or health sciences, universities, teaching hospitals, and 
the Armed Services. All PA educational programs are accredited by the 
Accreditation Review Commission on Education for the Physician 
Assistant.
    The typical PA program consists of 26 months of instruction, and 
the typical student has a bachelor's degree and about 4 years of prior 
healthcare experience. The first phase of the program consists of 
intensive classroom and laboratory study. More than 400 hours in 
classroom and laboratory instruction are devoted to the basic sciences, 
with over 75 hours in pharmacology, approximately 175 hours in 
behavioral sciences, and nearly 580 hours of clinical medicine.
    The second year of PA education consists of clinical rotations. On 
average, students devote more than 2,000 hours, or 50 to 55 weeks, to 
clinical education, divided between primary care medicine--family 
medicine, internal medicine, pediatrics, and obstetrics and 
gynecology--and various specialties, including surgery and surgical 
specialties, internal medicine subspecialties, emergency medicine, and 
psychiatry. During clinical rotations, PA students work directly under 
the supervision of physician preceptors, participating in the full 
range of patient care activities, including patient assessment and 
diagnosis, development of treatment plans, patient education, and 
counseling.
    After graduation from an accredited PA program, physician 
assistants must pass a national certifying examination developed by the 
National Commission on Certification of Physician Assistants. To 
maintain certification, PAs must log 100 continuing medical education 
hours every 2 years, and they must take a recertification exam every 6 
years.

Physician Assistant Practice
    By design, PAs always practice in teams with physicians, extending 
the reach of medicine and the promise of improved health to the most 
remote and in-need communities in our Nation. The PA profession's 
patient-centered, team-based approach reflects the changing realities 
of healthcare delivery and fits well into the patient-centered medical 
home model of care, as well as other integrated models of care 
management.
    PAs practice in various medical setting across the country and in a 
recent survey conducted by the AAPA it is estimated that:
  --Nineteen percent of all PAs practice in non-metropolitan areas 
        where they may be the only full-time providers of care (State 
        laws stipulate the conditions for remote supervision by a 
        physician);
  --41 percent of PAs work in urban and inner city areas;
  --40 percent of PAs are in primary care;
  --44 percent of PAs worked in group practices or solo physician 
        offices: and
  --80 percent of PAs practice in outpatient settings.
    Nearly 300 million patient visits were made to PAs in 2009. PAs 
often provide autonomous medical care, have their own patient panels, 
and are granted prescribing authority in all 50 States.

Critical Role of Title VII Public Health Service Act Programs
    Title VII programs promote access to healthcare in rural and urban 
underserved communities by supporting educational programs that train 
health professionals in fields experiencing shortages, improve the 
geographic distribution of health professionals, increase access to 
care in underserved communities, and increase minority representation 
in the healthcare workforce.
    Title VII programs are the only Federal educational programs that 
are designed to address the supply and distribution imbalances in the 
health professions. Since the establishment of Medicare, the costs of 
physician residencies, nurse training, and some allied health 
professions training have been paid through Graduate Medical Education 
(GME) funding. However, GME has never been available to support PA 
education. More importantly, GME was not intended to generate a supply 
of providers who are willing to work in the nation's medically 
underserved communities--the purpose of Title VII.
    Furthermore, Title VII programs seek to recruit students who are 
from underserved minority and disadvantaged populations, which is a 
critical step toward reducing persistent health disparities among 
certain racial and ethnic U.S. populations. Studies have found that 
health professionals from disadvantaged regions of the country are 
three to five times more likely to return to underserved areas to 
provide care.

Title VII Support of PA Educational Programs
    Federal support for Title VII is authorized through section 747 of 
the Public Health Service Act. It is the only Federal funding available 
to PA educational programs. This funding is specifically targeted for 
primary care education and training programs and is designed to train 
PAs for practice in urban or rural medically underserved areas. The 
program is essential to the development and training of the Nation's 
health workforce and is critical to providing continued health services 
to both underserved and minority communities. It also encourages PAs to 
return to these environments with the greatest need after they have 
completed their training, being one of the best recruitment tools to 
date.
    Title VII was last reauthorized in 2010 under the Patient 
Protection and Affordable Care Act. Now there is a critical need to 
fund the Title VII program through the appropriations process to 
increase the supply, diversity, and distribution of PAs and primary 
care practitioners in medically underserved communities.
    Support for educating PAs to practice in underserved communities is 
particularly important given the market demand for physician 
assistants. Without Title VII funding to expose students to underserved 
sites during their training, PA students are far more likely to 
practice in the communities where they were raised or attended school. 
Title VII funding is a critical link in addressing the natural 
geographic maldistribution of healthcare providers by exposing students 
to underserved sites during their training, where they frequently 
choose to practice following graduation. Currently, 36 percent of PAs 
met their first clinical employer through their clinical rotations.
    Changes in the healthcare marketplace reflect a growing reliance on 
PAs as part of the healthcare team. Currently, the supply of physician 
assistants is inadequate to meet the needs of society, and the demand 
for PAs is expected to increase. A 2006 article in the Journal of the 
American Medical Association (JAMA) concluded that the Federal 
Government should augment the use of physician assistants as physician 
substitutes, particularly in urban Community Health Centers (CHCs) 
where the proportional use of physicians is higher. The article 
suggested that this could be accomplished by adequately funding Title 
VII programs. Additionally, the Bureau of Labor Statistics projects 
that the number of available PA jobs will increase 39 percent between 
2008 and 2018.
    Title VII funding has provided a crucial pipeline of trained PAs to 
underserved areas. Recognizing that the PA educational programs 
received significantly less funding than other programs in the cluster 
on primary care medicine and dentistry, the 111th Congress established 
a 15 percent set-aside for PA education within the section 747 cluster 
on primary care during reauthorization of the Title VII Programs.

Recommendations on Fiscal Year 2012 Funding
    The American Academy of Physician Assistants urges members of the 
Appropriations Committee to consider the inter-dependency of all public 
health agencies and programs when determining funding for fiscal year 
2012. For instance, while it is critical, now more than ever, to fund 
clinical research at the National Institutes of Health (NIH) and to 
have an infrastructure at the Centers for Disease Control and 
Prevention (CDC) that ensures a prompt response to an infectious 
disease outbreak or bioterrorist attack, the good work of both of these 
agencies will go unrealized if the Health Resources and Services 
Administration (HRSA) is inadequately funded.
    HRSA administers the ``people'' programs, such as Title VII, that 
bring the results of cutting edge research at NIH to patients through 
providers such as PAs who have been educated in Title VII-funded 
programs. Likewise, the CDC is heavily dependent upon an adequate 
supply of healthcare providers to be sure that disease outbreaks are 
reported, tracked, and contained.
    Thank you for the opportunity to present the American Academy of 
Physician Assistants' views on fiscal year 2012 appropriations.
                                 ______
                                 
      Prepared Statement of the American Academy of Sleep Medicine

    Dear Chairman Harkin and Members of the Committee: The American 
Academy of Sleep Medicine (AASM), an organization composed of over 
9,700 sleep care professionals and the accrediting agent for over 2,200 
accredited sleep care centers, is pleased to provide our views on the 
HHS research budget for fiscal year 2012. As the leader in setting 
standards and promoting excellence in evidence-based sleep medicine 
healthcare, education, and research, we can attest to the fact that the 
work of the National Institutes of Health (NIH) has proven to be vital 
in allowing our members to provide effective sleep care services.
    The AASM supports funding levels for the NIH that will allow the 
careful continuation of the current research agenda. Savings should be 
realized from speeding the research process, vigilant screening of new 
research proposals, and an honest examination of spending for ongoing 
research. Key criteria in reviewing ongoing research should include 
both the potential patient benefit and whether a stoppage today will 
result in a restart on some future tomorrow that will duplicate the 
initial research and correspondingly duplicate the previously incurred 
expenses.
    Even in this economic climate, the value of the NIH as an incubator 
for advancing scientific and healthcare knowledge has to be recognized. 
Efforts need to be made to continue spending that: Enhances our ability 
to identify and provide beneficial patient care services; moves 
information from the white coats of the research laboratory to the 
white coats at the patient's bedside; and ensures a continual pipeline 
of research professionals.
    Even with this realization, however, we are not blind to the 
reality of the need to pare the Federal budget. We accept the fact that 
the totality of NIH spending is not immune to budget cuts. The key in 
looking at this budget is to take steps that do not fall into the 
category of being unexamined cuts that are made without taking into 
account the repercussions of these budget-based actions. While across-
the-board cuts provide a clean and arguably simple process for trimming 
the budget, taking a budget axe to the NIH has the very real counter-
productive potential of stopping prominent, patient oriented research 
in mid-stream and creating a gap in the research field. These 
unintended consequences carry significant negative implications that 
our patients and our society can ill afford.
    Examples of ongoing sleep related and other research recently 
funded by the NIH illustrate the difficulty of budget slashing that 
fails to take into account the three above noted bullet points. The 
sleep related research identified at this site (set out below) provides 
clear examples of ongoing research with indisputable patient care 
implications. This is the type of research that needs to be completed 
and not simply restarted at some future point with duplicated expenses. 
It also bears noting that the research funding on the connection 
between sleep apnea treatment and cardiovascular disease resulted in 12 
new jobs. These are the types of jobs that build the cadre of future 
key researchers. The importance of this cannot go unnoticed. For the 
future vitality of our society, we can ill afford another ``Sputnik 
moment'' by failing to maintain the research pipeline and the personnel 
that are essential to its maintenance and growth.
    The American Academy of Sleep Medicine urges careful consideration 
when addressing budget issues; the Academy is available as a resource 
on how those issues are connected with care for patients with sleep 
disorders. Please feel free to direct questions for the AASM to Bruce 
Blehart, Director of Health Policy and Government Relations, at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e8aaaa848d80899a9ca889899b85868d9cc6879a8fc6">[email&#160;protected]</a>

Nirinjini Naidoo, Ph.D.
Research Assistant Professor of Medicine, University of Pennsylvania, 
        Philadelphia, PA
Biomarker for Sleep Loss: A Proteomic Determination
Administered by the NHLBI Division of Lung Diseases, Lung Biology and 
        Disease Branch
Fiscal Year 2009 Recovery Act Funding: $500,000
Additional Funding
    Biomarker for Sleep Loss: A Proteomic Determination
    Administered by the NHLBI Division of Lung Diseases, Lung Biology 
and Disease Branch
    Fiscal Year 2010 Recovery Act Funding: $500,000
    Total funding: $1,000,000
    Dr. Nirinjini Naidoo grew up in South Africa, where she drew daily 
inspiration from her family. Her father, a classical scholar, fed the 
young Dr. Naidoo's desire to read voraciously. Over time, she was drawn 
to books about energetic, creative women in science like Marie Curie 
and Rosalind Franklin. ``Those stories really stuck with me,'' Dr. 
Naidoo said, noting that she is intensely curious and always ``wants to 
know.'' The attributes suit her well as a frontier scientist in the 
world of sleep research. They may be at odds with her getting sleep, 
though, she admitted. ``I sometimes wake up at 3 a.m. and send myself 
an e-mail about a newly hatched experiment.''
    Research Focus.--Humans spend about one-third of their lives 
asleep. But according to Dr. Naidoo, many of us do not appreciate that 
sleep is a vital part of healthy living and that our bodies accomplish 
several important tasks during that time. ``Sleep is definitely not 
just an `off' state,'' Dr. Naidoo said. ``Research is telling us that 
our bodies are actually very busy when we sleep--re-stocking cellular 
components, consolidating memories, and strengthening connections 
between nerve cells in the brain.'' Dr. Naidoo's research interest in 
sleep came fairly recently. A chemist who specializes in studying the 
structures and functions of proteins, she did postdoctoral research in 
the area of circadian rhythms--the 24-hour cycles that tune body 
systems with the light-and-dark cycle of our environment. Matching her 
scientific skills to what she saw as a fascinating question, Dr. Naidoo 
decided to look at the molecular features of sleep. What proteins are 
talking to each other? Which genes and molecules are active . . . or 
asleep themselves?
    Grant Close-Up.--Dr. Naidoo's Recovery Act grant is a comprehensive 
search for ``biomarkers'' of sleep loss. Biomarkers are substances that 
indicate a particular state or process. They can be used to signify 
health problems--high cholesterol is one, for example. Or, biomarkers 
can denote a normal activity, like growth or sleep. But as useful as 
they sound, accurate biomarkers can be very difficult to find. That's 
because so many factors can affect how the body functions: our diet, 
whether we exercise, what medicines we take, and our genetic make-up. 
All these components can influence body systems independently of each 
other, which makes finding telltale biomarkers challenging.
    You could think of Dr. Naidoo's approach as a variant on the 
childhood matching game ``same and different.'' In earlier experiments, 
she and other researchers identified people who were different types of 
sleepers. Some recovered quickly and fully from sleep deprivation and 
could easily pass a question-and-answer knowledge test. Others, Dr. 
Naidoo explained, reacted very differently and made several mistakes on 
the same relatively simple test. In that earlier experiment, she and 
leading sleep researcher Allan I. Pack, Ph.D., also at the University 
of Pennyslvania, collected blood samples from all the study 
participants. They will now use a high-tech chemical analytical tool 
called mass spectrometry to search for molecules that differ between 
the two different types of sleepers.
    After 2 years, Dr. Naidoo plans to have a profile of sleepiness--a 
snapshot of all the proteins and other molecules in blood that define 
sleepy or non-sleepy. In general, biomarkers can useful non-invasive 
tools for detecting illness and spotting disease risk. She hopes the 
sleep biomarkers will help researchers and physicians track sleep 
deprivation or the role of sleep loss in various diseases.
    Economic Impact.--Dr. Naidoo used Recovery Act funds to buy several 
pieces of state-of-the-art scientific equipment, such as a powerful 
microscope and machines that screen blood and other fluids for their 
component proteins. She is especially excited about the fact that this 
funding is enabling her to bring new blood into the field of sleep 
research. ``One of my new research specialists working on this 
project--a recent chemistry graduate--is now applying to graduate 
school to study sleep,'' said Dr. Naidoo. ``It's so important that we 
get new thinking and new methods into understanding one of the most 
fundamental processes in our daily lives.''

      By Alison Davis, Ph.D.--Last Updated: August 10, 2010

Susan Redline, M.D., M.P.H.
Professor, Case Western Reserve University, Cleveland, Ohio
PHASE II Trial of Sleep Apnea Treatment to Reduce Cardiovascular 
        Morbidity

Administered by the NHLBI Division of Lung Diseases, National Center on 
        Sleep Disorders Research
Fiscal Year 2009 Recovery Act Funding: $2,190,865
    Research Focus.--More than 12 million American adults have sleep 
apnea, a disorder where breathing repeatedly pauses or becomes shallow 
during sleep. The condition can double or even quadruple a person's 
risk of heart disease, high blood pressure, and stroke. Despite sleep 
apnea's prevalence and risks, an estimated 1 in 10 patients isn't 
diagnosed or treated. One reason for the low treatment rate is that 
doctors lack evidence about which sleep apnea therapies actually reduce 
cardiovascular disease risk. On top of that, some patients who do get 
diagnosed may not follow through with their prescribed treatment 
because they think it's uncomfortable or awkward-looking.
    Grant Up Close.--Supported by an NHLBI Recovery Act funded Grand 
Opportunity grant, Susan Redline, M.D., M.P.H., is leading the first 
large-scale study in the United States to determine whether two common 
sleep apnea treatments reduce patients' risk of cardiovascular disease. 
Her team is recruiting 1,400 cardiovascular clinic patients who have 
moderate to severe sleep apnea and monitoring their sleep at home.
    One group of patients will receive extra oxygen at night. Dr. 
Redline wants to know if this simple therapy reduces the health risks 
of sleep apnea by compensating for lost breaths, or raises the risks by 
not increasing patients' breath rates. A second group of patients will 
receive another common sleep apnea treatment, continuous positive 
airway pressure (CPAP), in which a machine blows air into the throat 
each night through a mask worn over the nose and mouth. Although both 
CPAP and oxygen therapy are widely used, researchers haven't yet 
established whether using them to treat sleep apnea reduces 
cardiovascular disease risk. Dr. Redline's team will conduct 
comparative effectiveness research into the two treatments. A third 
group of patients will not undergo sleep apnea treatment.
    All three groups will have their early signs of cardiovascular 
disease treated. Together, these groups will help Dr. Redline's team 
begin to determine whether treating sleep apnea can change patients' 
risk of cardiovascular disease. The results of the study will also set 
the stage for advanced clinical trials. Her goal is to help doctors 
integrate sleep medicine into routine cardiology care and develop 
evidence-based treatment guidelines, ultimately lowering deaths from 
sleep apnea-related heart disease.
    ``A true multidisciplinary team''.--The study includes 
cardiologists and sleep medicine experts from four sites across the 
country. Some of them already collaborate through the NHLBI's Sleep 
Heart Health Study, a multi-center population study examining the 
cardiovascular effects of sleep apnea. ``My colleagues include 
engineers, informaticians, physiologists, geneticists, epidemiologists 
and clinicians,'' said Dr. Redline. ``I meet regularly with these 
diverse and talented people to review our common or overlapping 
goals.''
    Economic Impact.--Thanks to Recovery Act funds, the team was able 
to create 12 new jobs. They also bought new equipment, including 
portable devices to measure patients' blood pressure and other 
responses to sleep apnea treatments. Because the trial involves several 
sites, the team developed an advanced web-based data management 
platform. Researchers beyond the study can adapt it to their own needs 
so they can start new studies faster and manage them more efficiently.
    Broadening her Dream.--``As a child, I wanted to be a general 
physician, with a shingle on my door, and simply help people feel 
better,'' said Dr. Redline. She was accepted into an accelerated 6-year 
medical honors program when she was just 15 years old. Then her dream 
began to evolve. ``As I was exposed to academic medicine and powerful 
epidemiological methods, I realized that I wanted to work on broad 
issues that impact the health of the community, especially the 
underserved,'' she said. Learning about how the environment can impact 
people's lung health, and seeing how common but poorly understood sleep 
disorders were, Dr. Redline decided that researching sleep medicine was 
the way she could help improve public health.
    Outside the Lab.--Dr. Redline likes to spend time reading, biking, 
and kayaking.
    Aiming High.--Dr. Redline wants to find a practical treatment for 
sleep apnea that improves people's sleep quality and lowers their risk 
of heart disease; and to uncover genes that contribute to sleep apnea, 
so researchers can develop better targeted treatments.

       By Stephanie Dutchen--Last Updated: August 10, 2010.
                                 ______
                                 
   Prepared Statement of the American Association for Cancer Research

    The American Association for Cancer Research (AACR) is the world's 
oldest and largest scientific organization focused on every aspect of 
high-quality, innovative cancer research. The mission of the AACR and 
its more than 33,000 members is to prevent and cure cancer through 
research, education, communication and collaboration. We thank the 
United States Congress for its longstanding, bipartisan support for the 
National Institutes of Health (NIH) and for its commitment to funding 
cancer research.
    The AACR urges the Senate to continue this commitment to NIH in the 
coming fiscal year. To sustain the momentum generated through past 
investments in biomedical research and to improve the health of all 
Americans, the AACR recommends $35 billion for the NIH, including 
$5.795 billion for the National Cancer Institute (NCI) in fiscal year 
2012. This level of funding is needed to sustain the momentum generated 
through regular appropriations and the additional funds from the 
American Recovery and Reinvestment Act of 2009.

Cancer research saves lives
    The Nation's historical investment in cancer research is 
unquestionably having a remarkable impact. We are in a time of 
unprecedented scientific opportunity: we are now able to accelerate 
progress against cancer by translating a wealth of scientific 
discoveries, such as the mapping of the human genome, into new 
treatments and preventive strategies for cancer. We can continue to 
make significant advances--but only if we continue to allocate the 
required resources to do so. Reversing recent cuts and providing 
stable, increased funding will greatly aid a full-scale national effort 
to lessen the burden of the more than 200 diseases we collectively call 
cancer.
    This year marks the 40th anniversary of the enactment of the 
National Cancer Act. In the four decades since President Richard M. 
Nixon signed this landmark legislation: Annual cancer death rates in 
the United States have declined steadily; the 5-year survival rate for 
all cancers combined has improved to more than 65 percent; the 5-year 
survival rate for all childhood cancers combined has increased from 30 
percent in 1976 to 80 percent today; and 12 million Americans have 
become cancer survivors, compared with only 3 million in 1971.
    These remarkable achievements are a direct result of our national 
commitment to funding cancer research, screening, and treatment 
programs at the NCI, NIH, and other agencies across the Federal 
Government. Yet this substantial progress will be slowed if the Federal 
commitment to funding for critical cancer research priorities is not 
maintained.
    In the last 40 years, innumerable advances in basic science, cancer 
prevention and detection, therapeutic development and clinical cancer 
management have been achieved. While these advances are too numerous to 
list here, the following cancer research advancements occurred in 2010 
alone, as a direct result of funding by the NIH:
  --12 new cancer drugs or cancer drug uses were approved by the FDA, 
        including the first-ever therapeutic vaccine, Provenge, which 
        was approved for men with metastatic prostate cancer; and
  --biological knowledge of tumor genes and the tumor microenvironment 
        has led to the development of drugs that inhibit specific 
        genetic targets, which may result in new treatments for 
        multiple types of cancers, including melanoma and lymphoma.
    The opportunities and the science currently underway promise many 
more successes in improved treatment and prevention of cancer. 
Currently, there are: More than 800 cancer therapies from industry in 
some step of the trial process; more than 2,000 clinical trials 
accepting children and young adults in progress; and more than 200 
cancer prevention trials open.
    Right now, we are facing a precipice with cancer. The biological 
knowledge and the technological advances have positioned scientists at 
an inflection point. To pull back from Federal investment is to abandon 
science in a time when scientists will be able to make quantum leaps in 
prevention and treatment of cancer. It is imperative that sustained 
appropriations be provided to the NIH so that these opportunities and 
other promising areas such as personalized medicine and cancer 
prevention do not slip from our grasp.

Cancer remains a significant public health challenge
    We have made significant progress against cancer in recent years, 
but as long as cancer remains the leading cause of death for Americans 
under age 85 and the second-leading cause of death overall, we cannot 
afford to slow down. In 2011, 1.5 million new cancer cases will be 
diagnosed and more than half a million American lives will be lost to 
this terrible collection of diseases.
    Moreover, the United States is facing what some have termed a 
``cancer tsunami'' as the baby boom generation reaches age 65 this 
year. More than three-quarters of all cancers are diagnosed in 
individuals aged 55 and older, and the number of cancer cases is 
estimated to approach 2 million new cases per year by 2025. This will 
dramatically exacerbate the current problems with the healthcare system 
and it will undoubtedly hit those who can least afford it--elderly, 
medically underserved, and minority populations--the hardest.
    Beyond the enormous toll cancer takes on the lives of affected 
individuals and their loved ones, cancer places a heavy burden on the 
U.S. economy, costing an estimated $228 billion in direct medical costs 
and indirect costs associated with lost productivity due to illness and 
premature death.

Targeted therapies as the future of cancer treatment
    The future of cancer treatment lies in the ability to treat 
patients based on the specific characteristics of a patient and his or 
her cancer--often referred to as personalized medicine. Cancer research 
is leading the way toward the realization of personalized medicine, in 
no small part thanks to Federal investment in deciphering the 
fundamental biology of cells, such as the Human Genome Project and, 
more recently, The Cancer Genome Atlas, an NCI project that is 
identifying important genetic changes involved in cancer.
    The NCI is investing in efforts that will facilitate the 
translation of this wealth of basic knowledge into new treatments, 
including validating cancer biomarkers for prognosis, metastasis, 
treatment response, and progression; accelerating the identification 
and validation of potential cancer molecular targets; minimizing the 
toxicities of cancer therapy; and integrating the clinical trial 
infrastructure for speed and efficiency.

Accelerating progress in cancer prevention
    The AACR has long been a supporter of cancer prevention research 
aimed at identifying effective strategies to prevent cancer through 
lifestyle changes, chemoprevention, and early detection and treatment. 
Prevention is the keystone to success in the battle against cancer 
because preventing the disease is far more desirable--and cost-
effective--than treating it. More than half of all cancers are related 
to modifiable behavioral factors, including tobacco use, diet, physical 
inactivity and sun exposure. Furthermore, many cancers can be halted in 
the early stages if individuals have access to, and take advantage of, 
screening tests. Vaccination--one of the most successful approaches for 
preventing disease--is one of the most promising areas of ongoing 
cancer prevention research.
    Research on cancer prevention at the NCI focuses on three main 
areas: Risk assessment, including understanding and modifying lifestyle 
factors that increase cancer risk; developing medical interventions 
(chemoprevention), such as drugs or vaccines, to prevent or disrupt the 
carcinogenic process; and developing early detection and screening 
strategies that result in the identification and removal of 
precancerous lesions and early-stage cancers.
    Cancer biology intersects with several areas and disciplines of 
cancer prevention, pointing to opportunities for, and the importance 
of, integrative, interdisciplinary efforts to advance clinical cancer 
prevention through hard-won science. The breadth and excitement of 
these current opportunities have never been greater.

Addressing and conquering cancer health disparities
    Certain minority and underserved population groups continue to 
suffer disproportionately from cancer. Conquering cancer health 
disparities will contribute significantly to reducing the Nation's 
overall cancer burden, and this issue has been an important focus of 
both the NCI and the AACR. The NCI's investments in this area include: 
studying the factors that cause cancer health disparities; working with 
underserved communities to develop targeted interventions; developing 
the knowledge base for integrating cancer services to the underserved; 
collaborating to implement culturally appropriate information and 
dissemination approaches to underserved populations; and examining the 
role of health policy in eliminating cancer health disparities.
    One size does not fit all in cancer treatment and prevention--
certain populations may require specialized approaches to achieve 
success. We must make every effort to reduce and equalize cancer rates 
across all populations. The AACR urges sustained funding for these 
programs to ensure that all people benefit from cancer research and 
that these disparities are eliminated.

Fighting cancer in challenging fiscal times
    We are acutely aware of the difficult decisions Congress must make 
as it seeks to improve the Nation's fiscal stability. However, it is 
imperative that such efforts be grounded in the goal of securing the 
prosperity and well-being of the American people. It is not by chance 
that the United States is the world leader in cancer research and the 
development of lifesaving treatments. Our preeminence is a direct 
result of the steadfast determination of the American public and the 
U.S. Congress to reduce the burden of this devastating disease by 
supporting and investing in research through the NIH and NCI.
    Consider the following:
  --Biomedical research is essential to maintaining American global 
        competitiveness. While our Nation has been the undisputed 
        leader in research and innovation, other countries are catching 
        up. According to the Organisation for Economic Co-operation and 
        Development (OECD), national expenditures for research and 
        development as a percentage of gross domestic product (GDP) 
        remained static for the United States between 2001 and 2008 
        while growing nearly 60 percent in China and 34 percent in 
        South Korea. If this trend continues, we risk losing our global 
        preeminence in biomedical research.
  --Biomedical research has a strong positive impact on State and local 
        economies. NIH dollars are creating and preserving high-wage, 
        high-tech jobs at a critical time for the U.S. economy. A 
        recent report issued by United for Medical Research estimated 
        that in fiscal year 2010, NIH awards led to the creation of 
        488,000 jobs across the country, producing $68 billion in new 
        economic activity. The NCI alone funds more than 6,500 research 
        grants at more than 150 cancer centers and specialized research 
        facilities located in 49 States. In over half the States, 
        grants and contracts to institutions exceed $15 million 
        annually.
  --Biomedical research is an effective and efficient use of public 
        dollars. NIH funding does not stay inside the Beltway. More 
        than 80 percent of the dollars appropriated to the NIH are 
        distributed throughout the United States to research projects 
        that have undergone rigorous review for scientific merit. NIH 
        has consistently received the highest possible ranking of 
        ``effective'' under the Office of Management and Budget's 
        Program Assessment Rating Tool (PART), demonstrating that its 
        programs set ambitious goals, achieve results, and are well-
        managed and efficient.

Recent cuts to the NIH jeopardize scientific progress
    The $320 million in cuts to the NIH enacted in the full-year 
continuing appropriations of 2011, which included $45 million in cuts 
to the NCI, will yield harmful consequences for cancer research and 
cancer patients. This loss of funding will result in the following: a 
10 percent reduction in the number of new grants that can be awarded 
this year; a 3 percent cut to existing grants; and as much as a 5 
percent cut to funding for NCI-designated cancer centers. These cuts 
mean that success rates for grants could fall into the single digits, 
leaving numerous meritorious grant proposals, which could be the key to 
new therapies, unfunded at a time of unprecedented scientific 
opportunity. Furthermore, cancer centers and research laboratories may 
have to lay off workers as a result of reduced funding, which would 
negatively impact local economies across the Nation. Budget cuts and 
low success rates for grant proposals also discourage young scientists 
from entering the field, putting the future scientific workforce at 
risk.

The NIH needs stable, predictable increases in funding
    Although cancer remains a costly burden in terms of its human and 
economic toll, previous investments have led to an abundance of 
promising research opportunities, and it is crucial that such 
possibilities are not lost. We thank Congress for its past support for 
the NIH and cancer research and urge Congress to continue its 
longstanding, bipartisan commitment. The American people are depending 
on Congress to ensure the Nation does not lose the health and economic 
benefits that result from our extraordinary commitment to medical 
research. The AACR looks forward to working with you to assure that our 
collective commitment to ending the pain and suffering inflicted by 
cancer is upheld and that researchers have the resources needed to 
continue to deliver hope and tangible progress.
                                 ______
                                 
   Prepared Statement of the American Association for Dental Research

Introduction
    Mr. Chairman and Members of the Subcommittee, I am Jeff Ebersole, 
Director of the Center for Oral Health Research at the University of 
Kentucky College of Dentistry. My testimony is on behalf of the 
American Association for Dental Research, where I currently serve as 
President.
    I thank the Subcommittee for this opportunity to testify about the 
exciting advances in oral health science. With the support of this 
Committee, the research funded by the National Institute of Dental and 
Craniofacial Research (NIDCR) has not only returned dividends in terms 
of improvements in oral health across the U.S. population, but also in 
a wide array of other health issues ranging from craniofacial birth 
defects to chronic orofacial pain to oral cancer. The investments we 
make today will create an exciting tomorrow for the treatment and 
prevention of oral health diseases and disorders.

What is the American Association for Dental Research?
    The American Association for Dental Research is headquartered in 
Alexandria, Virginia. It is a nonprofit organization with more than 
4,000 members in the United States. Its mission is to: (1) advance 
research and increase knowledge for the improvement of oral health; (2) 
support and represent the oral health research community; and (3) 
facilitate the dissemination and application of research findings. The 
AADR is the largest Division of the International Association for 
Dental Research.

Why is Oral Health Important?
    Oral health is an essential component of health across the 
lifespan. Poor oral health and untreated oral diseases and conditions 
can have a significant impact on social development, economic 
accomplishment, and the quality of life. They can affect the most basic 
human needs including the ability to eat and drink, swallow, maintain 
proper nutrition, smile and communicate.
    Over the past 50 years, there has been a dramatic improvement in 
oral health. Still oral diseases remain a major concern. Tooth decay 
and gum disease represent the predominant infections facing the public, 
although complete tooth loss, oral cancer, trauma to the mouth, and 
congenital facial anomalies also contribute to the ongoing importance 
of oral health research and care.
    Employed adults in the United States lose more than 164 million 
hours of work each year as a result of oral health problems and 
children are estimated to lose 54 million school hours.\1\ 
Approximately 25 percent of adults over the age of 60 have lost all of 
their natural teeth.\2\ Americans with the poorest oral health are 
usually those who are economically disadvantaged, lack insurance, or 
are members of racial and ethnic minorities. Moreover, as the Nation 
ages oral health issues, particularly gum disease and the oral health 
impact of medical treatments and medicines will continue to increase.
---------------------------------------------------------------------------
    \1\ Centers for Disease Control Publication, ``Oral Health for 
Adults,'' December 2006.
    \2\ Ibid.
---------------------------------------------------------------------------
Research Accomplishments
    Salivary Diagnostics.--For many decades researchers have known that 
saliva is important for more than chewing, tasting, swallowing, and as 
the first step in digestion. A multitude of proteins and other 
molecules in saliva also play vital roles in protecting us from 
bacteria and viruses that are constantly entering through the mouth and 
can cause disease.
    Now, scientists are well on their way to understanding how saliva 
contributes to broader health functions. In 2008, an NIDCR supported 
team of biologists, chemists, engineers and computer scientists at five 
research institutions across the country mapped the salivary proteome--
a ``catalogue and dictionary'' of proteins present in human saliva.
    This saliva database is an important first step toward being able 
to use biomarkers in saliva to diagnose or predict oral and systemic 
diseases. Saliva tests based on these biomarkers offer many advantages 
over blood tests that require a needle stick and can pose contamination 
risks from blood-borne diseases. However, much effort is still 
required. It is crucial that the research community have the resources 
necessary to refine and enrich the ``dictionary'' of proteins present 
in human saliva. Saliva tests could prove to be a potentially 
lifesaving alternative to detect diseases where early diagnosis is 
critical-- as in the case of oral cancer or heart attacks.
    Oral Cancer.--Oral cancer affects approximately 38,000 Americans 
each year. Oral cancer is any cancerous tissue growth located in the 
mouth. The death rate associated with this cancer is especially high 
due to delayed diagnosis. Only 60 percent of those with this cancer 
will survive more than 5 years.
    Researchers are developing a Point of Care diagnostic system (real-
time) for rapid onsite detection of saliva-based tumor markers. Early 
detection of oral cancer will increase survival rates, improve the 
quality of care for patients, and it will result in a significant 
reduction in healthcare costs.
    Resources must be available to permit researchers to complete work 
on the Point of Care diagnostic systems, and to develop new therapeutic 
approaches. It should also be noted that several new drug candidates 
are now becoming available to treat oral cancer. It is believed that at 
least one of these drugs will be ready for FDA approval in the very 
near future.
    Health Disparities.--Health Disparities are the persistent gaps 
between the health status of minorities and non-minorities in the 
United States. Predicted causes of health disparities are related to 
educational, socioeconomic, and environmental characteristics of 
different ethnic and racial groups, and most recently recognized in 
historically underserved rural populations of the United States.
    The NIDCR is one of the leading institutes at NIH supporting health 
disparities research. The program at NIDCR takes a multidisciplinary 
approach to solving the complex problem of health disparities by 
addressing it from a holistic health prospective. The institute funded 
investigations engage behavioral and social scientists, health policy 
experts, economists, and basic and clinical dental and medical 
researchers. NIDCR has supported new health centers which focus on 
numerous populations at risk, including African Americans, Hispanic/
Latinos, Native Americans and rural communities. The centers partner 
with other academic health centers, State and local health agencies, 
community and migrant health centers, and institutions that serve these 
targeted populations.
    The physical and economic burden due to health disparities is real 
and efforts must continue in order to eliminate them. I am proud to say 
that dental researchers are leading this charge.

Conclusion
    As you can see Mr. Chairman, much has been accomplished with the 
resources provided by this committee; however, there is much yet to be 
done. Science is advancing rapidly and the next generation of 
technological innovation may greatly accelerate the next breakthroughs 
in oral, dental and craniofacial research. Researchers have already 
created prototypes for ``labs-on-a-chip,'' bioengineered tissue 
replacements, and developed powerful molecular imaging tools that 
provide a new window into complex biological systems about which we 
continue to learn. This emerging wave of knowledge and tools will 
accelerate the development of molecular-based oral healthcare. As 
importantly, the NIDCR provides the resources for training the next 
generation of biomedical scientists focusing or oral health issues as 
well as the future academics to train the next generation of dentists 
for the United States. Thus, it is vital that NIDCR have the resources 
to support a diverse portfolio of research and training. The AADR 
representing each of these constituencies respectfully requests a 
fiscal year 2012 budget of $468 million for NIDCR.
    Thank you.
                                 ______
                                 
Prepared Statement of the American Association for Geriatric Psychiatry

    The American Association for Geriatric Psychiatry (AAGP) 
appreciates this opportunity to comment on issues related to fiscal 
year 2012 appropriations for mental health research and services. AAGP 
is a professional membership organization dedicated to promoting the 
mental health and well-being of older Americans and improving the care 
of those with late-life mental disorders. AAGP's membership consists of 
geriatric psychiatrists as well as other health professionals who focus 
on the mental health problems faced by aging adults. Although we 
generally agree with others in the mental health community about the 
importance of sustained and adequate Federal funding for mental health 
research and treatment, AAGP brings a unique perspective to these 
issues because of the elderly patient population served by our members.

A National Health Crisis: Demographic Projections and the Mental 
        Disorders of Aging
    The aging of the baby boomer generation will result in an increase 
in the proportion of persons over 65 from 12.7 percent currently to 20 
percent in 2030, with the fastest growing segment of the population 
consisting of age 85 and older. During the same period, the number of 
older adults with major psychiatric illnesses will more than double, 
from an estimated 7 million to 15 million individuals, meeting or 
exceeding the number of consumers in discrete, younger age groups.

Center for Mental Health Services
    It is critical that there be adequate funding for the mental health 
initiatives under the jurisdiction of the Center for Mental Health 
Services (CMHS) within the Substance Abuse and Mental Health Services 
Administration (SAMHSA). While research is of critical importance to a 
better future, today's patients must also receive appropriate treatment 
for their mental health problems.
            Evidence-based Mental Health Outreach and Treatment for the 
                    Elderly
    AAGP was pleased that the final budgets for the last 9 years have 
included $5 million for evidence-based mental health outreach and 
treatment to the elderly, the only federally funded services program 
dedicated specifically to the mental healthcare of older adults. AAGP 
is concerned that this program was eliminated in the President's fiscal 
year 2012 budget proposal. It is critical that SAMHSA and CMHS ensure 
that, as they design programs to promote prevention and recovery from 
mental illness, the senior citizen cohort not be ignored. AAGP asks the 
Committee to restore the funding for this critical program as well as 
ensure that all of CMHS's programs assure a life-span approach by 
specifically including the older adult population as a targeted 
population.
            Centers of Excellence for Depressive and Bipolar Disorders
    PPACA also included authorization for a new national network of 
centers of excellence for depressive and bipolar disorders, which will 
enhance the coordination and integration of physical, mental and social 
care that are critical to the identification and treatment of 
depression and other mental disorders across the lifespan. The work of 
these centers will help to disseminate and implement evidence-based 
practices in clinical settings throughout the country. AAGP strongly 
supports funding for the centers authorized by this legislation and is 
disappointed that the Administration has not recommended funding them. 
With respect to older adults, these centers would be able to focus on 
new models of care that integrate evidenced-based depression care into 
real world primary care and home care to improve the outcomes; specific 
combinations of medications and talk therapy that successfully treat 
depression and prevent relapse in older adults; specific clinical and 
biological factors that link depression and risk of Alzheimer's disease 
in some older depressed patients; and prevention of depression in older 
people at risk. AAGP recommends that these centers be funded at $10 
million for fiscal year 2012.

Preparing a Workforce to meet the Mental Health Needs of the Aging 
        Population
    In 2008, the Institute of Medicine (IOM) released a study of the 
readiness of the Nation's healthcare workforce to meet the needs of its 
aging population. The Re-tooling for an Aging America: Building the 
Health Care Workforce called for immediate investments in preparing our 
healthcare system to care for older Americans and their families. AAGP 
is deeply grateful to this subcommittee and its House counterpart for 
providing, in the appropriations bill for fiscal year 2010, funding for 
a follow-up study of the current and projected mental and behavioral 
healthcare needs for aging Americans. This study, which is now 
underway, will complement the 2008 IOM study in providing in-depth 
consideration of the mental health needs of geriatric and ethnic 
minority populations that were precluded by the broad scope of the 
earlier one.
    Virtually all healthcare providers need to be fully prepared to 
manage the common medical and mental health problems of old age. In 
addition, the number of geriatric health specialists, including mental 
health providers, needs to be increased both to provide care for those 
older adults with the most complex issues and to train the rest of the 
workforce in the common medical and mental health problems of old age. 
The small numbers of specialists in geriatric mental health, combined 
with increases in life expectancy and the growing population of the 
Nation's elderly, foretells a crisis in healthcare that will impact 
older adults and their families nationwide.
    Already, there are programs administered by the Bureau of Health 
Professions in the HHS Health Resources and Services Administration 
(HRSA) administers that are aimed to help to assure adequate numbers of 
healthcare practitioners for the Nation's geriatric population, 
especially in underserved areas. These are the only Federal programs 
that seek to increase the number of faculty with geriatrics expertise 
in a variety of disciplines, and the breadth of the programs has been 
strengthened by provisions included in the Patient Protection and 
Affordable Care Act (PPACA).
    The geriatric health professions program supports these important 
initiatives:
  --The Geriatric Education Center (GEC) program provides 
        interdisciplinary training for healthcare professionals in 
        assessment, chronic disease syndromes, care planning, emergency 
        preparedness, and cultural competence unique to older 
        Americans. PPACA authorizes $10.8 million in supplemental 
        grants for the GEC Program to support training in geriatrics, 
        chronic care management, and long-term care for faculty in a 
        broad array of health professions schools, as well as direct 
        care workers and family caregivers. GECs receiving these grants 
        are required to develop and include material on depression and 
        other mental disorders common among older adults, medication 
        safety issues for older adults, and management of the 
        psychological and behavioral aspects of dementia in all 
        appropriate training courses.
  --The Geriatric Training for Physicians, Dentists, and Behavioral and 
        Mental Health Professionals (GTPD Program) provides fellows 
        with exposure to older adult patients in various levels of 
        wellness and functioning and from a range of socioeconomic and 
        racial/ethnic backgrounds.
  --The Geriatric Academic Career Awards (GACA) support the academic 
        career development of geriatric specialists in junior faculty 
        positions who are committed to teaching geriatrics in 
        professional schools. PPACA expands the disciplines eligible 
        for the awards. GACA recipients are required to provide 
        training in clinical geriatrics, including the training of 
        interdisciplinary teams of healthcare professionals.
  --PPACA authorized a new Geriatric Career Incentive Awards Program in 
        Title VIII of the Public Health Service Act for grants to 
        foster great interest among a variety of health professionals 
        in entering the field of geriatrics, long-term care, and 
        chronic care management. This program was authorized for $10 
        million over 3 years.
  --A new program, authorized by PPACA at $10 million for 3 years, will 
        provide advanced training opportunities for direct care workers 
        in the field of geriatrics, long term-care or chronic care 
        management.
    AAGP strongly supports increased funding for the existing programs, 
particularly as the disciplines included have been expanded, and 
funding to fully authorized levels for the new programs.

National Institutes of Health (NIH) and National Institute of Mental 
        Health (NIMH)
    With the graying of the population, mental disorders of aging 
represent a growing crisis that will require a greater investment in 
research to understand age-related brain disorders and to develop new 
approaches to prevention and treatment. Even in the years in which 
funding was increased for NIH and the NIMH, these increases did not 
always translate into comparable increases in funding that specifically 
address problems of older adults. For instance, according to figures 
provided by NIMH, NIMH total aging research amounts decreased from 
$106,090,000 in 2002 to $85,164,000 in 2006 (dollars in thousands: 
$106,090 in 2002, $100,055 in 2003, $97,418 in 2004, $91,686 in 2005, 
$85,164 in 2006).
    The critical disparity between federally funded research on mental 
health and aging and the projected mental health needs of older adults 
is continuing. If the mental health research budget for older adults is 
not substantially increased immediately, progress to reduce mental 
illness among the growing elderly population will be severely 
compromised. While many different types of mental and behavioral 
disorders occur in late life, they are not an inevitable part of the 
aging process, and continued and expanded research holds the promise of 
improving the mental health and quality of life for older Americans. 
This trend must be immediately reversed to ensure that our next 
generation of elders is able to access effective treatment for mental 
illness. Federal funding of research must be broad-based and should 
include basic, translational, clinical, and health services research on 
mental disorders in late life.
    AAGP believes that it is critical that NIH begin to invest 
increased funding in future evidence-based treatments for our Nation's 
elders. Annual increases of funds targeted for geriatric mental health 
research at NIH should be used to: (1) identify the causes of age-
related brain and mental disorders to prevent mental disorders before 
they devastate lives; (2) speed the search for effective treatments and 
efficient methods of treatment delivery; and (3) improve the quality of 
life for older adults with mental disorders.
            Participation of Older Adults in Clinical Trials
    Federal approval for most new drugs is based on research 
demonstrating safety and efficacy in young and middle-aged adults. 
These studies typically exclude people who are old, who have more than 
one health problem, or who take multiple medications. As the population 
ages, that is the very profile of many people who seek treatment. Thus, 
there is little available scientific information on the safety of drugs 
approved by the Food and Drug Administration (FDA) in substantial 
numbers of older adults who are likely to take those drugs. Pivotal 
regulatory trials never address the special efficacy and safety 
concerns that arise specifically in the care of the Nation's mentally 
ill elderly. This is a critical public health obligation of the 
Nation's health agencies. Just as the FDA has begun to require 
inclusion of children in appropriate studies, the agency should work 
closely with the geriatric research community, healthcare consumers, 
pharmaceutical manufacturers, and other stakeholders to develop 
innovative, fair mechanisms to encourage the inclusion of older adults 
in clinical trials. Clinical research must also include elders from 
diverse ethnic and cultural groups. In addition, AAGP urges that 
Federal funds be made available each year for support of clinical 
trials involving older adults.
            Study on NIH Funding for Mental Disorders among Older 
                    Adults
    As little emphasis has been placed on the development of new 
treatments for geriatric mental disorders, AAGP encourages NIH to 
promote the development of new medications specifically targeted at 
brain-based mental disorders of the elderly. AAGP urges this Committee 
to request a GAO study on spending by NIH on conditions and illnesses 
related to the mental health of older individuals. NIH is already 
working to enhance cooperative activities among NIH Institutes and 
Centers that support research on the nervous system. A GAO study of the 
work being done by these institutes in areas that predominately involve 
older adults could provide crucial insights into possible new areas of 
cooperative research, which in turn will lead to advances in prevention 
and treatment for these devastating illnesses.

Conclusion
    AAGP recommends:
  --Increased funding for the geriatric health professions education 
        programs under Title VII of the Public Health Service Act and 
        full funding for new programs authorized by the PPACA;
  --Funding to support clinical trials involving older adults;
  --A GAO study on spending by NIH on conditions and illnesses related 
        to the mental health of older individuals;
  --$5 million in funding to continue evidence-based geriatric mental 
        health outreach and treatment programs at CMHS;
  --$10 million in funding for Centers of Excellence for Depressive and 
        Bipolar Disorders.
                                 ______
                                 
 Prepared Statement of the American Association of Colleges of Nursing

    The American Association of Colleges of Nursing (AACN) respectfully 
submits this testimony highlighting funding priorities for nursing 
education and research programs in fiscal year 2012. AACN represents 
667 schools of nursing with baccalaureate and graduate nursing programs 
that educate over 337,000 students and employ more than 15,000 full-
time faculty members. These institutions educate approximately half of 
our Nation's Registered Nurses (RNs) and all of the Advanced Practice 
Registered Nurses (APRNs), nurse faculty, and researchers.
    The programs outlined in this testimony play an integral role in 
continuing to shape, advance, and promote a professional nursing 
workforce to meet the needs of America's patients. An emphasis on two 
key components of the profession--education and research--will be 
necessary to sustain and enhance the quality of nursing care in the 
United States. The release of the landmark Institute of Medicine's 
(IOM) report, The Future of Nursing: Leading Change, Advancing Health, 
outlines specific priorities for the profession and identifies expanded 
Federal support to meet the goals of preparing a more highly educated 
nursing workforce, removing barriers so all nurses can practice to the 
full scope of their education, and enabling nurses to serve as equal 
partners in the redesign of the healthcare system.
    The ongoing reform of our healthcare system will continue to 
increase access to care, requiring a surge in the number of nurses and 
other health professionals. RNs and APRNs will be in high demand given 
the needs of an aging population, the increased complexity of care, and 
significant growth in the number of patients with chronic diseases. 
More specifically, the U.S. Bureau of Labor Statistics projects a 
demand on our delivery system that will necessitate the creation of 
581,000 new positions by 2018, a 22 percent increase in the nursing 
workforce. Without increased attention to the challenges facing nursing 
education, schools of nursing will be unable to meet this demand, 
further jeopardizing access to quality care.
    The current supply and demand of nurses demonstrates two distinct 
challenges. First, due to the present and looming need for healthcare 
by American consumers, the supply of nurses is not growing at a pace 
that will adequately meet long-term projections, including the demand 
for primary care provided by APRNs. This issue is further compounded by 
the number of nurses who will retire or leave the profession in the 
near future, ultimately reducing the nursing workforce. Currently, over 
1 million of the total 2.6 million practicing nurses are over the age 
of 50. More striking yet, over 275,000 RNs are over the age of 60 
according to the 2008 National Sample Survey of Registered Nurses.
    Second, the supply of nurses nationwide is stretched thin due, in 
large part, to capacity barriers in schools of nursing. According to 
AACN, 67,563 qualified applications were turned away from baccalaureate 
and graduate nursing programs in 2010, primarily due to budget 
constraints which impact the insufficient number of faculty, clinical 
sites, classroom space, and clinical preceptors. As the ability of most 
States to support the needs of higher education has decreased, Federal 
support for nursing education has become even more critical. National 
reform goals cannot be met without an adequate number of nurses to 
provide the cost-effective and quality care associated with the nursing 
discipline.
       nursing workforce development programs: a proven solution
    For nearly 50 years, the Title VIII Nursing Workforce Development 
Programs (42 U.S.C. 296 et seq.) have supported hundreds of thousands 
of nurses and nursing students. Between fiscal year 2006 and 2009, the 
Title VIII programs supported over 347,000 nurses and nursing students 
as well as numerous academic nursing institutions and healthcare 
facilities. As the largest source of dedicated funding for nursing, the 
Title VIII programs award grants to nursing education programs, as well 
as provide direct support through loans, scholarships, traineeships, 
and programmatic grants. The programs also favor institutions that 
educate nurses for practice in rural and medically underserved 
communities and help to develop a more diverse nursing workforce to 
meet the cultural healthcare needs of our Nation's population. 
Additionally, programs funded through Title VIII contribute to the 
promotion of academic progression, a major goal highlighted in the 
IOM's Future of Nursing report.
    Of specific interest to AACN, the Title VIII programs support 
future nurse faculty, a significant barrier to addressing the nursing 
care needs in the United States. The nurse faculty shortage has grown 
critical as the national vacancy rate is 6.9 percent for schools 
offering baccalaureate and graduate nursing programs according to an 
AACN Survey on Vacant Faculty Positions for Academic Year 2010-2011. Of 
those schools reporting vacancies, the number of positions left 
unfilled was 803. Regionally, schools of nursing are struggling to 
recruit and hire faculty. Compared to the North Atlantic (9.2 percent), 
Southern (9.5 percent), and Mid-Western (9.2 percent) regions of the 
country, the West Coast (11.7 percent) has the highest faculty vacancy 
rate.

Title VIII Effectiveness
    The Nursing Workforce Development Programs are effective and meet 
their authorized mission. AACN's 2010-2011 Title VIII Student Recipient 
Survey included responses from 1,459 students who noted that these 
programs played a critical role in funding their nursing education, 
which will ultimately help them to achieve future career goals. The 
students responding to the Title VIII survey have career aspirations 
that meet the direct needs of the healthcare system and the profession. 
Nearly one-third (32.8 percent) of the respondents reported that their 
career goal is to become a nurse practitioner. Given the demand for 
primary care providers, the Title VIII funds are helping to support the 
next generation of these essential practitioners. Moreover, the nurse 
faculty shortage continues to inhibit the ability of nursing schools to 
increase student capacity. Of the students who responded to the survey, 
an additional 33.2 percent stated their ultimate career goal was to 
become nurse faculty. Providing support for Title VIII is the key to 
help schools expand student capacity, fill vacant nursing positions, 
and, in turn, improve healthcare quality.

Demand for Title VIII
    While millions of Americans are struggling during this economic 
downturn and thousands of students need loans to finance their 
education, Federal support is necessary. Nursing students depend on 
Federal loans like Title VIII to pay for their education. AACN's Title 
VIII Student Recipient Survey also indicated that 73 percent of the 
undergraduate and 62.6 percent of the master's students responding to 
the question regarding funding for nursing education noted that they 
will pay for their education through Federal loans. The average loan 
amount that students reported they would take (private/Federal) to 
support their education was $19,336 for undergraduate students and 
$55,698 for master's students. These students also noted that the total 
amount they will pay for their education is $32,307 for undergraduates 
and $64,734 for master's. Given this information, it is interesting to 
note that 65.6 percent of the students reported that the amount of 
support they received from Title VIII was $3,000 or less in one fiscal 
year.
    Over the last 47 years, Congress has used the Title VIII 
authorities as a mechanism to address past nursing shortages. When the 
need for nurses was great, such as in the 1970s, appropriations were 
higher. Congress provided $160.61 million to the Title VIII programs in 
1973. Adjusting for inflation, $160.61 million in 1973 dollars would be 
equivalent to $841.371 million in 2011 dollars. The fiscal year 2011 
investment of $242.387 million represents a 70 percent reduction in 
buying power for the Title VIII programs, at a time when our Nation 
faces historic demands on our nursing workforce.
    AACN respectfully requests $313.075 million for the Nursing 
Workforce Development Programs authorized under Title VIII of the 
Public Health Service Act in fiscal year 2012 as recommended in the 
President's budget proposal.

  NURSING RESEARCH: SUPPORTING HEALTH PROMOTION AND DISEASE PREVENTION

    The National Institute of Nursing Research (NINR) is one of the 27 
Institutes and Centers at the National Institutes of Health (NIH). As 
the Nation's nucleus for nursing science, NINR funds research that 
establishes the scientific basis for health promotion, disease 
prevention, and high quality nursing care to individuals, families, and 
populations. Often working collaboratively with physicians and other 
researchers, nurse scientists are vital in setting the national 
research agenda. NINR focuses on four strategic areas which include 
promoting health and preventing disease, eliminating health 
disparities, improving quality of life, and setting directions for end-
of-life research.
    NINR's fiscal year 2011 funding level of $144.381 million is 
approximately 0.47 percent of the overall $30 billion NIH budget. 
Spending for nursing research is a modest amount relative to the 
allocations for other health science institutes and for major disease 
category funding. For NINR to adequately continue and further its 
mission, the institute must receive additional funding. Cuts in funding 
have impeded the institute from supporting larger comprehensive studies 
needed to advance nursing science and improve the quality of patient 
care. With increased appropriations for NINR, more comprehensive, 
complex, and longitudinal studies could be funded in the critical areas 
of their mission while maintaining their portfolio of current goals, 
projects, and priorities of the institute.
    Additionally, considering that NINR presently allocates 6 percent 
of its budget to training that helps develop the pool of nurse 
researchers, increased funding would support NINR's efforts to prepare 
faculty researchers desperately needed to educate new nurses. AACN 
respectfully requests $163 million for the National Institute of 
Nursing Research in fiscal year 2012.

  NURSE-LED PRACTICE MODELS: INVESTING IN NURSE-MANAGED HEALTH CLINICS

    The Affordable Care Act amended Sec. 330 of the Public Health 
Service Act, allowing Nurse- Managed Health Clinics (NMHCs) to apply 
for grant funds to help cover the costs of operating these unique 
community-based settings. NMHCs are nurse-practice arrangements and are 
managed by APRNs who provide primary care or wellness services to 
underserved or vulnerable populations through clinics located in places 
like public housing, churches, Native American reservations, rural 
communities, senior citizen centers, elementary schools, and 
storefronts. Each of these clinics is associated with a school, 
college, university or department of nursing, federally qualified 
health center, or independent nonprofit health or social services 
agency, and serves as safety net of providers for vulnerable 
populations. Moreover, NMHCs play a valuable role as teaching and 
practice sites for nursing students. AACN respectfully requests $20 
million for the Nurse-Managed Health Clinics authorized under Title III 
of the Public Health Service Act in fiscal year 2012 as recommended in 
the President's budget proposal.

             CAPACITY GRANTS: SOLUTIONS TO GROW ENROLLMENT

    According to AACN's latest enrollment and graduation survey, the 
major barriers to increasing student capacity in nursing schools are 
insufficient numbers of faculty, admission seats, clinical sites, 
classroom space, and clinical preceptors, as well as budget 
constraints. The Capacity for Nursing Students and Faculty Program, a 
section of the Higher Education Opportunity Act of 2008, offers 
capitation grants (formula grants based on the number of students 
enrolled/or matriculated) to nursing schools allowing them to increase 
the number of students. Schools of nursing continue to face budget cuts 
at the State level, and capacity grants are a proven method for meeting 
the needs of nursing education. AACN respectfully requests $25 million 
for this program in fiscal year 2012.

                               CONCLUSION

    AACN acknowledges the fiscal challenges facing this Subcommittee 
and Congress, but would be remiss in not highlighting the benefits of 
these programs. Title VIII has a long and successful record of 
providing dedicated support for the nursing workforce. The National 
Institute of Nursing Research invests in developing the scientific 
basis for quality nursing care. Nurse-Managed Health Clinics provide 
services to the underserved and training and practice settings for 
nursing students. The Capacity for Nursing Students and Faculty Program 
would allow schools to increase student capacity.
    To be effective in meeting the critical goals outlined in the IOM's 
report, The Future of Nursing: Leading Change, Advancing Health, and 
the larger health reform goals of the Nation, these programs must 
receive additional funding. AACN respectfully requests $313.075 million 
for Title VIII programs, $163 million for NINR, $20 million for Nurse-
Managed Health Clinics, and $25 million for the Capacity for Nursing 
Students and Faculty Program in fiscal year 2012. Additional funding 
for these programs will assist schools of nursing to expand their 
educational and research programs, educate more nurse faculty, increase 
the number of practicing RNs, and ultimately improve the patient care 
provided in our healthcare system.
                                 ______
                                 
     Prepared Statement of the American Association of Colleges of 
                          Osteopathic Medicine

    On behalf of the American Association of Colleges of Osteopathic 
Medicine (AACOM), I am pleased to submit this testimony in support of 
increased funding in fiscal year 2012 for programs at the Health 
Resources Services Administration (HRSA), the National Institutes of 
Health (NIH), and the Agency for Healthcare Research and Quality 
(AHRQ). AACOM represents the administrations, faculty, and students of 
the Nation's 26 colleges of osteopathic medicine at 34 locations in 26 
States. Today, more than 19,000 students are enrolled in osteopathic 
medical schools. Nearly one in five U.S. medical students is training 
to be an osteopathic physician.

Title VII
    The health professions education programs, authorized under Title 
VII of the Public Health Service Act and administered through HRSA, 
support the training and education of health practitioners to enhance 
the supply, diversity, and distribution of the healthcare workforce, 
acting as an essential part of the healthcare safety net and filling 
the gaps in the supply of health professionals not met by traditional 
market forces. Title VII and Title VIII nurse education programs are 
the only Federal programs designed to train clinicians in 
interdisciplinary settings to meet the needs of special and underserved 
populations, as well as increase minority representation in the 
healthcare workforce.
    According to HRSA, an additional 33,000 health practitioners are 
needed to alleviate existing health professional shortages. Combined 
with faculty shortages across health professions disciplines, racial 
and ethnic disparities in healthcare, a growing, aging population and 
the anticipated demand for access to care, these needs strain an 
already fragile healthcare system. While AACOM appreciates the 
investments that have been made in these programs, we recommend 
increasing funding to $449.4 million, the same funding level requested 
by the President, in fiscal year 2012 for the Title VII programs. 
Investment in these programs, including the Primary Care Training and 
Enhancement Program, the Health Careers Opportunity Program, and the 
Centers of Excellence, is necessary to address the primary care 
workforce shortage. Strengthening the workforce has been recognized as 
a national priority, and the investment in these programs recommended 
by AACOM will help meet the demand for a well-trained, diverse 
workforce that this country will witness as a result of healthcare 
reform.

Teaching Health Centers
    The Teaching Health Center Graduate Medical Education Program 
(THCGME) is the first of its kind to shift graduate medical education 
(GME) training to community-based care settings that emphasize primary 
care and prevention. It is uniquely positioned to provide much needed 
primary care training in underserved populations. However, because the 
program is the first of its kind, most community-based settings do not 
have existing infrastructure to provide this training. AACOM strongly 
supports the President's budget request of $10 million to fund the THC 
Development Grants. This funding would allow potential THC training 
sites to develop the infrastructure needed to administer residency 
training programs.

National Health Service Corps
    Approximately 50 million Americans live in communities with a 
shortage of health professionals, lacking adequate access to primary 
care. Through scholarships and loan repayment, the National Health 
Service Corps (NHSC) supports the recruitment and retention of primary 
care clinicians to practice in underserved communities. At the close of 
fiscal year 2010, the NHSC provided a network of 7,500 primary 
healthcare professionals in 10,000 sites in underserved communities. 
However, this still fell approximately 20,000 practitioners short of 
fulfilling the need for primary care, dental and mental health 
practitioners in Health Professional Shortage Areas (HPSAs). Growth in 
HRSA's Community Health Center Program must be complemented with 
increases in the recruitment and retention of primary care clinicians 
to ensure adequate staffing, which the NHSC provides. AACOM supports 
the President's budget request of $418 million for this program. This 
includes $295 million from the Affordable Care Act (ACA) fund for the 
NHSC and $24.695 million in appropriated dollars for field placements 
and $98.7 million in appropriated dollars for recruitment.

National Institutes of Health
    Research funded by the NIH leads to important medical discoveries 
regarding the causes, treatments, and cures for common and rare 
diseases, as well as disease prevention. These efforts improve our 
Nation's health and save lives. To maintain a robust research agenda, 
further investment will be needed. AACOM recommends $32 billion in 
fiscal year 2012 for the NIH. While the need is significantly greater, 
approximately $35.0 billion, anything less than the President's request 
will result in a reduction in real dollars dedicated to research.
    With today's increasingly demanding and evolving medical 
curriculum, there is a critical need for more research geared toward 
evidence-based osteopathic medicine. AACOM believes that it is vitally 
important to maintain and increase funding for biomedical and clinical 
research in a variety of areas related to osteopathic principles and 
practice, including osteopathic manipulative medicine and comparative 
effectiveness. In this regard, AACOM supports the President's budget 
request of $131.002 million for NIH's National Center for Complementary 
and Alternative Medicine to continue fulfilling this essential research 
role.

Agency for Healthcare Research and Quality
    AHRQ supports research to improve healthcare quality, reduce costs, 
advance patient safety, decrease medical errors, and broaden access to 
essential services. AHRQ plays an important role in producing the 
evidence base needed to improve our Nation's health and healthcare. The 
incremental increases for AHRQ's Patient Centered Health Research 
Program in recent years, as well as the funding provided to AHRQ in the 
ARRA, will help AHRQ generate more of this research and expand the 
infrastructure needed to increase capacity to produce this evidence. 
More investment is needed, however, to fulfill AHRQ's mission and 
broader research agenda, especially research in patient safety and 
prevention and care management research. AACOM recommends $405 million 
in fiscal year 2012 for AHRQ. This investment will preserve AHRQ's 
current programs while helping to restore its critical healthcare 
safety, quality, and efficiency initiatives.
    AACOM is grateful for the opportunity to submit its views and looks 
forward to continuing to work with the Subcommittee on these important 
matters.
                                 ______
                                 
 Prepared Statement of the American Association of Colleges of Pharmacy

    AACP and its member colleges and schools of pharmacy appreciate the 
continued support of the U.S. House of Representatives Appropriations 
Subcommittee on Labor, Health and Human Services, and Education. Our 
Nation's 124 accredited colleges and schools of pharmacy are engaged in 
a wide-range of programs supported by grants and funding administered 
through the agencies of the Department of Health and Human Services 
(HHS) and the Department of Education. We also understand the difficult 
task you face annually in your deliberations to do the most good for 
the Nation and remain fiscally responsible to the same. AACP 
respectfully offers the following recommendations for your 
consideration as you undertake your deliberations.

  U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES SUPPORTED PROGRAMS AT 
                    COLLEGES AND SCHOOLS OF PHARMACY

Agency for Healthcare Research and Quality (AHRQ)
    AACP supports the Friends of AHRQ recommendation of $405 million 
for AHRQ programs in fiscal year 2012.
    Pharmacy faculty are strong partners with the Agency for Healthcare 
Research and Quality (AHRQ).
  --Vincent J. Willey, Associate Professor at the University of the 
        Sciences in Philadelphia, was appointed to the Comparative 
        Effectiveness Research Pharmacy Workgroup.
  --AHRQ Effective Healthcare programs including the Center for 
        Education and Research on Therapeutics (CERTs) and the 
        Developing Evidence to Inform Decisions about Effectiveness ( 
        DEcIDE) support pharmacy faculty researchers focused on 
        improving the effectiveness of healthcare services.
  --Researcher faculty at The University of Arizona College of 
        Pharmacy's Center for Health Outcomes and PharmacoEconomic 
        Research, support the Arizona CERT and its mission to improve 
        therapeutic outcomes and reduce adverse events caused by drug 
        interactions and drugs that prolong the QT interval, especially 
        those affecting women. Researchers determined that certain drug 
        combinations increased the risk of death. Published research 
        from this CERT includes the 2010 Women's Health Research: 
        Progress, Pitfalls and Promise, for the Institute of Medicine 
        and a comparison study on the U.S. Department of Veterans 
        Affairs drug-drug interactions compared to two standard 
        compendia. #U18 HS17001
  --Almut G. Winterstein, University of Florida, has received a 2-year 
        $482,000 award from the Agency for Healthcare Research and 
        Quality for ``Comparative Safety and Effectiveness of 
        Stimulants in Medicaid Youth with ADHD.'' #5R01HS018506-02
  --Sean D. Sullivan, University of Washington, received a $2.45 
        million grant from AHRQ to implement the multidisciplinary 
        Mentored Clinical Scientist Comparative Effectiveness Research 
        Career Development (K12) Program in collaboration with research 
        partners at Group Health Research Institute, the Fred 
        Hutchinson Cancer Research Center, and the Veterans' 
        Administration Health Services Research and Development Center 
        of Excellence. #1K12HS019482-01
  --Daniel C. Malone, University of Arizona, received a 3-year grant 
        from AHRQ for $1.25 million, to evaluate awareness of CER 
        guides by pharmacists and physicians and identify critical 
        skills needed to use these reviews to support and encourage 
        safe and effective prescribing of medications. #1R18HS019220-01
Centers for Disease Control and Prevention (CDC)
    AACP supports the CDC Coalition recommendation of $7.7 billion for 
CDC core programs in fiscal year 2012 and the Friends of NCHS 
recommendation of $162 million for the National Center for Health 
Statistics.
    The educational outcomes of a pharmacist's education include those 
related to public health. When in community-based positions, 
pharmacists are frequently providers of first contact. The opportunity 
to identify potential public health threats through regular interaction 
with patients provides public health agencies such as the CDC with on-
the-ground epidemiologists. Pharmacy faculty are engaged in CDC-
supported research in areas such as immunization delivery, integration 
of pharmacogenetics in the pharmacy curriculum and inclusion of 
pharmacists in emergency preparedness. Information from the National 
Center for Health Statistics (NCHS) is essential for faculty engaged in 
health services research and for the professional education of the 
pharmacist.
  --Katie J. Suda, faculty member at the University of Tennessee, was 
        supported by CDC funding to conduct a national analysis of 
        outpatient anti-infective prescribing patterns. She also 
        prepared a continuing education program in partnership with the 
        CDC entitled, ``Weighing in on Antibiotic Resistance: Community 
        Pharmacists Tip the Scale,'' featured on the CDC Web site: 
        http://www.cdc.gov/getsmart/specific-groups/hcp/ce-course.html. 
        The program details the CDC's Get Smart program, focused on 
        decreasing the amount of unnecessary antibiotics in the 
        community.
  --Grace Kuo, Associate Professor of Clinical Pharmacy at the 
        University of California San Diego, founded 
        PharmGenEd<SUP>TM</SUP>, an evidence-based pharmacogenomics 
        education program designed for pharmacists and physicians, 
        pharmacy and medical students, and other healthcare 
        professionals and is supported by funding from CDC. 
        #IU38GD000070

Health Resources and Services Administration (HRSA)
    AACP supports the Friends of HRSA recommendation of $7.65 billion 
for fiscal year 2012.
    HRSA is a Federal agency with a wide-range of policy and service 
components. Faculty at colleges and schools of pharmacy are integral to 
the success of many of these. Colleges and schools of pharmacy are the 
administrative units for interprofessional and community-based linkages 
programs including geriatric education centers and area health 
education centers. Pharmacy faculty research issues related to rural 
health delivery. Student pharmacists benefit from diversity program 
funding including Scholarships for Disadvantaged Students.
            Office of Pharmacy Affairs
    AACP recommends a program funding of $5 million for fiscal year 
2012 for the Office of Pharmacy Affairs.
    AACP member institutions are actively engaged in Office of Pharmacy 
Affairs (OPA) efforts to improve the quality of care for patients in 
federally qualified health centers and entities eligible to participate 
in the 340B drug discount program. The success of the HRSA Patient 
Safety and Clinical Pharmacy Collaborative is a direct result of past 
OPA actions linking colleges and schools of pharmacy with federally 
qualified health centers. The result of these links has been the 
establishment of medical homes that improve health outcomes for 
underserved and disadvantaged patients through the integration of 
clinical pharmacy services.
            Office of Telehealth Advancement
    Technology is an important component for improving healthcare 
quality and maintaining or increasing access to care. Colleges and 
schools of pharmacy utilize technology to increase access to care, 
improve care quality and to increase the reach of education to student 
and practicing pharmacists.
  --Keri H. Naglosky, Marcia M. Worley, Timothy P. Stratton and Randall 
        D. Seifert University of Minnesota, received a $63,000 grant 
        for their study, ``Pilot Study to Determine the Effectiveness 
        of Pharmacist Provided MTM Using Face-to-Face and TeleMTM in 
        the Treatment of Long-Haul Drivers with Hypertension Department 
        of Transportation Classifications Stage 1, 2 and 3.''
  --Leigh Ann Ross and Sarah Fontenot, faculty at the University of 
        Mississippi, work with The Delta Health Alliance on many 
        projects including its HRSA telehealth grant and as members of 
        the HRSA Patient Safety Collaborative, receiving the Clinical 
        Pharmacy Services Improvement Award in 2010. Five Delta 
        hospitals have telemedicine capabilities as a result of its 
        funding and 86,083 individuals received medical or health 
        education services during the 2009-2010 fiscal year. 
        #H2AIT16626
            Poison Control Centers
    HRSA grant funding supports the management of 10 of the 57 poison 
control centers by pharmacy faculty.
  --In 2010, the Maryland Poison Center, headed by Bruce Anderson, 
        faculty at the University of Maryland, answered 36,000 human 
        exposure calls, 2,000 animal exposures and 25,000 requests 
        for poison or drug information and over 70 percent of the human 
        exposure calls were managed on site, avoiding treatment at a 
        healthcare facility. This year, Paul Starr, also at the 
        University of Maryland, was recognized for his 20 years as a 
        certified specialist in poison information. #H4BHS15526
            Bureau of Health Professions (BHPr)
    AACP supports the Health Professions and Nursing Education 
Coalition (HPNEC) recommendation of $762.5 million for Title VII and 
VIII programs in fiscal year 2012.
    AACP member institutions are active participants in BHPr programs. 
Two colleges of pharmacy are current grantees in the Centers of 
Excellence program (Xavier University School of Pharmacy). This program 
focuses on increasing the number of underserved individuals attending 
health professions institutions. Colleges and schools of pharmacy are 
also part of Title VII interprofessional and community-based linkages 
programs including Geriatric Education Centers and Area Health 
Education Centers. These programs are essential for creating the 
educational approaches necessary for the Institute of Medicine's 
recommendations of improving quality through team-based, patient-
centered care and serve as valuable experiential education sites for 
student pharmacists.
  --Gayle A. Hudgins, faculty at the University of Montana, was awarded 
        an ARRA supplement of $132,446 from HRSA, Bureau of Health 
        Professions, for equipment to enhance training for health 
        professionals.

Food and Drug Administration (FDA)
    AACP recommends a funding level of $3.7 billion for FDA programs in 
fiscal year 2012.
    The FDA sees the colleges and schools of pharmacy as essential 
partners in assuring the public has access to a healthcare professional 
well versed in the science of safety. Pharmacy faculty partner with the 
FDA to improve the drug manufacturing process through the National 
Institute for Pharmaceutical Technology and Education (NIPTE) and 
increase the science-base for decisions regarding drug and device 
safety and effectiveness.
  --Dianne M. Cappelletty, Associate Professor at The University of 
        Toledo, was recently appointed to serve on the advisory 
        committee to the Division of Anti-Infective and Ophthalmology 
        Products.
  --James E. Polli, University of Maryland, received $1,099,990 from 
        the FDA for ``Pharmacokinetic Studies of Epileptic Drugs: 
        Evaluation of Brand & Generic Antiepileptic Drug Products in 
        Patients.''

National Institutes of Health (NIH)
    AACP supports the Ad Hoc Group for Medical Research recommendation 
of $35 billion for fiscal year 2012.
    Pharmacy faculty are supported in their research by nearly every 
institute at the NIH. The NIH-supported research at AACP member 
institutions spans theresearch spectrum from the creation of new 
knowledge through the translation of that new knowledge to providers 
and patients. In 2010, pharmacy faculty researchers received more than 
$358 million in grant support from the NIH. AACP member institutions 
are concerned, as are other health professions education organizations, 
of the need to increase the number of biomedical researchers.
  --At the University of California, San Francisco, Kathleen M. 
        Giacomini and co-lead Deanna L. Kroetz received $15.1 million 
        in funding over the next 5 years from the NIH for research into 
        the genetics behind membrane transporters and a branch project 
        from that research that will focus on the genetic factors that 
        determine responses to the anti-diabetic drug, metformin in 
        African American patients with type 2 diabetes. #2U19GM061390-
        11
  --Alice M. Clark and Ameeta K. Agarwal, University of Mississippi, 
        received $388,221 from the National Institute of Allergy and 
        Infectious Diseases to study New Drugs for Opportunistic 
        Infections. #5R01AI027094-21
  --Eugene D. Morse, the University at Buffalo, received two grants: 
        $952,000 in funding for, ``Clinical Pharmacology Quality 
        Assurance and Quality Control'' funded by the National 
        Institute of Allergies and Infectious Diseases/Division of AIDS 
        and $2.3 Million for, ``Clinical Pharmacology Lab from NIH to 
        Promote HIV Research in Africa.'' #272200800019C-4-0-1
  --Jordan K. Zjawiony and Charles L. Burandt, the University of North 
        Carolina, received $71,500 from the NIH to study Chemistry and 
        Pharmacology of Newly Emerging Psychoactive Plants-Year 2. 
        #5R03DA023491-02

U.S. DEPARTMENT OF EDUCATION SUPPORTED PROGRAMS AT COLLEGES AND SCHOOLS 
                              OF PHARMACY

    AACP supports the Student Aid Alliance's recommendations for:
  --Pell Grant maximum be maintained at $5,550;
  --Gaining Early Awareness and Readiness for Undergraduate Programs 
        (GEAR UP) should be funded at $333 million; and
  --Maintaining the in-school interest subsidy for graduate program 
        loans.
    AACP recommends a funding level of $160 million for the Fund for 
the Improvement of Post Secondary Education (FIPSE).
    The Department of Education supports the education of healthcare 
professionals by:
  --assuring access to education through student financial aid 
        programs;
  --supporting educational research allows faculty to determine 
        improvements in educational approaches; and
  --maintaining the oversight of higher education through the approval 
        of accrediting agencies.
    AACP actively supports increased funding for undergraduate student 
financial assistance programs. Admission to into the pharmacy 
professional degree program requires at least 2 years of undergraduate 
preparation. Student financial assistance programs are essential to 
assuring colleges and schools of pharmacy are accessible to qualified 
students. Likewise, financial assistance programs that support graduate 
education are an important component meeting our Nation's need for 
scientists and educators.
                                 ______
                                 
    Prepared Statement of the American Association of Immunologists

    The American Association of Immunologists (AAI), a not-for-profit 
professional association representing more than 7,000 of the world's 
leading experts on the immune system, appreciates having this 
opportunity to submit testimony regarding fiscal year 2012 
appropriations for the National Institutes of Health (NIH). The vast 
majority of AAI members, whose crucially important discoveries help to 
prevent, treat and cure disease, depends on NIH funding to support 
their work.\1\
---------------------------------------------------------------------------
    \1\ AAI members work in academia, government, and industry. Many 
members receive grants from the National Institute of Allergy and 
Infectious Diseases, the National Cancer Institute, the National 
Institute on Aging, and the National Institute of Arthritis and 
Musculoskeletal and Skin Diseases, as well as other NIH Institutes and 
Centers.
---------------------------------------------------------------------------
    For more than 50 years, NIH has been envy of the world and has been 
instrumental in promoting science, better health, and discovery. Unlike 
many Federal agencies, NIH distributes most of its funding to 
scientists working in all 50 States. In fact, about 80 percent of the 
$31.2 billion NIH budget is awarded to scientists working at research 
institutions throughout the United States, making NIH funding the 
foundation of our Nation's biomedical research infrastructure and a key 
factor in local and national economic growth.\2\ In addition to its 
positive economic impact on a community, NIH funding supports highly 
skilled jobs that focus on improving human health.\3\ NIH funding also 
helps train the next generation of inventors and innovators, crucial to 
the nation's future job creation and pipeline of new therapeutics.
---------------------------------------------------------------------------
    \2\ NIH funding supports ``almost 50,000 competitive grants to more 
than 325,000 researchers at over 3,000 universities, medical schools, 
and other research institutions in every State and around the world.'' 
See http://www.nih.gov/about/budget.htm (3/9/11). According to NIH 
Director Francis Collins M.D., Ph.D., ``every dollar that NIH gives out 
in a grant returns over $2 in investments in terms of economic goods 
and services that are produced within just 1 year.'' ``Francis S. 
Collins,'' April 26, 2010, http://pubs.acs.org/cen/coverstory/88/
8817cover.html.
    \3\ ``[E]very grant that NIH gives creates seven high-quality, 
high-paying jobs that sustain American leadership in science.'' 
``Francis S. Collins,'' April 26,2010, http://pubs.acs.org/cen/
coverstory/88/8817cover.html.
---------------------------------------------------------------------------
The role of the immune system
    The immune system's job is to protect its human or animal host from 
a wide range of infectious and chronic diseases. When the immune system 
works, the host remains healthy. But many infectious diseases, 
including influenza, HIV/AIDS, malaria, tuberculosis, salmonella, and 
the common cold, challenge and sometimes overcome the defenses mounted 
by the immune system. And many chronic diseases, including cancer, 
diabetes, multiple sclerosis, rheumatoid arthritis, asthma, 
inflammatory bowel disease, and lupus, are either caused by--or due in 
large part to--an overactive (autoimmune) or underactive immune 
response.\4\ Advances in immunological research have already yielded 
progress in preventing, diagnosing, and treating some of these 
diseases, but further progress depends on increased knowledge in the 
field of immunology.
---------------------------------------------------------------------------
    \4\ The immune system works by recognizing and attacking bacteria 
and viruses inside the body and by controlling the growth of tumor 
cells. A healthy immune system can protect its human or animal host 
from illness or disease either entirely--by destroying the virus, 
bacterium, or tumor cell--or partially, resulting in a less serious 
illness. It is also responsible for the rejection response following 
transplantation of organs or bone marrow. The immune system can also 
malfunction, causing the body to attack itself, resulting in an 
``autoimmune'' disease, such as Type 1 diabetes, multiple sclerosis, 
lupus or rheumatoid arthritis.
---------------------------------------------------------------------------
    A young and evolving discipline,\5\ immunology has already answered 
many key questions and is now needed to explore urgent new challenges 
to community and global health, including understanding the human and 
animal immune response to: (1) pathogens that threaten to become the 
next pandemic, (2) man-made and natural infectious organisms that are 
potential agents of bioterrorism (including plague, smallpox, and 
anthrax),\6\ (3) environmental threats, and (4) cancer. While 
researchers and public health professionals must respond quickly to 
these emergent threats, AAI believes that the best preparation is to 
support consistent, ongoing research rather than to ``ramp up'' 
research in times of emergency.\7\
---------------------------------------------------------------------------
    \5\ 5 Although the first vaccine (against smallpox) was developed 
in 1798, most of our basic understanding of the immune system has 
developed in the last 50 years, and the pace of discovery is rapidly 
increasing.
    \6\ To best protect against bioterrorism, scientists should focus 
on basic research, including working to understand the immune response, 
identifying new and potentially modified pathogens, and developing 
tools (including new and more potent vaccines) to protect against these 
pathogens.
    \7\ For example, to best protect against a pandemic, scientists 
should focus on basic research to combat seasonal flu, including 
building capacity, pursuing new production methods, and seeking 
optimized flu vaccines and delivery methods.
---------------------------------------------------------------------------
Recent advances in immunological research
    Immunological research has led to unprecedented medical advances in 
recent years, including new treatments for lupus and malignant 
melanoma, and new vaccines against influenza and cervical cancer.
    The value of vaccination against disease and the importance of 
continued research and evaluation cannot be overstated. Recent 
expansion of the influenza vaccine to all U.S. children ``may induce 
herd immunity against influenza for older adults and has the potential 
to be more beneficial to older adults than the existing policy of 
preventing influenza by vaccinating older adults themselves.'' \8\ A 
recent study has shown the efficacy of vaccinating older adults, 
whether healthy or with chronic diseases, against shingles, a painful 
blistering skin rash caused by the varicella-zoster virus, the virus 
that causes chickenpox.\9\ Most recently, a new vaccine against 
rotavirus has greatly reduced hospital admissions in the United States 
in babies with infectious diarrhea and markedly decreased deaths in 
infants in the developing world.\10\ Thousands of children will not die 
due to the results of immunological and infectious disease research 
originally funded by the NIH on this killer virus.
---------------------------------------------------------------------------
    \8\ Cohen SA, Chui K, Naumova E, ``Influenza Vaccination in Young 
Children Reduces Influenza-associated Hospitalizations in Older Adults, 
2002-2006,'' Journal of the American Geriatrics Society, 2011; 
59(2):327-332.
    \9\ Tseng HF, Smith N, Harpaz R, Bialek SR, Sy LS, Jacobsen SJ, 
``Herpes zoster vaccine in older adults and the risk of subsequent 
herpes zoster disease,'' Journal of the American Medical Association, 
2011 Jan 12; 305(2):160-166.
    \10\ Esposito DH, Tate JE, Kang G, Parashar UD, ``Projected impact 
and cost-effectiveness of a rotavirus vaccination program in India, 
2008,'' Clinical Infectious Diseases, 2011; 52 (2):171-177. Gagneur A, 
Nowak E, Lemaitre T, Segura JF, Delaperriere N, Abalea L, Poulhazan E, 
Jossens A, Auzanneau L, Tran A, Payan C, Jay N, de Parscau L, Oger E, 
``Impact of rotavirus vaccination on hospitalizations for rotavirus 
diarrhea: The IVANHOE study,'' Vaccine, 2011 March 25, doi:10.1016/
j.vaccine.2011.03.035.
---------------------------------------------------------------------------
    Recently, immunologists have advanced the understanding of the 
exquisitely precise regulation of the immune system and are very 
hopeful that this understanding will allow for therapeutic manipulation 
of the immune system. This important discovery about immune-system 
regulation could lead to new approaches for the prevention and 
treatment of numerous autoimmune diseases, including lupus (systemic 
lupus erythematosus),\11\ a serious chronic autoimmune disease 
affecting about 1.5 million Americans. Finally, new monoclonal 
antibodies (highly specific immune molecules) that block the immune 
response of people with autoimmune diseases (in which one's immune 
system attacks one's own body) show enormous promise in improving these 
debilitating diseases.
---------------------------------------------------------------------------
    \11\ Kim HJ, Verbinnen B, Tang X, Linrong L, Cantor H, ``Inhibition 
of follicular T-helper cells by CD8+ regulatory T cells is essential 
for self tolerance,'' Nature, 2010 July 22; 467: 328-322.
---------------------------------------------------------------------------
Sustaining NIH Funding in a Difficult Fiscal Climate
    AAI greatly appreciates the strong historical support of this 
subcommittee for biomedical research, from doubling the NIH budget 
(fiscal year 1999 to fiscal year 2003), to passing the Appropriations 
Acts for fiscal year 2009 and 2010, to including in the American 
Recovery and Reinvestment Act of 2009 (``ARRA'') a $10.4 billion 
supplemental appropriation for NIH. As a result of this generous 
support, NIH has been able to fund many excellent, innovative projects 
with great promise for advancing human health, and to invest in the 
Nation's research infrastructure. AAI--and the entire biomedical 
research community--are deeply grateful for this support and for the 
subcommittee's strong bipartisan commitment to advancing medical 
research. And yet, AAI comes to you this year deeply concerned about 
efforts to cut, rather than invest in, the NIH budget. Imminent 
advances may not come to fruition if the fiscal year 2012 
appropriations level is unable to support NIH's current functional 
capacity ($34.4 billion), made possible in large part by this 
subcommittee's prior support. AAI remains concerned that investment in 
biomedical research continues unfettered by our global competitors, 
while our challenged budget makes it difficult for us to attract the 
best and brightest to these crucial scientific fields. The AAI funding 
recommendation for fiscal year 2012 is premised on these concerns.

NIH Funding for Fiscal Year 2012
    AAI greatly appreciates the President's proposed increase for NIH 
for fiscal year 2012 ($31.98 billion, or 4 percent increase over the 
regular fiscal year 2011 appropriations level). More is required, 
however, for NIH to be able to support existing research projects and 
fund a reasonable number of excellent new ones. AAI therefore urges the 
subcommittee to provide NIH with a fiscal year 2012 budget of $35 
billion to enable NIH to maintain its current functional capacity and 
to provide a small funding boost for important new research. Sustained 
funding, particularly in this challenging fiscal climate, would not 
only stabilize ongoing research projects and the overall research 
enterprise, but also inspire confidence in the system among many of our 
brightest young students who are considering (but due to such limited 
grant funding, are fearful to begin) careers in biomedical research.

NIH priorities for Fiscal Year 2012
    AAI believes strongly that the engine for biomedical innovation and 
discovery is individual investigator-initiated research. Researchers 
working in laboratories around the country, with their scientific 
collaborators around the world, are the best source of scientific 
advancement and progress. ``Top-down'' science, where Government 
directives force the research in specified directions, is less likely 
to achieve the desired goals than funding the best, most promising, 
ripest grant applications.
    AAI strongly supports the President's request for a $436 million 
increase in funding for individual research project grants (RPGs) that 
fund individual scientists. Unfortunately, this increase will only 
support approximately 43 additional RPGs. AAI notes that the 
President's budget includes $100 million to establish the Cures 
Acceleration Network (CAN). AAI recommends a significantly smaller 
appropriation for the first year of this program, with the remainder 
going to support additional RPGs.
    AAI supports the President's request for $300 million for the 
Global Fund to Fight AIDS, Tuberculosis, and Malaria--infectious 
diseases which devastate people and communities around the world.
    AAI supports the President's proposed 4 percent increase for the 
National Research Service Awards, a long-needed training stipend 
increase for young scientists who are the next generation of research 
leaders.
    AAI urges this subcommittee to do all it can to reduce the time-
consuming, distracting, and unnecessary administrative burden that too 
often accompanies the receipt of Government funds.
    AAI recommends strongly against any legislative effort to determine 
the size and number of NIH grants. Such a decision should be a 
scientific one made by NIH.
    AAI supports the President's request for $1.538 billion for NIH 
Research, Management, and Services (RM&S) to fund the management, 
monitoring, and oversight of all research activities. Only through 
adequate funding of this account will NIH be able to supervise and 
oversee its large and complex portfolio.

The NIH Public Access Policy
    AAI requests that the subcommittee require NIH to publicly report 
on the current and historical cost of the NIH Public Access Policy 
(``Policy''), and receive the response of private scientific publishers 
to this information. AAI continues to believe that the Policy 
duplicates publications and services which are already provided cost-
effectively and well by the private sector, including not-for-profit 
scientific societies. AAI and other private sector publishers already 
publish--and make publicly available--thousands of scientific journals 
with millions of articles that report cutting-edge research funded by 
NIH and other entities. AAI urges that the subcommittee require NIH to 
partner with, rather than compete with, private publishers to enhance 
public access while addressing publishers' key concerns, including 
respecting copyright law and ensuring journals' continued ability to 
provide quality, independent peer review of NIH-funded research.
Conclusion
    AAI thanks the subcommittee for its strong support for biomedical 
research, the NIH, and the biomedical researchers who devote their 
lives to scientific discovery and the prevention, treatment, and cure 
of disease.
                                 ______
                                 
  Prepared Statement of the American Association of Nurse Anesthetists

                                 FISCAL YEAR 2012 APPROPRIATIONS REQUEST SUMMARY
----------------------------------------------------------------------------------------------------------------
                                                                          Fiscal year--
                                                             --------------------------------------- AANA fiscal
                                                                                            2012      year 2012
                                                              2010 actual  2011 budget     budget      request
----------------------------------------------------------------------------------------------------------------
HHS/HRSA/BHPr Title VIII Advanced Education Nursing, Nurse    \1\ $3,500,      ( \2\ )      ( \2\ )  \3\ $4,000,
 Anesthetist Education Reserve..............................          000                                    000
Total for Advanced Education Nursing, from Title VIII.......   64,440,000   64,440,000  104,438,000  104,438,000
Title VIII HRSA BHPr Nursing Education Programs.............  243,872,000  243,872,000  313,075,000  313,075,000
CDC/Division of Healthcare Quality and Promotion............  ...........  ...........      ( \4\ )      ( \4\ )
----------------------------------------------------------------------------------------------------------------
\1\ Awards amounted to approximately.
\2\ Grant allocations not specified.
\3\ For nurse anesthesia education.
\4\ Maintain level funding.

    The American Association of Nurse Anesthetists (AANA) is the 
professional association for the 44,000 Certified Registered Nurse 
Anesthetists (CRNAs) and student nurse anesthetists practicing today, 
representing over 90 percent of the nurse anesthetists in the United 
States. Today, CRNAs deliver approximately 32 million anesthetics to 
patients each year in the United States. CRNA services include 
administering the anesthetic, monitoring the patient's vital signs, 
staying with the patient throughout the surgery, and providing acute 
and chronic pain management services. CRNAs provide anesthesia for a 
wide variety of surgical cases and in some States are the sole 
anesthesia providers in 100 percent of rural hospitals, affording these 
medical facilities obstetrical, surgical, and trauma stabilization, and 
pain management capabilities. CRNAs work in every setting in which 
anesthesia is delivered, including hospital surgical suites and 
obstetrical delivery rooms, ambulatory surgical centers (ASCs), pain 
management units and the offices of dentists, podiatrists and plastic 
surgeons. Nurse anesthetists are experienced and highly trained 
anesthesia professionals whose record of patient safety in the field of 
anesthesia was bolstered by the Institute of Medicine report in 2000, 
which found that anesthesia is 50 times safer than in the 1980s. (Kohn 
L, Corrigan J, Donaldson M, ed. To Err is Human. Institute of Medicine, 
National Academy Press, Washington DC, 2000.) Nurse anesthetists 
continue to set for themselves the most rigorous continuing education 
and re-certification requirements in the field of anesthesia. Relative 
anesthesia patient safety outcomes are comparable among nurse 
anesthetists and anesthesiologists, with a recent Health Affairs 
article, ``No Harm Found When Nurse Anesthetists Work without 
Supervision by Physicians'' finding that adverse outcomes were no more 
prevalent in States that opted out of the Medicare physician 
supervision requirement of nurse anesthetists than those States that 
didn't opt-out (Dulisse B, Cromwell J. No Harm Found When Nurse 
Anesthetists Work Without Supervision By Physicians. Health Aff. 
2010;29(8):1469-1475).
    In addition, a study published in Nursing Research indicates that 
obstetrical anesthesia, whether provided by CRNAs or anesthesiologists, 
is extremely safe, and there is no difference in safety between 
hospitals that use only CRNAs compared with those that use only 
anesthesiologists. (Simonson, Daniel C et al. Anesthesia Staffing and 
Anesthetic Complications During Cesarean Delivery: A Retrospective 
Analysis. Nursing Research, Vol. 56, No. 1, pp. 9-17. January/February 
2007). In addition, a recent AANA workforce study showed that CRNAs and 
anesthesiologists are substitutes in the production of surgeries. 
Through continual improvements in research, education, and practice, 
nurse anesthetists are vigilant in our efforts to ensure patient 
safety.
    CRNAs provide the lion's share of anesthesia care required by our 
U.S. Armed Forces through active duty and the reserves. For decades, 
CRNAs have staffed ships, remote U.S. military bases, and forward 
surgical teams without physician anesthesiologist support. In addition, 
CRNAs predominate in rural and medically underserved areas, and where 
more Medicare patients live.

Importance of Title VIII Nurse Anesthesia Education Funding
    The nurse anesthesia profession's chief request of the Subcommittee 
is for $4 million to be reserved for nurse anesthesia education and 
$104.438 million for advanced education nursing from the Title VIII 
program. We feel that this funding request is well justified, as we 
know that more baby boomers retiring will not only reduce our nurse 
workforce from retirements but will increase the demand from an aging 
population requiring care. The Title VIII program is an effective means 
to help address the nurse anesthesia workforce demand.
    Increasing funding for advanced education nursing from $64.44 
million in fiscal year 2010 to $104.438 million is necessary to meet 
the continuing demand for nursing faculty and other advanced education 
nursing services throughout the United Staes. The program provides for 
competitive grants that help enhance advanced nursing education and 
practice and traineeships for individuals in advanced nursing education 
programs. This funding is critical to meet the nursing workforce needs 
of Americans who require healthcare, particularly as we see more 
patients enter the system with health reform. More APRNs will be needed 
to fill the gap to ensure access to care. In addition, this funding 
provides a two-fold benefit for the nurse workforce. It not only seeks 
to increase the number of providers in rural and underserved America 
but also prepares providers at the master's and doctoral levels, 
increasing the number of clinicians who are eligible to serve as 
faculty.
    There continues to be high demand for CRNA workforce in clinical 
and educational settings. The supply of clinical providers has 
increased in recent years, stimulated by increases in the number of 
CRNAs trained. Between 2000-2009, the number of nurse anesthesia 
educational program graduates doubled, with the Council on 
Certification of Nurse Anesthetists (CCNA) reporting 1,075 graduates in 
2000 and 2,375 graduates in 2010. This growth is leveling off somewhat, 
but is expected to continue. However, even though the number of 
graduates has doubled in 8 years, the demand for nurse anesthetists 
continues to rise as the population ages, the number of clinical sites 
requiring anesthesia services grows, and CRNA retirements increase.
    The problem is not that our 111 accredited programs of nurse 
anesthesia are failing to attract qualified applicants. It is that they 
have to turn them away by the hundreds. The capacity of nurse 
anesthesia educational programs to educate qualified applicants is 
limited by the number of faculty, the number and characteristics of 
clinical practice educational sites, and other factors. A qualified 
applicant to a CRNA program is a bachelor's educated registered nurse 
who has spent at least 1 year serving in an acute care healthcare 
practice environment.
    Recognizing the important role nurse anesthetists play in providing 
quality healthcare, the AANA has been working with the 111 accredited 
nurse anesthesia educational programs to increase the number of 
qualified graduates. In addition, the AANA has worked with nursing and 
allied health deans to develop new CRNA programs. To truly meet the 
nurse anesthesia workforce challenge, the capacity and number of CRNA 
schools must continue to grow. With the help of competitively awarded 
grants supported by Title VIII funding, the nurse anesthesia profession 
is making significant progress, expanding both the number of clinical 
practice sites and the number of graduates.
    The AANA is pleased to report that this progress is extremely cost-
effective from the standpoint of Federal funding. Anesthesia can be 
provided by nurse anesthetists, physician anesthesiologists, or by 
CRNAs and anesthesiologists working together. As mentioned earlier, the 
Health Affairs study by Dulisse and Cromwell indicates the safety of 
CRNA care. Another study published recently in Nursing Economic$ 
indicates that costs of educating and training a CRNA from 
undergraduate education through graduate education is roughly 15 
percent of the cost of educating and training an anesthesiologist 
(Hogan, PF, Seifert RF, Moore CS, Simonson BE, Cost Effectiveness 
Analysis of Anesthesia Providers, Nurs Econ. 2010;28(3): 150-169.) This 
study also found that among anesthesia delivery models, CRNAs acting 
independently provide anesthesia services at the lowest economic cost; 
costs for this model are 25 percent less than the second lowest cost 
model in which an anesthesiologist supervises six CRNAs. Nurse 
anesthesia education represents a significant educational cost-benefit 
for supporting CRNA educational programs with Federal dollars vs. 
supporting other, more costly, models of anesthesia education.
    To further demonstrate the effectiveness of the Title VIII 
investment in nurse anesthesia education, the AANA surveyed its CRNA 
program directors to gauge the impact of the Title VIII funding. Of the 
eleven schools that had reported receiving competitive Title VIII Nurse 
Education and Practice Grants funding from 1998 to 2003, the programs 
indicated an average increase of at least 15 CRNAs graduated per year. 
They also reported on average more than doubling their number of 
graduates. Moreover, they reported producing additional CRNAs that went 
to serve in rural or medically underserved areas.
    We believe the Subcommittee should allocate $4 million for nurse 
anesthesia education for several reasons. First, as this testimony has 
documented, the funding is cost-effective and needed. Second, this 
particular funding meets a distinct need not met elsewhere; nurse 
anesthesia for rural and medically underserved America is not affected 
by increases in the budget for the National Health Service Corps and 
community health centers, since those initiatives are for delivering 
primary and not surgical healthcare. Third, this funding meets an 
overall objective to increase access to quality healthcare in medically 
underserved America.

Title VIII Funding for Strengthening the Nursing Workforce
    The AANA joins The Nursing Community and the Americans for Nursing 
Shortage Relief (ANSR) Alliance in support of the Subcommittee 
providing a total of $313.075 million in fiscal year 2012 for nursing 
shortage relief through Title VIII. AANA asks that of the $313.075 
million, $104.438 million go to Advanced Education Nursing and $4 
million go to nurse anesthesia education to help increase clinicians in 
underserved communities and those eligible to serve as faculty. The 
AANA appreciates the support for nurse education funding in fiscal year 
2010 and past fiscal years from this Subcommittee and from the 
Congress.
    In the interest of patients past and present, particularly those in 
rural and medically underserved parts of this country, we ask Congress 
to invest in CRNA and nursing educational funding programs and to 
provide these programs the sustained increases required to help ensure 
Americans get the healthcare that they need and deserve. Quality 
anesthesia care provided by CRNAs saves lives, promotes quality of 
life, and makes fiscal sense. This Federal support for Title VIII and 
advanced education nurses will improve patient access to quality 
services and strengthen the Nation's healthcare delivery system.

Safe Injection Practices
    As a leader in patient safety, the AANA has been playing a vigorous 
role in the development and projects of the Safe Injection Practices 
Coalition, intended to reduce and eventually eliminate the incidence of 
healthcare facility acquired infections. Provider education and 
awareness, detection, tracking and response are all extremely important 
to preventing healthcare-associated infections. In the interest of 
promoting safe injection practice and reducing the incidence of 
healthcare facility acquired infections, we recommend the Committee 
maintain its level of funding for CDC's Division of Healthcare Quality 
and Promotion so they can address outbreaks and promote innovative ways 
to adhere to injection safety and infection control guidelines. We also 
hope the committee will support the CDC's efforts around provider 
education and patient awareness activities, as this issue transcends 
provider type and it's important to educate all types of providers and 
patients alike. In light of the recent healthcare-associated 
transmission of blood-borne pathogens in California, North Carolina, 
Florida, Colorado, and Nevada, the CDC needs resources to use the 
knowledge they have gained on detection and be able to develop new 
strategies to prevent healthcare associated transmission of blood borne 
pathogens.
                                 ______
                                 
   Prepared Statement of the American Congress of Obstetricians and 
                             Gynecologists

    The American Congress of Obstetricians and Gynecologists, 
representing 54,000 physicians and partners in women's healthcare, is 
pleased to offer this statement to the Senate Committee on 
Appropriations, Subcommittee on Labor, Health and Human Services, and 
Education. We thank Chairman Harkin, and the entire Subcommittee for 
the opportunity to provide comments on important programs to women's 
health. Today, the United States lags behind other nations in healthy 
births, yet remains high in birth costs. ACOG's Making Obstetrics and 
Maternity Safer (MOMS) Initiative seeks to improve maternal outcomes 
through more research and better data, and we urge you to make this a 
top priority in fiscal year 2012.
    Research is critically needed to understand why our maternal and 
infant mortality rate remains comparatively high. Having better data 
collection methods and comprehensive maternal mortality reviews has 
shown maternal mortality rates in some States, such as California, to 
be higher than previously thought. States without these resources are 
likely underreporting maternal and infant deaths and complications from 
childbirth. Without accurate data, the full range of causes of these 
deaths remains unknown. Effective research based on comprehensive data 
is a key MOMS element to developing and implementing evidence-based 
interventions.
    The President's budget for fiscal year 2012 takes a positive first 
step toward this goal, including a $1 billion increase for NIH, and 
ACOG requests the Subcommittee build on these increases to sustain the 
investment for women's health. Please note that given the current 
fiscal climate, our requests are more conservative this year and do not 
reflect the actual need in the health community. ACOG asks for a 1.7 
percent increase over fiscal year 2010 to the NICHD within NIH to 
$1.352 billion, a 2.3 percent increase for HRSA to $7.65 billion, a 19 
percent increase for CDC to $7.7 billion, and a 2 percent increase for 
AHRQ to $405 million.
    Funding of research and programs in the following areas are vital 
to the MOMS Initiative:

Maternal Mortality Reviews at HHS
    National data on maternal mortality is inconsistent and incomplete 
due to the lack of standardized reporting definitions and mechanisms. 
To capture the accurate number of maternal deaths and plan effective 
interventions, maternal mortality should be addressed through multiple, 
complementary strategies. ACOG recommends that HHS fund States in 
implementing maternal mortality reviews that would allow them to 
conduct regular reviews of all deaths within the State to identify 
causes, factors in the communities, and strategies to address the 
issues. Combined with adoption of the recommended birth and death 
certificates in all States and territories, CDC could then collect 
uniform data to calculate an accurate national maternal mortality rate. 
Results of maternal mortality reviews will inform research needed to 
identify evidence based interventions addressing causes and factors of 
maternal mortality and morbidity.
    ACOG urges Congress to provide $10 million to Health and Human 
Services to assist States in setting up maternal mortality reviews. 
ACOG also urges Congress to provide $50,000 to NIH to hold a workshop 
to identify definitions for severe maternal morbidity and $100,000 to 
HHS to develop a research plan to identify and monitor severe maternal 
morbidity.

Maternal/Child Health Research at the NIH
    The Eunice Kennedy Shriver National Institute of Child Health and 
Human Development (NICHD) conducts the majority of women's health 
research. Despite the NIH's critical advancements, reduced funding 
levels have made it difficult for research to continue.
    ACOG supports a 1.7 percent increase in funds over fiscal year 2010 
to $1.352 billion for the NICHD. A modest increase, these funds will 
assist the following research areas critical to the MOMS Initiative:
    Reducing the Prevalence of Premature Births.--There is a known link 
between pre-term birth and infant mortality, and women of color are at 
increased risk for delivering pre-term. NICHD is helping our Nation 
understand how adverse conditions and health disparities increase the 
risks of premature birth in high-risk racial groups, and how to reduce 
these risks. Prematurity rates have increased almost 35 percent since 
1981, accounting for 12.5 percent of all births, yet the causes are 
unknown in 25 percent of cases. Preterm births cost the Nation $26 
billion annually, $51,600 for every infant born prematurely. Direct 
healthcare costs to employers for a premature baby average $41,610, 15 
times higher than the $2,830 for a healthy, full-term delivery.
    Additional research is critically needed to understand how we can 
drive down our prematurity rates and NICHD conducts the majority of 
this research. For example, a 2003 NICHD study showed that progesterone 
supplementation reduces preterm birth in a select group of women, 
paving the way for its widespread clinical use. Today, around 139,000 
(3.3 percent) women are candidates for this therapy. Among these women, 
22 percent, or about 30,500, are likely to have a recurrent preterm 
birth without this treatment. With treatment, about one-third, or 
10,000, of these preterm births can be prevented. The prevention of all 
10,000 preterm births would result in direct medical cost savings of 
$334 million and total medical cost savings of $519 million. However, 
further studies are needed to determine if progesterone therapy can be 
designed to help prevent preterm delivery in other ways, including 
optimal preparation, dosage, and route of administration. The high cost 
of prematurity and past successful research at NICH highlights the need 
to sustain investments to reduce the rate of prematurity.
    ACOG supports the Surgeon General's effort to make the prevention 
of pre-term birth a national public health priority, and urges Congress 
to allocate $1 million to NICHD to create a Trans-disciplinary Research 
Center on Prematurity to help streamline efforts to reduce pre-term 
births.
    Obesity Research, Treatment and Prevention.--Obese pregnant women 
are at higher risk for poor maternal and neonatal outcomes. Additional 
research and interventions are needed to address the increased risk for 
poor outcomes in obese women receiving infertility treatment, the 
increased incidence of birth defects and stillbirths in obese pregnant 
women, ways to optimize outcomes in obese women who become pregnant 
after bariatric surgery, and the increased future risk of childhood 
obesity in their offspring.
    ACOG is grateful to the NIH for making obesity a priority and 
initiating trans-disciplinary approaches to combat obesity. The recent 
release of the Strategic Plan for NIH Obesity Research offers some 
innovative and promising directions for obesity research, and sustained 
funding is critical to implement the plan.
    Training Programs.--The average investigator is in his/her forties 
before receiving their first NIH grant, a huge dis-incentive for 
students considering bio-medical research as a career. Complicating 
matters, there is a gap between the number of women's reproductive 
health researchers being trained and the need for such research. The 
NICHD-coordinated Women's Reproductive Health Research (WRHR) Career 
Development program seeks to increase the number of ob-gyns conducting 
scientific research in women's health in order to address this gap. To 
date 170 WRHR Scholars have received faculty positions, and 7 new and 
competing WRHR sites were added in 2010.
    Additional funding to add new sites can help sustain this low-
dollar, large impact training program while at the same time shoring up 
the women's reproductive research workforce.

Maternal/Child Health Programs at CDC
    CDC funds programs that are critical to providing resources to 
mothers and children in need. Where NIH conducts research to identify 
causes of pre-term birth, CDC funds programs that provide resources to 
mothers to help prevent pre-term birth, and help identify factors 
contributing to pre-term birth and poor maternal outcomes.
    ACOG supports a 19 percent increase in funds over fiscal year 2010 
to $7.7 billion to increase CDC's ability to bring prevention, 
treatment and interventions to more women and children in need, and to 
help enact some of the important provisions within healthcare reform. 
This funding will help the following programs important to the MOMS 
Initiative:
    Electronic Birth Records and Death Records, National Center for 
Health Statistics (NCHS), National Vital Statistics System (NVSS).--
NCHS is the Nation's principal health statistics agency; it collects, 
analyzes and reports on data critical to all aspects of our healthcare 
system. NCHS collects State data needed to monitor maternal and infant 
health, such as use of prenatal care, and smoking during pregnancy. 
This data allows investigators to monitor maternal and child health 
objectives, and develop efficient prevention and treatment strategies.
    Uniform consistent data from birth and death records is critical to 
conducting research and directing public programs to combat maternal 
and infant death. Only 75 percent of States and territories use the 
2003 recommended birth certificates and 65 percent have adopted the 
2003 recommended death certificate. The President recently issued a 
Memorandum to all departments and agencies encouraging expanded data 
collection on maternal mortality by using the 2003 U.S. standard birth 
certificate and updating to electronic systems, noting that until all 
States adopt the same data standards it will be difficult to formulate 
national maternal mortality ratios.
    ACOG urges Congress to allocate $11 million for States to modernize 
their birth and death records systems to the 2003 recommended 
guidelines. It is a low cost that will yield enormous gains in CDC's 
ability to collect accurate data nationally and better direct medical 
research and best practice for physicians.
    Safe Motherhood/Infant Health.--Two to three women a day die from 
delivery complications. The Safe Motherhood Program supports CDC's work 
to identify and gather information on pregnancy-related deaths; collect 
and provide information about women's health and health behaviors 
around pregnancy; and expand the use of guidelines on preconception 
care into everyday practice and healthcare policy.
    Safe Motherhood also tracks infant morbidity and mortality 
associated with pre-term birth. ACOG is concerned with recent trends 
particularly among rates of late pre-term births. Increased funding is 
needed for CDC to improve national data systems to track pre-term birth 
rates and expand epidemiological research that focuses especially on 
the causes and prevention of preterm birth and births at 37-38 weeks 
gestation.
    ACOG urges Congress to include a 23.7 percent increase in funds to 
$55.4 million for Safe Motherhood, consistent with the President's 
fiscal year 2011 budget.

Maternal/Child Health Programs at HRSA
    HRSA delivers critical resources to communities to improve the 
health of mothers and children. ACOG urges a 2.3 percent increase in 
funds over fiscal year 2010 to $7.65 billion to increase the scope of 
HRSA programs, ultimately bringing more resources to more mothers and 
children. This funding will help expand the following programs 
important to the MOMS Initiative:
    Fetal Infant Mortality Reviews, Healthy Start Program.--The U.S. 
infant mortality rate is again on the rise and is particularly severe 
among minority and low-income women. The infant mortality rate among 
African-American women has been increasing since 2001 and reached 14.2 
deaths per 1,000 births in 2004. There also has been a startling rise 
in infant mortality in the South in the past few years.
    The Healthy Start Program through HRSA promotes community-based 
programs that focus on infant mortality and racial disparities in 
perinatal outcomes. These programs are encouraged to use the Fetal and 
Infant Mortality Review (FIMR) which brings together ob-gyn experts and 
local health departments to help solve problems related to infant 
mortality. Today more than 220 local programs in 42 States find FIMR a 
powerful tool to help solve infant mortality.
    ACOG urges Congress to include $.5 million for Healthy Start 
Programs to include FIMR.

Maternal Child Health Block Grant (MCH)
    The MCH is the only Federal program that exclusively focuses on 
improving the health of mothers and children. State and territorial 
health agencies and their partners use MCH Block Grant funds to reduce 
infant mortality, deliver services to children and youth with special 
healthcare needs, support comprehensive prenatal and postnatal care, 
screen newborns for genetic and hereditary health conditions, deliver 
childhood immunizations, and prevent childhood injuries.
    These early healthcare services help keep women and children 
healthy, eliminating the need for later costly care. For example, every 
$1 spent on preconception care programs for women with diabetes can 
reduce health costs by up to $5.19 by preventing costly complications 
in both mothers and babies. Studies also suggest that every $1 spent on 
smoking cessation counseling for pregnant women saves $3 in neonatal 
intensive care costs.
    ACOG urges Congress to increase funding for MCH $700 million, a 
5.74 percent increase over fiscal year 2010.

Title X Family Planning
    The Title X program provides contraceptive services, immunizations 
and other preventive healthcare, including screenings for STDs, HIV, 
breast cancer, cervical cancer, high blood pressure, and anemia to more 
than 5 million low-income men and women at more than 4,500 service 
delivery sites. These programs improve maternal and child health 
outcomes, prevent unintended pregnancies, and reduce the rate of 
abortions. Every $1 spent on family planning results in a $4 savings to 
Medicaid. Services provided at Title X clinics accounted for $3.4 
billion in healthcare savings in 2008 alone.
    ACOG supports a 3.15 percent increase in funds for Title X to $327 
million, consistent with the President's budget.
    Again, we would like to thank the Committee for its consideration 
of funding for programs to improve women's health, and we urge you to 
consider our MOMS Initiative in fiscal year 2012.
                                 ______
                                 
    Prepared Statement of the American Dental Education Association

    The American Dental Education Association (ADEA) \1\ respectfully 
submits this statement for the record and for your consideration as you 
begin to prioritize fiscal year 2012 appropriation requests. ADEA urges 
you to preserve the funding and fundamental structure of Federal 
programs that provide prevention of dental disease, access to oral 
healthcare for underserved populations, and access to careers in 
dentistry and oral health services.
---------------------------------------------------------------------------
    \1\ The American Dental Education Association represents all 61 
U.S. dental schools, 700 dental residency training programs, nearly 600 
allied dental programs, as well as more than 12,000 faculty who educate 
and train the nearly 50,000 students and residents attending these 
institutions. It is at these academic dental institutions that future 
practitioners and researchers gain their knowledge, where the majority 
of dental research is conducted, and where significant dental care is 
provided.
---------------------------------------------------------------------------
    As you know, ADEA's membership is comprised of all 61 dental 
schools in the United States. These academic dental institutions make 
substantial contributions to the oral health and well-being of the 
Nation. Services are provided through campus and offsite dental clinics 
where students and faculty provide patient care as dental homes to the 
uninsured and underserved populations. However, in order to continue to 
provide these services, there must be adequate funding. Therefore, it 
is critical that funding for oral healthcare, delivery of services, and 
research be preserved in order to ensure the level of care that is 
necessary for all segments of the population.
    ADEA's requests build upon funding from the American Economic 
Recovery and Reinvestment Act (ARRA), the Labor, Health and Human 
Services and Education fiscal year 2010 Appropriations, and the 
Continuing Resolution for fiscal year 2011. We are asking the committee 
to maintain adequate funding for the dental programs in Title VII of 
the Public Health Service Act; the National Institutes of Health and 
the National Institute of Dental and Craniofacial Research; the Dental 
Health Improvement Act; Part F of the Ryan White HIV/AIDS Treatment and 
Modernization Act: the Dental Reimbursement Program and the Community-
Based Dental Partnerships Program; and State-Based Oral Health Programs 
at the Centers for Disease Control and Prevention. These programs 
enhance and sustain State oral health departments, fund public health 
programs proven to prevent oral disease, fund research to eradicate 
dental disease, and fund programs to develop an adequate workforce of 
dentists with advanced training to serve all segments of the population 
including children, the elderly, and those suffering from chronic and 
life-threatening diseases.

$30 million for Primary Oral Healthcare Workforce Improvements (HHS)
    The dental programs in Title VII, Section 748 of the Public Health 
Service Act that provide training in general, pediatric, and public 
health dentistry and dental hygiene are critical. Support for these 
programs will help to ensure there will be an adequate oral healthcare 
workforce to care for the American public. The funding supports 
predoctoral oral health education and postdoctoral pediatric, general, 
and public health dentistry training. The investment that Title VII 
makes not only helps to educate dentists and dental hygienists, but 
also expands access to care for underserved communities.
    Additionally, Section 748 addresses the shortage of professors in 
dental schools with the dental faculty loan repayment program and 
faculty development courses for those who teach pediatric, general, or 
public health dentistry or dental hygiene. There are currently almost 
400 open faculty positions in dental schools. These two programs 
provide schools with assistance in recruiting and retaining faculty.

$35 billion for the National Institutes of Health, including $468 
        million for the National Institute of Dental and Craniofacial 
        Research (NIDCR)
    Discoveries stemming from dental research have reduced the burden 
of oral diseases, led to better oral health for millions of Americans, 
and uncovered important associations between oral and systemic health. 
Dental researchers are poised to make breakthroughs that can result in 
dramatic progress in medicine and health, such as repairing natural 
form and function to faces destroyed by disease, accident, or war 
injuries; diagnosing systemic disease from saliva instead of blood 
samples; and deciphering the complex interactions and causes of oral 
health disparities involving social, economic, cultural, environmental, 
racial, ethnic, and biological factors. Dental research is the 
underpinning of the profession of dentistry. With grants from NIDCR, 
dental researchers in academic dental institutions have built a base of 
scientific and clinical knowledge that has been used to enhance the 
quality of the nation's oral health and overall health.
    Also, dental scientists are putting science to work for the benefit 
of the healthcare system through translational research, comparative 
effectiveness research, health information technology, health research 
economics, and further research on health disparities. NIDCR continues 
to make disparities a priority with continued funding for the Centers 
for Research to Reduce Disparities in Oral Health at Boston University, 
the University of California, San Francisco, and the University of 
Colorado at Denver, the University of Florida, and the University of 
Washington.

$20 million for the Dental Health Improvement Act (DHIA)
    Section 340G of the Public Health Service Act created the Grants to 
States to Support Oral Health Workforce Activities as authorized by the 
Dental Health Improvement Act. This program supports the development of 
innovative dental workforce programs specific to the State's dental 
workforce needs and increases access to dental care for underserved 
populations.
    In 2010, Congress provided at total of $17.5 million to assist 
States in developing flexible dental workforce programs tailored to 
meet States' individual workforce needs. Grants are being used to 
support a variety of initiatives including, but not limited to: loan 
repayment programs to recruit culturally and linguistically competent 
dentists to work in underserved communities; rotating residents and 
students in rural areas; recruiting dental school faculty; training 
pediatricians and family medicine physicians to provide oral health 
services (screening exams, risk assessments, fluoride varnish 
application, parental counseling, and referral of high-risk patients to 
dentists); and supporting tele-dentistry. We expect fiscal year 2011 
appropriations to continue to fund the fiscal year 2010 awarded grants, 
many of which are 3-year projects.

$19 million for Part F of the Ryan White HIV/AIDS Treatment and 
        Modernization Act: Dental Reimbursement Program (DRP) and the 
        Community-Based Dental Partnerships Program
    Patients with compromised immune systems are more prone to oral 
infections like periodontal disease and tooth decay. By providing 
reimbursement to dental schools and schools of dental hygiene, the 
Dental Reimbursement Program (DRP) provides access to quality dental 
care for people living with HIV/AIDS while simultaneously providing 
educational and training opportunities to dental residents, dental 
students, and dental hygiene students who deliver the care. DRP is a 
cost-effective Federal/institutional partnership that provides partial 
reimbursement to academic dental institutions for costs incurred in 
providing dental care to people living with HIV/AIDS. Congress, 
recognizing that dental care is a ``core medical service'' needed by 
HIV patients provided $13.6 million to fund Part F in 2010.

$107 million for Diversity and Student Aid
    $24 million for Centers of Excellence (COE)
    $60 million for Scholarships for Disadvantaged Students (SDS)
    $22 million for Health Careers Opportunity Program (HCOP)
    $1.2 million for Faculty Loan Repayment Program (FLRP)
    Title VII Diversity and Student Aid programs play a critical role 
in helping to diversify the health profession's student body and 
thereby the healthcare workforce. For the last several years, these 
programs have not enjoyed adequate funding to sustain the progress that 
is necessary to meet the challenges of an increasingly diverse U.S. 
population.

$25 million for Oral Health Programs at the Centers for Disease Control 
        and Prevention (CDC)
    The CDC Oral Health Program expands the coverage of effective 
prevention programs. The program increases the basic capacity of State 
oral health programs to accurately assess the needs of the State, 
organize and evaluate prevention programs, develop coalitions, address 
oral health in state health plans, and effectively allocate resources 
to the programs. This strong public health response is needed to meet 
the challenges of oral disease affecting children, and vulnerable 
populations.
    As the oral health programs at the CDC are so important, we have 
serious concerns about the proposal to downgrade the status of the 
Division of Oral Health (DOH) at the CDC to a branch. We request that 
you do everything you can to prevent this move.
    Thank you for your consideration of this request. ADEA looks 
forward to working with you to ensure the continuation of congressional 
support for these critical programs. Please feel free to use us a 
resource on any issue affecting the oral healthcare of the nation.
    If you should have any questions regarding the aforementioned, 
please contact Deborah Darcy, ADEA Director of Congressional Affairs at 
(202) 289-7201 x 163.
                                 ______
                                 
   Prepared Statement of the American Dental Hygienists' Association

    On behalf of the American Dental Hygienists' Association (ADHA), 
thank you for the opportunity to submit testimony regarding 
appropriations for fiscal year 2012. ADHA appreciates the 
Subcommittee's past support of programs that seek to improve the oral 
health of Americans and to bolster the oral health workforce. Oral 
health is a part of total health and authorized oral healthcare 
programs require appropriations support in order to increase the 
accessibility of oral health services, particularly for the 
underserved.
    ADHA is the largest national organization representing the 
professional interests of more than 152,000 licensed dental hygienists 
across the country. Dental hygienists are primary care providers of 
oral health services and are licensed in each of the 50 States. 
Hygienists are committed to improving the Nation's oral health, a 
fundamental part of overall health and general well-being. In order to 
become licensed as a dental hygienist, an individual must graduate from 
an accredited dental hygiene education program and successfully 
complete a national written and a State or regional clinical 
examination.
    In the past decade, the link between oral health and total health 
has become more apparent and the significant disparities in access to 
oral healthcare services have been well documented. At the State and 
local level, policymakers and consumer advocates have been pioneering 
innovations to extend the reach of the oral healthcare delivery system 
and improve oral health infrastructure. At this time, when tens of 
millions of Americans struggle to obtain the oral healthcare required 
to remain healthy, Congress has a great opportunity to support oral 
health prevention, infrastructure and workforce efforts that will make 
care more accessible and cost-effective.
    ADHA urges full funding of all authorized oral health programs and 
describes some of the key oral health programs below:

Title VII Program Grants to Expand and Educate the Dental Workforce--
        Fund at a level of $25 million in fiscal year 2012
    A number of existing grant programs offered under Title VII support 
health professions education programs, students, and faculty. ADHA is 
pleased that dental hygienists are now recognized as primary care 
providers of oral health services and are included as eligible to apply 
for several grants offered under the ``General, Pediatric, and Public 
Health Dentistry'' grants.
    With millions more Americans eligible for dental coverage in coming 
years, it is critical that the oral health workforce is bolstered. 
Dental and dental hygiene education programs currently struggle with 
significant shortages in faculty and there is a dearth of providers 
pursuing careers in public health dentistry and pediatric dentistry. 
Securing appropriations to expand the Title VII grant offerings to 
additional dental hygienists and dentists will provide much needed 
support to programs, faculty, and students in the future.
    ADHA recommends funding at a level of $25 million for fiscal year 
2012.

Alternative Dental Health Care Provider Demonstration Project Grants--
        Fund at a level of $30 million in fiscal year 2012
    States have increasingly been pioneering new dental delivery models 
to extend access to oral healthcare services to those currently unable 
to access needed care. The Alternative Dental Health Care Provider 
Demonstration Project grants support State-level efforts to better 
utilize the existing oral health workforce as well as develop new 
provider models.
    A number of dental hygiene-based models are listed as eligible for 
the grants, including advanced practice hygienists, public health 
hygienists, and independent dental hygienists.
    Grants could also be awarded to dental therapist models, programs 
where physicians/other medical providers deliver basic dental services 
and other models deemed appropriate by the Secretary of Health and 
Human Services. Funding would also allow HRSA to fulfill its statutory 
requirement to contract with the Institute of Medicine to conduct a 
study of the demonstration projects.
    Currently, more than 30 States have statutes and rules that allow 
dental hygienists to work in community-based settings (like public 
health clinics, schools, and nursing homes) to provide oral health 
services without the presence or direct supervision of a dentist. These 
models extend the reach of dental professionals beyond the private 
dental office.
    The American Dental Education Association supports funding of this 
program. The PEW Charitable Trusts Children's Dental Campaign also 
supports funding of this program. Indeed, more than 60 organizations 
have called for funding this important program. Without the appropriate 
supply, diversity and distribution of the oral health workforce, the 
current oral health access crisis will only be exacerbated.
    ADHA recommends funding at a level of $30 million for fiscal year 
2012 to support these vital demonstration projects.

Oral Health Prevention and Education Campaign--Fund at a level of $5 
        million in fiscal year 2012
    A targeted national campaign led by the Centers for Disease Control 
to educate the public, particularly those who are underserved, about 
the benefits of oral health prevention could vastly improve oral health 
literacy in the country. While significant data has emerged over the 
past decade drawing the link between oral health and systemic diseases 
like diabetes, heart disease, and stroke, many remain unaware that 
neglected oral health can have serious ramifications to their overall 
health. Data is also emerging to highlight the role that poor oral 
health in pregnant women has on their children, including a link 
between periodontal disease and low-birth weight babies.
    ADHA advocates an allocation of $5 million in fiscal year 2012 for 
a national oral health prevention and education campaign.
School-Based Sealant Programs--Fund at a level sufficient to ensure 
        school-based sealant programs in all 50 States
    Sealants have long-proven to be low-cost and effective in 
preventing dental caries (cavities), particularly in children. While 
most dental disease is fully preventable, dental caries remains the 
most common childhood disease, five times more common than asthma, and 
more than half of all children age 5-9 have a cavity or filling.
    The CDC has noted that data collected in evaluations of school-
based sealant programs indicates the programs are effective in stopping 
and preventing dental decay. Significant progress has been made in 
developing best practices for school-based sealant programs, yet most 
States lack well developed programs as a result of funding shortfalls. 
ADHA encourages the transfer of funding from the Public Health and 
Prevention Fund sufficient to allow CDC to meaningfully fund school-
based sealant programs in all 50 States in fiscal year 2012.

Oral Health Programming within the Centers for Disease Control--Fund at 
        a level of $25 million in fiscal year 2012
    ADHA joins with others in the dental community in urging $25 
million for oral health programming within the Centers for Disease 
Control. This funding level will enable CDC to continue its vital work 
to control and prevent oral disease, including vital work in community 
water fluoridation. Federal grants to facilitate improved oral health 
leadership at the State level, support the collection and synthesis of 
data regarding oral health coverage and access, promote the integrated 
delivery of oral health and other medical services, enable States to 
innovate new types of oral health programs and promote a data-driven 
approach to oral health programming.
    ADHA joins with others in the oral health community to express 
concern with plans to fold the Division of Oral Health at CDC into the 
Division of Adult and Community Health, and asks the subcommittee to 
urge CDC to maintain the Division of Oral Health as a separate entity 
within the chronic disease center so that the Division of Oral Health 
can continue to improve the oral health of Americans from inception to 
old age.
    ADHA advocates for $25 million in funding for grants to improve and 
support oral health infrastructure and surveillance.

Dental Health Improvement Grants--Fund at a level of $20 million in 
        fiscal year 2012
    HRSA administered dental health improvement grants are an important 
resource for States to have available to develop and carry out State 
oral health plans and related programs. Past grantees have used funds 
to better utilize the existing oral health workforce to achieve greater 
access to care. Previously awarded grants have funded efforts to 
increase diversity among oral health providers in Wisconsin, promote 
better utilization of the existing workforce including the extended 
care permit (ECP) dental hygienist in Kansas, and in Virginia implement 
a legislatively directed pilot program to allow patients to directly 
access dental hygiene services.
    ADHA supports funding of HRSA dental health improvement grants at a 
level of $20 million for fiscal year 2012.

National Institute of Dental and Craniofacial Research--Fund at a level 
        of $468 million in fiscal year 2012
    The National Institute of Dental and Craniofacial Research (NIDCR) 
cultivates oral health research that has led to a greater understanding 
of oral diseases and their treatments and the link between oral health 
and overall health. Research breeds innovation and efficiency, both of 
which are vital to improving access to oral healthcare services and 
improved oral status of Americans in the future.
    ADHA joins with others in the oral health community to support 
NIDCR funding at a level of $468 million in fiscal year 2012.

Conclusion
    ADHA appreciates the difficult task Appropriators face in 
prioritizing and funding the many meritorious programs and grants 
offered by the Federal Government. In addition to the items listed, 
ADHA joins other oral health organizations in support for continued 
funding of the Dental Reimbursement Program (DRP) and the Community-
Based Dental Partnerships Program established under the Ryan White HIV/
AIDS Treatment and Modernization Act ($19 million for fiscal year 2012) 
as well as block grants offered by HRSA's Maternal Child Health Bureau 
($8 million for fiscal year 2012).
    ADHA remains a committed partner in advocating for meaningful oral 
health programming that makes efficient use of the existing oral health 
workforce and delivers high quality, cost-effective care.
                                 ______
                                 
        Prepared Statement of the American Diabetes Association

    Thank you for the opportunity to submit this testimony on behalf of 
the American Diabetes Association. As someone who has lived with 
diabetes for over thirty years, I am proud to be a representative of 
the nearly 105 million American adults and children living with 
diabetes or prediabetes.
    Every minute, three more people are diagnosed with diabetes. While 
nearly 26 million Americans have diabetes today, this number is 
expected to grow to 44 million in the next 25 years if present trends 
continue. Every 24 hours, 230 people with diabetes will undergo an 
amputation, 120 people will enter end-stage kidney disease programs and 
55 people will go blind from diabetes. Every single day, diabetes costs 
our country over a half a billion dollars, yet, that is but a fraction 
of the costs we face unless we immediately take action to stop the 
march of this epidemic.
    Given the toll the diabetes epidemic imposes on the Nation's health 
and economy and the promise of public diabetes research and public 
health initiatives, the American Diabetes Association (Association) 
respectfully requests programs at the National Institute of Diabetes 
and Digestive and Kidney Diseases (NIDDK) at the National Institutes of 
Health (NIH) and the Division of Diabetes Translation (DDT) at the 
Centers for Disease Control and Prevention (CDC) be top priorities in 
fiscal year 2012. As the Nation's leading non-profit health 
organization providing diabetes research, information and advocacy, the 
Association believes Federal funding for diabetes prevention and 
research is critical, not only for the 26 million American adults and 
children (8 percent of the population) who currently have diabetes, but 
for the 79 million more with prediabetes, a condition placing them at 
high risk for developing diabetes.
    The Association acknowledges the challenging fiscal climate and 
supports fiscal responsibility, but not at the expense of America's 
health and well-being. Simply put, our country cannot afford the 
consequences of failing to adequately fund diabetes research and 
programs, a cost paid in expensive complications and death. We cannot 
afford to turn our backs on the promising research which provides tools 
to prevent diabetes, better manage it and prevent complications, and 
bring us closer to a cure.
    Therefore, the Association urges the Senate LHHS Subcommittee to 
invest in research and prevention proportionate to the magnitude of the 
burden diabetes has on our country and, by doing so, to change the 
future of diabetes in America.
    Diabetes is a chronic disease that impairs the body's ability to 
use food for energy. The hormone insulin, which is made in the 
pancreas, is needed for the body to change food into energy. In people 
with diabetes, either the pancreas does not create insulin, which is 
type 1 diabetes, or the body does not create enough insulin and/or 
cells are resistant to insulin, which is type 2 diabetes. If left 
untreated, diabetes results in too much glucose in the blood stream. 
The majority of diabetes cases, 90 to 95 percent, are type 2, while 
type 1 diabetes accounts for 5 percent of diagnosed cases. 
Additionally, based on new diagnostic criteria, it is now estimated 
that 18 percent of pregnancies are affected by gestational diabetes. In 
the short term, blood glucose levels that are too high or too low (as a 
result of medication to treat diabetes) can be life threatening. The 
long-term complications of diabetes are widespread, serious--and 
deadly. In those with prediabetes, blood glucose levels are higher than 
normal and taking action to reduce their risk of developing diabetes is 
essential.
    The Centers for Disease Control and Prevention (CDC) has identified 
diabetes as a disabling, deadly epidemic, which is on the rise. Between 
1990 and 2001, the prevalence of diabetes increased by 60 percent. 
According to the CDC, one in three adults will have diabetes in 2050 if 
present trends continue. This number is even greater among minority 
populations, where nearly one in two adults will have diabetes in 2050.
    Additionally, type 2 diabetes, traditionally seen in older 
patients, is beginning to reach a younger population, due in part to 
the surge in childhood obesity. Approximately one in every 400 children 
and adolescents has diabetes, and an alarming 2 million adolescents (or 
1 in 6 overweight adolescents) aged 12-19 have prediabetes. The impact 
diabetes has on individuals and the healthcare system is enormous and 
continues to grow at a shocking rate. Diabetes is the leading cause of 
kidney failure, new cases of adult-onset blindness and non-traumatic 
lower limb amputations as well as a significant cause of heart disease 
and stroke.
    In addition to the physical toll, diabetes also attacks our 
pocketbooks. A study by the Lewin Group found when factoring in the 
additional costs of undiagnosed diabetes, prediabetes, and gestational 
diabetes, the total cost of diabetes and related conditions in the 
United States in 2007 was $218 billion ($18 billion for undiagnosed 
diabetes; $25 billion for prediabetes; $623 million for gestational 
diabetes). In 2007, medical expenditures due to diabetes totaled $116 
billion, including $27 billion for diabetes care, $58 billion for 
chronic diabetes-related complications, and $31 billion for excess 
general medical costs. Indirect costs resulting from increased 
absenteeism, reduced productivity, disease-related unemployment 
disability and loss of productive capacity due to early mortality 
totaled $58 billion. Approximately one out of every five healthcare 
dollars is spent caring for someone with diagnosed diabetes, while one 
in ten healthcare dollars is directly attributed to diabetes. Further, 
one-third of Medicare expenses are associated with treating diabetes 
and its complications.
    Despite these numbers, there is hope. A greater Federal investment 
in diabetes research at the National Institute of Diabetes and 
Digestive and Kidney Diseases (NIDDK) at the National Institutes of 
Health (NIH), and prevention, surveillance, control, and research work 
currently being done at the Division of Diabetes Translation (DDT) at 
the CDC is crucial for finding a cure and improving the lives of those 
living with, or at risk for, diabetes. Additionally, the National 
Diabetes Prevention Program is poised to dramatically cut the number of 
new diabetes cases in high-risk individuals. Accordingly, for fiscal 
year 2012, the American Diabetes Association is requesting:
  --$2.209 billion for the NIDDK, an increase of $267 million over the 
        fiscal year 2011 level. This additional funding will act to 
        offset years of decreased or flat funding combined with 
        inflation that has lead to cutbacks in promising research. It 
        will also demonstrate Congress's commitment to science and 
        research in the face of this deadly epidemic.
  --$86.1 million for the DDT, which represents a total increase of 
        $21.3 million over the fiscal year 2011 level for the DDT's 
        critical prevention, surveillance and control programs. Even as 
        proposals to consolidate the CDC's chronic disease programs 
        including DDT circulate, expanded investment in the DDT will 
        produce much larger savings in reduced acute, chronic, and 
        emergency care spending.
  --$80 million for the implementation of the National Diabetes 
        Prevention Program through the Prevention and Public Health 
        Fund.

NIH's National Institute of Diabetes and Digestive and Kidney Diseases 
        (NIDDK)
    The NIDDK is poised to make major discoveries to prevent diabetes, 
better treat its complications, and--ultimately--find a cure. 
Researchers supported by the NIH are working on a variety of projects 
representing hope for the millions of individuals with both type 1 and 
type 2 diabetes. While the list of advances in treatment and prevention 
is long, much more can be achieved for people with diabetes with an 
increased investment in scientific research at the NIDDK.
    Thanks to research at the NIDDK, people with diabetes now manage 
their disease with a variety of insulin formulations and regimens far 
superior to those used in decades past. The result is the ability to 
live healthier lives with diabetes. Because of these advances, my 
hemoglobin A1C, which provides a snapshot of an individual's blood 
glucose, went from 12.9 percent, a very dangerous level, to 5.9 
percent, an accomplishment that provides me with hope of avoiding 
diabetes's devastating complications. This is a dramatic development 
for me and proof of the importance of NIDDK's work.
    Recent discoveries at the NIDDK include the ability to predict type 
1 diabetes risk, new drug therapies for type 2 diabetes, and the 
discovery of genetic markers explaining the increased burden of kidney 
disease among African Americans. The NIDDK funded the Diabetes 
Prevention Program, a multicenter clinical research trial, which found 
modest weight loss through dietary changes and increased physical 
activity could prevent or delay the onset of type 2 diabetes by 58 
percent. While great strides have been made in diabetes research, there 
are many unanswered questions about the disease meriting further study. 
Diabetes researchers across the country are poised to expand the base 
of knowledge of diabetes in order to make new discoveries transforming 
diabetes prevention and care.
    Increased fiscal year 2012 funding would allow the NIDDK to support 
additional research in order to build upon past successes, improve 
prevention and treatment, and close in on a cure. For example, 
additional funding will support a new comparative effectiveness 
clinical trial testing different medications for type 2 diabetes, a 
process that is instrumental in finding the most effective treatments 
for type 2 diabetes. fiscal year 2012 funding will also support 
researchers who are studying how insulin-producing beta cells develop 
and function, with an ultimate goal of creating therapies for replacing 
damaged or destroyed beta cells in people with diabetes. Finally, 
additional funding will support ongoing studies outlining environmental 
triggers of disease, which could identify an infectious cause of type 1 
diabetes and lead to a vaccine.

CDC's Division of Diabetes Translation (DDT)
    The Senate Appropriations Committee's fiscal year 2011 bill 
provided increased resources to address chronic diseases through the 
creation of the Chronic Disease Initiative (CDI) at CDC. In approving 
the fiscal year 2011 LHHS bill, the full Committee acknowledged chronic 
disease programs, including the diabetes programs traditionally 
operated through the DDT, have been woefully underfunded to adequately 
address the trajectory and scope of diabetes and other diseases 
including heart disease, stroke and arthritis.
    This year, ideas continue to circulate to consolidate programs at 
CDC, including DDT. While we think coordination across chronic disease 
programs at CDC is an important endeavor, Congress must ensure the 
needs of people with, and at risk for, diabetes are adequately 
addressed. Given DDT funding has not kept pace with the magnitude of 
the growing diabetes epidemic, the Federal investment in DDT programs 
should be substantially increased--at a minimum to $86.1 million in 
fiscal year 2012--regardless of the organization of chronic disease 
programs at CDC or in any consolidation plan. As the dialogue continues 
about how best to address chronic disease prevention, DDT should be the 
centerpiece in the Federal Government's efforts in this regard and its 
State and national expertise should be maintained.
    Preserving the DDT's expertise is vital. The Division works to 
eliminate the preventable burden of diabetes through proven educational 
programs, best practice guidelines and applied research. It performs 
vital work in both primary prevention of diabetes and in preventing its 
complications. Both key missions must continue. Funds appropriated to 
DDT focus on developing and maintaining State-based Diabetes Prevention 
and Control Programs (DPCPs), supporting the National Diabetes 
Education Program (NDEP), defining the diabetes burden through the use 
of public health surveillance, and translating research findings into 
clinical and public health practice. Our request of an additional $21.3 
million will allow these programs at DDT to reach more at-risk 
Americans and help to prevent or delay this destructive disease and its 
complications.
    DDT's Diabetes Prevention and Control Programs, located in all 50 
States, the District of Columbia, and U.S. territories, work to prevent 
diabetes, to lower blood glucose and cholesterol levels and to reduce 
diabetes-related emergency room visits and hospitalizations. DDT also 
plays a leadership role in the dissemination of diabetes prevention and 
treatment information through the National Diabetes Education Program, 
a joint effort of DDT and NIDDK. Funding for the DDT also supports 
vital and groundbreaking translational research like the Search for 
Diabetes in Youth study, collaboration between DDT and NIDDK designed 
to determine the impact of type 2 diabetes in youth in order to improve 
prevention efforts aimed at young people. DDT is also engaged in 
efforts to eliminate diabetes related disparities in vulnerable 
populations that bear a disproportionate burden of the disease in urban 
and rural areas. Finally, DDT maintains vital diabetes data at the 
State and national levels through the National Diabetes Surveillance 
System, which helps determine how best to deploy resources in the most 
appropriate and cost-effective way.
    Although DDT has played an instrumental role in fighting the 
diabetes epidemic, the reach of the Division could be significantly 
broader with additional fiscal year 2012 funding. With an additional 
$21.3 million, the DDT will be able to expand the reach of DPCPs in 
every State and territory. Given the dramatic decreases in funding for 
State and local health departments, supporting the work of the DPCPs is 
more critical than ever to ensure access to diabetes care and services.
    Increased funding for DDT is needed to allow the Division to build 
upon its work in reducing health disparities through vital programs 
such as the Native Diabetes Wellness Program, furthering the 
development of effective health promotion activities and messages 
tailored to American Indian/Native Alaskan communities. Additional 
resources will enable the DDT to expand its translational research 
studies, leading to improved public health interventions.

The National Diabetes Prevention Program
    Further studies of the Diabetes Prevention Program by the CDC have 
shown this groundbreaking intervention can be replicated in community 
settings for a cost of less than $300 per participant. With this in 
mind, the National Diabetes Prevention Program was authorized by the 
Patient Protection and Affordable Care Act of 2010. This program will 
provide funding to the CDC to expand such evidence-based programs 
across the country. We ask the Committee to direct $80 million from the 
Fund for the National Diabetes Prevention Program.
    The National Diabetes Prevention Program supports the creation of 
community-based sites where trained staff will provide those at high 
risk for diabetes with cost-effective, group-based lifestyle 
intervention programs. Local sites will be required to provide detailed 
program plans, ensure adequate training, and be rigorously evaluated 
based on the achievement of required standards and goals. The program 
also includes applied research grants, which will advance the national 
strategy for community-based programs and improve communication 
strategies for high-risk communities.
    The Fund seeks to make a national investment in prevention and 
public health programs, both to improve the health of Americans and to 
rein in healthcare costs. The National Diabetes Prevention Program is 
exactly the program the Fund should be supporting. The NIH did research 
in the clinical setting--it worked. The CDC translated this research to 
the community setting--it worked. It is an amazingly inexpensive proven 
means of combating a growing epidemic. Indeed, the Urban Institute has 
estimated a nationwide expansion of this type of diabetes prevention 
program will save a total of $190 billion over 10 years. Based on 
estimates that a large portion of burden of chronic disease falls on 
the poor and elderly, the Institute's report assumes 75 percent of this 
savings would be savings to Medicare or Medicaid.

Conclusion
    As you consider the fiscal year 2012 appropriation for NIDDK, and 
DDT, and the National Diabetes Prevention Program, we ask you to 
consider diabetes is an epidemic growing at an astonishing rate, which 
will overwhelm the healthcare system with tragic consequences unless we 
take action. To change this future, we must increase our commitment to 
research and prevention to reflect the burden diabetes poses both for 
us and for our children. Our fight against diabetes must be 
significantly expanded. Your leadership in combating this growing 
epidemic is essential. Thank you for your commitment to the diabetes 
community and for the opportunity to submit this testimony. The 
Association is prepared to answer any questions you might have on these 
important issues.
                                 ______
                                 
  Prepared Statement of the American Foundation for Suicide Prevention

    Chairman Harkin, Ranking Member Shelby and members of the 
Committee. The American Foundation for Suicide Prevention (AFSP) thanks 
you for the opportunity to provide testimony on the funding needs of 
Federal Agencies and programs that play a critical role in suicide 
prevention efforts.
    AFSP is the leading national not-for-profit organization 
exclusively dedicated to understanding and preventing suicide through 
research, education and advocacy, and to reaching out to people with 
mental disorders and those impacted by suicide. You can find more 
information at www.asfp.org and www.spanusa.org.
    Preliminary data from the Centers for Disease Control for 2009 
shows that suicide is the 10th leading cause of death in the United 
States (36,547) and the third leading cause of death in teens and young 
adults from ages 15-24. Nearly 1.1 million Americans attempt suicide 
each year and another 8 million have suicidal thoughts. Suicide in 1 
year costs the United States $13 billion in lost earnings, 1 million 
years of lost life and suicide attempts requiring hospitalization 
amount to $3.54 billion in lost medical and work-loss costs.
    In order to more effectively combat this public health crisis, AFSP 
urges the Committee approve funding at the levels requested for the 
following programs/agencies for fiscal year 2012:
Garrett Lee Smith Memorial Act Programs
    We respectfully request that Garrett Lee Smith Memorial Act (GLSMA) 
youth suicide prevention grant programs receive $53.2 million for 
fiscal year 2012.
    Since 2005, the Substance Abuse and Mental Health Services 
Administration (SAMHSA) has awarded GLSMA grants to 45 State programs, 
12 tribal programs, and 78 colleges and universities for programs to 
help reduce youth suicides rates. State grantees include: Alaska, 
Arizona, Colorado, Connecticut, District of Columbia, Delaware, 
Florida, Georgia, Guam, Hawaii, Iowa, Idaho, Indiana, Kentucky, 
Louisiana, Massachusetts, Maryland, Maine, Michigan, Missouri, 
Mississippi, North Carolina, North Dakota, Nebraska, New Hampshire, New 
Mexico, Nevada, New York, Ohio, Oklahoma, Oregon, Pennsylvania, Rhode 
Island, South Carolina, South Dakota, Tennessee, Texas, Utah, Virginia, 
Vermont, Washington, Wisconsin, West Virginia, and Wyoming.
    Funding for the Act is directed to three programs administered by 
SAMHSA. We request $5 million for the Suicide Prevention Technical 
Assistance Center to support its mission of providing technical 
assistance and support to grantees. We request $42 million for the 
Youth Suicide Early Intervention and Prevention Strategies grant 
program. These grants help States and tribes develop and implement 
statewide youth suicide early intervention and prevention strategies 
that will raise awareness and educate people about mental illness and 
the risk of suicide, help young people at risk of suicide take the 
first step toward seeking help, and allow States to expand access to 
treatment options. Finally, we request $6.2 million to fund the Mental 
and Behavioral Health Services on Campus matching-grant program for 
colleges and universities to help raise awareness about youth suicide, 
as well as enable those institutions to train students and faculty to 
identify and intervene when youth are in crisis, and develop a system 
to refer students for care.

Support Federal Investment in Suicide Prevention Research at NIMH for 
        Fiscal Year 2012
    Strategic investments in disease research have produced declines in 
deaths, and the same types of investments are necessary to reduce 
deaths by suicide. In fiscal year 2010 (latest data) only $41 million 
was devoted directly to suicide research. AFSP urges Congress to 
increase the investment in suicide prevention research at the National 
Institutes of Mental Health by 15 percent, or $6.15 million.
    It is illuminating to compare the number of suicide deaths with the 
number of deaths in several major disease categories against the direct 
dollars spent on research in those areas (see below). In fact, the 
Institute of Medicine, in their 2002 report ``Reducing Suicide: A 
National Imperative,'' stated the following: ``There is every reason to 
expect that a national consensus to declare war on suicide and to fund 
research and prevention at a level commensurate with the severity of 
the problem will be successful, and will lead to highly significant 
discoveries as have the wars on cancer, Alzheimer's disease, and 
AIDS.''
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Maintain Vital Funding for SAMHSA Suicide Prevention Programs and 
        Mental Health Services
    As the lead Government agency charged with implementation of 
suicide prevention initiatives, AFSP urges this Committee to provide 
$3.387 billion for SAMHSA in fiscal year 2012. By this action Congress 
will recognize the important role SAMHSA plays in healthcare delivery 
and mental health services.
    As the lead Government agency charged with implementation of 
suicide prevention initiatives, SAMHSA has supported the establishment 
of a national toll-free hotline (the National Suicide Prevention 
Lifeline), a technical assistance center (the Suicide Prevention 
Resource Center), and a youth suicide prevention grant program for 
States and colleges (authorized and funded under the Garrett Lee Smith 
Memorial Act). Since its launch in January 2005, the Suicide Prevention 
Lifeline has answered more than 1 million calls and has 140 active 
crisis centers in 48 States. Beginning in 2008, SAMHSA's National 
Survey on Drug Use and Health asked respondents about suicide attempts 
and whether or not they had previously acknowledged major depression. 
This was an important first step forward in suicide surveillance, 
promoting greater attention to the interrelationship of suicide, 
substance abuse and depression. Moreover, the Agency also has been 
supporting the identification, development and promotion of best 
practices in suicide prevention, focusing on risk and protective 
factors related to suicide, with particular attention to mental health 
and substance abuse issues affecting suicide risk.

Support Federal Investment in Data Collection in Fiscal Year 2012
    To design effective suicide prevention strategies, we must first 
have complete, accurate and timely information about deaths by suicide. 
The National Violent Death Reporting System (NVDRS) provides this 
information, which is essential to improve State and Federal suicide 
prevention activities. Current funding of $3.5 million allows only 18 
States to participate in this program. This Committee approved an 
additional $1.5 million in fiscal year 2011; however, the bill never 
got signed into law. AFSP urges this Committee to appropriate the full 
$5 million for the NVDRS in fiscal year 2012.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Provide Funding for Depression Centers of Excellence (DCOE)
    This Committee included $10 million for the DCOE in the fiscal year 
2011 mark up as a down payment toward studying Depression, the most 
common psychiatric diagnosis associated with suicide. AFSP urges 
Congress to appropriate funds to the DCOE at the highest levels 
possible in fiscal year 2012.
    Depression Centers of Excellence would increase access to the most 
appropriate and evidence-based depression care and develop and 
disseminate evidence-based treatment standards to improve accurate and 
timely diagnosis of depression and bipolar disorders. Additionally, 
they would create a national database for large-sample effectiveness 
studies and a repository of evidence-based interventions and programs 
for depression and bipolar disorders. They would also utilize the 
network of centers as an ongoing national resource for public and 
professional education and training, with the goal of advancing 
knowledge and eradicating stigma of these mental disorders.
    Chairman Harkin, Ranking Member Shelby and Members of the 
Committee. AFSP once again thanks you for the opportunity to provide 
testimony on the funding needs of Federal Agencies and programs that 
play a critical role in suicide prevention efforts.
    Suicide robs families, communities and societies of tens of 
thousands of its citizens. In a single year, in the United States 
alone, suicide is responsible for the deaths of over 36,000 people of 
all ages and costs an estimated $13 billion in lost income. With your 
help, we can assure those tasked with leading the Federal Government's 
response to this public health crisis will have the resources necessary 
to effectively prevent suicide.
                                 ______
                                 
         Prepared Statement of the American Geriatrics Society

    Mr. Chairman and Members of the Subcommittee: We are writing on 
behalf of the American Geriatrics Society (AGS), a nonprofit 
organization of over 6,000 geriatrics healthcare professionals 
dedicated to improving the health, independence and quality of life of 
all older Americans. As the Subcommittee begins to work on its Labor-
HHS-Education Appropriations bill, we ask that you prioritize funding 
for the geriatrics education and training programs under Title VII and 
Title VIII of the Public Health Service Act and for research funding 
within the National Institute on Aging in fiscal year 2012.
    Continued Federal investments are needed to support the training of 
the healthcare workforce and to foster groundbreaking medical research 
so that our Nation is prepared to meet the unique healthcare needs of 
the rapidly growing population of seniors. While we fully recognize the 
fiscal challenges facing our Nation, we also recognize that sustained 
and enhanced Federal investments in these initiatives are essential to 
fulfilling the promise of health reform to deliver higher quality and 
better coordinated care to our Nation's seniors.
    We ask that the subcommittee consider the following recommended 
funding levels for these programs in fiscal year 2012 $46.5 million for 
Title VII Geriatrics Health Professions Programs, $5 million for Title 
VIII Comprehensive Geriatric Education Nursing Program, and $1.4 
billion for the National Institute on Aging.
    Summarized and broken down below are the American Geriatrics 
Society's funding priorities in these areas for fiscal year 2012.

Programs to Train Geriatrics Health Care Professionals
    This year, the first wave of baby boomers turn 65, signaling the 
start of a significant demographic shift in America's population. 
According to the Institute of Medicine's (IOM) ground-breaking 2008 
report, Retooling for an Aging America: Building the Healthcare 
Workforce, America's healthcare workforce is woefully ill-prepared to 
care for the growing and unprecedented number of seniors, especially 
those with multiple chronic and complex medical conditions.
    The increase in the older adult population is expected to be even 
greater in rural America, which are more likely to experience poor 
health and a shortage of healthcare resources. Not only are 
geriatricians few in number, but they are largely concentrated in urban 
areas. Of further concern, our Nation is facing a critical shortage of 
geriatrics faculty and healthcare professionals across disciplines. At 
the same time, the Title VII and VIII geriatrics programs under the 
Public Health Service Act have remained essentially level-funded since 
fiscal year 2007 and in each subsequent year the geriatrics programs 
have received an even smaller percentage of funding provided to Title 
VII and VIII programs.
    This trend must be reversed if we are to provide our seniors with 
the quality care they need and deserve. AGS believes it is critical 
that Congress increase the percentage of Title VII and VIII funding 
that is devoted to supporting increasing the capacity of America's 
healthcare workforce to care for older adults. Care provided by 
geriatric healthcare professionals, who understand the most complex 
cases and the most frail elderly, has shown to reduce those common and 
costly conditions that are often preventable with appropriate care, 
such as falls, polypharmacy, and delirium.
            Title VII Geriatrics Health Professions Programs ($46.5 
                    million)
    Funding for Title VII Geriatrics Health Professions Programs is a 
proven investment in ensuring that older adults receive high quality 
healthcare now and in the future. These programs support three 
initiatives: the Geriatric Academic Career Awards (GACAs), the 
Geriatric Education Center (GEC) program, and geriatric faculty 
fellowships, the only programs specifically designed to address the 
evident shortage of geriatrics healthcare professionals in the United 
States. Strong and sustained investments are important to reversing the 
chronic under-funding of these essential programs at a time when our 
Nation is facing a critical shortage of geriatrics healthcare 
professionals across disciplines. We ask the subcommittee to provide a 
fiscal year 2012 appropriation of $46.5 million for Title VII 
Geriatrics Health Professions Programs.
    Our funding request of $46.5 million breaks down as follows:
  --Geriatric Academic Career Awards (GACAs) ($5.3 million).--GACAs 
        support the development of newly trained geriatric physicians 
        in academic medicine who are committed to teaching geriatrics 
        in medical schools across the country. GACA recipients are 
        required to provide training in clinical geriatrics, including 
        the training of interdisciplinary teams of healthcare 
        professionals. Under ACA, GACAs have been expanded to a variety 
        of new disciplines beyond physicians, including those in 
        nursing, social work, psychology, dentistry, and pharmacy. AGS 
        has long advocated for this change. We must now ensure that 
        there is adequate funding to meet the increased demand given 
        the greater number of disciplines eligible for the award. A 
        budget of $5.3 million would support 68 awardees at $78,000 per 
        award.
      Program Accomplishments.--In Academic Year 2009-2010, there were 
        84 non-competing continuation awards. GACA awardees provided 
        interdisciplinary training in geriatrics training to about 
        60,000 health professionals. These awardees provided culturally 
        competent quality healthcare to over 525,000 underserved and 
        uninsured patients in acute care services, geriatric ambulatory 
        care, long-term care, and geriatric consultation services 
        settings.
  --Geriatric Education Centers (GECs) ($22.7 million).--GECs provide 
        grants to support collaborative arrangements involving several 
        health professions, schools and healthcare facilities to 
        provide multidisciplinary training in geriatrics, including 
        assessment, chronic disease syndromes, care planning, emergency 
        preparedness, and cultural competence unique to older 
        Americans. Under ACA, Congress authorized $10.8 million over 3 
        years for a supplemental grant award program that will train 
        additional faculty through an intensive short-term fellowship 
        program and also requires faculty to provide training to family 
        caregivers and direct-care workers. Our funding request of 
        $22.7 million includes continued support for the core work of 
        45 GECs and for up to 24 GECs to be funded to undertake the 
        work through the supplemental grant program.
      Program Accomplishments.--In Academic Year 2009-2010, the GEC 
        grantees provided clinical training to 54,167 health 
        professional students and to 20,791 interdisciplinary teams in 
        multiple settings.
  --Geriatric Training Program for Physicians, Dentists, and Behavioral 
        and Mental Health Professions ($8.5 million).--This program is 
        designed to train physicians, dentists, and behavioral and 
        mental health professionals who choose to teach geriatric 
        medicine, dentistry or psychiatry. The program provides fellows 
        with exposure to older adult patients in various levels of 
        wellness and functioning, and from a range of socioeconomic and 
        racial/ethnic backgrounds. Our funding request of $8.5 million 
        will allow 13 institutions to continue this important faculty 
        development program.
      Program Accomplishments.--In Academic Year 2009-2010, 11 non-
        competing continuation grants were supported. Forty-nine 
        physicians, dentists, and psychiatric fellows provided 
        geriatric care to 20,078 older adults across the care 
        continuum. Geriatric physician fellows provided healthcare to 
        12, 254 older adults. Geriatric dental fellows provided 
        healthcare to 4,073 older adults. Geriatric psychiatry fellows 
        provided healthcare to 3,751 older adults.
  --Geriatric Career Incentive Awards Program ($10 million).--This is a 
        new grant award program created under ACA to foster greater 
        interest among a variety of health professionals in entering 
        the field of geriatrics, long-term care, and chronic care 
        management. AGS supports the President's fiscal year 2012 
        request of $10 million to implement this new program.
            Title VIII Comprehensive Geriatric Education Nursing 
                    Program ($5 million)
    The American healthcare delivery system for older adults will be 
further strengthened by Federal investments in Title VIII Nursing 
Workforce Development Programs, specifically the comprehensive 
geriatric education grants, as nurses provide cost-effective, quality 
care. Increasing funding for the nursing comprehensive geriatric 
education program would be highly cost effective. This program supports 
additional training for nurses who care for the elderly, development 
and dissemination of curricula relating to geriatric care, and training 
of faculty in geriatrics. It also provides continuing education for 
nurses practicing in geriatrics.
    Under the new health reform law, this program is being expanded to 
include advanced practice nurses who are pursuing long-term care, 
geropsychiatric nursing or other nursing areas that specialize in the 
care of older adults. Our funding request of $5 million includes funds 
to continue the training of nurses caring for older Americans offer 200 
traineeships to nurses under this newly expanded program.
    Program Accomplishments.--In Academic Year 2009-2010, 27 CGEP 
grantees provided education and training to 3,030 Registered Nurses/
Registered Nursing Students; 260 Advanced Practice Nurses; 221 Faculty; 
110 Home Health Aides; 483 Licensed Practical/Vocational Nurses & LPN 
students; 730 Nurse Assistants/Patient Care Associates; 810 Allied 
Health Professionals and 929 lay persons, guardians, activity 
directors. The CGEP grantees provided 459 educational course offerings 
in the care of the elderly on a variety of topics to 6,846 
participants.

Research Funding Initiatives
            National Institute on Aging ($1.4 billion)
    The NIA leads a broad scientific effort to understand the nature of 
aging and to extend the healthy, active years of life. Robust medical 
research in aging is critical to the development of medical advances 
which will ultimately lead to higher quality and more efficient 
healthcare. Continued Federal investments in scientific research, 
including comparative effectiveness initiatives, will ensure that the 
NIA has the resources to succeed in its mission to establish research 
networks, assess clinical interventions and disseminate credible 
research findings to patients, providers and payers of healthcare.
    As a member of the Friends of the NIA, a broad-based coalition of 
more than 45 aging, disease, research, and patient groups committed to 
the advancement of medical research that affects millions of older 
Americans, AGS asks that NIA receive $1.4 billion in fiscal year 2012. 
Alternatively, in light of our Nation's immediate budget constraints, 
we request that that the NIA be funded at no less than the $1.29 
billion, as requested in the President's fiscal year 2012 budget.
    According to the Congressional Research Service, in fiscal year 
2003, NIH reached the peak of its purchasing power from regular 
appropriations when Congress completed a 5-year doubling of the NIH 
budget. In each year since then, NIH's buying power has declined 
because its annual appropriations have grown at a lower rate than the 
inflation rate for medical research.
    Essentially flat funding of NIH since 2003 has additionally led to 
declining numbers of young investigators choosing research careers, 
given the scarcity of funding to support their career development. We 
must provide the resources and tools to support the next generation of 
investigators and expand the pool of clinical researchers focused on 
advancing aging research.
    The ongoing Federal commitment to investments in science, research, 
and technology lead to cutting-edge breakthroughs in medicine and 
improved patient care. AGS urges Congress to maintain this commitment 
in fiscal year 2012 and beyond, so that we may continue to advance 
medicine to improve the quality of care of our Nation's older adults 
and the long-term goals of health reform can be fully achieved.
    In closing, geriatrics is at a critical juncture, with our Nation 
facing an unprecedented increase in the number of older patients with 
complex health needs. Strong support such as yours will help ensure 
that the promise of health reform is fulfilled and every older American 
is able to receive high-quality healthcare.
    Thank you for your consideration.
                                 ______
                                 
          Prepared Statement of the American Heart Association

    Over the past 50 years, major progress has been made in the battle 
against heart disease, stroke and other forms of cardiovascular disease 
(CVD). Improved diagnosis and treatment have been remarkable--as has 
the survival rate. According to the National Institutes of Health 
(NIH), since the 1960s, 1.6 million lives have been saved that would 
have been lost to CVD. Americans can now expect to live on average 4 
years longer due to the reduction in heart-related deaths.
    Yet, one startling fact remains. Heart disease and stroke are still 
respectively the No. 1 and No. 3 killers in the United States. Nearly 
2,200 people die of CVD each day--one death every 39 seconds. CVD is a 
major cause of disability and costs our Nation more than any disease--a 
projected $287 billion in medical expenses and lost productivity for 
2007. Today, an estimated 83 million adults suffer from CVD. Moreover, 
CVD risk factors such as obesity and high blood pressure are on the 
rise. At age 40, the lifetime risk for CVD is 2 in 3 for men and over 1 
in 2 for women.
    Moreover, a new study projects that more than 40 percent of adults 
in the United States will live with the consequences of CVD at a cost 
to exceed $1 trillion annually by the year 2030. The graying of 
Americans combined with the explosive growth in medical spending are 
the main drivers of increased costs. Our country is truly facing a 
crisis. Without prevention on a nationwide scale, managing CVD will be 
an enormous challenge. Clearly, there must be a greater emphasis on 
prevention and evidence-based approaches to healthy behaviors. This 
will require strategies to reach people where they live, work and play. 
Prevention must be an integral part of our toolkit to promote heart 
healthy and stroke-free habits and wellness at an early age.
    Yet, in the face of these statistics, heart disease and stroke 
research, treatment and prevention programs remain woefully underfunded 
and money for NIH is unpredictable for the continuity of effort needed 
for key advances to redefine disease, ramp up prevention and promote 
best care.
    Given CVD is the No. 1 killer in each State and preventable and 
treatable risk factors continue to rise, many are surprised that the 
Centers for Disease Control and Prevention (CDC) invests on average 
only 16 cents per person on heart disease and stroke prevention. Also, 
only 20 States are funded for WISEWOMAN--a proven heart disease and 
stroke prevention program that serves uninsured and under-insured low-
income women with a high prevalence of CVD risk factors.
    Where you live could also affect if you survive a very deadly form 
of heart disease--sudden cardiac arrest (SCA). Only 21 States received 
funding in fiscal year 2010 for the Health Resources and Services 
Administration's (HRSA) Rural and Community Access to Emergency Devices 
Program designed to save lives from sudden cardiac death.
    The American Heart Association applauds the administration and 
Congress for providing hope to the 1 in 3 adults in the United States 
who live with CVD by wisely investing in the NIH and in the Prevention 
and Public Health Fund. These resources have provided a much needed 
boost to improve our Nation's physical and fiscal health. However, 
stable and sustained funding is critical for fiscal year 2012 to 
advance heart disease and stroke research, prevention and treatment.

     FUNDING RECOMMENDATIONS: INVESTING IN THE HEALTH OF OUR NATION

    Heart disease and stroke risk factors continue to rise, yet 
promising research to stem this tide goes unfunded. Too many Americans 
die from CVD, while proven prevention efforts beg for resources for 
widespread implementation. Now is the time to boost research, 
prevention and treatment of America's No. 1 and most costly killer. If 
Congress fails to build on progress of the past half century, Americans 
will pay more in lives lost and higher healthcare costs. Our 
recommendations address these issues in a comprehensive and fiscally 
responsible manner.

Capitalize on Investment for the National Institutes of Health (NIH)
    NIH research has revolutionized patient care and holds the key to 
finding new ways to prevent, treat and even cure CVD, resulting in 
longer, healthier lives and reduced healthcare costs. NIH invests 
resources in every State and in 90 percent of congressional districts. 
According to a 2008 study, the typical NIH grant paid the salaries of 
about 7 mainly high-tech full-time or part-time jobs in fiscal year 
2007. Further, every dollar that NIH distributes in a grant returns 
$2.21 in goods and services to the local community in 1 year.
    American Heart Association Advocates.--We advocate for a fiscal 
year 2012 appropriation of $35 billion for NIH to capitalize on the 
investment to save lives, advance better health, spur our economy and 
spark innovation. NIH research prevents and cures disease, generates 
economic growth and preserves the U.S. role as the world leader in 
pharmaceuticals and biotechnology.

Enhance Funding for NIH Heart and Stroke Research: A Proven and Wise 
        Investment
    From 1997 to 2007, death rates for coronary heart disease and 
stroke fell nearly 28 percent and 45 percent, respectively. However, 
there is still much more to be done to improve the lives of heart 
disease and stroke patients--and more importantly to prevent CVD and 
stroke in the first place. Research will help lead the way. These 
declines in mortality are directly related to NIH heart and stroke 
research, with scientists on the verge of exciting discoveries that 
could lead to new treatments and even cures. For example, the biggest 
U.S. stroke rehabilitation study showed that patients who receive home 
physical therapy improve walking skills just as effectively as those 
treated in a program and that the progress continued up to 1 year post-
stroke. NIH research has also demonstrated that over-zealous blood 
pressure lowering and combination lipid drugs did not cut 
cardiovascular disease in adult diabetics more than standard evidence-
based care. Moreover, studies have defined the genetic basis of risky 
responses to vital blood-thinners.
    In addition to saving lives, NIH-funded research can cut healthcare 
costs. For example, the original NIH tPA drug trial resulted in a 10-
year net $6.47 billion reduction in stroke healthcare costs. Also, the 
Stroke Prevention in Atrial Fibrillation Trial 1 produced a 10-year net 
savings of $1.27 billion. Yet, in the face of such solid returns on 
investments and other successes, NIH still invests a meager 4 percent 
of its budget on heart research, and a mere 1 percent on stroke 
research.

Cardiovascular Disease Research: National Heart, Lung, and Blood 
        Institute (NHLBI)
    Even in the face of progress and promising research opportunities, 
there is no cure for CVD. As our population ages, demand will only 
increase to find better ways for Americans to live healthy and 
productive lives despite CVD. Stable and sustained funding is needed to 
allow NHLBI to build on investments that provided grants to use 
genetics to identify and treat those at greatest risk from heart 
disease; hasten drug development to treat high cholesterol and high 
blood pressure; and create tailored strategies to treat, slow or 
prevent heart failure. Other key studies include an analysis of whether 
maintaining a lower blood pressure than currently recommended further 
reduces risk of heart disease, stroke, and cognitive decline. This 
information is vital to manage the burden of heart disease and stroke. 
Sustained critical funding will allow for aggressive implementation of 
other initiatives in the NHLBI and cardiovascular strategic plans.

Stroke Research: National Institute of Neurological Disorders and 
        Stroke (NINDS)
    An estimated 795,000 people in this country will suffer a stroke 
this year, and more than 135,950 will die. Many of the 7 million 
survivors face severe physical and mental disabilities, emotional 
distress and huge costs--a projected $41 billion in medical expenses 
and lost productivity for 2007. A new study projects stroke prevalence 
will increase 25 percent over the next 20 years, striking more than 10 
million individuals. Over the same time period, direct medical costs 
will rise 238 percent.
    Stable and sustained funding is required for NINDS to capitalize on 
investments to prevent stroke, protect the brain from damage and 
enhance rehabilitation. This includes initiatives to: (1) determine if 
MRI brain imaging can assist in selecting stroke victims who could 
benefit from the clot busting drug tPA beyond the 3-hour treatment 
window; (2) assess chemical compounds that might shield brain cells 
during a stroke; and (3) advance stroke rehabilitation by studying if 
the brain can be helped to ``rewire'' itself after a stroke. Enhanced 
funding will also allow for proactive initiation and implementation of 
the NINDS' novel stroke planning process (a result of its Stroke 
Progress Review Group) to assess the stroke research field and develop 
priorities to advance the most promising prevention, treatment, 
recovery and rehabilitation research.
    The American Heart Association Advocates.--While AHA supports 
increased funding for the 18 Institutes and centers that conduct heart 
and stroke research, including the National Institute of Diabetes, and 
Digestive and Kidney Diseases; and the National Institute on Aging, we 
have specific funding recommendations for the NHLBI and the NINDS. AHA 
advocates for an fiscal year 2012 appropriation of $3.514 billion for 
NHLBI; and $1.857 billion for NINDS.

Increase Funding for the Centers for Disease Control and Prevention 
        (CDC)
    Prevention is the best way to protect the health of all Americans 
and reduce the economic burden of CVD. Yet, effective prevention 
strategies and programs are not being implemented due to insufficient 
resources. The President's 2012 budget proposes a Coordinated Chronic 
Disease Prevention and Health Promotion Grant Program. AHA supports 
some consolidation of chronic disease programs, but with some important 
modifications and caveats. First, CDC must preserve the Division for 
Heart Disease and Stroke Prevention. A consolidation must ensure more 
predictable and adequate funding to all 50 States, including an annual 
share of the Prevention and Public Health Fund, with resources 
allocated by formula on the basis of burden, including cost, mortality, 
morbidity, and prevalence. These programs must be evidence-based and 
targeted, with a focus on capacity, evaluation and surveillance, 
including measurable outcomes and a higher level of accountability. To 
preserve the best elements of existing programs, funding should 
preserve evidenced-based outcomes work across the full spectrum of 
prevention and clinical care, including primary and secondary 
prevention, acute treatment, rehabilitation and continuous quality 
improvement (CQI). Each State must retain staff expertise to 
effectively address heart disease and stroke. State-based advisory 
groups of stakeholders from each constituency should be formed to help 
with plan implementation. A national advisory committee of 
constituencies should be created to foster stakeholder involvement. 
Matches, including in-kind, should be required when possible to build 
support in State health departments. Plans should use some funding for 
at least one program on common risk factors to consolidated diseases 
that can show a measurable, population-based impact. The rest of the 
funds should be spent on effective, evidence-based projects aimed at 
secondary prevention, acute treatment, rehabilitation, and CQI.
    This CDC division administers WISEWOMAN that serves uninsured and 
under-insured low-income women ages 40 to 64 in 20 States. This program 
helps them avoid heart disease and stroke by providing preventive 
health services, referrals to local healthcare providers, as needed, 
and lifestyle counseling and interventions tailored to their identified 
risk factors to promote lasting, healthy behavior modifications. From 
July 2008 to June 2010, WISEWOMAN reached more than 70,000 low-income 
women. During this time period, 89 percent of them had a least one risk 
factor and 28 percent had three or more risk factors for heart disease 
and stroke. However, more than 43,000 of these women participated in at 
least one lifestyle intervention session.
    The American Heart Association Advocates.--AHA joins with the CDC 
Coalition in advocating for $7.7 billion for the CDC's ``core 
programs,'' including increases for the Division of Heart Disease and 
Stroke Prevention and WISEWOMAN. AHA recommends $37 million to expand 
WISEWOMAN to more States and serve more eligible women in already 
funded States. We join the Friends of the NCHS in asking for $162 
million for the National Center for Health Statistics.

Restore Funding for Rural and Community Access to Emergency Devices 
        (AED) Program
    About 92 percent of sudden cardiac arrest (SCA) victims die outside 
of a hospital. But, prompt CPR and defibrillation, with an automated 
external defibrillator (AED), can more than double their chances of 
survival. Communities with comprehensive AED programs have reached 
survival rates of about 40 percent. HRSA's Rural and Community AED 
Program provides grants to States, competitively, to buy AEDs, train 
lay rescuers and first responders in their use and place AEDs where SCA 
is likely to occur. From September 2007 to August 2008, 3,051 AEDs were 
bought and 10,287 people were trained. And, 795 patients were saved 
between August 1, 2009 and July 31, 2010. Due to insufficient budgets, 
only 21 states received funds for this program in fiscal year 2010.
    The American Heart Association Advocates.--For fiscal year 2012, 
AHA advocates restoring HRSA's Rural and Community AED Program to its 
fiscal year 2005 level of $8.927 million.

Increase Funding for the Agency for Healthcare Research and Quality 
        (AHRQ)
    AHRQ develops scientific evidence to improve healthcare for 
Americans. AHRQ provides patients and caregivers with valuable 
scientific evidence to make the right healthcare decisions. AHRQ's 
research also enhances quality and efficiency of healthcare, providing 
the basis for protocols that prevent medical errors and reduce 
hospital-acquired infections, and improve patient confidence, 
experiences, and outcomes.
    The American Heart Association Advocates.--AHA joins Friends of 
AHRQ in advocating for $405 million for AHRQ to preserve its vital 
initiatives, boost the research infrastructure, spur innovation, 
nurture the next generation of scientists and help reinvent health and 
healthcare.

                               CONCLUSION

    Cardiovascular disease continues to inflict a deadly, disabling and 
costly toll on Americans. Yet, our funding recommendations for NIH, CDC 
and HRSA outlined above will save lives and cut rising healthcare 
costs. The American Heart Association urges Congress to seriously 
consider our suggestions during the fiscal year 2012 appropriations 
process. These proposed resources represent a wise investment for our 
nation and for the health and well-being of this and future 
generations.
                                 ______
                                 
 Prepared Statement of the American Indian Higher Education Consortium

    Summary of Requests.--Summarized below are the fiscal year 2012 
recommendations of the Nation's Tribal Colleges and Universities 
(TCUs), covering three areas within the Department of Education and one 
in the Department of Health and Human Services, Administration for 
Children and Families' Head Start Program.

                    DEPARTMENT OF EDUCATION PROGRAMS

Higher Education Act Programs
    Strengthening Developing Institutions.--Section 316 of HEA Title 
III-A, specifically supports TCUs' grant programs. The TCUs request 
that the Subcommittee appropriate $30 million for this critically 
important program, the same level included in the President's fiscal 
year 2012 budget request.
    TRIO Programs.--Retention and support services are vital to 
achieving the national goal of having the highest percentage of college 
graduates globally by 2020. The President's fiscal year 2012 budget 
request includes funding for TRIO programs at fiscal year 2010 levels, 
which is not enough to sustain even the current level of program 
services. The TCUs support building on the President's fiscal year 2012 
budget request for TRIO programs and technical assistance funding so 
that these essential program services can be, at a minimum, maintained 
at current levels.
    Pell Grants.--TCUs urge the Subcommittee to sustain the current 
Pell Grant maximum.
Perkins Career and Technical Education Programs
    Section 117 of the Carl D. Perkins Career and Technical Education 
Act provides a competitively awarded grant opportunity for tribally 
chartered and controlled career and technical institutions. AIHEC 
requests $8,200,000 to fund grants under Section 117 of the Perkins 
Act. Additionally, TCUs strongly support the Native American Career and 
Technical Education Program (NACTEP) authorized under Sec tion 116 of 
the Perkins Act.

Elementary and Secondary Education Act and Workforce Investment Act 
        Programs
    American Indian Teacher and Administrator Corps.--Authorized in 
Title IX of the Elementary and Secondary Education Act (ESEA) the 
American Indian Teacher Corps and the American Indian Administrator 
Corps offer professional development grants designed to increase the 
number of American Indian teachers and administrators serving their 
reservation communities. The TCUs request that the Subcommittee 
maintain funding for these programs at the fiscal year 2010 level.
    Adult and Basic Education.--Despite the loss of Federal funding for 
tribal adult basic education (ABE) in fiscal year 1996, there remains 
an extremely high demand for ABE programs in the communities that are 
home to the TCUs. While TCUs continue to offer adult education; GED; 
remediation and literacy services for American Indians, without 
dedicated funding these efforts cannot begin to meet demand. The TCUs 
request that the Subcommittee direct that $5 million of the funds 
appropriated each year for the Adult Education State Grants be made 
available to make competitive awards to TCUs to support the vitally 
needed reservation-based adult and basic education programs.

            DEPARTMENT OF HEALTH AND HUMAN SERVICES PROGRAM

Tribal Colleges and Universities Head Start Partnership Program (DHHS-
        ACF)
    Tribal Colleges and Universities are ideal partners to help achieve 
the goals of Head Start in Indian Country. The TCUs request that the 
Subcommittee direct the Head Start Bureau to make available $5 million, 
of the more than $8.1 billion for Head Start included in the 
President's fiscal year 2012 budget request or of the amount ultimately 
appropriated in fiscal year 2012, for the TCU-Head Start Partnership 
program grants. These funds will help to ensure that each of the TCUs 
has the opportunity to compete for these much-needed partnership funds, 
thereby giving a jump start to the education successes of more American 
Indian children growing up in poor and isolated tribal communities.

             BACKGROUND ON TRIBAL COLLEGES AND UNIVERSITIES

    The Nation's 36 Tribal Colleges and Universities, operating over 75 
sites, provide access to quality higher education to 80 percent of 
Indian Country. TCUs are accredited by independent, regional 
accreditation agencies and like all institutions of higher education, 
must undergo stringent performance reviews on a periodic basis to 
retain their accreditation status. In addition to college level 
programming, they provide high school completion (GED), basic 
remediation, job training, college preparatory courses, and adult 
education and literacy programs. TCUs fulfill additional roles within 
their respective reservation communities functioning as community 
centers, libraries, tribal archives, career and business centers, 
economic development centers, public meeting places, and child and 
elder care centers. Each TCU is committed to improving the lives of its 
students through higher education and to moving American Indians toward 
self-sufficiency.
    Tribal Colleges and Universities, chartered by their respective 
tribal governments, were established in response to the recognition by 
tribal leaders that local, culturally based institutions are best 
suited to help American Indians succeed in higher education. TCUs 
effectively blend traditional teachings with conventional postsecondary 
curricula. They have developed innovative ways to address the needs of 
tribal populations and are overcoming long-standing barriers to success 
in higher education for American Indians. Since the first TCU was 
established on the Navajo Nation just over 40 years ago, these vital 
institutions have come to represent the most significant development in 
the history of American Indian higher education, providing access to, 
and promoting achievement among, students who may otherwise never have 
known postsecondary education success.

  JUSTIFICATIONS FOR FISCAL YEAR 2012 APPROPRIATIONS REQUESTS FOR TCUS

    Tribal colleges and our students are already disproportionately 
impacted by efforts to reduce the Federal budget deficit and control 
Federal spending. The final fiscal year 2011 continuing resolution 
eliminated all of the Department of Housing and Urban Development's MSI 
community-based programs, including a critical TCU-HUD facilities 
program. TCUs were able to maximize leveraging potential, often 
securing even greater non-Federal funding to construct and equip Head 
Start and early childhood centers; student and community computer 
laboratories and public libraries; and student and faculty housing in 
rural and remote communities where few or none of these facilities 
existed. Important STEM program operated by the National Science 
Foundation and NASA were cut and for the first time since the program 
was established in fiscal year 2001, no new TCU-STEM awards, our sole 
STEM education program, are scheduled to be made in fiscal year 2011. 
Additionally, TCUs and our students suffer the impact of cuts to 
programs such as GEAR-UP, TRIO, SEOG, and year-round Pell more 
profoundly than do mainstream institutions of higher education, which 
have large endowments, alternative funding sources, including the 
ability to charge higher tuition rates, enroll more financially stable 
students, and affluent alumnae. The loss of opportunity that cuts to 
DoEd, HUD, and NSF programs represent to TCUs, and to other MSIs, is 
magnified by cuts to workforce development programs within the 
Department of Labor, nursing and allied health professions tuition 
forgiveness and scholarship programs operated by the Department of 
Health and Human Services, and an important TCU-based nutrition 
education program planned by USDA. Combined, these cuts strike at the 
most economically disadvantaged and health-challenged Americans.

Higher Education Act
    In 1998, section 316 within Title III-A of the Higher Education Act 
launched a new program specifically for the Nation's Tribal Colleges 
and Universities. Programs under Titles III and V of the Act support 
institutions that enroll large proportions of financially disadvantaged 
students and that have low per-student expenditures. TCUs, which are 
truly developing institutions, are providing access to quality higher 
education opportunities to some of the most rural, impoverished, and 
historically underserved areas of the country. Seven of the Nation's 10 
poorest counties are served by TCUs. A stated goal of the Higher 
Education Act Title III programs is ``to improve the academic quality, 
institutional management and fiscal stability of eligible institutions, 
in order to increase their self-sufficiency and strengthen their 
capacity to make a substantial contribution to the higher education 
resources of the Nation.'' The TCU Title III-A program is specifically 
designed to address the critical, unmet needs of their American Indian 
students and communities, in order to effectively prepare them to 
succeed in a global, competitive workforce. Yet, in fiscal year 2011 
this critical program was cut by 11 percent. The TCUs urge the 
Subcommittee to appropriate $30 million in fiscal year 2012 for HEA 
Title III-A section 316, which is slightly less than the fiscal year 
2010 appropriated funding level and the same as the President's fiscal 
year 2012 budget request.
    Retention and support services are vital to achieving the national 
goal of having the highest percentage of college graduates globally, by 
2020. The TRIO-Student Support Services program was created out of 
recognition that college access was not enough to ensure advancement 
and that multiple factors worked to prevent the successful completion 
of higher education for many low-income and first-generation students 
and students with disabilities. Therefore, in addition to maintaining 
the maximum Pell Grant award level, it is critical that Congress also 
sustains student assistance programs such as Student Support Services 
and Upward Bound so that low-income and minority students have the 
support necessary to allow them to persist in and complete their 
postsecondary courses of study.
    The importance of Pell Grants to TCU students cannot be overstated. 
U.S. Department of Education figures show that the majority of TCU 
students receive Pell Grants, primarily because student income levels 
are so low and our students have far less access to other sources of 
financial aid than students at State-funded and other mainstream 
institutions. Within the TCU system, Pell Grants are doing exactly what 
they were intended to do--they are serving the needs of the lowest 
income students by helping them gain access to quality higher 
education, an essential step toward becoming active, productive members 
of the workforce. The TCUs urge the Subcommittee to continue to fund 
this critical program at the highest possible level.

Carl D. Perkins Career and Technical Education Act
    Tribally Controlled Postsecondary Career and Technical 
Institutions.--Section 117 of the Carl D. Perkins Career and Technical 
Education Act provides a competitively awarded grant opportunity for 
tribally chartered and controlled career and technical institutions. 
AIHEC requests $8,200,000 to fund grants under Section 117 of the 
Perkins Act, the same level included in the President's fiscal year 
2012 budget request.
    Native American Career and Technical Education Program.--The Native 
American Career and Technical Education Program (NACTEP) under Section 
116 of the Act reserves 1.25 percent of appropriated funding to support 
American Indian career and technical programs. The TCUs strongly urge 
the Subcommittee to continue to support NACTEP, which is vital to the 
continuation of the career and technical education programs offered at 
TCUs that provide job training and certifications to remote reservation 
communities.

Greater Support of Indian Education Programs
    American Indian Adult and Basic Education (Office of Vocational and 
Adult Education).--This program supports adult basic education programs 
for American Indians offered by State and local education agencies, 
Indian tribes, agencies, and TCUs. Despite a lack of funding, TCUs must 
find a way to continue to provide much-in-demand basic adult education 
classes for those American Indians that the present K-12 Indian 
education system has failed. Before many individuals can even begin the 
course work needed to learn a productive skill, they first must earn a 
GED or, in some cases, even learn to read. There is an extensive need 
for basic adult educational programs and TCUs must have adequate and 
stable funding to provide these essential activities. TCUs request that 
the Subcommittee direct that $5 million of the funds appropriated 
annually for the Adult Education State Grants be made available to make 
competitive awards to TCUs to help meet the growing demand for adult 
basic education and remediation program services on their respective 
reservations.
    American Indian Teacher/Administrator Corps (Special Programs for 
Indian Children).--American Indians are greatly underrepresented in the 
teaching and school administrator ranks nationally. TCUs are community 
based institutions of higher education making them ideal catalysts for 
these two initiatives because of their current work in this area and 
the existing articulation agreements they hold with 4-year degree 
granting institutions. The TCUs request that the Subcommittee maintain 
these two programs at the fiscal year 2010 appropriated levels to 
continue to produce well-qualified American Indian teachers and school 
administrators in and for Indian Country.

DEPARTMENT OF HEALTH AND HUMAN SERVICES/ADMINISTRATION FOR CHILDREN AND 
                          FAMILIES/HEAD START

    Tribal Colleges and Universities (TCU) Head Start Partnership 
Program.--The TCU-Head Start Partnership has made a lasting investment 
in our Indian communities by creating and enhancing associate degree 
programs in Early Childhood Development and related fields. This 
program has afforded American Indian children Head Start programs of 
the highest quality. A clear barrier to the ongoing success of this 
partnership program is the lack of stable funds for the Partnership. 
The TCUs request that the Subcommittee direct the Head Start Bureau to 
designate $5 million, of the more than $8.1 billion included in the 
President's fiscal year 2012 budget request for programs under the Head 
Start Act, be made available for the TCU-Head Start Partnership 
program.

                               CONCLUSION

    Tribal Colleges and Universities are providing access to high 
quality higher education opportunities to many thousands of American 
Indians and essential community services and programs to many more. The 
modest Federal investment in TCUs has already paid great dividends in 
terms of employment, education, and economic development and 
continuation of this solid investment makes sound moral and fiscal 
sense. TCUs need your help if they are to sustain programs and achieve 
their missions to serve their students and communities.
    Thank you again for this opportunity to present our funding 
requests. We respectfully ask the Members of the Subcommittee for their 
continued support of the Nation's Tribal Colleges and Universities and 
full consideration of our fiscal year 2012 appropriations needs and 
recommendations.
                                 ______
                                 
Prepared Statement of the American Institute for Medical and Biological 
                              Engineering

    Mister Chairman and Members of the Subcommittee: The American 
Institute for Medical and Biological Engineering (AIMBE) appreciates 
the opportunity to submit testimony to advocate for funding for 
research within the National Institutes of Health (NIH) broadly, and 
specifically research funding within the National Institute for 
Biomedical Imaging and Bioengineering (NIBIB). NIH and NIBIB provide 
avenues for research funding that are vital to the Nation's efforts to 
support medical and biological engineering (MBE) innovation. AIMBE 
represents 50,000 individuals and organizations throughout the United 
States, including major healthcare companies, academic research 
institutions and the top 2 percent of engineers, scientists and 
clinicians whose discoveries and innovations have touched the health of 
nearly every American. While today's testimony focuses on the impact 
MBE has on improving the health and well-being of Americans, it is 
important to note that MBE can also have a positive impact on many of 
the other important issues facing us today; ranging from improvements 
to the environment by finding green-energy solutions, to solving 
problems relating to hunger, disease prevention, diagnosis and 
treatment of disease; to economic growth spurred by the innovation of 
new health products.
    AIMBE was founded in 1991 to establish a clear and comprehensive 
identity for the field of medical and biological engineering--which 
applies principles of engineering science and practice to imagine, 
create, and perfect the medical and biological discoveries that are 
used to improve the health and quality of life of Americans and people 
across the world. AIMBE's vision is to ensure MBE innovations continue 
to develop for the benefit of humanity.
    AIMBE applauds the past support of this committee to provide 
funding to NIH, and was particularly pleased at the strong investment 
in NIH provided by the American Recovery and Reinvestment Act. However, 
we were concerned over recent cuts by the continuing resolution budget 
for fiscal year 2011. We believe more stable, adequate, and reliable 
funding is necessary to ultimately ensure America remains competitive 
and continues to develop innovations that improve human health. An 
increase in funding will support important work which is highly 
translatable or applicable research into products that are life-saving, 
and life enhancing. NIBIB is the only institute at the NIH with the 
specific purpose of supporting and conducting biomedical engineering 
research, which impacts all sectors of health across many disease 
states. Research conducted within NIBIB is on the cutting edge of 
biomedical engineering and has the potential to save lives and reduce 
healthcare costs.
    While each Institute within the NIH plays a vital role researching 
and identifying disease prevention and treatment; the NIBIB plays a 
unique role and has not benefited from large-scale NIH funding 
increases, such as the doubling of the budget in 2004. First 
appropriated with its own funding in 2004 (fiscal year 2003 and fiscal 
year 2004 were funded through transfers from other Institutes within 
NIH), the mission of NIBIB is to improve health by leading the 
development and accelerating the application of biomedical 
technologies. The NIBIB is committed to integrating the physical and 
engineering sciences with the life sciences to advance basic research 
and medical care. This is achieved through research and development of 
new biomedical imaging and bioengineering techniques and devices to 
fundamentally improve the detection, treatment, and prevention of 
disease; enhancing existing imaging and bioengineering modalities; 
supporting related research in the physical and mathematical sciences; 
encouraging research and development in multidisciplinary areas; 
supporting studies to assess the effectiveness and outcomes of new 
biologics, materials, processes, devices, and procedures; developing 
non-imaging technologies for early disease detection and assessment of 
health status; and developing advanced imaging and engineering 
techniques for conducting biomedical research at multiple scales 
through modeling and simulation. Finally, the NIBIB plays an important 
role in providing engineering research resources to the entirety of the 
NIH. As the only engineering research arm within the NIH, NIBIB is 
often relied upon to partner with other institutes at the NIH to 
provide engineering expertise. The Laboratory of Molecular Imaging and 
Nanomedicine, and Laboratory of Bioengineering and Physical Science are 
two examples of NIBIB's role as a partner for researchers working at 
other Institutes at the NIH.
    We strongly recommend that early-stage, proof-of-concept projects 
for translational research be funded at an enhanced level, ideally 0.5 
percent of all external research budgets, at all Institutes. This is 
critical to maintaining the U.S. lead in innovation by moving new 
discoveries and novel systems to the stage where third-party private 
funding can take them through development to the marketplace where they 
help patients and the health of Americans. Publicly-held companies 
cannot invest in this stage of work due to stockholder pressures, so 
the Federal Government is critical to ensuring the viability of this 
innovation pipeline.

NIBIB as a Stimulus for Innovation/Cost Effectiveness
    Due in large part to the Great Recession, private industry and 
private investors have been less likely to invest in high-risk 
research, potentially slowing the pace of innovation. NIBIB fills a 
void by providing funding for high-risk, high-reward research that 
leads to the development of new technologies. Often times, private 
investors in biomedical innovation are unwilling to invest in this type 
of research, particularly in our current fiscal climate, because of the 
risks involved. However, NIBIB can be a mechanism to bring new 
technologies to market and fills the void left by a lack of private 
capital.
    The NIBIB's Quantum Grants program, for example, challenges the 
research community to propose projects that have a highly focused, 
collaborative, and interdisciplinary approach to solve a major medical 
problem or to resolve a highly prevalent technology-based medical 
challenge. The program consists of a 3-year exploratory phase to assess 
feasibility and identify best approaches, followed by a second phase of 
5 to 7 years. Major advances in medicine leading to quantifiable 
improvements in public health require the kind of funding commitment 
and intellectual focus found in the Quantum Grants program at NIBIB, 
because early stage investors are reluctant to invest in high-risk 
research. Additionally, the Quantum Grants offer a place for Government 
to invest in translational research, potentially solving huge medical 
problems facing Americans today.
    The five currently funded Quantum Grants focus on: stem cell 
therapies for patients suffering from the effects of diabetes and 
stroke; the utilization of nanoparticles to help visualize brain tumors 
so that surgeons can easily see and remove a cancerous mass in a 
patient's brain; the development of an implantable artificial kidney 
offering an improved quality of life for patients currently undergoing 
dialysis treatment; and a microchip to capture circulating tumor cells 
for clinicians to diagnose cancer earlier than ever before, giving 
patients a greater hope for recovery thanks to earlier detection and 
treatment. All these projects, in their early stages of funding, have 
demonstrated promise for improving patient outcomes in the laboratory 
setting.
    An increase of funding to NIBIB and the Quantum Grants program may 
offer opportunities to expedite research beyond laboratory study and 
move to clinical trial. For example, if the artificial kidney research 
is successful and brought to market, the cost to a person with kidney 
disease would radically decrease because it would eliminate the need 
for dialysis, which is a expensive, painful, and resource heavy 
procedure typically done in an out-patient hospital setting.

The Fundamental Role of Engineering Research
    Advances in the process of engineering research, in a variety of 
fields, are a part of technological innovation. Medical and biological 
engineering draws from research specialties across disciplines 
(including mechanical, electrical, material, medical and biological 
engineering, and clinicians), bringing together teams to create unique 
solutions to the most pressing health problems. Engineering is the 
practical application of science and math to solve problems. For 
example, the insulin pump, which is the primary device used by patients 
with diabetes who requires continuous insulin infusion therapy, is the 
result of multi-disciplinary effort by engineers to develop a more 
efficient way to manage diabetes. The science to develop and perfect an 
insulin pump existed well before the creation of the medical device; 
however it took biomedical engineers to apply the basic science toward 
product development.
    The first insulin pump to be manufactured was released in the late 
70's. It was known as the ``big blue brick'' because of its size and 
appearance. It sparked interest among healthcare professionals who saw 
it as a device that would render syringes obsolete for people who have 
daily insulin injection needs. While the technology was promising, the 
first commercial pump lacked the controls and interface to make it a 
safe alternative to manual injections. Dosage was inaccurate thus 
making the device more of a danger than a solution.
    It was only in the beginning of the 1990's that biomedical 
engineers began to develop more user-friendly models that could be used 
by diabetics. Advances in biomedical engineering research focused on 
reducing device size, increasing energy efficiency (and thus improving 
battery life), and improving reliability. Such improvements were of 
great benefit to insulin pump manufacturers who were able to make their 
models smaller, more affordable, and easier for patients to use. 
Insulin pumps enable many diabetic patients to live productive lives 
due to fewer absences from work and reduced hospitalizations.
    A similar advancement in the treatment of atherolosclerosis through 
MBE is the use of angioplasty with an arterial stent which releases 
drugs directly to the coronary artery (referred to as a drug eluting 
stent). This advancement has replaced more then 500,000 bypass 
surgeries a year, at an annual cost savings of $4 billion, and an 
immeasurable improvement in the quality of life of patients receiving 
this treatment.
    Engineering research in human physiology, specifically in range of 
motion and function, has increased the function for artificial limbs. 
The decreasing mortality and increasing number of disabled war veterans 
highlights the need for more highly functional prosthetics. Engineering 
research and development processes have taken the strapped wooden leg 
to a realistic synergic leg and foot transtibial prosthetic that 
employs advanced biomechanics and microelectronic controls to allow a 
fuller range of motion, including running. Basic engineering research 
in polymers and materials science has changed the look and feel of 
prosthetic limbs so they are no longer easily discernable, reducing the 
stigma, and making them more durable, lessening the cost of maintenance 
and replacement. Researchers in Baltimore, Cleveland, and Chicago are 
developing the next generation of prosthetic limbs, utilizing cutting 
edge biomedical engineering research to develop prostheses that are 
more sensitive, more responsive, and more lifelike then anything 
developed in the past. These new ``bionic limbs'' are giving patients 
pieces of their body back, pieces taken from them through traumatic 
injury or disease. Increases in funding to NIBIB, who uniquely partners 
with other Federal agencies such as the Department of Veterans Affairs 
and Department of Defense, may lead to biomedical engineering 
innovations to improve the quality of life of warfighters injured on 
the battlefield as well as civilians.
    The engineering research process has played a large part in 
extending and deploying innovative imaging technologies such as 
magnetic resonance imaging (MRI) and ultra-fast computed tomography (CT 
scan). These technologies facilitate early detection of disease and 
dysfunction, allowing for earlier treatment and slowing the progression 
of disease. When prescribed correctly these technologies can reduce the 
costs of healthcare by diagnosing diseases earlier, allowing for 
earlier clinical intervention and reduced hospitalizations with faster 
recovery times.
    The Nation deserves a strong return on its investment in the basic 
medical research funded by NIH. Additional engineering research, 
including translation of basic research into new devices and more 
efficient medical procedures, is a critical part of ensuring that 
return. This combination of basic scientific studies and engineering 
research, will in turn, lead to many technological innovations which 
will improve the quality of life and well-being of Americans. The 
Government needs to continue to fund the vital research at NIH and 
NIBIB to continue to be a leader in healthcare innovation, and for the 
creation of jobs in the healthcare segment of our national economy.
    AIMBE looks forward to the opportunity to continue this dialogue 
with all of you individually. Thank you again for your time and 
consideration on this important matter.
                                 ______
                                 
          Prepared Statement of the American Lung Association

                          SUMMARY OF PROGRAMS

Centers for Disease Control and Prevention (CDC)
    Increased overall CDC funding--$7.7 billion
  --Funding Healthy Communities--$52.8 million
  --Office on Smoking and Health--$110 million
  --National Asthma Control Program--$31 million
  --Environment and Health Outcome Tracking--$32.1 million
  --Tuberculosis programs--$231 million
  --CDC influenza preparedness--$160 million
  --NIOSH--$315.3 million
  --Prevention and Public Health Fund--$1 billion, with $330 million 
        for tobacco control initiatives
National Institutes of Health (NIH)
    Increased overall NIH funding--$35 billion
    National Heart, Lung and Blood Institute--$3.514 billion
    National Cancer Institute--$5.725 billion
    National Institute of Allergy and Infectious Diseases--$5.395 
billion
    National Institute of Environmental Health Sciences--$779.4 million
    National Institute of Nursing Research--$163 million
    National Institute on Minority Health & Health Disparities--$236.9 
million
    Fogarty International Center--$78.4 million
    For more information about this testimony, please contact Erika 
Sward at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ddb8aeaabcafb99db1a8b3baa8aebcf3b2afbaf3">[email&#160;protected]</a>
    The American Lung Association is pleased to present our 
recommendations for fiscal year 2012 to the Labor, Health and Human 
Services, and Education Appropriations Subcommittee. The public health 
and research programs funded by this committee will prevent lung 
disease and improve and extend the lives of millions of Americans who 
suffer from lung disease.
    The American Lung Association is the oldest voluntary health 
organization in the United States, with national offices and local 
associations around the country. Founded in 1904 to fight tuberculosis, 
the American Lung Association is the leading organization working to 
save lives by improving lung health and preventing lung disease through 
education, advocacy and research.

A Sustained and Sustainable Investment
    Mr. Chairman, investments in prevention and wellness can and will 
pay near term and long term dividends for the health of the American 
people and people everywhere. That is why the American Lung Association 
strongly supports the Prevention and Public Health Fund established in 
the Affordable Care Act. This fund will provide billions of dollars to 
critical public health initiatives, like community programs that help 
people quit smoking, support groups for lung cancer patients, and 
classes that teach people how to avoid asthma attacks.
    The United States must also maintain its commitment to medical 
research. A growing, sustained, predictable and reliable investment in 
the NIH provides hope for millions afflicted with lung disease. While 
our focus is on lung disease research, we strongly support increasing 
the investment in research across the entire National Institutes of 
Health.

Lung Disease
    Each year, almost 400,000 Americans die of lung disease. It is 
America's number three killer, responsible for one in every six deaths. 
More than 37 million Americans suffer from a chronic lung disease. Each 
year lung disease costs the economy an estimated $173 billion. Lung 
diseases include: lung cancer, asthma, chronic obstructive pulmonary 
disease (COPD), tuberculosis, pneumonia, influenza, sleep disordered 
breathing, pediatric lung disorders, occupational lung disease and 
sarcoidosis.

Improving Public Health
    The American Lung Association strongly supports investments in the 
public health infrastructure. In order for the Centers for Disease 
Control and Prevention (CDC) to carry out its prevention mission and to 
assure an adequate translation of new research into effective State and 
local programs to improve the health of all Americans, we strongly 
support increasing the overall CDC funding to $7.7 billion.
    We strongly encourage improved disease surveillance and health 
tracking to better understand diseases like asthma. We support an 
appropriations level of $32.1 million for the Environment and Health 
Outcome Tracking Network to allow Federal, State and local agencies to 
track potential relationships between hazards in the environment and 
chronic disease rates.
    We strongly support investments in communities to bring together 
key stakeholders to identify and improve policies and environmental 
factors influencing health in order to reduce the burden of chronic 
diseases. These programs lead to a wide range of improved health 
outcomes including reduced tobacco use. We strongly recommend at least 
$52.8 million in funding for the Healthy Communities program and it 
remaining a separate, stand alone program.

Tobacco Use
    Tobacco use is the leading preventable cause of death in the United 
States, killing more than 443,000 people every year. Smoking is 
responsible for one in five U.S. deaths. The direct healthcare and lost 
productivity costs of tobacco-caused disease and disability are also 
staggering, an estimated $193 billion each year.
    Given the magnitude of the tobacco-caused disease burden and how 
much of it can be prevented; the CDC Office on Smoking and Health (OSH) 
should be much larger and better funded. Historically, Congress has 
failed to invest in tobacco control--even though public health 
interventions have been scientifically proven to reduce tobacco use. 
This neglect cannot continue if the nation wants to prevent disease and 
promote wellness.
    The American Lung Association urges that $110 million be 
appropriated to OSH for fiscal year 2012 and that OSH receive an 
additional one-third, or $330 million, of funds from the Prevention and 
Public Health Fund.

Asthma
    The American Lung Association strongly opposes the proposal in the 
President's budget request that would merge the National Asthma Control 
Program with the Healthy Homes/Lead Poisoning Prevention Program--and 
then slash the combined programs by more than 50 percent. The Lung 
Association asks this Committee to retain the National Asthma Control 
Program as a stand-alone program and that $31 million be appropriated 
to it for fiscal year 2012.
    It is estimated that almost 25 million Americans currently have 
asthma, of whom 7.1 million are children. Asthma prevalence rates are 
over 37 percent higher among African Americans than whites. Studies 
also suggest that Puerto Ricans have higher asthma prevalence rates and 
age-adjusted death rates than all other racial and ethnic subgroups. 
Asthma is the third leading cause of hospitalization among children 
under the age of 15 and is a leading cause of school absences from 
chronic disease--accounting for over 10.5 million lost school days in 
2008. Asthma costs our healthcare system over $50.1 billion annually 
and indirect costs from lost productivity add another $5.9 billion, for 
a total of $56 billion annually.
    We recommend that the National Heart, Lung and Blood Institute 
receive $3.514 billion and the National Institute of Allergy and 
Infectious Diseases be appropriated $5.395 billion, and that both 
agencies continue their investments in asthma research in pursuit of 
treatments and cures.

Lung Cancer
    An estimated 370,000 Americans are living with lung cancer. During 
2010, an estimated 222,520 new cases of lung cancer were diagnosed, and 
158,664 Americans died from lung cancer in 2009. Survival rates for 
lung cancer tend to be much lower than those of most other cancers. 
African Americans are the most likely to develop and die from lung 
cancer than persons of any other racial group.
    Lung cancer receives far too little attention and focus. Given the 
magnitude of lung cancer and the enormity of the death toll, the 
American Lung Association strongly recommends that the NIH and other 
Federal research programs commit additional resources to lung cancer. 
We support a funding level of $5.725 billion for the National Cancer 
Institute and urge more attention and focus on lung cancer.

Chronic Obstructive Pulmonary Disease
    Chronic obstructive pulmonary disease, or COPD, is the third 
leading cause of death in the United States. It has been estimated that 
13.1 million patients have been diagnosed with some form of COPD and as 
many as 24 million adults may suffer from its consequences. In 2009, 
133,737 people in the United States died of COPD. The annual cost to 
the Nation for COPD in 2010 was projected to be $49.9 billion. This 
includes $29.5 billion in direct healthcare expenditures, $8.0 billion 
in indirect morbidity costs and $12.4 billion in indirect mortality 
costs. Medicare expenses for COPD beneficiaries were nearly 2.5 times 
that of the expenditures for all other patients.
    The American Lung Association strongly recommends that the NIH and 
other Federal research programs commit additional resources to COPD 
research programs. We strongly support funding the National Heart, Lung 
and Blood Institute and its lifesaving lung disease research program at 
$3.514 billion. The American Lung Association also asks the Committee 
to direct the National Heart, Lung and Blood Institute to work with the 
CDC and other appropriate agencies to prepare a national action plan to 
address COPD, which should include public awareness and surveillance 
activities.

Influenza
    Influenza is a highly contagious viral infection and one of the 
most severe illnesses of the winter season. It is unpredictable, with 
seasonal death estimates ranging from 3,000 to 49,000 over the last 30 
years. Further, the emerging threat of a pandemic influenza is looming 
as the recently emerging strain of H1N1 reminded us. Public health 
experts warn that 209,000 Americans could die and 865,000 would be 
hospitalized if a moderate flu epidemic hits the United States. To 
prepare for a potential pandemic, the American Lung Association 
supports funding the Federal CDC Influenza efforts at $160 million.

Tuberculosis
    Tuberculosis primarily affects the lungs but can also affect other 
parts of the body. There are an estimated 10 million to 15 million 
Americans who carry latent TB infection. Each has the potential to 
develop active TB in the future. About 10 percent of these individuals 
will develop active TB disease at some point in their lives. In 2009, 
there were 11,545 cases of active TB reported in the United States. 
While declining overall TB rates are good news, the emergence and 
spread of multi-drug resistant TB pose a significant threat to the 
public health of our Nation. Continued support is needed if the United 
States is going to continue progress toward the elimination of TB. We 
request that Congress increase funding for tuberculosis programs at CDC 
to $231 million for fiscal year 2012.

Conclusion
    The American Lung Association also would like to indicate our 
strong support for CDC and NIH, particularly those programs that impact 
lung health. We strongly support an across the board increase for NIH 
with particular emphasis on the National Heart, Lung and Blood 
Institute, the National Cancer Institute, the National Institute of 
Allergy and Infectious Diseases, the National Institute of 
Environmental Health Sciences, the National Institute of Nursing 
Research, the National Institute on Minority Health & Health 
Disparities and the Fogarty International Center.
    Lung disease is a continuing, growing problem in the United States. 
It is America's number three killer, responsible for one in six deaths. 
Progress against lung disease is not keeping pace with other major 
causes of death and more must be done. The level of support this 
committee approves for lung disease programs should reflect the urgency 
illustrated by these numbers.
                                 ______
                                 
         Prepared Statement of the American National Red Cross

    Chairman Tom Harkin, Ranking Member Richard Shelby, and Members of 
the Subcommittee, the American Red Cross and the United Nations 
Foundation appreciate the opportunity to submit testimony in support of 
measles control activities of the U.S. Centers for Disease Control and 
Prevention (CDC). The American Red Cross and the United Nations 
Foundation recognize the leadership that Congress has shown in funding 
CDC for these essential activities. We sincerely hope that Congress 
will continue to support the CDC during this critical period in measles 
control.
    In 2001, CDC--along with the American Red Cross, the United Nations 
Foundation, the World Health Organization, and UNICEF--founded the 
Measles Initiative, a partnership committed to reducing measles deaths 
globally. The current U.N. goal is to reduce measles deaths by 95 
percent by 2015 compared to 2000 estimates. The Measles Initiative is 
committed to reaching this goal by proving technical and financial 
support to governments and communities worldwide.
    The Measles Initiative has achieved ``spectacular'' \1\ results by 
supporting the vaccination of more than 700 million children. Largely 
due to the Measles Initiative, global measles mortality dropped 78 
percent, from an estimated 733,000 deaths in 2000 to 164,000 in 2008 
(the latest year for which data is available). During this same period, 
measles deaths in Africa fell by 92 percent, from 371,000 to 28,000.
---------------------------------------------------------------------------
    \1\ The Lancet, Volume 8, page 13 (January 2008).

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Working closely with host governments, the Measles Initiative has 
been the main international supporter of mass measles immunization 
campaigns since 2001. The Initiative mobilized more than $700 million 
and provided technical support in more than 60 developing countries on 
vaccination campaigns, surveillance and improving routine immunization 
services. From 2000 to 2008, an estimated 4.3 million measles deaths 
were averted as a result of these accelerated measles control 
activities at a donor cost of $184/death averted, making measles 
mortality reduction one of the most cost-effective public health 
interventions.
    Nearly all the measles vaccination campaigns have been able to 
reach more than 90 percent of their target populations. Countries 
recognize the opportunity that measles vaccination campaigns provide in 
accessing mothers and young children, and ``integrating'' the campaigns 
with other life-saving health interventions has become the norm. In 
addition to measles vaccine, Vitamin A (crucial for preventing 
blindness in under nourished children), de-worming medicine (reduces 
malnutrition), and insecticide-treated bed nets (ITNs) for malaria 
prevention are distributed during vaccination campaigns. The scale of 
these distributions is immense. For example, more than 40 million ITNs 
were distributed in vaccination campaigns in the last few years. The 
delivery of multiple child health interventions during a single 
campaign is far less expensive than delivering the interventions 
separately, and this strategy increases the potential positive impact 
on children's health from a single campaign.
    The extraordinary reduction in global measles deaths contributed 
nearly 25 percent of the progress to date toward Millennium Development 
Goal #4 (reducing under-five child mortality). However, since 2009, 
Africa has experienced outbreaks affecting 28 countries, resulting in a 
four-fold increase in reported measles cases. These outbreaks highlight 
the fragility of the last decade's progress. If mass immunization 
campaigns are not continued, measles deaths will increase rapidly with 
more than half a million deaths estimated for 2013 alone.
    To achieve the 2015 goal and avoid a resurgence of measles the 
following actions are required:
  --Fully implementing activities, both campaigns and strengthening 
        routine measles coverage, in India since it is the greatest 
        contributor to the global burden of measles.
  --Sustaining the gains in reduced measles deaths, especially in 
        Africa, by strengthening immunization programs to ensure that 
        more than 90 percent of infants are vaccinated against measles 
        through routine health services before their first birthday as 
        well as conducting timely, high quality mass immunization 
        campaigns.
  --Securing sufficient funding for measles-control activities both 
        globally and nationally. The Measles Initiative faces a funding 
        shortfall of an estimated $212 million for 2012-2105. 
        Implementation of timely measles campaigns is increasingly 
        dependent upon countries funding these activities locally. The 
        decrease in donor funds available at global level to support 
        measles elimination activities makes increased political 
        commitment and country ownership of the activities critical for 
        achieving and sustaining the goal of reducing measles mortality 
        by 90 percent.
    If these challenges are not addressed, the remarkable gains made 
since 2000 will be lost and a major resurgence in measles deaths will 
occur.
    By controlling measles cases in other countries, U.S. children are 
also being protected from the disease. Measles can cause severe 
complications and death. A resurgence of measles occurred in the United 
States between 1989 and 1991, with more than 55,000 cases reported. 
This resurgence was particularly severe, accounting for more than 
11,000 hospitalizations and 123 deaths. Since then, measles control 
measures in the United States have been strengthened and endemic 
transmission of measles cases have been eliminated here since 2000. 
However, importations of measles cases into this country continue to 
occur each year. The costs of these cases and outbreaks are 
substantial, both in terms of the costs to public health departments 
and in terms of productivity losses among people with measles and 
parents of sick children. For example in 2008, 2 hospitals in Arizona 
spent an estimated $800,000 responding and containing 7 measles 
cases.\2\ The United States is currently on track to have more measles 
cases in 2011 than any year in more than a decade.
---------------------------------------------------------------------------
    \2\ Chen SY, Anderson S, Kutty PK, et al. J of Infect Dis 2011; 
203: 1517-1525.
---------------------------------------------------------------------------
The Role of CDC in Global Measles Mortality Reduction
    Since fiscal year 2001, Congress has provided approximately $43.6 
million annually in funding to CDC for global measles control 
activities. These funds were used toward the purchase of measles 
vaccine for use in large-scale measles vaccination campaigns in more 
than 60 countries in Africa and Asia, and for the provision of 
technical support to Ministries of Health. Specifically, this technical 
support includes: Planning, monitoring, and evaluating large-scale 
measles vaccination campaigns; conducting epidemiological 
investigations and laboratory surveillance of measles outbreaks; and 
conducting operations research to guide cost-effective and high quality 
measles control programs.
    In addition, CDC epidemiologists and public health specialists have 
worked closely with WHO, UNICEF, the United Nations Foundation, and the 
American Red Cross to strengthen measles control programs at global and 
regional levels. While it is not possible to precisely quantify the 
impact of CDC's financial and technical support to the Measles 
Initiative, there is no doubt that CDC's support--made possible by the 
funding appropriated by Congress--was essential in helping achieve the 
sharp reduction in measles deaths in just 8 years.
    The American Red Cross and the United Nations Foundation would like 
to acknowledge the leadership and work provided by CDC and recognize 
that CDC brings much more to the table than just financial resources. 
The Measles Initiative is fortunate in having a partner that provides 
critical personnel and technical support for vaccination campaigns and 
in response to disease outbreaks. CDC personnel have routinely 
demonstrated their ability to work well with other organizations and 
provide solutions to complex problems that help critical work get done 
faster and more efficiently.
    In fiscal year 2011, Congress appropriated approximately $49 
million to fund CDC for global measles control activities, this 
represented at $2.6 million decrease from the previous year. The 
American Red Cross and the United Nations Foundation respectfully 
request a return to fiscal year 2010 funding levels ($52 million) for 
fiscal year 2012 for CDC's measles control activities to protect the 
investment of the last decade, and prevent a global resurgence of 
measles and a loss of progress toward Millennium Development Goal #4.
    Your commitment has brought us unprecedented victories in reducing 
measles mortality around the world. In addition, your continued support 
for this initiative helps prevent children from suffering from this 
preventable disease both abroad and in the United States.
    Thank you for the opportunity to submit testimony.
                                 ______
                                 
         Prepared Statement of the American Nurses Association

    The American Nurses Association (ANA) appreciates the opportunity 
to comment on fiscal year 2012 appropriations for the Title VIII 
Nursing Workforce Development Programs and Nurse-Managed Health 
Clinics. Founded in 1896, ANA is the only full-service professional 
association representing the interests of the Nation's 3.1 million 
registered nurses (RNs) through its State nurses associations, and 
organizational affiliates. The ANA advances the nursing profession by 
fostering high standards of nursing practice, promoting the rights of 
nurses in the workplace, and projecting a positive and realistic view 
of nursing.
    As the largest single group of clinical healthcare professionals 
within the health system, licensed registered nurses are educated and 
practice within a holistic framework that views the individual, family 
and community as an interconnected system that can keep us well and 
help us heal. Registered nurses are fundamental to the critical shift 
needed in health services delivery, with the goal of transforming the 
current ``sick care'' system into a true ``healthcare'' system. RNs are 
the backbone of hospitals, community clinics, school health programs, 
home health and long-term care programs, and serve patients in many 
other roles and settings. The ANA gratefully acknowledges this 
Subcommittee's history of support for nursing education. We also 
appreciate your continued recognition of the important role nurses play 
in the delivery of quality healthcare services, including Nurse-Managed 
Health Clinics (NMHCs).

The Nursing Shortage
    A sufficient supply of nurses is critical in providing our Nation's 
population with quality healthcare. Registered Nurses (RNs) and 
Advanced Practice Registered Nurses (APRNs) play an integral role in 
the delivery of primary care and help to bring the focus of our 
healthcare system back where it belongs--on the patient and the 
community. The current U.S. nursing shortage is already having a 
detrimental impact on our healthcare system, and it is expected to grow 
to a 260,000 nurse shortfall by 2025. A shortage of this magnitude 
would be twice as large as any shortage experienced by this country 
since the 1960s. Cuts to Title VIII funding would be detrimental to the 
healthcare system and the patients we serve.
    As noted above, the nursing shortage is having a detrimental impact 
on the entire healthcare system. Numerous studies have shown that 
nursing shortages contribute to medical errors, poor patient outcomes, 
and increased mortality rates. A study published in the March 17, 2011 
issue of the New England Journal of Medicine shows that inadequate 
staffing is tied to higher patient mortality rate. The study supports 
findings of previous studies and finds that higher than typical rates 
of patient admissions, discharges, and transfers during a shift were 
associated with increased mortality--an indication of the important 
time and attention needed by RNs to ensure effective coordination of 
care for patients at critical transition periods.

Nursing Workforce Development Programs
    The Nursing Workforce Development programs, authorized under Title 
VIII of the Public Health Service Act (42 U.S.C. 296 et seq.) support 
the supply and distribution of qualified nurses to meet our Nation's 
healthcare needs. Over the last 46 years, Title VIII programs have 
addressed each aspect of the nursing shortages--education, practice, 
retention, and recruitment.
  --Title VIII provides the largest source of Federal funding for 
        nursing education, offering financial support for nursing 
        education programs, individual students, and nurses.
  --These programs bolster nursing education at all levels, from entry-
        level preparation through graduate study.
  --Title VIII programs favor institutions that educate nurses for 
        practice in rural and medically underserved communities.
  --In fiscal year 2008, these programs provided loans, scholarships, 
        traineeships, and programmatic support to 77,395 nursing 
        students and nurses.
    The 107th Congress recognized the detrimental impact of the 
developing nursing shortage and passed the Nurse Reinvestment Act 
(Public Law 107-205). This law improved the Title VIII Nursing 
Workforce Development programs to meet the unique characteristics of 
today's shortage. These programs were also strengthened and 
reauthorized with the adoption of the Affordable Care Act. This 
achievement holds the promise of recruiting new nurses into the 
profession, promoting career advancement within nursing and improving 
patient care delivery. However, this promise cannot be met without a 
significant investment. ANA strongly urges Congress to increase funding 
for Title VIII programs to a total of $313.075 million in fiscal year 
2012. This is also the amount requested in President Obama's fiscal 
year 2012 budget.
    Current funding levels are clearly failing to meet the need. In 
fiscal year 2008 (most recent year statistics are available), the 
Health Resources and Services Administration (HRSA) was forced to turn 
away 92.8 percent of the eligible applicants for the Nurse Education 
Loan Repayment Program (NELRP), and 53 percent of the eligible 
applicants for the Nursing Scholarship program due to a lack of 
adequate funding. These programs are used to direct RNs into areas with 
the greatest need--including departments of public health, community 
health centers, and disproportionate share hospitals.
    Title VIII includes the following program areas:
    Nursing Education Loan Repayment Program and Scholarships.--This 
line item is comprised of the Nurse Education Loan Repayment Program 
(NELRP) and the Nursing Scholarship Program (NSP). In fiscal year 2010, 
the Nurse Education Loan Repayment Program and Scholarships received 
$93.8 million.
    The NELRP repays up to 85 percent of a RN's student loans in return 
for full-time practice in a facility with a critical nursing shortage. 
The NELRP nurse is required to work for at least 2 years in a 
designated facility, during which time the NELRP repays 60 percent of 
the RN's student loan balance. If the nurse applies and is accepted for 
an optional third year an additional 25 percent of the loan is repaid.
    In fiscal year 2008, HRSA received 3,039 applications for the 
nursing scholarship. Due to lack of funding, a mere 177 scholarships 
were awarded. Therefore, 2,862 nursing students (94 percent) willing to 
work in facilities with a critical shortage were denied access to this 
program.
    Nurse Faculty Loan Program.--This program establishes a loan 
repayment fund within schools of nursing to increase the number of 
qualified nurse faculty. Nurses may use these funds to pursue a 
master's or doctoral degree. They must agree to teach at a school of 
nursing in exchange for cancellation of up to 85 percent of their 
educational loans, plus interest, over a 4-year period. In fiscal year 
2010, this program received $25 million.
    This program is vital given the critical shortage of nursing 
faculty. America's schools of nursing cannot increase their capacity 
without an influx of new teaching staff. Last year, schools of nursing 
were forced to turn away tens of thousands of qualified applicants due 
largely to the lack of faculty. In fiscal year 2008, HRSA funded 95 
faculty loans.
    Nurse Education, Practice, and Retention Grants.--This section is 
comprised of many programs designed to support entry-level nursing 
education and to enhance nursing practice. The education grants are 
designed to expand enrollments in baccalaureate nursing programs, 
develop internship and residency programs to enhance mentoring and 
specialty training, and provide new technologies in education including 
distance learning. All together, the Nurse Education, Practice, and 
Retention Grants supported 42,761 nurses and nursing students in fiscal 
year 2008. The program received $39.8 million in fiscal year 2010.
    Nursing Workforce Diversity.--This program provides funds to 
enhance diversity in nursing education and practice. It supports 
projects to increase nursing education opportunities for individuals 
from disadvantaged backgrounds--including racial and ethnic minorities, 
as well as individuals who are economically disadvantaged. In fiscal 
year 2008, 85 applications were received for workforce diversity 
grants, 51 programs were funded. In fiscal year 2010, these programs 
received $16 million.
    Advanced Nursing Education.--Advanced practice registered nurses 
(APRNs) are nurses who have attained advanced expertise in the clinical 
management of health conditions. Typically, an APRN holds a master's 
degree with advanced didactic and clinical preparation beyond that of 
the RN. Most have practice experience as RNs prior to entering graduate 
school. Practice areas include, but are not limited to: anesthesiology, 
family medicine, gerontology, pediatrics, psychiatry, midwifery, 
neonatology, and women's and adult health. Title VIII grants have 
supported the development of virtually all initial State and regional 
outreach models using distance learning methodologies to provide 
advanced study opportunities for nurses in rural and remote areas. In 
fiscal year 2009, 5,649 advanced education nurses were supported 
through these programs. In fiscal year 2010, these programs received 
$64.4 million.
    Comprehensive Geriatric Education Grants.--This authority awards 
grants to train and educate nurses in providing healthcare to the 
elderly. Funds are used to train individuals who provide direct care 
for the elderly, to develop and disseminate geriatric nursing 
curriculum, to train faculty members in geriatrics, and to provide 
continuing education to nurses who provide geriatric care. In fiscal 
year 2008, 6,514 nurses and nursing students were supported through 
these programs. In fiscal year 2010, these grants received $4.5 
million. The growing number of elderly Americans and the impending 
healthcare needs of the baby boom generation make this program 
critically important.

Nurse-Managed Health Clinics
    A healthcare system must value primary care and prevention to 
achieve improved health status of individuals, families and the 
community. As Congress recognized through the passage of the Affordable 
Care Act (ACA) money, resources and attention must be reallocated in 
the health system to highlight importance of, and create incentives 
for, primary care and prevention.
    Nurses are strong supporters of community and home-based models of 
care. We believe that the foundation for a wellness-based healthcare 
system is built in these settings and reduces the amount of both money 
and human suffering. ANA supports the renewed focus on new and existing 
community-based programs such as Nurse Managed Health Centers (NMHCs).
    Currently, there are more than 200 Nurse Managed Health Centers 
(NMHCs) in the United States which have provided care to over 2 million 
patients annually. ANA believes that Nurse Managed Health Centers 
(NMHCs) are an efficient, sensible, cost-effective way to deliver 
primary healthcare services. These clinics are also used as clinical 
sites for nursing education. The nurse-managed care model is especially 
effective in disease prevention and early detection, management of 
chronic conditions, treatment of acute illnesses, health promotion, and 
more. Nurse Managed Health Centers (NMHCs) can also provide a medical 
home for underserved individuals as well as partnering with the Federal 
Government to reduce health disparities.
    ANA was pleased to see that the Affordable Care Act (ACA) provided 
grant eligibility to Nurse-Managed Health Clinics (NMHCs) to support 
operating costs. ACA also authorized up to $50 million a year to 
support operating costs. ANA strongly urges Congress to provide $20 
million for the Nurse-Managed Health Clinics authorized under Title 
VIII of the Public Health Service Act in fiscal year 2012 as 
recommended in President Obama's fiscal year 2012 budget.

Conclusion
    While ANA appreciates the continued support of this Subcommittee, 
we are concerned that Title VIII funding levels have not been 
sufficient to address the growing nursing shortage. In preparation for 
the implementation of healthcare reform initiatives, which ANA 
supports, we believe there will be an even greater need for nurses and 
adequate funding for these programs is even more essential. Registered 
Nurses (RNs) and Advanced Practice Nurses (APRNs) are key providers 
whose care is linked directly to the availability, cost, and quality of 
healthcare services. ANA asks you to meet today's shortage with a 
relatively modest investment of $313.075 million in fiscal year 2012 
for the Health Resources and Services Administration Nursing Workforce 
Development programs and $20 million for Nurse-Managed Health Clinics. 
Thank you.
                                 ______
                                 
    Prepared Statement of the American Physical Therapy Association

    On behalf of more than 77,000 physical therapists, physical 
therapist assistants, and students of physical therapy, the American 
Physical Therapy Association (APTA) thanks you for the opportunity to 
submit official testimony regarding recommendations for the fiscal year 
2012 appropriations. APTA's mission is to improve the health and 
quality of life of individuals in society by advancing physical 
therapist practice, education, and research. Physical therapists across 
the country utilize a wide variety of federally funded resources to 
work collaboratively toward the advancement of these goals. APTA's 
recommendations for Federal funding, as outlined in this document, 
reflect a commitment toward these priorities for the good of society 
and the rehabilitation community.

Department of Health and Human Services
            National Institutes of Health (NIH)
    Rehabilitation research was funded at $458 million within NIH's 
approximately $31.2 billion budget in fiscal year 2010. This represents 
roughly 1 percent of NIH funds for an area of biomedical research that 
impacts a growing percentage of our Nation's seniors, persons with 
disabilities, young persons with chronic disease or traumatic injuries, 
and children with development disabilities. The Institute of Medicine 
(IOM) estimates that 1 in 7 individuals have an impairment or 
limitation that significantly limits their ability to perform 
activities of daily living. Investment in and recognition of 
rehabilitation within NIH is a necessary step toward continuing to meet 
the needs of these individuals in our population. Through the American 
Recovery and Reinvestment Act (ARRA), rehabilitation research was able 
to take advantage of an extra infusion of approximately $75 million in 
fiscal year 2009 and $93 million in fiscal year 2010. However, APTA 
believes that rehabilitation research at NIH has been under-funded for 
many years. The funds currently utilized are well-invested for the 
impact that rehabilitation interventions will have on the quality of 
lives of individuals. Continued investment and greater recognition and 
coordination of rehabilitation research among Institutes and across 
Federal departments will enhance the returns the Federal Government 
receives when investing in this area. Taking this into consideration, 
APTA recommends $31.829 billion (a $629 million increase over fiscal 
year 2010) for NIH in fiscal year 2012 to ensure that the momentum is 
maintained that was gained under the ARRA investment to improve health, 
spur economic growth and innovation, and advance science. APTA 
recognizes the extraordinary circumstances that exist during these 
tough budgetary times, however it still remains crucial that Federal 
investments in healthcare research are preserved and at least kept on 
pace with the rate of inflation.
    Specifically, the physical therapy and rehabilitation science 
community recommends that Congress allocate crucial funding 
enhancements in the following institutes:
  --$1.356 billion (a 2 percent increase over fiscal year 2010) for the 
        Eunice Kennedy Shriver National Institute of Child Health and 
        Human Development (NICHD) which houses the National Center for 
        Medical Rehabilitation Research (NCMRR), the only entity within 
        NIH explicitly focused on the advancement of rehabilitation 
        science. NCMRR fosters the development of scientific knowledge 
        needed to enhance the health, productivity, independence, and 
        quality-of-life of people with disabilities. A primary goal of 
        the Center-supported research is to bring the health-related 
        problems of people with disabilities to the attention of the 
        best scientists in order to capitalize upon the myriad advances 
        occurring in the biological, behavioral, and engineering 
        sciences.
  --$1.66 billion (a 2 percent increase over fiscal year 2010) for the 
        National Institute of Neurological Disorders and Stroke 
        (NINDS). This funding level is required to enhance existing 
        initiatives and invest in new and promising research to prevent 
        stroke and advance rehabilitation in stroke treatment. Despite 
        being a major cause of disability and the number three cause of 
        death in the United States, NIH invests only 1 percent of its 
        budget in stroke research. However, APTA recognizes the 
        advancements that NIH-funded research has achieved in the 
        specific area of stroke rehabilitation. APTA commends this area 
        of leadership at NIH and encourages a continued focus on 
        rehabilitation interventions and physical therapy to maximize 
        an individual's function and quality of life after a stroke.
  --$550 million for the National Institute of Arthritis and 
        Musculoskeletal and Skin Diseases (NIAMS) for arthritis and 
        musculoskeletal research.

            Centers for Disease Control and Prevention (CDC)

    APTA was disappointed to see the cuts that have been implemented 
within CDC for fiscal year 2011. The contributions of CDC to the lives 
of countless individuals are limited only by the resources available 
for carrying out its vital mission. Our Nation and the world will 
continue to benefit from further improvement in public health and 
investment in scientific advancement and prevention. APTA recommends 
Congress provide at least $7.7 billion for CDC's fiscal year 2012 
``core programs'' in the fiscal year 2012 Labor-HHS-Education 
Appropriations bill. This request reflects the support CDC will need to 
fulfill its core missions for fiscal year 2012. APTA strongly believes 
that the activities and programs supported by CDC are essential in 
protecting the health of the American people. APTA supports the 
Prevention and Public Health Fund (PPHF) and its underlying purpose of 
providing supplemental funding as an investment to expand 
infrastructure for prevention initiatives. We are not supportive of 
efforts to use the PPHF to supplant current programmatic funding within 
the budgets of agencies, such as CDC.
    Physical therapists play an integral role in the prevention, 
education, and assessment of the risk for falls. The CDC is currently 
only allocating $2 million per year to address the increasing 
prevalence of falls, a problem costing more than $19.2 billion a year. 
Among older adults, falls are the leading cause of injury deaths. This 
is why APTA respectfully requests that $21.7 million be provided in 
funding for the ``Unintentional Injury Prevention'' account to allow 
CDC's National Center for Injury Prevention and Control (NCIPC) to 
comprehensively address the large-scale growth of older adult falls. 
CDC has made great strides in developing and laying the groundwork for 
evidence-based falls prevention programs that link clinical 
intervention with community-based programs to make an impactful benefit 
for American society in addressing this expensive and burdensome 
healthcare problem. Without an increase in resources, CDC is unable to 
effectively scale-up and expand infrastructure beyond the few cities in 
which the programs have currently been developed to begin reaching all 
communities across the United States.
    Traumatic Brain Injury (TBI) is a leading cause of death and 
disability among young Americans and continues to be the signature 
injury of the conflicts in Iraq and Afghanistan. CDC estimates that at 
least 5.3 million Americans, approximately 2 percent of the U.S. 
population, currently require lifelong assistance to perform activities 
of daily living as a result of TBI. High quality, evidence-based 
rehabilitation for TBI is typically a long and intensive process. From 
the battlefield to the football field, American adults and youth 
continue to sustain TBIs at an alarming rate and funding is desperately 
needed for better diagnostics and evaluation, treatment guidelines, 
improved quality of care, education and awareness, referral services, 
State program services, and protection and advocacy for those less able 
to advocate for themselves. APTA recommends at least $10 million in 
fiscal year 2012 for CDC's TBI Registries and Surveillance, Brain 
Injury Acute Care Guidelines, Prevention, and National Public 
Education/Awareness programs, specifically with the great work that has 
been produced through the ``Heads Up'' concussions initiative.
    CDC's Well-Integrated Screening and Evaluation for Women Across the 
Nation (WISEWOMAN) programs screens uninsured and under-insured low-
income women ages 40 to 64 for heart disease and stroke risk and those 
with abnormal results receive counseling, education, referral and 
follow up. WISEWOMAN reached over 70,000 women in only 20 States from 
July 2008 to June 2010. Of these women, nearly 90 percent were found to 
have one or more heart disease or stroke risk factors and about 30 
percent had at least three. More than 60 percent of the women 
participated in a minimum of one behavioral modification session, and 
among those WISEWOMAN participants who were re-screened one year later, 
average blood pressure and cholesterol levels had decreased 
considerably. APTA recommends $37 million ($16.3 million increase over 
fiscal year 2010) for CDC's WISEWOMAN Program in fiscal year 2012.

            Health Resources and Services Administration (HRSA)

    With the passage of healthcare reform legislation, it becomes more 
important now than ever that America is able to supply an adequate and 
well-trained healthcare workforce to meet the demands of an expanded 
market of U.S. citizens that have health insurance coverage. APTA urges 
you to provide at least $7.65 billion for HRSA in fiscal year 2012. 
While we recognize the reality of the current fiscal climate, this 
amount reflects the minimum amount necessary for the agency to 
adequately meet the needs of the populations it serves. The relatively 
level funding HRSA has received over the past several years has 
undermined the ability of its successful programs to grow and be 
expanded to represent professions that shape the entire healthcare 
team, such as physical therapy. Any shortage areas of physical 
therapists and rehabilitation professionals may become more accentuated 
as the percentage of the U.S. population that has health coverage 
increases and demand rises. It is crucial that efforts are undertaken 
to strengthen the healthcare workforce and delivery across the whole 
spectrum of an individual's care--from onset through rehabilitation. 
More resources are needed for HRSA to achieve its ultimate mission of 
ensuring access to culturally competent, quality health services; 
eliminating health disparities; and rebuilding the public health and 
healthcare infrastructure.
    In conjunction with the importance of funding TBI efforts within 
CDC, APTA also recommends $8 million for the HRSA Federal TBI State 
Grant Program and $4 million for the HRSA Federal TBI Protection & 
Advocacy (P&A) Systems Grant Program.

Department of Education
    In 2008, as part of the reauthorization of the Higher Education Act 
(Public Law 110-315), the Loan Forgiveness for Service in Areas of 
National Need (LFSANN) program was created. This program would provide 
a modest amount of loan forgiveness for a variety of education and 
healthcare professional groups, including physical therapists, upon a 
commitment to serve in targeted populations that were identified as 
areas of crucial importance and national need. However, the program has 
not been implemented because it has not received any funding. APTA 
commends the recent efforts of Congress to reform the higher education 
loan industry. The lowering of the limit on the income-based repayment 
plan for consolidated Federal Direct Loans will assist the burdensome 
payments for all higher education loan borrowers. However, this program 
still fails to meet the most important impact of LFSANN--channeling 
providers and professionals into areas where there are demonstrated 
shortages and high need, such as physical therapy care for veterans and 
children and adolescents. APTA strongly urges Congress to take action 
and provide $10 million in initial funding for this vital LFSANN 
program that will impact the healthcare and education services of those 
most in need.

            National Institute for Disability and Rehabilitation 
                    Research (NIDRR)

    NIDRR has been one of the longest standing agencies to focus on 
federally funded medical rehabilitation research. Rehabilitation 
research makes a difference in the lives of individuals with 
impairments, functional limitations, and disability. Advancements in 
rehabilitation research have led to greater quality of life for 
individuals who have spinal cord injuries, loss of limb, stroke and 
other orthopedic, neurological, and cardiopulmonary disorders. 
Investment in NIDRR is a necessary step toward continuing to meet the 
needs of individuals in our population who have chronic disease, 
developmental disabilities or traumatic injuries. Therefore, APTA 
recommends at least $20 million per year for NIDRR to support research 
and development, capacity building, and knowledge translation in 
health, rehabilitation, and function.
    APTA also requests $11 million for NIDRR's TBI Model Systems 
administered by the Department of Education. The TBI Model Systems of 
Care program represents an already existing vital national network of 
expertise and research in the field of TBI, and weakening this program 
would have resounding effects on both military and civilian 
populations. The TBI Model Systems are the only source of non-
proprietary longitudinal data on what happens to people with brain 
injury. They are a key source of evidence-based medicine and 
rehabilitation care for this crucial and growing population.

Conclusion
    As previously stated, APTA recognizes the extraordinarily tough 
budgetary pressures that are facing the U.S. Federal Government. 
However, there are certain programs and agencies that are essential and 
vital to the health of Americans. APTA looks forward to working with 
the Subcommittee and the various agencies outlined above to advance the 
capability of meeting the rehabilitation needs of society. If the 
Subcommittee has questions or needs additional resources, please 
contact Nate Thomas, Associate Director of Federal Government Affairs 
at APTA, at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="afc1cedbcadbc7c0c2cedcefcedfdbce81c0ddc8">[email&#160;protected]</a> or 703-706-8527. APTA's mailing address 
is provided on the letterhead of the first page of this document.
                                 ______
                                 
      Prepared Statement of the American Psychological Association

    This statement is the testimony of the American Psychological 
Association (APA), the largest scientific and professional organization 
representing psychology in the United States and the world's largest 
association of psychologists. APA's membership includes more than 
154,000 researchers, educators, clinicians, consultants and students. 
Through its divisions in 54 subfields of psychology and affiliations 
with 60 State, territorial and Canadian provincial associations, APA 
works to advance psychology as a science, as a profession and as a 
means of promoting health, education and human welfare. APA welcomes 
the opportunity to bring to your attention some priority requests and 
concerns for the fiscal year 2012 appropriations bill.

Health Resources and Services Administration
            Bureau of Health Professions
    The APA requests that the Subcommittee include $5 million for the 
Graduate Psychology Education Program (GPE) within the Health Resources 
and Services Administration. This nationally competitive grant program 
provides integrated healthcare services to underserved rural and urban 
communities and individuals with the least access to much needed mental 
and behavioral health services and support (e.g., children, older 
adults, and chronically ill persons, victims of abuse or trauma, 
including veterans). To date there have been over 100 grants in 32 
States to universities and hospitals throughout the Nation. All 
psychology graduate students who benefited from GPE funds are expected 
to work with underserved populations and over 80 percent will work in 
underserved areas immediately after completing the training.
    Currently GPE is authorized under the Public Health Service Act 
[Public Law 105-392 Section 755(b)(1)(J)] and funded under the ``Allied 
Health and Other Disciplines'' account in the Labor-HHS Appropriations 
Bill. An authorization of Appropriations of $10 million was included in 
the Patient Protection and Affordable Care Act. It was also included in 
the fiscal year 2011 Omnibus bill, which did not pass, for $7 million; 
and it has been included in H.R. 1 for fiscal year 2011 and the Senate 
2011 continuing resolutions, as well as the President's budget (for a 
number of years). Established in 2002, GPE grants have supported the 
interdisciplinary training of over 3,000 graduate students of 
psychology and other health professions to provide integrated 
healthcare services to underserved populations. The fiscal year 2012 
GPE funding request will focus especially on providing services to 
returning military personnel and their families, unemployed persons and 
older adults in underserved communities. Also the GPE funding request 
will also be used to create training opportunities at our Nation's 
federally Qualified Health Centers, which play a critical role in 
meeting the healthcare needs of our Nation's underserved persons.

National Institutes of Health (NIH)
    As a member of the Ad hoc Group for Medical Research Funding and 
the Coalition for Health Funding, APA encourages the Subcommittee to 
provide a minimum of $31.8 billion for the NIH. Sustained growth for 
NIH will build on the Nation's longstanding, bipartisan commitment to 
better health, which has established the United States as the world 
leader in medical research and innovation. NIH research means hope for 
patients. Potentially revolutionary new avenues of research hold 
promise for new early screenings and new treatments for disease. Recent 
funding has created dramatic new research opportunities in areas 
ranging from genetics to the behavioral research conducted by APA 
members. In addition, NIH research is boosting the economies of 
communities nationwide, at over 3,000 universities, medical schools, 
teaching hospitals and other research institutions. This committee 
should take justifiable pride in the progress and promise that NIH 
research is engendering.
    There are several issues at NIH to which APA would draw the 
Subcommittee's attention:
  --Addictions Research Institute.--NIH research on alcohol and 
        substance abuse has shed important light on critical policy 
        issues ranging from the rehabilitation of drug-addicted felons 
        to treatment of children exposed to substances in utero. APA is 
        closely monitoring NIH's proposal to create a new combined 
        institute that would fund research on both alcohol and 
        substance abuse. In our view this research is significantly 
        underfunded when weighed against the public health and public 
        safety impacts of alcohol, tobacco and illicit substance use, 
        and we are concerned that research funding be maintained and 
        increased as the new institute is created. We urge the 
        Subcommittee to insist that NIH establish rigorous and 
        transparent baselines of current funding levels and the 
        allocation of those funds across the existing NIH Institutes 
        and Centers to better assess and understand the proposed 
        organizational change. The continued active involvement of 
        extramural scientists at every stage of this process, as well 
        as that of the Office of Behavioral and Social Sciences 
        Research, will help ensure that the new institute has the right 
        infrastructure to truly optimize the conduct of addiction 
        research.
  --Funding for OppNet.--For fiscal year 2012, APA supports a budget of 
        $38.2 million for OBSSR. This sum reflects the Administration's 
        request of $28 million for OBSSR and includes $10 million 
        needed to support the NIH-wide commitment to carry out OppNet, 
        an initiative strongly supported by the Subcommittee. The 
        OppNet initiative has made significant progress since its 
        start. Thus far, OppNet has awarded 35 competitive revisions to 
        add basic science projects to existing research project grants. 
        Eight competitive revisions to Small Business Innovation 
        Research/Small Business Technology and Transfer projects have 
        been awarded. OppNet has also provided much-needed training in 
        basic social and behavioral sciences research.
  --National Center to Advance Translational Sciences.--APA believes 
        firmly that the proposed new National Center to Advance 
        Translational Sciences should include sufficient staff 
        expertise and resources to manage research on the translation 
        of behavioral interventions into communities. Just as it is 
        critical for NIH to speed the translation of research into drug 
        or technology development, it is critical for behavioral 
        interventions on diet, exercise, and psychotherapy to be 
        translated and disseminated to communities in need of them.

Centers for Disease Control and Prevention
    As a member of the Centers for Disease Control and Prevention (CDC) 
Coalition, APA supports an appropriation of $7.7 billion for CDC's 
``core programs'' for fiscal year 2012. In addition to playing a key 
role in maintaining a strong public health infrastructure and 
protecting Americans from public health threats and emergencies, CDC 
programs play a crucial role in reducing healthcare costs and 
strengthening the Nation's health system. This request reflects the 
minimum amount CDC will need to fulfill its core missions for fiscal 
year 2012.
    National Center for Health Statistics.--APA endorses the 
President's fiscal year 2012 request of $162 million in funding for 
NCHS. NCHS is the Nation's principal health statistics agency, and the 
health data collected by NCHS are an essential part of the Nation's 
statistical and public health infrastructure. The Subcommittee's 
support is helping NCHS rebuild after years of underinvestment and 
restore the collection of essential health data. With your continued 
support, NCHS will modernize its data collection efforts to produce 
higher quality, more timely data.
    Prevention Research Centers.--APA recognizes the importance of a 
focus on prevention in improving health in America and the significant 
contributions of the Prevention Research Centers network of community, 
academic, and public health partners to research on evidenced based 
approaches in health promotion. APA urges Congress to allocate the 
resources necessary to support the Prevention Research Centers so that 
this network of academic institutions and organizations can continue to 
contribute as widely and effectively to prevention science. APA opposes 
any program consolidation that would lead to disproportionate funding 
cuts for the Prevention Research Centers. Insofar as consolidation of 
programs as proposed in the fiscal year 2012 President's budget occurs, 
APA requests that Congress designate specific funding for Prevention 
Research Centers.

Substance Abuse and Mental Health Services Administration (SAMHSA)
    APA is highlighting three requests for the Committee's support at 
SAMHSA's Center for Mental Health Services:
  --First, APA strongly recommends that Congress allocate the fully 
        authorized amount ($50 million) for SAMHSA's National Child 
        Traumatic Stress Network (NCTSN) program which works to aid the 
        recovery of children, families, and communities impacted by a 
        wide range of trauma, including physical and sexual abuse, 
        natural disasters, sudden death of a loved one, the impact of 
        war on military families, and much more. Specifically, APA 
        recommends that SAMHSA increase the number of NCTSN grantees 
        and maintain the collaborative model envisioned in the original 
        authorization.
  --Second, APA urges the Committee to increase its support for the 
        Minority Fellowship Program. Racial and ethnic minorities are 
        projected to represent 40 percent of our Nation's population in 
        upcoming years. Therefore, APA urges Congress to increase 
        funding for the Minority Fellowship Program by $2.6 million. 
        This unique workforce development initiative trains ethnic 
        minority healthcare professionals to bring mental and 
        behavioral healthcare services to rural and underserved 
        minority communities.
  --Third, APA encourages Congress to provide at least level support 
        for the three programs authorized under the Garrett Lee Smith 
        Memorial Act, especially the Campus Suicide Prevention Program. 
        These programs make suicide prevention initiatives and mental 
        health support available to populations in need and merit 
        continued appropriations.

Administration on Aging
    Mental health.--Older adults are one of the fastest growing 
segments of the U.S. population and approximately 25 percent of older 
Americans have a mental or behavioral health problem. In particular, 
older white males (age 85 and over) currently have the highest rates of 
suicide of any group in the United States. Accordingly, APA urges an 
expanded effort to address the mental and behavioral health needs of 
older adults including implementation of the mental and behavioral 
health provisions in the Older Americans Act Amendments of 2006, to 
provide grants to States for the delivery of mental health screening, 
and treatment services for older individuals and programs to increase 
public awareness and reduce the stigma associated with mental disorders 
in older individuals. APA also recommends that AoA designate an officer 
to administer mental health services for older Americans.
    Caregivers.--Family caregivers play an essential role in providing 
long-term services and supports for the chronically ill and aging. For 
this reason APA supports the Lifespan Respite Care Program and urges 
Congress to appropriate $50 million for this initiative in fiscal year 
2012. In addition, the Secretary of HHS should ensure that State 
agencies and Aging and Disability Resource Centers (ADRCs) use the 
funds to serve all age groups, chronic conditions and disability 
categories equitably and without preference.
    The agencies under this Subcommittee's jurisdiction provide 
critical support to APA's members, their home institutions, and their 
students and patients. The APA commends the Committee for accepting 
written testimony from public witnesses.
                                 ______
                                 
      Prepared Statement of the American Public Health Association

    The American Public Health Association (APHA) is the oldest and 
most diverse organization of public health professionals and advocates 
in the world dedicated to promoting and protecting the health of the 
public and our communities. We are pleased to submit our views on 
Federal funding for public health activities in fiscal year 2012.
Recommendations for Funding the Public Health Service
    APHA's budget recommendations for the Public Health Service 
includes funding for the Centers for Disease Control and Prevention 
(CDC), the Health Resources and Services Administration (HRSA), the 
Substance Abuse and Mental Health Services Administration (SAMHSA), the 
Agency for Healthcare Research and Quality (AHRQ), and the National 
Institutes of Health (NIH). Together all of these agencies play a 
critical role in keeping Americans healthy.

CDC
    APHA believes that Congress should support CDC as an agency--not 
just the individual programs that it funds. In the best judgment of the 
CDC Coalition--given the challenges and burdens of chronic disease, a 
potential influenza pandemic, terrorism, disaster preparedness, new and 
reemerging infectious diseases and our many unmet public health needs 
and missed prevention opportunities--we believe the agency will require 
funding of at least $7.7 billion for CDC's ``core programs'' in fiscal 
year 2012. This request represents a 36 percent increase over fiscal 
year 2011 and a 31 percent increase over the President's fiscal year 
2012 request. We are deeply disappointed with the more than $740 
million in cuts to CDC's budget authority included in the proposed 
fiscal year 2011 continuing resolution (CR). While CDC programs will 
receive significant new funding from the Prevention and Public Health 
Fund in fiscal year 2011, we are concerned that this funding would 
essentially supplant cuts made to CDC's budget authority. As you know 
the Prevention and Public Health Fund was intended to supplement and 
not supplant the base funding of our public health agencies and 
programs.
    The President's fiscal year 2012 budget proposes to consolidate a 
number of chronic disease programs within CDC. APHA and other advocates 
are currently engaged in conversations with CDC and members of Congress 
to better understand what this consolidation will mean for the funding 
that is passed on to our State and local health agencies and the 
various programs our members have supported in the past. We look 
forward to working with Congress, the Administration and CDC to ensure 
that any effort to consolidate the programs leads to best health 
outcomes for the American people. We must ensure that CDC's National 
Center for Chronic Disease Prevention and Health Promotion has the 
resources it needs to assist our States and communities in their 
efforts to reduce the burden of chronic disease.
    By translating research findings into effective intervention 
efforts, CDC has been a key source of funding for many of our State and 
local programs that aim to improve the health of communities. Perhaps 
more importantly, Federal funding through CDC provides the foundation 
for our State and local public health departments, supporting a trained 
workforce, laboratory capacity and public health education 
communications systems.
    CDC also serves as the command center for our Nation's public 
health defense system against emerging and reemerging infectious 
diseases. With the potential onset of a worldwide influenza pandemic, 
in addition to the many other natural and man-made threats that exist 
in the modern world, the CDC has become the Nation's--and the world's--
expert resource and response center, coordinating communications and 
action and serving as the laboratory reference center. States and 
communities rely on CDC for accurate information and direction in a 
crisis or outbreak. This has been demonstrated most recently by CDC's 
quick response and ongoing investigation into human infections with 
H1N1 flu (swine flu) in the United States and internationally.
    CDC's National Center for Injury Prevention and Control works to 
prevent unintentional and violence-related injuries to minimize the 
consequences of injuries when they occur by researching the problem; 
identifying the risk and protective factors; developing and testing 
interventions; and ensuring widespread adoption of proven strategies. 
We urge you to ensure the agency has the resources it needs to address 
these leading causes of death and disability.
    We must address the growing disparity in the health of racial and 
ethnic minorities. CDC is helping States address serious disparities in 
infant mortality, breast and cervical cancer, cardiovascular disease, 
diabetes, HIV/AIDS and immunizations. APHA is committed to ending 
health disparities and we encourage the Subcommittee to provide 
adequate funds for these efforts.
    We also encourage the Subcommittee to provide adequate funding for 
CDC's National Center for Environmental Health. We ask that the 
Subcommittee to continue its recent efforts to expand and enhance CDC's 
capacity to help the Nation prepare for and adapt to the potential 
health effects of climate change by providing CDC with $15 million for 
climate change and health activities. Expanded funding would allow CDC 
to provide technical assistance, training and tools to help State and 
local health officials and improve coordination and integration of 
climate change across CDC. We also urge the Committee to closely 
evaluate the significant cut made to CDC's Healthy Homes/Lead Poisoning 
Prevention and the National Asthma Control programs in the President's 
budget to ensure these programs have adequate funding to provide States 
and localities with the funding they need to protect public health.

HRSA
    We request an overall funding level of $7.65 billion for HRSA in 
fiscal year 2012. This recommendation represents a 22 percent increase 
over fiscal year 2011 and a 12 percent increase over the President's 
fiscal year 2012 request. We believe this level of funding is the 
minimum amount necessary for HRSA to continue to meet the healthcare 
needs of the American public. Over the past several years, HRSA has 
received mostly level funding, undermining the ability of its 
successful programs to grow. Additionally we are deeply disappointed 
with the more than $1.2 billion in cuts made to the agency in the final 
fiscal year 2011 continuing resolution and the potential negative 
consequences for public health. Our fiscal year 2012 requested minimum 
level of funding will better allow the agency to carry out critical 
public health programs and services that reach millions of Americans, 
including training for public health and healthcare professionals, 
providing primary care services through community health centers, 
improving access to care for rural communities, supporting maternal and 
child healthcare programs, providing healthcare to people living with 
HIV/AIDS, and many more. However, much more is needed for the agency to 
achieve its ultimate mission of ensuring access to culturally 
competent, quality health services; eliminating health disparities; and 
rebuilding the public health and healthcare infrastructure.
    HRSA operates programs in every State and thousands of communities 
across the country and is a national leader in providing health 
services for individuals and families. The agency serves as a health 
safety net for the medically underserved, including the 50 million 
Americans who were uninsured in 2009 and 50 million Americans who live 
in neighborhoods where primary healthcare services are scarce.
    The $7.65 billion fiscal year 2012 HRSA funding request is based 
upon recommendations provided by public health professionals to support 
HRSA programs including:
  --Health Professions programs support the education and training of 
        primary care physicians, nurses, dentists, optometrists, 
        physician assistants, nurse practitioners, public health 
        personnel, mental and behavioral health professionals, 
        pharmacists, and other allied health providers; improve the 
        distribution and diversity of health professionals in medically 
        underserved communities; and ensure a sufficient and capable 
        health workforce able to provide care for all Americans and 
        respond to the growing demands of our aging and increasingly 
        diverse population. In addition, the Patient Navigator Program 
        helps individuals in underserved communities, who suffer 
        disproportionately from chronic diseases, navigate the health 
        system.
  --Primary Care programs support more than 7,000 community health 
        centers in every State and territory, improving access to 
        preventive and primary care in geographically isolated and 
        economically distressed communities. In addition, the health 
        centers program targets populations with special needs, 
        including migrant and seasonal farm workers, homeless 
        individuals and families, and those living in public housing.
  --Maternal and Child Health Flexible Maternal and Child Health Block 
        Grants, Healthy Start and other programs provide services, 
        including prenatal and postnatal care, newborn screening tests, 
        immunizations, school-based health services, mental health 
        services, and well-child care for more than 34 million 
        uninsured and underserved women and children not covered by 
        Medicaid or the Children's Health Insurance Program, including 
        children with special needs.
  --HIV/AIDS programs provide assistance to metropolitan and other 
        areas most severely affected by the HIV/AIDS epidemic; support 
        comprehensive care, drug assistance and support services for 
        people living with HIV/AIDS; provide education and training for 
        health professionals treating people with HIV/AIDS; and address 
        the disproportionate impact of HIV/AIDS on women and 
        minorities.
  --Family Planning Title X programs provide reproductive healthcare 
        and other preventive services for more than 5 million low-
        income women at over 4,500 clinics nationwide. These programs 
        improve maternal and child health outcomes, prevent unintended 
        pregnancies, and reduce the rate of abortions.
  --Rural Health programs improve access to care for the 60 million 
        Americans who live in rural areas. Rural Health Outreach and 
        Network Development Grants, Rural Health Research Centers, 
        Rural and Community Access to Emergency Devices Program, and 
        other programs are designed to support community-based disease 
        prevention and health promotion projects, help rural hospitals 
        and clinics implement new technologies and strategies, and 
        build health system capacity in rural and frontier areas.
  --Special Programs include the Organ Procurement and Transplantation 
        Network, the National Marrow Donor Program the C.W. Bill Young 
        Cell Transplantation Program, and National Cord Blood 
        Inventory. Strong funding would facilitate an increase in 
        organ, marrow and cord blood transplantation.
    Greater investment is necessary to sufficiently fund HRSA services 
and programs that continue to face increasing demands. We urge you to 
consider HRSA's role in building the foundation for health service 
delivery and ensuring that vulnerable populations receive quality 
health services, while continuing to strengthen our Nation's health 
safety net programs. By supporting, planning for and adapting to change 
within our healthcare system, we can build on the successes of the past 
and address new gaps that may emerge in the future.

AHRQ
    We request a funding level of at least $405 million for AHRQ for 
fiscal year 2012. This level of funding is needed for the agency to 
fully carry out its Congressional mandate to conduct, support, and 
disseminate research and translate research into knowledge and 
information that can be used to improve the health of all Americans. 
AHRQ focuses on improving healthcare quality, eliminating racial and 
ethnic disparities in health, reducing medical errors, and improving 
access and quality of care for children and persons with disabilities.

SAMHSA
    APHA supports a funding level of $3.671 billion for SAMHSA for 
fiscal year 2012. This funding level would provide support for 
substance abuse prevention and treatment programs, as well as continued 
efforts to address emerging substance abuse problems in adolescents, 
the nexus of substance abuse and mental health, and other serious 
threats to the mental health of Americans.
NIH
    APHA supports a funding level of $35 billion for the NIH for fiscal 
year 2012. The translation of fundamental research conducted at NIH 
provides some of the basis for community based public health programs 
that help to prevent and treat disease.

Conclusion
    In closing, we emphasize that the public health system requires 
stronger financial investments at every stage. Successes in biomedical 
research must be translated into tangible prevention opportunities, 
screening programs, lifestyle and behavior changes, and other 
interventions that are effective and available for everyone. Without a 
robust and sustained investment in our Nation's public health agencies, 
we will fail to meet the mounting health challenges facing our Nation.
                                 ______
                                 
      Prepared Statement of the American Public Power Association

    The American Public Power Association (APPA) appreciates the 
opportunity to submit this statement supporting funding for the Low-
Income Home Energy Production Assistance Program (LIHEAP) for fiscal 
year 2012.
    APPA has consistently supported an increase in the authorization 
level for LIHEAP. The Administration's fiscal year 2012 budget requests 
$2.57 billion for LIHEAP. APPA supports extending the current level of 
$5.1 billion for the program.
    APPA is the national service organization representing the 
interests of over 2,000 municipal and other State and locally owned 
utilities throughout the United States (all but Hawaii). Collectively, 
public power utilities deliver electricity to 1 of every 7 electricity 
consumers (approximately 46 million people), serving some of the 
Nation's largest cities. However, the vast majority of APPA's members 
serve communities with populations of 10,000 people or less.
    APPA is proud of the commitment that its members have made to their 
low-income customers. Many public power systems have low-income energy 
assistance programs based on community resources and needs. Our members 
realize the importance of having in place a well-designed low-income 
customer assistance program combined with energy efficiency and 
weatherization programs in order to help consumers minimize their 
energy bills and lower their requirements for assistance. While highly 
successful, these local initiatives must be coupled with a strong 
LIHEAP program to meet the growing needs of low-income customers. In 
the last several years, volatile home-heating oil and natural gas 
prices, severe winters, high utility bills as a result of dysfunctional 
wholesale electricity markets and the effects of the economic downturn 
have all contributed to an increased reliance on LIHEAP funds. Even at 
$5.1 billion, LIHEAP cannot provide assistance to all who qualify for 
the program. Cutting this program by $2.5 billion would have very 
serious consequences for those who rely on the program.
    Also when considering LIHEAP appropriations this year, we encourage 
the subcommittee to provide advanced funding for the program so that 
shortfalls do not occur in the winter months during the transition from 
one fiscal year to another. LIHEAP is one of the outstanding examples 
of a State-operated program with minimal requirements imposed by the 
Federal Government. Advanced funding for LIHEAP is critical to enabling 
States to optimally administer the program.
    Thank you again for this opportunity to relay our support for 
increased LIHEAP funding for fiscal year 2012.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology

    The American Society for Microbiology (ASM) is pleased to submit 
the following testimony on the fiscal year 2012 appropriation for the 
Centers for Disease Control and Prevention (CDC). The ASM is the 
largest single life science organization in the world with over 38,000 
members. The ASM mission is to enhance the science of microbiology, to 
gain a better understanding of life processes and to promote the 
application of this knowledge for improved health and environmental 
well being.
    The ASM supports the proposed fiscal year 2012 budget of $11.3 
billion for the CDC, a 3.4 percent increase over the fiscal year 2010 
funding level. The budget recognizes the importance of maintaining a 
strong infrastructure to address infectious disease prevention and 
control. The CDC's role, in partnership with State and local health 
departments and international partners, is to monitor for known and 
emerging infectious disease threats through surveillance and laboratory 
diagnosis, and to develop control and prevention strategies for these 
diseases. Examples include vaccine preventable diseases, foodborne 
diseases, pandemic influenza, vectorborne and zoonotic diseases, 
healthcare acquired infections (HAIs) and antimicrobial resistance. The 
proposed fiscal year 2012 budget addresses these threats and provides 
targeted resources for them.
    The fiscal year 2012 proposed budget includes an increase in 
funding for HIV/AIDS, sexually transmitted diseases (STD), tuberculosis 
(TB), and hepatitis, and gives the States added flexibility to shift 
funding among these programs based on local priorities. The ASM 
supports this approach. The ASM also supports the $68 million increase 
in funding for emerging and zoonotic diseases, including $40 million in 
funding from the Prevention and Public Health Fund to enhance 
epidemiology and laboratory capacity in State health departments.
    However, caution must be taken regarding any reductions in effort 
for ``low impact, disease specific programs'' as proposed in the fiscal 
year 2012 budget. Experience indicates that an emerging public health 
threat can occur with almost any pathogen, and capacity must be 
sustained with this possibility in mind. Examples of such complacency 
include the reemergence of drug resistant tuberculosis in the 1990s and 
West Nile virus in 1999. The proposed elimination of prion activities 
at CDC could have such an impact, as these diseases are related to 
human variant Creutzfeld Jakob Disease (vCJD) and to chronic wasting 
disease, which is an emerging animal health problem in several areas of 
the United States.
    The ASM supports investments to address healthcare associated 
infections. CDC provided resources through the American Recovery and 
Reinvestment Act (ARRA) to develop programs for surveillance and 
prevention of HAIs, which have resulted in substantial HAI reductions 
in these infections with significant cost savings to the healthcare 
system. These investments must be sustained after ARRA funding ends, 
and the proposed $47 million for HAIs would accomplish this goal.
    The ASM supports the $8.7 million increase in funding for food 
safety. The CDC recently released new estimates of foodborne diseases, 
concluding that 1 in 6 people in the United States get sick each year 
(about 48 million people). The delayed recognition of the widespread 
outbreaks of salmonellosis associated with eggs during 2010 
demonstrates the need to sustain and enhance vigilance for foodborne 
outbreaks. In that outbreak, over 1,900 confirmed illnesses were 
reported (likely a small percentage of actual cases) and 500 million 
eggs were recalled. CDC's surveillance systems will also play a pivotal 
role in assessing the success of programs developed as a result of the 
recently passed Food Safety Modernization Act.
    The ASM is concerned about the following proposed reductions in the 
fiscal year 2012 CDC budget:
  --There is a substantial decline in preparedness funding, including a 
        $72 million cut in funds for State and local preparedness 
        grants. Such declines will have a significant impact on the 
        ability of frontline public health workers to be able to 
        respond to all hazard emergencies at a time of restrained 
        budgets at the State and local level. The ASM recommends such 
        grants be maintained at fiscal year 2010 funding levels.
  --The proposed elimination of funding for the CDC genomics program 
        should be restored. Public health genomics is an area of 
        growing importance, including the ability to identify risk 
        factors for enhanced susceptibility or resistance to infectious 
        diseases. Such genetic factors have important implications for 
        disease prevention and treatment, and must be tied to 
        epidemiologic investigations and disease surveillance efforts.
  --The ASM does not endorse the elimination of targeted funding for 
        CDC's antimicrobial resistance (AR) activities and the transfer 
        of these funds into the overall budget for emerging infections. 
        While ASM appreciates the need for funding flexibility, 
        antimicrobial resistance is a substantial public health problem 
        that leads to significant morbidity and death and markedly 
        increases healthcare costs. To address this threat, sustained 
        dedicated funding is necessary.

CDC Infectious Disease Programs Protect Public Health
    Infectious diseases cause about one-fourth of all deaths globally, 
more than 11 million people, over half of them children. In the United 
States, influenza and pneumonia account for more than 56,000 deaths 
each year. Of the 1.1 million people living in the United States living 
with HIV/AIDS, about 21 percent do not know that they are HIV positive; 
there are more than 56,000 new HIV infections annually. Last year, the 
CDC responded to multiple disease outbreaks and incidents that included 
surveillance of cholera in post earthquake Haiti and activation of 
CDC's Emergency Operations Center as part of the Federal response to 
the gulf oil spill.
    In the United States, the economic and societal costs of infectious 
diseases are significant, exacerbated by previously unknown microbial 
pathogens, rising drug resistance among pathogens and increasing travel 
and commerce between geographic areas. The CDC Office of Infectious 
Diseases leads United States efforts to stop or minimize the onslaught 
of infectious diseases, with highly qualified personnel at three 
national centers that specialize in (1) Emerging and Zoonotic 
Infectious Diseases; (2) HIV/AIDS, Viral Hepatitis, STD, and TB 
Prevention; or (3) Immunization and Respiratory Diseases.
    The ASM endorses the proposed fiscal year 2012 budget for key 
programs at CDC, including the following:
    Emerging Infectious Diseases/Antimicrobial Resistance.--CDC is a 
world leader in detecting and preventing emerging and reemerging 
infectious diseases, a role which depends on strong science 
capabilities and readiness to confront the unexpected. CDC's 
infrastructure and partnerships have dealt quickly with the more than 
three dozen new human pathogens of medical significance identified in 
the past 30 years. Recent CDC advances include developing one of the 
first candidate vaccines against all four species of dengue virus, now 
in human trials, and a plan to screen U.S. blood donations for West 
Nile virus. fiscal year 2012 funding will support planned EID 
activities like the development and deployment of improved diagnostic 
tests for plague, dengue and chikungunya. About 75 percent of recently 
emerging human infectious diseases originated in animals, making 
zoonotic diseases another high priority at CDC, along with vectorborne 
diseases spread by mosquitoes, ticks, fleas and other vectors. Two 
reports last year illustrate the critical nature of CDC's EID 
activities: In Florida, an estimated 5 percent of Key West's population 
showed recent exposure to the dengue fever virus; and the new 
antimicrobial resistance gene called New Delhi metallo b lactamase 
(NDM-1), first detected in 2008, is spreading to additional countries.
    Increased fiscal year 2012 funding will support CDC efforts against 
the alarming (and rising) number of pathogens now resistant to 
antimicrobial drugs. As part of the U.S. Interagency Task Force on 
Antimicrobial Resistance, CDC distributes both intramural and 
extramural AR funding for surveillance, prevention, and research 
activities. Agency surveillance networks routinely collect data on 
cases of resistant pathogens. CDC provides epidemiology and laboratory 
support for outbreaks of AR organisms, and distributes educational 
materials to promote appropriate use of antimicrobials. Investments in 
AR programs are cost effective; one study estimated that the additional 
medical cost per U.S. patient infected with an AR pathogen ranges from 
about $19,000 to nearly $30,000. Another estimate concluded that 
preventing a single case of multidrug resistant (MDR) tuberculosis can 
save up to $700,000. In fiscal year 2010, CDC diagnosed and treated 
about 1,000 cases of tuberculosis (including 40 MDR) among overseas 
immigrant applicants and U.S. bound refugees, saving States an 
estimated $45 million.
    HIV/AIDS.--Scientific advances announced last year have added new 
tools to CDC's numerous HIV prevention activities; using a vaginal 
microbicide or daily doses of an oral antiretroviral drug (PrEP) both 
lowered risk of infection in clinical trials. In July 2010, the 
Administration released its National HIV/AIDS Strategy for the United 
States (NHAS). Proposed fiscal year 2012 budget increases would invest 
substantially in the NHAS 5 year goals to reduce new infections: (1) 
lower the annual number of new infections by 25 percent, from 56,300 to 
42,225; (2) reduce the HIV transmission rate by 30 percent, from 5 
persons infected per 100 people with HIV to 3.5 persons infected; and 
(3) increase from 79 to 90 the percentage of people living with HIV who 
know their serostatus.
    Viral Hepatitis.--Proposed fiscal year 2012 increases for viral 
hepatitis prevention would boost CDC surveillance in 10 high burden 
State and local health departments. Prevention of viral hepatitis has 
been successful in recent years, in large part due to vaccines against 
hepatitis A and B viruses. HAV incidence has decreased approximately 92 
percent nationwide since 1995; rates of HBV have been reduced far below 
the original Healthy People 2010 goal of 4.5 cases per 100,000. In the 
first half of fiscal year 2010, CDC funded health departments 
administered over 130,000 doses of HBV vaccine to at risk adults and 
ensured that 87 percent of infants born to HBsAg+ women were 
vaccinated. Incidence of hepatitis C infections has dropped from more 
than 45,000 cases annually to an estimated 20,000, primarily as a 
result of screening the U.S. blood supply and falling case numbers 
among intravenous drug users. However, 2.7-3.9 million Americans have 
HCV, most unaware of their infection. The fiscal year 2012 budget would 
address last year's Institute of Medicine report, which concluded that 
public health programs have insufficient hepatitis related resources 
and that efforts to prevent and control viral hepatitis are not 
adequate.
    Sexually Transmitted Diseases.--Fiscal year 2012 increases would 
strengthen CDC's STD infrastructure, which supports 65 State and local 
prevention programs, and sustain the CDC's surveillance of drug 
resistant STD pathogens like that causing gonorrhea. Reducing STD 
infections is highly cost effective; for example, CDC estimates that 
reductions in gonorrhea and syphilis from 1990 to 2003 saved the U.S. 
economy $5 billion. Cost savings with chlamydia screening in sexually 
active young women are an estimated $2,500-$37,000 per year. Aggressive 
public health efforts to prevent STDs have had positive results; for 
instance, from 1999 to 2009, rates of primary and secondary syphilis 
among females declined by 30 percent, while congenital syphilis dropped 
32 percent. Yet, in general, STDs in the United States persist at 
unacceptable levels: CDC estimates that there are approximately 19 
million new STD infections each year, which cost the U.S. healthcare 
system $16.4 billion annually (2009 figures).

CDC Campaigns Prevent Disease in the United States, Worldwide
    Healthcare Associated Infections.--In the United States, 1 in 20 
hospital patients get an infection during medical treatment. Of the 
nearly 2 million infections acquired in some type of healthcare setting 
annually, almost 100,000 are fatal. A 2009 CDC report estimates that 
each year U.S. hospitals spend between $28 billion and $35.7 billion to 
treat often preventable HAIs. Depending on the effectiveness of 
infection control interventions used, the CDC expects that prevention 
measures could save from $5.7 billion-$31.5 billion of these costs. To 
illustrate, intensive care units have reduced bloodstream infections in 
patients with central lines by 58 percent since 2001, using CDC 
recommended infection control procedures and saving up to 27,000 lives 
and $1.8 billion. The proposed fiscal year 2012 budget would 
significantly increase support for the CDC's HAI activities and its 
National Health Care Safety Network (NHSN) that had provided monitoring 
capacity to more than 3,900 health facilities by the end of 2010. With 
the increased funding, routine NHSN participation will expand from 
2,500 to 6,500 healthcare settings (5,500 hospitals; the rest include 
hemodialysis and long-term care facilities). In March this year, the 
CDC awarded $10 million for HAI research at five academic medical 
centers, as part of its Prevention Epicenter program.
    Immunization.--The Administration's fiscal year 2012 CDC budget 
invests substantial resources into vaccine preventable diseases, 
continuing national immunization campaigns against diseases like 
seasonal and pandemic influenza. The number of lives saved and medical 
costs reduced can be considerable. According to the CDC, ``for every 
birth cohort who receives seven [routine childhood] vaccines . . . 
society saves $9.9 billion in direct medical costs; over 33,500 lives 
are saved; and 14 million cases of disease are prevented.'' Other 
examples of returns on CDC investment include vaccination against 
Haemophilus influenzae type b (Hib), responsible for a 99 percent 
decline in this leading cause of bacterial meningitis in children under 
age 5, for an estimated medical cost savings of $950 million per year 
plus another $1.14 billion of retained earnings by unpaid caregivers. 
In the past year, CDC reported that 3 years of rotavirus vaccinations 
had reduced severe rotavirus disease by 85 percent, and helped develop 
the guidelines for deploying the new pneumococcal vaccine expected to 
greatly reduce pneumonia and ear infections among children. In 
December, CDC launched its Vaccine Tracking System to follow vaccine 
orders from manufacturer to distributor to health providers.
    Global Health.--Lower respiratory tract infections, diarrheal 
diseases, HIV/AIDS, TB and malaria together account for nearly one-
fifth of deaths globally. CDC is a lead partner in the Administration's 
Global Health Initiative, underscoring the importance of infectious 
diseases no matter where outbreaks occur. The fiscal year 2012 budget 
includes increase of funds for global polio eradication, an 
international campaign begun in 1988 that is nearing victory with only 
four countries still harboring endemic disease. Last year, there were 
about 900 cases reported, declining from more than 350,000 in 1988. 
fiscal year 2012 funds will purchase 254 million doses of oral polio 
vaccine for use in mass immunization campaigns in Southeast Asia, 
Africa and Europe, to achieve CDC's target of zero polio endemic 
countries by the end of 2012. Funding will support the CDC vaccination 
campaign toward a 90 percent reduction in global measles related 
mortality; by 2008, CDC and its partners had helped reduce measles 
deaths by 78 percent, from an estimated 733,000 in 2000 to about 
164,000.
    Quarantine and migration related activities also are part of the 
agency's multi level strategies in global health; CDC operates 20 U.S. 
quarantine stations and responds to outbreaks in refugee camps 
overseas. Travel and trade allow pathogens to move quickly. The 2009 
``swine flu'' spread to 30 countries within 6 weeks. About 1.8 million 
airline passengers cross international borders daily, and about half of 
international travelers worldwide have some kind of health problem 
while traveling. An estimated 50,000-70,000 refugees and 1.2 million 
immigrants resettle in the United States each year, while more than 2 
million people travel to or through this country by air, sea, or land 
daily.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology

    The American Society for Microbiology (ASM) wishes to submit the 
following written testimony on the fiscal year 2012 appropriation for 
the National Institutes of Health (NIH). The ASM is the largest single 
life science organization with over 38,000 members. Its mission is to 
enhance the science of microbiology, to gain a better understanding of 
life processes and to promote the application of this knowledge for 
improved health and environmental well being.
    The ASM urges Congress to support strong Federal funding for 
biomedical research and to provide $35 billion in funding for the NIH 
in fiscal year 2012. Continued investments in science and public health 
programs are critical to the Nation's health, economic growth, national 
security and global leadership. Acquiring knowledge at the frontiers of 
science is the basis for new technologies, medical discoveries, new 
industries and high value jobs. Investments in biomedical research lead 
to more effective treatments, preventions and cures for chronic and 
infectious diseases, improving the quality of life for people 
everywhere. Reducing funding for research project grants will slow 
medical progress on a myriad of diseases, adversely affecting human 
life. Attracting and retaining scientists and maintaining the vitality 
of the research enterprise will become more difficult if the Nation 
does not remain committed to sustained and predictable funding for 
research and training. We, therefore, urge Congress to make increased 
appropriations for biomedical research a national priority as the 
Federal budget is considered for the coming fiscal year.

   NATIONAL INSTITUTES OF HEALTH: A CRUCIAL INVESTMENT FOR THE FUTURE

    The NIH is a primary contributor to growing the Nation's economy 
and ensuring U.S. leadership in science. The NIH expends 97 percent of 
its annual budget on R&D activities through its 27 centers and 
institutes. NIH funding helps foster innovation among more than 300,000 
research personnel at over 3,000 universities and research 
institutions, with about 6,000 scientists working in NIH's own 
laboratories.
    Life saving successes in biomedical research depend on NIH support: 
for example, the development last year of a new 2 hour diagnostic test 
for tuberculosis and drug resistant TB bacteria; a potential drug 
against malaria parasites, evidence that an anti-HIV treatment could 
also prevent infection, research suggesting a role for intestinal 
bacteria in obesity, and the 2010 Nobel Prize winning methods to 
synthesize compounds that have already proven effective against HIV and 
herpes virus. NIH funded research improves the health of our 
communities, represents investment in local and national economic 
growth and advances U.S. science and medicine.
Investing in Scientific Innovation, Advancing Medical Knowledge
    NIH funded research has repeatedly reshaped medicine and continues 
to enhance public health. NIH routinely identifies new research 
initiatives and pursues transformative research. NIH recently 
delineated five priority areas with particular promise for safeguarding 
our future, including:
  --High throughput technologies.--DNA sequencing, nanotechnology and 
        other computer supported technologies can generate massive data 
        sets that enable comprehensive approaches to disease, like the 
        NIH microbiome project to understand how interactions with the 
        microbes that live on and in the human body influence health 
        and disease.
  --Translational medicine.--NIH programs will increasingly focus on 
        translating basic scientific discoveries into new clinical 
        diagnostics and treatments (bench to bedside).
  --Informing healthcare reform.--With U.S. expenditures on healthcare 
        approaching 20 percent of our gross domestic product, NIH 
        research areas like personalized medicine and pharmacogenomics 
        seek cost effective solutions through disease treatment and 
        prevention tailored to individual patients.
  --Global health.--In addition to NIH's ongoing efforts against AIDS, 
        tuberculosis and malaria, more resources will go toward 
        combating neglected tropical diseases that devastate low income 
        countries.
  --Reinvigorating the biomedical research community.--NIH is 
        reevaluating the Nation's future scientific workforce needs in 
        terms of its own training programs, as well as optimizing NIH's 
        extramural research investments to more effectively discover 
        innovative medical solutions.

           THE IMPORTANCE OF INVESTIGATOR INITIATED RESEARCH

    The majority of NIH funds are distributed across the country to 
extramural researchers through grants, contracts and fellowships. 
Investigator initiated, competitively awarded Research Project Grants 
(RPGs) are the single most effective mechanism for ensuring research 
innovation. Early in the decade, an average of 1 out of 3 grant 
applications were funded. In recent years, the success rate has fallen 
to roughly 1 in 5, with only a 15 percent success rate estimated for 
fiscal year 2011, despite an abundance of research opportunities.
    Scientific advances require investigator inspiration and 
persistence often over years of research. For example, a large share of 
the research awarded the 2010 Nobel Prize in Chemistry occurred in a 
laboratory supported since 1979 by the National Institute of General 
Medical Sciences (NIGMS). Success developing the DNA based TB rapid 
diagnostic test announced last year followed more than 8 years of 
National Institute of Allergy and Infectious Diseases (NIAID) support. 
NIH funding also enables transformative research that has a higher 
degree of risk for failure, but potential for huge scientific rewards, 
like recipients of the relatively new EUREKA program (Exceptional, 
Unconventional Research Enabling Knowledge Acceleration) managed by 
NIGMS. Among this year's new NIGMS grants are projects designed to 
decipher the genetic code in yeast and to use bacterial components to 
induce patient specific stem cells that facilitate gene therapy.
    At NIH, long range strategies for research success include 
workforce development and mentoring young researchers. NIAID, for 
example, met its own target of supporting ``new investigators'' in 
fiscal year 2009 by funding about 20 percent of those who applied for 
R01 grants as first time principal investigator. NIGMS, which 
distributes 70 percent of its budget to research project grants, 
contributes an additional 10 percent to underwrite institutional 
training grants and fellowships that specifically fulfill its mission 
to train the next generation of medical scientists. In addition, NIGMS 
funds approximately 50 percent of Ph.D. research training positions at 
NIH, including the Medical Scientist Training (M.D.-Ph.D.) program. 
Additional NIH grant programs focus on K-12 education in science, 
technology, engineering and mathematics (STEM), to foster a future 
technical workforce.
    The NIH regularly identifies research intended to ultimately 
produce public health benefits. In fiscal year 2009, NIAID released 33 
new funding opportunity announcements that are already producing 
results in selected areas, including innovative approaches to vaccine 
development against HIV, malaria and hepatitis C, and clinical trials 
specifically designed to counter the threat of antimicrobial resistance 
among pathogens. Research concepts reviewed periodically by NIAID 
advisory councils may anticipate potential research initiatives for 
upcoming funding cycles. For example, concepts approved in September 
2010 included research to prevent the spread of drug resistant 
pathogens; support for Functional Genomics Research Centers that will 
generate massive genetic data sets readily available to the broad 
scientific community; improved diagnostics for Lyme disease; and a 
``pluripotent approach'' for sexual and reproductive health that might 
combine contraceptive methods with microbicides, vaccine or other 
disease preventives.

NIH Research to Address Threats of Infectious Diseases and 
        Antimicrobial Resistance
    Infectious diseases cause approximately 26 percent of all deaths 
worldwide, more than 11 million people annually. Each year infectious 
diseases kill approximately 6.5 million children, most in developing 
countries. These preventable diseases also greatly impact public health 
systems in the United States. For example, influenza and pneumonia 
account for more than 56,000 deaths annually, while each year there are 
more than a million new cases of sexually transmitted diseases. Despite 
ground breaking triumphs against infectious diseases over decades of 
research, both predictable and unexpected infectious agents continue to 
challenge medical science. In recent years of flat funding, NIAID has 
had to respond to additional public health threats like bioterrorism 
and unforeseen infectious diseases, by steadily expanding its research 
portfolio and its capabilities to recognize and quickly counter newly 
emerging and reemerging diseases in the United States and elsewhere. 
The scope and significance of NIAID sponsored research cannot be 
overstated.
    The emergence of drug resistant microbial pathogens seriously 
complicates efforts to stop or minimize infectious diseases. The 
magnitude of the problem elevates the public health significance of 
antimicrobial resistance. Examples of clinically important microbes 
that are rapidly developing resistance to available drugs include 
bacteria that cause pneumonia, ear infections and meningitis, skin, 
bone, lung and bloodstream infections, urinary tract infections, 
foodborne infections and infections in healthcare settings. In recent 
years there have been dramatic examples like chloroquine resistant 
malaria, methicillin resistant Staphylococcus aureus (MRSA) infection 
and multidrug resistant and extensively drug resistant tuberculosis. 
Ten percent of all hospitalized patients in this country have or 
develop resistant infections, adding $55 billion in annual healthcare 
costs. The public health burden of MRSA is enormous with over 90,000 
MRSA infections per year in the United States. As a result, more NIH 
funding must be allotted to relevant research. In 2010 NIAID announced 
four new contracts for large scale clinical trials (making a total of 
eight trials) focused on treatment alternatives for diseases for which 
antibiotics are prescribed most often (e.g., middle ear infections). 
Also in 2010, NIAID reported a newly identified MRSA toxin, the only 
MRSA toxin currently known to destroy specific human immune cells and a 
possible target of future drugs.
    HIV/AIDS.--Since 1981, when the U.S. epidemic began, HIV/AIDS has 
killed more than 565,000 people in the United States. Each year there 
are about 2 million AIDS related deaths worldwide and an additional 2.7 
million become newly infected, including about 56,000 new infections 
annually in the United States. An estimated 33 million are living with 
HIV/AIDS, over 1 million of those in this country. In large part due to 
NIH support, medical science now offers rising hope amidst these grim 
statistics, as those with HIV/AIDS live longer and better. In 2010, 
NIAID funded researchers reported several studies that have been called 
landmarks in the fight against this difficult disease:
  --Preexposure prophylaxis (PrEP) with a daily dose of an approved 
        anti-HIV drug reduces the risk of infection among men who have 
        sex with men; studies of other at risk populations continue.
  --After nearly 15 years of research, scientists discovered the first 
        vaginal microbicide gel that gives women some protection 
        against HIV infection.
  --Various research groups have discovered at least eight antibodies 
        that can stop HIV from infecting human cells in the laboratory, 
        which could help scientists design effective vaccines.
  --A study in Cambodia demonstrated that people coinfected with HIV 
        and tuberculosis can benefit from starting antiretroviral 
        therapy earlier than originally believed (antiretroviral 
        treatment can worsen the symptoms of coinfections, so timing is 
        critical).
    Emerging Infectious Diseases.--Since 2003, NIAID has had principal 
responsibility for NIH's research and development of medical 
countermeasures against radiological, nuclear, chemical and biological 
terrorist threats. NIAID's programs on biodefense and emerging/
reemerging infectious diseases are inevitably intertwined. Researchers 
study hemorrhagic fevers caused by Ebola and other viruses, West Nile 
virus, prion diseases, influenza viruses, anthrax, and dozens of other 
infectious diseases, seeking vaccines, therapeutics, and diagnostics to 
prevent or curb disease outbreaks. Last year, for instance, NIAID 
scientists announced a new, quick method called real time quaking 
induced conversion assay (RT QuIC) to detect prions, which cause fatal 
brain diseases like mad cow disease in cattle, Creutzfeldt Jakob 
disease in humans, and scrapie in sheep. Other researchers discovered a 
new form of murine prion disease that resembles a form of human 
Alzheimer's disease.
    Last August, after more than a decade of work by NIAID scientists, 
a dengue vaccine began human clinical testing; the virus infects about 
50 million to 100 million people annually. NIAID also awarded new 
contracts to private industry to develop delivery systems for new 
vaccines against anthrax and dengue fever; clinical trials of the three 
vaccines should begin within 3 years. Two other experimental vaccines 
showed promise against Marburg virus (cause of hemorrhagic fever with a 
fatality rate up to 80 percent) and Ebola virus (up to 90 percent 
fatality).
    National Security and Research.--Beginning in the late 1990s and 
especially following 2001, funding for research in the Department of 
Defense related to global diseases that impact U.S. military on foreign 
soil as well as protection against biothreats on U.S. soil decreased. 
This research is now primarily entrusted to NIAID and other NIH 
institutes, FDA and CDC. Research related to defense is interdependent 
on advances in other areas of research, especially those related to 
emerging infections. Reports issues recently by the Institute of 
Medicine and the National Biodefense Science Board emphasize the need 
to properly fund these agencies for medical countermeasure development.
    Genomics.--NIAID and NIGMS sponsor genomic research for improving 
human health. At NIGMS, investigators are using human genetic 
information to explain and identify individuals' reactions to certain 
drugs--research called pharmacogenetics, which is focused on the NIH 
goal of cost effective ``predictive, personalized, and preemptive 
medicine.'' NIAID supported genomic research programs include genome 
sequencing centers and bioinformatics resource centers. By the end of 
2010, the Institute's two Structural Genomics Centers for Infectious 
Diseases had determined 500 3-D protein structures from microorganisms 
on the NIAID Category A-C priority lists or otherwise considered major 
human pathogens.
    Global Health.--Infectious diseases travel easily across 
international borders, and the economic stability of nations can be 
shaken by high rates of morbidity and mortality from such diseases. 
Fiscal year 2009 marked the 30th anniversary of the Institute's 
International Collaborations in Infectious Disease Research (ICIDR) 
program. That year NIAID supported 643 international projects in 97 
countries, with 72 percent of the funds invested in HIV/AIDS research. 
In mid 2010, NIAID announced funding to establish 10 new malaria 
research centers around the world. NIAID supported researchers recently 
developed a chemical that may prove to be a new malaria drug; it has 
more than a decade since the last new class of antimalarials became 
available against a disease that kills nearly 1 million people every 
year. Preliminary data suggest that the new compound might be effective 
as a single dose, rather than the current standard treatment of 
multiple doses over several days. Also last year, other NIAID grantees 
described a previously unknown metabolic pathway used by malaria 
parasites to survive inside human blood cells.

                               CONCLUSION

    For over a century, NIH funded discoveries have saved lives, 
stimulated private industry and fostered the next generation of 
scientists and physicians. More than 130 Nobel Prize winners have 
received support from NIH, but more importantly, the health of millions 
worldwide has been improved through NIH programs. NIH investments have 
also yielded remarkable financial rewards, from basic research that 
helped launch the biotech industry to the recent development of a 
highly effective meningitis vaccine that each year saves an estimated 
$950 million in medical costs and another $1.14 billion in patient/
caregiver earnings. The ASM strongly recommends that Congress support 
innovation in the medical sciences and increase funding for the 
National Institutes of Health in fiscal year 2012.
                                 ______
                                 
        Prepared Statement of the American Society for Nutrition

    The American Society for Nutrition (ASN) appreciates the 
opportunity to submit testimony regarding fiscal year 2012 
appropriations for the National Institutes of Health (NIH) and the 
National Center for Health Statistics (NCHS). ASN is the professional 
scientific society dedicated to bringing together the world's top 
researchers, clinical nutritionists and industry to advance our 
knowledge and application of nutrition to promote human and animal 
health. Our focus ranges from the most critical details of nutrition 
research to broad societal applications. ASN respectfully requests $35 
billion for NIH, and we urge you to adopt the President's request of 
$162 million for NCHS in fiscal year 2012.
    Basic and applied research on nutrition, nutrient composition, the 
relationship between nutrition and chronic disease, and nutrition 
monitoring are critical to the health of all Americans and the U.S. 
economy. Awareness of the growing epidemic of obesity and the 
contribution of chronic illness to burgeoning healthcare costs has 
highlighted the need for improved information on dietary components, 
dietary intake, strategies for dietary change and nutritional 
therapies. The health costs of obesity alone are estimated at $147 
billion each year. This enormous health and economic burden is largely 
preventable, along with the many other chronic diseases that plague the 
United States. It is for this reason that we urge you to consider these 
recommended funding levels for two agencies under the Department of 
Health and Human Services that have profound effects on nutrition 
research, nutrition monitoring, and the health of all Americans--the 
National Institutes of Health and the National Center for Health 
Statistics.

National Institutes of Health
    The National Institutes of Health (NIH) is responsible for 
conducting and supporting 90 percent (approximately $1 billion) of 
federally funded basic and clinical nutrition research. Nutrition 
research, which makes up about 4 percent of the NIH budget, is truly a 
trans-NIH endeavor, being conducted and funded across multiple 
Institutes and Centers. In order to fulfill the full potential of 
biomedical research, including nutrition research, ASN recommends an 
fiscal year 2012 funding level of $35 billion for the agency, a modest 
increase over the current funding level of $34 billion (including 
supplemental appropriations). This increase is necessary to maintain 
both the existing and future scientific infrastructure. Although the 
discovery process produces tremendous value, it often takes a lengthy 
and unpredictable path. Economic stagnation is disruptive to training, 
careers, long range projects and ultimately to progress. NIH needs 
sustainable and predictable budget growth to achieve the full promise 
of medical research to improve the health and longevity of all 
Americans and continue our Nation's dominance in this area.
    NIH and its grantees have played a major role in the growth of 
knowledge that has led to an unprecedented number of scientific 
breakthroughs that have transformed our understanding of human health, 
helping Americans to live longer, healthier and more productive lives. 
Many of these discoveries are nutrition-related and have impacted the 
way clinicians prevent and treat heart disease, cancer, diabetes and 
other chronic diseases. By 2030 the number of Americans age 65 and 
older is expected to grow to 72 million, and the incidence of chronic 
disease will also grow. Sustained support for nutrition research is 
required if we are to successfully confront the healthcare challenges 
associated with an older population.

CDC National Center for Health Statistics
    The National Center for Health Statistics (NCHS), housed within the 
Centers for Disease Control and Prevention (CDC), is the Nation's 
principal health statistics agency. The NCHS provides critical data on 
all aspects of our healthcare system, and it is responsible for 
monitoring the Nation's health and nutrition status through surveys 
such as the National Health and Nutrition Examination Survey (NHANES). 
Nutrition and health data are essential for tracking the nutrition, 
health and well being of the American public, especially for observing 
nutritional and health trends in our Nation's children. Through 
learning both what Americans eat and how their diets directly affect 
their health, the NCHS is able to monitor the prevalence of obesity and 
other chronic diseases in the United States and track the performance 
of preventive interventions, as well as assess consumption of 
``nutrients of concern'' such as Vitamin D and calcium. Data such as 
these are critical to guide policy development in the area of health 
and nutrition.
    To continue support for the agency and its important mission, ASN 
recommends an fiscal year 2012 funding level of $162 million for the 
agency. Flat and decreased funding levels threaten the collection of 
this important information, most notably vital statistics and the 
NHANES. Moreover, nearly 30 percent of the funding for NHANES comes 
from other Federal agencies such as the NIH and the USDA Agricultural 
Research Service. When these agencies face flat budgets or worse, 
budget cuts, they withdraw much-needed support for NHANES, placing this 
valuable resource in peril. Sustained funding for NCHS can help to 
ensure uninterrupted collection of vital health and nutrition 
statistics.
    Thank you for your support of the National Institutes of Health 
(NIH) and the National Center for Health Statistics (NCHS), and thank 
you for the opportunity to submit testimony regarding fiscal year 2012 
appropriations. Please contact Sarah Ohlhorst, MS, RD, Director of 
Government Relations, if ASN may provide further assistance. She can be 
reached at address: 9650 Rockville Pike, Bethesda MD 20814; telephone 
number: 301.634.7281 or email address: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f0839f989c989f828384b09e8584829984999f9ede9f8297de">[email&#160;protected]</a>
                                 ______
                                 
     Prepared Statement of the American Society for Pharmacology & 
                       Experimental Therapeutics

    The American Society for Pharmacology and Experimental Therapeutics 
(ASPET) is pleased to submit written testimony in support of the 
National Institutes of Health (NIH) fiscal year 2012 budget. ASPET is a 
5,100 member scientific society whose members conduct basic and 
clinical pharmacological research within the academic, industrial and 
government sectors. Our members discover and develop new medicines and 
therapeutic agents that fight existing and emerging diseases, as well 
as increase our knowledge regarding how therapeutics affects humans.
    For fiscal year 2012, ASPET supports a $35 billion budget for the 
NIH. Research funded by the NIH improves public health, helps stimulate 
our economy and improves global competitiveness. Sustained growth for 
the NIH should be an urgent national priority. Flat funding or cuts to 
the NIH budget will delay cures, eliminate jobs, and jeopardize 
American leadership and innovation in biomedical research.
    A $35 billion budget for the NIH in fiscal year 2012 will help 
restore some of the lost opportunities and purchasing power since 2003, 
when Congress finished a bipartisan effort of doubling the NIH budget. 
Currently, the NIH cannot begin to fund all the high quality research 
that needs to be done. At the moment only one-in-five research projects 
can be supported. The situation has now reached a critical point:
  --Over the past 6 years, the number of research project grants funded 
        by NIH has declined almost every year.
  --NIH funds 2,000 fewer grants in total than in fiscal year 2004.
  --NIH made 1,000 fewer competing (new and renewed) awards in 2010 
        than it did in 2003.
  --Success rates for new applications have fallen for three straight 
        years.
    If flat funding continues, or if additional cuts are made to the 
NIH budget for fiscal year 2012, important research that improves the 
quality of life, offers life-saving new therapeutics, and ultimately 
reduces healthcare costs will be delayed or stopped. International 
competitors will continue to gain on this highly innovative U.S. 
enterprise, and we will lose a generation of young scientists who see 
no prospects for careers in biomedical research. Flat or reduced 
funding for NIH will mean that the agency would have to dramatically 
reduce new awards and many research projects in progress would not 
receive sufficient funding to complete the work, thus representing a 
waste of valuable research resources.
    An fiscal year 2012 NIH budget of $35 billion would help to restore 
momentum to NIH funding. Scientific discovery takes time. As recent 
experience has shown from the post-doubling experience and more recent 
stimulus funding in 2009 and 2010, ``boom and bust'' cycles of rapid 
funding followed by significant periods of stagnation or retraction in 
the NIH budget diminish scientific progress. A $35 billion fiscal year 
20121 NIH budget will help the agency manage its research portfolio 
effectively without too much disruption of existing grants to 
researchers throughout the country. The NIH, and the entire scientific 
enterprise, cannot rationally manage boom or bust funding cycles. Only 
through steady, sustainable and predictable funding increases can NIH 
continue to fund the highest quality biomedical research to help 
improve the health of all Americans and continue to make significant 
economic impact in many communities across the country. An fiscal year 
2012 NIH budget of $35 billion will help the NIH move to more fully 
exploit promising areas of biomedical research and translate the 
resulting findings into improved healthcare.

Investing in NIH Improves Human Health
    Diminished funding for NIH will mean a loss of scientific 
opportunities to discover new therapeutic targets and will create 
disincentives to young scientists to commit to careers in biomedical 
science. A $35 billion fiscal year 2012 NIH budget would provide the 
various institutes that make up the NIH with an opportunity to fund 
more high quality and innovative research in many disease areas. 
Earlier and significant investments in NIH research have been 
instrumental in improving human health:
  --Parkinson's disease is estimated to afflict over 1 million 
        Americans at an annual cost of $26 billion. The discovery of 
        Levodopa was a breakthrough in treating the disease and allows 
        patients to lead relatively normal, productive lives. It is 
        estimated that treatments slowing the progress of disease by 10 
        percent could save the United States $327 million a year. 
        Current treatments slow progression of disease, but more 
        research is needed to identify the causes of the disease and 
        develop better therapies.
  --More than 38 million Americans are blind or visually impaired, and 
        that number will grow with an aging population. Eye disease and 
        vision loss cost the United States $68 billion annually. NIH 
        funded research has developed new treatments that delay or 
        prevent diabetic retinopathy, saving $1.6 billion a year. 
        Discovery of gene variations in age related macular 
        degeneration could result in new screening tests and preventive 
        therapies.
  --Almost 5 million Americans suffer from Alzheimer's disease at 
        annual costs of more than $100 billion. It is estimated that by 
        2050 more than 14 million Americans will live with the disease. 
        There are over 28 new drugs for Alzheimer's disease in 
        development, but more basic research is needed to keep the 
        pipeline for new drugs robust. Inadequate funding could delay, 
        prevent, and improve the treatment of the disease.
  --Heart disease and stroke are the number one and three killers of 
        Americans, respectively. Cardiovascular disease costs the 
        United States more than $350 billion annually. Since 1970, 
        death rates from cardiovascular disease have fallen by 50 
        percent, but still remain the leading cause of death. Statin 
        drugs that reduce cholesterol help to prevent heart disease and 
        stroke, decrease recurrence of heart attacks and improve 
        survival rates for heart transplant patients.
  --Cancer is the second leading cause of death in the United States. 
        The NIH estimates that the annual cost of the disease is over 
        $228 billion. NIH research has shown that human papillomavirus 
        (HPV) vaccines protect against persistent infection by the two 
        types of HPV that cause approximately 70 percent of cervical 
        cancers. NIH funded researchers are using nanotechnology to 
        develop probes that could pinpoint the location of tumors and 
        deliver drugs directly to cancer cells.
    NIH-funded studies have also indicated that adopting intensive 
lifestyle changes delayed onset of type-2 diabetes by 58 percent, and 
that progesterone therapy can reduce premature births by 30 percent in 
at-risk women. Historically, our past investment in basic biological 
research has led to many innovative medicines. The National Research 
Council reported that of the 21 drugs with the highest therapeutic 
impact, only five were developed without input from the public sector. 
The significant past investment in the NIH has provided major gains in 
our knowledge of the human genome, resulting in the promise of 
pharmacogenomics and a reduction in adverse drug reactions that 
currently represent a major worldwide health concern. Already, there 
are several examples where complete human genome sequence analysis has 
pinpointed disease-causing variants that have led to improved therapy 
and cures. Although the costs for such analyses have been reduced 
dramatically by technology improvements, widespread use of this 
approach will require further improvements in technology that will be 
delayed or obstructed with inadequate NIH funding.
    Unless NIH can maintain an adequate funding stream, scientific 
opportunities will be delayed, lost, or forfeited to other countries. 
This investment in NIH also will directly support jobs for U.S. 
citizens and residents and help to stimulate the economy.

Investing in NIH Helps America Compete Economically
    A $35 billion budget in fiscal year 2012 will also help the NIH 
train the next generation of scientists. This investment will help to 
create jobs and promote economic growth.
    Worldwide, other nations continue to invest aggressively in 
science. China has grown its science portfolio with annual increases to 
the research and development budget averaging over 23 percent annually 
since 2000. And while Great Britain has imposed strict austerity 
measures to address that Nation's debt problems, the British 
conservative party had the foresight to keep its strategic investments 
in science at current levels. Investment in research and development as 
a percentage of gross domestic product has remained static for the 
United States in the first decade of the 21st century, while growing by 
nearly 60 percent in China and 34 percent in South Korea.
    NIH research funding helps to catalyze private sector growth. More 
than 83 percent of NIH funding is awarded to over 3,000 universities, 
medical schools, teaching hospitals and other research institutions in 
every State. NIH also helps form the key scientific foundations for the 
pharmaceutical and biotechnology industries.
    Inadequate funding for NIH means more than a loss of scientific 
potential and discovery. Failing to help meet the NIH's scientific 
potential will mean a significant reduction in research grants, the 
resulting phasing-out of high quality research programs and jobs lost.

Conclusion
    ASPET has full awareness for the many competing and important 
priorities facing the subcommittee. However, NIH and the biomedical 
research enterprise face a critical moment and the agency's 
contribution to the economic and physical well being of American's 
health should make it one of the Nation's top priorities. With enhanced 
and sustained funding, NIH has the potential to address many of the 
more promising scientific opportunities that currently challenge 
medicine. A $35 billion fiscal year 2012 NIH budget will allow the 
agency to begin moving forward again to prevent, diagnose and treat 
disease, restoring the NIH to its role as a national treasure that 
attracts and retains the best and brightest to biomedical research, and 
providing hope to millions of individuals afflicted with illness and 
disease.
                                 ______
                                 
        Prepared Statement of the American Society of Nephrology

Introduction
    The American Society of Nephrology (ASN) thank you for the 
opportunity to submit a statement for the record to the Senate 
Appropriations Subcommittee on Labor, Health and Human Services, 
Education, and Related Agencies (LHHS Subcommittee). ASN urges the LHHS 
subcommittee to support robust funding for medical research in the 
fiscal year 2012 Federal budget.
    ASN is a not-for-profit professional society of more than 11,000 
scientists and physicians dedicated to cutting-edge medical research 
and delivering the highest quality therapies to patients. Foremost 
among ASN's concerns is the continued support of basic, translational, 
and clinical nephrology research.
    The society's statement focuses on those issues and programs that 
most immediately fall under the committee's jurisdiction and assist our 
members in finding breakthrough treatments and cures for patients with 
kidney disease. We want to express our strong support for advancing 
programs supported by the National Institutes of Health (NIH) and the 
Agency for Healthcare Research and Quality (AHRQ). The ASN thanks the 
Subcommittee for its steadfast support of these programs and requests 
continued support of medical research in fiscal year 2012.

The Face of Kidney Disease
    Chronic kidney disease now is a major public health problem in the 
United States, with as many as one in nine Americans or 26 million 
people suffering from kidney disease of some degree. This number is 
projected to rise, underscoring that support of medical research into 
the causes and treatments of kidney disease is essential to protecting 
public health. A growing population, a significant and growing cohort 
of Americans above age 65, the combined epidemics of cardiovascular 
disease, diabetes, and hypertension all lead to an increasing number of 
Americans with chronic kidney disease.
    Chronic kidney disease affects people regardless of age, race, sex, 
socio economic background, or geographic location. It is estimated that 
at least 15 million people suffer from CKD, meaning that they have lost 
at least 50 percent of their kidney function. Most don't know it. 
Another 20 million more Americans are at increased risk of developing 
kidney disease. Again, most are unaware. Hypertension and diabetes are 
leading causes of kidney disease, with diabetes accounting for 44 
percent of new cases of complete kidney failure. With both diabetes and 
hypertension on the rise, the need for additional kidney disease 
research takes on greater importance.
    Kidney disease is also a major risk factor for cardiovascular 
disease, with half of patients with kidney failure dying from 
cardiovascular disease. Research at NIH continues to disentangle the 
relationship between kidney disease, cardiovascular disease, diabetes 
and hypertension.
    Without treatment chronic kidney disease often progresses to 
complete kidney failure also known as end stage renal disease (ESRD), 
or permanent kidney failure. Patients with ESRD require dialysis or 
transplantation to survive for which Medicare covers the cost for 
almost all patients. Nearly 500,000 Americans have ESRD, and that 
continues to grow. Additionally, African-Americans, Native Americans, 
and Hispanics are at greater risk of developing ESRD than Caucasians. 
NIH research is helping to unlock the reasons behind these health 
disparities.

Economics Costs
    Although no dollar amount can be affixed to human suffering or the 
loss of human life, economic data can help to identify and quantify the 
current and projected future financial costs associated with ESRD. The 
annual average cost per ESRD patient on dialysis is approximately 
$71,000. This major cost to Medicare highlights the need to investigate 
new, and better apply, recently proven strategies for preventing and 
slowing the progress of kidney disease.
    In short, we can treat and maintain patients who are at risk for 
losing their kidney function but the critical need is to prevent the 
loss of kidney function and its complications in the first place. 
Meeting this vital goal can only be accomplished through more concerted 
research and education.

Kidney Disease Research
            National Institutes of Health (NIH)
    NIH research is vital to the public and economic health of the 
United States. As such, ASN supports the Administration's program level 
request of $31.987 billion for NIH in fiscal year 2012. Recognizing the 
economic challenges of the country's current fiscal situation, ASN 
nonetheless submits that maintaining level funding for NIH is 
imperative to the future health and well-being of the Nation. Research 
supported by NIH helps discover new cures and treatments for the 
millions of Americans with kidney disease and improves the lives of 
patients across the country. Medical research funded through NIH means 
hope for patients with kidney disease.
    NIH research also serves as a vital economic engine. More than 80 
percent of NIH funding flows back to States, maintaining jobs and 
promoting economic vitality. Support for NIH research helps ensure that 
the United States remains the world leader in cutting edge treatments 
for chronic disease. NIH grants and research fund the cures of 
tomorrow, and also fund researchers who form the backbone of our global 
competitiveness in the medical field. A drop in funding, even one that 
is short lived could have drastic consequences for the future research 
workforce.
    In fiscal year 2012 an NIH budget of $31.987 billion will allow 
research funding to keep pace with inflation, sustain the invaluable 
research projects currently underway, and allow the research workforce 
to remain adequately supported and protect a valuable investment in 
human talent.
            Agency for Health Care Research and Quality (AHRQ)
    Complementing the medical research conducted at NIH, AHRQ sponsors 
health services research designed to improve the quality of healthcare, 
decrease healthcare costs, and provide access to essential healthcare 
services by translating research into measurable improvements in the 
healthcare system. AHRQ supports emerging critical issues in healthcare 
delivery and addresses the particular needs of at risk populations. ASN 
firmly believes in the value of AHRQ's research and quality agenda, 
which continues to provide healthcare providers, policymakers, and 
patients with critical information needed to improve healthcare and 
treatment of chronic conditions such as kidney disease. AS such ASN 
supports the Administration's budget request of $366 million for AHRQ 
in fiscal year 2012.

Conclusion
    The progression of chronic kidney disease to kidney failure can be 
slowed, with further research, treatments for stopping progression or 
even reversing it can be envisioned. Meanwhile, millions of Americans 
face a gradual decline in their quality of life because of kidney 
disease. Treatments of kidney failure including transplantation 
increase the ability of patients to be productive citizens. In many 
cases, abnormalities associated with early stage chronic renal disease 
remain undetected and are not diagnosed until the late stages. Chronic 
kidney disease requires our serious and immediate attention.
    Medical research undertaken at NIH and AHRQ is essential to the 
health of patients with kidney disease, both present and future. As 
such, ASN urges the Subcommittee to adopt level funding for these 
programs in fiscal year 2012.
    Thank you for your continued support for medical research and 
kidney disease. The society appreciates the opportunity to submit 
written testimony in support of NIH and AHRQ. To discuss this written 
testimony, ASN, medical research or kidney disease, please contact ASN 
Director of Policy and Public Affairs Paul Smedberg.
                                 ______
                                 
     Prepared Statement of the American Society of Plant Biologists

    On behalf of the American Society of Plant Biologists (ASPB) we 
would like to thank the Subcommittee for its support of the National 
Institutes of Health (NIH).
    ASPB and its members recognize the difficult fiscal environment our 
Nation faces, but believe investments in scientific research will be a 
critical step toward economic recovery. ASPB asks that the Subcommittee 
Members encourage increased support for plant biology research within 
NIH, which has contributed in innumerable ways to improving the lives 
of people throughout the world.
    The American Society of Plant Biologists is an organization of 
approximately 5,000 professional plant biology researchers, educators, 
graduate students, and postdoctoral scientists with members in all 50 
States and throughout the world. A strong voice for the global plant 
science community, our mission--achieved through work in the realms of 
research, education, and public policy--is to promote the growth and 
development of plant biology, to encourage and communicate research in 
plant biology, and to promote the interests and growth of plant 
scientists in general.

Plant Biology Research and America's Future
    Plants are vital to our very existence. They harvest sunlight, 
converting it to chemical energy for food and feed; they take up carbon 
dioxide and produce oxygen; and they are the primary producers on which 
all life depends. Indeed, plant biology research is making many 
fundamental contributions in the areas of domestic fuel security and 
environmental stewardship; the continued and sustainable development of 
better foods, fabrics, pharmaceuticals, and building materials; and in 
the understanding of basic biological principles that underpin 
improvements in the health and nutrition of all Americans. In fact, the 
2009 National Research Council (NRC) report A New Biology for the 21st 
Century placed plant biology at the center of urgent priorities in 
energy, food, health, and the environment.
    For example, because plants are the ultimate source of both human 
nutrition and nutrition for domestic animals, plant biology has the 
potential to contribute greatly to reducing healthcare costs as well as 
playing an integral role in discovery of new drugs and therapies. 
Although the National Institutes of Health does offer some funding 
support to plant biology research, additional support would enable 
plant biologists to offer much more to advance the missions of the 
National Institutes of Health.
    The importance of disciplinary and agency integration is a central 
theme of several recent NRC reports including A New Biology for the 
21st Century, Research at the Intersection of the Physical and Life 
Sciences, and Inspired by Biology: From Molecules to Materials to 
Machines. ASPB encourages NIH to continue and expand its partnerships 
with other Federal science agencies--including the National Science 
Foundation, Department of Agriculture and Department of Energy--in 
advancing understanding about living systems that has application to a 
range of areas including human health.

Plant Biology and the National Institutes of Health
    The mission of the NIH is to pursue ``fundamental knowledge about 
the nature and behavior of living systems and the application of that 
knowledge to extend healthy life and reduce the burdens of illness and 
disability.'' Plant biology research is highly relevant to this 
mission.
    Plants are often the ideal model systems to advance our 
``fundamental knowledge about the nature and behavior of living 
systems,'' as they provide the context of multi-cellularity while 
affording ease of genetic manipulation, a lesser regulatory burden, and 
inexpensive maintenance requirements than the use of animal systems. 
Many basic biological components and mechanisms are shared by both 
plants and animals. For example, a molecule named cryptochrome that 
senses light was identified first in plants and subsequently found to 
also function in humans, where it plays a central role in regulating 
our biological clock. Several human genetic disorders are linked to the 
malfunctioning of this clock--not to mention the effect of jet lag. As 
another example, some fungal pathogens can infect both humans and 
plants, and the molecular mechanisms employed by both the pathogen and 
its targeted host can be very similar.
    More recently, a property known as RNA interface was first noted in 
plants; plant biologists trying to increase the color intensity of 
petunias by introducing a gene inducing pigment production instead 
observed a loss of color. RNA interface, which has potential 
application in the treatment of human disease, was further elucidated 
in other plants and animals and earned two American scientists--Andrew 
Fire and Craig Mello--the 2006 Nobel Prize in Physiology or Medicine.

Health and Nutrition
    Plant biology research is also central to the application of basic 
knowledge to ``extend healthy life and reduce the burdens of illness 
and disability.'' This connection is most obvious in the inter-related 
areas of nutrition and clinical medicine. Without good nutrition, there 
cannot be good health. Indeed, one World Health Organization study on 
childhood nutrition in developing countries concluded that over 50 
percent of the deaths of children less than 5 years of age could be 
attributed to malnutrition's effects in exacerbating common illnesses 
such as respiratory infections and diarrhea. Strikingly, most of these 
deaths were not linked to severe malnutrition but only to mild or 
moderate nutritional deficiencies. Plant biology researchers are 
working today to improve the nutritional content of crop plants by, for 
example, increasing the availability of nutrients and vitamins such as 
iron, vitamin E, and vitamin A. (Up to 500,000 children in the 
developing world go blind every year as a result of vitamin A 
deficiency).
    By contrast, obesity, cardiac disease, and cancer take a striking 
toll in the developed world. Among many plant biology initiatives 
relevant to these concerns are research to improve the lipid 
composition of plant fats and efforts to optimize concentrations of 
plant compounds that are known to have anti-carcinogenic properties, 
such as the glucosinolates found in broccoli and cabbage, and the 
lycopenes found in tomato. Beta-glucans from certain cereals reduce 
serum cholesterol and insulin demand in diabetics. And scientists are 
able to use the fundamental knowledge of protein structures to reduce 
non-nutritious compounds, increasing the density and quality of 
proteins in some grains. Ongoing development of crop varieties with 
tailored nutraceutical content is an important contribution that plant 
biologists are making toward realizing the goal of personalized 
medicine, especially personalized preventative medicine.

Drug Discovery
    Plants are also fundamentally important as sources of both extant 
drugs and drug discovery leads. In fact, over 10 percent of the drugs 
considered by the World Health Organization to be ``basic and 
essential'' are still exclusively obtained from flowering plants. Some 
historical examples are quinine, which is derived from the bark of the 
cinchona tree and was the first highly effective anti-malarial drug; 
and the plant alkaloid morphine, which revolutionized the treatment of 
pain. These pharmaceuticals are still in use today.
    A more recent example of the importance of plant-based 
pharmaceuticals is the anti-cancer drug taxol. The discovery of taxol 
came about through collaborative work involving scientists at the 
National Cancer Institute within NIH and plant biologists at the U.S. 
Department of Agriculture. The plant biologists collected a wide 
diversity of plant materials, which were then evaluated for anti-
carcinogenic properties. It was found that the bark of the Pacific yew 
tree yielded one such compound, which was isolated and named taxol 
after the tree's Latin name, Taxus brevifolia. Originally, taxol could 
only be obtained from the tree bark itself, but additional research led 
to the elucidation of its molecular structure and eventually to its 
chemical synthesis in the laboratory.
    On the basis of a growing understanding of metabolic networks, 
plants will continue to be sources for the development of new medicines 
to help treat cancer and other ailments. Taxol is just one example of a 
plant secondary compound. Since plants produce an estimated 200,000 
such compounds, they will continue to provide a fruitful source of new 
drug leads, particularly if collaborations such as the one described 
above can be fostered and funded. With additional research support, 
plant biologists can lead the way to developing new medicines and 
biomedical applications to enhance the treatment of devastating 
diseases.

Conclusion
    Despite the fact that plant biology research underlies so many 
vital practical considerations for our country, the amount invested in 
understanding the basic function and mechanisms of plants is small when 
compared with broader impacts.
    The NIH does recognize that plants are a vital component of its 
mission. However, because the boundaries of plant biology research are 
permeable and because information about plants integrates with many 
different disciplines that are highly relevant to NIH, ASPB hopes that 
the Subcommittee will provide direction to NIH to support additional 
plant biology research in order to help pioneer new discoveries and new 
methods in biomedical research.
    Thank you for your consideration of our testimony on behalf of the 
American Society of Plant Biologists. Please do not hesitate to contact 
ASPB if we can be of any assistance in the future; ASPB Public Affairs 
Director Dr. Adam P. Fagen can be reached at 301-296-0898 (phone), 301-
296-0899 (fax), or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bbdadddadcded5fbdac8cbd995d4c9dc95">[email&#160;protected]</a>
                                 ______
                                 
  Prepared Statement of the American Society of Tropical Medicine and 
                                Hygiene

    The American Society of Tropical Medicine and Hygiene--the 
principal professional membership organization representing, educating, 
and supporting scientists, physicians, clinicians, researchers, 
epidemiologists, and other health professionals dedicated to the 
prevention and control of tropical diseases--appreciates the 
opportunity to submit testimony to the Senate Labor, Health and Human 
Services, and Education Appropriations Subcommittee.
    We understand the fiscal constraints we as a country are in and are 
sensitive to the job Congress must do. The benefits of U.S. investment 
in tropical diseases are not only humanitarian, they are diplomatic as 
well. With this in mind, we respectfully request that the Subcommittee 
fund the following agencies in the fiscal year 2012 LHHS Appropriations 
bill to allow them to maintain their current programs and research 
priorities while ensuring a continued U.S. Government investment in 
global health and tropical medicine research and development:
    National Institutes of Health, specifically:
  --Malaria and neglected tropical disease treatment, control, and 
        research and development efforts within the National Institute 
        of Allergy and Infectious Diseases;
  --An expanded focus on the treatment, control, and research and 
        development for new tools for diarrheal disease within the NIH; 
        specifically the inclusion of enteric infections on the 
        Research, Condition, and Disease Categorization (RCDC) process 
        on the Research Portfolio Online Reporting Tools (RePORT) 
        website; and,
  --Research capacity development in countries where populations are at 
        heightened risk for malaria, NTDs, and diarrheal diseases 
        through the Fogarty International Center.
    The Centers for Disease Control and Prevention, including:
  --CDC global health programs such as the CDC malaria program and 
        providing direct funding to the CDC for NTD and diarrheal 
        disease work; and
  --Preserving and funding the activities of the CDC Vector Borne 
        Disease Program as they merge with the Emerging and Infectious 
        Disease Program to protect the United States from new and 
        emerging infections.

              RETURN ON INVESTMENT OF U.S.-FUNDED RESEARCH

    CDC and NIH play essential roles in research and development for 
tropical medicine and global health. Both agencies are at the forefront 
of the new science that leads to tools to combat malaria and NTDs. This 
research provides jobs for American researchers and an opportunity for 
the United States to be a leader in the fight against global disease, 
in addition to lifesaving new drugs and diagnostics to some of the 
poorest, most at-risk people in the world.
    For example, in Illinois, where ASTMH is based, 57,000 people are 
employed in bioscience research, which includes global health research. 
Illinois receives over $700 million in funding from NIH and over $200 
million from CDC.\1\ New Jersey also has a high level of investment in 
health-related research and development, with over 211,000 jobs 
supported by global health, and an economic impact of more than $60 
billion on the State in 2009.\2\ Small investments in global health and 
tropical medicine research and development can yield big returns for 
State economies and research institutions.
---------------------------------------------------------------------------
    \1\ Research America, ``Global Health R&D, A Smart Investment for 
Illinois,'' http://www.researchamerica.org/uploads/
ILGHeconomicsheet.pdf.
    \2\ Research America, ``Global Health R&D, A Smart Investment for 
New Jersey,'' http://www.researchamerica.org/uploads/
NewJerseyFactSheet.pdf.
---------------------------------------------------------------------------
                            TROPICAL DISEASE

    Most tropical diseases are prevalent in either sub-Saharan Africa, 
parts of Asia (including the Indian subcontinent), or Central and South 
America. Many of the world's developing nations are located in these 
areas; thus, tropical medicine tends to focus on diseases that impact 
the world's most impoverished individuals.
    Malaria.--Malaria remains a global emergency affecting mostly poor 
women and children; it is an acute, sometimes fatal disease. Despite 
being treatable and preventable, malaria is one of the leading causes 
of death and disease worldwide. Approximately every 30 seconds, a child 
dies of malaria--a total of about 800,000 under the age of 5 every 
year. The World Health Organization estimates that one half of the 
world's people are at risk for malaria and that there are 108 malaria-
endemic countries. Additionally, WHO has estimated that malaria reduces 
sub-Saharan Africa's economic growth by up to 1.3 percent per year.
    Neglected Tropical Diseases, also known as Diseases of Poverty.--
NTDs are a group of chronic parasitic diseases, such as hookworm, 
elephantiasis, schistosomiasis, and river blindness, which represent 
the most common infections of the world's poorest people. These 
infections have been revealed as the stealth reason why the ``bottom 
billion''--the 1.4 billion poorest people living below the poverty 
line--cannot escape poverty, because of the effects of these diseases 
on reducing child growth, cognition and intellect, and worker 
productivity.
    Diarrheal disease.--The child death toll due to diarrheal illnesses 
exceeds that of AIDS, tuberculosis, and malaria combined. In poor 
countries, diarrheal disease is second only to pneumonia as the cause 
of death among children under 5 years old. Every week, 31,000 children 
in low-income countries die from diarrheal diseases.
    The United States has a long history of leading the fight against 
tropical diseases that cause human suffering and pose financial burden 
that can negatively impact a country's economic and political 
stability. Tropical diseases, many of them neglected for decades, 
impact U.S. citizens working or traveling overseas, as well as our 
military personnel. Furthermore, some of the agents responsible for 
these diseases can be introduced and become established in the United 
States (like West Nile virus), or might even be weaponized.

                     NATIONAL INSTITUTES OF HEALTH

    National Institute of Allergy and Infectious Diseases.--A long-term 
investment is critical to achieve the drugs, diagnostics, and research 
capacity needed to control malaria and NTDs. NIAID, the lead institute 
for malaria research, plays an important role in developing the drugs 
and vaccines needed to fight malaria. The NIH, through NIAID, also 
conducts research to better understand NTDs, through its own basic and 
clinical studies as well as extramural research.
    ASTMH encourages the subcommittee to:
  --Increase funding for NIH to expand the agency's investment in 
        malaria, NTD, diarrheal disease research and to coordinate that 
        work with other government agencies to maximize resources and 
        ensure development of basic discoveries into usable solutions;
  --Specifically invest in NIAID to support its role at the forefront 
        of these efforts to developing the next generation of drugs, 
        vaccines, and other interventions; and,
  --Urge NIH to include enteric infections and neglected diseases in 
        its RCDC process on the RePORT website to outline the work that 
        is being done in these important research areas.
    Fogarty International Center (FIC).--Biomedical research has 
provided major advances in the treatment and prevention of malaria, 
NTDs, and other infectious diseases. These benefits, however, are often 
slow to reach the people who need them most. FIC plays a critical role 
in strengthening science and public health research institutions in 
low-income countries. FIC works to strengthen research capacity in 
countries where populations are particularly vulnerable to threats 
posed by malaria, NTDs, and other infectious disease. This maximizes 
the impact of U.S. investments and is critical to fighting malaria and 
other tropical diseases.
    ASTMH encourages the subcommittee to:
  --Allocate sufficient resources to FIC in fiscal year 2012 to 
        increase these efforts, particularly as they address the 
        control and treatment of malaria, NTDs and diarrheal disease.

             THE CENTERS FOR DISEASE CONTROL AND PREVENTION

    Malaria Efforts.--Malaria has been eliminated as an endemic threat 
in the United States for over fifty years and CDC remains on the 
cutting edge of global efforts to reduce the toll of this deadly 
disease. CDC efforts on malaria fall into three broad categories: 
prevention, treatment, and monitoring/evaluation of efforts. The agency 
performs a wide range of basic research within these categories, such 
as:
  --Conducting research on antimalarial drug resistance to inform new 
        strategies and prevention approaches;
  --Assessing new monitoring, evaluation, and surveillance strategies;
  --Conducting additional research on malaria vaccines, including field 
        evaluations; and
  --Developing innovative public health strategies for improving access 
        to antimalarial treatment and delaying the appearance of 
        antimalarial drug resistance.
    ASTMH encourages the subcommittee to:
  --Fund a comprehensive approach to effective and efficient malaria 
        control, including adequately funding the important 
        contributions of CDC.
    NTD Programs.--CDC currently receives zero dollars directly for NTD 
work; however this should be changed to allow for more comprehensive 
work to be done on NTDs at the CDC. CDC has a long history of working 
on NTDs and has provided much of the science that underlies the global 
policies and programs in existence today. This work is important to any 
global health initiative, as individuals are often infected with 
multiple NTDs simultaneously.
    ASTMH encourages the subcommittee to:
  --Provide direct funding to CDC to continue its work on NTDs; and
  --Urge CDC to continue its monitoring, evaluation, and technical 
        assistance in these areas as an underpinning of efforts to 
        control and eliminate these diseases.
    Vector-borne Disease Program (VBDP).--The President's fiscal year 
2012 budget folds the CDC Vector Borne Disease Program into the newly 
configured Emerging and Zoonotic Infectious Diseases program at CDC. 
Through the VBDP, researchers are able to practice essential 
surveillance and monitoring activities that protect the United States 
from deadly infections before they reach our borders. The world is 
becoming increasingly smaller as international travel increases and new 
pathogens are introduced quickly into new environments. We have seen 
this with SARS, avian influenza, and now, dengue fever, in the United 
States. Arboviruses like dengue, and others, such as chikungunya, are a 
constant threat to travelers, and to Americans generally.
    Dengue fever, a disease with increased risk for Americans as the 
weather warms and dengue cases increase, is an example of why it is 
imperative that CDC be able to continue its disease monitoring and 
surveillance activities to protect the country from new and emerging 
threats like dengue and other arboviruses. Dengue fever, a viral 
disease transmitted by the Aedes mosquito, recently reemerged as a 
threat to Americans, with documented cases in the Florida Keys. Dengue 
usually results in fever, headache, and chills, but hemorrhagic dengue 
fever can cause severe internal bleeding, loss of blood, and even 
death. Because the Aedes mosquito is urban dwelling and often breeds in 
areas of poor sanitation, dengue is a serious concern for poor 
residents of costal, urban areas in Texas, Louisiana, Mississippi, 
Alabama, and Florida.
    ASTMH encourages the subcommittee to:
  --Ensure that CDC maintain these important activities by continuing 
        CDC funding for VBDP activities and require the program receive 
        at least their fiscal year 2010 level of funding.

                               CONCLUSION

    Thank you for your attention to these important U.S. and global 
health matters. We know Congress and the American people face many 
challenges in choosing funding priorities, and we hope you will provide 
the requested fiscal year 2012 resources to those programs identified 
above that meet critical needs for Americans and people around the 
world. ASTMH appreciates the opportunity to share its expertise, and we 
thank you for your consideration of these requests that will help 
improve the lives of Americans and the global poor.
                                 ______
                                 
          Prepared Statement of the American Thoracic Society

                    SUMMARY: FUNDING RECOMMENDATIONS
                        [In millions of dollars]
------------------------------------------------------------------------
                                                               Amount
------------------------------------------------------------------------
National Institutes of Health.............................      35,000
    National Heart, Lung and Blood Institute..............       3,514
    National Institute of Allergy and Infectious Disease..       5,395
    National Institute of Environmental Health Sciences...         779.4
    Fogarty International Center..........................          78.4
    National Institute of Nursing Research................         163
Centers for Disease Control and Prevention................       7,700
    National Institute for Occupational Safety & Health...         332.4
    Asthma Programs.......................................          31
    Div. of Tuberculosis Elimination......................         231
    Office on Smoking and Health..........................         330
    National Sleep Awareness Roundtable (NSART)...........           1
------------------------------------------------------------------------

    The American Thoracic Society (ATS) is pleased to submit our 
recommendations for programs in the Labor Health and Human Services and 
Education Appropriations Subcommittee purview. Founded in 1905, the ATS 
is an international education and scientific society of 15,000 
specialists focused on respiratory, critical care and sleep medicine.

Lung Disease in America
    Diseases of breathing constitute the third leading cause of death 
in the United States, responsible for one of every seven deaths. 
Diseases affecting the respiratory (breathing) system include chronic 
obstructive pulmonary disease (COPD), lung cancer, tuberculosis, 
influenza, sleep disordered breathing, pediatric lung disorders, 
occupational lung disease, sarcoidosis, asthma, and critical illness. 
COPD is now the third leading cause of disease death. The number of 
people with asthma in the United States has surged over 150 percent 
since 1980 and the root causes of the disease are still not fully 
known.
    Despite the rising lung disease burden, lung disease research is 
underfunded. In fiscal year 2010, lung disease research represented 
just 22.6 percent of the National Heart Lung and Blood Institute's 
(NHLBI) budget. Although COPD is the third leading cause of death in 
the United States, research funding for the disease is a small fraction 
of the money invested for the other three leading causes of death. In 
order to stem the devastating effects of lung disease, research funding 
must continue to grow.

National Institutes of Health
    The NIH is the world's leader in groundbreaking biomedical health 
research into the prevention, treatment and cure of diseases such as 
lung cancer, COPD and tuberculosis. Eighty-five percent of the NIH 
budget is invested in U.S. communities through universities, medical 
schools, hospitals and innovative small businesses, creating jobs and 
economic productivity. The American Reinvestment Recovery Act (ARRA) 
has generated remarkable scientific innovation that is paving the way 
for medical advances to improve patient outcomes. Without a funding 
increase in fiscal year 2012 to sustain the research pipeline, the NIH 
will be forced to reduce the number of research grants funded, which 
will result in the halting of vital research into diseases affecting 
millions around the world. We ask the subcommittee to provide $35 
billion in funding for the NIH in fiscal year 2012.

Centers for Disease Control and Prevention
    In order to ensure that health promotion and chronic disease 
prevention are given top priority in Federal funding, the ATS supports 
a funding level for the Centers for Disease Control and Prevention 
(CDC) that enables it to carry out its prevention mission, and ensure a 
translation of new research into effective State and local public 
health programs. We ask that the CDC budget be adjusted to reflect 
increased needs in chronic disease prevention, infectious disease 
control, including TB control to prevent the spread of drug-resistant 
TB, and occupational safety and health research and training. The ATS 
recommends a funding level of $7.7 billion for the CDC in fiscal year 
2012.

COPD
    COPD is the third leading cause of death in the United States and 
the third leading cause of death worldwide, yet the disease remains 
relatively unknown to most Americans. COPD is the term used to describe 
the limitation in breathing due mainly to emphysema and chronic 
bronchitis. CDC estimates that 12 million patients have COPD; an 
additional 12 million Americans are unaware that they have this life 
threatening disease. In 2010, the estimated economic cost of lung 
disease in the United States was $186 billion, including $117 billion 
in direct health expenditures and $69 billion in indirect morbidity and 
mortality costs.
    Despite the growing burden of COPD, the United States does not 
currently have a comprehensive public health action plan on the 
disease. The ATS urges Congress to direct the NHLBI to develop a 
national action plan on COPD, in coordination with the Centers for 
Disease Control and Prevention (CDC) to expand COPD surveillance, 
development of public health interventions and research on the disease 
and increase public awareness of the disease. The NHLBI has shown 
successful leadership in educating the public about COPD through the 
COPD Education and Prevention Program.
    CDC has an additional role to play in this work. We urge CDC to 
include COPD-based questions to future CDC health surveys, including 
the National Health and Nutrition Evaluation Survey (NHANES), the 
National Health Information Survey (NHIS) and the Behavioral Risk 
Factor Surveillance Survey (BRFSS).

Tobacco Control
    Cigarette smoking is the leading preventable cause of death in the 
United States, responsible for one in five deaths annually. The ATS is 
pleased that the Department of Health and Human Services has made 
tobacco use prevention a key priority. The CDC's Office of Smoking and 
Health coordinates public health efforts to reduce tobacco use. In 
order to significantly reduce tobacco use within 5 years, as 
recommended by the subcommittee in fiscal year 2010, the ATS recommends 
a total funding level of $330 million for the Office of Smoking and 
Health in fiscal year 2012, which includes an allocation of $220 
million from the Prevention and Public Health Fund.

Pediatric Lung Disease
    The ATS is pleased to report that infant death rates for various 
lung diseases have declined for the past 10 years. In 2007, of the 10 
leading causes of infant mortality, 4 were lung diseases or had a lung 
disease component. Many of the precursors of adult respiratory disease 
start in childhood. It is estimated that close to 22 million people 
suffer from asthma, including an estimated 7.1 million children. The 
ATS encourages the NHLBI to continue with its research efforts to study 
lung development and pediatric lung diseases.

Asthma
    Asthma is a significant public health problem in the United States. 
Approximately 23 million Americans currently have asthma, including 7.1 
million children. In 2009, 3,445 Americans in 2009 died as a result of 
asthma exacerbations. Asthma is the third leading cause of 
hospitalization among children under the age of 15 and is a leading 
cause of school absences from chronic disease. The disease costs our 
healthcare system over $50.1 billion per year. African Americans have 
the highest asthma prevalence of any racial/ethnic group.
    The President's fiscal year 2012 budget request proposes to merge 
the CDC's National Asthma Control Program with the Healthy Homes/Lead 
Poisoning Prevention Program and recommends funding cuts to the 
combined programs of over 50 percent. The ATS is deeply concerned that 
this proposal would drastically reduce States' capacity to implement a 
proven public health response to this disease. Asthma public health 
interventions are cost-effective. A study published in the American 
Journal of Respiratory Critical Care recently found that for every 
dollar invested in asthma interventions, there was a $36 benefit. We 
urge the subcommittee to ensure that CDC's National Asthma Control 
Program remains a stand-alone program and receives an appropriation of 
$31 million for fiscal year 2012.

Sleep
    Several research studies demonstrate that sleep-disordered 
breathing and sleep-related illnesses affect an estimated 50-70 million 
Americans. The public health impact of sleep illnesses and sleep 
disordered breathing is still being determined, but is known to include 
increased mortality, traffic accidents, lost work and school 
productivity, cardiovascular disease, obesity, mental health disorders, 
and other sleep-related comorbidities. Despite the increased need for 
study in this area, research on sleep and sleep-related disorders has 
been underfunded. The ATS recommends a funding level of $1 million in 
fiscal year 2012 to support activities related to sleep and sleep 
disorders at the CDC, including for the National Sleep Awareness 
Roundtable (NSART), surveillance activities, and public educational 
activities. The ATS also recommends an increase of funding for research 
on sleep disorders at the Nation Center for Sleep Disordered Research 
(NCSDR) at the NHLBI.

Tuberculosis
    Tuberculosis (TB) is the second leading global infectious disease 
killer, claiming 1.7 million lives each year. It is estimated that 9-12 
million Americans have latent tuberculosis. Drug-resistant TB poses a 
particular challenge to domestic TB control due to the high costs of 
treatment and intensive healthcare resources required. The global TB 
pandemic and spread of drug resistant TB presents a persistent public 
health threat to the United States.
    Despite declining rates, persistent challenges to TB control in the 
United States remain. Specifically: (1) racial and ethnic minorities 
continue to suffer from TB more than majority populations; (2) foreign-
born persons are adversely impacted; (3) sporadic outbreaks occur, 
outstripping local capacity; (4) continued emergence of drug 
resistance; and (5) there are critical needs for new diagnostics, 
treatment and prevention tools.
    The Comprehensive Tuberculosis Elimination Act (CTEA, Public Law 
110-392), enacted in 2008, reauthorized programs at CDC with the goal 
of putting the United States back on the path to eliminating TB. The 
ATS, recommends a funding level of $231 million in fiscal year 2012 for 
CDC's Division of TB Elimination, as authorized under the CTEA, and 
encourages the NIH to expand efforts, as requested under the CTEA, to 
develop new tools to reduce the rising global TB burden.

Critical Illness
    The burden associated with the provision of care to critically ill 
patients is anticipated to increase significantly as the population 
ages. Approximately 200,000 people in the United States require 
hospitalization in an intensive care unit because they develop a form 
of pulmonary disease called Acute Lung Injury. Despite the best 
available treatments, 75,000 of these individuals die each year from 
this disease. Investigation into diagnosis, treatment and outcomes in 
critically ill patients should be a high priority, and the NIH should 
be encouraged and funded to coordinate investigation related to 
critical illness in order to meet this growing national imperative.

Fogarty International Center
    The Fogarty International Center (FIC) at NIH provides training 
grants to U.S. universities to teach AIDS treatment and research 
techniques to international physicians and researchers. Because of the 
link between AIDS and TB infection, FIC has created supplemental TB 
training grants for these institutions to train international health 
professionals in TB treatment and research. The ATS recommends Congress 
provide $78.4 million for FIC in fiscal year 2012, to allow expansion 
of the TB training grant program from a supplemental grant to an open 
competition grant.

Researching and Preventing Occupational Lung Disease
    The National Institute of Occupational Safety and Health (NIOSH) is 
the sole Federal agency responsible for conducting research and making 
recommendations for the prevention of work-related diseases and injury. 
The ATS recommends that Congress provide $364.3 million in fiscal year 
2012 for NIOSH to expand or establish the following activities: the 
National Occupational Research Agenda (NORA); tracking systems for 
identifying and responding to hazardous exposures and risks in the 
workplace; emergency preparedness and response activities; and training 
medical professionals in the diagnosis and treatment of occupational 
illness and injury.

Conclusion
    Lung disease is a growing problem in the United States. The level 
of support this subcommittee approves for lung disease programs should 
reflect the urgency illustrated by these numbers. The ATS appreciates 
the opportunity to submit this statement to the subcommittee.
                                 ______
                                 
    Prepared Statement of the Americans for Nursing Shortage Relief

    The undersigned organizations of the ANSR Alliance greatly 
appreciate the opportunity to submit written testimony regarding fiscal 
year 2012 appropriations for the Title VIII Nursing Workforce 
Development Programs at the Health Resources and Services 
Administration (HRSA) and the Nurse Managed Health Clinics as 
authorized under Title III of the Public Health Service Act. We 
represent a diverse cross-section of healthcare and other related 
organizations, healthcare providers, and supporters of nursing issues 
that have united to address the national nursing shortage. ANSR stands 
ready to work with Congress to advance programs and policy that will 
ensure our Nation has a sufficient and adequately prepared nursing 
workforce to provide quality care to all well into the 21st century. 
The Alliance, therefore, urges Congress to:
  --Appropriate $313 million in funding for Nursing Workforce 
        Development Programs under Title VIII of the Public Health 
        Service Act at the Health Resources and Services Administration 
        (HRSA) in fiscal year 2012.
  --Appropriate $20 million in fiscal year 2012 for the Nurse Managed 
        Health Clinics as authorized under Title III of the Public 
        Health Service Act.

The Nursing Shortage
    Nursing is the largest healthcare profession in the United States. 
According to the National Council of State Boards of Nursing, there 
were nearly 3.780 million licensed RNs in 2009. Nurses and advanced 
practice nurses (nurse practitioners, nurse midwives, clinical nurse 
specialists, and certified registered nurse anesthetists) work in a 
variety of settings, including primary care, public health, long-term 
care, surgical care facilities, and hospitals. The March 2008 study, 
The Future of the Nursing Workforce in the United States: Data, Trends, 
and Implications, calculates a projected demand of 500,000 full-time 
equivalent registered nurses by 2025. According to the U.S. Bureau of 
Labor Statistics, employment of registered nurses is expected to grow 
by 22 percent from 2008 to 2018, much faster than the average for all 
occupations and, because the occupation is very large, 581,500 new jobs 
will result. Based on these scenarios, the shortage presents an 
extremely serious challenge in the delivery of high quality, cost-
effective services, as the Nation looks to reform the current 
healthcare system. Even considering only the smaller projection of 
vacancies, this shortage still results in a critical gap in nursing 
service, essentially three times the 2001 nursing shortage.

The Desperate Need for Nurse Faculty
    Nursing vacancies exist throughout the entire healthcare system, 
including long-term care, home care and public health. Even the 
Department of Veterans Affairs, the largest sole employer of RNs in the 
United States, has a nursing vacancy rate of 10 percent. In 2006, the 
American Hospital Association reported that hospitals needed 116,000 
more RNs to fill immediate vacancies, and that this 8.1 percent vacancy 
rate affects hospitals' ability to provide patient care. Government 
estimates indicate that this situation only promises to worsen due to 
an insufficient supply of individuals matriculating in nursing schools, 
an aging existing workforce, and the inadequate availability of nursing 
faculty to educate and train the next generation of nurses. At the 
exact same time that the nursing shortage is expected to worsen, the 
baby boom generation is aging and the number of individuals with 
serious, life-threatening, and chronic conditions requiring nursing 
care will increase. Consequently, more must be done today by the 
government to help ensure an adequate nursing workforce for the 
patients/clients of today and tomorrow.
    A particular focus on securing and retaining adequate numbers of 
faculty is essential to ensure that all individuals interested in--and 
qualified for--nursing school can matriculate in the year that they are 
accepted. The National League for Nursing found that in the 2009-2010 
academic year,
  --42 percent of qualified applications to prelicensure RN programs 
        were turned away.
  --One in four (25.1 percent) of prelicensure RN programs turned away 
        qualified applicants.
  --Four out of five (60 percent) of prelicensure RN programs were 
        considered ``highly selective'' by national college admissions 
        standards, accepting less than 50 percent of applications for 
        admission.
    Aside from having a limited number of faculty, nursing programs 
struggle to provide space for clinical laboratories and to secure a 
sufficient number of clinical training sites at healthcare facilities.
    ANSR supports the need for sustained attention on the efficacy and 
performance of existing and proposed programs to improve nursing 
practices and strengthen the nursing workforce. The support of research 
and evaluation studies that test models of nursing practice and 
workforce development is integral to advancing healthcare for all in 
America. Investments in research and evaluation studies have a direct 
effect on the caliber of nursing care. Our collective goal of improving 
the quality of patient care, reducing costs, and efficiently delivering 
appropriate healthcare to those in need is served best by aggressive 
nursing research and performance and impact evaluation at the program 
level.

The Nursing Supply Impacts the Nation's Health and Economic Safety
    Nurses make a difference in the lives of patients from disease 
prevention and management to education to responding to emergencies. 
Chronic diseases, such as heart disease, stroke, cancer, and diabetes, 
are the most preventable of all health problems as well as the most 
costly. Nearly half of Americans suffer from one or more chronic 
conditions and chronic disease accounts for 70 percent of all deaths. 
In addition, increased rates of obesity and chronic disease are the 
primary cause of disability and diminished quality of life.
    Even though America spends more than $2 trillion annually on 
healthcare--more than any other nation in the world--tens of millions 
of Americans suffer every day from preventable diseases like type 2 
diabetes, heart disease, and some forms of cancer that rob them of 
their health and quality of life. In addition, major vulnerabilities 
remain in our emergency preparedness to respond to natural, 
technological and manmade hazards. An October 2008 report issued by 
Trust for America's Health, entitled ``Blueprint for a Healthier 
America,'' found that the health and safety of Americans depend on the 
next generation of professionals in public health. Further, existing 
efforts to recruit and retain the public health workforce are 
insufficient. New policies and incentives must be created to make 
public service careers in public health an attractive professional 
path, especially for the emerging workforce and those changing careers.
    The Institute of Medicine report, Hospital-Based Emergency Care: At 
the Breaking Point, notes that nursing shortages in U.S. hospitals 
continue to disrupt hospitals operations and are detrimental to patient 
care and safety. Hospitals and other healthcare facilities across the 
country are vulnerable to mass casualty incidents themselves and/or in 
emergency and disaster preparedness situations. As in the public health 
sector, a mass casualty incident occurs as a result of an event where 
sudden and high patient volume exceeds the facilities resources. Such 
events may include the more commonly realized multi-car pile-ups, train 
crashes, hazardous material exposure in a building or within a 
community, high occupancy catastrophic fires, or the extraordinary 
events such as pandemics, weather-related disasters, and intentional 
catastrophic acts of violence.
    Since 80 percent of disaster victims present at the emergency 
department, nurses as first receivers are an important aspect of the 
public health system as well as the healthcare system in general. The 
nursing shortage has a significant adverse impact on the ability of 
communities to respond to health emergencies, including natural, 
technological and manmade hazards.

Summary
    The link between healthcare and our Nation's economic security and 
global competitiveness is undeniable. Having a sufficient nursing 
workforce to meet the demands of a highly diverse and aging population 
is an essential component to reforming the healthcare system as well as 
improving the health status of the Nation and reducing healthcare 
costs. To mitigate the immediate effect of the nursing shortage and to 
address all of these policy areas, ANSR requests $313 million in 
funding for Nursing Workforce Development Programs under Title VIII of 
the Public Health Service Act at HRSA and $20 million for the Nurse 
Managed Health Clinics under Title III of the Public Health Service Act 
in fiscal year 2012.

                   LIST OF ANSR MEMBER ORGANIZATIONS

Academy of Medical-Surgical Nurses
American Academy of Ambulatory Care Nursing
American Association of Critical-Care Nurses
American Association of Nurse Assessment Coordinators
American Organization of Nurse Executives
American Society for Pain Management Nursing
American Society of PeriAnesthesia Nurses
Association for Radiologic & Imaging Nursing
Association of Community Health Nursing Educators
Association of Pediatric Hematology/Oncology Nurses
Emergency Nurses Association
Infusion Nurses Society
International Nurses Society on Addictions
National Association of Clinical Nurse Specialists
National Association of Hispanic Nurses
National Association of Nurse Practitioners in Women's Health
National Council of State Boards of Nursing
National Council of Women's Organizations
National League for Nursing
National Nursing Centers Consortium
National Student Nurses' Association, Inc.
Nurses Organization of Veterans Affairs
Society of Trauma Nurses
                                 ______
                                 
             Prepared Statement of the Arthritis Foundation

    The Arthritis Foundation greatly appreciates the opportunity to 
submit testimony in support of increased investment for arthritis 
research, prevention and programs at the Centers for Disease Control 
and Prevention (CDC); National Institutes of Health (NIH); Agency for 
Healthcare Research and Quality (AHRQ); and for the Health Resources 
and Services Administration (HRSA).
    Arthritis is a complex family of musculoskeletal disorders with 
many causes, not yet fully understood, and so far there are no cures. 
It consists of more than 100 different diseases or conditions that 
destroy joints, bones, muscles, cartilage and other connective tissue 
which hampers or halts physical movement. Arthritis is one of the most 
prevalent chronic health problems and the most common cause of 
disability in the United States. 50 million people (1 in 5 adults) and 
almost 300,000 children live with the pain of arthritis every day. 
Arthritis limits the daily activities of 21 million Americans and 
accounts for $128 billion annually in economic costs, including $81 
billion in direct costs for physician visits and surgical interventions 
and $47 billion in indirect costs for missed work days. Counter to 
public perception, two-thirds of the people with doctor-diagnosed 
arthritis are under the age of 65. The pain, cost and disability 
associated with arthritis is simply unacceptable.
    By the year 2030, an estimated 67 million or 25 percent of the 
projected adult population will have arthritis. Furthermore, arthritis 
limits the ability of people to effectively manage other chronic 
diseases. More than 57 percent of adults with heart disease and more 
than 52 percent of adults with diabetes also have arthritis. The 
Arthritis Foundation strongly believes that in order to prevent or 
delay arthritis from disabling people and diminishing their quality of 
life that a significant investment in proven prevention and 
intervention strategies is essential.
    The following items summarize the Arthritis Foundation fiscal year 
2012 funding recommendations for health agencies under the 
Subcommittee's jurisdiction.

Centers for Disease Control and Prevention
    The Arthritis Foundation recommends a level of $7.7 billion for 
CDC's core programs in fiscal year 2012. This amount is representative 
of what CDC needs to fulfill its core public health mission in fiscal 
year 2012; activities and programs that are essential to protect the 
health of the American people. CDC continues to be faced with 
unprecedented challenges and responsibilities, ranging from chronic 
disease prevention, eliminating health disparities, bioterrorism 
preparedness, to combating the obesity epidemic. More than 70 percent 
of CDC's budget actually flows out to States and local health 
organizations and academic institutions, many of which are currently 
struggling to meet growing needs with fewer resources.
    The President's fiscal year 2012 budget request proposed to 
collapse existing programs for the top five leading chronic disease 
causes of death and disability--arthritis, cancer, diabetes, and heart 
disease and stroke--into a single State Block Grant program along with 
State funding for public health activities related to nutrition, 
physical activity, obesity and school health. These Administration 
proposals also rely on funding from the Prevention and Public Health 
Fund to support these activities.
    In light of the fiscal challenges facing the Nation and the need to 
reduce inefficiencies from Federal program overlap and lack of 
coordination, the Arthritis Foundation recognizes that the CDC must 
combat chronic disease through careful coordination and collaboration 
across strategic programs. However, at the same time, agency leadership 
must ensure that the vital public health infrastructure that has been 
developed over the past two decades for combating arthritis should not 
be dismantled.
    The clear need to ensure that the burgeoning number of Americans 
with arthritis are served by effective efforts, lead the Arthritis 
Foundation to conclude that, as proposed, the Administration's 
consolidated chronic disease prevention program is not in the best 
interest of those with arthritis. To sustain and build on the 
achievements and progress made to date in combating arthritis, it is 
critical that arthritis-specific activities are preserved and 
strengthened in any approach to combating chronic disease.
    As the fiscal year 2012 funding process continues, the Arthritis 
Foundation appreciates the opportunity to evaluate any consolidated 
chronic disease program proposal to ensure that the following 
priorities are addressed:
  --Programs should be designed around similar target populations, 
        including people with or at risk of arthritis, the Nation's 
        most common cause of disability and a major barrier to physical 
        activity.
  --Any consolidation must be limited to programs with clear 
        programmatic and operational overlap.
  --CDC and states must retain staff expertise in disease areas and the 
        infrastructure to support them;
  --Programs must be supported by State-based advisory groups made up 
        of stakeholders from the impacted disease areas;
  --A national advisory committee at CDC should be created to foster 
        stakeholder involvement from arthritis and other chronic 
        disease communities.
    The CDC's arthritis program received $13.1 million in fiscal year 
2011 funding and about half of that amount will be distributed via 
competitive grant to 12 States. Research shows that the pain and 
disability of arthritis can be decreased through early diagnosis and 
appropriate management, including evidence-based self-management 
activities that enable weight control and physical activity. The 
Arthritis Foundation's Self-Help Program, a group education program, 
has been proven to reduce arthritis pain by 20 percent and physician 
visits by 40 percent. These evidence-based interventions are recognized 
by the CDC to reduce the pain of arthritis and importantly reduce 
healthcare expenditures through a reduction in physician visits. For 
arthritis prevention to grow to include another 12-15 States an 
investment of an additional $10 million is required.

National Institutes of Health/National Institute of Arthritis and 
        Musculoskeletal and Skin Diseases
    The Arthritis Foundation supports $35 billion in fiscal year 2012 
for NIH to invest in improving the health and quality of life for all 
Americans. NIH-funded research drives scientific innovation and 
develops new and better diagnostics, improved prevention strategies, 
and more effective treatments. Approximately 83 percent of appropriated 
funds for NIH research are sent to every State in the Nation in the 
form of merit based peer review grants. These investigator initiated 
grants enable the highest quality of research to be conducted at 
research facilities and hospitals all across the Nation employing 
hundreds of thousand of individuals and representing an integral part 
of hundreds of local communities. Congress should recognize the unique 
role NIH plays as the economic engine in the biomedical industry.
    NIH-funded research has led to new treatments, which have greatly 
improved the quality of life for people living with arthritis; however, 
the ultimate goal is to find a cure. The Arthritis Foundation firmly 
believes research holds the key to tomorrow's advances and provides 
hope for a future free from arthritis pain. As one of the largest non-
profit contributors to arthritis research, the Arthritis Foundation 
fills a vital role in the big picture of arthritis research. Our 
research program complements government and industry-based arthritis 
research by focusing on training new investigators and pursuing 
innovative strategies for preventing, controlling and curing arthritis.
    The mission of the NIH/National Institute of Arthritis and 
Musculoskeletal and Skin Diseases (NIAMS) is to support research into 
the causes, treatment, and prevention of arthritis and musculoskeletal 
and skin diseases and the training of basic and clinical scientists to 
carry out this research. Research opportunities at NIAMS are being 
curtailed due to the stagnating and in some cases declining numbers of 
new grants being awarded. The training of new investigators has 
unnecessarily slowed down and contributed to a crisis in the research 
community where new investigators have begun to leave biomedical 
research careers. The Arthritis Foundation urges Congress to prioritize 
NIAMS funding to address the Nations most chronic, disabling and costly 
diseases.
    Last year, scientists supported by the National Institutes of 
Health developed a technique that lead to the successful re-growth of 
damaged leg joints in animals. The accomplishment shows that it's 
possible to lure the body's own cells to injured regions and generate 
new tissues, such as cartilage and bone. The finding could point the 
way toward joint renewal in humans, which could be a dramatic and less 
costly alternative to the 1 million joint replacement surgeries each 
year.
    Juvenile arthritis afflicts 300,000 children in the United States 
and when left untreated, it can cause permanent damage to joints and 
tissues throughout the body. Juvenile arthritis has serious 
consequences that can limit a young person's ability to grow properly, 
learn, and become a productive citizen in the workforce. With a dire 
critical shortage of pediatric rheumatologists to treat these children, 
it is vital that the NIH and NIAMS continue supporting a national 
network of cooperating clinical centers for the care and study of 
children with arthritis through the Childhood Arthritis and 
Rheumatology Research Alliance (CARRA). This NIH funded project is in 
the beginning stages of collecting data from the largest group of 
children with juvenile rheumatic diseases nationwide. The data will be 
available to pediatric rheumatologists throughout the United States. 
The collection and distribution of such disease data are crucial to the 
understanding of the progression of juvenile arthritis and specific 
outcomes related to treatment. NIH must continue to fund this 
invaluable resource to improve the outcomes and lives of children with 
juvenile arthritis as is currently done for children with cancer. The 
Arthritis Foundation has also invested our research dollars in this 
CARRA initiative.
    Public investment in biomedical research holds the real promise of 
improving the lives of millions of Americans with arthritis. An 
investment in NIH funded research is an investment in our Nation's 
future.

Health Resources and Services Administration
    The Arthritis Foundation strongly recommends funding a loan 
repayment program for pediatric specialist at the $30 million level 
within HRSA for fiscal year 2012. A pediatric loan repayment program 
was authorized by Congress in 2010 (in the Affordable Care Act) and 
requires funding to commence. HRSA is essential to developing the 
healthcare workforce that is so critical in primary care as well as 
shortages in specialty care, like pediatric rheumatology.
    Juvenile arthritis is the leading cause of acquired disability in 
children and is the sixth most common childhood disease. Sustaining the 
field of pediatric rheumatology is essential to the care of the almost 
300,000 children under the age of 18 living with a form of juvenile 
arthritis. Children who are diagnosed with juvenile arthritis will live 
with this chronic and potentially disabling disease for their entire 
life. Therefore, it is imperative that children are diagnosed quickly 
and start treatment before significant irreversible joint damage is 
done. However, it is a challenge to first find a pediatric 
rheumatologist, as nine States do not have a single one, and then to 
have a timely appointment as many States have only one or two to see 
thousands of patients. Pediatric rheumatology is one of the smallest 
pediatric subspecialties with less than 200 pediatric rheumatologists 
actively practicing in the United States. A report to Congress in 2007 
stated there was a 75 percent shortage of pediatric rheumatologists and 
recommended loan repayment program to help address this critical 
workforce shortage issue. The Affordable Care Act included authorizing 
HRSA $30 million to establish a loan repayment program for pediatric 
specialists including pediatric rheumatologists. The Arthritis 
Foundation strongly recommends the Subcommittee provide an initial 
appropriation to begin this critical program.

Agency for Healthcare Research and Quality (AHRQ)
    The Arthritis Foundation recommends an overall funding level of 
$405 million for AHRQ in fiscal year 2012. AHRQ funds research and 
programs at local universities, hospitals, and health departments that 
improve healthcare quality, enhance consumer choice, advance patient 
safety, improve efficiency, reduce medical errors, and broaden access 
to essential services. Specifically, the science funded by AHRQ 
provides consumers and their healthcare professionals with valuable 
evidence to make the right healthcare decisions for themselves and 
their families.
    The Arthritis Foundation appreciates the opportunity to submit our 
recommendations for fiscal year 2012 to Congress on behalf of the 50 
million adults and 300,000 children with arthritis and looks forward to 
working with the Subcommittee in the coming months.
                                 ______
                                 
                Prepared Statement of ASME International

    The NIH Task Force (``Task Force'') of the ASME Bioengineering 
Division is pleased to provide comments on the bioengineering-related 
programs contained within the National Institutes of Health (NIH) 
fiscal year 2012 budget request. The Task Force is focused on the 
application of mechanical engineering knowledge, skills, and principles 
for the conception, design, development, analysis and operation of 
biomechanical systems.

The Importance of Bioengineering
    Bioengineering is an interdisciplinary field that applies physical, 
chemical, and mathematical sciences, and engineering principles to the 
study of biology, medicine, behavior, and health. It advances knowledge 
from the molecular to the organ levels, and develops new and novel 
biologics, materials processes, implants, devices, and informatics 
approaches for the prevention, diagnosis, and treatment of disease, for 
patient rehabilitation, and for improving health. Bioengineers have 
employed mechanical engineering principles in the development of many 
life-saving and life-improving technologies, such as the artificial 
heart, prosthetic joints, diagnostics, and numerous rehabilitation 
technologies.

Background
    The NIH is the world's largest organization dedicated to improving 
health through medical science. During the last 50 years, NIH has 
played a leading role in the major breakthroughs that have increased 
average life expectancy by 15 to 20 years.
    The NIH is comprised of different Institutes and Centers that 
support a wide spectrum of research activities including basic 
research, disease and treatment-related studies, and epidemiological 
analyses. The mission of individual Institutes and Centers varies from 
either study of a particular organ (e.g. heart, kidney, eye), a given 
disease (e.g. cancer, infectious diseases, mental illness), a stage of 
life (e.g. childhood, old age), or finally it may encompass 
crosscutting needs (e.g., sequencing of the human genome). The National 
Institute of Biomedical Imaging and Bioengineering (NIBIB) focuses on 
the development, application, and acceleration of biomedical 
technologies to improve outcomes for a broad range of healthcare 
challenges.

Fiscal Year 2012 NIH Budget Request
    The total fiscal year 2012 NIH budget request is $31.98 billion, or 
2.4 percent above the $31.08 billion fiscal year 2010 appropriated 
amount and 4.1 percent above the $30.7 billion provided for fiscal year 
2011. The Task Force recognizes that this proposed increase is 
significant given the Administration's commitment to reducing the 
Federal deficit. However, the Task Force notes that the 
Administration's 2.4 percent increase to the overall NIH budget from 
fiscal year 2010 to fiscal year 2012 is less than the up to 3 percent 
projected increase in medical research costs due to inflation for 
fiscal year 2012 alone--as predicted by the Biomedical Research and 
Development Price Index (BRDPI). This inflationary pressure is 
compounded with the $30.7 billion appropriation for fiscal year 2011, a 
$260 million or 0.8 percent reduction in funding from the previous 
fiscal year, and a BRDPI of 2.9 percent for fiscal year 2011, resulting 
in a significant decrease in funding for the NIH over fiscal year 2010 
to fiscal year 2012.
    NIH is enacting policies to guide investments while limiting the 
impact of these inflationary cost increases, including a 1 percent 
increase in the average cost of competing and non-competing Research 
Project Grants (RPGs); a 1 percent increase in Research Centers and 
Other Research; and a 1 percent increase for Intramural Research and 
Research Management and Support; and constraints on staffing levels. 
However, these policies alone are not sufficient to offset the need for 
additional support for critical areas of health research, especially 
given reduction in funding and high inflation rate for fiscal year 
2011. We therefore fully support the President's proposed fiscal year 
2012 budget level for the NIH given current budget constraints, but 
further recommend out-year budget increases well beyond BRDPI inflation 
rates.
    The Task Force further notes that NIH received $10.4 billion as 
part of the American Recovery and Reinvestment Act (ARRA) of 2009 
(Public Law 111-5), an important influx for several key divisions of 
NIH over the fiscal year 2009 and fiscal year 2010 funding cycles, 
particularly the NIBIB, which received $78 million--less than 1 percent 
of the $10.4 billion ARRA budget assigned to the NIH for the fiscal 
year 2009 and fiscal year 2010 funding cycles. NIBIB has already 
exhausted this budget, leaving no additional ARRA funding to leverage 
through the fiscal year 2011 budget cycle and underscoring the need for 
more robust investment in bioengineering at NIBIB. While this one-time 
influx of funding for health research and infrastructure was justified, 
the Task Force notes that the unstable nature of such funding inhibits 
the potential impact on the economy and should not be viewed as a 
viable substitute for steady and consistent support from Congress for 
these critical national research priorities.
    The Administration estimates 9,158 Research Project Grants (RPG) 
will be supported under the fiscal year 2012 budget for NIH-wide RPGs. 
From fiscal year 2010 to fiscal year 2011, inflationary pressures and 
budget factors combined to result in a decrease of 652 in the number of 
competing RPGs. The Task Force commends the Administration for again 
focusing on funding RPGs in fiscal year 2012, resulting in an increase 
of 424 supported grants over the fiscal year 2011 level of competing 
RPGs. We reiterate again however, that the number of RPGs supported 
from fiscal year 2010 to fiscal year 2012 will still decline by 228 
under this austere fiscal year 2012 budget scenario.

NIBIB Research Funding
    The Administration's fiscal year 2012 budget request supports $322 
million for the NIBIB, an increase of $5.6 million or 1.8 percent from 
the fiscal year 2010 appropriated amount. The mission of the NIBIB is 
to seek to improve human health by leading the development and 
application of emerging and breakthrough technologies based on a 
merging of the biological, physical, and engineering sciences. As noted 
above, this increase is well under the 3 percent projected increase in 
research costs due to inflation (predicted by the BRDPI index) and, as 
a consequence, actually results in an effective decrease in funding for 
NIBIB compared to fiscal year 2010.
    The budget for NIBIB Research Grants would remain flat at $262.7 
million. Funding for intramural research would increase 7.3 percent to 
$11.8 million from $11 million in fiscal year 2010. NIBIB's Research 
Management and Support request is $17.3 million, a 3 percent increase 
over fiscal year 2010.
    NIBIB funds the Applied Science and Technology (AST) program, which 
supports the development and application of innovative technologies, 
methods, products, and devices for research and clinical application 
that transform the practice of medicine. The fiscal year 2012 request 
for AST is $170.6 million, a $2.2 million increase or 1.3 percent 
increase from fiscal year 2010.
    Additionally, NIBIB funds the Discover Science and Technology (DST) 
program, which is focused on the discovery of innovative biomedical 
engineering and imaging principles for the benefit of public health. 
The fiscal year 2011 request for DST is $95.3 million, a $1.2 million 
or 1.3 percent increase from fiscal year 2010.
    The Technological Competitiveness-Bridging the Sciences program, 
which funds interdisciplinary approaches to research, would receive 
$25.9 million in fiscal year 2012, a $0.9 million increase or 3.6 
percent over the fiscal year 2010 enacted level.

Task Force Recommendations
    The Task Force is concerned that the United States faces rapidly 
growing challenges from our counterparts in the European Union and Asia 
with regards to bioengineering advancements. While total health-related 
U.S. research and development investments have expanded significantly 
over the last decade, investment in bioengineering at NIBIB have 
remained relatively flat over the last several years. In fact, the 
fiscal year 2012 budget actually represents a small reduction in 
funding when the fiscal year 2003 NIBIB appropriation of $280 million 
is adjusted for inflation--$329 million in 2010 dollars--leaving NIBIB 
with an effective reduction in funding of $7 million since 2003.
    The Task Force wishes to emphasize that, in many instances, 
bioengineering-based solutions to healthcare problems can result in 
improved health outcomes and reductions in healthcare costs. For 
example, coronary stent implantation procedures cost approximately 
$20,000, compared to bypass graft surgery at double the cost. Stenting 
involves materials science (metals and polymers), mechanical design, 
computational mechanical modeling, imaging technologies, etc. that 
bioengineers work to develop. Not only is the procedure less costly, 
but the patient can return to normal function within a few days rather 
than months to recover from bypass surgery, greatly reducing other 
costs to the economy. Therefore, we strongly urge Congress to consider 
increased funding for bioengineering within the NIBIB and across NIH, 
and work to strengthen these investments in the long run to reduce U.S. 
healthcare costs and support continued U.S. leadership in 
bioengineering.
    Even during these challenging fiscal times, the NIBIB must obtain 
sustained funding increases, both to accelerate medical advancements as 
our Nation's population ages, and to mirror the growth taking place in 
the bioengineering field. The Task Force believes that the 
Administration's budget request for fiscal year 2012 is not aligned 
with the long-term challenges posed by this objective; a 1.8 percent 
budget increase will not keep up with current inflationary increases 
for biomedical research, eroding the United States' ability to lay the 
groundwork for the medical advancements of tomorrow.
    While the Task Force supports Federal proposals that seek to double 
Federal research and development in the physical sciences over the next 
decade, we believe that strong Federal support for bioengineering and 
the life sciences is essential to the health and competitiveness of the 
United States. The supplemental funding that NIH received as part of 
ARRA and the budget request by the Administration does not erase the 
past several years of disappointing budgets. Congress and the 
Administration should work to develop a specific plan, beyond President 
Obama's call for ``innovations in healthcare technology'' to focus on 
specific and attainable medical and biomedical research priorities 
which will reduce the costs of healthcare and improve healthcare 
outcomes. Further, Congress and the Administration should include in 
this strategy new mechanisms for partnerships between NSF and the NIH 
to promote bioengineering research and education. The Task Force feels 
these initiatives are necessary to build capacity in the U.S. 
bioengineering workforce and improve the competitiveness of the U.S. 
bioengineering research community.
                                 ______
                                 
 Prepared Statement of the Association for Professionals in Infection 
    Control and Epidemiology (APIC) and the Society for Healthcare 
                     Epidemiology of America (SHEA)

    The Association for Professionals in Infection Control and 
Epidemiology (APIC) and The Society for Healthcare Epidemiology of 
America (SHEA) thank you for this opportunity to submit testimony on 
Federal efforts to eliminate healthcare-associated infections (HAIs).
    APIC's mission is to improve health and patient safety by reducing 
the risk of HAIs and related adverse outcomes. The organization's more 
than 14,000 members, known as infection preventionists, direct 
infection prevention and control programs that save lives and improve 
the bottom line for hospitals and other healthcare facilities 
throughout the United States and around the globe. Our association 
strives to promote a culture within healthcare institutions where all 
members of the healthcare team fully embrace the elimination of HAIs. 
We advance these efforts through education, research, collaboration, 
practice guidance, public policy, and support for credentialing.
    SHEA was founded in 1980 to advance the application of the science 
of healthcare epidemiology. The Society works to achieve the highest 
quality of patient care and healthcare personnel safety in all 
healthcare settings by applying epidemiologic principles and prevention 
strategies to a wide range of quality-of-care issues. SHEA is a growing 
organization, strengthened by its membership in all branches of 
medicine, public health, and healthcare epidemiology. SHEA and its 
members are committed to implementing evidence-based strategies to 
prevent HAIs. SHEA members have scientific expertise in evaluating 
potential strategies for eliminating preventable HAIs.
    APIC and SHEA collaborate with a wide range of infection prevention 
and infectious diseases societies, specialty medical societies in other 
fields, quality improvement organizations, and patient safety 
organizations in order to identify and disseminate evidence-based 
practices. The Centers for Disease Control and Prevention (CDC), its 
Division of Healthcare Quality Promotion (DHQP) and the Federal 
Healthcare Infection Control Practices Advisory Committee (HICPAC), and 
the Council of State and Territorial Epidemiologists (CSTE) have been 
invaluable Federal partners in the development of guidelines for the 
prevention and control of HAIs and in their support of translational 
research designed to bring evidence-based practices to patient care. 
Further, collaboration between experts in the field (epidemiologists 
and infection preventionists), the CDC and the Agency for Healthcare 
Research and Quality (AHRQ) plays a critical role in defining and 
prioritizing the research agenda. In 2008, APIC and SHEA aligned with 
The Joint Commission and the American Hospital Association to produce 
and promote the implementation of evidence-based recommendations in the 
Compendium of Strategies to Prevent Healthcare-Associated Infections in 
Acute Care Hospitals (http://www.shea-online.org/about/compendium.cfm). 
APIC and SHEA also contribute expert scientific advice to quality 
improvement organizations such as the Institute for Healthcare 
Improvement (IHI), the National Quality Forum (NQF), and State-based 
task forces focused on infection prevention and public reporting 
issues.
    HAIs are among the leading causes of preventable death in the 
United States, accounting for an estimated 1.7 million infections and 
99,000 associated deaths in 2002. In addition to the substantial human 
suffering caused by HAIs, these infections contribute $28 billion to 
$33 billion in excess healthcare costs each year.
    The good news is that some of these infections are on the decline. 
In particular, bloodstream infections associated with indwelling 
central venous catheters, or ``central lines,'' are largely preventable 
when healthcare providers use the CDC infection prevention 
recommendations in the context of a performance improvement 
collaborative. Healthcare professionals have reduced these infections 
in hospital intensive care unit (ICU) patients by 58 percent since 
2001, which represents up to 27,000 lives saved. In spite of this 
notable progress, there is a great deal of work to be done to achieve 
the goal of HAI elimination. These additional opportunities to save 
lives and improve patient safety involve settings outside ICUs and 
those patients who need hemodialysis.
    To build and then sustain these winnable battles against HAIs, we 
urge you, in fiscal year 2012, to support the CDC Coalition's request 
for $7.7 billion for the CDC's ``core programs.'' Within that broader 
area, the CDC is currently involved in a number of projects that have 
allowed for significant progress to be made in reducing HAIs. In light 
of this important work, we ask that you provide the CDC with its 
requested amount of $47.4 million for HAI prevention activities.
    Included among these activities is support for State-based programs 
to expand facility enrollment in the CDC's National Healthcare Safety 
Network (NHSN), an important reporting and monitoring tool that enables 
officials to track where HAIs are occurring and identify where 
improvements need to be made. NHSN's data analysis function helps our 
members analyze facility-specific data and compare rates to national 
metrics. Importantly, the patients we serve throughout the United 
States have established expectations that reported reductions in the 
frequency of HAIs are accurate. APIC and SHEA have, through their 
respective networks of members, identified limitations in other 
measures of performance. These studies have consistently identified 
that data from the CDC's NHSN provides a more precise picture of 
performance relative to reduction of HAIs. Many States consider NHSN to 
be the best option for implementing standardized reporting of HAI data. 
The CDC has also been supporting research networks to address important 
scientific gaps in HAI prevention, improvement in HAI tracking and 
monitoring methodologies, as well as responding to requests for 
assistance from health departments and healthcare facilities. It is 
vital to ensure that the NHSN meets these expectations from patients 
and that our successes are real and tangible improvements in the care 
provided.
    In addition, we request that the Subcommittee provide $50 million 
for antimicrobial resistance activities. As the CDC states in its 
request, ``repeated and improper uses of antibiotics are important 
factors in the increase in drug-resistant bacteria, viruses, and 
parasites,'' and ``preventing infections and decreasing inappropriate 
antibiotic use are the best strategies to control resistance.'' 
Ensuring the effectiveness of antibiotics well into the future is vital 
for the nation's public health. It is essential, therefore, that the 
CDC maintains the ability to monitor organism resistance in healthcare 
and promote appropriate antibiotic use. This has become even more 
critical due to two recent developments. First, pharmaceutical 
manufacturers have largely abandoned development of newer antibiotics 
because there are several market-based disincentives to investing in 
this research and development. Second, there is an epidemic of 
infections caused by Clostridium difficile, a bacterium that is 
triggered by use of antibiotics. These infections are widespread, 
disproportionately affect older adults, and can be fatal. There are 
several examples in the scientific literature that demonstrate the rate 
of C. difficile infections drops in facilities with active, effective 
antimicrobial stewardship programs.
    We also support the Administration's $5 million request for HAI 
activities. This funding will allow HHS, under the HHS Action Plan to 
Prevent Healthcare-Associated Infections (HAI Action Plan), to 
prioritize recommended clinical practices, strengthen data systems, and 
develop and launch a nationwide HAI prevention campaign. APIC and SHEA 
members have been engaged in this partnership for HAI prevention under 
the leadership of HHS Assistant Secretary for Health, Dr. Howard Koh 
and Deputy Assistant Secretary for Healthcare Quality, Dr. Don Wright.
    We believe the development of the HAI Action Plan and the funding 
to support these activities has been critical to the effort to build 
support for a coordinated Federal plan and message on preventing 
infections. Additionally, we strongly believe that the CDC has the 
necessary expertise to define appropriate metrics through which the HAI 
Action Plan can best measure its efforts.
    APIC and SHEA also request that the Subcommittee approve $10.7 
million for the Centers for Medicare and Medicaid Services (CMS) 
surveys of ambulatory surgical centers (ASCs) as part of the budget 
request addressing direct survey costs. CMS's survey process, jointly 
developed with the CDC in this case, consists of targeting infection 
control deficiencies in ASCs with a frequency of every 4 years. Due to 
the increasing number of surgeries performed in outpatient settings, 
and the need to ensure that basic infection prevention practices are 
followed, APIC believes continuation of this survey tool is essential. 
This support will also protect patients' lives as there have been 
several outbreaks in ASCs involving transmission of bloodborne 
pathogens, such as hepatitis C, due to unsafe practices.
    Also within the direct survey costs portion of CMS's request, the 
agency indicates plans to launch an HAI pilot program as part of the 
HHS HAI strategic plan. This promises to produce a significant amount 
of feedback on HAI prevention as CMS intends to survey critical access 
hospitals and smaller hospitals across 10 to 25 States. This will allow 
officials to gather information from facilities whose practices and 
data have not traditionally been monitored or widely shared.
    APIC and SHEA are pleased with the Administration's continued 
support of biomedical research by providing an increase of almost $32 
billion for the National Institutes of Health (NIH) in fiscal year 
2012, a 2.4 percent increase over fiscal year 2010 levels. The NIH is 
the single largest funding source for infectious diseases research in 
the United States and the life-source for many academic research 
centers. The NIH-funded work conducted at these centers lays the ground 
work for advancements in treatments, cures, and medical technologies. 
It is critical that we maintain this momentum for medical research 
capacity.
    Unfortunately, support for basic, translational, and 
epidemiological HAI research has not been a priority of the NIH. 
Despite the fact that HAIs are among the top ten annual causes of death 
in the United States, scientists studying these infections have 
received relatively less funding than colleagues in many other 
disciplines. In 2008, NIH estimated that it spent more than $2.9 
billion on funding for HIV/AIDS research, approximately $2 billion on 
cardiovascular disease research, and about $664 million on obesity 
research. By comparison, the National Institute of Allergy and 
Infectious Diseases (NIAID) provided $18 million for MRSA research. 
APIC and SHEA believe that as the magnitude of the HAI problem becomes 
an increasing part of our public health dialogue, it is imperative that 
the Congress and funding organizations put significant resources behind 
this momentum.
    The limited availability of Federal funding to study HAIs has the 
effect of steering young investigators interested in pursuing research 
on HAIs toward other, better-funded fields. While industry funding is 
available, the potential conflicts of interest, particularly in the 
area of infection prevention technologies, make this option seriously 
problematic. These challenges are limiting professional interest in the 
field and hampering the clinical research enterprise at a time when it 
should be expanding.
    Our field is faced with the need to bundle, implement and adhere to 
interventions we believe to be successful while simultaneously 
conducting basic, epidemiological, pathogenetic and translational 
studies that are needed to move our discipline to the next level of 
evidence-based patient safety. The current convergence of scientific, 
public and legislative interest in reducing rates of HAIs can provide 
the necessary momentum to address and answer important questions in HAI 
research. APIC and SHEA strongly urge you to enhance NIH funding for 
fiscal year 2012 to ensure adequate support for the research foundation 
that holds the key to addressing the multifaceted challenges presented 
by HAIs.
    Finally, we support the $34 million in the Administration's fiscal 
year 2012 budget that would continue, and allow expansion of, funding 
for AHRQ grants related to HAI prevention in multiple healthcare 
settings, including surgical and dialysis centers. Infections are one 
of the leading causes of hospitalization and death for patients on 
hemodialysis. According to the CDC, approximately 37,000 bloodstream 
infections occurred in hemodialysis outpatients with central lines 
(2008). AHRQ's plans to broaden research support in ambulatory and 
long-term care settings to align with the HHS HAI Action Plan represent 
another positive step in addressing HAIs in a comprehensive fashion.
    We thank you for the opportunity to submit testimony and greatly 
appreciate this Subcommittee's assistance in providing the necessary 
funding for the Federal Government to have a leadership role in the 
effort to eliminate HAIs.
                                 ______
                                 
   Prepared Statement of the Association for Research in Vision and 
                             Ophthalmology

Congressional and Presidential support for biomedical research
    In 2009, Congress spoke volumes in passing S. Res. 209 and H. Res. 
366, which designated the years 2010 to 2020 as The Decade of Vision, 
in which the majority of 78 million Baby Boomers will face the greatest 
risk for aging eye disease. This decade is not the time for a less-
than-inflationary increase for a community that lost 20.1 percent 
purchasing power over the course of the last 10 years.\1\
---------------------------------------------------------------------------
    \1\ Calculations were based solely upon annual biomedical research 
and development price index (BRDPI) and annual appropriated amounts. 
Fiscal year 2011 funding levels and fiscal year 2011 BRDPI were not 
part of the calculation.
---------------------------------------------------------------------------
    As President Obama has stated repeatedly, most recently during the 
2011 State of the Union Address, biomedical research reduces healthcare 
costs, increases productivity, and it ensures global competitiveness of 
the United States.
    ARVO has two major requests for Senate:
  --For Senate to budget NIH in fiscal year 2012 at $35 billion.
      This amount: Is a $3 billion increase over the President's 
        proposed budget; maintains NIH net funding levels from fiscal 
        year 2009 and fiscal year 2010; and ensures that NIH can 
        maintain funding for existing grants and award the same number 
        of new grants.
  --For Senate to make vision health a priority and fund NEI in fiscal 
        year 2012 above the 1.8 percent increase over last year that 
        was proposed by the President.
    --We request this even if Congress does not fund NIH at $35 
            billion.
    --Why? Investing in research is a short term investment, with a 
            2.2-fold economic return from innovation. It has a long 
            term pay-off that can reduce healthcare spending on eye 
            diseases that are increasing in aging populations and 
            growing minority populations that have vision health 
            disparities (e.g. glaucoma and diabetic retinopathy). The 
            majority of research grant budgets pay for good paying 
            positions. Very little of the budget goes towards supplies 
            and equipment. It addresses one of American's greatest 
            fears: fear of losing eye sight.

Grant review eliminates budget excess
    ARVO stands behind member John Ash, Ph.D., who stated the following 
during January 2011 ARVO Advocacy Day visits to Capitol Hill: ``We 
understand the need for budget cuts, but we should be cutting budgets 
similar to how U.S. citizens trim their household budgets, not across 
the board, but rather where there is waste and inefficiency. We 
challenge you to find another government agency that uses money more 
efficiently than the National Institutes of Health.''
    The strategic plan for NIH grant programs (for example, the NEI 
strategic plan) represents the collective vision of hundreds of 
scientists throughout the United States. Funding decisions for 
individual grant applications are awarded based on scientific merit and 
past progress. Specifically, experts review grant applications and 
assign scores based on the quality and impact of the proposed research. 
Scientific merit and funding decisions are based on applicant 
competitiveness among peers. An additional level of scrutiny and 
guidance is provided by an NEI program panel of experts, the National 
Advisory Eye Council. Progress on funded projects is monitored annually 
by NIH, and excess budgets are trimmed taking into consideration 
ongoing development of other projects. Thus, the process is highly 
competitive from conception of a project through completion.


Cost of vision impairment
    Vision disorders are the fourth most prevalent disability in the 
United States and the most frequent cause of disability in children. 
NEI estimates that vision impairment and eye disease cost the United 
States $68 billion annually. However, this number does not factor in 
the impact of indirect healthcare costs, lost productivity, reduced 
independence, diminished quality of life, increased depression, and 
accelerated mortality.
    NEI's fiscal year 2010 baseline funding of $707 million reflects 
just a little more than 1 percent of the annual costs of eye disease. 
The continuum of vision loss presents a major public health problem, as 
well as a significant financial challenge to the public and private 
sectors.

Prevention saves money long term
    Seventy-seven percent of Americans agree that research is part of 
the solution to rising healthcare costs, and 84 percent understand that 
prevention and wellness reduce healthcare costs (Your Candidates-Your 
Health Poll, August 2010). Less-than-inflationary budget increases 
represent short term cost-cutting that will cost taxpayers more money 
in the long term. Prevention can save Medicare/Medicaid payments for 
vision care in the aging population and in minority populations with 
disproportionate incidence of eye disease (e.g. glaucoma and diabetic 
retinopathy). NEI funding is a vital investment in overall health and 
vision health of our Nation that prevents health expenditures. 
Maintaining vision allows people to remain independent and employed, 
reduces family burdens, and ultimately, improves the safety of 
individuals and the entire community (driving safety being a prime 
example).

Research is an economic investment
    Merely 2 percent of Americans think research is not important to 
the U.S. economy (National Poll, May 2010). The largest portion of NIH 
grant budgets is for salaries distributed across the country, and many 
of the positions funded are for good paying jobs. The lower paying jobs 
are an investment in training the future biomedical research work 
force. To learn about the economic impact of research by state, visit 
http://www.researchamerica.org/economic_impact.

Vision research improves eye care
    Below are three of the top vision success stories since 2003, as 
reported by nearly 400 U.S.-based ARVO members, who work at NEI-funded 
institutions. Examples come from responses to an ARVO survey about the 
NEI strategic plan. There were too many vision achievements to list 
them all.
    Drug therapies for macular degeneration (AMD).--Vision researchers 
developed a therapy to treat the most aggressive form of AMD (``wet'' 
AMD) that works much better than even hoped for. Not only is vision 
loss stopped, in many cases sight is partially regained. The therapy is 
so successful that it is now being used for other eye complications 
(e.g., eye infections, injuries and diabetes). Furthermore, a National 
Eye Institute-funded clinical trial (Comparison of AMD Treatments 
Trial), comparing safety and effectiveness of two drugs to treat 
advanced AMD, shows that a $50 drug (Avastin) is as effective as a 
$2,000 drug (Lucentis). Since 250,000 patients are treated each year 
for AMD, this will reduce Medicare and other government health 
spending. http://1.usa.gov/jZpZyv
    Gene therapies for eye disease.--Vision researchers developed gene 
therapies for three retinal diseases: Leber congenital amaurosis, color 
blindness and retinitis pigmentosa. They also identified important 
genetic risk factors for age-related eye diseases, including age-
related macular degeneration and glaucoma. Critically, these 
discoveries are the first ``pay-off'' of any kind from the Human Genome 
Project for patients and taxpayers.
    Cellular and molecular therapies.--Using regenerative medical 
approaches, vision researchers made important progress in repairing 
damaged eye tissues (e.g., cornea and retina). By repairing damaged 
tissues vision function is rescued.

Continued vision research needs
    ARVO members expressed continued need for research support for the 
following areas (and many additional areas not covered here).
  --Aging eye disease.--Accelerate our efforts in basic and 
        translational research to discover the causes of and new 
        treatments for macular degeneration, diabetic retinopathy and 
        other vision-robbing diseases whose risks of occurrence and 
        severity increase with age.
  --Children's vision.--Find noninvasive ways to detect vision problems 
        in children early enough to start treatment before vision is 
        lost or their education is affected.
  --Brain and eye injury.--Develop ways to rapidly seal wounds and 
        trauma encountered by civilians and the military, so ocular and 
        brain function can be maintained.
  --Eye pain.--Understand the basis of eye pain and develop therapies 
        to treat it.
  --Eye infections.--Identify better ways to identify and treat drug-
        resistant eye-infections with antibiotics and anti-viral 
        medications. Certain infections can destroy eye tissues in just 
        24 hours.
  --Invest in shared therapeutic targets.--Identify common, shared 
        causes for common eye diseases and common systemic diseases. 
        Establish meaningful collaborations between researchers, so 
        shared therapeutic strategies may be developed that can treat 
        multiple diseases.
  --Identify at-risk groups and raise awareness.--Support development 
        of educational tools to raise awareness and treatment 
        compliance in people in age groups or ethnic groups, who are 
        more susceptible to certain eye diseases.
      Understand environmental factors that make it more likely to 
        develop eye disease and educate people on how to prevent eye 
        disease.
  --Eye surgery.--Identify circumstances when the risk of performing 
        eye surgery is greater than the benefit. Develop ways to treat 
        sight problems without surgery, including facilitating natural 
        wound healing.

Resources
    Facts about State vision health: http://apps.nccd.cdc.gov/DDT_VHI/
VHIHome.aspx.
    Fact sheet about vision and blindness: http://
www.researchamerica.org/uploads/factsheet16vision.pdf.
    The Silver Book: Vision Loss. http://www.eyeresearch.org/pdf/
VisionLossSilverbook.pdf.

About ARVO
    ARVO is the world's largest international association of vision 
scientists (scientists who study diseases and disorders of the eye). 
About 80 percent of members from the United States (>7,000 total) are 
supported by NIH grant funding. Vision science is a multi-disciplinary 
field, but the National Eye Institute is the only freestanding NIH 
institute with a mission statement that specifically addresses vision 
research. ARVO supports increased fiscal year 2011 and fiscal year 2012 
NIH funding.
    ARVO is also a member of the National Alliance for Eye and Vision 
Research, and supports their testimony. www.eyeresearch.org
                                 ______
                                 
  Prepared Statement of the Association of American Cancer Institutes

    The Association of American Cancer Institutes (AACI), representing 
94 of the Nation's premier academic and free-standing cancer centers, 
appreciates the opportunity to submit this statement for consideration 
by the United States Senate Subcommittee on Labor, Health and Human 
Services, Education and Related Agencies, Committee on Appropriations.
    AACI thanks the administration, Congress and the Subcommittee for 
their long-standing commitment to ensuring quality care for cancer 
patients, as well as for providing researchers with the tools that they 
need to develop better cancer treatments and, ultimately, to cure this 
disease.
    President Obama's fiscal year 2012 budget calls for $31.829 billion 
for NIH. This is an increase of $1.045 billion (3.4 percent) over the 
fiscal year 2010 comparable level of $30.784 billion. The President's 
proposed budget for the National Cancer Institute would be increased by 
$95 million, to $5.2 billion.
    Sustaining progress against cancer requires a Federal commitment to 
funding research through the NIH and NCI at a level that at least keeps 
pace with medical inflation. With that in mind, AACI is joining with 
its colleagues in the biomedical research community in supporting the 
proposed increases for NIH and NCI and in calling on Congress to 
further strengthen the impact of the President's request by increasing 
funding to $35 billion for NIH and to $5.9 billion for NCI. The 
requested increases account for lost funding due to discontinuation of 
the American Recovery and Reinvestment Act of 2009, and the ongoing 
shortfall in NIH and NCI funding in relation to annual changes in the 
Biomedical Research and Development Price Index (BRDPI), which 
indicates how much the NIH budget must change to maintain purchasing 
power.
    Taking a closer look at the President's proposed fiscal year 2012 
budget, as with so many complicated and vitally important matters, the 
devil is in the details. While the President's budget includes a 
proposed increase of $95.31 million over fiscal year 2010 for NCI, the 
line item funding for Cooperative Clinical Research remains the same as 
fiscal year 2010--$254.487 million. Other NCI line items show funding 
decreases, including Comprehensive/Specialized Cancer Centers ($46.001 
million decrease) and Research and Development Contracts ($39.409 
million decrease).
    AACI and its members are acutely aware of the difficult fiscal 
environment that the country is facing. The vast majority of our cancer 
centers exist within universities that are undergoing drastic budget 
reductions and as a consequence, directors at our member cancer centers 
are already facing extreme budgetary challenges. Furthermore, many of 
our senior and most promising young investigators are now without NCI 
funding and are requiring significant bridge funding from private 
sources. In recent years, however, it has become more challenging to 
raise philanthropic and other external funds. As a result, we continue 
to be highly dependent on Federal cancer center grants.
    Recent developments at one member center, the Nevada Cancer 
Institute (NVCI), illustrate that need. Serving 15,000 patients since 
it opened in 2005, NVCI has recently lain off half of its 300 
employees. In a local news report, NVCI officials cited a number of 
reasons for the layoffs, including a miserable economy that has hurt 
fundraising, a worsening reimbursement environment that provides less 
money from government and private insurance entities for services 
rendered, and fewer Federal grant dollars in the recession. (``Debt 
puts Nevada Cancer Institute on heels'', Las Vegas Review-Journal, 
April 8, 2011.)
    Cancer centers are already challenged to provide the infrastructure 
necessary to support funded researchers, and cuts in Federal grants 
will limit our ability to provide well functioning shared resources to 
investigators who depend on them to complete their research. For most 
matrix cancer centers, the majority of NCI grant funds are used to 
sustain the shared resources so essential to basic, translational, 
clinical and population cancer research, or to provide matching dollars 
which allow departments to recruit new cancer researchers to a 
university and support them until they receive their first grants.
    As highlighted by NCI Director Harold Varmus in a January ``town 
hall'' meeting with NCI staff, independent investigator research is a 
particularly valuable resource, particularly in the area of genomics 
and molecular epidemiology. Such research is highly dependent on state-
of-the-art shared resources like tissue processing and banking, DNA 
sequencing, microRNA platforms, proteomics, biostatistics and 
biomedical informatics. This infrastructure is expensive, and it is not 
clear where cancer centers would turn for alternative funding if NCI 
grant contributions to these efforts were reduced.
    An investigator and medicinal chemist at a large AACI member center 
spent 7 years developing two new targeted drugs that are now in 
clinical trial testing. One agent shows promise in cancers of the 
blood; the other against breast, colon, lung and prostate tumors. 
Research on these agents required advanced technologies provided by the 
center's shared resources, including analytical cell-sorting, 
microarray assays, and toxicopathological evaluations of mouse models, 
which are an essential part of drug discovery. If budget cuts had 
forced the closure of one or more of these shared resources, these new 
targeted therapies might never have made it to the patients who are now 
benefiting from them. The researcher has 8 to 10 more compounds in the 
pipeline, the fate of which hinges largely on the 2012 budget. 
Unfortunately, hundreds of other promising cancer researchers across 
the U.S. share this troubling uncertainty.
Cancer Research: Benefiting Americans' Health and Economic Well-being
    Cancer's financial and personal impact on America is substantial 
and growing--one in two men and one in three women will face cancer in 
their lifetimes, and cancer cost our Nation more than $228 billion in 
2008 (Centers for Disease Control and Preventions, Addressing The 
Cancer Burden: At A Glance 2010).
    The U.S. Centers for Disease Control & Prevention's latest report 
on cancer survivorship, ``Cancer Survivors-United States, 2007'', shows 
that the number of cancer survivors in the United States increased from 
3 million in 1971 to 9.8 million in 2001 and 11.7 million in 2007--an 
increase from 1.5 percent to 4 percent of the U.S. population. Cancer 
survivors largely consist of people who are 65 years of age or older 
and women. More than a million people were alive in 2007 after being 
diagnosed with cancer 25 years or more earlier. Of the 11.7 million 
people living with cancer in 2007, 7 million were 65 years of age or 
older, 6.3 million were women, and 4.7 million were diagnosed 10 years 
earlier or more
    Investing in cancer research is a prudent step--both for the health 
of our Nation and for its economic well-being. Cancer research, 
conducted in academic laboratories across the country, saves money by 
reducing healthcare costs associated with the disease, enhances the 
United States' global competitiveness, and has a positive economic 
impact on localities that house a major research center.
    In May 2011, AACI engaged Tripp Umbach, a research firm 
specializing in economic impact studies, to conduct an analysis of 
potential effects on statewide and national economic activity and 
employment resulting from NCI funding cuts to AACI cancer centers. Two 
reduced funding levels were considered: (1) a ``conservative'' 0.8 
percent reduction, as implemented in the 2011 continuing resolution for 
the Federal budget, passed by Congress in March, and, (2) an 
``aggressive'' 5.3 percent cut, reflecting an overall fiscal year 2012 
budget reduction proposed by some members of Congress. This reduction 
would rollback NCI funding to 2008 levels. The impact of the 0.8 
percent cut is already being felt: NCI announced on May 5 that it would 
need to cut funding for the NCI cancer centers program by 5 percent.
    The report estimates that the total economic decline resulting from 
a 0.8 percent cut in NCI funding would result in a loss of at least 
$84.5 million to the U.S. economy, with a 5.3 percent funding drop 
causing a $564.7 million economic loss nationwide. The economic impact 
is even greater when overall NIH funding is considered. A 0.8 percent 
reduction in NIH funding would mean a $530.8 million loss to the U.S. 
economy, with a 5.3 percent reduction leading to a $3.5 billion loss.
    Employment declines from the 0.8 percent NCI funding reduction 
would total at least 629 jobs while 4,200 jobs would be lost with a 5.3 
percent funding cut. Applying the same calculations to total NIH 
appropriations would eliminate nearly 4,000 jobs based on the 
conservative reduction, increasing to 26,300 jobs lost with a 5.3 
percent cut. It is important to note that research and health sciences 
jobs are generally high-paying and the loss of even a handful of such 
jobs can have a measurable effect on local economic activity.
    While the economic aspects of cancer research are important, what 
cannot be overstated is the impact cancer research has had on 
individuals' lives--lives that have been lengthened and even saved by 
virtue of discoveries made in cancer research laboratories at cancer 
centers across the United States.
    Biomedical research has provided Americans with better cancer 
treatments, as well as enhanced cancer screening and prevention 
efforts. Some of the most exciting breakthroughs in current cancer 
research are those in the field of personalized medicine. In 
personalized medicine for cancer, not only is the disease itself 
considered when determining treatments, but so is the individual's 
unique genetic code. This combination allows physicians to better 
identify those at risk for cancer, detect the disease, and treat the 
cancer in a targeted fashion that minimizes side effects and refines 
treatment in a way to provide the maximum benefit to the patient.
    In the laboratory setting, multi-disciplinary teams of scientists 
are working together to understand the significance of the human genome 
in cancer. For instance, the Cancer Genetic Markers of Susceptibility 
initiative is comparing the DNA of men and women with breast or 
prostate cancer with that of men and women without the diseases to 
better understand the diseases. The Cancer Genome Atlas is in 
development as a comprehensive catalog of genetic changes that occur in 
cancer.
    Illustrating the successes realized by cancer research, NCI's most 
recent Annual Report to the Nation on the Status of Cancer reported 
that rates of death in the United States from all cancers for men and 
women continued to decline between 2003 and 2007, the most recent 
reporting period available. The report also finds that the overall rate 
of new cancer diagnoses for men and women combined decreased an average 
of slightly less than 1 percent per year for the same period.
    Despite those improvements, ``cancer disparities'' abound, with 
different groups of cancer sufferers and cancer types showing little 
improvement or higher rates of incidence. For example, childhood cancer 
incidence rates (rates of new diagnoses) continued to increase while 
death rates in this age group decreased. Childhood cancer is classified 
as cancers occurring in those 19 years of age or younger. And there are 
several other forms of cancer (e.g. pancreatic, lung) and patient 
populations (racial and ethnic minorities, the poor, those with 
psychosocial issues) with high rates of cancer mortality and morbidity. 
Furthermore, with the increased incidence and survival comes higher 
morbidity because two-thirds of this surviving patient population 
experience late effects that are classified as serious to life-
threatening.

The Nation's Cancer Centers
    The nexus of cancer research in the United States is the Nation's 
network of cancer centers represented by AACI. These cancer centers 
conduct the highest-quality cancer research anywhere in the world and 
provide exceptional patient care. The Nation's research institutions, 
which house AACI's member cancer centers, receive an estimated $3.71 
billion from the National Cancer Institute (NCI) to conduct cancer 
research in fiscal year 2010; more than two-thirds of NCI's total 
budget (U.S. Department of Health and Human Services, National 
Institutes of Health, National Cancer Institute 2010 Fact Book). In 
fact, approximately 84 percent of NCI's budget supports research at 
nearly 650 universities, hospitals, cancer centers, and other 
institutions in all 50 States. Because these centers are networked 
nationally, opportunities for collaborations are many--assuring wise 
and non-duplicative investment of scarce Federal dollars.
    In addition to conducting basic, clinical, and population research, 
the cancer centers are largely responsible for training the cancer 
workforce that will practice in the United States in the years to come. 
Much of this training depends on Federal dollars, via training grants 
and other funding from NCI. Sustained Federal support will 
significantly enhance the centers' ability to continue to train the 
next generation of cancer specialists--both researchers and providers 
of cancer care.
    By providing access to a wide array of expertise and programs 
specializing in prevention, diagnosis, and treatment of cancer, cancer 
centers play an important role in reducing the burden of cancer in 
their communities. The majority of the clinical trials of new 
interventions for cancer are carried out at the nation's network of 
cancer centers.

Conclusion
    These are exciting times in science and, particularly, in cancer 
research. The AACI cancer center network is unrivaled in its pursuit of 
excellence, and places the highest priority on affording all Americans 
access to superior cancer care, including novel treatments and clinical 
trials. It is through the power of collaborative innovation that we 
will accelerate progress toward a future without cancer, and research 
funding through the NIH and NCI is essential to achieving our goals.
                                 ______
                                 
   Prepared Statement of the Association of American Medical Colleges

    The Association of American Medical Colleges (AAMC) is a not-for-
profit association representing all 134 accredited U.S. and 17 
accredited Canadian medical schools; nearly 400 major teaching 
hospitals and health systems; and nearly 90 academic and scientific 
societies. Through these institutions and organizations, the AAMC 
represents 128,000 faculty members, 75,000 medical students, and 
110,000 resident physicians. The association appreciates the 
opportunity to address four programs that play critical roles in 
assisting medical schools and teaching hospitals to fulfill their 
missions of education, research, and patient care: the National 
Institutes of Health (NIH); the Agency for Healthcare Research and 
Quality (AHRQ); health professions education funding through the Health 
Resources and Services Administration (HRSA)'s Bureau of Health 
Professions; and the National Health Service Corps. The AAMC 
appreciates the Subcommittee's longstanding, bipartisan efforts to 
strengthen these programs.
    National Institutes of Health.--The NIH is one of the Nation's 
greatest achievements. The Federal Government's unwavering support for 
medical research through the NIH has created a scientific enterprise 
that is the envy of the world and has contributed greatly to improving 
the health and well-being of all Americans--indeed of all humankind.
    The AAMC is grateful to the Subcommittee for its efforts to 
prioritize NIH funding in fiscal year 2011 and supports the budget 
request of $31.748 billion for NIH in fiscal year 2012. More than 83 
percent of NIH research funding is awarded to more than 3,000 research 
institutions in every State; at least half of this funding supports 
life-saving research at America's medical schools and teaching 
hospitals. This successful partnership not only lays the foundation for 
improved health and quality of life, but also strengthens the Nation's 
long-term economy.
    The foundation of scientific knowledge built through NIH-funded 
research drives medical innovation that improves health and quality of 
life through new and better diagnostics, improved prevention 
strategies, and more effective treatments. NIH research has contributed 
to dramatically increased and improved life expectancy over the past 
century. A baby born today can look forward to an average life span of 
nearly 78 years--almost three decades longer than a baby born in 1900, 
and life expectancy continues to increase. People are staying active 
longer, too: the proportion of older people with chronic disabilities 
dropped by nearly a third between 1982 and 2005. Thanks to insights 
from NIH-funded studies, the death rate for coronary heart disease is 
more than 60 percent lower--and the death rate for stroke, 70 percent 
lower--than in the World War II era.
    For example, a new ability to comprehend the genetic mechanisms 
responsible for disease is already providing insights into diagnostics 
and identifying a new array of drug targets. We are entering an era of 
personalized medicine, where prevention, diagnosis, and treatment of 
disease can be individualized, instead of using the standardized 
approach that all too often wastes healthcare resources and potentially 
subjects patients to unnecessary and ineffective medical treatments and 
diagnostic procedures.
    Peer-reviewed, investigator-initiated basic research is the heart 
of NIH research. These inquiries into the fundamental cellular, 
molecular, and genetic events of life are essential if we are to make 
real progress toward understanding and conquering disease. Additional 
funding is needed to sustain and enhance basic research activities, 
including increasing support for current researchers and promoting 
opportunities for new investigators and in those areas of biomedical 
science that historically have been underfunded.
    The application of the results of basic research to the detection, 
diagnosis, treatment, and prevention of disease is the ultimate goal of 
medical research. Clinical research not only is the pathway for 
applying basic research findings, but it often provides important 
insights and leads to further basic research opportunities. The AAMC 
supports additional funding for the continued expansion of clinical 
research and clinical research training opportunities, including 
rigorous, targeted post-doctoral training; developmental support for 
new and junior investigators; and career support for established 
clinical investigators, especially to enable them to mentor new 
investigators.
    Anecdotal evidence suggests that changes in healthcare delivery 
systems and other financial factors pose a serious threat to the 
research infrastructure of America's medical schools and teaching 
hospitals, particularly for clinical research. The AAMC supports 
efforts to enhance the research infrastructure, including resources for 
clinical and translational research; instrumentation and emerging 
technologies; and animal and other research models.
    Among the areas NIH has identified as ripe for investment and 
integral to the health of the American people is enhancing the evidence 
base for healthcare decisions. NIH's long-standing investment in 
Comparative Effectiveness Research (CER) has informed the clinical 
guidelines that assist physicians and their patients in making better 
decisions about the most effective care. Knowledge from NIH-supported 
CER has changed the way diabetes, atrial fibrillation, hypertension, 
HIV/AIDS, schizophrenia, and many other conditions are treated. In 
addition to diagnostic and treatment trials, knowing more about the 
performance of disease prevention initiatives and medical care delivery 
will improve health.
    The AAMC supports efforts to reinvigorate research training, 
including developing expanded medical research opportunities for 
minority and disadvantaged students. For example, the volume of data 
being generated by genomics research, as well as the increasing power 
and sophistication of computing assets on the researcher's lab bench, 
have created an urgent need, both in academic and industrial settings, 
for talented individuals well-trained in biology, computational 
technologies, bioinformatics, and mathematics to realize the promise 
offered by modern interdisciplinary research.
    The AAMC is heartened by the Administration's proposals to provide 
a four percent stipend increase for predoctoral and postdoctoral 
research trainees supported by NIH's Ruth L. Kirschstein National 
Research Service Awards program. These stipend increases are necessary 
if medical research is to remain an attractive career option for the 
brightest U.S. students. Attracting the most talented students and 
postdoctoral fellows is essential if the United States is to retain its 
position of world leadership in biomedical and behavioral research.
    As Raymond Orbach, former Under Secretary for Science at the 
Department of Energy for President George W. Bush, noted in a recent 
editorial in Science, ``Other countries, such as China and India, are 
increasing their funding of scientific research because they understand 
its critical role in spurring technological advances and other 
innovations. If the United States is to compete in the global economy, 
it too must continue to invest in research programs.''
    Agency for Healthcare Research and Quality.--Complementing the 
medical research supported by NIH, AHRQ sponsors health services 
research designed to improve the quality of healthcare, decrease 
healthcare costs, and provide access to essential healthcare services 
by translating research into measurable improvements in the healthcare 
system. The AAMC firmly believes in the value of health services 
research as the Nation continues to strive to provide high-quality, 
efficient, and cost-effective healthcare to all of its citizens. The 
AAMC joins the Friends of AHRQ in recommending $405 million for the 
agency in fiscal year 2012.
    As the lead Federal agency to improve healthcare quality, AHRQ's 
overall mission is to support research and disseminate information that 
improves the delivery of healthcare by identifying evidence-based 
medical practices and procedures. The Friends of AHRQ funding 
recommendation will allow AHRQ to continue to support patient-centered 
health research and other valuable research initiatives including 
strategies for translating the knowledge gained from patient-centered 
research into clinical practice, healthcare delivery, and provider and 
patient behaviors. These research findings will better guide and 
enhance consumer and clinical decisionmaking, provide improved 
healthcare services, and promote efficiency in the organization of 
public and private systems of healthcare delivery.
    Health Professions Funding.--The Title VII and VIII health 
professions and nursing education programs are the only Federal 
programs designed to improve the supply, distribution, and diversity of 
the Nation's healthcare workforce. For almost 50 years, Title VII and 
Title VIII have provided education and training opportunities to a wide 
variety of aspiring healthcare professionals, both preparing them for 
careers in the health professions and helping bring healthcare services 
to our rural and underserved communities. Through loans, loan 
guarantees, and scholarships to students, and grants and contracts to 
academic institutions and non-profit organizations, the Title VII and 
Title VIII programs fill the gaps in the supply of health professionals 
not met by traditional market forces. The AAMC supports the fiscal year 
2012 request of $762.5 million for these important workforce programs 
in the upcoming fiscal year.
    Since 1963, the Title VII and Title VIII education and training 
programs have helped the workforce adapt to the evolving healthcare 
needs of the ever-changing American population. In an effort to renew 
and update Titles VII and VIII to meet current workforce challenges, 
the programs were reauthorized in 2010--the first reauthorization in 
the past decade. Reauthorization not only improved the efficiency of 
the Title VII and Title VIII programs, but also laid the groundwork for 
innovative programs with an increased focus on recruiting and retaining 
professionals in underserved communities.
    The AAMC appreciates the Subcommittee's longstanding support of the 
Title VII and Title VIII programs, as well as bipartisan recognition 
that a strong healthcare workforce is essential to the continued health 
and prosperity of the American people, particularly in the face of 
unprecedented existing and looming provider shortages. However, 
recognition alone will not solve the significant disparities between 
the needs of the American people and the number of providers willing 
and able to care for them. To ensure that the Nation's already fragile 
healthcare system is able to care for the expanding elderly population; 
meet the unique needs of the country's sick and ailing children and 
minority populations; and provide essential primary care services to 
the neediest amongst us, it is essential that Congress prioritize the 
healthcare workforce with a strong commitment to the Title VII and 
Title VIII health professions programs in fiscal year 2012.
    In addition to funding for Title VII and Title VIII, HRSA's Bureau 
of Health Professions also supports the Children's Hospitals Graduate 
Medical Education program. This program provides critical Federal 
graduate medical education support for children's hospitals to prepare 
the future primary care workforce for our Nation's children and for 
pediatric specialty care--the greatest workforce shortage in children's 
healthcare. The AAMC has serious concerns about the President's plan to 
eliminate support for this essential program in fiscal year 2012, as 
well as the $48.5 million (15 percent) cut imposed on the program in 
fiscal year 2011. At a time when the Nation faces a critical doctor 
shortage and more Americans are about to enter the health insurance 
system, any cuts to funding that supports physician training will have 
serious repercussions for Americans' health. We strongly urge 
restoration to $317.5 million in fiscal year 2012.
    National Health Service Corps.--The AAMC lauds the commitment of 
the Affordable Care Act to address health professional workforce 
shortages by authorizing up to $535.1 million for the NHSC in fiscal 
year 2012. The NHSC is widely recognized--both in Washington and in the 
underserved areas it helps--as a success on many fronts. It improves 
access to healthcare for the growing numbers of underserved Americans, 
provides incentives for practitioners to enter primary care, reduces 
the financial burden that the cost of health professions education 
places on new practitioners, and helps ensure access to health 
professions education for students from all backgrounds. Over its 39-
year history, the NHSC has offered recruitment incentives, in the form 
of scholarship and loan repayment support, to more than 37,000 health 
professionals committed to serving the underserved.
    In spite of the NHSC's success, demand for health professionals 
across the country remains high. At a field strength of 7,530 in fiscal 
year 2010, the NHSC fell over 24,000 practitioners short of fulfilling 
the need for primary care, dental, and mental health practitioners in 
Health Professions Shortage Areas (HPSAs), as estimate by HRSA. While 
the ``American Recovery and Reinvestment Act of 2009'' (Public Law 111-
5) provided a temporary boost in annual awards, this increase must be 
sustained to help address the health professionals workforce shortage 
and growing maldistribution.
    The AAMC supports the president's fiscal year 2012 budget request 
of $124 million, which returns the NHSC to fiscal year 2008 
discretionary levels. The president's budget also assumes that the NHSC 
has access to $295 million in additional dedicated funding through the 
HHS Secretary's CHC Fund. This additional funding is necessary to 
sustain the increased NHSC field strength and help address current 
health professional workforce shortages. The AAMC further recommends 
that the Subcommittee include report language directing the Secretary 
to provide this enhanced funding for the NHSC over the fiscal year 2008 
level, as directed under healthcare reform.
                                 ______
                                 
 Prepared Statement of the Association of American Veterinary Medical 
                                Colleges

    The Association of American Veterinary Medical Colleges (AAVMC) is 
pleased to submit this statement for the record in support of the 
fiscal year 2012 budget request of $449.5 million for the health 
professions education programs authorized under Title VII of the Public 
Health Service Act and administered through the Health Resources and 
Services Administration (HRSA). AAVMC is also pleased to provide 
comments on the pending transfer of authorities of the National Center 
for Research Resources (NCRR) within the National Institutes of Health 
(NIH).
    AAVMC provides leadership for and promotes excellence in academic 
veterinary medicine to prepare the veterinary workforce with the 
scientific knowledge and skills required to meet societal needs through 
the protection of animal health, the relief of animal suffering, the 
conservation of animal resources, the promotion of public health, and 
the advancement of medical knowledge. AAVMC provides leadership for the 
academic veterinary medical community, including in the United States 
all 28 colleges of veterinary medicine, nine departments of veterinary 
science, eight departments of comparative medicine, two other 
veterinary medical educational institutions; and internationally, all 
five veterinary medical colleges in Canada, eleven international 
colleges of veterinary medicine, and three international affiliate 
colleges of veterinary medicine.
    The Title VII and VIII health professions and nursing programs 
provide education and training opportunities to a wide variety of 
aspiring healthcare professionals, including veterinarians. An 
essential component of the healthcare safety net, the Title VII and 
Title VIII programs are the only Federal programs designed to train 
healthcare providers in interdisciplinary settings to meet the needs of 
the country's special and underserved populations, as well as to 
increase minority representation in the healthcare workforce.
    While we are keenly aware that the Subcommittee continues to face 
difficult decisions as it seeks to improve the Nation's fiscal health, 
a continued Congressional commitment to programs supporting healthcare 
workforce development is essential to the physical health and 
prosperity of the American people.
    The two areas within HRSA of greatest importance to AAVMC members 
are the Public Health Workforce Development programs and Student 
Financial Assistance.
    The Public Health Workforce Development programs are designed to 
increase the number of individuals trained in public health, to 
identify the causes of health problems, and to respond to such issues 
as managed care, new disease strains, food supply, and bioterrorism. 
The Public Health Traineeships and Public Health Training Centers seek 
to alleviate the critical shortage of public health professionals by 
providing up-to-date training for current and future public health 
workers, particularly in underserved areas. The Title VII 
reauthorization reorganized this cluster to include a focus on loan 
repayment as an incentive for public health professionals to practice 
in disciplines and settings experiencing shortages. The Public Health 
Workforce Loan Repayment Program provides loan repayment for public 
health professionals accepting employment with Federal, State, local, 
and tribal public health agencies.
    AAVMC is also working to amend these authorizations so that 
veterinarians engaged in public health are explicitly included and 
prioritized for funding as their counterparts in human medicine and 
dentistry are. On March 8, 2011 the United States House of 
Representatives passed H.R. 525, the Veterinary Public Health 
Amendments Act. AAVMC is eager to see this legislation pass the Senate 
and become law so that the urgent workforce needs of veterinarians 
engaged in public health are fully recognized and supported, as the 
needs of their counterparts in human medicine are.
    The loan programs under Student Financial Assistance support 
financially needy and disadvantaged medical and nursing school students 
in covering the costs of their education The Health Professional 
Student Loan (HPSL) program provides loans covering the cost of 
attendance for financially needy health professions students based on 
institutional determination. The HPSL program is funded out of each 
institution's revolving fund and does not receive Federal 
appropriations. The Loans for Disadvantaged Students program provides 
grants to health professions institutions to make loans to health 
professions students from disadvantaged backgrounds.
    AAVMC would also like to express concern over the pending 
reorganization and possible elimination of NCRR programs over the 
coming fiscal year. We recognize the importance of the NIH's initiative 
to create the National Center for Advancing Translational Sciences 
(NCATS) and welcome the potential benefits to our Nation's health of an 
invigorated focus on translational medicine and therapeutics. AAVMC's 
faculty members are proud of their significant contributions toward 
improving human health through transdisciplinary involvement and 
collaboration in translational research and comparative medicine. The 
support offered by NCRR programs and resources to our institutions and 
faculty have made possible their important contributions to our 
Nation's health.
    To successfully fulfill its mission of accelerating the development 
and delivery of new, more effective therapeutics, NCATS will rely on a 
diverse team of appropriately trained laboratory scientists and 
clinical researchers capitalizing on the development of tools and 
technologies and making discoveries at molecular and cellular levels 
that can be tested and proven in animal-based studies. Although a 
logical and rational argument can be made for including NCRR's Clinical 
and Translational Science Award (CTSA) program, which is designed to 
develop teams of investigators from various fields of research who can 
transform scientific discoveries made in the laboratory into treatments 
and strategies for patients in the clinic, into the new NCATS, the same 
cannot be said for excluding and dismembering other components of NCRR, 
such as animal resources, training programs, and high-end 
instrumentation and technologies which are so critical to NCATS 
mission.
    Further, as indicated in the NCRR Task Force Straw Model, proposing 
to subdivide these other NCRR components disrupts the extant scientific 
synergies that have been demonstrated meritorious to date, and forfeits 
the strategic relationships that have been built between programs over 
the last 20 years. For example, splitting the animal resources into 
different administrative structures erects a bureaucratic obstacle that 
needlessly hinders the flow of basic scientific discoveries made in 
induced genetic mutations in mice to clinically applicable mechanisms-
of-action studied and tested in non-human primates.
    Although it is expected that following this restructuring NCRR will 
no longer exist as a center, a rational consideration would be to 
maintain a large component of NCRR programs together after reassignment 
of the CTSA program within the new NCATS. Those charged with making 
these decisions should be mindful that NCRR's unique, cross-cutting 
programs are and have been successful through careful planning, 
thoughtful leadership, and effective management by its administrative 
and scientific staff, program officers, and officials who understand 
these programs and are most qualified to ensure continued success of 
their respective programs and initiatives.
    We urge members of this committee to examine the issues raised 
above and seek answers from the Administration as you conduct the 
constitutionally mandated responsibility of overseeing Federal agencies 
and their actions, such as the proposed reorganization within NIH.
    Thank you for the opportunity to provide comments on the fiscal 
year 2012 budget for the Department of Health and Human Services. AAVMC 
is please to serve as a resource to Congress as you debate these 
important issues. Please feel free to contact me directly at 202-371-
9195 x. 117 or by writing to <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="caa8b9a7a3bea28aababbca7a9e4a5b8ade4">[email&#160;protected]</a>
                                 ______
                                 
     Prepared Statement of the Association of Independent Research 
                               Institutes

    The Association of Independent Research Institutes (AIRI) 
respectfully submits this written testimony for the record to the 
Senate Appropriations Subcommittee on Labor, Health and Human Services, 
Education and Related Agencies. AIRI appreciates the commitment that 
the members of this Subcommittee have made to biomedical research 
through your strong support for the National Institutes of Health 
(NIH), and recommends that you maintain this support for NIH in fiscal 
year 2012 by providing $31.987 billion for NIH in fiscal year 2012, 
which represents a 3.4 percent increase above the fiscal year 2011 
level.
    AIRI is a national organization of more than 80 independent, non-
profit research institutes that perform basic and clinical research in 
the biological and behavioral sciences. AIRI institutes vary in size, 
with budgets ranging from a few million to hundreds of millions of 
dollars. In addition, each AIRI member institution is governed by its 
own independent board of directors, which allows our members to focus 
on discovery-based research while remaining structurally nimble and 
capable of adjusting their research programs to emerging areas of 
inquiry. Researchers at independent research institutes consistently 
exceed the success rates of the overall NIH grantee pool, and receive 
about 10 percent of NIH's peer-reviewed, competitively awarded 
extramural grants.
    In recent years, Congress has taken important steps to jump start 
the Nation's economy through investments in science. Simultaneously, 
the NIH community is advancing and accelerating the biomedical research 
agenda in this country by focusing on scientific opportunities to 
address public health challenges. However, flat NIH budgets since 2003 
have affected the agency's ability to pursue new, cutting-edge 
opportunities. This funding uncertainty is disruptive to training, 
careers, long-range projects, and ultimately, to research progress. The 
research engine needs a predictable, sustained investment in science to 
maximize the Nation's return.
    Not only is NIH research essential to advancing health, it also 
plays a key economic role in communities nationwide. More than 83 
percent of NIH funding is spent in communities across the Nation, 
creating jobs at more than 3,000 independent research institutions, 
universities, teaching hospitals, and other institutions in every 
State. NIH research also supports long-term competitiveness for 
American workers. NIH funding forms one of the key foundations for 
sustained U.S. global competitiveness in industries like biotechnology, 
medical device and pharmaceutical development, and more.
    Highlighted below are examples of how independent research 
institutes uniquely contribute to the NIH mission and activities.
    Translating Research into Treatments and Therapeutics.--To further 
its primary goal of improving health, NIH is engaged in a significant 
reorganization process focused on advancing translational science. AIRI 
looks forward to collaborating with NIH in this area as independent 
research institutes are particularly adept at translating basic 
discoveries into therapeutics, often partnering with industry. As a 
network of efficient, nimble independent research institutes that have 
been conducting translational research for years, AIRI is well-
positioned to be a strong partner in bringing research from the bench 
to the bedside.
    Currently, over 15 AIRI member institutions are affiliated and 
collaborate with the Clinical and Translational Science Awards (CTSA) 
program. Many AIRI institutes also support research on human embryonic 
stem cells (hESC) with the hope of discovering new and innovative 
disease interventions. However, uncertainty surrounding NIH funding and 
hESC research will hinder the agency's efforts to advance the 
introduction of new, life-saving cures and treatments into the 
marketplace.
    Fostering the Next Generation Scientific Workforce.--The biomedical 
research community is dependent upon a knowledgeable, skilled, and 
diverse workforce to address current and future critical health 
research questions. While the primary function of AIRI member 
institutions is research, most are highly involved in training the next 
generation of biomedical researchers and ensuring that a pipeline of 
promising scientists are prepared to make significant and potentially 
transformative discoveries in a variety of areas.
    AIRI supports policies that promote the United States' ability to 
maintain a competitive edge in biomedical science. Initiatives focusing 
on career development and recruitment of a diverse scientific workforce 
are important to innovation in biomedical research and the public 
health of the Nation. The cultivation and preservation of this 
workforce is dependent upon several factors:
  --The ability to recruit scientists and students globally is 
        essential to maintaining a strong workforce.
  --Training programs both in basic and clinical biomedical research, 
        initiatives focusing on career development, and recruiting a 
        diverse scientific workforce are important to innovation in 
        biomedical research for the benefit of public health.
  --The continued national emphasis on promoting education in the 
        fields of science, technology, engineering, and mathematics 
        (STEM) is key to bolstering the pipeline.
    Pursuing New Knowledge.--The NIH model for conducting biomedical 
research, which involves supporting scientists at universities, medical 
centers, and independent research institutes, provides an effective 
approach to making fundamental discoveries in the laboratory that can 
be translated into medical advances that save lives. Moreover, efforts 
to expand the knowledge base in medical and associated sciences bolster 
the Nation's economic well-being and ensure a continued high return on 
the public investment in research.
    AIRI member institutions are private, stand-alone research centers 
that set their sights on the vast frontiers of medical science, 
specifically focused on pursuing knowledge about the biology and 
behavior of living systems and the application of that knowledge to 
improve human life and reduce the burdens of illness and disability. 
Additionally, AIRI member institutes have embraced technologies and 
research centers to collaborate on biological research for all 
diseases. Using advanced technology platforms or ``cores,'' AIRI 
researchers use genomics, imaging, and other broad-based technologies 
to advance therapeutics development and drug discovery.
    Providing Efficiency and Flexibility.--AIRI member institutes' 
small size and flexibility provide an environment that is particularly 
conducive to creativity and innovation. Independent research institutes 
possess a unique versatility and culture that encourages them to share 
expertise, information, and equipment across all research institutions 
and elsewhere. These collaborative activities help minimize bureaucracy 
and increase efficiency, allowing for fruitful partnerships with 
entities in a variety of disciplines and industries. Also, unlike 
institutes of higher education, independent research institutes are 
able to focus solely on scientific inquiry and discoveries, allowing 
them to respond quickly to the research needs of the country.
    Supporting Local Economies.--AIRI is unique from other biomedical 
research organizations in that our membership consists of institutions 
located in regions not traditionally associated with cutting-edge 
research. AIRI members are located in 25 States, including many smaller 
or less-populated States that do not have major academic research 
institutions. In many of these regions, independent research institutes 
are major employers and economic engines, and exemplify the positive 
impact of investing in research and science.
    AIRI thanks the Subcommittee for its important work dedicated to 
ensuring the health of the Nation, and we appreciate this opportunity 
to urge the Subcommittee to provide $31.987 billion for NIH in the 
fiscal year 2012 appropriations bill. AIRI looks forward to working 
with Congress to support research that improves the health and quality 
of life for all Americans.
                                 ______
                                 
   Prepared Statement of the Association of Maternal & Child Health 
                                Programs

    Chairman Harkin and distinguished subcommittee members: On behalf 
of the Association of Maternal & Child Health Programs (AMCHP), I am 
pleased to submit testimony describing AMCHP's request for $700 million 
in funding for fiscal year 2012 for the Title V Maternal and Child 
Health Services block grant, a 5 percent increase over fiscal year 
2010. The Maternal and Child Health (MCH) Services Block Grant supports 
a wide range of programs that meet State and locally determined needs. 
In 2008, over 40 million individuals were served by maternal and child 
health programs supported through the MCH Services Block Grant.
    AMCHP did not develop this request lightly and our members are very 
cognizant of the many important and urgent discussions about reducing 
the Federal deficit and Government spending. However, we strongly 
contend that with the recent economic downturn and increased need to 
provide services to vulnerable populations a $700 million request is 
worthy of serious consideration by the Committee.
    The MCH Services Block Grant provides support and services to 
millions of American women, infants and children, including children 
with special healthcare needs. It has been proven a cost effective, 
value-based, and flexible funding source used to address the most 
pressing and unique needs of each State. States and jurisdictions use 
the MCH Services Block Grant to design and implement a wide range of 
maternal and child health programs that meet national and State needs. 
Although specific initiatives may vary among the 59 States and 
jurisdictions, all of them work to accomplish the following:
  --Reduce infant mortality and incidence of disabling conditions among 
        children;
  --Increase the number of children appropriately immunized against 
        disease;
  --Increase the number of children in low-income households who 
        receive assessments and follow-up diagnostic and treatment 
        services;
  --Provide and ensure access to comprehensive perinatal care for 
        women; preventative and child care services; comprehensive 
        care, including long-term care services, for children with 
        special healthcare needs; and rehabilitation services for blind 
        and disabled children; and
  --Facilitate the development of comprehensive, family centered, 
        community-based, culturally competent, coordinated systems of 
        care for children with special healthcare needs.
    The MCH Services Block Grant improves the health of America's women 
and children by:
  --Supporting programs that work. The MCH Services Block Grant earned 
        the highest program rating by the Office of Management and 
        Budget's (OMB) Program Assessment Rating Tool (PART). OMB found 
        that MCH Services Block Grant funded programs helped to 
        decrease the infant mortality rate, prevent disabling 
        conditions, increase the number of children immunized, increase 
        access to care for uninsured children, and improve the overall 
        health of mothers and children. Reduced MCH Services Block 
        Grant funding threatens the ability of these programs to carry 
        on this work. Our results are available to the public through a 
        national website known as the Title V Information System. Such 
        a transparent system is remarkably rare for a Federal program 
        and we are proud of the progress we have made in demonstrating 
        results.
  --Addressing the growing health needs of women, children and 
        families. As States face economic hardships and face limits on 
        their Medicaid and CHIP programs, more women and children seek 
        care and preventive services through MCH Services Block Grant 
        funded programs. Resources are needed to reduce infant 
        mortality, provide a range of preventive health and early 
        intervention services to those in need, improve oral 
        healthcare, reach more children and youth with special 
        healthcare needs, and reduce racial disparities in healthcare.
  --Supporting and integrating other federally funded programs such as 
        Community Health Centers, Healthy Start, WIC, CHIP and 
        Medicaid. The MCH Services Block Grant helps identify areas of 
        need in a State and works with all State and Federal programs 
        to complement healthcare services and promote disease 
        prevention for women, children, and families.
    To help illustrate the importance of MCH Services Block Grant 
funding I would like to share Michelle's story. Michelle is a young 
girl from Iowa who was helped by Iowa's MCH Services Block Grant 
supported programs.
    Katrina is the mother of Michelle, an energetic, 10 year old girl 
from Spencer, Iowa who loves listening to music, riding and playing 
with horses. While enrolling her daughter into school, Katrina got a 
``mother's feeling'' that something just wasn't quite right with her 
daughter and despite the family pediatrician telling her that there was 
nothing wrong, she reached out to the Child Health Specialty Clinic 
(CHSC) in Sioux City for help. It was at that Title V funded clinic 
that it was discovered by a professional geneticist that her child was 
suffering from Phelan-McDermid Syndrome (PMS). PMS is caused by damage 
to, or deletion of, specific genes and impacts normal childhood 
development. Frequently, individuals with PMS have intellectual 
disabilities along with little or no expressive language and often 
there can be a large variety of moderate and even some severe physical 
disabilities.
    Because of the proper diagnosis from the geneticist at the 
specialty clinic, Katrina is able to get her daughter proper physical 
rehabilitation treatments twice a week from her local hospital back 
home in Spencer. A diagnosis of this kind could not have been found 
without the aid of CHSC staff and the clinic in Sioux City, which along 
with all Iowan CHSC clinics, are funded by the Title V Maternal & Child 
Health Block Grant. Title V is so valuable because CHSC clinics provide 
direct clinical services to children when services are not readily 
available in the community. CHSC clinics also provide care 
coordination, family support and infrastructure building, all in an 
effort to continue to improve healthcare for children and families 
across the entire state.
    Thanks to Child Health Specialty Clinics, Iowan families are able 
to receive testing and diagnosis that they can find nowhere else. Not 
only are the people at these clinics determined to help children 
medically, they also make a point to get to know the children on a 
personal level. Katrina describes the people at the clinic by stating: 
``They know each and every child when they arrive, and they truly love 
the kids they see.'' If you were to ask Katrina how she felt about 
Iowa's Title V funded specialty clinics she wouldn't shy away from 
telling you that, ``They help so much. The people there really do 
care.''
    The MCH Services Block Grant supports a similar network in every 
State and none of this could happen without the MCH Services Block 
Grant. We hope that all our Nation's citizens are as proud as Katrina 
because of the work of MCH Services Block Grant supported programs and 
professionals.
    America has made huge strides in advancing the health of women and 
children but our country faces huge challenges in improving maternal 
and child health outcomes and addressing the needs of vulnerable 
children. On the sentinel measures of how well our society is doing to 
protect women and children we compare badly to other industrialized 
countries. Today, the United States ranks 30th in infant mortality 
rates and 41st in maternal mortality. Sadly, every 18 minutes a baby in 
America dies before his or her first birthday and each day in America 
we lose 12 babies due to a Sudden Unexpected Infant Death. There are 
places in this country where the African-American infant mortality rate 
is double, and in some places even triple, the rate for whites. 
Preventable injuries remain the leading cause of death for all 
children. Nationwide we still fail to adequately screen all young 
children for developmental concerns, and childhood obesity has reached 
epidemic proportions threatening to reverse a century of progress in 
extending life expectancy to our Nation's very future.
    Without adequate funding MCH Services Block Grant programs will be 
overwhelmed by the mismatch between State needs and available 
resources. AMCHP members ask for your leadership in making the 
important decision to fund the MCH Services Block Grant at $700 million 
for fiscal year 2012. State maternal and child health programs have a 
long track record of demonstrating our positive impact on MCH outcomes 
and are fully accountable for the funds that we receive. Maintaining 
vital funding for the MCH Services Block Grant is an effective and 
efficient way to support our Nation's women, children, and families.
    In closing Mr. Chairman and distinguished members, I ask you to 
imagine with me an America in which every child has the opportunity to 
live until his or her first birthday; a Nation where our Federal and 
State partnership has effectively moved the needle on our most pressing 
maternal and child health issues such as infant mortality. Imagine all 
American parents being as proud as Katrina. Imagine a day when we are 
celebrating significant reductions or even the total elimination of 
health disparities by creatively solving our most urgent maternal and 
child health challenges.
    The MCH Services Block Grant aims to do just that using resources 
effectively to improve the health of all of America's women and 
children. Supporting the MCH Services Block Grant is a cost-effective 
investment in our Nation's future. We appreciate you support and 
leadership in funding it at $700 million for Federal fiscal year 2012.
    Thank you.
                                 ______
                                 
 Prepared Statement of the Association of Minority Health Professions 
                                Schools

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present my views before you today. I am Dr. Wayne J. 
Riley, Chairman of the Board of Directors of the Association of 
Minority Health Professions Schools (AMHPS) and the President and Chief 
Executive Officer of Meharry Medical College. AMHPS, established in 
1976, is a consortium of our Nation's 12 historically black medical, 
dental, pharmacy, and veterinary schools. The members are two dental 
schools at Howard University and Meharry Medical College; four schools 
of medicine at The Charles Drew University, Howard University, Meharry 
Medical College, and Morehouse School of Medicine; five schools of 
pharmacy at Florida A&M University, Hampton University, Howard 
University, Texas Southern University, and Xavier University; and one 
school of veterinary medicine at Tuskegee University. In all of these 
roles, I have seen firsthand the importance of minority health 
professions institutions and the Title VII Health Professions Training 
programs.
    Mr. Chairman, I want to welcome you to this new role of leading the 
L-HHS Subcommittee. I speak for our institutions, when I say that the 
minority health professions institutions and the Title VII Health 
Professionals Training programs address a critical national need. 
Persistent and severe staffing shortages exist in a number of the 
health professions, and chronic shortages exist for all of the health 
professions in our Nation's most medically underserved communities. 
Furthermore, even after the landmark passage of health reform, it is 
important to note that our Nation's health professions workforce does 
not accurately reflect the racial composition of our population. For 
example while blacks represent approximately 15 percent of the U.S. 
population, only 2-3 percent of the Nation's health professions 
workforce is black. Mr. Chairman, I would like to share with you how 
your committee can help AMHPS continue our efforts to help provide 
quality health professionals and close our Nation's health disparity 
gap.
    There is a well established link between health disparities and a 
lack of access to competent healthcare in medically underserved areas. 
As a result, it is imperative that the Federal Government continue its 
commitment to minority health profession institutions and minority 
health professional training programs to continue to produce healthcare 
professionals committed to addressing this unmet need--even in austere 
financial times.
    An October 2006 study by the Health Resources and Services 
Administration (HRSA), entitled ``The Rationale for Diversity in the 
Health Professions: A Review of the Evidence'' found that minority 
health professionals serve minority and other medically underserved 
populations at higher rates than non-minority professionals. The report 
also showed that; minority populations tend to receive better care from 
practitioners who represent their own race or ethnicity, and non-
English speaking patients experience better care, greater 
comprehension, and greater likelihood of keeping follow-up appointments 
when they see a practitioner who speaks their language. Studies have 
also demonstrated that when minorities are trained in minority health 
profession institutions, they are significantly more likely to: (1) 
serve in rural and urban medically underserved areas, (2) provide care 
for minorities and (3) treat low-income patients.
    As you are aware, Title VII Health Professions Training programs 
are focused on improving the quality, geographic distribution and 
diversity of the healthcare workforce in order to continue eliminating 
disparities in our Nation's healthcare system. These programs provide 
training for students to practice in underserved areas, cultivate 
interactions with faculty role models who serve in underserved areas, 
and provide placement and recruitment services to encourage students to 
work in these areas. Health professionals who spend part of their 
training providing care for the underserved are up to 10 times more 
likely to practice in underserved areas after graduation or program 
completion.
    In fiscal year 2012, funding for the Title VII Health Professions 
Training programs must at the very least be maintained, especially the 
funding for the Minority Centers of Excellence (COEs) and Health 
Careers Opportunity Program (HCOPs). In addition, the funding for the 
National Institutes of Health (NIH)'s National Institute on Minority 
Health and Health Disparities (NIMHD), as well as the Department of 
Health and Human Services (HHS)'s Office of Minority Health (OMH), 
should be preserved.
    Minority Centers of Excellence.--COEs focus on improving student 
recruitment and performance, improving curricula in cultural 
competence, facilitating research on minority health issues and 
training students to provide health services to minority individuals. 
COEs were first established in recognition of the contribution made by 
four historically black health professions institutions to the training 
of minorities in the health professions. Congress later went on to 
authorize the establishment of ``Hispanic'', ``Native American'' and 
``Other'' Historically black COEs. For fiscal year 2012, I recommend a 
funding level of $24.602 million for COEs.
    Health Careers Opportunity Program (HCOP).--HCOPs provide grants 
for minority and non-minority health profession institutions to support 
pipeline, preparatory and recruiting activities that encourage minority 
and economically disadvantaged students to pursue careers in the health 
professions. Many HCOPs partner with colleges, high schools, and even 
elementary schools in order to identify and nurture promising students 
who demonstrate that they have the talent and potential to become a 
health professional. For fiscal year 2012, I recommend a funding level 
of $22.133 million for HCOPs.

National Insitutes of Health
    Research Centers at Minority Institutions.--The Research Centers at 
Minority Institutions program (RCMI), currently administered by the 
National Center for Research Resources, has a long and distinguished 
record of helping our institutions develop the research infrastructure 
necessary to be leaders in the area of health disparities research. 
Although NIH has received unprecedented budget increases in recent 
years, funding for the RCMI program has not increased by the same rate. 
Therefore, the funding for this important program grow at the same rate 
as NIH overall in fiscal year 2012.
    National Institute on Minority Health and Health Disparities.--The 
National Institute on Minority Health and Health Disparities (NIMHD) is 
charged with addressing the longstanding health status gap between 
minority and nonminority populations. The NIMHD helps health 
professions institutions to narrow the health status gap by improving 
research capabilities through the continued development of faculty, 
labs, and other learning resources. The NIMHD also supports biomedical 
research focused on eliminating health disparities and develops a 
comprehensive plan for research on minority health at the NIH. 
Furthermore, the NIMHD provides financial support to health professions 
institutions that have a history and mission of serving minority and 
medically underserved communities through the Centers of Excellence 
program. For fiscal year 2012, I recommend funded increases 
proportional with the funding of the over NIH.

Department of Health and Human Services
    Office of Minority Health.--Specific programs at OMH include: 
assisting medically underserved communities with the greatest need in 
solving health disparities and attracting and retaining health 
professionals; assisting minority institutions in acquiring real 
property to expand their campuses and increase their capacity to train 
minorities for medical careers; supporting conferences for high school 
and undergraduate students to interest them in healthcareers, and 
supporting cooperative agreements with minority institutions for the 
purpose of strengthening their capacity to train more minorities in the 
health professions.
    The OMH has the potential to play a critical role in addressing 
health disparities. For fiscal year 2012, I recommend a funding level 
of $65 million for the OMH.

Department of Education
    Strengthening Historically Black Graduate Institutions.--The 
Department of Education's Strengthening Historically Black Graduate 
Institutions (HBGI) program (Title III, Part B, Section 326) is 
extremely important to AMHPS. The funding from this program is used to 
enhance educational capabilities, establish and strengthen program 
development offices, initiate endowment campaigns, and support numerous 
other institutional development activities. In fiscal year 2012, an 
appropriation of $65 million is suggested to continue the vital support 
that this program provides to historically black graduate institutions.
    Mr. Chairman, please allow me to express my appreciation to you and 
the members of this subcommittee. With your continued help and support, 
AMHPS' member institutions and the Title VII Health Professions 
Training programs and the historically black health professions schools 
can help this country to overcome health disparities. Congress must be 
careful not to eliminate, paralyze or stifle the institutions and 
programs that have been proven to work. The Association seeks to close 
the ever widening health disparity gap. If this subcommittee will give 
us the tools, we will continue to work towards the goal of eliminating 
that disparity everyday.
    Thank you, Mr. Chairman, and I welcome every opportunity to answer 
questions for your records.
                                 ______
                                 
  Prepared Statement of the Association of Public Television Stations

    On behalf of America's 361 public television stations, we 
appreciate the opportunity to submit testimony for the record on the 
importance of Federal funding for local public television stations.
Corporation for Public Broadcasting--Fiscal Year 2014 Request: $495 

        MILLION, 2-YEAR ADVANCE FUNDED

    More than 40 years after the inception of public television, local 
stations continue to serve as the treasured cultural institutions 
envisioned by their founders, reaching America's local communities with 
unsurpassed programming and services.
    Public broadcasting serves the public good--in education, public 
affairs, public safety, cultural affairs and many other areas--and 
richly deserves public support. The overwhelming majority of Americans 
agree. In a recent bi-partisan poll conducted by Hart Research 
Associates/American Viewpoint, nearly 70 percent of American voters, 
including majorities of self-identifying Democrats, Independents, and 
Republicans, support continued Federal funding for public broadcasting. 
In addition, the same poll shows that Americans consider PBS to be the 
second most appropriate expenditure of public funds, behind only 
national defense. Federal support for CPB and local public television 
stations has resulted in a nationwide system of locally owned and 
controlled, trusted, community-driven and community responsive media 
entities.
    Furthermore, the power of digital technology has enabled stations 
to greatly expand their delivery platforms to reach Americans where 
they are increasingly consuming media--online and on-demand--in 
addition to on-air. At the same time that stations are expanding their 
services and the impact they have in their communities, stations are 
also facing unprecedented funding challenges--presenting them with the 
greatest financial hurdles in their 40 year history. Every revenue 
source upon which our operations depend is under tremendous pressure. 
State funding support is in a wholesale free-fall. Despite serving as a 
long-time example of the incredible work that can be accomplished by a 
public-private partnership, this model is in peril as the current 
economic climate has put immense pressure on private funding sources. 
Continued Federal support for public broadcasting is more important now 
than ever before.
    More than 70 percent of funding appropriated to CPB reaches local 
stations in the form of Community Service Grants (CSGs). On average, 
Federal spending makes up approximately 15 percent of local television 
station's budgets. However, for many smaller and rural stations, 
Federal funding represents more than 30-50 percent (and in a handful of 
instances, an even larger percentage) of their total budget. For all 
stations, this Federal funding is the ``lifeblood'' of public 
broadcasting, providing critical seed money to local stations which 
leverage each $1 of the Federal investment to raise over $6 from state 
legislatures, private foundations and their viewers.
    Funding through CPB is absolutely essential to public television 
stations. Stations rely on the Federal investment to develop local 
programming, operate their facilities, pay their employees and provide 
community resources on-air, on-line and on-the-ground. This funding is 
particularly important to rural stations who struggle to raise local 
funds from individual donors due to the smaller and often economically 
strained population base. At the same time it is often more costly to 
serve rural areas due to the topography and distances between 
communities.
    A 2007 GAO report concluded that Federal funding, such as CSGs, is 
an irreplaceable source of revenue, and that ``substantial growth of 
nonFederal funding appears unlikely.'' It also found that ``cuts in 
Federal funding could lead to a reduction in staff, local programming 
or services.''
    At an annual cost of about $1.39 per year for each American, public 
broadcasting is a smart investment. This successful public-private 
partnership creates important economic activity while providing an 
essential educational and cultural service. Public broadcasting 
directly supports over 21,000 jobs, and of the vast majority of them 
are in local public television and radio stations in hundreds of 
communities across America.
    In addition, the advent of digital technology has created enormous 
potential for stations, allowing them to bring content to Americans in 
new, innovative ways while retaining our public service mission. Public 
television stations are now utilizing a wide array of digital tools to 
expand their current roles as educators, local conveners and vital 
sources of trusted information at a time when their communities need 
them most.
    For example, in an effort to confront the dropout crisis in 
America's high schools, CPB has just announced a significant investment 
and partnership with local stations and their communities to address 
this daunting problem that could have disastrous effects on America's 
future if it is not soon addressed. Together with schools and 
organizations that are already addressing the dropout crisis, the 
stations will provide their resources and services to raise awareness, 
coordinate action with community partners, and work directly with 
students, parents, teachers, mentors, volunteers and leaders to lower 
the drop-out rate in their respective communities.
    In order for our stations to continue playing this vital role in 
their communities, APTS and PBS respectfully request $495 million for 
CPB, two-year advance funded for fiscal year 2014.
    Advance funding is essential to the mission of public broadcasting. 
This longstanding practice, which was enacted by President Ford in 
1976, allows stations the ability to maximize fundraising efforts to 
leverage the promise of Federal dollars for local impact--ensuring the 
continuation of this strong public-private partnership. The 2-year 
advance funding mechanism also gives stations critical lead time needed 
to plan and produce high-quality programs. Additionally, the 2-year 
advance funding mechanism insulates programming decisions from 
political influence, as President Ford and the Congress intended in 
their initial proposal for advance funding.

Ready To Learn--Fiscal Year 2012 Request: $27.3 million (Department of 
        Education)
    The Ready to Learn Television program's success in improving 
children's literacy and preparing them for school is proven and 
unquestioned.
    Ready To Learn combines the power of public media's on-air and 
online educational content with on-the-ground local station community 
engagement to build the reading skills of children between the ages of 
two and eight, especially those from low-income families or those most 
lacking reading skills.
    Over the last 5 years, 60 independent studies have proven the 
effectiveness of the Ready To Learn approach. For example, in one study 
pre-schoolers who were exposed to a curriculum composed of programming 
and interactive games from top Ready To Learn programs, including SUPER 
WHY!, Between the Lions and Sesame Street, outscored children who 
received a comparison (science) curriculum in all five measures of 
early literacy.
    In addition to being research-based and teacher tested, the Ready 
To Learn Television program also provides excellent value for our 
Federal dollars. In the last five-year grant round, public broadcasting 
leveraged an additional $50 million in funding to augment the $73 
million investment by the Department of Education for content 
production. Without the investment of the Federal Government, this 
supplemental investment would likely end.
    The President's budget proposes consolidating public broadcasting's 
signature early education initiative, the Ready To Learn Television 
program, into a larger grant program. APTS and PBS are concerned that 
the consolidation of this program could lead to, at worst, the 
elimination of this critical program that has been the driving force 
behind the creation of public television's unparalleled children's 
educational programming. At best, the proposed budget would remove the 
mechanisms that have provided for the tremendously efficient and 
effective nature in which the Ready To Learn Television program has 
successfully operated.
    Consolidation or elimination of the Ready To Learn Television 
program would severely affect the ability of local stations to respond 
to their communities' educational needs, removing the needed resources 
provided by this program for children, parents and teachers.
    Ready To Learn is public television. This program is a shining 
example of a public-private partnership as Federal funds are leveraged 
to create the most popular and impactful children's educational content 
that is supplemented by on-line and on-the-ground resources. Without 
the Ready To Learn Television program, millions of families would lose 
access to this incredible high-quality education content, especially 
low-income and underserved households for whom this program is 
targeted.
    We urge the Committee to maintain the Ready To Learn Television 
program as a stable line-item in the fiscal year 2012 budget and resist 
the calls for consolidation. APTS and PBS respectfully request level 
funding of $27.3 million for the Ready To Learn Television program in 
fiscal year 2012.

CPB Digital Funding--Fiscal Year 2012 Request: $36 million
    Public television stations have been at the forefront of the 
digital transition, embracing the technology early and recognizing its 
benefits to their viewers. Fortunately, Congress wisely recognized that 
the federally mandated transition to digital broadcast would place a 
hardship on public television's limited resources. Since 2001, Congress 
has provided public television stations with funds to ensure that they 
have the ability to continue to meet their public service mission and 
deliver the highest quality educational, cultural and public affairs 
programming post-transition.
    Although the federally mandated portion of the transition is 
complete, what remains to be finished is the ability of stations to 
fully replicate their analog services in digital. As stations have 
completed the transition of their main transmitters, they will continue 
to convert their master controls, digital storage equipment and other 
studio equipment--necessary to produce and distribute local educational 
programming. The CPB Digital program is also critical to providing 
funds that can be invested in interactive public media that maximizes 
investments in digital infrastructure--including such content 
investments as the American Archive.
    Public television has used this new public digital spectrum to 
maximize programming choices by offering an array of new channel 
options, including the national offerings of Vme (the first 24-hour, 
Spanish-language, educational channel), World, and Create.
    More importantly, stations have also used these multicast 
capabilities to expand their local offerings with digital channels 
dedicated to community or State-focused programming. Some stations have 
even utilized this technology to provide gavel-to-gavel coverage of 
their State legislatures. In addition, digital broadcasting has enabled 
stations to double the amount of noncommercial, children's educational 
programming offered to the American public.
    APTS and PBS respectfully request $36 million in CPB Digital 
funding for fiscal year 2012 to enable stations to fully leverage this 
groundbreaking technology.
                                 ______
                                 
     Prepared Statement of the Association of Rehabilitation Nurses

Introduction
    On behalf of the Association of Rehabilitation Nurses (ARN), I 
appreciate having the opportunity to submit written testimony to the 
Senate L-HHS Appropriations Subcommittee regarding funding for nursing 
and rehabilitation related programs in fiscal year 2012. ARN represents 
more than 5,700 Registered Nurses (RNs) who work to enhance the quality 
of life for those affected by physical disability and/or chronic 
illness. ARN understands that Congress has many concerns and limited 
resources, but believes that chronic illnesses and physical 
disabilities are heavy burdens on our society that must be addressed.

Rehabilitation Nurses and Rehabilitation Nursing
    Rehabilitation nurses help individuals affected by chronic illness 
and/or physical disability adapt to their condition, achieve their 
greatest potential, and work toward productive, independent lives. They 
take a holistic approach to meeting patients' nursing and medical, 
vocational, educational, environmental, and spiritual needs. 
Rehabilitation nurses begin to work with individuals and their families 
soon after the onset of a disabling injury or chronic illness. They 
continue to provide support and care, including patient and family 
education, which empowers these individuals when they return home, or 
to work, or school. The rehabilitation nurse often teaches patients and 
their caregivers how to access systems and resources.
    Rehabilitation nursing is a philosophy of care, not a work setting 
or a phase of treatment. These nurses base their practice on 
rehabilitative and restorative principles by: (1) managing complex 
medical issues; (2) collaborating with other specialists; (3) providing 
ongoing patient/caregiver education; (4) setting goals for maximum 
independence; and (5) establishing plans of care to maintain optimal 
wellness. Rehabilitation nurses practice in all settings, including 
freestanding rehabilitation facilities, hospitals, long-term subacute 
care facilities/skilled nursing facilities, long-term acute care 
facilities, comprehensive outpatient rehabilitation facilities, home 
health, and private practices, just to name a few.
    With the Affordable Care Act's focus on creating a system that will 
increase access to quality care, emphasize prevention, and decrease 
cost, it is critical that a substantial investment be made in the 
nursing workforce programs and in the scientific research that provides 
the basis for nursing practice. To ensure that patients receive the 
best quality care possible, ARN supports Federal programs and research 
institutions that address the national nursing shortage and conduct 
research focused on nursing and medical rehabilitation, e.g., traumatic 
brain injury. Therefore, ARN respectfully requests that the 

Subcommittee provide increased funding for the following programs:
            Nursing Workforce and Development Programs at the Health 
                    Resources and Services Administration (HRSA)
    ARN supports efforts to resolve the national nursing shortage, 
including appropriate funding to address the shortage of qualified 
nursing faculty. Rehabilitation nursing requires a high-level of 
education and technical expertise, and ARN is committed to assuring and 
protecting access to professional nursing care delivered by highly-
educated, well-trained, and experienced Registered Nurses (RNs) for 
individuals affected by chronic illness and/or physical disability.
    According to the Health Resources and Services Administration 
(HRSA), in 2010, our healthcare workforce experienced a shortage of 
more than 400,000 nurses.\1\ The demand for nurses will continue to 
grow as the baby-boomer population ages, nurses retire, and the need 
for healthcare intensifies. Implementation of the new health reform law 
will also increase the need for a well-trained and highly skilled 
nursing workforce. The Institute of Medicine has released 
recommendations on how to help the nursing workforce to meet these new 
demands, but we are destined to fall short of these lofty goals if 
there are not enough nurses to facilitate change.
---------------------------------------------------------------------------
    \1\ http://bhpr.hrsa.gov/healthworkforce/reports/nursing/
rnbehindprojections/4.htm.
---------------------------------------------------------------------------
    According to the U.S. Bureau of Labor Statistics, nursing is the 
Nation's top profession in terms of projected job growth, with more 
than 581,500 new nursing positions being created through 2018.\2\ These 
positions are in addition to the existing jobs that healthcare 
employers have not been able to fill. Educating new nurses to fill 
these gaping vacancies is a great way to put Americans back to work and 
simultaneously enhance an ailing healthcare system.
---------------------------------------------------------------------------
    \2\ http://www.bls.gov/oco/ocos083.htm#outlook.
---------------------------------------------------------------------------
    ARN strongly supports the national nursing community's request of 
$313.075 million in fiscal year 2012 funding for Federal Nursing 

Workforce Development programs at HRSA.
            National Institute on Disability and Rehabilitation 
                    Research (NIDRR)
    The National Institute on Disability and Rehabilitation Research 
(NIDRR) provides leadership and support for a comprehensive program of 
research related to the rehabilitation of individuals with 
disabilities. As one of the components of the Office of Special 
Education and Rehabilitative Services at the U.S. Department of 
Education, NIDRR operates along with the Rehabilitation Services 
Administration and the Office of Special Education Programs.
    The mission of NIDRR is to generate new knowledge and promote its 
effective use to improve the abilities of people with disabilities to 
perform activities of their choice in the community, and also to expand 
society's capacity to provide full opportunities and accommodations for 
its citizens with disabilities. NIDRR conducts comprehensive and 
coordinated programs of research and related activities to maximize the 
full inclusion, social integration, employment and independent living 
of individuals of all ages with disabilities. NIDRR's focus includes 
research in areas such as: employment, health and function, technology 
for access and function, independent living and community integration, 
and other associated disability research areas.
    ARN strongly supports the work of NIDRR and encourages Congress to 
provide the maximum possible fiscal year 2012 funding level.

            National Institute of Nursing Research (NINR)

    ARN understands that research is essential for the advancement of 
nursing science, and believes new concepts must be developed and tested 
to sustain the continued growth and maturation of the rehabilitation 
nursing specialty. The National Institute of Nursing Research (NINR) 
works to create cost-effective and high-quality healthcare by testing 
new nursing science concepts and investigating how to best integrate 
them into daily practice. Through grants, research training, and 
interdisciplinary collaborations, NINR addresses care management of 
patients during illness and recovery, reduction of risks for disease 
and disability, promotion of healthy lifestyles, enhancement of quality 
of life for those with chronic illness, and care for individuals at the 
end of life. NINR's broad mandate includes seeking to prevent and delay 
disease and to ease the symptoms associated with both chronic and acute 
illnesses. NINR's recent areas of research focus include the following: 
End of life and palliative care in rural areas; research in multi-
cultural societies; bio-behavioral methods to improve outcomes 
research; and increasing health promotion through comprehensive 
studies.
    ARN respectfully requests $163 million in fiscal year 2012 funding 
for NINR to continue its efforts to address issues related to chronic 
and acute illnesses.

            Traumatic Brian Injury (TBI)

    According to the Brain Injury Association of America, 1.7 million 
people sustain a traumatic brain injury (TBI) each year.\3\ This figure 
does not include the 150,000 cases of TBI suffered by soldiers 
returning from wars in Afghanistan and conflicts around the world.
---------------------------------------------------------------------------
    \3\ http://www.biausa.org/living-with-brain-injury.htm.
---------------------------------------------------------------------------
    The annual national cost of providing treatment and services for 
these patients is estimated to be nearly $60 million in direct care and 
lost workplace productivity. Continued fiscal support of the Traumatic 
Brain Injury Act will provide critical funding needed to further 
develop research and improve the lives of individuals who suffer from 
traumatic brain injury.
    Continued funding of the TBI Act will promote sound public health 
policy in brain injury prevention, research, education, treatment, and 
community-based services, while informing the public of needed support 
for individuals living with TBI and their families.
    ARN strongly supports the current work being done by the Centers 
for Disease Control and Prevention (CDC) and HRSA on TBI programs. 
These programs contribute to the overall body of knowledge in 
rehabilitation medicine.
    ARN urges Congress to support the following fiscal year 2012 
funding requests for programs within the TBI Act: $10 million for CDC's 
TBI registries and surveillance, prevention and national public 
education and awareness efforts; $8 million for the HRSA Federal TBI 
State Grant Program; and $4 million for the HRSA Federal TBI Protection 
and Advocacy Systems Grant Program.

Conclusion
    ARN appreciates the opportunity to share our priorities for fiscal 
year 2012 funding levels for nursing and rehabilitation programs. ARN 
maintains a strong commitment to working with Members of Congress, 
other nursing and rehabilitation organizations, and other stakeholders 
to ensure that the rehabilitation nurses of today continue to practice 
tomorrow. By providing the fiscal year 2012 funding levels detailed 
above, we believe the Subcommittee will be taking the steps necessary 
to ensure that our Nation has a sufficient nursing workforce to care 
for patients requiring rehabilitation from chronic illness and/or 
physical disability.
                                 ______
                                 
     Prepared Statement of the Brain Injury Association of America

    Thank you for the opportunity to submit this written testimony with 
regard to the fiscal year 2012 Labor-HHS-Education appropriations bill. 
My testimony is on behalf of the Brain Injury Association of America 
(BIAA), our national network of State affiliates, and hundreds of local 
chapters and support groups from across the country.
    In the civilian population alone every year, more than 1.7 million 
people sustain brain injuries from falls, car crashes, assaults and 
contact sports. Males are more likely than females to sustain brain 
injuries. Children, teens and seniors are at greatest risk.
    Recently, we are seeing an increasing number of service members 
returning from the conflicts in Iraq and Afghanistan with TBI, which 
has been termed one of the signature injuries of the war. Many of these 
returning service members are undiagnosed or misdiagnosed and 
subsequently they and their families will look to community and local 
resources for information to better understand TBI and to obtain vital 
support services to facilitate successful reintegration into the 
community.
    For the past 13 years Congress has provided minimal funding through 
the HRSA Federal TBI Program to assist States in developing services 
and systems to help individuals with a range of service and family 
support needs following their loved one's brain injury. Similarly, the 
grants to State Protection and Advocacy Systems to assist individuals 
with traumatic brain injuries in accessing services through education, 
legal and advocacy remedies are woefully underfunded. Rehabilitation, 
community support and long-term care systems are still developing in 
many States, while stretched to capacity in others. Additional numbers 
of individuals with TBI as the result of war-related injuries only adds 
more stress to these inadequately funded systems.
    BIAA respectfully urges you to provide States with the resources 
they need to address both the civilian and military populations who 
look to them for much needed support in order to live and work in their 
communities.
    With broader regard to all of the programs authorized through the 
TBI Act, BIAA specifically requests:
  --$10 million (+$4 million) for the Centers for Disease Control and 
        Prevention TBI Registries and Surveillance, Brain Injury Acute 
        Care Guidelines, Prevention and National Public Education/
        Awareness
  --$8 million (+$1 million) for the Health Resources and Services 
        Administration (HRSA) Federal TBI State Grant Program
  --$4 million (+$1 million) for the HRSA Federal TBI Protection & 
        Advocacy (P&A) Systems Grant Program
    CDC--National Injury Center.--The Centers for Disease Control and 
Prevention's National Injury Center is responsible for assessing the 
incidence and prevalence of TBI in the United States. The CDC estimates 
that 1.7 million TBIs occur each year and 3.4 million Americans live 
with a life-long disability as a result of TBI. In addition, the TBI 
Act as amended in 2008 requires the CDC to coordinate with the 
Departments of Defense and Veterans Affairs to include the number of 
TBIs occurring in the military. This coordination will likely increase 
CDC's estimate of the number of Americans sustaining TBI and living 
with the consequences.
    CDC also funds States for TBI registries, creates and disseminates 
public and professional educational materials, for families, caregivers 
and medical personnel, and has recently collaborated with the National 
Football League and National Hockey League to improve awareness of the 
incidence of concussion in sports. CDC plays a leading role in helping 
standardize evidence based guidelines for the management of TBI and $1 
million of this request would go to fund CDC's work in this area.
    HRSA TBI State Grant Program.--The TBI Act authorizes the HHS, 
Health Resources and Service Administration (HRSA) to award grants to 
(1) States, American Indian Consortia and territories to improve access 
to service delivery and to (2) State Protection and Advocacy (P&A) 
Systems to expand advocacy services to include individuals with 
traumatic brain injury. For the past 13 years the HRSA Federal TBI 
State Grant Program has supported State efforts to address the needs of 
persons with brain injury and their families and to expand and improve 
services to underserved and unserved populations including children and 
youth; veterans and returning troops; and individuals with co-occurring 
conditions
    In fiscal year 2009, HRSA reduced the number of State grant awards 
to 15, in order to increase each monetary award from $118,000 to 
$250,000. This means that many States that had participated in the 
program in past years have now been forced to close down their 
operations, leaving many unable to access brain injury care.
    Increasing the program to $8 million will provide funding necessary 
to sustain the grants for the 15 States currently receiving funding 
along with the 3 additional States added this year and to ensure 
funding for 4 additional States. Steady increases over 5 years for this 
program will provide for each State including the District of Columbia 
and the American Indian Consortium and territories to sustain and 
expand State service delivery; and to expand the use of the grant funds 
to pay for such services as Information & Referral (I&R), systems 
coordination and other necessary services and supports identified by 
the State.
    HRSA TBI P&A Program.--Similarly, the HRSA TBI P&A Program 
currently provides funding to all State P&A systems for purposes of 
protecting the legal and human rights of individuals with TBI. State 
P&As provide a wide range of activities including training in self-
advocacy, outreach, information and referral and legal assistance to 
people residing in nursing homes, to returning military seeking 
veterans benefits, and students who need educational services.
    Effective Protection and Advocacy services for people with 
traumatic brain injury is needed to help reduce Government expenditures 
and increase productivity, independence and community integration. 
However, advocates must possess specialized skills, and their work is 
often time-intensive. A $4 million appropriation would ensure that each 
P&A can move toward providing a significant PATBI program with 
appropriate staff time and expertise.
    NIDRR TBI Model Systems of Care.--Funding for the TBI Model Systems 
in the Department of Education is urgently needed to ensure that the 
Nation's valuable TBI research capacity is not diminished, and to 
maintain and build upon the 16 TBI Model Systems research centers 
around the country.
    The TBI Model Systems of Care program represents an already 
existing vital national network of expertise and research in the field 
of TBI, and weakening this program would have resounding effects on 
both military and civilian populations. The TBI Model Systems are the 
only source of non-proprietary longitudinal data on what happens to 
people with brain injury. They are a key source of evidence-based 
medicine, and serve as a ``proving ground'' for future researchers.
    In order to make this program more comprehensive, Congress should 
provide $11 million (+$1.5 million) in fiscal year 2011 for NIDRR's TBI 
Model Systems of Care program, in order to add one new Collaborative 
Research Project. In addition, given the national importance of this 
research program, the TBI Model Systems of Care should receive ``line-
item'' status within the broader NIDRR budget.
    We ask that you consider favorably these requests for the CDC, the 
HRSA Federal TBI Program, and the NIDRR TBI Model Systems Program to 
further data collection, increase public awareness, improve medical 
care, assist States in coordinating services, protect the rights of 
persons with TBI, and bolster vital research.
                                 ______
                                 
               Prepared Statement of the CAEAR Coalition

    On behalf of the tens of thousands of individuals living with HIV/
AIDS to whom members of the Communities Advocating Emergency AIDS 
Relief (CAEAR) Coalition provide care, I thank Chairman Harkin and 
Ranking Member Shelby for affording us the opportunity to submit 
testimony regarding increased funding for the Ryan White HIV/AIDS 
Program.
    The Communities Advocating Emergency AIDS Relief (CAEAR) Coalition 
is a national membership organization which advocates for sound Federal 
policy, program regulations, and sufficient appropriations to meet the 
care, treatment, support service and prevention/wellness needs of 
people living with HIV/AIDS and the organizations that serve them, 
focusing on ensuring access to high quality healthcare and the evolving 
role of the Ryan White Program.

A Wise Investment in a Program That Works
    The Ryan White Program works. In its Program Assessment Rating Tool 
(PART), the White House Office of Management and Budget (OMB) gave the 
Ryan White Program its highest possible rating of ``effective''--a 
distinction shared by only 18 percent of all programs rated. According 
to OMB, effective programs ``set ambitious goals, achieve results, are 
well-managed and improve efficiency.'' Even more impressively, OMB's 
assessment of the Ryan White Program found it to be in the top 1 
percent of all Federal programs in the area of ``Program Results and 
Accountability.'' Out of the 1,016 Federal programs rated--98 percent 
of all Federal programs--the Ryan White Program was one of seven that 
received a score of 100 percent in ``Program Results and 
Accountability.''
    The Ryan White Program serves as the indispensable safety net for 
thousands of low-income, uninsured or underinsured people living with 
HIV/AIDS.
  --Part A provides much-needed funding to the 52 major metropolitan 
        areas hardest hit by the HIV/AIDS epidemic with severe needs 
        for additional resources to serve those living with HIV disease 
        in their communities.
  --Part B assists States and territories in improving the quality, 
        availability, and organization of healthcare and support 
        services for individuals and families with HIV.
  --The AIDS Drug Assistance Program (ADAP) in Part B provides life-
        saving, urgently needed medications to people living with HIV/
        AIDS in all 50 States and the territories.
  --Part C provides grants to 349 faith- and community-based primary 
        care health clinics and public health providers in 49 States, 
        Puerto Rico and the District of Columbia. These clinics play a 
        central role in the delivery of HIV-related medical services to 
        underserved communities, people of color, and rural areas where 
        Part C funded clinics provide the only HIV specific medical 
        services available in the region.
  --Part F AETC supports training for healthcare providers to identify, 
        counsel, diagnose, treat, and manage individuals with HIV 
        infection and to help prevent high-risk behaviors that lead to 
        infection. It has 130 program sites with coverage in all 50 
        States.
    CAEAR Coalition's fiscal year 2012 funding requests for Part A, 
Part B base and ADAP, and Part C reflect the amounts authorized by 
Congress in the most recent authorization of the program.
    There continues to be an increasing gap between the number of 
people living with HIV/AIDS in the United States in need of care and 
the Federal resources available to serve them. Between 2001 and 2008 
the number of people living with AIDS grew 35 percent and yet funding 
for medical care and support services in communities with the greatest 
burden of HIV disease grew less than 12 percent between 2001 and 2011. 
Similarly, funding for Part C-funded, faith and community-based primary 
care clinics, which provide medical care for people living with HIV/
AIDS in remote, rural and geographically isolated, urban communities 
nationwide, grew by only 11 percent between 2001 and 2011 as the number 
of people they care for grew by 52 percent. The authorized amounts we 
request would not fully address these funding deficiencies, but would 
begin to reduce the still growing gaps in funding.
    We thank you in advance for your consideration of our comments and 
our request for:
  --$751.9 million for Part A to support grants to the cities where 
        most people with HIV/AIDS live and receive their care and 
        treatment.
  --$495 million for Part B base to provide additional needed resources 
        to the States to bolster the public health response statewide 
        regardless of location.
  --$991 million in funding for the ADAP line item in Part B so 
        uninsured and underinsured people with HIV/AIDS can access the 
        anti-HIV and other prescribed medications they need to survive.
  --$272.2 million for Part C to support grants to faith- and 
        community-based organizations, healthcare agencies, and 
        clinics.
  --$50 million to fund the 11 regional centers funded under by Part F 
        AETC to offer specialized clinical education and consultation 
        to frontline providers.

Sufficient Funding for Ryan White Programs Saves Money and Saves Lives
    Increased funding for Ryan White Programs will reap a significant 
health return for minimal investment. Data show that Part A and Part C 
programs have reduced HIV-related hospital admissions by 30 percent 
nationally and by up to 75 percent in some locations. The programs 
supported by the Ryan White HIV/AIDS Program also have been critical in 
reducing AIDS mortality by 70 percent. The Ryan White Program works, 
resulting in both economic stimulus and social savings by helping keep 
people, stable, healthy and productive.

Growing Needs as More Tested and Entering Care
    The Centers for Disease Control and Prevention (CDC) estimates that 
as of 2006 there were 1,106,400 persons living with HIV/AIDS in the 
United States. Approximately one-half were not in care and receiving 
treatment. New CDC recommendations for routine HIV testing have 
increased the influx of newly diagnosed individuals into care, but with 
56,000 newly diagnosed individuals per year, the Federal resources have 
not kept pace with the burgeoning need.
    The fiscal year 2012 appropriation presents a crucial opportunity 
to provide the Ryan White Program with the levels of funding needed to 
address a growing epidemic in young men, as the CDC continues to 
increase efforts to expand HIV testing so people living with HIV know 
their status, control their health, and protect others.
    CAEAR Coalition supports efforts to help individuals infected with 
HIV learn their status at the earliest possible time. However, CAEAR 
Coalition is concerned about the unmet demand for services created by 
insufficient resources at the Federal level. Researchers estimate that 
CDC's expanded HIV testing guidelines will bring an additional 46,000 
people into care over 5 years and significantly reduce the 21 percent 
of people living with HIV who do not know they are infected and 
therefore are not in care. Bringing these individuals into care will 
save large sums of money in the long run, but requires an initial 
investment now. Research clearly shows that averting a single HIV 
infection saves $221,365 in lifetime healthcare costs \1\, and getting 
people on anti-HIV treatment early lowers levels of HIV circulating in 
the body and reduces potential transmissions \2\--saving lives and 
money in the long term--but we must invest now in care and treatment to 
reap those rewards. Caring for individuals early in their disease will 
increase the cost of care by $2.7 billion over 5 years and the majority 
of those costs will fall to Federal discretionary programs like the 
Ryan White Program and will not be offset by entitlement programs.\3\
---------------------------------------------------------------------------
    \1\ Holtgrave DR, Briddell K, Little E, Bendixen AV, Hooper M, 
Kidder DP, et al. Cost and threshold analysis of housing as an HIV 
prevention intervention. AIDS & Behavior.(2007)11(Suppl 2), S162-S166.
    \2\ Montaner J, Lima VD, Barrios R, et al. Association of highly 
active antiretroviral therapy coverage, population viral load, and 
yearly new HIV diagnoses in British Columbia, Canada: a population-
based study. The Lancet (2010) 376(9740): 532-539.
    \3\ Martin EG, Paltiel AD, Walensky, RP, Schackman BR, Expanded HIV 
Screening in the United States: What Will It Cost Government 
Discretionary and Entitlement Programs? A Budget Impact Analysis. Value 
in Health (2010) 13: 893--902.
---------------------------------------------------------------------------
    Community-based providers are stretched to provide high-quality 
care with the scarce resources available. CAEAR Coalition is concerned 
that many HIV expert medical staff are scheduled to retire and the 
persistent financial pressures may accelerate the loss of trained 
professionals in the field. This additional pressure on an already 
overburdened system will leave many of the more than 200,000 HIV-
infected individuals who do not know their HIV status without access to 
the care they need.
    State budget cuts have created a continuing and growing ADAP 
funding crisis as a record number of people are in need of ADAP 
services due to the economic downturn. As of May 2011, there are 8,100 
people on ADAP waiting lists in 13 States. Additionally, ADAP waiting 
lists and other cost-containment measures, including limited 
formularies, reducing eligibility, or removing already enrolled people 
from the program, are clear evidence that the need for HIV-related 
medications continues to outstrip availability. ADAPs are forced to 
make difficult trade-offs between serving a greater number of people 
living with HIV/AIDS with fewer services or serving fewer people with 
more services. Additional resources are needed to reduce and prevent 
further use of cost-containment measures to limit access to ADAPs and 
to allow all State ADAPs to provide a full range of HIV antiretrovirals 
and treatment for opportunistic infections.
    The number of clients entering the 349 Part C community health 
centers and outpatient clinics has consistently increased over the last 
5 years. Over 247,000 unduplicated persons living with HIV/AIDS receive 
medical care in Part C-funded community health centers and clinics each 
year. These faith- and community-based HIV/AIDS providers are 
staggering under the burden of treatment and care after years of 
funding cuts prior to the modest increase in recent years. The success 
of the CDC's routine HIV testing recommendations has generated new 
clients for Part C-funded health centers and clinics too, but 
unfortunately with no increase in funding to provide the high quality 
healthcare services and treatment access people with HIV/AIDS require.

Ryan White-Funded Programs are Economic Engines in their Communities
    Ryan White--funded programs, including many community health 
centers, are small businesses providing jobs, vendor contracts and 
other types of economic development to low-income, urban and rural 
communities, frequently serving as anchors for existing and new 
businesses and investments. These organizations employ people in their 
communities, providing critical entry-level jobs, community-based 
training and career building.
    For example, a large, urban community health center brings an 
estimated economic impact of $21.6 million, employing 281 people, and a 
small, rural health center has an estimated economic impact of $3.9 
million, employing 52 people. Investing in AIDS care and treatment is 
an investment in jobs and community development in communities that 
need it most.

Ryan White Program Key to Meeting the Goals of the National HIV/AIDS 
        Strategy
    CAEAR Coalition is eager to work with Congress to meet the 
challenges posed by the HIV/AIDS epidemic. In 2012, we have the 
collective chance to implement the community-embraced healthcare goals 
and policies in the National HIV/AIDS Strategy (NHAS). The National 
Strategy is an opportunity to reinvigorate the Nation's response to the 
HIV/AIDS epidemic and stop its relentless movement into our 
communities. The Ryan White HIV/AIDS Program is key to reaching the 
NHAS goals of reducing new HIV infections, increasing access to care 
and improving health outcomes for people living with HIV/AIDS, and 
reducing HIV-related health disparities. Ryan White provides HIV/AIDS 
care and treatment services to a significantly higher proportion of 
racial/ethnic minorities and women than their representation among 
reported AIDS cases--suggesting the programs and resources are targeted 
to underserved and marginalized populations. Early care and treatment 
are more critical than ever because we can help those infected learn 
their status and get into care and treatment in order to improve their 
own health and the health of their communities.
    The Ryan White Program's history of accomplishments for public 
health and people living with HIV/AIDS is a wonderful legacy for the 
U.S. Congress. There continues to be a vast need for additional 
resources to address the healthcare and treatment needs of people 
living with HIV across the country. In recognition of its high level of 
effectiveness and validation over time from credible Federal Government 
institutions, CAEAR urges the committee to provide the Ryan White HIV/
AIDS Program with the funding levels authorized by Congress for fiscal 
year 2012.
                                 ______
                                 
 Prepared Statement of the Centers for Disease Control and Prevention 
                            (CDC) Coalition

    The CDC Coalition is a nonpartisan coalition of more than 140 
organizations committed to strengthening our Nation's prevention 
programs. Our mission is to ensure that health promotion and disease 
prevention are given top priority in Federal funding, to support a 
funding level for the Centers for Disease Control and Prevention (CDC) 
that enables it to carry out its prevention mission, and to assure an 
adequate translation of new research into effective State and local 
programs. Coalition member groups represent millions of public health 
workers, clinicians, researchers, educators, and citizens served by CDC 
programs.
    The CDC Coalition believes that Congress should support CDC as an 
agency--not just the individual programs that it funds. In the best 
judgment of the CDC Coalition--given the challenges and burdens of 
chronic disease, a potential influenza pandemic, terrorism, disaster 
preparedness, new and reemerging infectious diseases and our many unmet 
public health needs and missed prevention opportunities--we believe the 
agency will require funding of at least $7.7 billion for CDC's ``core 
programs'' in fiscal year 2012. This request represents a 36 percent 
increase over fiscal year 2011 and a 31 percent increase over the 
President's fiscal year 2012 request. We are deeply disappointed with 
the more than $740 million in cuts to CDC's budget authority included 
in the proposed fiscal year 2011 continuing resolution (CR). While CDC 
programs will receive significant new funding from the Prevention and 
Public Health Fund in fiscal year 2011, we are concerned that this 
funding would essentially supplant cuts made to CDC's budget authority. 
As you know the Prevention and Public Health Fund was intended to 
supplement and not supplant the base funding of our public health 
agencies and programs.
    By translating research findings into effective intervention 
efforts, CDC has been a key source of funding for many of our State and 
local programs that aim to improve the health of communities. Perhaps 
more importantly, Federal funding through CDC provides the foundation 
for our State and local public health departments, supporting a trained 
workforce, laboratory capacity and public health education 
communications systems.
    CDC also serves as the command center for our Nation's public 
health defense system against emerging and reemerging infectious 
diseases. With the potential onset of a worldwide influenza pandemic, 
in addition to the many other natural and man-made threats that exist 
in the modern world, the CDC has become the Nation's--and the world's--
expert resource and response center, coordinating communications and 
action and serving as the laboratory reference center. States and 
communities rely on CDC for accurate information and direction in a 
crisis or outbreak.

The Multiple Roles of CDC
    CDC serves as the lead agency for bioterrorism and other public 
health emergency preparedness and must receive sustained support for 
its preparedness programs in order for our Nation to meet future 
challenges. Given the challenges of terrorism and disaster 
preparedness, and our many unmet public health needs and missed 
prevention opportunities we urge you to provide adequate funding for 
State and local capacity grants. We ask the Subcommittee to ensure that 
our States and local communities are prepared in the event of an act of 
terrorism or other public health threat this year and in future years. 
Unfortunately, this is not a threat that is going away.

Addressing the Leading Causes of Death and Disability
    The President's fiscal year 2012 budget proposes to consolidate a 
number of chronic disease programs within CDC. Members of the CDC 
Coalition are currently engaged in conversations with CDC and members 
of Congress to better understand what this consolidation will mean for 
the funding that is passed on to our State and local health and 
education agencies and the various programs our members have supported 
in the past. We look forward to working with Congress, the 
administration and CDC to ensure that any effort to consolidate 
programs leads to the best health outcomes for the American people. We 
must ensure that CDC's National Center for Chronic Disease Prevention 
and Health Promotion has the resources it needs to assist our States 
and communities in their efforts to reduce the burden of chronic 
disease.
    Heart disease remains the Nation's No. 1 killer. In 2007, over 
616,000 people in the United States died from heart disease, accounting 
for nearly 25 percent of all U.S. deaths. More women than men die of 
heart disease each year, and in 2007, females had higher rates of 
inpatient heart attack mortality than males. Stroke is the third 
leading cause of death and is a leading cause of disability. In 2007, 
stroke killed more than 135,000 people (61 percent of them women), 
accounting for about 1 of every 18 deaths.
    Cancer is the second most common cause of death in the United 
States. There were an estimated 1,529,560 new cancer cases and 569,490 
deaths from cancer in 2010. The financial cost of cancer is also 
significant. According to the National Institutes of Health (NIH), in 
2008 the overall cost for cancer in the United States was more than 
$228.1 billion: $93.2 billion for direct medical costs, $18.8 billion 
for lost worker productivity due to illness, and $116.1 billion for 
lost worker productivity due to premature death.
    Among the ways CDC is fighting cancer, is through funding the 
National Breast and Cervical Cancer Early Detection Program that helps 
low-income, uninsured and medically underserved women gain access to 
lifesaving breast and cervical cancer screenings and provides a gateway 
to treatment upon diagnosis. CDC also funds grants to States to develop 
Comprehensive Cancer Control (CCC) plans, bringing together a broad 
partnership of public and private stakeholders to set joint priorities 
and implement specific cancer prevention and control activities 
customized to address each State's particular needs.
    Although more than 25.8 million Americans have diabetes, nearly 7 
million cases are undiagnosed. In 2010, about 1.9 million people aged 
20 years or older were newly diagnosed with diabetes. Diabetes is the 
leading cause of kidney failure, nontraumatic lower-limb amputations, 
and new cases of blindness among adults in the United States. The total 
direct and indirect costs associated with diabetes were $178 billion in 
2007. Preventive care such as routine eye and foot examinations, self-
monitoring of blood glucose, and glycemic control could reduce these 
numbers.
    Over the last 25 years, obesity rates have doubled among adults and 
children, and tripled in teens. Obesity, diet and inactivity are cross-
cutting risk factors that contribute significantly to heart disease, 
cancer, stroke and diabetes. CDC funds programs to encourage the 
consumption of fruits and vegetables, encourage sufficient exercise, 
and to develop other habits of healthy nutrition and activity.
    An estimated 443,000 people die prematurely every year due to 
tobacco use. CDC's tobacco control efforts seek to prevent tobacco 
addition in the first place, as well as help those who want to quit. We 
must continue to support these vital programs and reduce tobacco use in 
the United States.
    Each day more than 3,900 young people initiate cigarette smoking. 
At the same time, according to CDC, only 3.8 percent of elementary 
schools, 7.9 percent of middle schools and 2.1 percent of high schools 
provide daily physical education or its equivalent for the entire 
school year. Almost 90 percent of young people do not eat the 
recommended number of servings of fruits and vegetables, while nearly 
30 percent of young people are overweight or at risk of becoming 
overweight. And every year, almost 800,000 adolescents become pregnant 
and nearly 4 million teens are infected with a sexually transmitted 
disease. CDC plays a critical role in ensuring good public health and 
health promotion in our schools.
    CDC provides national leadership in helping control the HIV 
epidemic by working with community, State, national, and international 
partners in surveillance, research, prevention and evaluation 
activities. CDC estimates that about 1.1 million Americans are living 
with HIV, 21 percent of who are undiagnosed. Also, the number of people 
living with HIV is increasing, as new drug therapies are keeping HIV-
infected persons healthy longer and dramatically reducing the death 
rate. Prevention of HIV transmission is the best defense against the 
AIDS epidemic that has already killed more than 617,000 in the United 
States and dependant areas and is devastating populations around the 
globe.
    The United States has the highest rates of sexually transmitted 
diseases (STDs) in the industrialized world. More than 19 million new 
infections occur each year, almost half of them among young people. CDC 
estimates that STDs, including HIV, cost the U.S. healthcare system as 
much as $15.3 billion annually. Over the past several years, 
significant ground has been lost in the fight against STDs. While 
syphilis was on the verge of elimination in the United States at the 
start of the decade, rates have increased by 114 percent since 2000. An 
adequate investment in STD prevention could save millions in annual 
healthcare costs in the future.
    CDC and its National Center for Health Statistics collect data on 
chronic disease prevalence, health disparities, emergency room use, 
teen pregnancy, infant mortality and causes of death. The health data 
collected through the Behavioral Risk Factor Surveillance System, Youth 
Risk Behavior Survey, Youth Tobacco Survey, National Vital Statistics 
System, and National Health and Nutrition Examination Survey are an 
essential part of the Nation's statistical and public health 
infrastructure. Adequate funding for these activities is essential for 
tracking America's health as a nation and developing targeted and 
appropriate public health policies and prevention interventions.
    We must address the growing disparity in the health of racial and 
ethnic minorities. CDC is helping States address serious disparities in 
infant mortality, breast and cervical cancer, cardiovascular disease, 
diabetes, HIV/AIDS and immunizations. Our members are committed to 
ending the disparities and we encourage the Subcommittee to provide 
adequate funds for these efforts.
    CDC oversees immunization programs for children, adolescents and 
adults, and is a global partner in the ongoing effort to eradicate 
polio worldwide. The value of adult immunization programs to improve 
length and quality of life, and to save healthcare costs, is realized 
through a number of CDC programs, but there is much work to be done and 
a need for sound funding to achieve our goals. Influenza vaccination 
levels remain low for adults. Levels are substantially lower for 
pneumococcal vaccination and significant racial and ethnic disparities 
in vaccination levels persist among the elderly. In addition, 
developing functional immunization registries in all States will be 
less costly in the long run than maintaining the incomplete systems 
currently in place.
    Childhood immunizations provide one of the best returns on 
investment of any public health program. For every dollar spent on 
seven vaccines recommended in the childhood series, $16.50 is saved in 
direct and indirect costs. An estimated 14 million cases of childhood 
disease and 33,000 deaths are prevented each year through timely 
immunization. Despite the incredible success of the program, it faces 
serious financial challenges.
    Injuries are the leading causes of death for persons aged 1-44 
years. Unintentional injuries and violence such as older adult falls, 
unintentional drug poisonings, child maltreatment and sexual violence 
accounts for over 35 percent of emergency department visits annually. 
Annually, injury and violence cost the United States approximately $406 
billion in direct and indirect medical costs including lost 
productivity. Unintentional injury consistently remains the leading 
cause of death among young Americans ages 1-34 with 37.1 percent of 
unintentional fatal injuries caused by motor vehicle traffic 
fatalities. Conversely, violence related injuries are also substantial 
with homicide being the second leading cause of death for persons 15-24 
years, while suicide is the 11th leading cause of death across all age 
groups. The consequences of these injuries can be far reaching from 
physical, emotional, financial turmoil to long term disability. CDC's 
Injury Center works to prevent unintentional and violence-related 
injuries to minimize the consequences of injuries when they occur by 
researching the problem; identifying the risk and protective factors; 
developing and testing interventions; ensuring widespread adoption of 
proven strategies and gathering data to assist States and communities 
to develop prevention programs and practices through the use of 
surveillance systems like the National Violent Death Reporting System.
    One in every 33 babies born each year in the United States is born 
with one or more birth defects. Birth defects are the leading cause of 
infant mortality. Children with birth defects who survive often 
experience lifelong physical and mental disabilities. More than 50 
million people in the United States currently live with a disability, 
and 17 percent of children under the age of 18 have a developmental 
disability. The National Center on Birth Defects and Developmental 
Disabilities at CDC conducts programs to protect and improve the health 
of children and adults by preventing birth defects and developmental 
disabilities; promoting optimal child development and health and 
wellness among children and adults with disabilities.
    We also encourage the Subcommittee to provide adequate funding for 
CDC's Center for Environmental Health to revitalize environmental 
public health services at the national, State and local level and 
sustain current programs. These services are essential to protecting 
and ensuring the health and well being of the American public from 
threats associated with West Nile virus, climate change, terrorism, E. 
coli, lead-based paint and other hazards.
    We appreciate the Subcommittee's past support for CDC programs in a 
climate of competing priorities. We thank you for considering our 
fiscal year 2012 request for $7.7 billion for CDC's ``core programs.''
                                 ______
                                 
 Prepared Statement of the Charles R. Drew University of Medicine and 
                                Science

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to present you with testimony. The Charles Drew University 
is distinctive in being the only dually designated Historically Black 
Graduate Institution and Hispanic Serving Institution in the Nation. We 
would like to thank you, Mr. Chairman, for the support that this 
subcommittee has given to our University to produce minority health 
professionals to eliminate health disparities as well as do 
groundbreaking research to save lives.
    The Charles Drew University is located in the Watts-Willowbrook 
area of South Los Angeles. Its mission is to prepare predominantly 
minority doctors and other health professionals to care for underserved 
communities with compassion and excellence through education, clinical 
care, outreach, pipeline programs and advanced research that makes a 
rapid difference in clinical practice. The Charles Drew University has 
established a national reputation for translational research that 
addresses the health disparities and social issues that strike hardest 
and deepest among urban and minority populations.

Health Resources and Services Administration
    Title VII Health Professions Training Programs.--The health 
professions training programs administered by the Health Resources and 
Services Administration (HRSA) are the only Federal initiatives 
designed to address the longstanding under representation of minorities 
in healthcareers. HRSA's own report, ``The Rationale for Diversity in 
the Health Professions: A Review of the Evidence,'' found that minority 
health professionals disproportionately serve minority and other 
medically underserved populations, minority populations tend to receive 
better care from practitioners of their own race or ethnicity, and non-
English speaking patients experience better care, greater comprehension 
and greater likelihood of keeping follow-up appointments when they see 
a practitioner who speaks their language. Studies have also 
demonstrated that when minorities are trained in minority health 
professions institutions, they are significantly more likely to: (1) 
serve in medically underserved areas, (2) provide care for minorities 
and (3) treat low-income patients.
    Minority Centers of Excellence.--The purpose of the COE program is 
to assist schools, like Charles Drew University, that train minority 
health professionals, by supporting programs of excellence. The COE 
program focuses on improving student recruitment and performance; 
improving curricula and cultural competence of graduates; facilitating 
faculty and student research on minority health issues; and training 
students to provide health services to minority individuals by 
providing clinical teaching at community-based health facilities. For 
fiscal year 2012, the funding level for COE should be $24.602 million.
    Health Careers Opportunity Program.--Grants made to health 
professions schools and educational entities under HCOP enhance the 
ability of individuals from disadvantaged backgrounds to improve their 
competitiveness to enter and graduate from health professions schools. 
HCOP funds activities that are designed to develop a more competitive 
applicant pool through partnerships with institutions of higher 
education, school districts, and other community based entities. HCOP 
also provides for mentoring, counseling, primary care exposure 
activities, and information regarding careers in a primary care 
discipline. Sources of financial aid are provided to students as well 
as assistance in entering into health professions schools. For fiscal 
year 2012, the HCOP funding level of $22.133 million is recommended.

National Institutes of Health
    National Institute on Minority Health and Health Disparities.--The 
NIMHD is charged with addressing the longstanding health status gap 
between under-represented minority and non minority populations. The 
NIMHD helps health professional institutions to narrow the health 
status gap by improving research capabilities through the continued 
development of faculty, labs, telemedicine technology and other 
learning resources. The NIMHD also supports biomedical research focused 
on eliminating health disparities and developed a comprehensive plan 
for research on minority health at NIH. Furthermore, the NIMHD provides 
financial support to health professions institutions that have a 
history and mission of serving minority and medically underserved 
communities through the COE program and HCOP. For fiscal year 2012, an 
increase proportional to NIH's increase is recommended for NIMHD to 
support these critical activities.
    Research Centers At Minority Institutions.--RCMI at the National 
Center for Research Resources (NCRR) has a long and distinguished 
record of helping institutions like The Charles Drew University develop 
the research infrastructure necessary to be leaders in the area of 
translational research focused on reducing health disparities research. 
Although NIH has received some budget increases over the last 5 years, 
funding for the RCMI program has not increased by the same rate. 
Therefore, the funding for this important program grow at the same rate 
as NIH overall in fiscal year 2012.

Department of Health and Human Services
    Office of Minority Health.--Specific programs at OMH include: 
assisting medically underserved communities, supporting conferences for 
high school and undergraduate students to interest them in 
healthcareers, and supporting cooperative agreements with minority 
institutions for the purpose of strengthening their capacity to train 
more minorities in the health professions. For fiscal year 2012, I 
recommend a funding level of $65 million for OMH to support these 
critical activities.

Department of Education
    Strengthening Historically Black Graduate Institutions.--The 
Department of Education's Strengthening Historically Black Graduate 
Institutions program (Title III, Part B, Section 326) is extremely 
important to MMC and other minority serving health professions 
institutions. The funding from this program is used to enhance 
educational capabilities, establish and strengthen program development 
offices, initiate endowment campaigns, and support numerous other 
institutional development activities. In fiscal year 2012, an 
appropriation of $65 million is suggested to continue the vital support 
that this program provides to historically black graduate institutions.

Conclusion
    Despite all the knowledge that exists about racial/ethnic, socio-
cultural and gender-based disparities in health outcomes, the gap 
continues to widen. Not only are minority and underserved communities 
burdened by higher disease rates, they are less likely to have access 
to quality care upon diagnosis. As you are aware, in many minority and 
underserved communities preventative care and research are inaccessible 
either due to distance or lack of facilities and expertise. As noted 
earlier, in just one underserved area, South Los Angeles, the number 
and distribution of beds, doctors, nurses and other health 
professionals are as parlous as they were at the time of the Watts 
Rebellion, after which the McCone Commission attributed the so-named 
``Los Angeles Riots'' to poor services--particularly access to 
affordable, quality healthcare. The Charles Drew University has proven 
that it can produce excellent health professionals who 'get' the 
mission--years after graduation they remain committed to serving people 
in the most need. But, the university needs investment and committed 
increased support from Federal, State and local governments and is 
actively seeking foundation, philanthropic and corporate support.
    Even though institutions like The Charles Drew University are 
ideally situated (by location, population, community linkages and 
mission) to study conditions in which health disparities have been well 
documented, research is limited by the paucity of appropriate research 
facilities. With your help, the Life Sciences Research Facility will 
translate insight gained through research into greater understanding of 
disparities and improved clinical outcomes. Additionally, programs like 
Title VII Health Professions Training programs will help strengthen and 
staff facilities like our Life Sciences Research Facility.
    We look forward to working with you to lessen the huge negative 
impact of health disparities on our Nation's increasingly diverse 
populations, the economy and the whole American community.
    Mr. Chairman, thank you again for the opportunity to present 
testimony on behalf of The Charles Drew University. It is indeed an 
honor.
                                 ______
                                 
   Prepared Statement of the Children's Environmental Health Network

    On behalf of the Children's Environmental Health Network (CEHN), a 
national multi-disciplinary organization whose mission is to protect 
the fetus and the child from environmental health hazards and promote a 
healthy environment, I thank you for the opportunity to submit 
testimony in support of fiscal year 2012 appropriations for U.S. 
Department of Health and Human Services (HHS) for activities that 
protect children from environmental hazards.
    CEHN appreciates the wide range of needs that you must consider for 
funding. We urge you to give priority to those programs that directly 
protect and promote children's environmental health. In so doing, you 
will improve not only our children's health and development, but also 
their educational outcomes and their future.
    The world in which today's children live has changed tremendously 
from that of previous generations, including a phenomenal increase in 
the substances to which children are exposed. Every day, children are 
exposed to a mix of chemicals, most of them untested for their effects 
on developing systems. In general, children have unique vulnerabilities 
and susceptibilities to toxic chemicals. In some cases, an exposure 
which may cause little or no harm to an adult may lead to irreparable 
damage to a child. Exposure to neurotoxicants in utero or early 
childhood can result in life-long learning and developmental delays.
    Investments in programs that protect and promote children's health 
will be repaid by healthier children with brighter futures. Protecting 
our children--those born as well as those yet to be born--from 
environmental hazards is truly a national security issue. Cutting or 
weakening programs that protect children from harmful chemicals in 
their environment is not only very costly to our Nation (for example, 
the Clean Air Act Amendments of 1990 have saved $1 trillion in 
healthcare costs\1\), such cuts will reduce the number of exceptionally 
bright children in future generations. Our Nation's future will depend 
upon its future leaders. As our experience with removing lead from 
gasoline illustrates (removing lead in gasoline has saved the United 
States an estimated $200 billion each year since 1980 in the form of 
higher IQs for that year's newborns) \2\, when we protect children from 
harmful chemicals in their environment, we help to assure that they 
will reach their full potential. We have a responsibility to our 
Nation's children, and to the Nation that they will someday lead, to 
provide them with a healthy environment.
---------------------------------------------------------------------------
    \1\ Health and Welfare Benefits Analyses to Support the Second 
Section 812 Benefit-Cost Analysis of the Clean Air Act, Final Report, 
prepared by Industrial Economics for the U.S. EPA, February 2011.
    \2\ ``Economic Gains Resulting from the Reduction in Children's 
Exposure to Lead in the United States,'' Grosse SD, Matte TD, Schwartz 
J, Jackson RJ, Environ Health Perspectives 2002, 110(6): doi:10.1289/
ehp.02110563
---------------------------------------------------------------------------
    Additionally, American competiveness depends on having healthy 
educated children who grow up to be healthy productive adults. Yet, 
growing numbers of our children are diagnosed with chronic and 
developmental illnesses and disabilities. The National Academy of 
Sciences estimates that toxic environmental exposures play a role in 28 
percent of neurobehavioral disorders in children and this does not 
include other conditions such as asthma or cancers. Thus it is vital 
that the Federal programs and activities that protect children from 
environmental hazards receive adequate resources. Key programs in your 
jurisdiction which CEHN urges you to support include:
Centers for Disease Control and Prevention (CDC)
    The CDC is the Nation's leader in public health promotion and 
disease prevention, and should receive top priority in Federal funding. 
CDC continues to be faced with unprecedented challenges and 
responsibilities. CEHN applauds your support for CDC in past years and 
urges you to support a funding level of $7.7 billion for CDC's core 
programs in fiscal year 2012.
    Within CDC, the National Center for Environmental Health (NCEH) is 
particularly important to protecting the environmental health of young 
children. NCEH programs, such as its efforts to continue and expand 
biomonitoring and its national report card on exposure information, are 
key national assets. CEHN is thus deeply concerned about the proposed 
severe cuts to CDC's environmental public health programs in the 
President's fiscal year 2012 budget. We join with many others in 
strongly opposing the proposal to consolidate CDC's Healthy Homes/Lead 
Poisoning Prevention and the National Asthma Control Programs and 
reducing funding for these programs by more than half.
    The CDC's National Environmental Public Health Tracking Program 
helps to track environmental hazards and the diseases they may cause 
and to coordinate and integrate local, State and Federal health 
agencies' collection of critical health and environmental data. Public 
health officials need integrated health and environmental data so that 
they can protect the public's health. We urge you to reverse the CDC 
operating plan for fiscal year 2011, which eliminates all budget 
authority for this vital program. We urge you to support additional 
funding for the program in fiscal year 2012.
    The Built Environment and Health Program (also known as the Healthy 
Community Design Initiative) would be abolished. Other cuts to the 
center's core environmental work include its radiation activities and 
building capacity in local health departments. We urge you to oppose 
these cuts.
    CEHN also strongly supports CDC's Environmental Health Laboratory 
and its biomonitoring activities, which allow us to measure with great 
precision the actual levels of more than 450 chemicals and nutritional 
indicators in people's bodies. This information helps public health 
officials to determine which population groups are at high risk for 
exposure and adverse health effects, assess public health 
interventions, and monitor exposure trends over time.

National Institutes of Health (NIH)
    CEHN joins others in the health field in requesting that the 
Committee provide $35 billion for the National Institutes of Health 
(NIH) in fiscal year 2012, including $779.4 million for the National 
Institute of Environmental Health Sciences (NIEHS).
    NIEHS is the leading institute conducting research to understand 
how the environment influences the development and progression of human 
disease. Children are uniquely vulnerable to harmful substances in 
their environment, and the NIEHS plays a critical role in uncovering 
the connections between environmental exposures and children's health. 
Thus it plays a vital role in our efforts to understand how to protect 
children, whether it is identifying and understanding the impact of 
substances that are endocrine disruptors or understanding childhood 
exposures that may not affect health until decades later.
    CEHN therefore urges you to provide $779.4 million for NIEHS in 
fiscal year 2012.

Children's Environmental Health Research Centers of Excellence
    The Children's Environmental Health Research Centers, jointly 
funded by the NIEHS and the EPA, play a key role in providing the 
scientific basis for protecting children from environmental hazards. 
With their modest budgets, which have been unchanged for more than 10 
years, these centers generate valuable research. A unique aspect of 
these Centers is the requirement that each Center actively involves its 
local community in a collaborative partnership, leading both to 
community-based participatory research projects and to the translation 
of research findings into child-protective programs and policies. The 
scientific output of these centers has been outstanding. For example, 
findings from four Centers clearly showed that prenatal exposure to a 
widely used pesticide affected developmental outcomes at birth and 
early childhood. This was important information to EPA's decision 
makers in their regulation of this pesticide.
    Several Centers have established longitudinal cohorts which have 
resulted in valuable research results. The Network is concerned that as 
a Center's multi-year grant ends and the Center is shuttered, these 
cohorts and the invaluable information they can provide are being lost. 
The Network urges the Committee to assure that NIEHS has the funding 
and the direction to support Centers in continuing these cohorts.
    The work of these Centers has also shown us that, in addition to 
research regarding a specific pollutant or health outcome, research is 
desperately needed in understanding the totality of the child's 
environment--for example, all of the exposures the child experiences in 
the home, school, and child care environment--and how to evaluate those 
multiple factors. CEHN urges you to support these Centers, to assure 
they receive full funding and are extended and expanded as described 
above.

National Children's Study
    CEHN urges the Committee to assure stable support for the National 
Children's Study (NCS) for all Institutes involved in this landmark, 
evidence-based longitudinal study examining the effects of 
environmental influences on the health and development of more than 
100,000 children across the United States. This study may be the only 
means that we will have to understand the links between exposures and 
the health and development of children and to identify the antecedents 
for a healthy adulthood. 2012 will be a critical year for the NCS. It 
is vital that the funding is in place to launch the main study 
involving all of the centers. Already approximately 700 babies have 
been born into the study.
    We urge the Committee to assure that the NCS retains on its 
original focus on environmental chemicals. While the NCS is housed at 
NIH, it must be a multi-agency study and it must be responsive to its 
mission and to the lead agencies, in and out of NIH
    CEHN also asks the Committee to direct NIH to ensure that protocols 
are in place within NCS for measuring exposures in child care and 
school settings; it is critically important to understand how school 
and child care exposures differ from home exposures very early in the 
study process.

Pediatric Environmental Health Specialty Units
    Funded jointly by the Agency for Toxic Substances and Disease 
Registry (ATSDR) and the U.S. Environmental Protection Agency (EPA), 
the Pediatric Environmental Health Specialty Units (PEHSUs) form a 
valuable resource network, with a center in each of the U.S. Federal 
regions. PEHSU professionals provide medical consultation to healthcare 
professionals on a wide range of environmental health issues, from 
individual cases of exposure to advice regarding large-scale community 
issues. PEHSUs also provide information and resources to school, child 
care, health and medical, and community groups to help increase the 
public's understanding of children's environmental health, and help 
inform policymakers by providing data and background on local or 
regional environmental health issues and implications for specific 
populations or areas. For example, following the gulf oil spill in 
2010, the PEHSUs quickly produced and released a series of factsheets 
and advisories in multiple languages for local patients and health 
professionals. We urge the Committee to fully fund ATSDR's portion of 
this program in fiscal year 2012.
    In conclusion, investments in programs that protect and promote 
children's health will be repaid by healthier children with brighter 
futures, an outcome we can all support. That is why CEHN asks you to 
give priority to these programs. Thank you for the opportunity to 
comment. CEHN's staff and I would be happy to answer any questions you 
may have.
                                 ______
                                 
         Prepared Statement of the Coalition for Health Funding

    The Coalition for Health Funding is pleased to provide the Senate 
Labor, Health and Human Services, Education and Related Agencies 
Appropriations Subcommittee with a statement for the record on fiscal 
year 2012 funding levels for health agencies and programs. Since 1970, 
the Coalition for Health Funding has advocated for sufficient and 
sustained discretionary funding for the public health continuum to meet 
the mounting and evolving health challenges confronting the American 
people.
    Our Nation's strength is inextricably linked to our health. 
Evidence abounds--from the Department of Defense to the U.S. Chamber of 
Commerce--that healthy Americans are stronger on the battlefield, have 
higher academic achievement, and are more productive in school and on 
the job. Federal funding helps discover cures and fuel innovation, 
ensure the safety of our drugs, food, water, and air, prevent disease, 
protect and respond in times of crisis, train healthcare professionals, 
and provide care to our Nation's most vulnerable. Much of what public 
health does--and the impact of Federal investment in it--is such a part 
of Americans' daily living that it is often invisible and almost always 
taken for granted. For example, Federal health funding has:
  --Improved and saved the lives of many of those suffering from 
        illnesses through scientific innovation and discovery.
  --Prevented unnecessary and costly injuries through seat belt and 
        helmet laws, mandatory airbags, and car seats for infants and 
        toddlers.
  --Promoted safe and healthy foods through dietary guidelines and food 
        labeling that help Americans better understand what we eat and 
        how to eat better.
  --Improved the health of mothers and reduced birth defects and infant 
        deaths through recommendations to take folic acid during early 
        stages of pregnancy, place babies on their backs to prevent 
        Sudden Infant Death Syndrome, and avoid tobacco and alcohol use 
        during pregnancy.
  --Combated tobacco addiction by regulating advertisements, imposing 
        age limits on tobacco purchases, and instituting smoking bans 
        in public places, cutting smoking rates by nearly half and 
        reducing the number of smoking-related deaths and illnesses and 
        the opportunity and real costs associated with them.
  --Treated and eradicated infectious diseases through vaccines, 
        preventing epidemics and saving lives.
  --Improved the environment through bans on asbestos in household 
        products and lead in paint and gasoline.
  --Protected the American people in all communities from infectious, 
        occupational, environmental, and terrorist threats.
    These are just some of the ways in which Federal funding for public 
health has changed our lives and those of our children for the better. 
Still, Federal funding is necessary to further improve, save, and 
protect those in America and around the world. The treatments and cures 
for many devastating diseases are just out of reach. Racial, 
socioeconomic, and geographic health disparities persist. Costly and 
often preventable chronic conditions such as asthma, diabetes, heart 
disease and obesity--particularly among young people--are on the rise 
and threaten military readiness, academic achievement, and societal 
productivity. The failure to prioritize behavioral health issues 
continues to have stunning, debilitating social and economic 
consequences. Oral health is still not widely recognized as a 
healthcare priority in spite of the fact that tooth decay remains a 
common chronic disease among all ages and is preventable.
    The Coalition for Health Funding's 70 national, member 
organizations--representing the interests of more than 100 million 
patients, healthcare providers, public health professionals, and 
scientists--support the belief that the Federal Government is an 
essential partner with State and local governments and the nonprofit 
and private sectors in improving health. A pressing and immediate goal 
is to build the capacity of our public health system to address 
America's mounting health needs under the weight of a fragile economy, 
an aging population, a health workforce shortage, and persisting 
declines in health status.
    Given current fiscal challenges, the Coalition for Health Funding 
appreciates the efforts of the President and Congress to maintain 
funding for many critical health programs in the final fiscal year 2011 
spending legislation. Nevertheless, the Coalition remains concerned 
about prospects for future cuts to health programs. The Coalition 
supports fiscal responsibility, but not at the expense of America's 
health and well-being. Cuts to federally funded health services and 
scientific research will not significantly reduce the deficit, nor make 
a dent in the national debt; discretionary health spending represents 
less than 2 percent of all Federal spending. These cuts adversely 
affect American families, cost jobs, and ultimately compromise 
America's global competitiveness and economic growth.
    The Coalition for Health Funding organized more than 470 national, 
State, and local organizations and six former Surgeons General in a 
letter that urged Congress to increase discretionary health funding. 
The following list summarizes the Coalition for Health Funding's fiscal 
year 2012 funding recommendations for health agencies under the 
subcommittee's jurisdiction.

National Institutes of Health (NIH)
    The Coalition supports $35 billion in fiscal year 2012 for NIH, a 
14.4 percent increase over the fiscal year 2011 funding level and a 10 
percent increase over the President's fiscal year 2012 request. The 
partnership between NIH and America's scientific research community is 
a national investment in improving the health and quality of life of 
all Americans. As the primary Federal agency responsible for conducting 
and supporting medical research, NIH-funded research drives scientific 
innovation and develops new and better diagnostics, improved prevention 
strategies, and more effective treatments.
    NIH-funded research also contributes to the Nation's economic 
strength by creating skilled, high-paying jobs; new products and 
industries; and improved technologies. More than 83 percent of NIH 
research funding is awarded to more than 3,000 universities, medical 
schools, teaching hospitals, and other research institutions, located 
in every State. The Nation's longstanding, bipartisan commitment to NIH 
has established the United States as the world leader in medical 
research and innovation. Other countries, such as China and India, are 
increasing their funding of scientific research because they understand 
its critical role in spurring technological advances and other 
innovations. If the United States is to continue to compete in a 
global, information-based economy, it too must continue to invest in 
research programs such as NIH.

Centers for Disease Control and Prevention (CDC)
    The Coalition for Health Funding recommends a level of $7.7 billion 
for CDC's core programs in fiscal year 2012, a 36 percent increase over 
fiscal year 2011 and a 31 percent increase over the President's fiscal 
year 2012 request. This amount is representative of what CDC needs to 
fulfill its core mission in fiscal year 2012; activities and programs 
that are essential to protect the health of the American people. CDC 
continues to be faced with unprecedented challenges and 
responsibilities, ranging from chronic disease prevention, eliminating 
health disparities, bioterrorism preparedness, to combating the obesity 
epidemic. In addition, CDC funds community programs in injury control; 
health promotion efforts in schools and workplaces; initiatives to 
prevent diabetes, heart disease, cancer, stroke, and other chronic 
diseases; improvements in nutrition and immunization; programs to 
monitor and combat environmental effects on health; prevention programs 
to improve oral health; prevention of birth defects; public health 
research; strategies to prevent antimicrobial resistance and infectious 
diseases; and data collection and analysis on a host of vital 
statistics and other health indicators. It is notable that more than 70 
percent of CDC's budget flows out to States and local health 
organizations and academic institutions, many of which are currently 
struggling to meet growing needs with fewer resources.

Health Resources and Services Administration (HRSA)
    The Coalition for Health Funding recommends an overall funding 
level of $7.65 billion for HRSA in fiscal year 2012, a 22 percent 
increase over fiscal year 2011 and a 12 percent increase over the 
President's fiscal year 2012 request. HRSA operates programs in every 
State and thousands of communities across the country. It is a national 
leader in providing health services for individuals and families, 
serving as a health safety net for the medically underserved.
    Over the past several years, HRSA has received mostly level 
funding, undermining the ability of its successful programs to grow. 
Additionally, the deep cuts made to the agency in the final fiscal year 
2011 continuing resolution will likely have negative consequences for 
public health. Therefore, the requested minimum level of funding for 
fiscal year 2012 is critical to allow the agency to carry out critical 
public health programs and services that reach millions of Americans, 
including developing the public health and healthcare workforce; 
delivering primary care services through community health centers; 
improving access to care for rural communities; supporting maternal and 
child healthcare programs; providing healthcare to people living with 
HIV/AIDS; and many more. However, much more is needed for the agency to 
achieve its ultimate mission of ensuring access to culturally 
competent, quality health services; eliminating health disparities; and 
rebuilding the public health and healthcare infrastructure.

Substance Abuse and Mental Health Services Administration (SAMHSA)
    The Coalition for Health Funding recommends an overall funding 
level of $3.671 billion for SAMHSA in fiscal year 2012, an 8.6 percent 
increase over fiscal year 2011 and an 8.4 percent increase over the 
President's fiscal year 2012 request. According to recent results from 
a national survey conducted by SAMHSA, 45.1 million American adults in 
the United States have experienced mental illness over the past year. 
However, only two-thirds of adults in the United States with mental 
illness in the past year received mental health services.
    In fact, suicide claims over 34,000 lives annually, the equivalent 
of 94 suicides per day; one suicide every 15 minutes. In the past year, 
8.4 million adults aged 18 or older thought seriously about committing 
suicide, 2.3 million made a suicide plan, and 1.1 million attempted 
suicide. The funding for community mental health services from SAMHSA 
has never been more critical especially in light of the $2.2 billion 
reduction in State mental health funding for programs serving this 
vulnerable population.

Agency for Healthcare Research and Quality (AHRQ)
    The Coalition for Health Funding recommends an overall funding 
level of $405 million for AHRQ in fiscal year 2012, a 9 percent 
increase over fiscal year 2011 and a 10 percent increase over the 
President's fiscal year 2012 request. AHRQ funds research and programs 
at local universities, hospitals, and health departments that improve 
healthcare quality, enhance consumer choice, advance patient safety, 
improve efficiency, reduce medical errors, and broaden access to 
essential services--transforming people's health in communities in 
every State around the Nation. Specifically, the science funded by AHRQ 
provides consumers and their healthcare professionals with valuable 
evidence to make the right healthcare decisions for themselves and 
their families. AHRQ's research also provides the basis for protocols 
that reduce hospital-acquired infections, and improve patient 
confidence, experiences, and outcomes.
    The Coalition for Health Funding appreciates this opportunity to 
provide its fiscal year 2012 discretionary health funding 
recommendations and looks forward to working with the Subcommittee in 
the coming weeks and months.
                                 ______
                                 
    Prepared Statement of the Coalition for Health Services Research

    The Coalition for Health Services Research (Coalition) is pleased 
to offer this testimony regarding the role of health services research 
in improving our Nation's health. The Coalition's mission is to support 
research that leads to accessible, affordable, high-quality healthcare. 
As the advocacy arm of AcademyHealth, the Coalition represents the 
interests of more than 4,000 scientists and policy experts throughout 
the country and 160 organizations that produce and use research that 
improves health and healthcare. We advocate for the funding to support 
health services research and health data; better access to data and 
information to use in producing this research; and more transparent 
dissemination of the results of this research.
    Health services research studies how to make the healthcare system 
work better and deliver improved outcomes for more people, at great 
value. These scientific findings improve healthcare by informing 
patient and healthcare provider choices; enhancing the quality, 
efficiency, and value of the care patients receive; and improving 
patients' access to care. Health services research both uncovers 
critical challenges confronting our Nation's healthcare system, and 
seeks ways to address them. For example, health services research tells 
us:
  --Only 55 percent of adults receive recommended care and 47 percent 
        of children receive indicated care (McGlynn et al, 2003; 
        Mangione-Smith et al, 2007).
  --The increased prevalence of obesity is responsible for almost $40 
        billion of increased medical spending through 2006, including 
        $7 billion in Medicare prescription drug costs (Finkelstein, 
        2009).
  --How hospitals were able to achieve more than 60 percent reduction 
        in rates of bloodstream infections in very sick patients 
        (Pronovost et al, 2006).
  --More than 83,000 excess deaths each year could be prevented in the 
        United States if the health disparities could be eliminated 
        (Satcher et al, 2005).
  --The percentage of heart attack patients receiving needed 
        angioplasties within the recommended 90 minutes of arriving at 
        the hospital improved from just 42 percent in 2005 to 81 
        percent by 2008 (Agency for Healthcare Research and Quality, 
        2011).
    The primary economic rationale for a Government role in funding 
health services research is that the private market would not 
adequately supply for it, since the full economic value of the evidence 
is unlikely to accrue solely to its discoverer. Like any corporation 
making sure it is developing and providing high quality products 
through R&D, the Federal Government has a responsibility to get the 
most out of every taxpayer dollar it spends on Federal health 
programs--Medicare, Medicaid, veterans' and service members' 
healthcare--by funding research that helps enhance their performance.
    Finding new ways to get the most out of every healthcare dollar is 
critical to our Nation's long-term fiscal health. Funding for research 
on the quality, value, and organization of the health system will 
deliver real savings for the Federal Government, employers, insurers, 
and consumers. Research into the merits of different policy options for 
delivery system transformation, patient-centered quality improvement, 
community health, and disease prevention offers policymakers in both 
the public and private sectors the information they need to improve 
quality and outcomes, identify waste, eliminate fraud, increase 
efficiency and value, and promote personal responsibility.
    Despite the positive impact health services research has had on the 
U.S. healthcare system, and the potential for future improvements in 
quality and value, the United States spends less than 1 cent of every 
healthcare dollar on this research; research that can help Americans 
spend their healthcare dollars more wisely and make more informed 
healthcare choices.
    The Coalition for Health Services Research greatly appreciates the 
subcommittee's efforts to increase the Federal investment in health 
services research and health data. We respectfully ask that the 
subcommittee further strengthen capacity of health services research to 
address the pressing challenges America faces in providing access to 
high-quality, efficient care for all its citizens. The following list 
summarizes the Coalition's fiscal year 2012 funding recommendations for 
agencies that support health services research and health data under 
the subcommittee's jurisdiction.

Agency for Healthcare Research and Quality (AHRQ)
    AHRQ funds research and programs at local universities, hospitals, 
and health departments that improve healthcare quality, enhance 
consumer choice, advance patient safety, improve efficiency, reduce 
medical errors, and broaden access to essential services--transforming 
people's health in communities in every State around the Nation. The 
science funded by AHRQ provides consumers and their healthcare 
professionals with valuable evidence to make the right healthcare 
decisions for themselves and their families. AHRQ's research also 
provides the basis for protocols that prevent medical errors and reduce 
hospital-acquired infections, and improve patient confidence, 
experiences, and outcomes in hospitals, clinics, and physician offices.
    The Coalition joins the Friends of AHRQ--an alliance of more than 
250 health professional, research, consumer, and employer organizations 
that support the agency--in recommending an overall funding level of 
$405 million for AHRQ in fiscal year 2012, a 9 percent increase over 
fiscal year 2011 and a 10 percent increase over the President's fiscal 
year 2012 request. Within the funding provided to AHRQ, the Coalition 
recommends that the subcommittee support:
  --A Breadth of Research Topics.--During the last decade, AHRQ's 
        research portfolio has focused predominantly on patient safety 
        and healthcare quality. There has been less investment in 
        research that provides evidence to improve the efficiency and 
        value of the healthcare system itself. The Coalition is 
        grateful to the subcommittee for its leadership in building a 
        more balanced research agenda at AHRQ, and requests continued 
        support for all aspects of research outlined in AHRQ's 
        statutory mission, including the ways in which healthcare 
        services are organized, delivered, and financed.
  --Innovation through Competition.--Many of the sentinel studies that 
        have changed the face of health and healthcare in the United 
        States--diagnosis-related groups for hospital payments, check-
        lists for improved patient safety, geographic variation in 
        healthcare, re-hospitalizations among Medicare beneficiaries--
        are the result of ingenuity on the part of investigators and 
        rigorous, scientific competition. Federal support for 
        innovative approaches to problem solving increases 
        opportunities for constructive competition and creative 
        solutions. The Coalition is grateful to the subcommittee for 
        its leadership in recognizing the value of investigator-
        initiated research at AHRQ and requests sustained momentum for 
        these competitive, innovative grants that advance discovery and 
        the free marketplace of ideas.
  --The Next Generation of Researchers.--At the direction of the 
        subcommittee, AHRQ has doubled its investment in training 
        grants for the next generation of researchers. Still, training 
        grants for new researchers--both physicians and non-
        physicians--fall far short of what is needed to meet growing 
        public and private sector demands for health services research. 
        The Coalition appreciates the subcommittee's continuing support 
        of the next generation of researchers and requests that funding 
        for training grants be increased to ensure America stays 
        competitive in the global research market.
  --Research Translation and Dissemination.--Health services research 
        has great potential to improve health and healthcare when 
        widely used by patients, providers, and policymakers. The 
        Coalition recommends that the subcommittee support AHRQ's 
        research translation and dissemination activities, including 
        patient forums, practice-based research centers, and learning 
        networks. These programs are designed to move the best 
        available research and decisionmaking tools into healthcare 
        practice and thus enhance patient choice and improve healthcare 
        delivery.

Centers for Disease Control and Prevention (CDC)
    The National Center for Health Statistics (NCHS) is the Nation's 
principal health statistics agency. Housed within CDC, NCHS provides 
critical data on all aspects of our healthcare system through data 
cooperatives and surveys that serve as a gold standard for data 
collection around the world. The Coalition appreciates the 
subcommittee's leadership in securing steady and sustained funding 
increases for NCHS in recent years. Such efforts have allowed NCHS to 
reinstate some data collection and quality control efforts, continue 
the collection of vital statistics, and enhance the agency's ability to 
modernize surveys to reflect changes in demography, geography, and 
health delivery.
    We join the Friends of NCHS--a coalition of more than 250 health 
professional, research, consumer, industry, and employer organizations 
that support the agency--in endorsing the President's fiscal year 2012 
request of $162 million, a funding level that will build on previous 
investments and put the agency on track to become a fully functioning, 
21st century, national statistical agency.
    The Patient Protection and Affordable Care Act recognizes the need 
for linking the medical care and public health delivery systems by 
authorizing a new CDC research program to study public health systems 
and service delivery. If funded in fiscal year 2012, this program will 
identify effective strategies for organizing, financing, and delivering 
public health services in real-world community settings by, for 
example, comparing State and local health department structures and 
systems in terms of effectiveness and costs. The Coalition urges you to 
appropriate $35 million in fiscal year 2012 for Public Health Services 
and Systems Research at CDC, enabling us to study ways to improve the 
efficiency and effectiveness of public health service delivery.

National Institutes of Health (NIH)
    NIH reports that it spent $1.1 billion on health services research 
in fiscal year 2010--roughly 3.6 percent of its entire budget--making 
it the largest Federal sponsor of health services research. For fiscal 
year 2012, the Coalition joins the Ad Hoc Group for Medical Research in 
requesting $35 billion for NIH in fiscal year 2012, which would, based 
on historical funding levels, provide roughly $1.3 billion for the 
agency's health services research portfolio. The Coalition believes 
that NIH should increase the proportion of its overall funding that 
goes to health services research to ensure that discoveries from 
clinical trials are effectively translated into health services. We 
also encourage NIH to foster greater coordination of its health 
services research investment across its institutes.

Centers for Medicare and Medicaid Services (CMS)
    Steady funding reductions for the Office of Research, Development 
and Information have hindered CMS's ability to meet its statutory 
requirements and conduct new research to strengthen public insurance 
programs--including Medicare, Medicaid, and the Children's Health 
Insurance Program--which together cover nearly 100 million Americans 
and comprise almost half of America's total health expenditures. As 
these Federal entitlement programs continue to pose significant budget 
challenges for both Federal and State governments, it is critical that 
we adequately fund research to evaluate the programs' efficiency and 
effectiveness and seek ways to manage their projected spending growth.
    The Coalition supports an fiscal year 2012 base funding level of 
$40 million for CMS's discretionary research and development budget. 
This funding is a critical down payment to help CMS restore research to 
evaluate its programs, analyze pay for performance and other tools for 
updating payment methodologies, and further refine service delivery 
methods.
    In conclusion, the accomplishments of health services research 
would not be possible without the leadership and support of this 
subcommittee. Health services research will continue to yield valuable 
scientific evidence in support of improved quality, accessibility, and 
affordability of healthcare. We urge the subcommittee to accept our 
fiscal year 2012 funding recommendations for the Federal agencies 
funding health services research and health data.
    If you have questions or comments about this testimony, please 
contact our Washington, DC, representative, Emily Holubowich at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2e4b4641425b4c4159474d466e4a4d034d5c4a004d414300">[email&#160;protected]</a>
                                 ______
                                 
    Prepared Statement of the Coalition for International Education

    Mr. Chairman and Members of the Subcommittee: We are pleased to 
submit the views of the Coalition for International Education on fiscal 
year 2012 funding for the Higher Education Act, Title VI and the Mutual 
Educational and Cultural Exchange Act, Section 102(b)(6), commonly 
known as Fulbright-Hays. The Coalition for International Education 
consists of over 30 national higher education organizations with 
interest in the U.S. Department of Education's international and 
foreign language education programs. The Coalition represents the 
Nation's 3,300 colleges and universities, and organizations 
encompassing various academic disciplines, as well as the international 
exchange and foreign language communities.
    We express our deep appreciation for the Subcommittee's long-time 
support for the U.S. Department of Education's premier international 
and foreign language education programs noted above. We recognize the 
difficult decisions Congress and the Administration faced on education 
spending cuts for the remainder of fiscal year 2011, and now face for 
fiscal year 2012. However, we are deeply concerned over the severe and 
disproportionate $50 million or 40 percent cut to the Title VI/
Fulbright-Hays programs under H.R. 1473, the final fiscal year 2011 
Continuing Resolution agreement. Title VI/Fulbright-Hays contain 14 
small ``pipeline'' programs, 12 of which are under $20 million. A cut 
of this magnitude will seriously weaken our Nation's world-class 
international education capacity, which has taken decades to build and 
would be impossible to easily recapture. Among the first casualties 
likely will be the high-cost, low-enrollment critical language programs 
needed for national security, such as Pashto or Urdu.
    Today we strongly urge the Appropriations Committee to safeguard 
these programs by providing funding for them that is equal to their 
fiscal year 2010 funding levels in the fiscal year 2012 appropriations 
bill. For the International and Foreign Language Studies account, we 
urge a total of $125.881 million, which includes $108.360 million for 
Title VI-A&B; $15.576 million for Fulbright-Hays 102(b)(6); and $1.945 
million for the Institute for International Public Policy, Title VI-C.
    After 9/11, Congress began a decade of enhancements to Title VI/
Fulbright because of the sudden awareness of an urgent need to improve 
the Nation's in-depth knowledge of world areas and transnational 
issues, and fluency of U.S. citizens in foreign languages. 
Unfortunately these gains and many program enhancements on strategic 
world areas will be eliminated unless funding is restored to fiscal 
year 2010 levels.
    We believe maintaining a strong Federal role in these programs is 
critical to supporting our Nation's long-term national security, global 
leadership, economic competitiveness capabilities, as well as mutual 
understanding and collaboration around the world. Successful U.S. 
engagement in these areas, at home or abroad, relies on Americans with 
global competence, including foreign language skills and the ability to 
understand and function in different cultural and business 
environments.

Background and Federal Role
    In 1958 at the height of the cold war, Congress created NDEA-Title 
VI out of a sense of crisis about U.S. ignorance of other countries and 
cultures. Fulbright 102(b)(6) was created in 1961 and placed with Title 
VI to provide complementary overseas training. These programs have 
served as the lynchpin for producing international specialists for more 
than five decades, and continue to do so. Improving over time to 
address new global challenges and expanded needs across the Nation's 
workforce, 14 Title VI/Fulbright-Hays programs support activities to 
improve capabilities and knowledge throughout the educational pipeline, 
from K-12 through the graduate levels and advanced research, with 
emphasis on the less commonly-taught languages and areas, such as 
China, Russia, India and the Muslim world. Today they are the Federal 
Government's most comprehensive programs supporting the development of 
high quality national capacity in international, foreign language and 
business education and research. A March 2007 report by the National 
Academies of Sciences (NAS) concluded, ``Title VI/Fulbright-Hays serve 
as our Nation's foundational programs for building U.S. global 
competence.''
    This Federal-university partnership ensures resources and knowledge 
are available to meet national needs that are not priorities of 
individual States or universities. Federal resources are essential 
incentives to develop and sustain high-cost programs in the less 
commonly-taught languages and world areas, and provide extensive 
outreach and collaboration among educational institutions, government 
agencies, and corporations. Most of these programs would not exist 
without Federal support, especially at a time when State/local 
governments and institutions of higher education are financially 
strapped.

Why Investing in Title VI/Fulbright-Hays Is Important
    The NAS reported in 2007: ``A pervasive lack of knowledge about 
foreign cultures and foreign languages in this country threatens the 
security of the United States as well as its ability to compete in the 
global marketplace and produce an informed citizenry.''
    Government Needs.--The quantity, level of expertise, and 
availability of U.S. personnel with high-level expertise in foreign 
languages, cultures, and political, economic and social systems 
throughout the world do not match our national strategic needs at home 
or abroad. Some 80 Federal agencies depend in part on proficiency in 
more than 100 foreign languages; in 1985, only 19 agencies identified 
such requirements.

    ``Foreign language skills are vital to effectively communicate and 
overcome language barriers encountered during critical operations and 
are an increasingly key element to the success of diplomatic efforts, 
military operations, counterterrorism, law enforcement and intelligence 
missions, as well as to ensure access to Federal programs and services 
to Limited English Proficient (LEP) populations within the United 
States.'' David Maurer Testimony on Foreign Language Capabilities. 
Departments of Homeland Security, Defense, and State Could Better 
Assess their Foreign Language Needs and Capabilities and Address 
Shortfalls, GAO, July 2010
    ``As of October 31, 2008, 31 percent of Foreign Service officers in 
overseas language-designated positions (LDP) did not meet both the 
foreign languages speaking and reading proficiency requirements for 
their positions. State continues to face foreign language shortfalls in 
regions of strategic interest--such as the Near East and South and 
Central Asia, where about 40 percent of officers in LDPs did not meet 
requirements. Past reports by GAO, State's Office of the Inspector 
General, and others have concluded that foreign language shortfalls 
could be negatively affecting U.S. activities overseas.'' Comprehensive 
Plan Needed to Address Persistent Foreign language Shortfalls, GAO, 
September 2009.

    Workforce Needs.--National security is increasingly linked to 
commerce, and U.S. business is widely engaged around the world with 
joint ventures, partnerships, and economic linkages that require its 
employees to have international expertise both at home and abroad.

    ``Most of the growth potential for U.S. businesses lies in overseas 
markets. Already, one in five U.S. manufacturing jobs is tied to 
exports. Foreign consumers, the majority of whom primarily speak 
languages other than English, represent significant business 
opportunities for American producers, as the United States is home to 
less than 5 percent of the world's population. American companies lose 
an estimated $2 billion a year due to inadequate cross-cultural 
guidance for their employees in multicultural situations.'' Education 
for Global Leadership, Committee for Economic Development, 2006.

    Education Needs.--Education institutions at all levels are 
challenged to keep up with rapidly expanding 21st century needs for 
global competence.
  -- Although higher education foreign language enrollments have 
        increased and diversified over the past decade, according to 
        the Modern Language Association's 2010 survey, enrollments are 
        only 8.7 percent of total student enrollments, well behind the 
        1960 high point of 16 percent.
  -- Only 5 percent of all higher education students taking foreign 
        languages study non-European languages spoken by roughly 85 
        percent of the world's population.
  -- Less than 2 percent of students in U.S. postsecondary education 
        study abroad, and only about half studied outside Western 
        Europe. Yet, an educational experience abroad is an essential 
        element for achieving foreign language fluency, learning how to 
        function in other cultures, and developing mutual understanding 
        with others beyond our borders.
  -- U.S. educational institutions from K-16 face a shortage of 
        teachers and faculty with international knowledge and expertise 
        across the professions and across types of higher education 
        institutions. This problem is especially acute for foreign 
        language teachers of the less commonly taught languages.

What Title VI/Fulbright-Hays Programs Do
    Title VI/Fulbright programs produce U.S. experts, prepare Americans 
for the global workplace, and generate knowledge on the foreign 
languages and business, economic, political, social, cultural and 
regional affairs of other countries and world areas. Grantees also 
engage in extensive outreach and collaboration across the educational 
spectrum, and with business, government, the media and the general 
public. Title VI-funded centers are relied upon for their expertise by 
Federal agencies, corporations, and local school districts. Their many 
accomplishments include the following:

Language and Culture
    Through several pipeline programs, Title VI institutions provide 
the major, and often the only, source of national expertise and 
research on non-European countries and their languages.
    Title VI institutions account for 21 percent of undergraduate 
enrollment and 56 percent of graduate enrollment in the less commonly 
taught languages (LCTLs) such as Arabic and Chinese. For the least 
commonly taught languages such as Pashto and Urdu, Title VI 
institutions account for 49 percent of undergraduate and 78 percent of 
graduate enrollments.
    Title VI institutions provide instruction and R&D in over 130 
languages and in all world areas, and have the capacity to teach over 
200 languages. Because of the high cost per student, many of these 
languages would not be taught on a regular basis but for Title VI/
Fulbright support. In contrast, the Defense Language Institute (DLI) 
and the Foreign Service Institute (FSI) together offer instruction in 
only 75 LCTLs.
    Title VI/Fulbright programs support advanced research abroad in 
international, area and language studies--such as through the Fulbright 
programs and overseas research centers--that otherwise would have few 
or no other funding sources.
    Title VI programs support the development and maintenance of world 
class digital information resources in international, area and foreign 
language studies--using modern technologies for accessibility--that 
exist no where else in the world.
     Title VI/Fulbright programs provide opportunity and access to all 
types of institutions of higher education, including minority-serving 
institutions, community colleges, and small and medium-sized 4-year 
institutions. With seed funding from the Undergraduate International 
Studies and Foreign Language, Institute for International Public Policy 
and Fulbright programs, training, fellowship, scholarship and study 
abroad opportunities are provided to students, faculty and 
administrators.
     With enhancements provided by Congress between 2000-08, Title VI 
National Resource Centers increased annual job placements in key 
sectors. 2008 placements and percent increase over 2000: Federal 
Government 1,515 (+32 percent), U.S. military 552 (+20 percent), 
international organizations 1,567 (+22 percent), and higher education 
3,414 (+51 percent).
    During this same period, the NRCs have seen triple digit increases 
in courses and enrollments in critical languages. Between 2000 and 
2008, enrollments in Arabic increased from 5,218 to 16,721, in Chinese 
from 9,637 to 23,724, in Persian from 1,231 to 3,878, in Turkish from 
594 to 1,602, and in Urdu from 221 to 904.
    Examples of renowned graduates include Secretary of Defense Robert 
Gates, General John Abizaid, former Ambassador to Russia James Collins, 
advisor to six Secretaries of State Aaron David Miller, and NY Times 
Pulitzer prize-winning journalist Anthony Shadid.
International Business
    Title VI supports two important programs that internationalize 
business education, train Americans for the global workplace, and help 
U.S. small and mid-size businesses engage emerging markets: Centers for 
International Business Education and Research (CIBERs) and Business and 
International Education (BIE).
    CIBERs offer training at all levels of education in all 50 States, 
including training for managers already active in the workforce, and 
research on cutting edge issues affecting the U.S. business 
environment, the Nation's global economic competitiveness and homeland 
security.
    Before these programs were established, few business education 
programs in the United States incorporated a global dimension. Over 2 
million students have taken international business courses through 
CIBER programs and over 160,000 faculty have gained international 
business and cultural expertise through faculty programs, domestically 
and abroad.
    Over 42,000 language faculty have participated in over 900 
international business language workshops, and 4.5 million students 
across the United States have benefited from enhanced commercial 
foreign language instruction.

Outreach
    Title VI/Fulbright grantees provide access to international 
knowledge to other institutions of higher education, government, 
business, K-12 and the public through web resources, seminars, training 
and other means. Many educators, government agencies, nonprofit groups 
and corporations depend on these resources. Without Title VI/Fulbright 
funding, this outreach would disappear.
    Title VI National Resource Centers provide training and 
consultation for foreign language and area staff in many government 
agencies. For example, the U.S. Army Foreign Area Officer (FAO) Program 
sends its officers to Title VI centers for their M.A. in language and 
area studies training and has done so since the inception of the FAO 
program three decades ago.
    Title VI Language Resource Centers (LRC) train an estimated 2,000 
teachers annually, and develop resources in critical languages used by 
educators and government agencies. For example, an LRC recently 
developed a free iPad app that provides tutorials in Pashto for U.S. 
soldiers in Afghanistan.
    CIBER and BIE grantees work closely with the U.S. Department of 
Commerce and with the local District Export Councils on export 
development. In response to President Obama's 2010 National Export 
Initiative (NEI), the CIBERs continue to expand the global knowledge 
base of U.S. companies, enabling and assisting them to export their 
goods and services especially to the BRIC and other emerging markets. 
By enabling small and mid-sized U.S. business to increase exports, 
CIBER/BIE activities support job creation in America and reduction of 
the trade deficit.
    Title VI grantees also work extensively with minority-serving 
institutions of higher education, community colleges and K-12 on 
language and culture programs, as well as with the media to promote 
citizen understanding of complex global issues.
    Clearly, this Federal-higher education partnership pays dividends 
that vastly outweigh the small 0.2 percent investment within the 
Department of Education's budget.
                                 ______
                                 
      Prepared Statement of the Coalition for Workforce Solutions

    I represent The Coalition for Workforce Solutions (CWS), a national 
organization exclusively representing employers, workforce development 
providers, vendors and service organizations that operate and utilize 
One-Stop Career Centers, Temporary Assistance for Needy Families 
initiatives, career and technical education programs and workforce 
investment services. Members of CWS are proud to play a role in our 
workforce system as it promotes economic growth while giving 
unemployed, underemployed and disadvantaged workers an opportunity to 
gain new skills.
    Today, while the Nation faces many complex challenges in light of 
mass layoffs and business realignments, the private sector is showing 
signs of recovery and businesses new and old need increased assistance 
in addressing their workforce needs. And our national network of WIA 
supported workforce services is in a unique position not only to train 
workers for economic recovery, but to match large and small employers 
with qualified workers in advanced manufacturing, healthcare, energy 
and other high-growth sectors. As the economy grows, our workforce 
system should be maintained and strengthened, not reduced or targeted 
for elimination.
    We understand the budget issues and the need for debt reduction. We 
are confident that through integration of workforce services there is 
the capacity to maintain the existing level of service to the job 
seekers and employers. We look to the State of Florida and Texas as the 
model of integrated services for replication nationwide. This will 
ensure our workforce development and job-training system continues its 
vital support for businesses of all sizes to create and retain jobs, 
provide needed skills and transition assistance to workers, and enhance 
economic growth through the private sector in thousands of communities 
around the country.
    Our Nation's workforce systems funded through WIA have become 
critical partners in regional economic development efforts--from 
directly supporting efforts to recruit new businesses (by offering 
access to skilled workers and employment and training incentives), to 
saving money for local businesses as they begin to rehire workers. The 
programs also assist businesses to avert layoffs through skills 
upgrading, and support businesses that are closing or downsizing. These 
partnerships with employers and economic development services are 
critical to helping businesses survive and contribute to regional 
economic growth and prosperity. Now is not the time to take away these 
vital services when economic growth is paramount to our recovery and 
competitiveness.
    WIA has experienced a 234 percent increase in demand for services 
since the onset of the recession and demand remains steady as the 
economy grows. It is easy to see why this is so: the one-stop system 
supported with WIA funds fosters community partnerships that drive job 
creation and economic recovery efforts while also providing vital labor 
market information, skills assessments, career guidance, counseling, 
employment assistance, support and training services to jobseekers and 
workers who need help in getting good jobs.
    In every State and region, the workforce system addresses the needs 
of business so that local companies can remain competitive. By building 
relationships with community development organizations and local 
officials, businesses are provided with a collaborative network of 
support that is best-suited to the needs of employers. Only this system 
can provide businesses with the resources they can use to survive and 
thrive in this difficult economic time.
    In fact, the workforce system is the only system of its kind to 
engage employers and address the kind of compelling challenges that 
business face in the following areas:
  --Reducing turnover in entry level occupations in high growth 
        industries such as healthcare through early immersion and 
        career ladder programs.
  --Finding the talent that advanced manufacturing companies need to 
        compete by training workers in new skills and providing the 
        next generation of workers a path to the modern workforce.
  --Supporting economic development and business attraction activities 
        so that new employers and manufacturers get assistance in 
        determining local infrastructure, specific fits for training 
        needs, and whatever it takes to be successful.
  --Preparing youth in high demand IT careers as well as providing soft 
        skills training, job search preparation, coaching and the life 
        transforming skills that businesses need to develop a stable, 
        high-quality workforce.
  --Improving hiring efficiency such that employers improve their 
        application conversion rate by 50 percent through collaborative 
        partnerships with the workforce system that produce qualified 
        candidates with the right skill-sets, dedication and motivation 
        that employers need.
    Businesses as well as jobseekers and workers benefit from WIA 
services. Research indicates that the workforce system produces a high 
return on investment. Last year, over 8 million job-seekers utilized 
the workforce system and over 4.3 million of them got jobs. While this 
is less than the normal 80 to 85 percent placement rate common in 
stronger economic times, the recent job environment had four jobseekers 
for every one vacancy. However, when jobs were simply not available, 
the system placed many of the unemployed in education and training 
programs that will lead to good new jobs.
    The system is also effective. According to an Upjohn Institute 
Study, positive and statistically significant results were found for 
WIA Adult Program participants and for the Dislocated Worker Program. 
Furthermore, these employment and training services were shown to 
reduce reliance on public assistance. The average duration on TANF 
public assistance also was reduced by several percentage points for 
those participating in WIA or TANF welfare-to-work programs. One can 
conclude from a variety of studies that WIA training services raise 
employment rates and earnings while reducing reliance on TANF.
    Many CWS members are private businesses that struggle everyday with 
budgets, so we can appreciate the need to make tough decisions. Since 
job creation is a priority for the Congress and since workers pay taxes 
and reduce pressure on public programs, maintaining support for the 
workforce system should remain a top priority. The workforce system is 
a critical partner in the Nation's economic recovery as it trains and 
retrains workers to meet the demands of our changing economy. In our 
judgment, this system is essential to addressing the employment needs 
of the more than 14 million unemployed in this country--we cannot 
afford to lose this valuable resource.
    Nevertheless, Congress recently reduced WIA's three State/local 
program sections by about $307 million below the fiscal year 2010 
levels enacted in Public Law 111-117. Overall, the last CR provides 
about $2.8 billion for job-training State grants for adult employment, 
youth activities, and dislocated workers. The more than $1 billion in 
reductions to key job training and education programs equate to more 
than 10 percent less than fiscal year 2010 enacted levels.
    While funding for Program Year 2011 is now set, the spending 
agreement covers only the first quarter of the next WIA program year 
ending September 30, 2011. Funding for the final three quarters will be 
contained in the fiscal year 2012 appropriations.
    Many WIA programs have received funding reductions in real dollar 
terms in recent years--these programs are significantly underfunded 
already relative to their mission. Congress should use the findings of 
duplication and overlap in workforce programs not to make further 
reductions but rather to work with the House Education and Workforce 
Committee to achieve better coordination and integration of services.
    Despite the significant cuts in the latest CR, the bill represents 
substantial progress for thousands of jobseekers and employers across 
the country who informed their policymakers on the critical benefits of 
our workforce system. We are encouraged to see that Congress has 
rejected the severest cuts proposed early this year and we hope there 
is a more accurate picture for fiscal year 2012 emerging of how WIA 
programs help employers find qualified workers and train workers for 
new careers.
    In short, CWS will work with Members of this Committee, the 
authorizing committees and other Members of Congress as they consider 
policies to better align planning and service delivery, and strengthen 
the overall system. As issues develop, there will be discussions about 
expectations for the future of the workforce system. Here are some 
issues of primary importance to CWS:
  --Enhancing WIA accountability and driving high performance;
  --Empowering Workforce Investment Boards to play a strategic role 
        that promotes coordination and integration of services across 
        federally funded systems;
  --Serving disadvantaged and underserved populations; and
  --Sharing and promoting best practices throughout the system.
    CWS believes that WIA's core services and training have paid off in 
terms of higher employment rates and improved earnings for dislocated 
workers, the unemployed and disadvantaged youth and adults. As Members 
of the Committee examine the facts concerning WIA services, we trust 
that they will agree that the workforce system provides vital services 
to businesses and jobseekers. Thank you for your consideration of my 
testimony.
                                 ______
                                 
   Prepared Statement of the Coalition for the Advancement of Health 
             Through Behavioral and Social Science Research

    Mr. Chairman and Members of the Subcommittee, the Coalition for the 
Advancement of Health Through Behavioral and Social Science Research 
(CAHT-BSSR) appreciates and welcomes the opportunity to comment on the 
fiscal year 2012 appropriations for the National Institutes of Health 
(NIH). CAHT-BSSR includes 14 professional organizations, scientific 
societies, coalitions, and research institutions concerned with the 
promotion of and funding for research in the social and behavioral 
sciences. Collectively, we represent more than 120 professional 
associations, scientific societies, universities, and research 
institutions.
    CAHT-BSSR would like to thank the Subcommittee and the Congress for 
their continued support of the NIH. Strong sustained funding is 
essential to national priorities of better health and economic 
revitalization. Providing adequate resources in fiscal year 2012 that 
allow the NIH to keep up with the rising costs of biomedical, 
behavioral, and social sciences research will help NIH begin to prepare 
for the era beyond recovery. We recognize that these are difficult 
times for our Nation, but at the same time, it is essential that 
funding in fiscal year 2012 and beyond allow the agency to resume 
steady, sustainable growth of the foundation of knowledge built through 
NIH-funded research at more than 3,000 universities, medical schools, 
teaching hospitals, and research institutions. CAHT-BSSR supports the 
NIH fiscal year 2012 request of $31.7 billion, at a minimum, and joins 
the Ad Hoc Group for Medical Research in its request for $35 billion in 
funding for NIH in fiscal year 2012.
    NIH Behavioral and Social Sciences Research.--NIH supports 
behavioral and social science research throughout most of its 27 
institutes and centers. The behavioral and social sciences regularly 
make important contributions to the well-being of this Nation. Due in 
large part to the behavioral and social science research sponsored by 
the NIH, we are now aware of the enormous contribution behavior makes 
to our health. At a time when genetic control over diseases is 
tantalizingly close but not yet possible, knowledge of the behavioral 
influences on health is a crucial component in the Nation's battles 
against the leading causes of morbidity and mortality: obesity, heart 
disease, cancer, AIDS, diabetes, age-related illnesses, accidents, 
substance use and abuse, and mental illness.
    As a result of the strong congressional commitment to the NIH in 
years past, our knowledge of the social and behavioral factors 
surrounding chronic disease health outcomes is steadily increasing. The 
NIH's behavioral and social science portfolio has emphasized the 
development of effective and sustainable interventions and prevention 
programs targeting those very illnesses that are the greatest threats 
to our health, but the work is just beginning.
    From global warming to unlocking the secrets of memory; from self 
destructive behavior, such as addiction, to lifestyle factors that 
determine the quality of life, infant mortality rate and longevity; the 
grandest challenge we face is understanding the brain, behavior, and 
society. Nearly 125 million Americans are living with one or more 
chronic conditions, like heart disease, cancer, diabetes, kidney 
disease, arthritis, asthma, mental illness and Alzheimer's disease. 
Significant factors driving the increase in healthcare spending in the 
United States are the aging of the U.S. population, and the rapid rise 
in chronic diseases, many of which can be caused or exacerbated by 
behavioral factors. Obesity may be the result of sedentary behavior and 
poor diet; and addictions, resulting in health problems caused by 
tobacco and other drug use. Behavioral and social sciences research 
supported by NIH is increasing our knowledge about the factors that 
underlie positive and harmful behaviors, and the context in which those 
behaviors occur.
    CAHT-BSSR continues to applaud the Congress' and NIH's recognition 
that the ``scientific challenges in developing an integrated science of 
behavior change are daunting.'' The agency's efforts to launch the 
basic behavioral and social science research trans-NIH initiative, 
Opportunity Network for Basic Behavioral and Social Sciences Research 
(OppNet), likewise, is applauded. OppNet is designed to examine the 
important scientific opportunities that cut across the structure of NIH 
and designed to look for strategic opportunities to build areas of 
research where there are gaps that have the potential to affect the 
missions of multiple institutes and centers. Research results could 
lead to new approaches for reducing risky behaviors and improving 
health.
    Equally, we commend the agency's support of the ``Science of 
Behavior Change'' Common Fund Initiative included in the third cohort 
of research areas for the Common Fund. We agree with the goals of this 
Common Fund Pilot to ``establish the groundwork for a unified science 
of behavior change that capitalizes on both the emerging basic science 
and the progress already made in the design of behavioral interventions 
in specific disease areas. By focusing basic research on the 
initiation, personalization, and maintenance of behavior change, and by 
integrating work across disciplines, this Common Fund effort and 
subsequent trans-NIH activity could lead to an improved understanding 
of the underlying principles of behavior change. This should drive a 
transformative increase in the efficacy, effectiveness, and (cost) 
efficiency of many behavioral interventions.''
    With the recent passage of healthcare reform legislation, there has 
been the accompanying and appropriate attention to the issue of 
personalized healthcare. CAHT-BSSR believes that personalization needs 
to reflect genes, behaviors, and environments. And as the agency has 
acknowledged with its recent support of the Science of Behavior Change 
initiative, assessing behavior is critical to helping individuals see 
how they can improve their health. It is also critical to helping 
healthcare systems see where to put resources for behavior change. 
Fortunately, the NIH acknowledges the need to focus less on finding the 
``magic answer'' and, at the same time, recognizes that healthcare is 
different from region to region across the country. Full 
personalization needs to consider the environmental, community, and 
neighborhood circumstances that govern how individuals' genes and 
behavior will influence their health. For personalized healthcare to be 
realized, we need a sophisticated understanding of the interplay 
between genetics and the environment, broadly defined.
    In fiscal year 2012, NIH priorities include establishment of the 
National Center for Advancing Translational Sciences (NCATS) intended 
to align and bring together a number of trans-NIH programs that do not 
have a specific disease focus in one organization. As with development 
of more effective drugs, surgical techniques and medical devices, the 
development of more powerful health-related behavioral interventions is 
dependent on improving the understanding of human behavior, and then 
translating that knowledge into new and more effective interventions 
with enduring effects. It is critical that the NIH support for 
translational research extends to translation research designed to 
adapt findings from basic behavioral and/or social science research to 
develop behavioral interventions directed at improving health-related 
behaviors such as adequate physical activity and nutrition, learning 
and learning disabilities, and preventing or reducing health-risking 
behaviors including tobacco, alcohol, and/or drug abuse, and 
unprotected sexual activity. CAHT-BSSR strongly believes that the 
translation of behavioral interventions is a critical part of the NCATS 
initiative and must be accompanied by sufficient staff expertise and 
resources to manage research on the translation of behavioral 
interventions into communities.
    CAHT-BSSR applauds the NIH's recognition of a unique and compelling 
need to promote diversity in health-related research. The agency 
expects these efforts to lead to: the recruitment of the most talented 
researchers from all groups; an improvement in the quality of the 
educational and training environment; a balanced perspective in the 
determination of research priorities; an improved ability to recruit 
subjects from diverse backgrounds into clinical research; and an 
improved capacity to address and eliminate health disparities. Numerous 
studies provide evidence that the biomedical and educational enterprise 
will directly benefit from broader inclusion.
    NIH recognizes that developing a more diverse and academically 
prepared workforce of individuals in STEM (science, technology, 
engineering, and math) disciplines will benefit all aspects of 
scientific and medical research and care. CAHT-BSSR applauds the 
agency's recognition that, to remain competitive in the 21st century 
global economy, the Nation must foster new opportunities, approaches, 
and technologies in math and science education.
    This recognition extends to the need for a coordinated effort to 
bolster STEM education nationwide, starting at the earliest stages in 
education. Unfortunately, the narrow perception of ``science'' 
persists, and the social and behavioral sciences are often excluded in 
discussion of STEM issues and remain outside of the science education 
curriculum. The considerable activity on STEM education provides the 
opportunity to improve the recognition of social and behavioral 
sciences as ``science.''
    In 2010, the NIH commissioned the Institute of Medicine (IOM) to do 
a study surrounding LGBT (lesbian, gay, bisexual, and transgender) 
health issues, research gaps and opportunities. The recently released 
study, The Health of Lesbian, Gay, Bisexual, and Transgender People, 
examined the current state of knowledge on LGBT health, including 
general health concerns and health disparities, identified research 
gaps and opportunities; and outlined a research agenda which reflects 
the most pressing areas, specifically demographic research, social 
influences, healthcare inequities, intervention research, and 
transgender-specific health needs.

         NIH OFFICE OF BEHAVIORAL AND SOCIAL SCIENCES RESEARCH

    The NIH Office of Behavioral and Social Sciences Research (OBSSR), 
authorized by Congress in the NIH Revitalization Act of 1993 and 
established in 1995, serves as a convening and coordinating role among 
the institutes and centers at NIH. In this capacity, OBSSR develops, 
coordinates, and facilitates the social and behavioral science research 
agenda at NIH; advises the NIH director and directors of the 27 
institutes and centers; informs NIH and the scientific and lay publics 
of social and behavioral science research findings and methods; and 
trains scientists in the social and behavioral sciences. For fiscal 
year 2012, CAHT-BSSR supports a budget of $38.2 million for OBSSR. This 
sum reflects the Administration's request of $28 million for OBSSR and 
includes the $10 million needed to support the NIH-wide commitment to 
carry out OppNet, an initiative strongly supported by the Subcommittee. 
The OppNet initiative has made significant progress since its start. 
Thus far, OppNet has awarded 35 competitive revisions to add basic 
science projects to existing research project grants. Eight competitive 
revisions to Small Business Innovation Research/Small Business 
Technology and Transfer projects have been awarded. OppNet has also 
provided the much-needed training in basic social and behavioral 
sciences research.
    In fiscal year 2012, OBSSR intends partner with the NIH institutes 
and centers and other Federal agencies to fund Mobile Technology 
Research (mHealth) to Enhance Health. Recent advances in mobile 
technologies and the use of these technologies in daily life have 
created opportunities for research applications that were not 
previously possible, such as assessing behavioral and psychological 
states in real time. To make use of this technology as effective as 
possible there is a need to integrate the behavioral, social sciences, 
and clinical research fields. The NIH mHealth Summer Institute is 
designed to address the lack of integration of these fields.
    Over the years, OBSSR has sponsored summer training institutes for 
scientists interested in social and behavioral science research areas. 
The interest in these training sessions have been overwhelming and have 
exceeded the Office's capacity to provide the opportunity for 
scientists and researchers to gain critical training in these areas. 
These institutes include training in: systems science methodology and 
health; randomized clinical trials involving behavioral interventions; 
dissemination and implementation research in health; and mobile health. 
The Dissemination and Implementation Research in Health training 
institute, for example, features a faculty of leading experts from a 
variety of behavioral and social science disciplines and is designed to 
empower scientists to conduct this research. Drawing from these 
disciplines, dissemination and implementation research uses approaches 
and methods that in the past have not been taught comprehensively in 
most graduate degree programs. Given the demand for the training these 
institutes provide and the potential this research has for propelling 
the science forward, CAHT-BSSR believes that greater collaboration with 
the NIH institutes and centers is needed to meet the demand.
    CAHT-BSSR would be pleased to provide any additional information on 
these issues. Below is a list of coalition member societies. Again, we 
thank the Subcommittee for its generous support of the National 
Institutes of Health and for the opportunity to present our views.

                               CAHT-BSSR

American Association of Geographers
American Educational Research Association
American Psychological Association
American Sociological Association
Association of Population Centers
Consortium of Social Science Associations
Council on Social Work Education
Federation of Associations in Behavioral & Brain Sciences
National Association of Social Workers
National Communication Associations
Population Association of America
Society for Behavioral Medicine
Society for Research in Child Development
The Alan Guttmacher Institute (AGI)
                                 ______
                                 
     Prepared Statement of the Coalition of Heritable Disorders of 
                           Connective Tissue

    Chairman Tom Harkin, Chairman, and Richard Ranking Member Shelby, 
and members of the Subcommittee: the Coalition of Heritable Disorders 
of Connective Tissue thanks you for the opportunity to submit testimony 
regarding the fiscal year 2012 budget for the National Heart, Lung and 
Blood Institute (NHLBI), the National Institute of Arthritis, 
Musculoskeletal and Skin Diseases, (NIAMS), and the NIH Office of 
Research Information Services/Office of Extramural Research. We are 
extremely grateful for the Subcommittee's strong support of the NIH, 
particularly as it relates to life threatening genetic disorders such 
as Heritable Disorders of Connective Tissue. Thanks to your leadership, 
we are at a time of unprecedented hope for patients with these 
diseases.
    It is estimated that over 1 million people in the United States are 
affected by Heritable Disorders of Connective Tissue (HDCT). These 
disorders manifest themselves in many areas of the body, including the 
heart, eyes, skeleton, lungs and blood vessels. Connective tissue is 
the ``glue'' that holds the body together. These disorders are 
progressive conditions caused by genetic mutations and cause 
deterioration in each of these body systems. The most life-threatening 
are those which affect the aorta and the heart--the most disabling are 
orthopedic and ophthalmological.
    Some 60 years ago, Victor McKusick, the ``father'' of modern 
medical genetics, described and coined the term ``heritable disorders 
of connective tissues.'' These disorders included over 200 such rare 
disorders, among which were the Marfan syndrome, Weill-Marchesani 
syndrome, Ehlers-Danlos syndrome, Cutis Laxa, Osterogenesis imperfecta, 
the chondrodysplasias, and Pseudoxanthoma elasticum (Heritable 
Disorders of Connective Tissue, McKusick, Va 1972).
    Awareness of these disorders has grown through the years due to 
collaborative research. Clues to the underlying causes of these 
diseases were obtained from the major manifestations found in the 
connective tissue and elaboration of connective tissue pathways 
involving identified disease genes and their protein products uncovered 
additional disease genes with related connective tissue manifestations. 
Identification of disease genes have led to surprising new information 
regarding important connective tissue pathways depending on the history 
of the particular disorder. Thus, the concept of the heritable 
disorders of connective tissue have reiterated and epitomized important 
lessons regarding how the connective tissue integrates cellular and 
organ function.

National Heart Lung and Blood Institute
    Thanks to research funded by the NHLBI, we have seen amazing 
responses to HDCT disorders with cardiovascular disease. In the 1960s 
there was no intervention available, not even surgery for heart defects 
and dissection, this before the development of the ``heart-lung'' 
machine. It was not so long ago, when in the early 1960s, a 13 year old 
girl with Marfan syndrome was sent home from the hospital to die since 
there was no surgical intervention possible for her dissecting 
aneurysm. Early on, surgery required replacing the aortic valve with an 
animal's heart, further research used a mechanical valve, and then came 
the sturdy composite graft, which became the ``Cadillac'' of surgical 
repair. Although the valve sparing method was used throughout this 
time, it has been continually improved to address the compromised 
tissue regarding longevity. Now we are seeing additional 
``translational'' clinical trials, which look at therapies for 
prevention as well as surgical response. It is important to remember 
these amazing leaps and bounds in medical, surgical and technological 
advancement.
    NHLBI support has been essential in promoting research 
collaboration. The Pediatric Heart Network, a cooperative network of 
pediatric cardiovascular clinical research centers, serves as a data 
coordinating center to promote the exchange of information to evaluate 
therapeutic and management strategies for children and adults with 
congenital and genetic heart defects.
    NHLBI funded Clinical Trials in the use of Losarton have led to 
exciting new findings and pointed the way in future research 
directions. It has inspired current concepts of architectural and 
signaling pathways underlying the various heritable disorders of 
connective tissue in order to integrate these concepts in new 
productive ways. For example, can the recent advances in treating 
Marfan syndrome with TGF beta inhibitors and Losarton be applied to 
other heritable disorders of connective tissue? Does TGF beta signaling 
play pathological roles in other disorders? For another example, is 
there an important adhesion junction of architectural pathway that 
connects the vascular smooth muscle cell to the extracellular matrix? 
And, again: How do cell surface receptors (integrin and growth factor 
receptors) coordinate architectural and signaling pathways in 
connective tissue disorders? All pointing to future research avenues.

National Institute of Arthritis, Musculoskeletal and Skin Diseases
    The collaboration of NHLBI and NIAMS has provided an even greater 
overview of the information gleaned from the Losarton clinical trial 
and a global view of these mult-system disorders. The muscular and 
orthopedic involvement is being addressed by the NIAMS. Through NIAMS 
support, there is a meeting in July, which is devoted to 
``Translational'' avenues grown of current research progress in the 
understanding of heritable disorders of connective tissue. Great 
progress in the understanding of HDCT has been made over the past 15 
years through NIAMS supported workshops on Heritable Disorders of 
Connective Tissue. Symposia have been convened in 1990, 1995, and 2000. 
In 1990 and 1995, the emphasis was on finding the genes for the various 
heritable disorders and understanding whether mutations could be 
correlated with specific phenotypes. Many of these goals have been met, 
due to research supported in large part by the NIAMS. In 2000, meeting 
themes were intentionally broader, focusing on multidisciplinary 
approaches and common themes in matrix biology in order to (1) promote 
a better understanding of pathogenesis of connective tissue disorders, 
(2) stimulate new collaborations between investigators, and (3) 
identify areas in which rapid progress could be made. In the decade 
since the 2000 Workshop, tremendous progress has been made, leading 
notably to new therapies. An example of this is Marfan syndrome, for 
which a clinical trial is underway to test for a therapy, which may 
prove to play a pivotal role in preventing heart disease. Epidermolysis 
bullosa is another disease--for which a research has improved prospects 
for new therapies, as well as for a number of other heritable disorders 
of connective tissue.
    Research has emphasized an understanding of the role of cells in 
developing treatments for connective tissue disorders. The success of 
bone marrow transplantation in treating Epidermolysis Bullosa has 
called attention to this area. While connective tissue researchers have 
been interested in stem cell treatments--Osteogenesis imperfecta, for 
example--more discussion and emphasis in this area are needed.
    The impact of this collaboration between these similar disease 
entities in heritable disorders of connective tissue continues to be of 
major importance. We are moving rapidly from the ``bench to the 
patient,'' from basic research to the important translational benefit 
of research findings to treatments which directly benefit the patient. 
The collaboration between the basic research and clinical studies is 
what we are able to focus on in these disorders for the benefit of all 
disease groups.

NIH/Office of Research Information Services/Office of Extramural 
        Research--RePorter
    The National Institute of Health (NIH) has established the NIH 
RePorter, or research/condition/disease category (RCDC) which provides 
easy retrieval of information on scientific projects and studies. This 
excellent new tool provides information on research results, expediting 
access and the avoidance of duplication and is located in the Office of 
Research Information Services/Office of Extramural Research. It 
provides access to research information on all disease groups. We urge 
the inclusion of the category ``Heritable Disorders of Connective 
Tissue'' (HDCT) in order to facilitate the exchange of information in 
the research community of these similar disorders.
    What is so important about the study of these disorders is their 
very complexity--with genetic origins, requiring basic science for 
understanding, and clinical trials in order to maximize the 
translational advantages of this research. The mutations of HDCT affect 
all body systems and require particular depth of investigation. This 
very complexity informs the researcher, as well as contributes to the 
understanding of other more common disorders. Research on these 
disorders in all of the body systems, will ``spill'' over into research 
into many of the categories identified in both the short range and the 
long range strategic plans for NHLBI and NIAMS, and provide benefits 
for many diseases beyond the scope of HDCT.

About the Coalition of Heritable Disorders of Connective Tissue (CHDCT)
    The CHDCT is a nonprofit voluntary health organization founded in 
1989, dedicated to saving lives and improving the quality of life for 
individuals and families affected by any 1 of the over 200 Heritable 
Disorders of Connective Tissue. The mission is to raise awareness of 
these disabling and often deadly disorders and to support and promote 
research and collaboration between researchers in the field.
    We thank you for this opportunity to thank the Committee for its 
past support and to voice the interests and concerns of the CHCDT 
member organizations relating to future priorities of NHLBI and the 
NIAMS.
                                 ______
                                 
Prepared Statement of the Commissioned Officers Association of the U.S. 
                         Public Health Service

    On behalf of the Commissioned Officers Association of the U.S. 
Public Health Service, Inc. (COA), and in the context of the 
President's fiscal year 2012 budget request, I respectfully ask to 
submit this statement for the record. I speak for our Association's 
members, all of whom are active-duty or retired officers of the 
Commissioned Corps of the U.S. Public Health Service (USPHS).
    We respectfully make two funding requests: Support for a pilot 
program to recruit and train public health doctors, dentists, and 
nurses for careers in the Commissioned Corps of the U.S. Public Health 
Service (USPHS), and support for the establishment of a USPHS Ready 
Reserve component. Congress authorized both programs last year, and 
directed the Department of Health and Human Services to implement them.

                   U.S. PUBLIC HEALTH SCIENCES TRACK

    First, we ask this subcommittee to approve $30 million to establish 
a scaled-back version of the public health workforce training program 
for would-be USPHS officers that was authorized by the Patient 
Protection and Affordable Care Act (Public Law 111-148). This pilot 
program would be based first at the Uniformed Services University of 
the Health Sciences (USUHS), which is the dedicated medical school and 
research institute for uniformed services personnel (Army, Navy, Air 
Force, Public Health Service.) Additional schools would be selected by 
the Surgeon General as provided for in law.

Background and Rationale
    USPHS health professionals serve the health needs of the Nation's 
most underserved populations. They also serve side-by-side with Armed 
Forces personnel at home and abroad, on joint training missions, and 
even in forward operating bases in combat zones. USPHS psychiatric 
nurses have treated injured soldiers under fire in Afghanistan. At 
home, USPHS psychologists and other mental health specialists have been 
detailed to the military to treat returning soldiers and Marines 
suffering from traumatic brain injury and post-traumatic stress 
disorder. The PHS Commissioned Corps is a public health and national 
security force multiplier.
    The original proposal, set forth in Section 5315 of PPACA, would 
have established a ``U.S. Public Health Sciences Track'' providing for 
a total of 850 annual scholarships for medical, dental, nursing, and 
public health students who commit to public service careers in the 
USPHS. Such a program would be the first of its kind, the first 
dedicated pipeline into the USPHS Commissioned Corps.

Funding
    The PPACA provisions authorizing the U.S. Public Health Sciences 
Track also identified an existing source of funds within the Department 
of Health and Human Services (DHHS). Support was to come from the 
Public Health and Social Services Emergency Fund. The law directed the 
DHHS Secretary to ``transfer from the Public Health and Social Services 
Emergency Fund such sums as may be necessary'' (Sec. 274). The language 
in the PPACA is clear and straightforward, but, for reasons unknowable 
to this Association, the directed funding transfer has not occurred.

                          USPHS READY RESERVE

   This Association's second request is for sufficient funding to 
establish a Ready Reserve component within the USPHS Commissioned 
Corps. We ask the subcommittee to appropriate $12,500,000 annually 
through fiscal year 2014 for this purpose. Creation of a USPHS Ready 
Reserve was approved by Congress last year as part of the PPACA 
(Section 5210). Lawmakers wanted to bring the structure of the USPHS 
into line with that of its sister services in the Department of 
Defense; that objective is articulated several times in the text of the 
legislation.
    The text of the law speaks to congressional intent with unusual 
specificity. Lawmakers wanted to establish a USPHS Ready Reserve Corps 
``for service in time of national emergency;'' that is, to enhance the 
capability of the USPHS to respond to natural disasters, terrorist 
incidents, and other public health emergencies ``both foreign and 
domestic.'' This reflects the growing realization that protection of 
the public's health is a fundamental component of national security.
    Congress intended that USPHS Ready Reserve personnel would be 
``available on short notice.'' They would be ``available and ready for 
involuntary calls to active duty during national emergencies and public 
health crises.'' They would be available for ``backfilling critical 
positions left vacant'' when active-duty USPHS personnel are deployed 
in response to public health emergencies, both foreign and domestic'' 
and, finally, they would also ``be available for service assignments in 
isolated, hardship, and medically underserved communities.'' Absent the 
appropriated funding necessary to meet these legal obligations, the 
Nation has no public health emergency response capacity.

                               CONCLUSION

    This Association recognizes, of course, that start-up and even 
continued funding of various provisions of PPACA are a matter of 
ongoing debate and very much in doubt. But these two provisions--
creation of a USPHS Ready Reserve and establishment of a pilot program 
at USUHS--warrant broad bipartisan support. They are modest, practical, 
and well thought-through, and they speak to the short-term and long-
term national security needs of this country.
    I would be pleased to expand on these points or to answer any 
questions. I can be reached at the COA offices at 301-731-9080, ext. 
211.
                                 ______
                                 
     Prepared Statement of the Council of Academic Family Medicine

    On behalf of the Council of Academic Family Medicine (CAFM) 
(Association of Departments of Family Medicine, Association of Family 
Medicine Residency Directors, North American Primary Care Research 
Group, and Society of Teachers of Family Medicine), we are pleased to 
submit testimony on behalf of several programs under the jurisdiction 
of the Health Resources and Services Administration (HRSA) and the 
Agency for Healthcare Research and Quality (AHRQ). We thank you for 
your continued support for programs that encourage the development of 
primary care physicians to serve our countries healthcare needs. Your 
fiscal year 2011 committee passed budget was encouraging as a signal of 
your recognition for the need to invest in these important health 
professions and workforce programs.
    Members of both parties agree there is much that must be done to 
support primary care production and nourish the development of a high 
quality, highly effective primary care workforce to serve as a 
foundation for our healthcare system. Providing strong funding for 
these programs is essential to the development of a robust workforce 
needed to provide this foundation.

Primary Care Training and Enhancement
    The Primary Care Training and Enhancement Program (Title VII 
Section 747 of the Public Health Service Act) has a long history of 
providing indispensible funding for the training of primary care 
physicians. With each successive reauthorization, Congress has modified 
the Title VII health professions programs to address relevant workforce 
needs. The most recent authorization directs the Health Resources and 
Services Administration (HRSA) to prioritize training in the new 
competencies relevant to providing care in the patient-centered medical 
home model. It also calls for the development of infrastructure within 
primary care departments for the improvement of clinical care and 
research critical to primary care delivery, as well as innovations in 
team management of chronic disease, integrated models of care, and 
transitioning between healthcare settings.
    Key advisory bodies such as the Institute of Medicine (IOM) and the 
Congressional Research Service (CRS) have also called for increased 
funding. The IOM (December 2008) pointed to the drastic decline in 
Title VII funding and described these health professions workforce 
training programs as ``an undervalued asset.'' The CRS found that 
reduced funding to the primary care cluster has negatively affected the 
programs during a time when more primary care is needed (February 
2008).
    According to the Robert Graham Center, (Title VII's decline: 
Shrinking investment in the primary care training pipeline, Oct. 2009), 
``the number of graduating U.S. allopathic medical students choosing 
primary care declined steadily over the past decade, and the proportion 
of minorities within this workforce remains low.'' Unfortunately, this 
decline coincides with a decline in funding of primary care training 
funding--funding that we know is associated with increased primary care 
physician production and practice in underserved areas. The report goes 
on to say that ``the Nation needs renewed or enhanced investment in 
programs like Title VII that support the production of primary care 
physicians and their placement in underserved areas.''
    Title VII has a profound impact on States across the country and is 
vital to the continued development of a workforce designed to care for 
the most vulnerable populations and meet the needs of the 21st century. 
Attached are just a few examples of the impact Title VII has across the 
country in States like Alabama, Kansas, Ohio, Rhode Island, Tennessee, 
Texas, and Washington. Included are examples of opportunities lost 
through the lack of robust funding for the program.
    We urge the Congress to appropriate at least $140 million for the 
health professions program, Primary Care Training and Enhancement 
authorized under Title VII, Section 747 of the Public Health Service 
Act in fiscal year 2012 as requested in the President's budget.

Rural Physician Training Grants
    ``Rural Physician Training Grants,'' Title VII Section 749B of the 
Public Health Service Act, were developed to increase the supply of 
rural physicians by authorizing grants to medical schools which 
establish or expand rural training. The program would provide grants to 
produce rural physicians of all specialties. It would help medical 
schools recruit students most likely to practice medicine in 
underserved rural communities, provide rural-focused training and 
experience, and increase the number of medical graduates who practice 
in underserved rural communities.
    According to a July 2007 report of the Robert Graham Center 
(Medical school expansion: An immediate opportunity to meet rural 
healthcare needs), data show that although 21 percent of the U.S. 
population lives in rural areas, only 10 percent of physicians practice 
there. The Graham Center study describes the educational pipeline to 
rural medical practice as ``long and complex.'' There are multiple 
tactics needed to reverse this situation, and this grant program 
includes several of them. Strategies to increase the number of 
physicians practicing in rural areas include ``increasing the number of 
rural-background students in medical school, selecting the ``right'' 
students and giving them the ``right'' content and experiences to train 
them for rural practice.'' This is exactly what this grant program is 
designed to do.
    We request the Committee provide the fully authorized amount of $4 
million in fiscal year 2012 for Title VII Section 749B Rural Physician 
Training Grants.

Teaching Health Centers
    Teaching Health Centers (THC) are community health centers or other 
similar venues that sponsor residency programs and provide residents 
with their ambulatory training experiences in the health center. This 
training in the community, rather than solely at the hospital bedside 
is one of the hallmarks of family medicine training. However, payment 
issues have always caused a tension and struggle between the hospital, 
which currently receives reimbursement for residents it sponsors when 
they train in the hospital, and programs that require training in non-
hospital settings. This program is designed to provide residency 
programs and community health centers grant funding to plan for a 
transition in sponsorship, or the establishment of new programs. There 
are already 11 community-based entities from states across the country 
that have committed to train 44 primary care residents, demonstrating 
early success in this program.
    We are pleased that THC's operations are currently funded through a 
mandatory appropriations trust fund of $230 million over 5 years, and 
it is essential that these important centers continue to be funded 
through this mandatory appropriation. Despite the positive impact that 
family medicine and other primary care residency training programs have 
on those community-based entities that initiate them, a multitude of 
challenges make it clear that many of these entities would have 
difficulty doing the same without adequate and predictable financing. 
Converting this program to discretionary funding also would deter other 
entities from making the business decisions necessary to expand 
residency training (e.g., securing commitments from key stakeholders to 
agree to train new or additional residents, applying for accreditation 
if not already part of an eligible consortia, and hiring new faculty) 
since funding over the next few years would be subject to the annual 
appropriations process.

Teaching Health Center Development Grants
    If this program is to be effective, there must be funds for the 
planning grants to establish newly accredited or expanded primary care 
residency programs. Teaching Health Center Development Grants are 
important to help establish these innovative programs.
    We recommend the Committee appropriate the full authorized amount 
for the new Title VII Teaching Health Centers development grants of at 
least $10 million for fiscal year 2012.

AHRQ
    Research related to the most common acute, chronic, and comorbid 
conditions that primary care clinicians care for on a daily basis is 
lacking. Research in these areas is vital because the overall health of 
a population is directly linked to the strength of its primary 
healthcare system. AHRQ supports research to improve healthcare 
quality, reduce costs, advance patient safety, decrease medical errors, 
and broaden access to essential services. This research is key to 
helping create a robust primary care system for our Nation--one that 
delivers higher quality of care and better health while reducing the 
rising cost of care. Despite this need, little is known about how 
patients can best decide how and when to seek care, introduce and 
disseminate new discoveries into real life practice, and how to 
maximize appropriate care. Ample funding for AHRQ can help researchers 
address these problems confronting our health system today.
    We recommend the Committee fund AHRQ at a level of at least $405 
million for fiscal year 2012

Primary Care Extension Program
    The Primary Care Extension Program was modeled after the successful 
United States Agriculture Extension Service. This program, under Title 
III of the Public Health Service Act, is designed to support and assist 
primary care providers with the adoption and incorporation of 
techniques to improve community health. As the authors of an article 
describing this concept (JAMA, June 24, 2009) have stated, ``To 
successfully redesign practices requires knowledge transfer, 
performance feedback, facilitation, and HIT support provided by 
individuals with whom practices have established relationships over 
time. The farming community learned these principles a century ago. 
Primary care practices are like small farms of that era, which were 
geographically dispersed, poorly resourced for change, and inefficient 
in adopting new techniques or technology but vital to the Nation's 
well-being.''
    Congress agreed with the authors that ``practicing physicians need 
something similar to the agricultural extension agent who was so 
transformative for farming,'' and authorized this program at $120 
million for fiscal year 2011 and 2012.
    We recommend the Committee fund the Primary Care Extension program 
at the authorized level of $120 million for fiscal year 2012.
Title VII Testimonials from the field
    Brown University.--``Our Title VII grant is devoted to training 
students in the care of the underserved. In our first year, we have 
already recruited two new Community Health Center clinical training 
sites for our medical students. Our first student at one of the two 
sites decided, after his family medicine rotation, to change his career 
path from Urology to Family Medicine.'' An additional grant has allowed 
for the development of a curriculum centered around the Patient 
Centered Medical Home and Practice transformation and has started 
transforming family medicine practices in Rhode Island. David Anthony, 
Director of Medical School Education, and Jeffrey Borkan, MD, PhD, 
Chair, Department of Family Medicine
    East Tennessee State University.--We were able to use a Title VII 
grant to establish health fairs, including health screening exams, for 
rural and underserved communities in northeast Tennessee and southwest 
Virginia. We started small, but now there are 6 health fairs per year, 
including 2-3 days per event. During the fairs, the average number of 
visits per site is 180 and we estimate 27,000 visits in 11 years (1999-
2010). John Franko MD, Chair and Professor, Department of Family 
Medicine
    The Ohio State University.--With Title VII grants, ``We were able 
to establish a four-track university program--university, academic, 
urban, and rural, which allowed us to provide a unique training 
experience involving a diverse population. We have been able to 
successfully match students in all tracks. We have also been able to 
provide primary care to the community in settings that were previously 
physician shortage areas. Finally, we were able to develop training 
modules for community medicine that address real issues, such as 
domestic violence, alcohol and substance abuse, teenage pregnancy, 
obesity, etc.'' W. Fred Miser, MD, Associate Professor of Family 
Medicine
    University of Kansas School of Medicine.--The school applied for 
but did not receive funding for a program designed to help educate 
volunteer community physician educators. 29 percent of Kansas Medical 
students go into family medicine but the school has struggled with 
faculty development education, this is necessary to teach our community 
physicians the skills necessary to efficiently and effectively teach. 
Rick Kellerman MD, Professor and Chair, Department of Family and 
Community Medicine
    University of South Alabama.--The Department of Family Medicine 
applied for but did not receive funding for a program designed to allow 
us to train residents in a simulated environment to ensure experiences 
with patients with disability, access and mental health problems. Allen 
Perkins, MD, MPH, Professor and Char, Department of Family Medicine
    University of Texas Health Science Center at San Antonio.--Title 
VII grants are helping the program transition to be core transitional 
laboratories for the NIH's Clinical and Translational Science Awards 
(CTSA) efforts and have helped in getting support for a new a Practice 
Based Research Network Resource Center for community engagement. Carlos 
Roberto Jaen, MD PhD FAAFP, Professor of Epidemiology and Health 
Statistics
    WWAMI (a partnership between the University of Washington School of 
Medicine and the States of Wyoming, Alaska, Montana, and Idaho).--Title 
VII grants have helped fund over 30 faculty positions across the States 
of Washington, Wyoming, Alaska, Montana, and Idaho. These grants have 
helped fund the development of areas of scholarship for residency 
programs in Montana, assisted in the training of fellows that became 
Residency Directors at other programs, and funded faculty development 
programs delivered with televideo to rural areas in Wyoming. Ardis 
Davis MSW,University of Washington Department of Family Medicine, 
Teaching Associate
    Thomas Jefferson Medical School.--Title VII grants have allowed us 
to expand our successful rural Physician Shortage Area and Urban 
Underserved Programs, teach all of our students about the Patient 
Centered Medical Home in all 4 years of medical school, and train over 
1,400 students, residents, and faculty in community medicine and 
population health. We have also expanded the infrastructure and rigor 
of our research fellowship, doubling the publication outcomes of our 
research fellows over the past 2 years. Howard Rabinowitz, Department 
of Family and Community Medicine
                                 ______
                                 
       Prepared Statement of the Council on Social Work Education

    On behalf of the Council on Social Work Education (CSWE), I am 
pleased to offer this written testimony to the Senate Appropriations 
Subcommittee on Labor, Health and Human Services, Education, and 
Related Agencies for inclusion in the official Committee record. I will 
focus my testimony on the importance of fostering a skilled, 
sustainable, and diverse social work workforce to meet the healthcare 
needs of the Nation through professional education, training and 
financial support programs at the Department of Health and Human 
Services (HHS) and the Department of Education (ED).
    CSWE is a nonprofit national association representing more than 
3,000 individual members as well as 650 master's and baccalaureate 
programs of professional social work education. Founded in 1952, this 
partnership of educational and professional institutions, social 
welfare agencies, and private citizens is recognized by the Council for 
Higher Education Accreditation (CHEA) as the single accrediting agency 
for social work education in the United States. Social work education 
focuses students on leadership and direct practice roles helping 
individuals, families, groups, and communities by creating new 
opportunities that empower people to be productive, contributing 
members of their communities.
    Social work is rooted in a tradition of social justice, with a 
central mission of eliminating inequities by helping vulnerable 
populations navigate societal and personal challenges. Social workers 
are embedded in a variety of settings, such as schools, hospitals, 
Veteran health facilities, rehabilitation centers, social service 
agencies, child welfare organizations, assisted living centers, nursing 
homes, and faith-based organizations, which allows us to reach diverse 
segments of the population and play a significant role in the lives of 
Americans from all walks of life. For example, we provide psychosocial 
support for individuals and families to help them cope with disease, 
such as Alzheimer's disease and cancer; we assist families who struggle 
with homelessness and un- or underemployment; we work with families 
dealing with domestic violence, including child and spousal abuse; and 
we work with children in school or afterschool settings to ensure that 
they meet their full academic potential and to help them cope with 
issues they may be experiencing in their home lives. As you can see, 
social workers have an important role to play in all aspects of daily 
life.
    Unfortunately, recruitment and retention in social work continues 
to be a serious challenge that threatens the workforce's ability to 
meet societal needs. The U.S. Bureau of Labor Statistics estimates that 
employment for social workers is expected to grow faster than the 
average for all occupations through 2018, particularly for social 
workers specializing in the aging population and working in rural 
areas. In addition, the need for mental health and substance abuse 
social workers is expected to grow by almost 20 percent over the 2008-
2018 decade.\1\
---------------------------------------------------------------------------
    \1\ U.S. Bureau of Labor Statistics. 2009. Occupational Outlook 
Handbook, 2010-11 Edition: Social Workers, http://data.bls.gov/cgi-bin/
print.pl/oco/ocos060.htm. Retrieved April 13, 2011.
---------------------------------------------------------------------------
    Recruitment into the social work profession faces many obstacles, 
the most prevalent being low wages coupled with high educational debt. 
For example, the median annual wage for child, family, and school 
social workers in May 2008 was $39,530, while the wage for mental 
health and substance abuse social workers was $37,210. While a 
bachelor's degree (BSW) is necessary for most entry-level positions, a 
master's degree (MSW) is the terminal degree for social work practice, 
which significantly contributes to the debt load of social work 
graduates entering careers with low starting wages. According to the 
2007-2008 National Postsecondary Student Aid Study conducted by the 
National Center for Education Statistics at ED, 72 percent of students 
graduating from MSW programs incurred debt to earn their graduate 
degree. The average debt was approximately $35,500. The percentage of 
MSW students borrowing money is 17 percent higher than the average for 
all master's degrees and the amount borrowed is approximately $5,000 
higher than the average for all master's degrees. These difficult 
realities have made recruitment and retention of social workers an 
ongoing challenge.
    CSWE understands and appreciates the tough funding decisions 
Congress is faced with this year. However, we urge you to consider the 
needs of our frontline workforce if we are to see real progress in 
meeting the healthcare and societal demands of the Nation. The below 
recommendations for fiscal year 2012 would help to ensure that we are 
fostering a sustainable, skilled, and diverse workforce that will be 
able to keep up with the increasing demand for social work services.
health resources and services administration (hrsa) title vii and title 

                    VIII HEALTH PROFESSIONS PROGRAMS

    CSWE urges the Subcommittee to provide $762.5 million for the Title 
VII and Title VIII health professions programs at HRSA in fiscal year 
2012. HRSA's Title VII and Title VIII health professions programs 
represent the only Federal programs designed to train healthcare 
providers in an interdisciplinary way to meet the healthcare needs of 
all Americans, including the underserved and those with special needs. 
These programs also serve to increase minority representation in the 
healthcare workforce through targeted programs that improve the 
quality, diversity, and geographic distribution of the health 
professions workforce. The Title VII and Title VIII programs provide 
loans, loan guarantees and scholarships to students, and grants to 
institutions of higher education and nonprofit organizations to help 
build and maintain a robust healthcare workforce. Social workers and 
social work students are eligible for Title VII funding.
    The Title VII and Title VIII programs were reauthorized in 2010, 
which helped to improve the efficiency of the programs as well as 
enhance efforts to recruit and retain health professionals in 
underserved communities. Allow me to highlight a few of the programs 
that are of critical importance to the training of social workers.
  --Mental and Behavioral Health Education and Training.--Recognizing 
        the severe shortages of mental and behavioral health providers 
        within the healthcare workforce, a new Title VII program was 
        authorized in the Patient Protection and Affordable Care Act 
        (Public Law 111-148). This program--Mental and Behavioral 
        Health Education and Training Grants--would provide grants to 
        institutions of higher education (schools of social work and 
        other mental health professions) for faculty and student 
        recruitment and professional education and training. The 
        President's budget request includes $17.9 million for these 
        grants in fiscal year 2012. This funding would allow for 
        approximately 10 grants in graduate social work education, 17 
        grants in graduate psychology education, 12 grants for 
        professional child and adolescent mental health education, and 
        6 grants for paraprofessional child and adolescent mental 
        health. This is the only program in the Federal Government that 
        is explicitly focused on recruitment and retention of social 
        workers and other mental and behavioral health professionals. 
        CSWE strongly urges the Subcommittee to provide $17.9 million 
        for the Title VII Mental and Behavioral Health Education and 
        Training Grants in fiscal year 2012.
  --Geriatrics Health Professions Training.--Within the overall request 
        for HRSA's Title VII and Title VIII programs, CSWE urges the 
        Subcommittee to appropriate $46.5 million for Geriatrics Health 
        Professions Programs. This includes the Geriatric Academic 
        Career Incentive Awards (GACA), Geriatric Education Centers 
        (GEC), and Geriatric Career Incentive Awards. As mentioned 
        earlier, the reauthorization that occurred last year made 
        enhancement to the Title VII and Title VIII programs. 
        Specifically, the reauthorization enhanced the geriatrics 
        programs to allow additional health professions--such as social 
        workers and other mental healthcare providers--to participate. 
        Rapid job growth is anticipated for gerontological social 
        workers. In fact, the demand for geriatric social workers is 
        expected to increase by 45 percent by 2015, faster than the 
        average of all other occupations \2\. Additional funding for 
        these programs is needed to ensure that the geriatric workforce 
        is adequately equipped to deal with the aging population, which 
        is only expected to grow to breaking-point levels within the 
        next several years.
---------------------------------------------------------------------------
    \2\ Hooyman, N., and Unutzer, J. 2011. ``A Perilous Arc of Supply 
and Semand: How Can America Meet the Multiplying Mental Health Care 
Needs of an Again Populations.'' Generations 34 (4): 36-42.
---------------------------------------------------------------------------
  SUBSTANCE ABUSE AND MENTAL HEALTH SERVICES ADMINISTRATION (SAMHSA) 
                      MINORITY FELLOWSHIP PROGRAM

    The goal of the SAMHSA Minority Fellowship Program (MFP) is to 
achieve greater numbers of minority doctoral students preparing for 
leadership roles in the mental health and substance abuse fields. 
According to SAMHSA, minorities make up approximately one-fourth of the 
population, but only about 10 percent of mental health providers are 
ethnic minorities. CSWE is a grantee of this critical program and 
administers funds to exceptional minority social work students. For 
fiscal year 2012, CSWE urges the Subcommittee to appropriate $7.5 
million to the SAMHSA Minority Fellowship Program. This would include 
$6.882 million for the Center for Mental Health Services, where the 
majority of MFP funds are administered; $71,000 for the Center for 
Substance Abuse Prevention; and $547,000 for the Center for Substance 
Abuse Treatment.
    The program has helped support doctoral-level professional 
education for over 1,000 ethnic minority social workers, psychiatrists, 
psychologists, psychiatric nurses, and family and marriage therapists 
since its inception. Still, the program continues to struggle to keep 
up with the demands that are plaguing our health professions. Severe 
shortages of mental health professionals often arise in underserved 
areas due to the difficulty of recruitment and retention in the public 
sector. Nowhere are these shortages more prevalent than in Indian 
Country, where mental illness and substance abuse go largely untreated 
and incidences of suicide continue to increase. Studies have shown that 
ethnic minority mental health professionals practice in underserved 
areas at a higher rate than non-minorities. Furthermore, a direct 
positive relationship exists between the numbers of ethnic minority 
mental health professionals and the utilization of needed services by 
ethnic minorities.
    The $7.5 million request would be used to substantially increase 
access to professional education and training for additional minority 
mental health and substance abuse professionals, in turn helping to 
ensure that underserved minority populations receive the mental health 
and substance abuse services they so desperately need. President 
Obama's fiscal year 2012 budget request includes flat funding for the 
MFP at about $4.9 million. Funding the MFP at $7.5 million would 
directly encourage more social workers of minority backgrounds to 
pursue doctoral degrees in mental health and substance abuse and will 
turnout more minority mental health professionals equipped to provide 
culturally competent, accessible mental health and substance abuse 
services to diverse populations.

              DEPARTMENT OF EDUCATION STUDENT AID PROGRAMS

    CSWE supports full funding to keep the maximum Pell Grant at $5,550 
in fiscal year 2012. While Congress is understandably focused on 
identifying a solution that will place the Pell Grant program on solid 
ground in regards to its fiscal future, we urge you to remember that 
these grants help to ensure that all students, regardless of their 
economic situation, can achieve higher education. Moreover, as 
described above with regard to the SAMHSA Minority Fellowship Program, 
one goal of social work education is recruiting students from diverse 
backgrounds (which includes racial, economic, religious, and other 
forms of diversity) with the hope that they will return to serve 
diverse communities once they have completed their education. In many 
cases, this includes encouraging social workers to return to their own 
communities and apply the skills they have acquired through their 
social work education to individuals, groups, or families in need. 
Without support such as Pell Grants, many low-income individuals would 
not be able to access higher education, and in turn, would not acquire 
skills needed to best serve in the communities that would most benefit 
from their service.
    The Graduate Assistance in Areas of National Need (GAANN) program 
provides graduate traineeships in critical fields of study. Currently, 
social work is not defined as an area of national need for this 
program; however it was recognized by Congress as an area of national 
need in the Higher Education Opportunity Act of 2008. We are hopeful 
that ED will recognize the importance of including social work in the 
GAANN program in future years. Inclusion of social work would help to 
significantly enhance graduate education in social work, which is 
critically needed in the country's efforts to foster a sustainable 
health professions workforce. CSWE urges the Subcommittee to provide 
$31 million for the GAANN Program. However, if social work was to be 
added by the Department as a new area of national need, additional 
resources would need to be provided so as not to take funding away from 
the already determined areas of national need.
    Thank you for the opportunity to express these views. Please do not 
hesitate to call on the Council on Social Work Education should you 
have any questions or require additional information.
                                 ______
                                 
  Prepared Statement of the Crohn's and Colitis Foundation of America

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to submit testimony on behalf of the 1.4 million Americans 
living with Crohn's disease and ulcerative colitis. My name is Gary 
Sinderbrand and I have the privilege of serving as the Chairman of the 
National Board of Trustees for the Crohn's and Colitis Foundation of 
America. CCFA is the Nation's oldest and largest voluntary organization 
dedicated to finding a cure for Crohn's disease and ulcerative 
colitis--collectively known as inflammatory bowel diseases.
    Let me express at the outset how appreciative we are for the 
leadership this Subcommittee has provided in advancing funding for the 
National Institutes of Health.
    Mr. Chairman, Crohn's disease and ulcerative colitis are 
devastating inflammatory disorders of the digestive tract that cause 
severe abdominal pain, fever and intestinal bleeding. Complications 
include arthritis, osteoporosis, anemia, liver disease and colorectal 
cancer. We do not know their cause, and there is no medical cure. They 
represent the major cause of morbidity from digestive diseases and 
forever alter the lives of the people they afflict--particularly 
children. I know, because I am the father of a child living with 
Crohn's disease.
    Seven years ago, during my daughter, Alexandra's sophomore year in 
college, she was taken to the ER for what was initially thought to be 
acute appendicitis. After a series of tests, my wife and I received a 
call from the attending GI who stated coldly: Your daughter has Crohn's 
disease, there is no cure and she will be on medication the rest of her 
life. The news froze us in our tracks. How could our vibrant, beautiful 
little girl be stricken with a disease that was incurable and has 
ruined the lives of countless thousands of people?
    Over the next several months, Alexandra fluctuated between good 
days and bad. Bad days would bring on debilitating flares which would 
rack her body with pain and fever as her system sought equilibrium. Our 
hearts were filled with sorrow as we realized how we were so incapable 
of protecting our child.
    Her doctor was trying increasingly aggressive therapies to bring 
the flares under control.
    Asacol, Steroids, Mercaptipurine, Methotrexate and finally 
Remicade. Each treatment came with its own set of side effects and 
risks. Every time A would call from school, my heart would jump before 
I picked up the call in fear of hearing that my child was in pain as 
the flares had returned. Ironically, the worst call came from one of 
her friends to report that A was back in the ER and being evaluated by 
a GI surgeon to determine if an emergency procedure was needed to clear 
an intestinal blockage that was caused by the disease. Several hours 
later, a brilliant surgeon at the University of Chicago, removed over a 
foot of diseased tissue from her intestine. The surgery saved her life, 
but did not cure her. We continue to live every day knowing that the 
disease could flare at any time with devastating consequences.
    Mr. Chairman, I will focus the remainder of my testimony on our 
appropriations recommendations for fiscal year 2012.

                  RECOMMENDATIONS FOR FISCAL YEAR 2012

Centers For Disease Control And Prevention
            Inflammatory Bowel Disease Epidemiology Program
    As I mentioned earlier, CCFA estimates that 1.4 million people in 
the United States suffer from IBD, but there could be many more. We do 
not know the exact number due to the complexity of these diseases and 
the difficulty in identifying them. The Centers for Disease Control and 
Prevention's Inflammatory Bowel Disease Program is helping answer this 
and many other important questions related to these challenging 
conditions. This program is the only one of its kind and its 
accomplishments have been applauded by the CDC.
    CCFA has been a proud partner with CDC in conducting the research 
funded under the epidemiology program. For the first 2 years of the 
project the Foundation worked collaboratively with Kaiser Permanente in 
California to better understand the incidence and prevalence of IBD, 
the natural history of the disease, and why patients respond 
differently to the same therapy. This research has resulted in 11 
publications to date and another 11 papers to be submitted to high-
quality peer-reviewed journals. Topics include but are not limited to 
the following:
  --Incidence and Prevalence of IBD
  --Patterns of Care and Outcomes in IBD
  --Qualitative study of provider opinions
  --Utilization of biologics (Infliximab)
  --Disparities in Mortality
  --Myelosuppression during Thiopurine Therapy for Inflammatory Bowel 
        Disease: Implications for Monitoring Recommendations
  --Severity and Flare Algorithms
  --Disparities in Surveillance for Colorectal Cancer
  --Pediatric Epidemiology
    In 2007, our focus shifted to the establishment of the ``Ocean 
State Crohn's & Colitis Area Registry'' or OSCCAR. Under the leadership 
of Dr. Bruce Sands, this study is being conducted jointly by 
investigators at the Massachusetts General Hospital and Rhode Island 
Hospital/Brown University. The State of Rhode Island is an excellent 
location to conduct a population-based IBD study because; (1) it is a 
small State geographically; (2) it has a diverse ethnic and 
socioeconomic population that does not tend to migrate out of State: 
and (3) a small number of gastroenterologists treat essentially all IBD 
patients within the State. Since 2007, Dr. Sands has been able to 
recruit virtually all GI physicians in Rhode Island to refer patients 
into the study. To date, almost 310 patients have been recruited, 89 of 
whom are pediatric patients. All of this progress will be lost if the 
program is eliminated in 2012.
    The goals of the OSCCAR study moving forward are to: (1) describe 
the age and sex adjusted incidence rate of Crohn's disease and 
ulcerative colitis; (2) describe variations in presenting symptoms 
among children, men and women with newly diagnosed disease; (3) 
identify factors that predict resistance to steroids, including 
clinical characteristics and blood test markers that could be useful to 
treating physicians; (4) identify predictors of the need for surgery; 
and (5) describe factors that predict either impaired quality of life 
or a benign course of disease. Mr. Chairman, to ensure that this 
important epidemiological work moves forward in fiscal year 2012, CCFA 
recommends an appropriation of $680,000 (fiscal year 2010 level).

            Pediatric Inflammatory Bowel Disease Patient Registry

    Mr. Chairman, the unique challenges faced by children and 
adolescents battling IBD are of particular concern to CCFA. In recent 
years we have seen an increased prevalence of IBD among children, 
particularly those diagnosed at a very early age. To combat this 
alarming trend CCFA, in partnership with the North American Society for 
Pediatric Gastroenterology, Hepatology and Nutrition, has instituted an 
aggressive pediatric research campaign focused on the following areas:
  --Growth/Bone Development.--How does inflammation cause growth 
        failure and bone disease in children with IBD?
  --Genetics.--How can we identify early onset Crohn's disease and 
        ulcerative colitis?
  --Quality Improvement.--Given the wide variation in care provided to 
        children with IBD, how can we standardize treatment and improve 
        patients' growth and well-being?
  --Immune Response.--What alterations in the childhood immune system 
        put young people at risk for IBD, how does the immune system 
        change with treatment for IBD?
  --Psychosocial Functioning.--How does diagnosis and treatment for IBD 
        impact depression and anxiety among young people? What 
        approaches work best to improve mood, coping, family function, 
        and quality of life.
    The establishment of a national registry of pediatric IBD patients 
is central to our ability to answer these important research questions. 
Empowering investigators with HIPPA compliant information on young 
patients from across the Nation will jump-start our effort to expand 
epidemiologic, basic and clinical research on our pediatric population. 
We encourage the Subcommittee to support our efforts to establish a 
Pediatric IBD Patient Registry with the CDC in fiscal year 2012.

National Institutes of Health
    Throughout its 40 year history, CCFA has forged remarkably 
successful research partnerships with the NIH, particularly the 
National Institute of Diabetes and Digestive and Kidney Diseases 
(NIDDK), which sponsors the majority of IBD research, and the National 
Institute of Allergy and Infectious Diseases (NIAID). CCFA provides 
crucial ``seed-funding'' to researchers, helping investigators gather 
preliminary findings, which in turn enables them to pursue advanced IBD 
research projects through the NIH. This approach led to the 
identification of the first gene associated with Crohn's--a landmark 
breakthrough in understanding this disease.
    Mr. Chairman, NIDDK-sponsored research on IBD has been a remarkable 
success story. In 2008, a consortium of researchers from the United 
States, Canada, and Europe identified 21 new genes for Crohn's disease. 
This discovery, funded in part by the NIDDK, brings the total number of 
known genes associated with Crohn's disease to more than 30 and 
provides new avenues for the development of promising treatments. We 
are grateful for the leadership of Dr. Stephen James, Director of 
NIDDK's Division of Digestive Diseases and Nutrition, for aggressively 
pursuing this and other promising areas of research.
    CCFA's scientific leaders, with significant involvement from NIDDK, 
have developed an ambitious research agenda entitled ``Challenges in 
Inflammatory Bowel Diseases.'' In addition, CCFA-affiliated 
investigators played a leading role in developing the recommendations 
on IBD in the new NIH National Commission on Digestive Diseases 
strategic plan. We look forward to working with the NIDDK to advance 
the cutting-edge science called for in these two roadmaps.
    For fiscal year 2012, CCFA joins with other voluntary patient and 
medical organizations in recommending an appropriation of $35 billion 
for the NIH. Once again Mr. Chairman, thank you very much for the 
opportunity to submit our views for your consideration.
                                 ______
                                 
          Prepared Statement of the Cystic Fibrosis Foundation

    On behalf of the Cystic Fibrosis Foundation and the 30,000 
Americans with cystic fibrosis (CF), we are pleased to submit the 
following testimony with our requests for fiscal year 2012 Labor, 
Health and Human Services, and Education Appropriations.

                         ABOUT CYSTIC FIBROSIS

    Cystic fibrosis is a life-threatening genetic disease for which 
there is no cure. People with CF have two copies of a defective gene, 
known as CFTR, which causes the body to produce abnormally thick, 
sticky mucus that clogs the lungs and results in fatal lung infections. 
The thick mucus in those with CF also obstructs the pancreas, making it 
difficult for patients to absorb nutrients from food.
    Since its founding, the CF Foundation has maintained its focus on 
promoting research and improving treatments for CF. More than 30 drugs 
are now in development to treat CF; some treat the basic defect of the 
disease, while others target its symptoms. Through the research 
leadership of the Cystic Fibrosis Foundation, people with CF are living 
into their 30s, 40s and beyond. This improvement in the life expectancy 
for those with CF can be attributed to research advances and to the 
teams of CF caregivers who offer specialized care. Although life 
expectancy has improved dramatically, we continue to lose young lives 
to this disease.
    The promise for people with CF lies in research. In the past 6 
years, the Cystic Fibrosis Foundation has invested over $1 billion in 
its medical programs of drug discovery, drug development, research, and 
care focused on life-sustaining treatments and a cure for CF. A greater 
investment is necessary, however, to accelerate the pace of discovery 
and development of CF therapies.

        SUSTAINING THE FEDERAL INVESTMENT IN BIOMEDICAL RESEARCH

    This Committee and Congress are to be commended for their support 
for biomedical research through the years. It is vital that we continue 
to sufficiently fund the NIH, so that it can capitalize on scientific 
advances and maintain the momentum generated by the doubling of funds 
and the infusion from the American Recovery and Reinvestment Act 
(ARRA). These increases in funding brought a new era in drug discovery 
that has benefited all Americans.
    Cutting discretionary health spending by 13.5 percent, as has been 
proposed, would halt this progress. Deep cuts would have a detrimental 
effect on the fight against many of our most serious diseases, stifle 
scientific opportunities, and result in high-wage job loss in all 50 
States. In 2007, NIH grants and contracts created and supported more 
than 350,000 jobs across the United States, an important contribution 
to the American economy.
    We urge this Committee and Congress to maintain robust investment 
in biomedical research at the NIH so it can fund critical research 
today that will provide the care and cures of tomorrow.

          STRENGTHENING CLINICAL RESEARCH AND DRUG DEVELOPMENT

    The Cystic Fibrosis Foundation has been recognized for its unique 
research approach, which encompasses everything from basic research 
through Phase 4 post-marketing monitoring of drug safety, and has 
created the infrastructure required to accelerate the development of 
new CF therapies. As a result, we now have a pipeline of more than 30 
potential therapies that are being examined to treat people with CF.
    One such treatment is VX-770, a drug being developed by Vertex 
Pharmaceuticals that was discovered in collaboration with CFF. This 
promising therapy targets the physiological defect that causes CF in 
patients with a particular type of genetic mutation, as opposed to only 
addressing symptoms of the disease. In late February 2011 we learned 
that Phase 3 clinical trial data of VX-770 showed profound improvements 
in lung function and other health measures in CF patients, and a New 
Drug Application is expected to be submitted to the FDA for review 
later this year. This new treatment is a direct result of the 
Foundation's innovative research agenda, advancing from bench to 
bedside through the Foundation's research program which speeds the 
creation of new CF therapies.
    The Foundation is a leader in creating a clinical trials network to 
achieve greater efficiency in clinical investigation. Because the CF 
population is small, a higher proportion of people with the disease 
must partake in clinical trials than in most other diseases. This 
unique challenge prompted the Foundation to streamline our clinical 
trials processes. As a result, research conducted by the Foundation is 
more efficient than ever before and we are a model for other disease 
groups.
    While the CF Foundation has made great progress in creating a more 
efficient drug development process for cystic fibrosis, still more 
needs to be done for other rare diseases, many of which have no 
treatments available. The Federal Government has the opportunity to 
make a real difference in this regard, and we are hopeful that the 
Committee will direct the national health agencies to encourage all 
investigators and institutions receiving Federal funding to advance 
novel methodologies and mechanisms for translating basic research into 
therapies that can benefit patients.

Advancing Translational Science
    The CF Foundation strongly urges this Committee and Congress to 
support funding for NIH's proposed National Center for Advancing 
Translational Sciences (NCATS), which will house the Institutes' 
existing translational science programs while establishing and 
providing a more focused, integrated, and systematic approach for 
linking basic discovery to therapeutic development.
    The existing programs to be housed under NCATS are integral to 
translating basic science into treatments and will benefit from funding 
for the new center. These programs include Clinical and Translational 
Science Awards (CTSA), discussed in further detail below, and the newly 
authorized Cures Acceleration Network (CAN), both designed to transform 
the way in which clinical and translational research is conducted and 
funded. The Therapeutics for Rare and Neglected Diseases (TRND) program 
will also be housed in the new center. NIH Director Collins has 
specifically cited the Cystic Fibrosis Foundation's Therapeutics 
Development Network (TDN), which plays a pivotal role in accelerating 
the development of new treatments for cystic fibrosis patients, as an 
exemplar for TRND's innovative therapeutics development model.
    The Foundation's investment in pharmaceutical and biotech companies 
can also serve as a model for the new center's overall mission. NCATS, 
like CFF, will promote public-private partnerships and convene cross-
sector collaborations between industry, government, academia, and 
others to advance drug development, as well as provide services and 
resources for high throughput screening, assay development, and 
preclinical modeling. Prioritizing these initiatives through a 
standalone center at NIH has the potential to greatly accelerate the 
development of drugs for diseases that have historically received 
little pharmaceutical industry attention. In addition, integrating 
translational science programs from throughout NIH into one center will 
help bring greater efficiency to the Institutes' pursuit of this 
important research. Once again, we applaud NIH Director Collins for 
spearheading NCATS and look forward to working with him as this new 
initiative is implemented.

Clinical and Translational Science Awards (CTSA)
    The CTSA program, soon to be housed in NCATS, encourages novel 
approaches to clinical and translational research, enhances the 
utilization of informatics, and strengthens the training of young 
investigators. Key to the success of CTSAs is the parallel maintenance 
of infrastructure support for Clinical Research Centers (CRC). Without 
a mechanism to offset clinical research costs, young investigators or 
Principle Investigators (PIs) studying rare diseases for which there is 
limited funding will not be able to continue to conduct clinical 
research. It is important that all NIH institutes recognize that there 
is a significant cost associated with the conduct of well designed and 
safe clinical trials, and not all of these costs can be borne by the 
CTSAs. Congress should direct the NIH to cover costs that used to be 
borne by the General Clinical Research Centers (GCRCs) through 
individual research grants.
    Support should also be directed toward the continuation and 
expansion of research networks, such as NIH's pediatric liver disease 
consortium at the National Institute of Diabetes, Digestive, and Kidney 
Diseases (NIDDK). This successful collaboration is helping researchers 
discover treatments not only for CF liver disease but for other 
diseases that affect thousands of children each year.

                       SUPPORTING DRUG DISCOVERY

    The Cystic Fibrosis Foundation's clinical research is fueled by a 
vigorous drug discovery effort comprised of early stage translational 
research into successful treatments for this disease. Several research 
projects at the NIH will expand our knowledge about the disease, and 
could eventually be the key to controlling or curing cystic fibrosis.

Opportunities in Animal Models
    The Cystic Fibrosis Foundation is encouraged by the NIH's 
investment in a research program at the University of Iowa to study the 
effects of CF in a pig model. The program, funded through research 
awards from both the National Heart, Lung, and Blood Institute (NHLBI) 
and the Cystic Fibrosis Foundation, bears great promise to help make 
significant developments in the search for a cure. While a company has 
been established to produce the animals, the infrastructure and 
extensive animal husbandry required to keep the animals alive and 
conduct research on them is available at few academic institutions. 
Such barriers have greatly limited widespread adoption of these 
valuable research tools. We urge additional funding to create a common 
facility that would enable researchers from multiple institutions to 
conduct research with these models.

Understanding CFTR Folding and Trafficking
    The data that emerged from the VX-770 Phase 2 and 3 clinical 
trials, discussed above, is proof that the way in which this drug 
targets the physiological defect that causes CF, called CFTR protein 
function modulation, is a viable therapeutic approach. However, this 
exciting data was obtained from patients with a specific CF mutation 
which affects only approximately 4 percent of CF patients. More 
research is needed to understand other genetic mutations, the most 
common of which is called F508del. F508del causes multiple negative 
effects, including misfolding and poor activation properties of the 
CFTR protein. We encourage the Committee to increase investment in 
genetic research that can help scientists to better understand the 
F508del mutation. This will facilitate CF drug discovery and has the 
potential to benefit not just those with cystic fibrosis, but also 
those with other protein misfolding diseases.

Personalized Medicine
    Strong Federal and private investment in research is bringing 
personalized medicine into the forefront. As we gain a deeper 
understanding of many diseases and their accompanying genetic profiles, 
we understand the great challenge of personalizing therapies. While 
exciting and promising for patients, it is also expensive, complex, and 
scientifically challenging. For instance, CF doctors are facing 
difficulties in delivering appropriate care to CF patients, as 
insurance providers will not cover certain combinations of medicines 
that clinicians have found are effective for cystic fibrosis in 
particular when there is no formal clinical data to support it. This 
puts patients in a difficult position, as these clinical trials are 
expensive and unlikely to be performed by pharmaceutical companies, 
especially for treatment of a small, targeted population. As such we 
urge the Committee to provide sustained Federal investment in 
personalized medicine, to help move this burgeoning field forward and 
advance exciting scientific discoveries.

            SUPPORTING GREATER ACCESS TO QUALITY HEALTH CARE

    We are making remarkable strides in our fight against cystic 
fibrosis, but people who live with it face greater obstacles each year, 
as high medical costs can prevent them from accessing appropriate 
medical care. Healthcare for a CF patient costs $64,000 per year on 
average, 15 times more than that of the average person. Because of high 
costs, nearly a quarter of CF patients delay getting medical care or 
skip treatments their providers recommend to enhance and lengthen their 
life.
    The Foundation sees some promise in a number of provisions in the 
new healthcare reform law that increase access to health insurance 
coverage for those with rare and chronic diseases, a critical tool in 
decreasing out of pocket costs for patients. These provisions include 
those allowing children to remain on their parents' insurance until 
they are 26; prohibiting insurance companies from denying or rescinding 
coverage based on a pre-existing condition; banning annual and lifetime 
caps on coverage; and the expansion of Medicaid eligibility.
    The new law is not perfect, however, and we are concerned that 
while the provisions listed above will ensure continuity of coverage 
and greater access to care for those with CF and other chronic 
diseases, more must be done to reduce the financial burden so many 
families face in affording their care, especially in these challenging 
economic times.
    While we urge Congress to explore new options to help make care 
more affordable and reduce shifting costs to patients, we ask that 
provisions that have the potential to provide desperately needed relief 
to people with cystic fibrosis be retained, and that they are 
sufficiently funded so that those with rare and chronic diseases can 
access the care they need.
    In addition, the Foundation wishes to applaud the formation of the 
Patient Centered Outcomes Research Institute (PCORI) and urges the 
Committee to support this important entity. PCORI, a private non-profit 
institute created by the Patient Protection and Affordable Care Act, 
will support and direct research that gives patients, doctors, and 
others the information they need make informed decisions about the most 
effective and appropriate methods for preventing and treating health 
conditions. The CF Foundation has had great success in improving 
quality of care for cystic fibrosis patients through the development 
and administration of a comprehensive patient registry and the 
collection of comprehensive data on outcomes and practice patterns for 
use in comparative effectiveness research, and we are confident that 
dedicating a national institute to such pursuits will improve care for 
all Americans.
    The Cystic Fibrosis Foundation has devoted our own resources to 
developing treatments through drug discovery, clinical development, and 
clinical care. Several of the drugs in our pipeline show remarkable 
promise in clinical trials and we are increasingly hopeful that these 
discoveries will bring us even closer to a cure. However, sufficient 
investment in basic science, translational science, clinical research, 
and drug development programs at NIH is needed to continue these 
successes not only for CF but for all rare diseases. Additionally, 
funding for programs that promote access and quality of care will help 
achieve a greater quality of life for those living with chronic 
diseases like cystic fibrosis.
    We urge the Committee to consider these factors as you craft the 
fiscal year 2012 Labor, Health and Human Services, and Education 
Appropriations legislation, and stand ready to work with NIH and 
Congressional leaders on the challenging issues ahead. Thank you for 
your consideration.
                                 ______
                                 
     Prepared Statement of the Digestive Disease National Coalition

Summary of Fiscal Year 2012 Recommendations
    $35 billion for the National Institutes of Health (NIH) at an 
increase of 12 percent over fiscal year 2011. Increase funding for the 
National Cancer Institute (NCI), the National Institute of Diabetes and 
Digestive and Kidney Diseases (NIDDK) and the National Institute of 
Allergy and Infectious Diseases (NIAID) by 12 percent.
    Continue focus on digestive disease research and education at NIH, 
including the areas of inflammatory bowel disease (IBD), hepatitis and 
other liver diseases, irritable bowel syndrome (IBS), colorectal 
cancer, endoscopic research, pancreatic cancer, and celiac disease.
    $50 million for the Centers for Disease Control and Prevention's 
(CDC) hepatitis prevention and control activities.
    $50 million for the Center for Disease Control and Prevention's 
(CDC) colorectal cancerscreening and prevention program.
    Chairman Rehberg, thank you for the opportunity to again submit 
testimony to the Subcommittee. Founded in 1978, the Digestive Disease 
National Coalition (DDNC) is a voluntary health organization comprised 
of 29 professional societies and patient organizations concerned with 
the many diseases of the digestive tract. The DDNC promotes a strong 
Federal investment in digestive disease research, patient care, disease 
prevention, and public awareness. The DDNC is a broad coalition of 
groups representing disorders such as Inflammatory Bowel Disease (IBD), 
Hepatitis and other liver diseases, Irritable Bowel Syndrome (IBS), 
Pancreatic Cancer, Ulcers, Pediatric and Adult Gastroesophageal Reflux 
Disease, Colorectal Cancer, and Celiac Disease.
    Mr. Chairman, the social and economic impact of digestive disease 
is enormous and difficult to grasp. Digestive disorders afflict 
approximately 65 million Americans. This results in 50 million visits 
to physicians, over 10 million hospitalizations, collectively 230 
million days of restricted activity. The total cost associated with 
digestive diseases has been conservatively estimated at $60 billion a 
year.
    The DDNC would like to thank the Subcommittee for its past support 
of digestive disease research and prevention programs at the National 
Institutes of Health (NIH) and the Centers for Disease Control and 
Prevention (CDC).
    Specifically the DDNC recommends: $2.16 billion for the National 
Institute of Diabetes and Digestive and Kidney Disease (NIDDK); and $35 
billion for the NIH.
    We at the DDNC respectfully request that any increase for NIH does 
not come at the expense of other Public Health Service agencies. With 
the competing and the challenging budgetary constraints the 
Subcommittee currently operates under, the DDNC would like to highlight 
the research being accomplished by NIDDK which warrants the increase 
for NIH.

Inflammatory Bowel Disease
    In the United States today about 1 million people suffer from 
Crohn's disease and ulcerative colitis, collectively known as 
Inflammatory Bowel Disease (IBD). These are serious diseases that 
affect the gastrointestinal tract causing bleeding, diarrhea, abdominal 
pain, and fever. Complications arising from IBD can include anemia, 
ulcers of the skin, eye disease, colon cancer, liver disease, 
arthritis, and osteoporosis. The cause of IBD is still unknown, but 
research has led to great breakthroughs in therapy.
    In recent years researchers have made significant progress in the 
fight against IBD. The DDNC encourages the subcommittee to continue its 
support of IBD research at NIDDK and NIAID at a level commensurate with 
the overall increase for each institute. The DDNC would like to applaud 
the NIDDK for its strong commitment to IBD research through the 
Inflammatory Bowel Disease Genetics Research Consortium. The DDNC urges 
the Consortium to continue its work in IBD research. Therefore the DDNC 
and its member organization the Crohn's and Colitis Foundation of 
America encourage the CDC to continue to support a nationwide IBD 
surveillance and epidemiological program in fiscal year 2012.

Viral Hepatitis: A Looming Threat to Health
    The DDNC applauds all the work NIH and CDC have accomplished over 
the past year in the areas of hepatitis and liver disease. The DDNC 
urges that funding be focused on expanding the capability of State 
health departments, particularly to enhance resources available to the 
hepatitis State coordinators. The DDNC also urges that CDC increase the 
number of cooperative agreements with coalition partners to develop and 
distribute health education, communication, and training materials 
about prevention, diagnosis and medical management for viral hepatitis.
    The DDNC supports $50 million for the CDC's Hepatitis Prevention 
and Control activities. The hepatitis division at CDC supports the 
hepatitis C prevention strategy and other cooperative nationwide 
activities aimed at prevention and awareness of hepatitis A, B, and C. 
The DDNC also urges the CDC's leadership and support for the National 
Viral Hepatitis Roundtable to establish a comprehensive approach among 
all stakeholders for viral hepatitis prevention, education, strategic 
coordination, and advocacy.

Colorectal Cancer Prevention
    Colorectal cancer is the third most commonly diagnosed cancer for 
both men and woman in the United States and the second leading cause of 
cancer-related deaths. Colorectal cancer affects men and women equally.
    The DDNC recommends a funding level of $50 million for the CDC's 
Colorectal Cancer Screening and Prevention Program. This important 
program supports enhanced colorectal screening and public awareness 
activities throughout the United States. The DDNC also supports the 
continued development of the CDC-supported National Colorectal Cancer 
Roundtable, which provides a forum among organizations concerned with 
colorectal cancer to develop and implement consistent prevention, 
screening, and awareness strategies.

Pancreatic Cancer
    In 2006, an estimated 33,730 people in the United States will be 
found to have pancreatic cancer and approximately 32,300 will die from 
the disease. Pancreatic cancer is the fifth leading cause of cancer 
death in men and women. Only lout of 4 patients will live 1 year after 
the cancer is found and only 1 out of 25 will survive 5 or more years.
    The National Cancer Institute (NCI) has established a Pancreatic 
Cancer Progress Review Group charged with developing a detailed 
research agenda for the disease. The DDNC encourages the Subcommittee 
to provide an increase for pancreatic cancer research at a level 
commensurate with the overall percentage increase for NCI and NIDDK.

Irritable Bowel Syndrome (IBS)
    IBS is a disorder that affects an estimated 35 million Americans. 
The medical community has been slow in recognizing IBS as a legitimate 
disease and the burden of illness associated with it. Patients often 
see several doctors before they are given an accurate diagnosis. Once a 
diagnosis of IBS is made, medical treatment is limited because the 
medical community still does not understand the pathophysiology of the 
underlying conditions.
    Living with IBS is a challenge, patients face a life of learning to 
manage a chronic illness that is accompanied by pain and unrelenting 
gastrointestinal symptoms. Trying to learn how to manage the symptoms 
is not easy. There is a loss of spontaneity when symptoms may intrude 
at any time. IBS is an unpredictable disease. A patient can wake up in 
the morning feeling fine and within a short time encounter abdominal 
cramping to the point of being doubled over in pain and unable to 
function.
    Mr. Chairman, much more can still be done to address the needs of 
the nearly 35 million Americans suffering from irritable bowel syndrome 
and other functional gastrointestinal disorders. The DDNC recommends 
that NIDDK increase its research portfolio on Functional 
Gastrointestinal Disorders and Motility Disorders.

Digestive Disease Commission
    In 1976, Congress enacted Public Law 94-562, which created a 
National Commission on Digestive Diseases. The Commission was charged 
with assessing the state of digestive diseases in the United States, 
identifying areas in which improvement in the management of digestive 
diseases can be accomplished and to create a long-range plan to 
recommend resources to effectively deal with such diseases.
    The DDNC recognizes the creation of the National Commission on 
Digestive Diseases, and looks forward to working with the National 
Commission to address the numerous digestive disorders that remain in 
today's diverse population.

Conclusion
    The DDNC understands the challenging budgetary constraints and 
times we live in that this Subcommittee is operating under, yet we hope 
you will carefully consider the tremendous benefits to be gained by 
supporting a strong research and education program at NIH and CDC. 
Millions of Americans are pinning their hopes for a better life, or 
even life itself, on digestive disease research conducted through the 
National Institutes of Health. Mr. Chairman, on behalf of the millions 
of digestive disease sufferers, we appreciate your consideration of the 
views of the Digestive Disease National Coalition. We look forward to 
working with you and your staff.

Digestive Disease National Coalition
    The Digestive Disease National Coalition was founded 30 years ago. 
Since its inception, the goals of the coalition have remained the same: 
to work cooperatively to improve access to and the quality of digestive 
disease healthcare in order to promote the best possible medical 
outcome and quality of life for current and future patients with 
digestive diseases.
                                 ______
                                 
     Prepared Statement of the Dystonia Medical Research Foundation

    Summary of recommendations for fiscal year 2012:
  --$35 Billion for the National Institutes of Health (NIH) and 
        concurrent percentage increases across its institutes and 
        centers.
  --Expand dystonia research at NIH through the National Institute on 
        Neurological Disorders and Stroke (NINDS), the National 
        Institute on Deafness and other Communication Disorders 
        (NIDCD), the National Eye Institute (NEI), and the National 
        Institute on Child Health and Human Development (NICHD).
  --Continue to advance dystonia research through partnerships with the 
        Office of Rare Diseases Research (ORDR) and the Rare Diseases 
        Clinical Research Network (RDCRN).
  --$100 million for the Cures Acceleration Network (CAN)
    Dystonia is a neurological movement disorder characterized by 
involuntary muscle spasms that cause the body to twist, repetitively 
jerk, and sustain postural deformities. Focal dystonia affects specific 
parts of the body, while generalized dystonia affects multiple parts of 
the body at the same time. Some forms of dystonia are genetic but 
dystonia can also be caused by injury or illness. Although dystonia is 
a chronic and progressive disease, it does not impact cognition, 
intelligence, or shorten a person's life span. Conservative estimates 
indicate that between 300,000 and 500,000 individuals suffer from some 
form of dystonia in North America alone. Dystonia does not 
discriminate, affecting all demographic groups. There is no known cure 
for dystonia and treatment options remain limited.
    Although little is known regarding the causes and onset of 
dystonia, two therapies have been developed and proved particularly 
useful to control patients' symptoms. Botulinum toxin (Botox/Myobloc) 
injections and deep brain stimulation (DBS) have shown varying degrees 
of success alleviating dystonia symptoms. Until a cure is discovered, 
the development of management therapies such as these remains vital, 
and more research is needed to fully understand the onset and 
progression of the disease in order to better treat patients.

Dystonia Research at the National Institutes of Health (NIH)
    Currently, dystonia research at NIH is conducted through the 
National Institutes on Neurological Disorders and Stroke (NINDS), the 
National Institute on Deafness and Other Communication Disorders 
(NIDCD), the National Eye Institute (NEI), and the Office of the 
Director.
    The majority of dystonia research at NIH is conducted through 
NINDS. NINDS has utilized a number of funding mechanisms in recent 
years to study the causes and mechanisms of dystonia. These grants 
cover a wide range of research including the genetics and genomics of 
dystonia, the development of animal models of primary and secondary 
dystonia, molecular and cellular studies in inherited forms of 
dystonia, epidemiology studies, and brain imaging. DMRF works to 
support NINDS in conducting critical research and advancing the 
understanding of dystonia.
    NIDCD has funded many studies on brainstem systems and their role 
in spasmodic dysphonia. Spasmodic dysphonia is a form of focal dystonia 
which involves involuntary spasms of the vocal cords causing 
interruptions of speech and affecting voice quality. In addition, NEI 
focuses some of its resources on the study of blepharospasm. 
Blepharospasm is an abnormal, involuntary blinking of the eyelids which 
can cause blindness due to a patient's inability to open their eyelids. 
DMRF encourages partnerships between NINDS, NIDCD and NEI to further 
dystonia research.
    When ORDR initiated the second phase of the Rare Disease Clinical 
Research Network at NIH, they provided funding for an additional 19 
grants aimed at studying the natural history, epidemiology, diagnosis, 
and treatment of rare diseases. This includes the Dystonia Coalition, 
which facilitates collaboration between researchers, patients, and 
patient advocacy groups to advance the pace of clinical research on 
cervical dystonia, blepharospasm, spasmodic dysphonia, craniofacial 
dystonia, and limb dystonia. Working primarily through NINDS and ORDR, 
the RDCRN holds great hope for advancing understanding and treatment of 
primary focal dystonias.
    Treatment for dystonia is highly individualized, and many dystonia 
patients do not respond to the current available therapies. The study 
of potential dystonia therapies is critical for the community. The 
Cures Acceleration Network (CAN) promises to advance the development of 
``high need cures,'' particularly by reducing the barriers between 
research discovery and clinical trials in areas that the private sector 
is unlikely to pursue in an adequate or timely way. DMRF supports this 
initiative and asks that it be funded at $100 million, as requested in 
the President's budget.
    In summary, the DMRF recommends the following for fiscal year 2012:
  --$35 billion for NIH and a proportional increase for its Institutes 
        and Centers.
  --Increased portfolio of dystonia research at NIH through the 
        National Institute on Neurological Disorders and Stroke, the 
        National Institute on Deafness and Other Communication 
        Disorders, the National Eye Institute, and the National 
        Institute on Child Health and Human Development.
  --Continued partnerships on dystonia research between the Office of 
        Rare Diseases Research, other NIH Institutes and Centers, the 
        Rare Diseases Clinical Research Network, and the dystonia 
        patient community.
  --$100 million for the Cures Acceleration Network

The Dystonia Medical Research Foundation (DMRF)
    The Dystonia Medical Research Foundation was founded over 30 years 
ago and has been a membership-driven organization since 1993. Since our 
inception, the goals of DMRF have remained to advance research for more 
effective treatments of dystonia and ultimately find a cure; to promote 
awareness and education; and support the needs and well being of 
affected individuals and their families.
    Thank you for the opportunity to present the views of the dystonia 
community, we look forward to providing any additional information.
                                 ______
                                 
           Prepared Statement of the Elder Justice Coalition

    The Elder Justice Coalition (EJC) thanks you for providing an 
opportunity to submit testimony as you consider an fiscal year 2012 
Labor-HHS and Education Appropriations bill. The EJC is a 705 member 
strong, non-partisan organization dedicated to advocating for funding 
for the Elder Justice Act (EJA), a bipartisan bill authored by Rep. 
Pete King (NY) and sponsored by Rep. Tammy Baldwin (WI) and Rep. Janice 
Schakowsky (IL). Senator Orrin Hatch (UT) was the sponsor of the Senate 
version of the bill. The EJA was passed over a year ago. Authorized 
funding for the EJA is $195 million per year for 4 years, but first 
time funding has yet to be appropriated.
    Since passage of the EJA, a year later, vulnerable older adults who 
should be protected by the law are confronted with the same threats 
they faced a year ago. This is a sad reality given the increasing 
severity of elder abuse in this country. The most recent study 
estimates that 14.1 percent of non-institutionalized older adults 
nationwide had experienced some form of elder abuse in the past year. 
According to a recent National Institute of Justice study, almost 11 
percent of people ages 60 and older (5.7 million) faced some form of 
elder abuse in 2009. Financial exploitation of older adults is 
increasingly alarming. A 2009 report by the MetLife Mature Market 
Institute and the National Committee for the Prevention of Elder Abuse 
(NCPEA) estimates that seniors lose a minimum of $2.5 billion each 
year. A study of financially exploited older persons in one State found 
that 9 percent of the victims had to turn to Medicaid for their care 
after their own funds were stolen. Elder financial exploitation 
undoubtedly represents a large drain on Medicaid throughout the 
country.
    In his proposed budget for fiscal year 2012, President Obama 
included $21.5 million for Elder Justice Act funding. The proposed 
funding would benefit States and local communities and create jobs. Of 
the $21.5 million, $16.5 million was included for State adult 
protective services, the first and front line responders to cases of 
elder abuse in the home. Of these funds, $1.5 million would be used to 
prevent and address elder abuse within Tribal nations.
    APS workers are faced with increasing and complex caseloads while 
both Federal and State funding for these programs lag behind. 
Currently, there is no dedicated Federal funding stream for State APS 
agencies. A recently released report outlines the challenges APS faces 
and notes that Federal leadership on elder abuse prevention is lacking. 
Another report points to an overall increase in calls to adult 
protective services. Over $100 million is authorized for State APS 
programs in fiscal year 2012 and we urge the Subcommittee to use the 
President's budget proposal, $21.5 million, as the minimum amount for 
APS funding. Strengthening APS will enhance its ability to protect both 
older victims and their assets before it is too late.
    The President also included an increase of $5 million for the Long-
Term Care Ombudsman Program to improve resident advocacy to elders and 
adults with disabilities who reside in a long-term care setting. The 
Long-Term Care Ombudsman Program is a critical tool in the fight 
against elder abuse yet, consistently underfunded.
    We urge you to include a minimum appropriation of $21.5 million for 
the Elder Justice Act in your fiscal year 2012 Labor-HHS Appropriations 
bill. We thank you for your consideration and please feel free to 
contact me with questions or concerns.
                                 ______
                                 
         Prepared Statement of the Eldercare Workforce Alliance

    Mr. Chairman and Members of the Subcommittee: We are writing on 
behalf of the Eldercare Workforce Alliance (EWA), which is comprised of 
28 national organizations united to address the immediate and future 
workforce crisis in caring for an aging America. As the Subcommittee 
begins consideration of funding for programs in fiscal year 2012, the 
Alliance \1\ asks that you consider $54.9 million in funding for the 
geriatrics health professions and direct-care worker training programs 
that are authorized under Titles VII and VIII of the Public Health 
Service Act as follows: $46.5 million for Title VII Geriatrics Health 
Professions Programs; $3.4 million for direct care workforce training; 
and $5 million for Title VIII Comprehensive Geriatric Education 
Programs.
---------------------------------------------------------------------------
    \1\ The positions of the Eldercare Workforce Alliance reflect a 
consensus of 75 percent or more of its members. This testimony reflects 
the consensus of the Alliance and does not necessarily represent the 
position of individual Alliance member organizations.
---------------------------------------------------------------------------
    Geriatrics health profession and direct-care worker training 
programs are integral to ensuring that America's healthcare workforce 
is prepared to care for the Nation's rapidly expanding population of 
older adults.
    The first of the baby boomers began to turn 65 this year. Within 20 
years, one in five Americans will be over 65; 90 percent of those 
Americans will have one or more chronic conditions. Despite the growing 
need for services, there is a growing shortage of health professionals 
and direct-care workers with specialized training in geriatrics and an 
even greater shortage of the geriatrics faculty needed to train the 
entire workforce.
    In 2008, the Institute of Medicine (IOM) issued a ground-breaking 
report, Retooling for an Aging America: Building the Health Care 
Workforce, which spotlighted these shortages and their impact on 
eldercare. The report called for an expansion of geriatrics faculty 
development awards to include additional professional disciplines, 
increased training for the direct-care workforce, and other efforts to 
create a healthcare workforce with adequate capacity to care for older 
adults. The Eldercare Workforce Alliance was established to encourage 
policymakers to act on the IOM's recommendations for addressing the 
eldercare workforce crisis.
    The enactment of the Patient Protection and Affordable Care Act 
(ACA) was a historic moment for healthcare in this country. ACA makes 
important strides toward addressing the severe and growing shortages of 
healthcare providers with the skills and training to meet the unique 
healthcare needs of our Nation's growing aging population.
    ACA includes provisions from the Retooling for an Aging America Act 
(S. 245 and H.R. 468 in the 111th Congress), sponsored by Senator Kohl 
(D-WI) and Representative Schakowsky (D-IL). These provisions enhance 
existing and establish new geriatrics programs in an effort to build 
the capacity of the healthcare workforce needed to care for older 
adults, as recommended in the IOM report.
    We very much appreciate the funding for the Title VII Geriatrics 
Health Professions programs that President Obama included in his fiscal 
year 2012 budget. We urge you to appropriate adequate funds for 
geriatrics training programs in fiscal year 2012 so that we can 
immediately begin to realize the healthcare workforce goals set forth 
in health reform. Specifically, the Eldercare Workforce Alliance 
requests $54.9 million in total funding for the following programs 
under Title VII and VIII of the Public Health Service Act:
Title VII Geriatrics Health Professions Appropriations Request: $46.5 
        Million
    Title VII Geriatrics Health Professions programs are the only 
Federal programs that: (1) increase the number of faculty with 
geriatrics expertise in a variety of disciplines; and (2) offer 
critically important geriatrics training to the entire healthcare 
workforce.
  --Geriatric Academic Career Awards (GACA).--The goal of this program 
        is to promote the development of academic clinician educators 
        in geriatrics.
      Program Accomplishments.--In Academic Year 2009-2010, GACA funded 
        84 non-competing continuation awards. GACA awardees provided 
        approximately 60,000 health professionals with 
        interdisciplinary geriatrics training. In turn, these trainees 
        provided culturally competent quality healthcare to over 
        525,000 underserved and uninsured patients in acute care 
        services, geriatric ambulatory care, long-term care, and 
        geriatric consultation services settings.
      In 2010, HRSA expanded the awards to be available to more 
        disciplines. EWA advocated for this expansion and we now want 
        to ensure that there is adequate funding for this vital 
        program. Our request of $5.3 million, as reflected in the 
        President's budget, includes necessary support for 68 Geriatric 
        Academic Career Awardees, promoting the development of 
        clinician educators.
  --Geriatric Education Centers (GEC).--The goal of the Geriatric 
        Education Centers is to provide quality interdisciplinary 
        geriatric education and training to geriatrics specialists and 
        non-specialists, including family caregivers and direct care 
        workers.
      Program Accomplishments.--In Academic Year 2009-2010, the GEC 
        grantees provided clinical training to 54,167 health 
        professional students and to 20,791 interdisciplinary teams in 
        multiple settings.
      As part of the ACA, Congress authorized a supplemental grant 
        award program that will train additional faculty through a 
        mini-fellowship program. The program requires awarded faculty 
        to provide training to family caregivers and direct care 
        workers. Our funding request of $22.7 million, as reflected in 
        the President's budget plus $2.7 million for the supplemental 
        grants, includes support for the core work of 45 GECs and for 
        the 24 GECs that would be funded to undertake development of 
        mini-fellowships under the supplemental grants program included 
        in ACA.
  --Geriatric Training Program for Physicians, Dentists, and Behavioral 
        and Mental Health Professions.--The goal of the GTPD is to 
        increase the supply of quality and culturally competent 
        geriatric clinical faculty and to retrain mid-career faculty in 
        geriatrics. This program supports training additional faculty 
        in medicine, dentistry, and behavioral and mental health so 
        that they have the expertise, skills and knowledge to teach 
        geriatrics and gerontology to the next generation of health 
        professionals in their disciplines.
      Program Accomplishments.--In Academic Year 2009-2010, 11 non-
        competing continuation grants were supported. Forty-nine 
        physicians, dentists, and psychiatric fellows received support 
        to provide geriatric care to 20,078 older adults across the 
        care continuum. Geriatric physician fellows provided healthcare 
        to 12,254 older adults. Geriatric dental fellows provided 
        healthcare to 4,073 older adults. Geriatric psychiatry fellows 
        provided healthcare to 3,751 older adults.
      Our funding request of $8.5 million, as reflected in the 
        President's budget, includes support for 13 institutions to 
        continue this important faculty development program.
  --Geriatric Career Incentive Awards Program.--Congress has authorized 
        this new program created through the ACA, which offers grants 
        to foster greater interest among a variety of health 
        professionals in entering the field of geriatrics, long-term 
        care, and chronic care management. President Obama included $10 
        million in his fiscal year 2012 budget to establish this awards 
        program. Our funding request of $10 million, as reflected in 
        the President's budget, includes support for implementation of 
        this new program.

Title VII Direct-Care Worker Training Program Appropriations Request: 
        $3.4 million
    Direct-care workers help older adults who need long-term services 
and supports including assistance with activities of daily living (e.g. 
eating, bathing, dressing, toileting). Expanded training opportunities 
for these essential workers are critical to ensuring an adequate 
geriatrics workforce. According to current employment projections, more 
than 1 million new direct care workers will be needed by 2018 in order 
to meet the growing need for care.
  --Training Opportunities for Direct Care Workers.--As part of the 
        ACA, Congress approved an advanced training program for direct 
        care workers, administered by HHS. Although President Obama's 
        budget did not include this vital training program, EWA urges 
        Congress to fund it in order to enhance direct care worker 
        skills and knowledge, and thereby, improve the quality of care 
        for older adults. EWA's funding request of $3.4 million 
        includes support to establish this unique grant program at 
        community colleges as they look to increase the geriatrics 
        knowledge and expertise of the direct care workforce.

Title VIII Geriatrics Nursing Workforce Development Programs 
        Appropriations Request: $5 million
    These programs, administered by the HRSA, are the primary source of 
Federal funding for advanced education nursing, workforce diversity, 
nursing faculty loan programs, nurse education, practice and retention, 
comprehensive geriatric education, loan repayment, and scholarship.
  --Comprehensive Geriatric Education Program.--The goal of this 
        program is to provide quality geriatric education to 
        individuals caring for the elderly. This program supports 
        additional training for nurses who care for the elderly; 
        development and dissemination of curricula relating to 
        geriatric care; and training of faculty in geriatrics. It also 
        provides continuing education for nurses practicing in 
        geriatrics.
      Program Accomplishments.--In Academic Year 2009-2010, 27 CGEP 
        grantees provided education and training to [suggest adding all 
        of these together--total of x professionals in nursing, home 
        health, as well as lay people] 3,030 Registered Nurses/
        Registered Nursing Students; 260 Advanced Practice Nurses; 221 
        Faculty; 110 Home Health Aides; 483 Licensed Practical/
        Vocational Nurses & LPN students; 730 Nurse Assistants/Patient 
        Care Associates; 810 Allied Health Professionals and 929 lay 
        persons, guardians, activity directors. The CGEP grantees 
        provided 459 educational course offerings in the care of the 
        elderly on a variety of topics to 6,846 participants.
  --Traineeships for Advanced Practice Nurses.--Through the ACA, the 
        Comprehensive Geriatric Education Program is being expanded to 
        include advanced practice nurses who are pursuing long-term 
        care, geropsychiatric nursing or other nursing areas that 
        specialize in care of elderly.
      Our funding request of $5 million, as reflected in the 
        President's budget, includes funds that will continue the 
        training of nurses caring for the elderly and offer 200 
        traineeships to nurses under the newly implemented traineeship 
        program.
    Without additional funds in these programs, we will fail to ensure 
that America's healthcare workforce will be prepared to care for older 
Americans. We understand that the Committee faces difficult budget 
decisions. However, we strongly believe that by investing in these 
programs, which create geriatrics faculty and offer the training that 
is needed to ensure a competent workforce, we will be delivering better 
care to America's older adults. Healthcare dollars will be saved from 
better care coordination and health outcomes, and the workforce will 
grow as more people are trained, recruited and retained in the field of 
geriatrics.
    On behalf of the members of the Eldercare Workforce Alliance, we 
commend you on your past support for geriatric workforce programs and 
ask that you join us in expanding the geriatrics workforce at this 
critical time--for all older Americans deserve quality of care, now and 
in the future.
    Thank you for your consideration.
                                 ______
                                 
              Prepared Statement of the FSH Society, Inc.

    Honorable Senator Harkin, Mr. Chairman, Honorable Senator Shelby, 
Ranking Member, Subcommittee members and members of the U.S. Senate 
Appropriations Committee, Subcommittee on Labor, Health and Human 
Services, Education and Related Agencies thank you for the opportunity 
to submit this testimony.
    I am Daniel Paul Perez, of Bedford, Massachusetts, President and 
CEO of the FSH Society, Inc. and an individual who has lived with 
facioscapulohumeral muscular dystrophy (FSHD) for 48 years. FSHD is 
also known as facioscapulohumeral muscular disease, FSH muscular 
dystrophy and Landouzy-Dejerine muscular dystrophy. For hundreds of 
thousands of men, women, and children the major consequence of 
inheriting the most prevalent form of muscular dystrophy is a lifelong 
progressive and severe loss of all skeletal muscles. FSHD is a 
crippling and life shortening disease. No one is immune, it is 
genetically and spontaneously (by mutation) transmitted to children and 
it affects entire family constellations.
    My testimony seeks to address the urgent need for NIH to redress 
and increase funding for research on FSHD.
    A consortium of European partners known as Orphanet, led by the 
French government research agency, INSERM (Insitut National de la Sante 
et de la Recherche Medicale), that is comparable to the United States. 
NIH, which includes both government and private members, has issued new 
epidemiology and prevalence data for hundreds of diseases that ranks 
FSHD as the first and most prevalent muscular dystrophy. The ``Orphanet 
Series'' report November 2010, ``Prevalence of Rare Diseases'' report 
can be found at Internet web site: (http://www.orpha.net/orphacom/
cahiers/docs/GB/Prevalence_of_rare_diseases_by_alphabetical_list.pdf). 
FSHD is presented as the third most prevalent muscular dystrophy in the 
Muscular Dystrophy Community Assistance, Research and Education 
Amendments of 2001 and 2008 (the MD-CARE Act). This new data changes 
the findings as listed in the MD-CARE Act. FSHD is 40 percent more 
prevalent than Duchenne muscular dystrophy (DMD), now recognized as the 
second most prevalent dystrophy.

------------------------------------------------------------------------
                                                               Cases/
                   Estimated Prevalence                        100,000
------------------------------------------------------------------------
Facioscapulohumeral muscular dystrophy (FSHD).............           7
Duchenne (DMD) and Becker dystrophy (BMD).................           5
Steinert myotonic dystrophy (DM)..........................           4.5
------------------------------------------------------------------------

    Figures from the online NIH database RCDC RePORT and the NIH 
Appropriations History for Muscular Dystrophy report provided by NIH/OD 
Budget Office & NIH OCPL show that from the inception of the MD CARE 
Act 2001, funding has more than quadrupled from $21 million to $86 
million in fiscal year 2010 for muscular dystrophy. In fiscal year 
2010, total muscular dystrophy funding grew by 3.6 percent ($3 million/
$83 million) over the previous fiscal year.
    In fiscal year 2010, FSHD funding represented 7 percent of the NIH-
wide muscular dystrophy budget ($6 million/$86 million). In the 
previous year, FSHD represented 6 percent of the total muscular 
dystrophy funding ($5 million/$83 million). FSHD funding as a 
percentage of overall NIH muscular dystrophy funding has been level 
over the last 9 years.

   NATIONAL INSTITUTES OF HEALTH (NIH) FSHD FUNDING AND APPROPRIATIONS
                          [Dollas in millions]
------------------------------------------------------------------------
                                                              FSHD as a
                                                              Percentage
                                                               of Total
                 Fiscal Year                       FSHD          NIH
                                                 Research      Muscular
                                                              Dystrophy
                                                               Funding
------------------------------------------------------------------------
2006.........................................          $1.7            4
2007.........................................           3              5
2008.........................................           3              5
2009.........................................           5              6
2010.........................................           6              7
------------------------------------------------------------------------
Sources: NIH/OD Budget Office & NIH OCPL & NIH RCDC RePORT.

    We highly commend the NIH on the ease of use and the continued 
accuracy of the Research Portfolio Online Reporting Tool (RePORT) 
report ``Estimates of Funding for Various Research, Condition, and 
Disease Categories (RCDC)'' with respect to reporting projects on 
muscular dystrophy.
    Now that FSHD has been established as the most prevalent muscular 
dystrophy, and in light of recent advances in research it makes no 
sense that FSHD remains the most underfunded dystrophy by the NIH and 
in the Federal research agency system (CDC, DOD and FDA). Given FSHD's 
prevalence, disease burden, the overall percentage of funding of the 
muscular dystrophy research portfolio and major mechanistic 
breakthroughs on FSHD etiology in 2010 and 2011, we ask Congress to 
urge NIH to provide a catalyst for scientific opportunity in FSHD.
    Inter-dystrophy funding changes and comparisons year after year 
clearly depicts that NIH FSHD funding needs to be increased and set 
right. Intra-dystrophy funding changes are misleading as a large change 
in a small number is still an anemic amount. In fiscal year 2010, the 
most prevalent muscular dystrophy, FSHD, received a $1 million increase 
from NIH to $6 million, up 20 percent from $5 million. In fiscal year 
2010, the second most prevalent, Duchenne (DMD/BMD) type, received a $5 
million increase from NIH to $38 million, up 15 percent from $33 
million. In fiscal year 2010, the third most prevalent myotonic 
dystrophy (DM) type, received $1 million less from NIH to $12 million 
down 8 percent from $13 million. There is an obvious funding disparity 
as the first and third most prevalent dystrophies combined, each with 
major breakthroughs in the past 2 years, are receiving less than half 
of NIH funding that the second prevalent dystrophy with its disease 
causing gene being discovered 25 years ago.
    The MD CARE Act mandates the NIH Director to intensify efforts and 
research in the muscular dystrophies, including FSHD, across the entire 
NIH. It should be very concerning that: (1) in the last 9 years 
muscular dystrophy has quadrupled to $86 million and that FSHD has 
remained on average at 5 percent of the NIH muscular dystrophy 
portfolio; (2) FSHD, the most prevalent muscular dystrophy is far 
underrepresented based on percentage of overall NIH dystrophy funding 
given its prevalence and disease burden; and (3) that both FSHD and DM 
have had extraordinary major breakthroughs in understanding the disease 
mechanism in the current and past fiscal years and NIH funding remains 
level in one and has declined in the other.

                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                                     NIH Funding         Percentage of Total MD
                                                             --------------------------      funding at NIH
                   Muscular Dystrophy Type                                             -------------------------
                                                              Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year
                                                                  2009         2010         2009         2010
----------------------------------------------------------------------------------------------------------------
FSHD........................................................           $5           $6            6            7
DMD/BMD.....................................................           33           38           40           44
DM..........................................................           13           12           16           14
----------------------------------------------------------------------------------------------------------------

    Two major breakthroughs on FSHD occurred in fiscal year 2010 and 
fiscal year 2011 that make it urgent for the NIH to redress funding for 
FSHD. On August 19, 2010, a paper titled, ``A Unifying Genetic Model 
for Facioscapulohumeral Muscular Dystrophy'' [Science 24 September 
2010: Vol. 329 no. 5999 pp. 1650-1653] was published online in the top-
rated journal by a group of researchers who started their careers in 
FSHD research with post-doctoral fellowships from the FSH Society. This 
paper was a major breakthrough in understanding how FSHD works. It made 
the front page of the New York Times on the following day. The Times 
article ``Reanimated `Junk' DNA Is Found to Cause Disease,'' quoted Dr. 
Francis Collins, a human geneticist and Director of the National 
Institutes of Health saying, ``If we were thinking of a collection of 
the genome's greatest hits, this would go on the list.'' Dr. Collins 
went on to say, ``Well, my gosh, . . . here's a simple disease with an 
incredibly elaborate mechanism. To come up with this sort of mechanism 
for a disease to arise--I don't think we expected that.'' Professor 
David E. Housman, FSH Society Scientific Advisory Committee Chairman 
and a geneticist at Massachusetts Institute of Technology (M.I.T.), was 
quoted saying, ``Scientists will now be looking for other diseases with 
similar causes, and they expect to find them. As soon as you understand 
something that was staring you in the face and leaving you clueless, 
the first thing you ask is, `Where else is this happening?' ''
    Two months later, another paper was published that originated with 
seminal funding from the FSH Society that made a second critical 
advance in determining the cause of FSHD. ``Facioscapulohumeral 
Dystrophy: Incomplete Suppression of a Retrotransposed Gene'' was 
published in PLoS Genetics, October 28, 2010, that made a second 
critical advance in FSHD. The research shows that FSHD is caused by the 
inefficient suppression of a gene that may be normally expressed only 
in early development. The international team of researchers led by 
Stephen Tapscott, M.D., Ph.D., a member of the Hutchinson Center's 
Biology Division thinks that the work will lead to new approaches for 
therapy and new insights into human evolution of disease.
    The international FSHD clinical and research community recently 
came together at the DHHS NIH Eunice Kennedy Shriver National Institute 
of Child Health and Human Development (NICHD) Boston Biomedical 
Research Institute Senator Paul D. Wellstone MD CRC for FSHD. Almost 90 
scientists working on FSHD globally met at the 2010 FSH Society FSHD 
International Research Consortium, held October 21-22, 2010 to identify 
areas of scientific opportunity in FSHD that need funding. The summary 
and recommendations of the group state that given the recent 
developments in our definition of FSHD, that within 1 to 2 years 
evidence-based intervention strategies, therapeutics, and trials need 
to be planned and conducted. Our immediate priorities should be to 
confirm that the DUX4 gene hypothesis is valid. Then we must understand 
the normal DUX4 function. Finally, we must understand the naturally 
occurring variability to enable us to manipulate the disease in our 
favor. We need to be prepared for this new era in the science of FSHD 
by accelerating efforts in the following 10 areas: Shareable protocols; 
common and shareable materials and data by the whole community; 
corroborate and verify DUX4 finding; FSHD alleles in context of 
population genetics need to be defined; biomarkers; FSHD clinical 
evaluation scales/systems need be defined under one agreed standard; 
Working Groups/animal and mouse model working group consortium; model 
systems for mechanistic, intervention work and advancement to clinical 
trials; Epigenetics/Genetics; clinical trials readiness.
    To read the expanded summary and recommendations of the group 
please go to online file at: http://www.fshsociety.org/assets/pdf/
IRCWorkshop2010WorkingConsensusOfPrioritiesGalley.pdf.
    It is impossible to justify the current low level of FSHD funding 
in the current context of muscular dystrophy budget at the NIH. We have 
worked hard with our scientific colleagues and member patients and 
families to build the corpus of knowledge to understand FSHD. We have 
made great progress in understanding our own disease. We have worked 
side by side with the NIH directors, program and legislative staff the 
whole distance to these remarkable discoveries. Still, there has been a 
confounding and recalcitrant lack of traction at NIH for funding in 
FSHD. Our request to the NIH--increase FSHD funding now!
    NIH constantly reminds us that the NIH system of peer-review 
delivers the best science from investigator initiated grant 
applications, thus delivering quality science to the American taxpayer. 
NIH is receiving more and more grant applications on FSHD. As a 
nonprofit volunteer health agency that funds breakthrough research 
based on peer-review mechanics and on a shoe-string compared to NIH, we 
appreciate the need for peer review, the need to fund the best science 
and also the need to recalibrate the process to ensure that pragmatic 
and necessary choices are being pursued in the advent of paradigmatic 
changes in a disease. We FSHD patients and fellow citizens appreciate 
this as taxpayers as well.
    What it comes down to is--the choice of ``the best science'' in a 
disease area and how this has been achieved. This is difficult to 
measure except in hindsight e.g. what hypotheses represent the best 
science. The Director of NIH said, set this down, take note, this is 1 
of the 10 greatest discoveries in human genomics and that we never 
expected diseases to be caused by unwanted RNA from reanimated junk 
DNA. The implications are enormous. FSHD has an incredibly elaborate 
mechanism that we did not expect. We now know that inadvertent 
expression of DUX4 from a stretch of reactivated ``junk-DNA'' causes 
muscle disease known as FSHD. It is clear that this type of research 
does not and has not done well in peer-review and it is obvious by the 
fact that funding is dwarfed. Looking back at the recent NIH Request 
For Proposals (RFAs) that covered FSHD we can see that all of the 
breakthrough D4Z4 DUX4 gene grant applications went unfunded by NIH. 
Perhaps the study sections need to be pulled apart and examined in the 
broader context of muscular dystrophy. Perhaps comparing Duchenne, 
Myotonic and FSHD is now much akin to determining the best science in 
computer science and biology combined. Computer science and biology 
seems an obvious apples to oranges comparison. We are saddened that the 
most brilliant work on FSHD was turned away by the NIH. It is crystal 
clear, if not completely black and white, that FSHD is not achieving 
the goals of parity in funding as set down in mandates set forth in the 
MD CARE Acts 2001/2008 and by the NIH Action Plan for the Dystrophies 
submitted to the Congress by the NIH.
    As you know, we are impressed with the efforts of NIH staff and 
Muscular Dystrophy Coordinating Committee (MDCC) on behalf of the 
community of patients and their families with muscle disease and the 
research community pursuing solutions for all of us. We recognize in 
particular the efforts and hard work of the following NIH staff: Story 
Landis, Ph.D. and John D. Porter, Ph.D. of National Institute of 
Neurological Disorders and Stroke (NINDS); Stephen I. Katz, M.D., Ph.D. 
and Glen H. Nuckolls, Ph.D. and Vittorio Satorelli, Ph.D., National 
Institute of Arthritis and Musculoskeletal and Skin Disease (NIAMS); 
James W. Hanson, M.D. and Ljubisa Vitkovic, M.D., Ph.D., (NICHD).
    The pace of discovery and numbers of experts in the field of 
biological science and clinical medicine working on FSHD are rapidly 
expanding. Many leading experts are now turning to work on FSHD not 
only because it is one of the most complicated and challenging problems 
seen in science, but because it represents the potential for great 
discoveries, insights into stem cells and transcriptional processes and 
new ways of treating human disease.
    We request this year in fiscal year 2012, immediate help for those 
of us coping with and dying from FSHD. We ask NIH to fund research on 
facioscapulohumeral muscular dystrophy (FSHD) at a level of $35 million 
in fiscal year 2012. In view of the tremendous breakthroughs in FSHD 
research that may rewrite genetics, we implore the NIH to immediately 
address the inadequacy in FSHD muscular dystrophy funding.
    We implore the Appropriations Committee to request that the 
Director of NIH, the Chair, and Executive Secretary of the Federal 
advisory committee MDCC to increase the amount of FSHD research and 
projects in its portfolios using all available passive and pro-active 
mechanisms and interagency committees.
    We request that NIH be more proactive in facilitating grant 
applications (unsolicited and solicited) from new and existing 
investigators and through new and existing mechanisms, special 
initiatives, training grants and workshops--to bring knowledge of FSHD 
to the next level.
    We ask NIH to consider increasing the scope and scale of the 
existing DHHS U.S. NIH Senator Paul D. Wellstone Muscular Dystrophy 
Cooperative Research Centers (U54) to double or triple their size--they 
are financially under-powered as compared to their potential. These 
centers have provided an excellent source of human biomaterials and are 
a catalyst for research, clinical research and training on muscular 
dystrophy. We ask NIH to develop funding mechanisms to help expand work 
from NIH Wellstone Centers outward to address needs and priorities of 
the scientific communities.
    We ask NIH for more than one Wellstone center solely dedicated to 
FSHD. There needs to be one-half dozen groups with 6 to 10 people 
solely working on FSHD across the United States to assure continuity in 
FSHD efforts.
    We strongly support research discovery through the use of post-
doctoral and clinical training fellowships--a model that has worked 
very effectively for us. It produces results and progeny. Yet, NIH has 
only a few fellows in dystrophy. We request that NIH issue an RFA to 
exclusively fund 12 new post-doctoral fellows and four clinical fellows 
a year on an ongoing basis for the next 5 years on FSHD. We ask that 
FSHD be the pilot dystrophy for such initiative.
    We request that the Director of the NIH initiate solely for FSHD an 
RFA for Specialized Centers (P50s) to encourage multidisciplinary 
research approaches on the complexity of FSHD.
    We request that the Director of the NIH redress the low level of 
funding in FSHD by issuing an RFA exclusively for FSHD to allow it to 
be a prototype disease in the newly forming National Center for 
Advancing Translational Sciences. This will help advance the 
translational science in FSHD and catalyze the development of novel 
diagnostics and therapeutics for FSHD.
    We request that the Directors of the NIH develop, through an RFA 
for FSHD, a central place where clinical trials can be designed and run 
on animal models of FSHD (mouse, dog, sheep, etc.). It is cost 
prohibitive to have each U54, P01, P50 funding infrastructure to 
support these resources. We ask that FSHD be the proof-of-concept 
disease for such a facility.
    Thanks to your efforts and the efforts of your Committee, Mr. 
Chairman, the Congress, the NIH and the FSH Society are all working to 
promote progress in FSHD. Our successes are continuing and your support 
must continue and increase.
    Mr. Chairman, thank you for this opportunity to testify before your 
committee.
                                 ______
                                 
    Prepared Statement of the Federation of American Societies for 
                          Experimental Biology

    The Federation of American Societies for Experimental Biology 
(FASEB) urges Congress to make investment in the National Institutes of 
Health (NIH) an urgent national priority and respectfully requests an 
appropriation of $35 billion for the agency in fiscal year 2012. This 
figure represents an increase that responds to the effects of inflation 
on the current program level and is needed to continue ongoing 
initiatives and prevent severe damage to the Nation's capacity for 
innovation in its fight against disease.
    As a federation of 23 scientific societies, FASEB represents more 
than 100,000 life scientists and engineers, making it the largest 
coalition of biomedical research associations in the United States. 
FASEB's mission is to advance health and welfare by promoting progress 
and education in biological and biomedical sciences, including the 
research funded by NIH, through service to its member societies and 
collaborative advocacy. FASEB enhances the ability of scientists and 
engineers to improve--through their research--the health, well-being, 
and productivity of all people.
    NIH is the driving force behind our Nation's leadership in 
biomedical science and the dramatic improvements in our health and 
quality of life. Because of NIH and the research it supports, we stand 
on the brink of an era of enormous potential progress against the 
ravages of disease. NIH funds the research of more than 325,000 
scientists at over 3,000 universities, medical schools, and other 
research institutions across the United States. Eighty percent of NIH 
funding is distributed through competitive grants to researchers in 
nearly every congressional district and the U.S. territories. More than 
130 Nobel Prize winners have received support from the agency. NIH 
considers many different perspectives in establishing scientific 
priorities and identifies and, within the limits of its budget, funds 
the most promising and highest quality research to address them. NIH is 
also training the next generation of researchers to ensure that the 
United States continues to be a global leader in advancing medical 
science.

Improving Health, Saving Lives
    Research funded by NIH has produced an outstanding legacy. NIH-
funded discovery has meant that more than 1 million lives per year are 
saved due to therapies to prevent heart attacks and stroke. That alone 
has increased American life expectancy by 4 years. Biomedical research 
discovery has also meant that since 2002 deaths from cancer have 
steadily declined; and in the past 30 years, survival rates for 
childhood cancers have increased from less than 50 percent to over 80 
percent. More recent advances include:
  --Improving Treatments for Acute Myeloid Leukemia (AML).--
        Investigators have discovered mutations in a gene that affects 
        the treatment prognosis for some patients with AML, an 
        aggressive blood cancer that kills 9,000 Americans annually. 
        The findings may help guide future treatment strategies for 
        individuals with AML, as well as lead to more effective 
        therapies for patients who carry the mutations.
  --Increasing Pediatric Cancer Survival Rates.--A new form of 
        immunotherapy has significantly improved survival rates of 
        children with neuroblastoma, a deadly nervous system cancer 
        responsible for 12 percent of all cancer deaths in children 
        under age 15. The new therapy has dramatically increased the 
        percentage of children who were alive and free of disease 
        progression after 2 years.
  --Reversing Aspects of Aging.--Researchers have reversed age-related 
        degeneration in a mouse model of aging. While the findings 
        don't prove that natural aging could be halted or reversed, 
        they may lead to new strategies to combat certain age-related 
        conditions.
  --Rapidly Detecting Tuberculosis (TB).--Scientists have developed an 
        automated test that can rapidly and accurately detect TB and 
        drug-resistant TB in patients. The finding could pave the way 
        for earlier diagnosis and more targeted treatment of this 
        disease. TB kills about 1.8 million people each year, and drug-
        resistant TB is a growing threat. The new test makes it 
        possible to detect TB and drug resistance in a single clinic 
        visit and perhaps begin treatment immediately.

Predictable and Sustainable Funding Will Drive Innovation and Progress
    Our leadership in biomedical research has made us the envy of the 
rest of the world. Our dominant position in the discovery of new drugs 
and therapies is the result of research conducted by scientists and 
engineers in academia and in the biotech firms that they have 
started.\1\ A study published in the February 9 issue of the New 
England Journal of Medicine found that 153 new drugs approved by the 
U.S. Food and Drug Administration during the past 40 years were 
discovered at least in part by public sector research institutions 
(universities, research hospitals, nonprofit research institutes, and 
Federal laboratories), highlighting the increasingly important role of 
the public sector in the development of pharmaceuticals and other 
medical interventions.\2\ At present, the NIH budget is insufficient to 
fund all of the promising research that needs to be done. Less than one 
in five research proposals can be funded. Over the past 6 years, the 
number of research project grants funded by NIH has declined in almost 
every year, and the agency is now funding 2,000 fewer grants that it 
did in 2004. Due to the extreme competition for support, NIH grant 
applicants have pared their funding requests to the bare minimum needed 
to fulfill the goal of their research.
---------------------------------------------------------------------------
    \1\ R. Kneller, Nature Reviews: Drug Discovery 9 (November) 2010.
    \2\ Ashley J. Stevens, D.Phil., Jonathan J. Jensen, M.B.A., Katrine 
Wyller, M.B.E., Patrick C. Kilgore, B.S., Sabarni Chatterjee, M.B.A., 
Ph.D., and Mark L. Rohrbaugh, Ph.D., J.D. The Role of Public-Sector 
Research in the Discovery of Drugs and Vaccines, New England Journal of 
Medicine, February 9, 2011.
---------------------------------------------------------------------------
    If we fail to continue to capitalize on our investment, others 
will. We have built laboratories, trained young researchers, and 
initiated exciting new projects. Potentially revolutionary new avenues 
of research hold promise for earlier screening and better therapies, 
but these advances will not become a reality unless the NIH budget is 
sustained and enhanced to meet inflation's demands. Failure to continue 
our commitment to biomedical research will terminate important 
scientific investigations, stunt graduate training, and discourage 
young scientists who are the key to our future.
    The NIH budget is currently $34 billion (including supplemental 
appropriations). Exciting new initiatives at NIH are poised to 
accelerate our progress in the search for cures, and it would be tragic 
if we could not capitalize on the many opportunities before us. A 
modest increase over the current program level is needed to continue 
ongoing initiatives and prevent severe damage to our capacity for 
innovation. Maintaining our current level of effort requires an 
increase equal to the biomedical research and development price index 
(BRDPI), which the Bureau of Economic Analysis in the U.S. Department 
of Commerce estimates will be 3 percent in fiscal year 2012.
    A small fraction of our Federal budget, research funding generates 
an enormous return in new technologies and improved quality of life. 
Boom and bust cycles are wasteful and inefficient strategies for 
funding science. The Nations medical research agency needs sustainable 
and predictable budget growth to maximize the return on this investment 
in the health and longevity of all Americans. To that end, FASEB 
recommends an appropriation of $35 billion for NIH in fiscal year 2012. 
Thank you for the opportunity to offer FASEB's support for NIH.
                                 ______
                                 
  Prepared Statement of Friends of the Health Resources and Services 
                             Administration

    The Friends of HRSA is a nonprofit and non-partisan alliance of 
more than 180 national organizations, collectively representing 
millions of public health and healthcare professionals, academicians 
and consumers. The coalition's principal goal is to ensure that HRSA's 
broad health programs have continued support in order to reach the 
populations presently underserved by the Nation's patchwork of health 
services.
    HRSA operates programs in every State and territory and thousands 
of communities across the country and is a national leader in providing 
health services for individuals and families. The agency serves as a 
health safety net for the medically underserved, including the 50 
million Americans who were uninsured in 2009 and 60 million Americans 
who live in neighborhoods where primary healthcare services are scarce. 
To respond to these challenges, it is the best professional judgment of 
the members of the Friends of HRSA that the agency will require an 
overall funding level of at least $7.65 billion for fiscal year 2012.
    While we recognize the reality of the current fiscal climate, our 
request of $7.65 billion represents the minimum amount necessary for 
HRSA to continue to meet the healthcare needs of the American public. 
Anything less will undermine the efforts of HRSA programs to improve 
access to quality healthcare for millions of our neediest citizens. 
Additionally, the Friends of HRSA coalition members remain concerned 
about the deep cuts made to the agency in the final fiscal year 2011 
Continuing Resolution and the negative consequences for public health. 
Therefore, the requested minimum level of funding for fiscal year 2012 
is essential to allow the agency to carry out critical public health 
programs and services that reach millions of Americans, including 
training for public health and healthcare professionals, providing 
primary care services through community health centers, improving 
access to care for rural communities, supporting maternal and child 
healthcare programs, and providing healthcare to people living with 
HIV/AIDS. However, much more is needed for the agency to achieve its 
ultimate mission of ensuring access to culturally competent, quality 
health services; eliminating health disparities; and rebuilding the 
public health and healthcare infrastructure.
    Our $7.65 billion fiscal year 2012 HRSA funding request is based 
upon recommendations provided by coalition members to support HRSA 
programs including:
  --Health Professions programs support the education and training of 
        primary care physicians, nurses, dentists, dental hygienists 
        physician assistants, nurse practitioners, public health 
        personnel, mental and behavioral health professionals, 
        optometrists, pharmacists, and other allied health providers; 
        improve the distribution and diversity of health professionals 
        in medically underserved communities; and ensure a sufficient 
        and capable health workforce able to provide care for all 
        Americans and respond to the growing demands of our aging and 
        increasingly diverse population. In addition, the Patient 
        Navigator Program helps individuals in underserved communities, 
        who suffer disproportionately from chronic diseases, navigate 
        the health system.
  --Primary Care programs support community health centers operating in 
        more than 8,000 communities in every State and territory, 
        improving access to cost-effective and high-quality primary and 
        preventive care in rural and urban underserved areas. In 
        addition, the Health Centers program targets the country's most 
        vulnerable populations, including migrant and seasonal farm 
        workers, homeless individuals and families, and those living in 
        public housing.
  --Maternal and Child Health Flexible Maternal and Child Health Block 
        Grants, Healthy Start and other programs provide services, 
        including prenatal and postnatal care, newborn screening tests, 
        immunizations, school-based health services, mental health 
        services, and well-child care for more than 34 million 
        uninsured and underserved women and children not covered by 
        Medicaid or the Children's Health Insurance Program, including 
        children with special needs.
  --HIV/AIDS programs provide assistance to metropolitan and other 
        areas most severely affected by the HIV/AIDS epidemic; support 
        comprehensive care, drug assistance and support services for 
        people living with HIV/AIDS; provide education and training for 
        health professionals treating people with HIV/AIDS; and address 
        the disproportionate impact of HIV/AIDS on women and 
        minorities.
  --Family Planning Title X programs provide reproductive healthcare 
        and other preventive services for more than 5 million low-
        income women at over 4,500 clinics nationwide. These programs 
        improve maternal and child health outcomes, prevent unintended 
        pregnancies, and reduce the rate of abortions.
  --Rural Health programs improve access to care for the 60 million 
        Americans who live in rural areas. Rural Health Outreach and 
        Network Development Grants, Rural Health Research Centers, 
        Rural and Community Access to Emergency Devices Program, and 
        other programs are designed to support community-based disease 
        prevention and health promotion projects, help rural hospitals 
        and clinics implement new technologies and strategies, and 
        build health system capacity in rural and frontier areas.
  --Special Programs include the Organ Procurement and Transplantation 
        Network, the National Marrow Donor Program the C.W. Bill Young 
        Cell Transplantation Program, and National Cord Blood 
        Inventory. Strong funding would facilitate an increase in 
        organ, marrow, and cord blood transplantation.
    Greater investment is necessary to sufficiently fund HRSA services 
and programs that continue to face increasing demands. We urge you to 
consider HRSA's role in building the foundation for health service 
delivery and ensuring that vulnerable populations receive quality 
health services, while continuing to strengthen our Nation's health 
safety net programs. By supporting, planning for and adapting to change 
within our healthcare system, we can build on the successes of the past 
and address new gaps that may emerge in the future.
    We appreciate the Subcommittee's hard work in advocating for HRSA's 
programs in a climate of competing priorities. The members of the 
Friends of HRSA thank you for considering our fiscal year 2012 request 
for $7.65 billion for HRSA in the fiscal year 2012 Labor, Health and 
Human Services, Education, and Related Agencies Appropriations bill and 
are grateful for this opportunity to present our views to the 
Subcommittee.
                                 ______
                                 
 Prepared Statement of Friends of the National Center on Birth Defects 
           and Developmental Disabilities Advocacy Coalition

    The Friends of NCBDDD Advocacy Coalition recommends that Congress 
provide at least $144 million in fiscal year 2012 to sustain the vital 
programs and activities funded by NCBDDD. Furthermore, we call on 
Congress to ensure any program modifications do no harm for children 
and adults currently served by the Center and that funds intended to 
directly benefit the targeted populations not be diverted.
    CDC's National Center on Birth Defects and Developmental 
Disabilities (NCBDDD) works to prevent birth defects and developmental 
disabilities and help people with disabilities and blood disorders live 
the healthiest life possible. It is the only CDC Center whose primary 
mission is focused on birth defects, disability and blood disorders. 
2011 marks the 10th year of the Center's accomplishments.
    NCBDDD impacts millions of our Nation's most vulnerable: infants 
and children, people with disabilities, and people with blood 
disorders. During times of increasing fiscal constraint, NCBDDD is 
committed to finding strategic approaches to support and strengthen 
core public health activities for these vulnerable and underserved 
populations. Public health is the science and art of preventing disease 
and disability, promoting physical and behavioral wellness, supporting 
personal responsibility, and prolonging life in communities where 
people live, work, and learn. Building upon the latest science and 
evidence-based research, the Center has identified key priorities to 
these populations to ensure continued public health advancements are 
made, as well as demonstrating sound returns on investments.

Child Health and Development--Assuring Child Health
            Division of Birth Defects and Developmental Disabilities
    Success in this NCBDDD program area includes rapidly translating 
research findings into prevention strategies that prevent birth defects 
and developmental disabilities, focusing attention on the importance of 
early care and special intervention services for children born with a 
birth defect or developmental disability, and supporting parents in 
helping their children grow into healthy, safe, productive members of 
society.

Health and Development for People with Disabilities--Improving the 
        Health of People with Disabilities
            Division of Human Development and Disability
    This spectrum of NCBDDD activities promotes healthy development and 
reduces health disparities across the life course for persons with or 
at risk of disability. Program goals include: Improving the health and 
developmental outcomes for children, improving the quality of life and 
life expectancy for people with disabilities, and eliminating health 
disparities faced by persons of all ages living with disabilities.

Public Health Approach to Blood Disorders
            Division of Blood Disorders
    The history of NCBDDD activities in this area includes bleeding and 
clotting disorders, hemoglobinopathies and blood product safety. The 
future of blood disorders is predicated on building upon our past 
successes and expanding our public health activities to begin 
addressing the most prevalent, costly, and debilitating bleeding and 
clotting disorders.

CDC's National Center on Birth Defects and Developmental Disabilities 
        (NCBDDD) Focus on Public Health-Social Impact-Safety Net Need 
        of the Populations Served
    The Friends advocacy coalition calls on congressional appropriators 
and the administration to continue to focus the Center's programs on 
outcomes that affect positive public health, positive social impact, 
and the safety net purpose. These include:
Assuring Child Health
    Decrease or eliminate birth defects and developmental disabilities 
occurring due to known causes.
    Improve longer term outcomes of children with birth defects, 
autism, and other developmental disabilities, and eliminate racial/
ethnic disparities in these outcomes.
    Identify preventable risk factors of birth defects and 
developmental disabilities, and develop appropriate interventions to 
reduce these risks.
    Increase early identification and intervention for infants and 
young children with disabling conditions.
    Mediate the impact of poverty on developmental outcomes for young 
children.

Improving the Health of People with Disabilities
    Change individual health behaviors to improve health in children, 
youth, and adults with disabilities.
    Improve healthcare access and screening for children, youth, and 
adults with disabilities.
    Reduce the incidence of secondary conditions by increasing health 
promotion and wellness interventions for children and adults with 
disabilities.
    Improve public health surveillance systems to track the health, 
development, and participation of persons with disabilities across the 
life course.
    Implement fully the Section 4302 ``Patient Protection and 
Affordable Care Act'' intent, expectations, and requirements in 
``Understanding Health Disparities: Data Collection and Analysis'' 
including ``disability status'' as well as Section 5307 ``Cultural 
Competency, Prevention, and Public Health'' including ``individuals 
with disabilities training.''

Public Health Approach to Blood Disorders
    Improve the life expectancy of people with Sickle Cell Disease.
    Reduce the morbidity and mortality related to bleeding disorders in 
women.
    Reduce the incidence of DVT/PE, and prevent related mortality and 
serious morbidity.
    Prevent emerging morbidities of people with bleeding disorders.

Positive Outcomes
    These outcomes should positively affect several social impact goals 
to improve the life situation of persons with disabilities and other 
challenges. These include:
  --Seamless, positive, and helpful transitions from one of life's 
        stages to the next stage in life, such as the transition from 
        high school to adulthood and work.
  --Promotion and support of independent living in the community--a 
        community participation that encourages and promotes self-
        direction.
  --Continued coordinated efforts to assist parents and consumers make 
        informed medical and life decisions.
  --Focused activities with the goal of reducing the severity of 
        disability.
                                 ______
                                 
 Prepared Statement of the Friends of the National Institute on Aging 
                                 (NIA)

    The Friends of the NIA is a coalition of 50 academic, patient-
centered and not-for-profit organizations that conduct, fund or 
advocate for scientific endeavors to improve the health and quality of 
life for Americans as we age. As a coalition, we support the 
continuation and expansion of NIA research activities and seek to raise 
awareness about important scientific progress in the area of aging 
research currently sponsored by the Institute.
    To ensure that progress in Nation's biomedical, social, and 
behavioral research is sustained, the Coalition endorses the NIH fiscal 
year 2012 request, $31.7 billion, as a floor and joins the Ad Hoc Group 
for Medical Research in supporting $35 billion for NIH as a ceiling. 
Given the unique funding challenges facing the NIA, and the range of 
promising scientific opportunities in the vast, diverse field of aging 
research, the Friends of NIA ask the subcommittee to recommend NIA 
receive $1.4 billion in fiscal year 2012--an amount endorsed by the 
Leadership Conference on Aging.

The NIA Mission
    Established in 1974, NIA leads the national scientific effort to 
understand the nature of aging in order to promote the health and well 
being of older adults. NIA's mission is three-fold: (1) Support and 
conduct genetic, biological, clinical, behavioral, social, and economic 
research related to the aging process, diseases and conditions 
associated with aging, and other special problems and needs of older 
Americans; (2) Foster the development of research- and clinician-
scientists for research on aging; and (3) Communicate information about 
aging and advances in research on aging with the scientific community, 
healthcare providers, and the public. The NIA fulfills this mission by 
supporting both extramural research at universities and medical centers 
across the United States and intramural research at laboratories in 
Baltimore and Bethesda, Maryland.

Research Activities and Advances
    Adding to its strong record of progress throughout its 37-year 
history, recent NIA-supported activities and advances have contributed 
to improving the health and well-being of older people worldwide. Below 
is a summary of some of these most recent activities and advances.

Alzheimer's Disease
    Alzheimer's disease (AD) is the most common cause of dementia in 
the elderly. Between 2.6 million and 5.1 million Americans aged 65 
years and older may have AD, with a predicted increase to 13.2 million 
by 2050. While researchers have achieved greater understanding of the 
disease, there is no cure. In light of the exploding aging population, 
which by 2030 is expected to reach 72 million Americans ages 65 or 
older, scientists are in a race against time to prevent an 
unprecedented AD epidemic threatening our older population.
    NIA is the lead Federal research agency for Alzheimer's disease 
(AD). In this regard, the Institute coordinates trans-NIH AD 
initiatives and encourages collaboration with other Federal agencies 
and private research entities. As illustration of its leadership role, 
NIA partnered with the McKnight Brain Research Foundation to support 
the 2010 Cognitive Aging Summit. This meeting, a follow-up to a 2007 
summit, brought together experts in a variety of research fields to 
discuss advances in understanding brain and behavioral changes 
associated with normal aging, including clinical translational research 
for prevention of age-related cognitive decline.
    As part of its ongoing AD Neuroimaging Initiative (ADNI), the 
largest public-private partnership currently in AD research, NIA-funded 
researchers continued to make important progress in 2010. Phase two is 
underway to define changes in brain structure and function as people 
transition from normal cognitive aging to mild cognitive impairment 
(MCI is often a precursor to Alzheimer's) to AD. Using imaging 
techniques and biomarker measures in blood and cerebrospinal fluid 
(CSF), ADNI investigators have already established a method and 
standard of testing levels of AD characteristic tau and beta-amyloid 
proteins in the CSF, correlated levels of these proteins with changes 
in cognition over time, and determined that changes in these two 
protein levels in the CSF may signal the onset of mild AD.
    Genetic research on AD is also yielding important insights into the 
disease. In 2009 and 2010, several new candidate risk factors gene, 
including CR1, CLU, PICALM and SORL1, were identified. Identification 
of new pathways that contribute to the development of AD will provide 
novel avenues for drug targeting. As part of another initiative, the AD 
Translational Initiative, 40 compounds are being studied. In addition, 
industry partners are considering several compounds that NIH funded in 
the pre-clinical phase for full-scale clinical testing. In total, NIH 
currently supports 38 clinical trials, including both pilot and large 
scale trials, of a wide range of interventions to prevent, slow, or 
treat AD and/or cognitive decline. Any one or more of these trials may 
hold the key to curing or preventing this terrible disease.
    In a major announcement, revised clinical diagnostic criteria for 
AD dementia were published in the April 19, 2011 issue of Alzheimer's & 
Dementia: The Journal of the Alzheimer's Association, marking the first 
time in 27 years clinical diagnostic criteria and research guidelines 
for earlier stages of AD have been revised. The revised guidelines 
cover the full spectrum of the disease as it gradually changes over 
many years. They describe the earliest pre-clinical stages of the 
disease, mild cognitive impairment, and dementia due to AD's pathology. 
The guidelines also address the use of imaging and biomarkers in blood 
and spinal fluid that may help determine whether changes in the brain 
and those in body fluids are due to AD. The guidelines outline some new 
approaches for clinicians and provide scientists with more advanced 
guidelines for moving forward with research on diagnosis and 
treatments.

Increasing Healthy Life Span
    Through its Division of Aging Biology, NIA supports research to 
improve understanding of the basic biological mechanisms underlying the 
process of aging and age-related diseases. The program's primary goal 
is to provide the biological basis for interventions in the process of 
aging, which is the major risk factor for many chronic diseases 
affecting older people. Recent significant findings that could help 
advance understanding of a range of chronic diseases, include the 
discovery of the drug rapamycin, which has been shown to extend median 
lifespan in a mouse model. Grantees supported by this program have also 
identified genetic pathways that regulate the maintenance of the stem 
cell microenvironment in aging tissues.
    In fiscal year 2012, the Institute intends to continue supporting 
the Interventions Testing Program to extend median and/or maximal life 
span in a mouse model; an initiative to determine cell fates in various 
tissues of aged mammals, under both normal and injury conditions; and 
studies to identify neural, neuroendocrine, and other mechanisms that 
influence age-related changes in bone metabolism and health.

Behavioral and Social Science Research
    The Division of Behavioral and Social Research Program supports 
social and behavioral research to increase understanding of the aging 
process at the individual, institutional, and societal levels. Research 
areas include the behavioral, psychological, and social changes 
individuals undergo throughout the adult lifespan; participation of 
older people in the economy, families, and communities; the development 
of interventions to improve the health and cognition of older adults; 
and the societal impact of population aging and of trends in labor 
force participation, including fiscal effects on the Medicare and 
Social Security programs. The Division also leads numerous trans-NIH 
behavioral and social science research initiatives, such as the ongoing 
Behavioral Economics initiatives.
    One of the Division's signature projects, the Health and Retirement 
Study (HRS), is recognized as the Nation's leading source of combined 
data on health and financial circumstances of Americans over age 50. 
HRS data have been cited in over 1,700 scientific papers and have 
informed findings regarding the effects of early-life exposures on 
later-life health, variables associated with cognitive and functional 
decline in later life, and trends in retirement, savings, and other 
economic behaviors. In 2010, NIA expanded the HRS to increase minority 
representation and conduct genome-wide scans of a subset of 
participants. Also, in 2010, HRS data were used by scientists who found 
that older adults who survive hospitalization involving severe sepsis, 
a serious medical condition caused by an overwhelming immune response 
to severe infection, are at higher risk for cognitive impairment and 
physical limitations than older adults hospitalized for other reasons.

Funding Challenges
    In November 2010, Nature magazine featured an article, ``Funding 
crisis hits U.S. ageing research,'' describing funding challenges 
facing the NIA and the field of aging research. The article reported 
that ``in 2010, a researcher submitting a grant application for any 
single deadline had only an 8 percent chance of winning funding''--
falling from 12 percent in 2009. Dr. Richard Hodes, NIA Director, is 
quoted as saying the currently funding dilemma ``threaten[s] the 
viability of ageing research'' and expresses concern, in particular, 
about the effect the declining success rates could have on the morale 
of the next generation of scientists and on their ability to compete 
successfully for an NIA grant. The dire implications of the Institute's 
declining success rates is one reason, among others, that the Friends 
of NIA ask the Subcommittee to support $1.4 billion, an increase of 
$300 million, for the Institute in fiscal year 2012.

Conclusion
    We thank you, Mr. Chairman, and the Subcommittee for supporting the 
NIA and, again, for the opportunity to express our support for the 
Institute and its important research.
                                 ______
                                 
             Prepared Statement of Futures Without Violence

    Futures Without Violence, formerly Family Violence Prevention Fund, 
has worked for 30 years to end violence against women and children 
around the world, and is proud to be a co-chair the nonpartisan Funding 
to End Domestic and Sexual Violence Coalition, a coalition of over 30 
national organizations committed to domestic violence, dating violence, 
sexual assault, and stalking. As the National Health Resource Center on 
Domestic Violence, we provide critical information to thousands of 
healthcare providers, institutions, domestic violence service 
providers, government agencies, researchers and policy makers each 
year. Our public education campaigns, conducted in partnership with The 
Advertising Council, have shaped public awareness and changed social 
norms for 15 years.
    Violence Against Women Health Initiative (HHS Office of Women' 
Health).--I wish to request $3.375 million for the Violence Against 
Women Health Initiative as authorized by the Violence Against Women and 
Department of Justice Reauthorization Act of 2005 (Public Law 109-162); 
the President's fiscal year 2012 budget requested $3 million for this 
Initiative. The Violence Against Women Health Initiative is a 
consolidation of two Violence Against Women Act 2005 programs (Grants 
to Foster Public Health Partnerships and Education and Training of 
Health Care Providers), and a top LHHS priority by the Funding to End 
Domestic and Sexual Violence Coalition. The Violence Against Women 
Health Initiative through the Office of Women's Health, with additional 
support by the Administration on Children and Families, provides 
funding to public health programs that integrate domestic and sexual 
violence assessment and intervention into basic care, as well as 
encourages collaborations between healthcare providers, public health 
programs, and domestic and sexual violence programs. The field is 
already seeing impressive results. We strongly support the continued 
need to engage health providers to prevent and respond to violence and 
abuse. Our other priorities are listed at the end of my testimony.
    Domestic and sexual violence is a critical healthcare problem and 
one of the most significant social determinants of health for women and 
girls. Nearly one in four women in the United States reports 
experiencing violence by a current or former spouse or boyfriend at 
some point in her life, and one in six women reported experiencing a 
completed sexual assault. The Centers for Disease Control and 
Prevention (CDC) conservatively estimates that intimate partner rape, 
physical assault and stalking costs the healthcare system $8.3 billion 
annually from direct injuries and services. In addition to the 
immediate trauma caused by abuse, it contributes to a number of chronic 
health problems. The CDC classifies violence and abuse as a 
``substantial public health problem in the United States.''
    Children who experience childhood trauma, including witnessing 
incidents of domestic violence, are at a greater risk of having serious 
adult health problems including tobacco use, substance abuse, cancer, 
heart disease, depression and a higher risk for unintended pregnancy. 
Twenty years of research links childhood exposure to violence with 
chronic health conditions including obesity, asthma, arthritis, and 
stroke. It is worth noting that victims, particularly of sexual 
violence, are linked with obesity. A meta-analysis of research on the 
impact of adult intimate partner violence finds that victims of 
domestic violence are at increased risk for conditions such as heart 
disease, stroke, hypertension, cervical cancer, chronic pain including 
arthritis, neck and pain, and asthma. In addition to injuries, adult 
intimate partner violence also contributes to a number of mental health 
problems including depression and PTSD, risky health behaviors such as 
smoking, alcohol and substance abuse, and poor reproductive health 
outcomes such as unintended pregnancy, pregnancy complications, post 
partum depression, poor infant health outcomes and sexually transmitted 
infections including HIV.
    But early identification and treatment of victims can financially 
benefit the healthcare system. Initial findings from one study found 
that hospital-based domestic violence interventions may reduce 
healthcare costs by at least 20 percent. Preventing abuse or associated 
health risks and behaviors clearly could have long term implications 
for decreasing chronic disease and costs. Because of the long-term 
impact of abuse on a patient's health, the Violence Against Women 
Health Initiative is integrating assessment for current and lifetime 
physical or sexual violence exposure and interventions into routine 
care. Regular, face-to-face screening of patients by skilled healthcare 
providers markedly increases the identification of victims of intimate 
partner violence, as well as those who are at risk for verbal, 
physical, and sexual abuse. Routine inquiry of all patients, as opposed 
to indicator-based assessment, increases opportunities for both 
identification and effective interventions, validates violence and 
abuse as a central and legitimate healthcare issue, and enables 
providers to assist both victims and their children.
    When victims or children exposed to violence and abuse are 
identified early, providers may be able to break the isolation and 
coordinate with domestic or sexual violence advocates to help patients 
understand their options, live more safely within the relationship, or 
safely leave the relationship. Expert opinion suggests that such 
interventions in adult health settings may lead to reduced morbidity 
and mortality. Assessment for exposure to lifetime abuse has major 
implications for primary prevention and early intervention to end the 
cycle of violence.
    Just as the healthcare system has always played an important role 
in identifying and preventing other serious public health problems, I 
believe it can and must play a pivotal role in domestic and sexual 
violence prevention and intervention. It is clear that by funding these 
innovative and life-saving health provisions, we can help save the 
lives of victims of violence and greatly reduce healthcare expenses.
    In order to advance necessary and needed health goals, I urge you 
to fund the following LHHS programs accordingly:

Violence Against Women Health Initiative at $3.375 million
    The existing program, entitled ``Project Connect: A Coordinated 
Public Health Initiative to Prevent Violence Against Women,'' is 
working with two southern California tribes and eight States (Arizona, 
Georgia, Ohio, Iowa, Maine, Michigan, Texas, Virginia) to change how 
adolescent health, reproductive health, and home visiting programs 
respond to sexual and domestic violence. The Initiative is developing 
and distributing education and training materials to respond to abuse 
across the lifespan. Research demonstrates that women in these programs 
are at high risk for abuse, and that there are evidence-based 
interventions that can improve maternal and child health, and decreases 
the risks for unplanned pregnancy, poor pregnancy outcomes and further 
abuse. These sites provide much-needed services for women in abusive 
relationships including historically medically underserved communities 
that have high rates of domestic and sexual violence, such as rural/
frontier areas, immigrant women, and Native Americans. UC Davis School 
of Medicine is implementing an evaluation plan to measure the 
effectiveness of both the clinical intervention and policy change 
efforts.
    The approach includes creating and disseminating:
  --Enhanced clinical interventions to respond to domestic and sexual 
        violence, including training and supporting materials for 
        providers and health systems,
  --Patient education materials on the connection between abuse and 
        their health,
  --Policy and systems change at the local, State and national level,
  --National training of providers through an eLearning platform,
  --Pilot programs to offer basic health services within domestic and 
        sexual violence programs, and
  --Evaluation and research on the health impact of abuse and the 
        impact of health-based interventions.
    In the first year using fiscal year 2009 funding, the Initiative 
had a significant impact:
  --With over 1,500 providers from 50 clinical sites receiving 
        training, programs serving over 200,000 women will integrate 
        assessment for abuse into routine care and offer help when 
        needed, using an evidence-based and setting-specific clinical 
        intervention.
  --New education materials for providers and patients/clients have 
        been developed, including:
  --New training curriculum for home visitation programs
  --New safety cards for adolescents talking about healthy 
        relationships
  --Twelve new video vignettes an electronic distance learning platform 
        that will be used to train providers in adolescent, 
        reproductive and maternal and child health programs nationwide.
  --Coordinated State level teams of public health and domestic and 
        sexual violence partners have been formed to create lasting 
        health policy and coordinated response to victims. Examples of 
        policy change include adding assessment of domestic and sexual 
        violence into statewide nursing guidelines, and improving data 
        collection by adding new questions about domestic and sexual 
        violence to statewide surveillance systems.
    This year, the sites are continuing this work but building on the 
momentum by:
  --Implementing an e-learning platform to train tens of thousands of 
        additional physicians, nurses, and students. Beginning in 
        Spring 2011, the free online CME trainings will be offered to 
        Project Connect sites, as well as national health associations, 
        such as the American College of Obstetricians and 
        Gynecologists.
  --Offering basic health services on site in select domestic and 
        sexual violence programs in each Project Connect site. Program 
        strategies include: utilizing mobile health vans, stationing 
        public health nurses in family violence programs, integrating 
        basic health assessment questions into domestic violence 
        shelter intake, and partnering with local providers for ongoing 
        care.
  --Evaluating the impact of Project Connect's clinical intervention on 
        the health and safety of victims of abuse. In addition to the 
        initiative-wide evaluation of provider behavior change, four 
        sites have partnered with local universities to conduct an in-
        depth evaluation of the effect that integrating the assessment 
        of domestic and sexual violence into clinical settings has on 
        clients.
  --Disseminating information on best practice models for integration 
        in other States/tribes and service settings. Plans include an 
        educational briefing and development of a report outlining 
        model programs.
 Report Language under Centers for Disease Control and Prevention 
        Injury Prevention and Control regarding Domestic and Sexual 
        Violence
    In VAWA 2005, Congress approved a program entitled ``Research on 
Effective Interventions to Address Violence Against Women'' at $5 
million through CDC and ARHQ to support research and evaluation on 
effective interventions in the healthcare setting to improve victim's 
health and safety and prevent initial victimization. This authorized 
program from Public Law 109-162 has not been funded. The President's 
fiscal year 2012 budget recommends $20 million of the Prevention and 
Public Health Fund go to unintentional injuries through CDCs Injury 
Prevention and Control. To fulfill the need recognized by the earlier 
VAWA program, I respectfully recommend the following report language:
    ``The Committee finds that domestic and sexual violence is a 
healthcare problem and one of the most significant social determinants 
of health for women and girls. In addition to the immediate trauma 
caused by abuse, it contributes to a number of chronic health problems. 
The CDC classifies violence and abuse as a ``substantial public health 
problem in the United States.'' As part of the budget request to fund 
unintentional injury prevention activities from the Prevention and 
Public Health Fund, the Committee supports a portion of the funding 
support the prevention of intentional injuries from lifetime exposure 
to intimate partner violence, child maltreatment, youth violence, and 
sexual violence.''

Proposed Report Language under HHS Office of Adolescent Health 
        regarding Teen Dating Violence and Communities of Color
    The work by the Office of Adolescent Health to create and 
administer the Teen Pregnancy Prevention Program in such a short time 
period has been remarkable. That said, adolescents from communities of 
color are disproportionately affected by teenage pregnancy, and 
research also shows that teenage dating violence and abuse are 
associated with higher levels of teenage pregnancy and unplanned 
pregnancy. Adolescent girls in physically abusive relationships are 
three times more likely to become pregnant than non-abused girls. To 
fulfill the promise of the Office of Adolescent Health to holistically 
address teen pregnancy prevention, I respectfully recommend the 
following report language:

    ``The Committee strongly urges the Secretary, through the Office of 
Adolescent Health, to include teen dating violence prevention and 
healthy relationship strategies within existing adolescent health 
working groups and better integrate preventing violence and abuse as a 
strategy to prevent teen and unplanned pregnancy within communities of 
color. Further, the Committee strongly urges the Secretary, though the 
Office of Adolescent Health, to conduct a review of the evidence-based 
programs chosen by the Teen Pregnancy Prevention Program and issue a 
report to determine which programs address teen dating violence and 
healthy relationship strategies as a means to prevent teen pregnancy.''

    In addition, I ask that you at least meet the President's fiscal 
year 2012 request of $135 million for the Family Violence Prevention 
and Services Act (FVPSA) under ACF, the Nation's only designated 
Federal funding source for domestic violence shelters and services. As 
we are all committed to both the prevention of violence and abuse and 
to the health and safety of victims, I urge you to fund these critical 
programs.
                                 ______
                                 
     Prepared Statement of the Global Health Technologies Coalition

    Chairman Harkin, Ranking Member Shelby and members of the 
Committee, thank you for the opportunity to provide testimony on the 
fiscal year 2012 appropriations funding for the National Institutes of 
Health (NIH) and the Centers for Disease Control and Prevention (CDC). 
We appreciate your leadership in promoting the importance of 
international development, in particular global health. We hope that 
your support will continue. I am submitting this testimony on behalf of 
the Global Health Technologies Coalition (GHTC), a group of nearly 40 
nonprofit organizations working together to advance U.S. policies which 
can accelerate the development of new global health innovations--
including new vaccines, drugs, diagnostics, microbicides, and other 
tools--to combat global health diseases. The GHTC's members strongly 
believe that to meet the global health needs of tomorrow, it is 
critical to invest in research today so that the most effective health 
solutions are available when we need them, and that the U.S. Government 
has a historic and unique role in doing so. My testimony reflects the 
needs expressed by our member organizations \1\ which include nonprofit 
advocacy organizations, policy think-tanks, implementing organizations, 
and many others. One-third of our members are also nonprofit product 
development partnerships, which work with partners in the private 
biotechnology and pharmaceutical and medical device sectors, as well as 
public research institutions, academia, and nongovernmental 
organizations to develop new and more effective life-saving 
technologies for the world's most pressing health issues. We strongly 
urge the Committee to continue its established support for global 
health research and development (R&D) by (1) sustaining and protecting 
the U.S. investment in global health research and product development, 
(2) instructing NIH and CDC, in collaboration with other agencies 
involved in global health, to continue their commitment to global 
health in their R&D programs, and (3) requiring leaders at U.S. 
agencies to put plans in place to ensure that global health R&D is 
efficient, coordinated and streamlined.
---------------------------------------------------------------------------
    \1\ GHTC member list: http://www.ghtcoalition.org/coalition-
members.php.
---------------------------------------------------------------------------
Critical need for new global health tools
    Our Nation's investments have made historic strides in promoting 
better health around the world: nearly 6 million people living with 
HIV/AIDS now have access to life-saving medicines, new, cost-effective 
tools help us diagnose diseases quicker and more efficiently than ever 
before, and innovative new vaccines are making significant dents in 
childhood mortality. While we must increase access to these and other 
proven, existing health tools to tackle global health problems, it is 
just as critical that we continue to invest in developing the next 
generation of tools to stamp out disease and address current and 
emerging threats. For instance, newer, more robust, and easier to use 
antiretroviral drugs, particularly for infants and young children, are 
needed to treat (and prevent) HIV and even a 50 percent effective AIDS 
vaccine could prevent 1 million HIV infections every year. Drug-
resistant tuberculosis is on the rise globally, including in the United 
States, however the only vaccine on the market is insufficient at 90 
years old, and most therapies are more than 50 years old, extremely 
toxic, and exorbitantly expensive. New tools are also urgently needed 
for fatal neglected tropical diseases such as sleeping sickness for 
which diagnostic tools are inadequate, and the few drugs that are 
available are toxic and difficult to use. There are many very promising 
technology candidates in the R&D pipeline to address these and other 
health issues; however, these tools will never be available if the 
support needed to continue R&D is not protected and sustained.

Research and US global health efforts
    The United States is at the forefront of innovation in global 
health technologies. For example, as recently as December, a new 
meningitis vaccine costing less than 50 cents per dose developed by the 
Meningitis Vaccine Project--a partnership between the World Health 
Organization and the international nonprofit PATH--was distributed for 
the first time in Africa--the development and implementation of which 
was supported through strategic funding and scientific expertise from 
the CDC, NIH, U.S. Food and Drug Administration (FDA), and the U.S. 
Agency for International Development (USAID).
    The NIH is the largest funder of global health research in the U.S. 
Government, and the agency has recently demonstrated a growing interest 
in global health issues. NIH Director Francis Collins made global 
health one of his top five priorities for the future of NIH, stating, 
``. . . the world has seen us as the soldier to the world. Might we not 
do better both in terms of our benevolence and our diplomacy by being 
more of a doctor to the world? \2\ The NIH's Fogarty International 
Center recently began collaborating with the Department of Health and 
Human Services' Health Research Services Administration and the U.S. 
Department of State's Office of the U.S. Global AIDS Coordinator on the 
Medical Education Partnership Initiative to develop, expand, and 
enhance models of medical education. This includes enhancing the 
capacity of local individuals to conduct research on global health 
diseases. Also recently, the Therapeutics for Rare and Neglected 
Diseases (TRND) program at the NIH launched five pilot projects to spur 
drug development for diseases including schistosomiasis and hookwoom. 
Each of these efforts build on the historic work carried out by the 
agency which contributes to improved health around the world.
---------------------------------------------------------------------------
    \2\ NIH all-hands town meeting, 17 August 2009. http://
videocast.nih.gov/Summary.asp?File=15247.
---------------------------------------------------------------------------
    With operations in more than 54 countries, the CDC is engaged in 
many global health research efforts. The work of CDC scientists has led 
to major advances against devastating diseases, including the 
eradication of smallpox and early identification of the disease that 
became known as AIDS. Although CDC is known for its expertise and 
participation in HIV, TB, and malaria programs, it also operates 
several activities for neglected diseases in its National Center for 
Zoonotic, Vector-Borne, and Enteric Diseases.

Leveraging the private sector for innovation
    NIH, CDC, USAID and other agencies involved in global health R&D 
regularly collaborate with the private sector in developing, 
manufacturing, and introducing important technologies such as those 
described above through public-private partnerships, including product-
development partnerships. These partnerships leverage public-sector 
expertise in developing new tools, partnering with academia, large 
pharmaceutical companies, the biotechnology industry, and governments 
in developing countries to drive greater development of products for 
neglected diseases for which private industries have not historically 
invested. This unique model has generated twelve new global health 
products and has enormous potential for continued success if robustly 
supported.
    In order to more fully engage the private sector in developing 
products for global health R&D, additional market-based incentives are 
needed. With little-to-no commercial drive to develop new drugs and 
vaccines for diseases that primarily affect the developing world, 
financial incentives and innovative financing must be pursued. No 
single incentive scheme or financing mechanism is capable of filling 
all the gaps and encouraging the full range of R&D activities across 
all of the diseases and products that the developing world urgently 
needs. A portfolio of incentives and financing mechanisms that can fill 
the multiple gaps in the product development pipeline for multiple 
diseases is needed. NIH should be applauded for its participation in 
the small business innovation research awards and a patent pool for HIV 
medicines, and additional efforts in this area are encouraged. The 
development of new incentive strategies is critical for long-term, 
meaningful private-sector engagement in global health.

Innovation as a smart economic choice
    Global health R&D brings life-saving tools to those who need them 
most, however the benefits these efforts bring are much broader than 
preventing and treating disease. Global health R&D is also a smart 
economic investment in the United States, where it drives job creation, 
spurs business activity, and benefits academic institutions. Biomedical 
research, including global health, is a $100 billion enterprise in the 
United States. In a time of global financial uncertainty, it is 
important that the United States support industries, such as global 
health R&D, which build the economy at home and abroad.
    History has shown that investing in global health research not only 
saves lives but is also a cost-effective approach to addressing health 
challenges. And an investment made today can help save significant 
money in the future. In the United States alone, for example, polio 
vaccinations during the last 50 years have resulted in a net savings of 
$180 billion, funds that would have otherwise been spent to treat those 
suffering from polio. In addition, new therapies to treat drug-
resistant tuberculosis have the potential to reduce the price of 
tuberculosis treatment by 90 percent and cut health system costs 
significantly. The United States has made smart investments in research 
in the past that have resulted in lifesaving breakthroughs for global 
health diseases, as well as important advances in diseases endemic to 
the United States. We must now build on those investments to turn those 
discoveries into new vaccines, drugs, tests, and other tools.

Recommendations
    In this time of fiscal constraint, support for global health 
research that improves the lives of people around the world--while at 
the same time creating jobs and spurring economic growth at home--
should unquestionably be one of the Nation's highest priorities. In 
keeping with this value, the GHTC respectfully requests that the 
Committee do the following:
  --Sustain and protect U.S. investments in global health research and 
        product development within both the CDC and NIH budgets. We ask 
        that this not come at the expense of robust funding for the 
        entire set of global public health accounts, all of which 
        complement each other and ultimately serve the common goal of 
        building a healthier and more prosperous world.
  --Instruct all U.S. agencies in its jurisdiction to continue their 
        commitment to global health in their R&D programs by developing 
        actions plans, including metrics to measure progress. The 
        Committee shall request that leaders at NIH and CDC work with 
        leaders at other U.S. agencies to ensure that efforts in global 
        health R&D are coordinated, efficient, and streamlined by 
        establishing transparency mechanisms designed to show what 
        global health R&D efforts are taking place and how U.S. 
        agencies are collaborating with each other to make efficient 
        use of the U.S. investment.
  --Request relevant agencies report on their progress to Congress and 
        be made publicly available. Past accounting of the health R&D 
        activities at individual agencies, such as Research, Condition, 
        and Disease Categorization at NIH, have been very helpful in 
        coordinating efforts between agencies and informing the public 
        and such efforts should be expanded to include neglected 
        disease categorization and extended to provide a comprehensive 
        picture of this investment from all agencies involved in global 
        health R&D.
    We respectfully request that the Committee consider inclusion of 
the following language in the report on the fiscal year 2012 State and 
Foreign Operations appropriation legislation:

    ``The Committee recognizes the urgent need for new global health 
technologies in the fight against global health diseases, and the 
critical contribution that the NIH, CDC, and FDA make to this cause 
through their health research and training portfolios, operations 
research and regulatory capabilities. The Committee also acknowledges 
the urgent need to sustain and protect U.S. investment in this 
important research by fully funding these three agencies to carry out 
their work.
    ``New global health products such as drugs, vaccines, diagnostics, 
and devices are cost-effective public health interventions that play an 
important role in improving global health and are vital in stopping 
pandemics. The Committee understands the positive impact that global 
health research and development has on the U.S. economy through the 
creation of U.S. jobs and the development of foreign markets for U.S. 
products. NIH is widely recognized as the world leader in basic 
research, and has supplied invaluable breakthroughs that have led to 
new health tools, saving millions of lives globally. Through its 
Fogarty International Center, NIH harnesses its wealth of expertise to 
train the next generation of health scientists.
    ``The Committee directs the CDC, FDA, and NIH to each create 
metrics to measure progress and to develop concrete plans to prioritize 
and incorporate global health research, product development, and 
regulation into their U.S. global health and development strategies. 
The Committee directs CDC, FDA, and NIH to work with each other as well 
as the Department of State, the U.S. Agency for International 
Development, and the Office of the U.S. Global AIDS Coordinator to 
ensure that these efforts are coordinated, efficient, and streamlined 
across the agencies involved in implementing the President's Global 
Health Initiative. CDC, FDA, and NIH shall each make the documentation 
and results of these efforts available to Congress and the public.''

    As a leader in science and technology, the United States has the 
ability to capitalize upon our strengths to help reduce illness and 
death and ultimately eliminate disabling and fatal diseases for people 
worldwide, contributing to a healthier world and a more stable global 
economy. Sustained investments in global health research to develop new 
drugs, vaccines, tests, and other health tools--combined with better 
access to existing methods to prevent and treat disease--present the 
United States with an opportunity to dramatically alter the course of 
global health while building political and economic security across the 
globe.
    On behalf of the members of the GHTC, I would like to extend my 
gratitude to the Committee for the opportunity to submit written 
testimony for the record.
                                 ______
                                 
        Prepared Statement of Goodwill Industries International

    Mr. Chairman, Ranking Member, and Members of the Subcommittee, on 
behalf of Goodwill Industries International (GII), I appreciate this 
opportunity to submit written testimony on Goodwill's priorities for 
fiscal year 2012 funding programs administered by the U.S. Departments 
of Labor, Health and Human Services, and Education.
    Goodwill Industries International (GII) represents 158 local and 
autonomous Goodwill Industries agencies in the United States that help 
people with barriers to employment to participate in the workforce. One 
of Goodwill Industries' greatest strengths continues to be its 
entrepreneurial approach to sustaining its mission. In 2010, Goodwill 
raised more than $4 billion in its retail stores and other social 
enterprises and invested 84 percent of its privately raised revenues to 
supplement Federal investments in programs that give people the skills 
they need to reenter the workforce. Goodwill provided job training, 
employment services, and supportive services to nearly 2.5 million 
people, placing more than 170,000 people in jobs and employing 97,000. 
Nearly 160,000 people were referred to Goodwill from the workforce 
system or a State Vocational Rehabilitation Agency. In addition to our 
efforts to help people find jobs and advance in careers, Goodwill 
understands that many people need additional supportive services--child 
care, reliable transportation, stable housing, counseling and 
assistance in adjusting to the workplace, assistive technology--to 
ensure their success.
    Now more than ever, with unemployment slowly declining from the 
highest levels experienced in a generation, local Goodwill agencies are 
on the front lines of the fragile recovery assisting people with 
employment barriers, including individuals with disabilities, older 
workers, and Temporary Assistance to Needy Families (TANF) recipients 
who are struggling to find and keep jobs during a stubbornly tight job 
market. In addition in 2010, Goodwill's collective investment in these 
services eclipsed the Department of Labor's combined investment in 
WIA's adult, youth, and dislocated workers.
    While Goodwill is proud of these and other achievements, they are 
truly the result of a public-private partnership. As the fragile 
recovery from the worst recession since the Great Depression continues 
and unemployment rates slowly decline from near 10 percent, Goodwill 
understands the difficult challenge that appropriators face as they 
struggle to reduce the deficit while stretching limited resources to 
support an ever-increasing list of national priorities. Reducing the 
deficit is a serious issue that will require all to make sacrifices to 
address the Nation's spending problem while investing in integrated 
strategies that build upon and leverage existing resources that will 
address our Nation's revenue problem. Therefore, Goodwill was very 
concerned about the drastic cuts to the workforce system that were 
proposed in the fiscal year 2011 continuing resolution (H.R. 1) that 
was passed by the House of Representatives earlier this year, and 
thanks the Senate for its efforts to mitigate the cuts in the final 
fiscal year 2011 spending deal. As Congress works to develop its 
spending bills for fiscal year 2012, Goodwill is again concerned 
because the House budget allocation for Labor, Health and Human 
Services, and Education is $18 billion less than the amount agreed to 
in the final fiscal year 2011 budget deal.
    Goodwill is aggressively moving to increase its capacity to do more 
to help people find jobs and advance in careers during and after these 
difficult times. Goodwill is working to open more stores and attended 
donation centers in order to create jobs and generate more privately 
raised revenues to invest in people who are facing employment 
challenges in the communities that local Goodwill agencies serve. In 
addition, Goodwill is more committed than ever to partnering with 
stakeholders at the Federal, State, and local levels by contributing 
the resources and expertise of local Goodwill agencies in support of 
public efforts and investments.
    While our agencies care about a range of Federal funding sources, 
Goodwill urges Congress to provide funding for the Department of 
Labor's Senior Community Service Employment Program (SCSEP); the 
Workforce Investment Act's adult, dislocated worker, and youth funding 
streams; summer jobs for youth; and the Department of Education's 
Vocational Rehabilitation programs.

Senior Community Service Employment Program (SCSEP)
    Workers who are 55 and older have multiple barriers to employment 
and will be among the last rehired as the economy improves. 
Furthermore, according to the Bureau of Labor Statistics, the 
unemployment rate for older workers (over 55 years old) was 6.2 percent 
in April, 2011. While older workers are less likely to be unemployed 
than their younger counterparts, older workers who do lose their jobs 
face significant odds of finding another one. The average time spent 
looking for a job by someone between the ages of 55 and 64 is 44.6 
weeks. Those over the age of 64 also spend nearly 1 year seeking work 
for an average of 43.9 weeks. Older workers are more likely to be laid 
off from industries that are in structural decline. This population may 
be less likely to go back to school as they have other financial 
burdens and are less mobile due to home ownership. Finally, these 
workers may face age discrimination when applying for a new job. 
Therefore, Goodwill is alarmed by the Administration's proposal to cut 
funding for the Community Services Employment for Older Americans 
program (also called the Senior Community Service Employment Program) 
by 45 percent which will result in the elimination of services to 
nearly 50,000 low income older workers who badly in need of assistance.
    SCSEP helps provide low-income older workers with community 
services employment and private sector job placements. Preserving SCSEP 
funding is critical as it is the only program targeted to helping low 
income seniors regain employment, as this population is experiencing 
the toughest employment prospects in a generation. Goodwill is a 
national SCSEP grantee with providers around the country. While many 
individuals assume that SCSEP is for much older workers and question 
the type of training received, 42 percent of Goodwill's SCSEP 
participants are between the ages of 55 and 59. In 2010, SCSEP 
participants contributed nearly 1.4 million community service hours and 
our private sector placements averaged a starting wage of $9.75 per 
hour.
    In recent years, Congress has demonstrated its commitment to older 
workers by providing an additional $120 million for SCSEP in the 
Recovery Act, and a $250 million increase in fiscal year 2010. These 
funds have allowed local Goodwill agencies to better address our 
waiting list of participants and help many older workers with part-time 
employment. Private sector placement wages also increased. Goodwill 
very much appreciates the monumental investment that the Congress has 
placed on helping older workers to survive the economic crisis. 
However, as SCSEP program providers prepare for a cut in funding, 
community service hours have been cut, new enrollees have not been 
accepted, and additional classroom training that has an added cost have 
been reduced or eliminated. Should SCSEP be cut further, it will result 
in a loss of professional staff and it will be more difficult to get 
out to non-urban areas since rural communities will have fewer slots.
    Goodwill urges the Subcommittee to reject the Administration's 
proposed cuts to SCSEP. At a minimum Congress should fund SCSEP at no 
less than $600 million, which will allow a restoration of assistance to 
an additional 24,000 participants, nearly half of the participants cut 
from the program by funding reductions in the fiscal year 2011 
Continuing Resolution.

Workforce Investment Act
    Funding for the Workforce Investment Act's youth, adult, and 
dislocated worker formulas is one of Goodwill's top funding priorities 
for fiscal year 2012. Most Goodwill agencies have people referred to 
them through the workforce system. In addition, several agencies are 
one-stop lead operators or operators in association with other service 
providers, and are active on state and local workforce boards.
    It should be noted that, in 2002, when the unemployment rate was 
5.8 percent, combined funding for WIA's youth, adult, and dislocated 
worker funding streams was more that $3.67 billion. Since then, funding 
has steadily eroded; and nearly 10 years later, at a time when the 
unemployment rate remains much higher--around 9 percent--the 
Administration proposes just $2.96 billion for WIA's three main funding 
streams, nearly 20 percent less than the fiscal year 2002 level. 
Furthermore, the Administration proposes to divert 8 percent to 
contribute to the creation of a Workforce Innovation Fund to ``support 
and test promising approaches to training, and breaking down program 
silos, building evidence about effective practices, and investing in 
what works.''
    Goodwill believes that a Workforce Innovation Fund is a promising 
idea, is very interested in the details, and is encouraged by the 
Administration's efforts to increase interagency collaborations and 
leverage resources provided by community-based organizations, however 
the proposed Workforce Innovation Funds should be paid for with funds 
in addition to, rather than at the expense of, existing WIA formula 
funds--in fiscal year 2012 and beyond.
    In 2010, the workforce system served more than 8 million people, 
placing more than half in jobs while helping others to access education 
and training aimed at improving their future employment prospects. As 
noted earlier, Goodwill is doing all it can to help people who have 
been affected by the recession. In fact in 2010, Goodwill's collective 
investment in job training and employment services eclipsed the 
Department of Labor's combined investment in WIA's adult, youth, and 
dislocated workers. Some agencies have, in fact, been doing more than 
they can by deliberately using their reserves in order to provide help 
to more people than their current revenues support. If not now, when? 
Therefore, Goodwill is very concerned the continued delay in 
reauthorizing WIA may put the whole system at risk, causing many 
Goodwill agencies to wonder how they would respond to the dramatic 
increase in requests for services if the workforce system were to be 
dismantled completely. Most agencies would be forced to turn away 
people in need or risk being overleveraged to the brink.
    Goodwill understands that this Subcommittee faces a difficult 
challenge in stretching limited resources to cover a range of 
priorities; however the workforce system is vastly under-funded and 
preservation of WIA's formula funding streams should be a high 
priority. Therefore, Goodwill urges Congress to sustain WIA's adult, 
dislocated worker, and youth funding streams at current funding levels 
at a minimum. Before diverting funds from WIA's already underfunded 
programs, Congress should reauthorize WIA and include provisions that 
would establish the Workforce Innovation Fund without jeopardizing 
existing funds for WIA's three core funding streams.

Vocational Rehabilitation (VR) Funding
    Goodwill Industries has a long history of helping people with 
disabilities to participate in the workforce despite the challenges 
their disabilities present. Years of inadequate funding for VR have 
left the system stretched much too thin to serve all who are eligible 
for assistance. As a result, most State VR agencies have Orders of 
Selection, a provision within the Rehabilitation Act that requires 
State VR agencies, when faced with a shortage of funds to meet the 
demand for services, to prioritize the provision of services to 
eligible people based on the severity of people's disabilities. In 
addition, reduced funding for WIA has placed an additional strain on 
mandatory partner programs, including VR, which are being asked to 
contribute more funding to pay for infrastructure and other costs 
associated with the operation of one-stop centers.
    Goodwill supports the Administration's intent to increase multi-
system collaboration and support for youth with disabilities who are 
transitioning from education to the workforce. The Administration's 
fiscal year 2012 budget proposes to increase funding for VR State 
agencies by $57 million, while diverting $30 million of VR's State 
grant funds to contribute to a new Workforce Innovation Fund. Funding 
for the Rehabilitation Services Administration's Migrant and Seasonal 
Farmworker program, Projects with Industry, and Supported Employment 
would be eliminated, thus offsetting the increase by $50 million.
    For more than two decades, Goodwill has offered supported 
employment as a part of its service array. According to Goodwill 
Industries International's Annual Statistical Report, participation in 
local Goodwill agencies' supported employment programs has grown 
dramatically in recent years from providing 270,000 coaching sessions 
in 2007 to 630,000 sessions in 2009.
    Goodwill is intrigued by the Administration's proposal to stimulate 
system collaboration by creating a Workforce Innovation Fund; however, 
Goodwill believes that funding for the Workforce Innovation Fund should 
not come at the expense of existing and already inadequate funds for 
the VR system.
    Goodwill thanks the Subcommittee for considering these requests, 
and looks forward to working with the Subcommittee to help government 
meet the serious challenges our nation faces.
                                 ______
                                 
            Prepared Statement of the Harlem Children's Zone

    Thank you for this opportunity to support comprehensive services 
for poor children and the U.S. Department of Education's (ED) Promise 
Neighborhoods program which we believe will break the cycle of 
generational poverty for hundreds of thousands of poor children.
    Like the work at the Harlem Children's Zone (HCZ), the Promise 
Neighborhoods program has already begun to transform the odds for 
entire communities. High-achieving schools are at the core of Promise 
Neighborhoods, but it is not only about creating a successful school. 
It is about programs for children from birth through college and 
career, supporting families and rebuilding community. Doing this 
changes the trajectory of an entire community.
    In the mid-1990s it became clear to the HCZ team that despite 
heroic efforts at saving poor children, success stories remained the 
exception. Our piecemeal approach was of limited value against a 
perfect storm of problems and challenges. So the HCZ Project was 
created in Central Harlem to work with kids, their families and their 
community. Starting with one building, HCZ has grown to 97 blocks. Last 
year, the HCZ Project served 15,508 clients including 8,838 youth and 
6,670 adults. HCZ, Inc., which includes the HCZ Project plus our Beacon 
Centers and Preventive Foster Care programs, served 23,556 clients 
including 10,541 youth and 13,015 adults.
    Now, over a decade later, the Children's Zone model is working. 
Parents are reading more to their children. Four year olds are ready 
for kindergarten. Students are closing the black-white achievement gap 
in several subjects. Teenagers are graduating from high school and this 
school year, over 600 of them who attended traditional public schools 
are in college. HCZ helps parents file for taxes including the Earned 
Income Tax Credit (EITC) and last tax season, families collectively 
received over $8 million.
    HCZ's theory of change is embodied in the application of all of the 
following five principles:
  --Serve an entire neighborhood comprehensively and at scale.
  --Create a pipeline of high-quality programs that starts from birth 
        and continues to serve children until they graduate from 
        college. Provide parents with supports as well.
  --Build community among residents, institutions, and stakeholders, 
        who help to create the environment necessary for children's 
        healthy development.
  --Evaluate program outcomes; create a feedback loop that cycles data 
        back to management for use in improving and refining program 
        offerings; and hold people accountable.
  --Cultivate a culture of success rooted in passion, accountability, 
        leadership, and teamwork.
    The HCZ model is not cheap. On average, HCZ spends $5,000 per 
child each year to ensure children's success. For far less money than 
is already spent, just on incarceration, we can educate, graduate our 
children, and bring them back to our communities ready to be 
successful, productive citizens. We think the choice is obvious.
    HCZ's achievements are not magic. They are a result of hard work 
and a comprehensive effort.
    This same type of hard work and comprehensive effort is happening 
in countless communities across the country. To provide a sense of the 
level of interest in the Promise Neighborhoods program, when the 
Department of Education offered the first round of planning grants in 
fiscal year 2010's budget, over 339 communities competed for just 21 
grants. Additionally, over 100 of these communities scored over 80, 
leading Secretary of Education Arne Duncan to note that there would 
have been more grants if resources were available. Just 7 months later, 
these communities are going strong. For example:
Buffalo, New York
    The Buffalo Promise Initiative, which is led by M&T's Westminster 
Foundation, is collaborating with the John R. Oishei Foundation, Read 
to Succeed Buffalo, the City of Buffalo, Buffalo Public Schools, United 
Way of Buffalo and Erie County, Catholic Charities, Buffalo Urban 
League, and the University at Buffalo to serve 11,000 residents in a 1-
square mile, low-income neighborhood. The Buffalo Promise Initiative is 
a vital counterpoint to the challenges brought about in Buffalo due to 
a shift away from industrially focused jobs, a shrinking population, 
and increasing poverty. A comprehensive approach is blooming, 
addressing the needs and hopes of children and their families in a 
changing Buffalo.
Indianola, Mississippi
    The Indianola Promise Community (IPC) is located in Indianola, 
Mississippi, in the heart of the Mississippi Delta and the birthplace 
of musician B.B. King. The Delta Health Alliance is the lead agency for 
this unique public policy initiative. The Indianola Promise Community 
unites healthcare, education, community, and faith-based services to 
provide Indianola residents the chance to realize their promise as 
active members and leaders in their town and neighborhoods. The Delta 
Health Alliance has teamed up with a number of nonprofit organizations 
and government agencies, including the local school district, the 
municipal government, Mississippi State University, the county 
hospital, and the Children's Defense Fund, to develop a comprehensive 
collaborative with the ability to take on a number of pressing 
challenges.
    Although Indianola has a number of obstacles to overcome, leaders 
from all aspects of the community have joined together to make the IPC 
a success. The Delta Health Alliance is integrating more than a dozen 
of their preexisting services and adding new programs and new partners 
into a robust set of resources. The goal is to create a set of 
integrated services for children and their families. The IPC engages 
with all community service providers to prevent the duplication of 
resources and highlight service gaps. Community members also serve on 
the Steering Committee that oversees the work of the project.
Northern Cheyenne Reservation
    The rich and deep history of the Northern Cheyenne community and 
their commitment to engage their members is apparent in their plans to 
develop a thriving Promise Neighborhood for their community. The 
Promise Neighborhood is located on the Northern Cheyenne Reservation 
and the surrounding communities of Colstrip and Ashland in southeast 
Montana. The land is sprawling, approximately 700 square miles, and 
approximately 7,300 people live within the Neighborhood.
    The Boys and Girls Club of Northern Cheyenne Nation (BGCNCN), the 
Promise Neighborhood lead partner, believes in ``systemic, 
collaborative, strengths-based and culturally appropriate approaches'' 
to youth and community development that will comprehensively address 
the disadvantages that the community faces.
    The Boys and Girls Club has established relationships with local 
communities, and thus is an excellent lead partner for this initiative. 
All of the primary institutions that serve young people in the area are 
involved in collaborating during this planning year. The Promise 
Neighborhood has the full support of the Northern Cheyenne government, 
local schools and agencies, Chief Dull Knife College, and a number of 
nonprofits. All are working together to specifically create and 
implement in- and out-of-school strategies and services that will 
support the academic achievement, healthy development, cultural 
awareness and connectedness, and college and career success of the 
Neighborhood's children. Some of the BGCNCN's programs for youth 
include a Native American Mentoring Program, a diabetes prevention 
program, leadership groups, and a computer lab. The planning phase has 
brought these groups together to begin a more concerted effort to 
assess and develop a pipeline of programs that will benefit the youth 
and community.
San Antonio, Texas
    The Eastside Promise Neighborhood in San Antonio, Texas is led by 
the United Way and has a strong partnership with the City of San 
Antonio. San Antonio Mayor Julian Castro and other community leaders 
are major supporters of the initiative. The Promise Neighborhood 
initiative is part of the City's larger plan to support the struggling 
Eastside, including the development of affordable housing, education, 
environment, and other supports, and developing a strategic framework 
that speaks to the community's core problems.
    The Promise Neighborhood initiative, with its set of partners like 
the San Antonio Independent School District, Family Service 
Association, Housing Authority, City Year, Trinity University, San 
Antonio for Growth on the Eastside (SAGE), and the Urban Land 
Institute, is working hard to coordinate the supports and resources in 
the neighborhood to activate their collective vision for community 
transformation. The planning and coordination of resources going into 
the community as a part of the Promise Neighborhood initiative fits 
into the City's broader Eastside Reinvestment Plan aiming to shift away 
from siloed and uncoordinated services on the Eastside.
    Because parents are a key element to their children's success, 
Eastside Promise Neighborhood has a commitment to parental engagement 
and capacity-building through focus groups, community meetings during 
which the community shapes the agenda, and parentally focused career 
and empowerment groups through initiatives like the United Way's 
Family-School-Community Partnership.
    This asset-based approach and vision ensures more efficient and 
effective use of neighborhood talent, resources, rich opportunities for 
young people through high quality neighborhood schools and engaged 
parents, and a solid physical infrastructure including high-quality 
housing in the neighborhood to support the community. The community 
looks to be on the right path toward stabilizing and empowering the 
Eastside to stay, grow, graduate and . . . stay.
    To support all of the Promise Neighborhoods' efforts, HCZ, 
PolicyLink and the Center for the Study of Social Policy joined 
together to create the Promise Neighborhoods Institute at PolicyLink 
(PNI). Supported solely by private philanthropic dollars, PNI provides 
communities with a system of support, resources, and information to 
help them in local Promise Neighborhoods efforts. PNI is already 
supporting 38 Promise Neighborhoods--including 21 funded by the U.S. 
Department of Education. PNI has three goals:
  --Ensure the 21 Federal planning grantees are successful and 
        transition to implementation.
  --Support an additional 17 communities in their planning efforts and 
        transition to implementation.
  --Foster a national learning network that enable communities to learn 
        from their peers and leverage resources in order to 
        significantly improve the educational and developmental 
        outcomes of children and youth in the Nation's most distressed 
        communities.
    To accomplish these goals, PNI offers:
  --Site visits designed to assess community need and implement a 
        comprehensive and personalized package of technical assistance 
        services that help communities learn, make systemic, 
        organizational and programmatic improvements and achieve 
        measurable and sustainable results.
  --Promise Neighborhood Network conferences to share best practices.
  --Trainings on topics such as how to attract funding and talk to the 
        media.
  --Webinars and discussions moderated by experts in the field.
  --A website--PromiseNeighborhoodsInstitute.org--featuring in-depth 
        resources and tools.
    Since its launch, PNI has:
  --Developed a rich menu of technical assistance that is based on what 
        works.
  --Grown a robust community of practice that is being accessed by more 
        than 2,000 people.
  --Implemented a feedback loop to continually refine city, county, 
        State, and Federal public policy and philanthropic approaches.
  --Mobilized neighborhood leaders to advocate for integrated 
        neighborhood revitalization investments to become the norm in 
        solving some of the Nation's most intractable problems 
        affecting poor children and families.
    In the current planning phase, Promise Neighborhoods are getting 
ready to apply for full implementation. They are developing strategic 
business plans to estimate revenues and cover costs. Part of this 
includes the development of data systems for how they will track and 
evaluate data to make sure that they can document success, and catch 
and deal with challenges. In addition, they are developing powerful 
partnerships with schools and with organizations and agencies so they 
can provide children and families with the supports and services that 
are needed for success from cradle to college and career. We look 
forward to continuing to work with the Promise Neighborhoods grantees 
and others as they transition from planning to implementation. And, we 
look forward to seeing the results of their efforts.
    We urge the Committee to support Promise Neighborhoods with 
resources for new sites to engage in planning, and for robust support 
for implementation in communities across the country. Thank you for 
your consideration. If you should need additional information about The 
Promise Neighborhoods program please contact Judith Bell from 
PolicyLink (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f6bc83929f829eb686999a9f958f9a9f989dd8998491">[email&#160;protected]</a>) or Katie Shoemaker at HCZ 
(<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ea819982858f878b818f98aa828990c485988d">[email&#160;protected]</a>).
                                 ______
                                 
  Prepared Statement of the Health Professions and Nursing Education 
                               Coalition

    The members of the Health Professions and Nursing Education 
Coalition (HPNEC) are pleased to submit this statement for the record 
in support of the fiscal year 2012 budget request of $762.5 million for 
the health professions education programs authorized under Titles VII 
and VIII of the Public Health Service Act and administered through the 
Health Resources and Services Administration (HRSA). HPNEC is an 
informal alliance of more than 60 national organizations representing 
schools, programs, health professionals, and students dedicated to 
ensuring the healthcare workforce is trained to meet the needs of the 
country's growing, aging, and diverse population. For a complete list 
of HPNEC members, visit http://www.aamc.org/advocacy/hpnec/members.htm.
    As you know, the Title VII and VIII health professions and nursing 
programs provide education and training opportunities to a wide variety 
of aspiring healthcare professionals, both preparing them for careers 
in the health professions and helping bring healthcare services to our 
rural and underserved communities. An essential component of the 
healthcare safety net, the Title VII and Title VIII programs are the 
only Federal programs designed to train healthcare providers in 
interdisciplinary settings to meet the needs of the country's special 
and underserved populations, as well as increase minority 
representation in the healthcare workforce. Through loans, loan 
guarantees, and scholarships to students, and grants and contracts to 
academic institutions and nonprofit organizations, the Title VII and 
Title VIII programs fill the gaps in the supply of health professionals 
not met by traditional market forces.
    Authorized since 1963, the Title VII and Title VIII education and 
training programs are designed to help the workforce adapt to the 
evolving healthcare needs of the ever-changing American population. In 
an effort to renew and update Titles VII and VIII to meet current 
workforce challenges, the programs were reauthorized in 2010--the first 
reauthorization in the past decade. Reauthorization not only improved 
the efficiency of the Title VII and Title VIII programs, but also laid 
the groundwork for innovative programs with an increased focus on 
recruiting and retaining professionals in underserved communities.
    HPNEC is grateful for the Subcommittee's longstanding support of 
these important workforce programs. While we are keenly aware that the 
Subcommittee continues to face difficult decisions as it seeks to 
improve the Nation's fiscal health, a continued congressional 
commitment to programs supporting healthcare workforce development is 
essential to the physical health and prosperity of the American people. 
The country faces a critical disparity between the supply of practicing 
healthcare providers and the increasing demand for care, with HRSA 
estimating that over 33,000 additional health practitioners are needed 
to alleviate existing shortages. Destabilizing funding for the Title 
VII and Title VIII programs would reduce education and training support 
for primary care physicians, nurses, and other health professionals, 
exacerbating shortages and further straining the Nation's already 
fragile healthcare system. We recognize that relative to other Federal 
programs, HRSA's fiscal year 2011 operating plan imposes modest cuts to 
most Title VII and Title VIII programs, and we look forward to working 
with the subcommittee to prevent any further erosion to Federal support 
for health professions training.
    Failure to fully fund the programs would jeopardize activities to 
train professionals across all disciplines to coordinate care for the 
Nation's expanding elderly population; limit training opportunities for 
providers to meet the unique needs of the Nation's sick and ailing 
children; severely impact the distribution of professionals practicing 
in rural and underserved communities; and hinder efforts to recruit and 
retain a diverse and culturally competent workforce. To ensure the 
healthcare workforce is equipped to address these issues, a strong 
commitment to the Title VII and Title VIII programs is essential.
    The existing Title VII and Title VIII programs can be considered in 
seven general categories:
  --The Primary Care Medicine and Oral Health Training programs, now 
        authorized separately, provide for the education and training 
        of primary care physicians, physician assistants, and dentists, 
        to improve access and quality of healthcare in underserved 
        areas. Two-thirds of all Americans interact with a primary care 
        provider every year. Approximately one-half of primary care 
        providers trained through these programs go on to work in 
        underserved areas, compared to 10 percent of those not trained 
        through these programs. The General Pediatrics, General 
        Internal Medicine, and Family Medicine programs provide 
        critical funding for primary care training in community-based 
        settings and have been successful in directing more primary 
        care physicians to work in underserved areas. They support a 
        range of initiatives, including medical student training, 
        residency training, faculty development and the development of 
        academic administrative units. These programs also enhance the 
        efforts of osteopathic medical schools to continue to emphasize 
        primary care medicine, health promotion, and disease 
        prevention, and the practice of ambulatory medicine in 
        community-based settings. Recognizing that all primary care is 
        not only provided by physicians, the primary care cluster also 
        provides grants for Physician Assistant programs to encourage 
        and prepare students for primary care practice in rural and 
        urban Health Professional Shortage Areas. The General 
        Dentistry, Pediatric Dentistry, and Public Health Dentistry 
        programs provide grants to dental schools and hospitals to 
        create or expand primary care and public health dental 
        residency training programs.
  --Because much of the Nation's healthcare is delivered in areas far 
        removed from health professions schools, the Interdisciplinary, 
        Community-Based Linkages cluster provides support for 
        community-based training of various health professionals. These 
        programs are designed to provide greater flexibility in 
        training and to encourage collaboration between two or more 
        disciplines. These training programs also serve to encourage 
        health professionals to return to such settings after 
        completing their training. The Area Health Education Centers 
        (AHECs) provide clinical training opportunities to health 
        professions and nursing students in rural and other underserved 
        communities by extending the resources of academic health 
        centers to these areas. AHECs, which have substantial State and 
        local matching funds, form networks of health-related 
        institutions to provide education services to students, faculty 
        and practitioners. Geriatric Health Professions programs 
        support geriatric faculty fellowships, the Geriatric Academic 
        Career Award, and Geriatric Education Centers, which are all 
        designed to bolster the number and quality of healthcare 
        providers caring for our older generations. Given America's 
        burgeoning aging population, there is a need for specialized 
        training in the diagnosis, treatment, and prevention of disease 
        and other health concerns of older adults. The Mental and 
        Behavioral Health Education and Training Programs help mitigate 
        the growing shortages of mental and behavioral health providers 
        by providing grants for training social workers, child and 
        adolescent mental health professionals, and paraprofessionals 
        working with children and adolescents. They also provide grants 
        to doctoral, internship, and postdoctoral programs through the 
        Graduate Psychology Education program, which supports 
        interdisciplinary training of psychology students with other 
        health professionals for the provision of mental and behavioral 
        health services to underserved populations (i.e., older adults, 
        children, chronically ill, and victims of abuse and trauma, 
        including returning military personnel and their families), 
        especially in rural and urban communities.
  --The purpose of the Minority and Disadvantaged Health Professionals 
        Training programs is to improve healthcare access in 
        underserved areas and the representation of minority and 
        disadvantaged healthcare providers in the health professions. 
        Minority Centers of Excellence support programs that seek to 
        increase the number of minority health professionals through 
        increased research on minority health issues, establishment of 
        an educational pipeline, and the provision of clinical 
        opportunities in community-based health facilities. The Health 
        Careers Opportunity Program seeks to improve the development of 
        a competitive applicant pool through partnerships with local 
        educational and community organizations. The Faculty Loan 
        Repayment and Faculty Fellowship programs provide incentives 
        for schools to recruit underrepresented minority faculty. The 
        Scholarships for Disadvantaged Students make funds available to 
        eligible students from disadvantaged backgrounds who are 
        enrolled as full-time health professions students.
  --The Health Professions Workforce Information and Analysis program 
        provides grants to institutions to collect and analyze data on 
        the health professions workforce to advise future 
        decisionmaking on the direction of health professions and 
        nursing programs. The Health Professions Research and Health 
        Professions Data programs have developed a number of valuable, 
        policy-relevant studies on the distribution and training of 
        health professionals, including the Eighth National Sample 
        Survey of Registered Nurses, the Nation's most extensive and 
        comprehensive source of statistics on registered nurses. In 
        conjunction with the reauthorization of the Title VII programs 
        and in recognition of the need for better health workforce data 
        to inform both public and private decisionmaking, the National 
        Center for Workforce Analysis serves as a source of data and 
        information on the health workforce for the Nation.
  --The Public Health Workforce Development programs are designed to 
        increase the number of individuals trained in public health, to 
        identify the causes of health problems, and respond to such 
        issues as managed care, new disease strains, food supply, and 
        bioterrorism. The Public Health Traineeships and Public Health 
        Training Centers seek to alleviate the critical shortage of 
        public health professionals by providing up-to-date training 
        for current and future public health workers, particularly in 
        underserved areas. Preventive Medicine Residencies, which 
        receive minimal funding through Medicare GME, provide training 
        in the only medical specialty that teaches both clinical and 
        population medicine to improve community health. The Title VII 
        reauthorization reorganized this cluster to include a focus on 
        loan repayment as an incentive for health professionals to 
        practice in disciplines and settings experiencing shortages. 
        The Pediatric Subspecialty Loan Repayment Program offers loan 
        repayment for pediatric medical subspecialists, pediatric 
        surgical specialists, and child and adolescent mental and 
        behavioral health specialists, in exchange for services in 
        areas where these types of professionals are in short supply. 
        The Public Health Workforce Loan Repayment Program provides 
        loan repayment for public health professionals accepting 
        employment with Federal, State, local, and tribal public health 
        agencies.
  --The Nursing Workforce Development programs under Title VIII provide 
        training for entry-level and advanced degree nurses to improve 
        the access to, and quality of, healthcare in underserved areas. 
        These programs provide the largest source of Federal funding 
        for nursing education, providing loans, scholarships, 
        traineeships, and programmatic support that, between fiscal 
        year 2006 and 2009, supported over 347,000 nurses and nursing 
        students as well as numerous academic nursing institutions, and 
        healthcare facilities. Healthcare entities across the Nation 
        are experiencing a crisis in nurse staffing, caused in part by 
        an aging workforce and capacity limitations within the 
        educational system. Each year, nursing schools turn away tens 
        of thousands of qualified applications at all degree levels due 
        to an insufficient number of faculty, clinical sites, classroom 
        space, clinical preceptors, and budget constraints. At the same 
        time, the need for nursing services and licensed, registered 
        nurses is expected to increase significantly over the next 20 
        years. The Advanced Education Nursing program awards grants to 
        train a variety of advanced practice nurses, including nurse 
        practitioners, certified nurse-midwives, nurse anesthetists, 
        public health nurses, nurse educators, and nurse 
        administrators. Workforce Diversity grants support 
        opportunities for nursing education for students from 
        disadvantaged backgrounds through scholarships, stipends, and 
        retention activities. Nurse Education, Practice, and Retention 
        grants are awarded to help schools of nursing, academic health 
        centers, nurse-managed health centers, State and local 
        governments, and other healthcare facilities to develop 
        programs that provide nursing education, promote best 
        practices, and enhance nurse retention. The Loan Repayment and 
        Scholarship Program repays up to 85 percent of nursing student 
        loans and offers full-time and part-time nursing students the 
        opportunity to apply for scholarship funds. In return these 
        students are required to work for at least 2 years of practice 
        in a designated nursing shortage area. The Comprehensive 
        Geriatric Education grants are used to train RNs who will 
        provide direct care to older Americans, develop and disseminate 
        geriatric curriculum, train faculty members, and provide 
        continuing education. The Nurse Faculty Loan program provides a 
        student loan fund administered by schools of nursing to 
        increase the number of qualified nurse faculty.
  --The loan programs under Student Financial Assistance support 
        financially needy and disadvantaged medical and nursing school 
        students in covering the costs of their education. The Nursing 
        Student Loan (NSL) program provides loans to undergraduate and 
        graduate nursing students with a preference for those with the 
        greatest financial need. The Primary Care Loan (PCL) program 
        provides loans covering the cost of attendance in return for 
        dedicated service in primary care. The Health Professional 
        Student Loan (HPSL) program provides loans covering the cost of 
        attendance for financially needy health professions students 
        based on institutional determination. The NSL, PCL, and HPSL 
        programs are funded out of each institution's revolving fund 
        and do not receive Federal appropriations. The Loans for 
        Disadvantaged Students program provides grants to health 
        professions institutions to make loans to health professions 
        students from disadvantaged backgrounds.
    By improving the supply, distribution, and diversity of the 
Nation's healthcare professionals, the Title VII and Title VIII 
programs not only prepare aspiring professionals to meet the country's 
workforce needs, but also help to improve access to care across all 
populations. The multi-year nature of health professions education and 
training, coupled with unprecedented existing and looming provider 
shortages across many disciplines and in many communities, necessitate 
a strong, continued, and reliable commitment to the Title VII and Title 
VIII programs.
    While HPNEC members understand of the immense fiscal pressures 
facing the Subcommittee, we respectfully urge support for $762.5 
million for the Title VII and VIII programs, a commitment essential not 
only to the development and training of tomorrow's healthcare 
professionals but also to our Nation's efforts to provide needed 
healthcare services to underserved communities. We forward to working 
with Senators to prioritize the health professions programs in fiscal 
year 2012 and into the future.
                                 ______
                                 
            Prepared Statement of the Hepatitis B Foundation

    Highlighting the urgent need to address the public health 
challenges of chronic hepatitis B by strengthening programs at the 
Centers for Disease Control and Prevention, and the National Institutes 
of Health.
    Mr. Chairman, my name is Dr. Timothy Block, and I am the President 
and Co-Founder of the Hepatitis B Foundation and its research 
institute, the Institute for Hepatitis and Virus Research. I also serve 
as the President of the Pennsylvania Biotechnology Center and am a 
professor at Drexel University College of Medicine. My wife Joan, and 
I, and another couple, Paul and Janine Witte, from Pennsylvania started 
the Hepatitis B Foundation 20 years ago to find a cure for this serious 
chronic liver disease and provide information and support to those 
affected.
    Thank you for giving the Hepatitis B Foundation (HBF) the 
opportunity to provide testimony to the Subcommittee as you begin to 
consider funding priorities for fiscal year 2012. We are grateful to 
the Members of this Subcommittee for their interest and strong 
leadership for efforts to control and find cures for hepatitis B.
    Today, the HBF is the only national nonprofit organization solely 
dedicated to finding a cure and improving the lives of those affected 
by hepatitis B worldwide through research, education and patient 
advocacy. Our scientists focus on drug discovery for hepatitis B and 
liver cancer, and early detection markers for liver cancer. HBF staff 
manages a comprehensive website which receives almost 1 million 
visitors each year, a national patient conference and outreach 
services. HBF public health professionals conduct research initiatives 
to advance our mission.
    The hepatitis B virus (HBV) is the world's major cause of liver 
cancer--and while other cancers are declining, liver cancer is the 
fastest growing in incidence in the United States. Without 
intervention, as many as 100 million worldwide will die from a HBV-
related liver disease, most notably liver cancer. In the United States, 
up to 2 million Americans have been chronically infected and more than 
5,000 people die each year from complications due to HBV.
    HBV is 100 times more infectious than the HIV/AIDS virus. Yet, 
hepatitis B can be prevented with a safe and effective vaccine. 
Unfortunately, for those who are chronically infected with HBV, the 
vaccine is too late. There are, however, promising new treatments for 
HBV. We are getting close to solutions but lack of sustained support 
for public health measures and scientific research is threatening 
progress. New research has confirmed that early detection and treatment 
significantly reduces healthcare costs, morbidity and mortality. The 
growing incidence of liver cancer, while most other cancer rates are on 
the decline, represents examples of serious shortcomings in our system. 
In the United States, 20,000 babies are born to mothers infected with 
HBV each year, and as many as 1,200 newborns will be chronically 
infected with the hepatitis B virus. More needs to be done to prevent 
new infections.

HHS Interagency Working Group on Viral Hepatitis
    Last year, the Department of Health and Human Services put together 
an Interagency Working Group on Hepatitis to put together an Action 
Plan on Viral Hepatitis. This action plan will describe opportunities 
for HHS to respond to the 2010 Institute of Medicine (IOM) review of 
the viral hepatitis challenge in the United States and the IOM 
recommendations to prevent and build the capacity and collaborations 
essential for reducing the number of viral hepatitis infections and 
ameliorating the health and economic consequences of viral hepatitis 
among persons chronically infected. The Hepatitis B Foundation is very 
supportive of the efforts of the Working Group and is hopeful that its 
recommendations will result in actions to address the chronic 
underfunding of viral hepatitis prevention, research and outreach 
programs within the Department. We look forward to the release of the 
Hepatitis Action Plan in May of this year.
    Mr. Chairman, as you know the two Federal agencies that are 
critical to the effort to help people concerned with hepatitis B are: 
the Centers for Disease Control and Prevention (CDC), and the National 
Institutes of Health (NIH).

The Centers for Disease Control
    CDC's Division of Viral Hepatitis (DVH), the centerpiece of the 
Federal response to controlling, reducing and preventing the suffering 
and deaths resulting from viral hepatitis, is chronically underfunded. 
DVH is included in the National Center for HIV/AIDS, Viral Hepatitis, 
STD, and TB Prevention at the CDC, and is responsible for the 
prevention and control of viral hepatitis. DVH is currently (prior to 
finalization of the fiscal year 2011 continuing resolution) funded at 
$19.8 million, approximately $6 million less than its funding level in 
fiscal year 2003. In the President's fiscal year 2012 budget proposal, 
DVH is funded at $25 million, an increase of $5.2 million. The HBF is 
very supportive of this increase and joins the hepatitis community in 
urging the Committee to fund the President's request for the Division 
of Viral Hepatitis.
    The responsibility for addressing the problem of hepatitis should 
not lie solely with the Division. In view of the preventable nature of 
these diseases, the Hepatitis B Foundation feels that the National 
Center for Chronic Disease Prevention should also include a targeted 
effort focused on the prevention of chronic viral hepatitis which 
adversely impacts 5 million Americans. Specifically, we ask that the 
Committee include language urging the Center to help insure that the 
Prevention and Public Health Funds, particularly the Community 
Transformations Grants, are available to support viral hepatitis 
prevention projects.
    Furthermore, there are 400 million people chronically infected with 
hepatitis B worldwide, with more than 120 million of these individuals 
in China. While hepatitis B transmission requires direct exposure to 
infected blood, worldwide misinformation about the disease has fueled 
inappropriate discrimination against individuals with this vaccine-
preventable and treatable bloodborne disease. HBF urges the Committee 
to instruct the CDC to initiate global programs to increase the rate of 
vaccination, reduce mother-child transmission and promote educational 
programs to prevent the disease and to reduce discrimination targeted 
against individuals with the disease.

The National Institutes of Health
    We depend upon the NIH to fund research that will lead to new and 
more effective interventions to treat people with hepatitis B and liver 
cancer. The Hepatitis B Foundation joins with the Ad Hoc Group for 
Biomedical Research and requests a funding level of $35 billion for the 
National Institutes of Health in fiscal year 2012.
    We thank the Committee for their continued investment in the NIH. 
Sustaining progress in medical research is essential to the twin 
national priorities of smarter healthcare and economic revitalization. 
With additional investment, the Nation can seize the unique opportunity 
to build on the tremendous momentum emerging from the strategic 
investment in NIH made through the 2009 American Recovery and 
Reinvestment Act (ARRA). NIH invested those funds in a range of 
potentially revolutionary new avenues of research that will lead to new 
early screenings and new treatments for disease.
    In fiscal year 2010, NIH spent approximately $70 million on 
hepatitis B funding overall including $4 million of onetime funding 
from the American Recovery and Reinvestment Act. It is estimated that 
in fiscal year 2011 hepatitis B funding will return to the base level 
of $66 million. Additional funding could make transformational advances 
in research leading to better treatments for HBV. The Hepatitis B 
Foundation recommends that at a minimum, funding allocated for HBV 
research in fiscal year 2012 be increased at the same rate recommended 
for NIH overall and, therefore, funded at $75.7 million.
    The current leadership of the NIH has performed admirably with the 
limited resources they are provided; however, more is needed. While a 
number of cancers have achieved 5-year survival rates of over 80 
percent and the average 5-year survival rate for all cancers has 
increased from 50 percent in 1971 to 66 percent, significant challenges 
still remain for other types of cancers, particularly the most deadly 
forms of cancer. In fact, nearly half of the 562,340 cancer deaths in 
2009 were caused by eight forms of cancer with 5-year relative survival 
rates of less than 50 percent: ovary (45.5 percent), brain (35.0 
percent), myeloma (34.9 percent), stomach (24.7 percent), esophagus 
(15.8 percent), lung (15.2 percent), liver (11.7 percent), and pancreas 
(5.1 percent). It is no coincidence that cancers with significantly 
better 5 year survival rates, such as breast, prostate, colon, 
testicular, and chronic myelogenous leukemia, also have early detection 
tools, and in many cases, several effective treatment options thanks to 
research programs championed and supported by Congress. By contrast, 
research into the cancers with the lowest 5-year survival rates has 
been relatively under-funded, and as a result, these cancers have no 
early detection or treatment tools.
    The Hepatitis B Foundation requests the establishment of a targeted 
cancers program at the National Cancer Institute (NCI) for the high 
mortality cancers. It should include a strategic plan for progress, an 
annual report from NCI to Congress, and a new grant program 
specifically focused on the deadly cancers. Additionally, the Hepatitis 
B Foundation urges a stronger focus on liver cancer and urges the 
funding of a series of Specialized Programs of Research Excellence 
(SPOREs) focused on liver cancer. While SPOREs currently exist for 
every other major cancer, none currently exist that are focused on 
liver cancer.

Prevention Fund
    The Patient Protection and Affordable Care Act included the 
creation of a Prevention and Public Health Fund, to be used to reduce 
chronic disease rates and to address health disparities. To further 
clarify the intended use of these funds, earlier this year, the 
National Prevention, Health Promotion and Public Health Council that 
was established to advice on the use of these funds, released a report 
with recommendations. Included in the report were recommendations that 
``opportunities be expanded within communities and populations at 
greatest risk for diseases such as Viral Hepatitis B and C'' and that 
there be an increased use of the ``the most effective and highest 
impact evidence-based clinical preventive services and medications, 
such as screening and treatment for chronic viral hepatitis.'' 
Therefore, it is our view that insuring the Prevention Funds resources 
can be used for viral hepatitis prevention projects would help address 
this urgent need to help close the gap between diagnosis and access to 
care for hepatitis patients. We urge the Committee to include language 
in both the Office of the Secretary and the CDC's National Center for 
Chronic Disease Prevention to insure that Prevention Funds, 
specifically Community Transformation Grants, be eligible to viral 
hepatitis initiatives.

                         SUMMARY AND CONCLUSION

    While the HBF recognizes the demands on our Nation's resources, we 
believe the ever-increasing health threats and expanding scientific 
opportunities continue to justify higher funding levels for the CDC's 
Division of Viral Hepatitis and the National Institutes of Health.
    Significant progress has been made in developing better treatments 
and cures for the diseases that affect humankind due to your leadership 
and the leadership of your colleagues on this Subcommittee. Significant 
progress has also similarly been made in the fight against hepatitis B.
    In conclusion, we specifically request the following for fiscal 
year 2012:
  --Fund the CDC's Division of Viral Hepatitis at $25 million;
  --Language urging the HHS and the National Center for Chronic Disease 
        Prevention to help insure that the Prevention and Public Health 
        Funds, particularly the Community Transformations Grants, are 
        available to support viral hepatitis prevention projects.
  --Initiate global programs at the CDC to increase the rate of 
        vaccination, reduce mother-child transmission and promote 
        educational programs to prevent the disease and to reduce 
        discrimination targeted against individuals with the disease;
  --Provide $35 billion for the National Institutes of Health, 
        including a $9.7 million increase per year for hepatitis B 
        research;
  --Establish a targeted cancers program at the NCI; and
  --Fund a series of Specialized Programs of Research Excellence 
        (SPOREs) focused on liver cancer at the NCI.
    The Hepatitis B Foundation appreciates the opportunity to provide 
testimony to you on behalf of our constituents and yours.
                                 ______
                                 
           Prepared Statement of the HIV Medicine Association

    The HIV Medicine Association (HIVMA) of the Infectious Diseases 
Society of America (IDSA) represents more than 4,500 physicians, 
scientists and other healthcare professionals who practice on the 
frontline of the HIV/AIDS pandemic. Our members provide medical care 
and treatment to people with HIV/AIDS throughout the United States, 
lead HIV prevention programs and conduct research to develop effective 
HIV prevention and treatment options. We work in communities across the 
country and around the globe as medical providers and researchers 
dedicated to the field of HIV medicine.
    We appreciate the importance of addressing the fiscal challenges 
facing our Nation, but the continued fragile state of the economy makes 
it imperative to set priorities to ensure that our Nation has a strong 
healthcare safety-net, effective programs for preventing infectious 
diseases like HIV and a robust scientific research agenda.
    The U.S. investment in HIV/AIDS programs has revolutionized HIV 
care globally, making HIV treatment one of the most effective medical 
interventions available. A vibrant research agenda and rapid public 
health implementation of scientific findings have transformed the HIV 
epidemic, reducing morbidity and mortality due to HIV disease by nearly 
80 percent in the United States.
    Implementation of healthcare reform and the administration's plans 
for a National HIV/AIDS Strategy offer promise for making significant 
progress in reducing the impact of the domestic HIV epidemic. However, 
their success will depend on maintaining adequate investments in the 
healthcare safety net, and in prevention, public health and research 
programs. The funding requests in our testimony largely reflect the 
consensus of the Federal AIDS Policy Partnership (FAPP), a coalition of 
HIV organizations from across the country, and are estimated to be the 
amounts necessary to sustain and strengthen our investment in 
combatting HIV disease.

Health Care Reform
    We urge full funding of the President's fiscal year 2012 request 
level for healthcare reform programs supported with discretionary 
funding under the Patient Protection and Affordable Care Act (ACA), in 
particular: health workforce education and training programs under 
Titles VII and VIII of the Public Health Service Act (PHSA); healthcare 
quality improvement programs, and the Community Health Centers program.

HIV/AIDS Bureau of the Health Resources and Services Administration
    We urge you to increase funding for the Ryan White program by $371 
million in fiscal year 2011 with at least an increase of $65.8 million 
over the fiscal year 2010 level for Part C. At minimum, we strongly 
urge you to support the President's proposed fiscal year 2012 increase 
of $88.3 million for the Ryan White program, including a $5.1 million 
increase for Part C. Part C of the Ryan White Program funds 
comprehensive HIV care and treatment--services that are directly 
responsible for the dramatic decreases in AIDS-related mortality and 
morbidity over the last decade. On average it costs $3,501 per person 
per year to provide the comprehensive outpatient care and treatment 
available at Part C funded programs, including lab work, STD/TB/
Hepatitis screening, ob/gyn care, dental care, mental health and 
substance abuse treatment, and case management. Part C funding covers a 
small percentage of the total cost of providing comprehensive care with 
some programs receiving $450 or lower per patient per year to cover 
care.
    The Ryan White Program generally is underfunded and Part C of the 
program is disproportionately and severely underfunded. The Centers for 
Disease Control and Prevention estimate that there are more than 1.1 
million persons living with HIV/AIDS and approximately 240,000, or 
almost 1 in 4, of these individuals receive services from Part C 
medical providers. Of the 240,000 patients, approximately 1 out of 3 is 
uninsured, and 2 out of 3 are underinsured.
    While the patient caseload in Part C programs has been rising, 
funding for Part C has effectively decreased due to flat funding and 
funding cuts at the clinic level. Part C programs expect a continued 
increase in patients due to higher diagnosis rates and economic-related 
declines in insurance coverage. During this economic downturn people 
with HIV across the country are relying on Part C comprehensive 
services more than ever. As a result of consistently increasing 
caseloads and limited funding, Part C clinics are taking dramatic steps 
that adversely impact their ability to serve patients, including: 
Limiting primary care services; discontinuing critical services such as 
laboratory monitoring; suffering eviction from institutional-based 
clinic sites; laying off staff; and operating only 4 days/week.
    The HIV medical clinics funded through Part C have been in dire 
need of increased funding for years, but new pressures are creating a 
crisis in communities across the country. An increase in funding is 
critical to prevent additional staffing and service cuts and ensure the 
public health of our communities.

National Institutes of Health (NIH)--Office of AIDS Research
    HIVMA supports the medical research community's requested increase 
of $4 billion over the fiscal year 2010 level for all research programs 
at the NIH, including at least a $400 million increase for the NIH 
Office of AIDS. This level of funding is vital to sustain the pace of 
research that will improve the health and quality of life for millions 
of Americans. At minimum, we urge you to support the President's 
proposed fiscal year 2012 increase of $1 billion for the NIH.
    A continued robust AIDS research portfolio is essential to sustain 
and to accelerate our progress in offering more effective prevention 
technologies; developing new and less toxic therapy; and supporting the 
basic research necessary to continue our work developing a vaccine that 
may end the deadliest pandemic in human history.
    We appreciate the many difficult decisions that Congress faces this 
year, but urge you to recognize the importance of investing in HIV 
prevention, treatment and research now to avoid the much higher cost 
that individuals, communities and broader society will incur if we fail 
to support these programs. We must seize the opportunity to limit the 
toll of this deadly infectious disease on our planet and to save the 
lives of millions who are infected or at risk of infection here in the 
United States and around the globe.

Center for Disease Control and Prevention's (CDC) National Center for 
        HIV/AIDS, Viral Hepatitis, STD, and TB Prevention (NCHHSTP)
    HIVMA strongly urges total fiscal year 2012 funding of $1.953 
billion for the CDC's NCHHSTP, an increase of $834.1 million over the 
fiscal year 2010 level, including increases of: $515.3 million for HIV 
prevention and surveillance, $20.2 million for viral hepatitis and 
$85.9 million for tuberculosis prevention.
    Every 9\1/2\ minutes a new HIV infection happens in the United 
States with more than 60 percent of new cases occurring among African 
Americans and Hispanic/Latinos. Despite the known benefit of effective 
treatment, 21 percent of people living with HIV in the United States 
are still not aware of their status and as many as 36 percent of people 
newly diagnosed with HIV progress to AIDS within 1 year of diagnosis. A 
sustained commitment to HIV prevention funding is critical to enhance 
HIV/AIDS surveillance and expand HIV testing and linkage to care, in 
order to lower HIV incidence and prevalence in the United States. We 
appreciate that the President proposed a $68.8 million increase for HIV 
prevention at the CDC, and at a bare minimum we strongly urge the 
Committee to at least meet this request.
    Finally, we strongly support adequate funding for science-based, 
comprehensive sex education programs. We are pleased that the fiscal 
year 2011 continuing resolution provides $109 million for the Teen 
Pregnancy Prevention Program, which focuses on reducing the risks of 
pregnancy and sexually transmitted diseases through proven and 
successful models. We urge the Committee to adopt report language 
supporting true, comprehensive sex education that promotes healthy 
behaviors and relationships for all young people, including lesbian, 
gay, bisexual, and transgender youth, including an explicit focus on 
prevention of HIV and other STDs.

CDC--Tuberculosis
    Tuberculosis is the major cause of AIDS-related mortality worldwide 
and the second leading infectious disease killer. Congress passed 
landmark legislation in the Comprehensive Tuberculosis Elimination Act 
of 2008 to shore up State TB control programs, to enhance U.S. capacity 
to address drug-resistant tuberculosis; and to develop new drugs, 
diagnostics and vaccines.
    State budget cuts have hit local TB control programs hard, and the 
CDC Division of TB Elimination has seen some budget reductions in the 
last 2 fiscal years. Our ability to respond to TB within our own 
borders is being compromised as a result. We must do better. Finally, 
we are beginning to see exciting new tools to combat tuberculosis after 
decades of little or no productive research and development in this 
area. We have an exciting new diagnostic test that can identify drug-
susceptible and drug-resistant TB very quickly. There are a number of 
new drugs in clinical trials for both drug resistant and drug-
susceptible TB. There are promising new TB vaccine candidates being 
tested. Now, resources are needed more urgently than ever to follow 
through on the research and development in progress and to ensure that 
these new tools reach the public health officials on the ground who 
need them. We respectfully request fiscal year 2012 funding for the CDC 
Division of TB Elimination at a level of $231 million. At minimum, we 
urge full funding of the President's fiscal year 2012 budget request of 
$143.6 million for this program.

CDC--Viral Hepatitis
    A much more substantial commitment to Hepatitis co-infection is 
urgently needed, in addition to funding for core public health services 
and tracking of chronic cases of hepatitis. Co-infection is a serious 
health threat for nearly one-third of our HIV patients, and has an 
enormous impact on morbidity and mortality. Furthermore, with the 
advent of the recently approved protease inhibitors, providing funding 
to enable this population to receive treatment and/or access clinical 
trials becomes absolutely critical. We strongly urge you to boost 
funding for viral hepatitis at the CDC by $20.2 million over the fiscal 
year 2010 level million for a total funding of $40 million. At the very 
least, we urge you to support the President's proposed fiscal year 2012 
increase of $5.2 million to respond to the viral Hepatitis epidemic.

Agency for Health Care Quality and Research (AHRQ)
    HIVMA urges the Committee to provide $2.2 million, a $200,000 
increase over the fiscal year 2010 level for the HIV Research Network 
(HIVRN), the only significant HIV work being done at AHRQ. The HIVRN is 
a consortium of 18 HIV primary care sites co-funded by AHRQ and HRSA to 
evaluate healthcare utilization and clinical outcomes in HIV infected 
children, adolescents and adults in the United States. The Network 
analyzes and disseminates information on the delivery and outcomes of 
healthcare services to people with HIV infection. These data help to 
improve delivery and outcomes of HIV care in the United States and to 
identify and address disparities in HIV care that exist by race, 
gender, and HIV risk factor. The HIVRN is a unique source of 
information on the cost and cost-effectiveness of HIV care in the 
United States at a time when data on comparative cost and effectiveness 
of healthcare is particularly needed to inform health systems reform 
and the development and implementation of a National HIV/AIDS Strategy.
                                 ______
                                 
                Prepared Statement of Howard University

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present my views before you today. I am Dr. Eve 
Higginbotham, Senior Vice-President and Executive Dean for Howard 
University Health Sciences. I am the senior health official at Howard, 
with responsibilities for our College of Medicine, College of 
Dentistry, College of Pharmacy, Nursing, and Allied Health, Louis 
Stokes Health Sciences Library, and the Howard University Hospital. 
Howard University is the only Historically Black College or University 
(HBCU) with so many aspects of the health sciences housed at one 
institution. For that reason, we are poised to continue to impact the 
education of minorities and others dedicated to improving the health of 
all Americans.
    Mr. Chairman, Howard University Health Sciences has made historic 
contributions to the reduction of health disparities, and it is because 
of programmatic activity like the Title VII Health Professionals 
Training programs that we are able to address a critical national need. 
Persistent and severe staffing shortages exist in a number of the 
health professions, and chronic shortages exist for all of the health 
professions in our Nation's most medically underserved communities. 
Furthermore, even after the landmark passage of health reform, it is 
important to note that our Nation's health professions workforce does 
not accurately reflect the racial composition of our population. For 
example while blacks represent approximately 15 percent of the U.S. 
population, only 2-3 percent of the Nation's health professions 
workforce is black. Mr. Chairman, I would like to share with you how 
your committee can help HUHS continue our efforts to help provide 
quality health professionals and close our Nation's health disparity 
gap.
    There is a well established link between health disparities and a 
lack of access to competent healthcare in medically underserved areas. 
As a result, it is imperative that the Federal Government continue its 
commitment to minority health professions institutions and minority 
health professional training programs to continue to produce healthcare 
professionals committed to addressing this unmet need--even in austere 
financial times.
    An October 2006 study by the Health Resources and Services 
Administration (HRSA), entitled ``The Rationale for Diversity in the 
Health Professions: A Review of the Evidence'' found that minority 
health professionals serve minority and other medically underserved 
populations at higher rates than non-minority professionals. The report 
also showed that; minority populations tend to receive better care from 
practitioners who represent their own race or ethnicity, and non-
English speaking patients experience better care, greater 
comprehension, and greater likelihood of keeping follow-up appointments 
when they see a practitioner who speaks their language. Studies have 
also demonstrated that when minorities are trained in minority health 
profession institutions, they are significantly more likely to: (1) 
serve in rural and urban medically underserved areas, (2) provide care 
for minorities and (3) treat low-income patients.
    As you are aware, Title VII Health Professions Training programs 
are focused on improving the quality, geographic distribution and 
diversity of the healthcare workforce in order to continue eliminating 
disparities in our Nation's healthcare system. These programs provide 
training for students to practice in underserved areas, cultivate 
interactions with faculty role models who serve in underserved areas, 
and provide placement and recruitment services to encourage students to 
work in these areas. Health professionals who spend part of their 
training providing care for the underserved are up to 10 times more 
likely to practice in underserved areas after graduation or program 
completion.
    In fiscal year 2012, funding for the Title VII Health Professions 
Training programs must at the very least be maintained, especially the 
funding for the Minority Centers of Excellence (COEs) and Health 
Careers Opportunity Program (HCOPs). In addition, the funding for the 
National Institutes of Health (NIH)'s National Institute on Minority 
Health and Health Disparities (NIMHD), as well as the Department of 
Health and Human Services (HHS)'s Office of Minority Health (OMH), 
should be preserved.
    Minority Centers of Excellence.--COEs focus on improving student 
recruitment and performance, improving curricula in cultural 
competence, facilitating research on minority health issues and 
training students to provide health services to minority individuals. 
COEs were first established in recognition of the contribution made by 
four historically black health professions institutions to the training 
of minorities in the health professions. Congress later went on to 
authorize the establishment of ``Hispanic'', ``Native American'' and 
``Other'' Historically black COEs. For fiscal year 2012, I recommend a 
funding level of $24.602 million for COEs.
    Health Careers Opportunity Program (HCOP).--HCOPs provide grants 
for minority and non-minority health profession institutions to support 
pipeline, preparatory and recruiting activities that encourage minority 
and economically disadvantaged students to pursue careers in the health 
professions. Many HCOPs partner with colleges, high schools, and even 
elementary schools in order to identify and nurture promising students 
who demonstrate that they have the talent and potential to become a 
health professional. For fiscal year 2012, I recommend a funding level 
of $22.133 million for HCOPs.

National Institutes of Health
    Research Centers at Minority Institutions.--The Research Centers at 
Minority Institutions program (RCMI), currently administered by the 
National Center for Research Resources, has a long and distinguished 
record of helping our institutions develop the research infrastructure 
necessary to be leaders in the area of health disparities research. 
Although NIH has received unprecedented budget increases in recent 
years, funding for the RCMI program has not increased by the same rate. 
Therefore, the funding for this important program grow at the same rate 
as NIH overall in fiscal year 2012.
    National Institute on Minority Health and Health Disparities.--The 
National Institute on Minority Health and Health Disparities (NIMHD) is 
charged with addressing the longstanding health status gap between 
minority and nonminority populations. The NIMHD helps health 
professions institutions to narrow the health status gap by improving 
research capabilities through the continued development of faculty, 
labs, and other learning resources. The NIMHD also supports biomedical 
research focused on eliminating health disparities and develops a 
comprehensive plan for research on minority health at the NIH. 
Furthermore, the NIMHD provides financial support to health professions 
institutions that have a history and mission of serving minority and 
medically underserved communities through the Centers of Excellence 
program. For fiscal year 2012, I recommend funded increases 
proportional with the funding of the over NIH.

Department of Health and Human Services
    Department of Health and Human Services' Office of Minority 
Health.--Specific programs at OMH include: assisting medically 
underserved communities with the greatest need in solving health 
disparities and attracting and retaining health professionals; 
assisting minority institutions in acquiring real property to expand 
their campuses and increase their capacity to train minorities for 
medical careers; supporting conferences for high school and 
undergraduate students to interest them in healthcareers, and 
supporting cooperative agreements with minority institutions for the 
purpose of strengthening their capacity to train more minorities in the 
health professions. The OMH has the potential to play a critical role 
in addressing health disparities. For fiscal year 2012, I recommend a 
funding level of $65 million for the OMH.

Department of Education
    Howard University Academic, Research, and Hospital Support.--The 
Department of Education maintains support for Howard University's 
academic programs, research programs, construction activities, and the 
Howard University Hospital. Howard University has played a historic 
role in providing access to postsecondary educational opportunities for 
students from traditionally underrepresented backgrounds, especially 
African Americans. For this reason, and others, Howard is supported 
annually with a Federal appropriation. The direct Federal appropriation 
accounts for approximately 50 percent of the Howard University's 
operating costs, including nearly $29 million for the operation of the 
Howard Hospital--a staple of care for residents in Northwest 
Washington, DC. In fiscal year 2012, an appropriation of $235 million 
is suggested to continue the vital programs and services which we 
provide.
    Mr. Chairman, please allow me to express my appreciation to you and 
the members of this subcommittee. With your continued help and support, 
Howard University's Health Sciences can help this country to overcome 
health disparities. Congress must be careful not to eliminate, paralyze 
or stifle programs that have been proven to work. HUHS seeks to close 
the ever widening health disparity gap. If this subcommittee will give 
us the tools, we will continue to work towards the goal of eliminating 
that disparity everyday.
    Thank you, Mr. Chairman, and I welcome every opportunity to answer 
questions for your records.
                                 ______
                                 
   Prepared Statement of the International Foundation for Functional 
                       Gastrointestinal Disorders

    Thank you for the opportunity to present the views of the 
International Foundation for Functional Gastrointestinal Disorders 
(IFFGD) regarding the importance of functional gastrointestinal (GI) 
and motility disorders research.
    Established in 1991, IFFGD is a patient-driven nonprofit 
organization dedicated to assisting individuals affected by functional 
GI disorders, and providing education and support for patients, 
healthcare providers, and the public at large. The IFFGD also works to 
advance critical research on functional GI and motility disorders, in 
order to provide patients with better treatment options, and to 
eventually find a cure. IFFGD has worked closely with NIH on a number 
of priorities, including the NIH State-of-the-Science Conference on the 
Prevention of Fecal and Urinary Incontinence in Adults through NIDDK, 
the National Institute of Child Health and Human Development (NICHD), 
and the Office of Medical Applications of Research (OMAR). I have 
served on the National Commission on Digestive Diseases (NCDD), which 
released a long-range road map for digestive disease research in 2009, 
entitled Opportunities and Challenges in Digestive Diseases Research: 
Recommendations of the National Commission on Digestive Diseases.
    The need for increased research, more effective and efficient 
treatments, and the hope for discovering a cure for functional GI and 
motility disorders are close to my heart. My own personal experiences 
of suffering from functional GI and motility disorders motivated me to 
establish IFFGD 20 years ago. I was shocked to discover that despite 
the high prevalence of these conditions among all demographic groups 
worldwide, such an appalling lack of dedicated research existed. This 
lack of research translates into a dearth of diagnostic tools, 
treatments, and patient supports. Even more shocking is the lack of 
awareness among both the medical community and the general public, 
leading to significant delays in diagnosis, frequent misdiagnosis, and 
inappropriate treatments including unnecessary medication and surgery. 
It is unacceptable for patients to suffer unnecessarily from the 
severe, painful, life-altering symptoms of functional GI and motility 
disorders due to a lack of awareness and education.
    The majority of functional GI disorders have no cure and treatment 
options are limited. Although progress has been made, the medical 
community still does not completely understand the mechanisms of the 
underlying conditions. Without a known cause or cure, patients 
suffering from functional GI disorders face a lifetime of chronic 
disease management, learning to adapt to intolerable, disruptive 
symptoms. The medical and indirect costs associated with these diseases 
are enormous; estimates range from $25-$30 billion annually. Economic 
costs spill over into the workplace, and are reflected in work 
absenteeism and lost productivity. Furthermore, the emotional toll of 
these conditions affects not only the individual but also the family. 
Functional GI disorders do not discriminate, effecting all ages, races 
and ethnicities, and genders.

Irritable Bowel Syndrome (IBS)
    IBS, one of the most common functional GI disorders, strikes all 
demographic groups. It affects 30 to 45 million Americans, 
conservatively at least 1 out of every 10 people. Between 9 to 23 
percent of the worldwide population suffers from IBS, resulting in 
significant human suffering and disability. IBS as a chronic disease is 
characterized by a group of symptoms that may vary from person to 
person, but typically include abdominal pain and discomfort associated 
with a change in bowel pattern, such as diarrhea and/or constipation. 
As a ``functional disorder'', IBS affects the way the muscles and 
nerves work, but the bowel does not appear to be damaged on medical 
tests. Without a definitive diagnostic test, many cases of IBS go 
undiagnosed or misdiagnosed for years. It is not uncommon for IBS 
suffers to have unnecessary surgery, medication, and medical devices 
before receiving a proper diagnosis. Even after IBS is identified, 
treatment options are sorely lacking and vary widely from patient to 
patient. What is known is that IBS requires a multidisciplinary 
approach to research and treatment.
    IBS can be emotionally and physically debilitating. Due to 
persistent pain and bowel unpredictability, individuals who suffer from 
this disorder may distance themselves from social events, work, and 
even may fear leaving their home. Stigma surrounding bowel habits may 
act as barrier to treatment, as patients are not comfortable discussing 
their symptoms with doctors. Because IBS symptoms are relatively common 
and not life-threatening, many people dismiss their symptoms or attempt 
to self-medicate using over-the-counter medications. In order to 
overcome these barriers to treatment, ensure more timely and accurate 
diagnosis, and reduce costly unnecessary procedures, educational 
outreach to physicians and the general public remain critical.

Fecal Incontinence
    At least 12 million Americans suffer from fecal incontinence. 
Incontinence is neither part of the aging process nor is it something 
that affects only the elderly. Incontinence crosses all age groups from 
children to older adults, but is more common among women and the 
elderly of both sexes. Often it is a symptom associated with various 
neurological diseases and many cancer treatments. Yet, as a society, we 
rarely hear or talk about the bowel disorders associated with spinal 
cord injuries, multiple sclerosis, diabetes, prostate cancer, colon 
cancer, uterine cancer, and a host of other diseases.
    Courses of fecal incontinence include: damage to the anal sphincter 
muscles; damage to the nerves of the anal sphincter muscles or the 
rectum; loss of storage capacity in the rectum; diarrhea; or pelvic 
floor dysfunction. People who have fecal incontinence may feel ashamed, 
embarrassed, or humiliated. Some don't want to leave the house out of 
fear they might have an accident in public. Most attempt to hide the 
problem for as long as possible. They withdraw from friends and family, 
and often limit work or education efforts. Incontinence in the elderly 
burdens families and is the primary reason for nursing home admissions, 
an already huge social and economic burden in our aging population.
    In November 2002, IFFGD sponsored a consensus conference entitled, 
Advancing the Treatment of Fecal and Urinary Incontinence Through 
Research: Trial Design, Outcome Measures, and Research Priorities. 
Among other outcomes, the conference resulted in six key research 
recommendations including more comprehensive identification of quality 
of life issues; improved diagnostic tests for affecting management 
strategies and treatment outcomes; development of new drug treatment 
compounds; development of strategies for primary prevention of fecal 
incontinence associated with childbirth; and attention to the stigmas 
that apply to individuals with fecal incontinence.
    In December 2007, IFFGD collaborated with NIDDK, NICHD, and OMAR on 
the NIH State-of-the-Science Conference on the Prevention of Fecal and 
Urinary Incontinence in Adults. The goal of this conference was to 
assess the state of the science and outline future priorities for 
research on both fecal and urinary incontinence; including, the 
prevalence and incidence of fecal and urinary incontinence, risk 
factors and potential prevention, pathophysiology, economic and quality 
of life impact, current tools available to measure symptom severity and 
burden, and the effectiveness of both short and long term treatment. 
For fiscal year 2012, IFFGD urges Congress to review the Conference's 
Report and provide NIH with the resources necessary to effectively 
implement the report's recommendations.

Gastroesophageal Reflux Disease (GERD)
    Gastroesophageal reflux disease, or GERD, is a common disorder 
affecting both adults and children, which results from the back-flow of 
acidic stomach contents into the esophagus. GERD is often accompanied 
by persistent symptoms, such as chronic heartburn and regurgitation of 
acid. Sometimes there are no apparent symptoms, and the presence of 
GERD is revealed when complications become evident. One uncommon but 
serious complication is Barrett's esophagus, a potentially pre-
cancerous condition associated with esophageal cancer. Symptoms of GERD 
vary from person to person. The majority of people with GERD have mild 
symptoms, with no visible evidence of tissue damage and little risk of 
developing complications. There are several treatment options available 
for individuals suffering from GERD. Nonetheless, treatment response 
varies from person to person, is not always effective, and long-term 
medication use and surgery expose individuals to risks of side-effects 
or complications.
    Gastroesophageal reflux (GER) affects as many as one-third of all 
full term infants born in America each year. GER results from an 
immature upper gastrointestinal motor development. The prevalence of 
GER is increased in premature infants. Many infants require medical 
therapy in order for their symptoms to be controlled. Up to 25 percent 
of older children and adolescents will have GER or GERD due to lower 
esophageal sphincter dysfunction. In this population, the natural 
history of GER is similar to that of adult patients, in whom GER tends 
to be persistent and may require long-term treatment.

Gastroparesis
    Gastroparesis, or delayed gastric emptying, refers to a stomach 
that empties slowly. Gastroparesis is characterized by symptoms from 
the delayed emptying of food, namely: bloating, nausea, vomiting, or 
feeling full after eating only a small amount of food. Gastroparesis 
can occur as a result of several conditions, including being present in 
30 percent to 50 percent of patients with diabetes mellitus. A person 
with diabetic gastroparesis may have episodes of high and low blood 
sugar levels due to the unpredictable emptying of food from the 
stomach, leading to diabetic complications. Other causes of 
gastroparesis include Parkinson's disease and some medications, 
especially narcotic pain medications. In many patients the cause of the 
gastroparesis cannot be found and the disorder is termed idiopathic 
gastroparesis. Over the last several years, as more is being found out 
about gastroparesis, it has become clear this condition affects many 
people and the condition can cause a wide range of symptom severity.

Cyclic Vomiting Syndrome
    Cyclic vomiting syndrome (CVS) is a disorder with recurrent 
episodes of severe nausea and vomiting interspersed with symptom free 
periods. The periods of intense, persistent nausea, vomiting, and other 
symptoms (abdominal pain, prostration, and lethargy) lasts hours to 
days. Previously thought to occur primarily in pediatric populations, 
it is increasingly understood that this crippling syndrome can occur in 
a variety of age groups including adults. Patients with these symptoms 
often go for years without correct diagnosis. The condition leads to 
significant time lost from school and from work, as well as substantial 
medical morbidity. The cause of CVS is not known. Better understanding, 
through research, of mechanisms that underlie upper gastrointestinal 
function and motility involved in sensations of nausea, vomiting and 
abdominal pain is needed to help identify at risk individuals and 
develop more effective treatment strategies.

Support for Critical Research
    IFFGD urges Congress to fund the NIH at level of $35 billion for 
fiscal year 2012, an increase of 13 percent over fiscal year 2011. This 
funding level will help preserve the initial investment in healthcare 
innovation established by the American Recovery and Reinvestment Act of 
2009. Strengthening and preserving our Nation's biomedical research 
enterprise fosters economic growth, and supports innovations that 
enhance the health and well-being of the Nation.
    Concurrent with overall NIH funding, the IFFGD supports growth of 
research activities on functional GI and motility disorders, 
particularly through NIDDK and the Office of Research on Women's Health 
(ORWH). Increased support for NIDDK and ORWH will facilitate necessary 
expansion of the research portfolio on functional GI and motility 
disorders necessary to grow the medical knowledge base and improve 
treatment. Such support would also expedite the implementation of 
recommendations from the National Commission on Digestive Diseases. It 
is also vitally important for NIDDK to work to expand its research on 
the impact these disorders have on pediatric populations, in addition 
the adult population.
    Following years of near level-funding at NIH, research 
opportunities have been negatively impacted across all NIH Institutes 
and Centers, including NIDDK. With the expiration of funding from the 
American Recovery and Reinvestment Act of 2009, medical researchers run 
the risk of ``falling off a cliff'', stalling, if not losing promising 
research from that 2 year period. For this reason, IFFGD encouraged 
support for initiatives such as the Cures Acceleration Network (CAN), 
authorized in the Patient Protection and Affordable Coverage Act. IFFGD 
urges the Subcommittee to show strong leadership in pursuing a 
substantial funding increase for CAN through the fiscal year 2012 
appropriations process.
    Thank you for the opportunity to present the views of the 
functional GI disorders community.
                                 ______
                                 
       Prepared Statement of the International Myeloma Foundation

    The International Myeloma Foundation (IMF) appreciates the 
opportunity to submit written comments for the record regarding fiscal 
year 2012 funding for myeloma cancer programs. The IMF is the oldest 
and largest myeloma foundation dedicated to improving the quality of 
life of myeloma patients while working toward prevention and a cure.
    To ensure that myeloma patients have access to the comprehensive, 
quality care that they need and deserve, the IMF advocates ongoing and 
significant Federal funding for myeloma research and its application. 
The IMF stands ready to work with policymakers to advance policies and 
programs that work toward prevention and a cure for myeloma and for all 
other forms of cancer.

Myeloma Background
    The second most common blood cancer worldwide, multiple myeloma (or 
myeloma) is a cancer of plasma cells in the bone marrow. It is called 
``multiple'' myeloma because the cancer can occur at multiple sites in 
multiple bones. Each year approximately 20,000 Americans are diagnosed 
with myeloma and 10,000 lose their battle with this disease.
    Although the incidence of many cancers is decreasing, the number of 
myeloma cases is on the rise. Once a disease of the elderly, it is now 
being found in increasing numbers in people under the age of 65. The 
2009 President's Cancer Panel Report suggests that much of the increase 
in cancer incidence is being caused by environmental toxins. To give 
just one example supporting this hypothesis, a recently published study 
in The Journal of Occupational and Environmental Medicine, suggests a 
link between blood cancers like myeloma and exposure to the toxic dust 
at Ground Zero.
    In recent years significant gains have been made, extending myeloma 
patients' lives and improving their quality of life. Furthermore, 
progress begun in myeloma is already helping patients with other blood 
cancers and even solid tumors. It is important to maintain that 
momentum.
  --There is no cure for myeloma.
  --Remissions are not always permanent.
  --Additional treatment options are essential.
    Living with the disease, myeloma patients can suffer debilitating 
fractures and other bone disorders, severe side effects of certain 
treatments, and other problems that profoundly affect their quality of 
life, and significantly impact the cost of their healthcare.
Sustain and Seize Cancer Research Opportunities
    Myeloma research is producing extraordinary breakthroughs--leading 
to new therapies that translate into longer survival and improved 
quality of life for myeloma patients and potentially those with other 
forms of cancer as well. Myeloma was once considered a death sentence 
with limited options for treatment, but today myeloma is an example of 
the progress that can be made and the work that still lies ahead in the 
war on cancer. Many myeloma patients are living proof of what 
innovative drug development and clinical research can achieve--
sequential remissions, long-term survival, and good quality of life. 
Our Nation has benefited immensely from past Federal investment in 
biomedical research at the National Institutes of Health (NIH) and the 
IMF advocates $35 billion for NIH in fiscal year 2012.
    A study in the Journal of Clinical Oncology projects that the 
number of new cancer cases diagnosed each year will jump 45 percent 
over the next 20 years. In multiple myeloma an even greater increase 
(57 percent) is projected, and we are already seeing increasing 
diagnoses in patients under age 65, including patients in their 30s, in 
what was once a rare disease of the elderly.
    While a number of cancers have achieved 5-year survival rates of 
over 80 percent since passage of the National Cancer Act of 1971, 
significant challenges still remain for other cancers. In fact, nearly 
half of the 562,490 cancer deaths in 2010 were caused by just eight 
forms of cancer with 5-year survival rates of 45 percent or less--one 
of which is myeloma. Yet, myeloma and these other cancers have 
historically also received the least amount of Federal funding. As we 
have seen mortality rates of diseases such as breast cancer, prostate 
cancer, AIDS, and childhood leukemia greatly reduced through targeted, 
comprehensive, and well-funded programs that have led to earlier 
detection and superior forms of treatment, so too must we shine a 
brighter light on myeloma and the other seven deadly cancers to achieve 
this same goal for them. The IMF urges Congress to allocate $5.740 
billion to the National Cancer Institute (NCI) in fiscal year 2012 to 
continue our battle against myeloma.

Boost Our Nation's Investment in Myeloma Prevention, Early Detection, 
        and Awareness
    As the Nation's leading prevention agency, the Centers for Disease 
Control and Prevention (CDC) plays an important role in translating and 
delivering at the community level what is learned from research. 
Therefore, the IMF advocates $6 million for the Geraldine Ferraro Blood 
Cancer Program. Authorized under the Hematological Cancer Research 
Investment and Education Act of 2002, this program was created to 
provide public and patient education about blood cancers, including 
myeloma.
    With grants from the Geraldine Ferraro Blood Cancer Program, the 
IMF has successfully promoted awareness of myeloma, particularly in the 
African-American community and other underserved communities. IMF 
accomplishments include the production and distribution of more than 
4,500 copies of an informative video which addresses the importance of 
myeloma awareness and education in the African-American community to 
churches, community centers, inner-city hospitals, and Urban League 
offices around the country, increased African-American attendance at 
IMF Patient and Family Seminars (these seminars provide invaluable 
treatment information to newly diagnosed myeloma patients), increased 
calls by African-American myeloma patients, family members, and 
caregivers to the IMF's myeloma Hotline, and the establishment of 
additional support groups in inner city locations in the United States 
to assist underserved areas with myeloma education and awareness 
campaigns. Furthermore, the more than 90 IMF-affiliated patient support 
groups in the United States also made this effort their main goal 
during Myeloma Awareness Week in October 2005.
    An allocation of $6 million in fiscal year 2012 will allow this 
important program to continue to provide patients--including those 
populations at highest risk of developing myeloma--with educational, 
disease management and survivorship resources to enhance treatment and 
prognosis.
    Additionally, the IMF is concerned about the consolidation plan for 
chronic disease programs at the CDC outlined in the President's fiscal 
year 2012 budget. This would be a substantial change in the chronic 
disease program where the Geraldine Ferraro Blood Cancer Program is 
currently housed. While we agree that there are health issue areas that 
share risk factors such as healthy eating and maintaining an active 
lifestyle that make sense to consolidate, unfortunately those are not 
risk factors for myeloma. We urge the CDC to maintain the programs like 
the Geraldine Ferraro Blood Cancer Program as a stand-alone program 
which would cease to exist under the proposed consolidation plan.

Conclusion
    The IMF stands ready to work with policymakers to advance policies 
and support programs that work toward prevention and a cure for 
myeloma. Thank you for this opportunity to discuss the fiscal year 2012 
funding levels necessary to ensure that our Nation continues to make 
gains in the fight against myeloma.
                                 ______
                                 
     Prepared Statement of the Interstate Mining Compact Commission

    We are writing in support of the fiscal year 2012 budget request 
for the Mine Safety and Health Administration (MSHA), which is part of 
the U.S. Department of Labor. In particular, we urge the Subcommittee 
to support a full appropriation for grants to States for safety and 
health training of our Nation's miners pursuant to section 503(a) of 
the Mine Safety and Health Act of 1977. MSHA's budget request for State 
grants is $8.941 million. This is the same amount that has been 
appropriated for State training grants by Congress over the past 2 
fiscal years and, as such, does not fully consider inflationary and 
programmatic increases being experienced by the States. We therefore 
urge the subcommittee to restore funding to the statutorily authorized 
level of $10 million for State grants so that States are able to meet 
the training needs of miners and to fully and effectively carry out 
State responsibilities under section 503(a) of the Act.
    The Interstate Mining Compact Commission is a multi-state 
governmental organization that represents the natural resource, 
environmental protection and mine safety and health interests of its 24 
member States. The States are represented by their Governors who serve 
as Commissioners.
    IMCC's member States are concerned that without full funding of the 
State grants program, the federally required training for miners 
employed throughout the United States will suffer. States are 
struggling to maintain efficient and effective miner training and 
certification programs in spite of increased numbers of trainees and 
the incremental costs associated therewith. State grants have flattened 
out over the past several years and are not keeping place with 
inflationary impacts or increased demands for training. The situation 
is of particular concern given the enhanced, additional training 
requirements growing out of the recently enacted MINER Act and MSHA's 
implementing regulations.
    As you consider our request to increase MSHA's budget for State 
training grants, please keep in mind that the States play a 
particularly critical role in providing special assistance to small 
mine operators (those coal mine operators who employ 50 or fewer miners 
or 20 or fewer miners in the metal/nonmetal area) in meeting their 
required training needs.
    We appreciate the opportunity to submit our views on the MSHA 
budget request as part of the overall Department of Labor budget. 
Please feel free to contact us for additional information or to answer 
any questions you may have.
                                 ______
                                 
      Prepared Statement of the Interstitial Cystitis Association

    Thank you for the opportunity to present the views of the 
Interstitial Cystitis Association (ICA) regarding the importance of 
public awareness activities and the importance of interstitial cystitis 
(IC) research.
    ICA was founded in 1984 and remains the only nonprofit organization 
dedicated to improving the lives of those living with IC. The 
Association provides an important avenue for advocacy, research, and 
education in matters relating to IC. Since its founding, ICA has acted 
as a voice for those living with IC, including support groups and 
empowering patients. ICA advocates for the expansion of the IC 
knowledge-base and the development of new treatments, including 
investigator initiated research. Finally, ICA works doggedly to educate 
patients, healthcare providers, and the public at large about IC, 
including educational forums and information on how to live with this 
terrible condition.
    IC is a condition that consists of recurring pain, pressure, or 
discomfort in the bladder and pelvic region and is often associated 
with urinary frequency and urgency. An estimated 4-12 million Americans 
have IC, approximately two-thirds of whom are women. The cause of IC is 
unknown and treatment options are limited. Diagnosis is made only after 
excluding other urinary/bladder conditions, possibly causing 1 or more 
years delay between onset of the symptoms and treatment. When 
healthcare providers are not properly educated about IC, patients may 
suffer for years before receiving an accurate diagnosis and appropriate 
treatment.
    The effects of IC are pervasive and insidious, damaging work life, 
psychological well-being, personal relationships, and general health. 
The impact of IC on quality of life is equally as severe as rheumatoid 
arthritis and end-stage renal disease. Health-related quality of life 
in women with IC is worse than in women with endometriosis, vulvodynia, 
and overactive bladder. IC patients have significantly more sleep 
dysfunction, higher rates of depression, increased catastrophizing, 
anxiety, and sexual dysfunction.

Public Awareness and Education
    As IC is a condition that often takes long periods to diagnosis, 
and this late diagnosis has such a major impact on the lives of 
patients, it is vitally important to continue to educate both the 
public and healthcare providers. The IC Education and Awareness Program 
at the Centers for Disease Control and Prevention (CDC) has played a 
major role in increasing the public's awareness of the devastating 
disease and is the only program in the Nation which promotes public 
awareness of IC. The public outreach of the CDC program includes public 
service announcements on major television networks and the Internet. 
Further, the CDC program has provided resources to make information on 
IC available to patients and the public though videos, booklets, 
publications, presentations, educational kits, websites, blogs, 
Facebook pages, and a YouTube channel. For providers, this program has 
included the development of an IC newsletter with information on IC 
treatments, research, news, and events; targeted mailings to providers; 
and exhibits at national medical conferences.
    In order to continue these vitally important initiatives, which 
have reached thousands of Americans, it is critical that the CDC IC 
Education and Awareness Program be continued and receive a specific 
appropriation of $660,000 for fiscal year 2012.

Research Through the National Institutes of Health
    The National Institutes of Health (NIH), mainly through the 
National Institute of Diabetes and Digestive and Kidney Diseases 
(NIDDK), maintains a robust research portfolio on IC, including five 
recent major studies yielding significant new information. The RAND IC 
Epidemiology (RICE) study found that nearly 2.7-6.7 percent of adult 
women have symptoms consistent with IC and will prove important to the 
future development of clinical trials and epidemiological studies. The 
IC Genetic Twin study found environmental factors, rather than genetic 
factors, to be substantial risk factors of developing IC. The Events 
Preceding Interstitial Cystitis (EPIC) study has yielded significant 
information linking non-bladder conditions and infectious agents to the 
development of IC in many newly diagnosed IC patients. The findings of 
the EPIC study have been reinforced in a Northwestern University study 
which found that an unusual form of toxic bacterial molecule (LPS) has 
an impact the development of IC as a result of an infectious agent. 
Finally, the Urologic Pelvic Pain Collaborative Research Network 
(UPPCRN) has indicated promising results for a new therapy for IC 
patients.
    Research currently underway and expected to begin in the near 
future also holds great promise to increase our understanding of IC, 
and thus find new treatments and cure. The Multidisciplinary Approach 
to the Study of Chronic Pelvic Pain (MAPP) Syndrome Research Network 
holds great potential to understanding the underlying issues related to 
IC, other conditions possibly associated with IC, and new information 
related to flares of the condition. Additionally, the investigator-
initiated research portfolio will continue to support research relating 
to fundamental issues relating to IC and pelvic pain, including new 
avenues for interdisciplinary research and new treatment options. 
Finally, NIH will continue to focus on developing new treatment and 
therapies to relieve this condition.
    In order for this positive research to reach its full potential, it 
is essential NIH continue to receive funding which will allow it to 
continue and expand on past and current research. For this reason we 
recommend a funding level of $35 billion for fiscal year 2012. We also 
recommend the continuation of the MAPP study and collaboration between 
NIDDK and the Office of Women's Health on issues related to IC.
    Thank you for the opportunity to present the views of the 
interstitial cystitis community.
                                 ______
                                 
  Prepared Statement of the Iowa Statewide Independent Living Council

    I am contacting you regarding the proposed restructuring of the 
Independent Living funding that is outlined in President Obama's 2012 
budget.
    The seven Iowa Centers for Independent Living, along with all the 
other Centers for Independent Living across the country, need your 
help.
    As you may know, Centers for Independent Living (CILs) are 
nonprofit organizations run by people with disabilities for people with 
disabilities. They are authorized by the Federal Rehabilitation Act. 
CILs help people with disabilities to remain independent in their own 
homes and communities, being productive and contributing members of 
society. CILs work to help people remain independent so they are not 
forced to live in institutions such as nursing homes. As I am sure you 
are aware, in the vast majority of cases it is much less costly for a 
person with a disability to remain in their own home and community 
rather than pay for them to be institutionalized, and even more 
importantly people with disabilities have the same right to live 
independently as do people who do not have a disability.
    The Independent Living movement, CILs, and SILCs promote the 
philosophy of consumer control. Consumers, who are people with 
disabilities, control the operations of CILs and SILCs.
    I would like to provide you with some education about the reality 
of what the President's proposed restructuring of Independent Living 
funding will do to many Centers for Independent Living (CILs). I am 
opposed to this restructuring because of the damage it will do to many 
CILs, including the very real possibility that many CILs will have to 
close their doors as they will not be able to fiscally operate under 
this new structure.
    Currently, under the Federal Rehabilitation Act, CILs receive their 
Part C Federal Independent Living funding directly from the Federal 
Rehabilitation Services Administration (RSA). The Federal Part B funds 
are given to the States, in most cases to the State Vocational 
Rehabilitation Services (VR) agency, and the VR does contracts with the 
CILs and the Statewide Independent Living Council (SILC) for these Part 
B Federal funds. The Federal Part C funds do not require a State match 
as they come directly from RSA at the Federal level to the individual 
CILs. The Part B funding does require a State match as it comes 
directly to the state VR agency.
    Combining the Federal Part B and the Federal Part C Independent 
Living funding, and making these funds into a new block grant to States 
for Independent Living funding, is not acceptable for a number of 
reasons, and I would like to outline those reasons.
    Combining these funds into a block grant and giving them to States 
will significantly reduce, if not eliminate, consumer control of 
independent living programs. Prior to the Part C funds being given to 
RSA to distribute directly to CILs, the funds were given out in grants 
to States. There were numerous problems with the State administering 
these grant funds, which is why the funding structure was changed to 
Part C going directly from RSA to CILs. Here are some examples of what 
happened in the past, and these problems will also occur under the 
President's proposed block grant funding:
  --Under the past IL grant process, if the State had a freeze on 
        hiring or travel, they would also make the CILs have a freeze 
        on travel and hiring. This meant the CILs could not hire staff 
        when needed, nor could they travel when needed. So even though 
        the consumer controlled CIL Board directed the CIL Executive 
        Director to hire a new staff, or directed that staff was to 
        travel to attend a national conference, the State would not 
        allow the CIL to do these things and would not provide the 
        money to do these things, even though these things were an 
        allowable use of the Federal grant funds. The State agency 
        controlled the CIL, the Consumer Board did not have any 
        control.
  --In many States, the Vocational Rehabilitation Services agency has 
        procedures for reimbursing funds to the CILs, and in many 
        States CILs would submit documentation for reimbursement and it 
        would take 3, 4 or 5 months for the VR agency to get the money 
        back to the CIL, which caused a great hardship for CILs to be 
        able to keep their doors open. Here is one true example. One 
        CIL Director re-financed his own house to take out a loan to 
        meet staff payroll until the CIL received the reimbursement 
        funds for their expenses from the State VR agency. Currently, I 
        know this is an issue with the Federal Part B funds that the VR 
        agencies give to CILs. It can take up to 4 or 5 months for a 
        CIL to get reimbursed for their Part B funds. Fortunately, many 
        of those CILs also get Federal Part C funds directly from RSA 
        so they have money to cover their expenses until they get the 
        Part B reimbursement check from VR. If the President's proposal 
        becomes reality, there are many CILs that will most likely have 
        to close as they will not have the working capital to pay their 
        bills and then wait 4-5 months to get reimbursed by the VR 
        agency.
    There are additional concerns to consider.
  --VR agencies are already under stress from State budget cuts, and it 
        takes VR staff time to be able to do contracts and 
        reimbursements for CILs. If these contracts become bigger, VRs 
        will have to hire additional staff to manage these funds and do 
        the contracts with the CILs. Where will the money come from for 
        the VR agency to do this? Will it be taken out of the combined 
        Part B and Part C funds, which means less funds going to CILs 
        for direct consumer partner services, and less money to SILCs 
        to be able to operate?
  --Currently only the Part B funds require a State match. If you 
        combine B and C into one block grant, will State match be 
        required for this total amount? If so, where are States going 
        to get the State funds to match the additional Part C funds? 
        Many States can barely find the match for the Part B funds, so 
        it is possible that States will not have funds to match the 
        Part C funds too. That means the State will not get the Part C 
        funds, and Centers will not have enough funding to keep their 
        doors open.
  --Providing direct funding to CILs is required by the Federal 
        Rehabilitation Act, and for the President's budget proposal to 
        be enacted, the Rehabilitation Act would have be significantly 
        altered and then reauthorized.
    These are very real and disturbing concerns. I would like to know 
that President Obama, as well as the Federal legislators, are looking 
at these concerns and how to address them before going ahead with the 
President's proposed restructuring. There must be a better way to do 
this that will maintain consumer partner control of CIL operations, and 
that will allow CILs to fiscally operate without risk of having to 
close their doors, and/or reduce staff and services to consumer 
partners.
                                 ______
                                 
Prepared Statement of the Joint Advocacy Coalition of the: Association 
   for Clinical Research Training, Association for Patient-Oriented 
                 Research, and Clinical Research Forum

    The Association for Clinical Research Training (ACRT), the 
Association for Patient-Oriented Research (APOR), the Clinical Research 
Forum (CR Forum), and the Society for Clinical and Translational 
Science (SCTS) represent a coalition of professional organizations 
dedicated to improving the health of the public through increased 
clinical and translational research, and clinical research training. 
United by the shared priorities of the clinical and translational 
research community, ACRT, APOR, CR Forum, and SCTS advocate for 
increased clinical and translational research at the National 
Institutes of Health (NIH), the Agency for Healthcare Research and 
Quality (AHRQ), and other Federal science agencies.
    On behalf of ACRT, APOR, CR Forum, and SCTS, I would like to thank 
the Subcommittee for their continued support of clinical and 
translational research, and clinical research training. The creation of 
the Patient-Centered Outcomes Research Institute and National Center 
for the Advancement of Translational Science in healthcare reform will 
provide a much-needed and greatly appreciated boost to comparative 
effectiveness research (CER) at the Federal level, as well as the 
organization of the new National Center for Translational Science 
(NCATS). As outlined by NIH Director Dr. Francis Collins in his five 
priorities for NIH, the translation of basic science to clinical 
treatment is an integral component of modern biomedical research, and a 
necessity to developing the treatments and cures of tomorrow.
    Today, I would like to address a number of issues that cut to the 
heart of the clinical and translational research community's 
priorities, including the Clinical and Translational Science Awards 
program (CTSA) at NIH, career development for clinical researchers, and 
support for CER at the Federal level.
    As our Nation's investment in biomedical research expands to 
provide more accurate and efficient treatments for patients, we must 
continue to focus on the translation of basic science to clinical 
research. The CTSA program at NIH is quickly becoming an invaluable 
resource in this area, but full funding is needed if we are to truly 
take advantage of the CTSA infrastructure.

Fully Funding and Support for the CTSA Program at NIH
    With its establishment in 2006, the CTSA program at NIH began to 
address the need for increased focus on translational research, or 
research that bridges the gap between basic scientific discoveries and 
the bedside. Originally envisioned as a consortium of 60 academic 
institutions, the CTSA program currently funds 55 academic medical 
research institutions nationwide, and is set to expand to the full 60 
by the end of 2011. The CTSAs have an explicit goal of improving 
healthcare in the United States by transforming the biomedical research 
enterprise to become more effectively translational. Specifically, the 
CTSA program hopes to (1) improve the way biomedical research is 
conducted across the country; (2) reduce the time it takes for 
laboratory discoveries to become treatments for patients; (3) engage 
communities in clinical research efforts; (4) increase training and 
development in the next generation of clinical and translational 
researchers; and (5) accelerate T1 translational science.
    Although the promise of the CTSA program is recognized both 
nationally and internationally, it has suffered from a lack of proper 
funding along with NIH, and the National Center for Research Resources 
(NCRR). In 2006, 16 initial CTSAs were funded, followed by an 
additional 12 in 2007 and 14 in 2008, 4 in 2009, and 9 in 2010. Level-
funding at NIH curtailed the growth of the CTSAs, preventing recipient 
institutions from fully implementing their programs and causing them to 
drastically alter their budgets after research had already begun. If 
budgets continue to decline, the CTSAs risk jeopardizing not only new 
research but also the research begun by first, second, and third 
generation CTSAs. Professional judgments have determined full funding 
to be at a level of $700 million.
    We recognize the difficult economic situation our country is 
currently experiencing, and greatly appreciate the commitment to 
healthcare Congress has demonstrated through stimulus funding, the 
fiscal year 2011 appropriations process, and through healthcare reform. 
The CTSAs are currently funding 55 academic research institutions 
nationwide at a level of $464 million, with the goal of full 
implementation by late 2011. In order to reach full implementation of 
60 CTSAs by late 2011, and to realize the promise of the CTSAs in 
transforming biomedical research to improve its impact on health, it is 
imperative that the CTSA program receive funding at the level of $700 
million in fiscal year 2012. Without full funding, more CTSAs will be 
expected to operate with fewer resources, curtailing their 
transformative promise.
    A major part of the CTSA program's promise lies in its synergy with 
all of NIH's Institutes and Centers (ICs), and the acceleration and 
facilitation of the ICs' impact. The translation of laboratory research 
to clinical treatment directly benefits patients suffering from complex 
diseases and all fields of medicine. The CTSA program has created 
improved translational research capacity and processes from which all 
NIH's ICs stand to benefit. The development of a formal NIH-wide plan 
to link all ICs to the CTSA program would efficiently capitalize on NIH 
investment and the new opportunities presented by the advent of NCATS 
for clinical and translational science.
    It is our recommendation that the Subcommittee support full 
implementation of the CTSA program by providing $700 million in fiscal 
year 2011, and we ask that the Subcommittee support the development of 
a formal NIH-wide plan to integrate the CTSAs to all of NIH's Institues 
and Centers.

Continuing Support for Research Training and Career Development 
        Programs Through the K Awards
    The future of our Nation's biomedical research enterprise relies 
heavily on the maintenance and continued recruitment of promising young 
investigators. Clinical investigators have long been referred to as an 
``endangered species'', as financial barriers push medical students 
away from research. This trend must be arrested if we are to continue 
our pursuits of better treatments and cures for patients.
    The K Awards at NIH and AHRQ provide much-needed support for the 
career development of young investigators. As clinical and 
translational medicine takes on increasing importance, there is a great 
need to grow these programs, not reduce them. Career development grants 
are crucial to the recruitment of promising young investigators, as 
well as to the continuing education of established investigators. 
Reduced commitment to the K-12, K-23, K-24, and K-30 awards would have 
a devastating impact on our pool of highly trained clinical 
researchers. Even with the full implementation of the CTSA program, it 
will be critical for institutions without CTSAs to retain their K-30 
Clinical Research Curriculum Awards, as the K-30s remain a highly cost-
effective method of ensuring quality clinical research training. ACRT, 
APOR, CRF, and SCTS strongly support the ongoing commitment to clinical 
research training through K Awards at NIH and AHRQ.
    We ask the Subcommittee to continue their support for clinical 
research training and career development through the K Awards at NIH 
and AHRQ, in order to promote and encourage investigators working to 
transform biomedical science.

Continuing Support for CER
    Comparative effectiveness research or ``CER'' emerged at the 
forefront of the healthcare reform debate, capturing the interest of 
lawmakers and the American people. CER is the evaluation of the impact 
of different options that are available for treating a given medical 
condition for a particular set of patients. This broad definition can 
include medications, behavioral therapies, and medical devices among 
other interventions, and is an important facet of evidence-based 
medicine. On behalf of ACRT, APOR, CR Forum, and SCTS, I would like to 
thank the Senate for the creation of the Patient-Centered Outcomes 
Research Institute in the Patient Protection and Affordable Care Act, 
as well as the $1.1 billion included for CER at NIH and AHRQ in the 
American Recovery and Reinvestment Act (ARRA). Both AHRQ and NIH have 
long histories of supporting CER, and the standards for research 
instituted by agencies like NIH and AHRQ serve as models for best 
practices worldwide. Not only are these agencies experienced in CER, 
they are universally recognized as impartial and honest brokers of 
information.
    We are pleased that Congress recognizes the importance of these 
activities and believe that the peer review processes and 
infrastructure in place at NIH and AHRQ ensure the highest quality CER. 
We believe that collaboration between the Patient-Centered Outcomes 
Research Institute, NIH, and AHRQ will motivate all Federal CER 
efforts. In addition to support for the CTSA program at NIH, we 
encourage the Subcommittee to provide continued support for Patient-
Centered Health Research at AHRQ.
    Thank you for the opportunity to present the views and 
recommendations of the clinical research training community. On behalf 
of ACRT, APOR, CR Forum, and SCTS, I would be happy to be of assistance 
as the appropriations process moves forward.
                                 ______
                                 
            Prepared Statement of Lions Clubs International

    Lions Clubs International (LCI) its official charity arm, Lions 
Clubs International Foundation (LCIF), have been world leaders in 
serving the vision, hearing, youth development, disability and 
humanitarian needs of millions of people in America and around the 
world, and we work closely with other NGOs. Since LCIF was founded in 
1968, it has awarded more than 9,000 grants, totaling more than $700 
million for service projects ranging from affordable hearing aids to 
diabetes-prevention. All Administrative costs are paid for through 
interest earned on investments, allowing LCIF to maximize out impact on 
the community and demonstrating the motto ``We Serve.''
    Our current 1.35 million-member global membership, representing 
over 206 countries, serves communities through the following ways: 
protect and preserve sight; provide disaster relief; combat disability; 
promote health; and serve youth. The 12,000 individual clubs 
representing over 375,000 individual citizens in North America are 
constantly expanding to add new programs and its volunteers are working 
to bring health services to as many communities as possible.
    LCI represents the largest and most effective NGO service 
organization presence in the world. Awarded and recognized as the #1 
NGO organization for partnership globally by The Financial Times 2007, 
LCI also holds a four star (highest) rating from the 
CharityNavigator.com (an independent review organization).
    Today, we face many complex challenges in the health and education 
sector, from preventable diseases that cause blindness in children to 
bullying, violence, and drug use among school-aged children. I will 
offer a brief summary of recommendations in programs under the general 
jurisdiction of the Labor-HHS-Education Subcommittee.

                       HEALTH AND HUMAN SERVICES

Domestic Sight Services
    Through our network of foundations and programs across America, LCI 
remains the single largest provider of charitable vision care, 
eyeglasses and hearing care services to needy and indigent people. Some 
of our major sight initiatives include:
  --The Sight for Kids Program in collaboration with Johnson and 
        Johnson. The program has provided 6 million vision screenings 
        and eye-health education programs for children.
  --Core 4 Preschool Vision Screening program enables LCI to conduct 
        screenings for children in preschools. The program strives to 
        deliver early detection and treatment for the most common 
        vision disorders that can lead to amblyopia or ``lazy eye.'' 
        LCIF has also provided grants and services to those affected by 
        eye conditions that cannot be improved medically.
  --LCI Clubs sponsored ``United We Serve Health Week'' events around 
        the country. These Health Week efforts, in conjunction with the 
        White House, were effective in bringing awareness to vision 
        health issues.

National Eye Institute--Vision Health Recommendations
    LCI believes that vision loss is a major public health problem that 
increases healthcare costs and reduces productivity and quality of life 
for millions of Americans. LCI played an important role in the creation 
of a free-standing eye institute separate from the then-National 
Institute for Neurological Diseases and Blindness. The National Eye 
Institute Act was signed into law by President Johnson in 1968 as the 
Nation's lead Institute within the NIH to prevent blindness and save 
and restore vision of all Americans. NEI-funded research is resulting 
in treatments and therapies that save vision and restore sight, 
resulting in reduced healthcare costs and higher productivity.
    LCI is concerned that proposals to reduce NIH funding to fiscal 
year 2008 levels would result in NEI funding for fiscal year 2011 at 
$667 million, or a $30 million loss. This would result in 43 fewer 
investigator-initiated research grants to save or restore vision. 
According to the National Association Eye and Vision Research, this 
funding reflects little more than 1 percent of the $68 billion annual 
cost of eye disease and vision impairment in the United States.
    LCI supports fiscal year 2012 NIH funding at $35 billion. This 
funding level would ensure that NIH can maintain the number of multi-
year investigator-initiated research grants, and enables NEI to build 
upon its record of basic clinical/translational research. We also 
support an increase in NEI funding above the 1.8 percent proposed by 
the President.

Vision 2020 USA Partnership
    VISION 2020 USA members, including Lions Clubs International, share 
a commitment to blindness prevention, preserving sight, and ensuring 
that all individuals receive the vision and eye healthcare they need 
and deserve. We are particularly interested in ensuring that Congress 
provides for fiscal year 2012 to support the following programs and 
initiatives:
  --Sustainment of at least $3.23 million for vision and eye health 
        initiatives at the Centers for Disease Control and Prevention 
        (CDC)
  --Support of the Maternal and Child Health Bureau's (MCHB) National 
        Center for Children's Vision and Eye Health
    Vision-related conditions affect people across the lifespan from 
childhood through elder years. Fortunately, in children, many serious 
ocular conditions--such as amblyopia, nearsightedness, farsightedness, 
and astigmatism--are treatable, if diagnosed at an early stage. Yet, 
too many children do not receive vision screenings or follow-up 
comprehensive eye examinations and treatment. More than 80 million 
Americans are at risk for a potentially blinding eye disease such as 
diabetic retinopathy, glaucoma, cataract, and age-related macular 
degeneration. If nothing is done, the number of blind Americans is 
expected to double by 2030.
    With fiscal year 2012 appropriations that maintain current funding 
for vision and eye health efforts of the CDC and increased resources 
for the NIH and NEI, these Federal vision and eye health partners will 
have the resources they need to sustain and expand their respective 
efforts and programs to advance the prevention, diagnosis, and 
treatment of vision problems and eye disease.

Lions Affordable Hearing Aid Project (AHAP)
    LCI is committed to fighting hearing loss as well as blindness. By 
listening to community health organizations across the country, Lions 
Clubs International and their volunteer members became aware of the 
lack of quality and affordable hearing care, especially for people with 
incomes below or at 200 percent of the poverty level. Many people have 
been unable to access other personal and family resources to purchase 
hearing aids, and have been denied State and Federal assistance. 
Fourteen centers have been working to expand output in this area as 
demand continues to rise with a network of mobile health units and 
community based programs that screen more than 2 million people each 
year and provide hearing aids to 14,000 low income patients.
    The statistics are unacceptable: 31 million persons in the United 
States experience some form of hearing loss, yet only 7.3 million opt 
to use hearing aids. According to audiology researchers, the market 
penetration for hearing aids is about 23.6 percent. For every four 
patients that enter a practice needing hearing aids, only one will 
purchase them. The median price tag is $1,900 (2005) for a digital 
hearing aid and prices go as high as $4,000. State Foundations, public 
health departments, and aging departments are in need of assistance in 
this area.
    With the recent 25-30 percent increase in people seeking assistance 
for hearing aids, there is an immediate public imperative to address 
the problem. Federal dollars are stretched, but Federal support in this 
area would have significant public health dividends in difficult 
economic times.

               ``LIONS QUEST''/EDUCATION/HEALTH PROGRAMS

    LCIF's youth development initiatives, known collectively as ``Lions 
Quest,'' have been a prominent part of school-based K-12 programs since 
1984. Fulfilling its mission to teach responsible decisionmaking, 
effective communications and drug prevention, Lions Quest has been 
involved in training more than 350,000 educators and other adults to 
provide services for over 11 million youth in programs covering 43 
States. LCIF currently invests more than $2 million annually in 
supporting life skills training and service learning, and that funding 
is matched by local Lions, schools and other partners.
    Lions Quest curricula incorporate parent and community involvement 
in the development of health and responsible young people in the areas 
of: life skills development (social and emotional learning), character 
education, drug prevention, service learning, and bullying prevention. 
There is even a physical fitness component to this program that can 
assist Federal goals of reducing obesity in school-aged children.
    These Lions Quest programs provide strong evidence of decreased 
drug use, improved responsibility for students own behavior, as well as 
stronger decisionmaking skills and test scores in math and reading. In 
August 2002, Lions Quest received the highest ``Select'' ranking from 
the University of Illinois at Chicago-based Collaborative for Academic, 
Social and Emotional Learning (CASEL) for meeting standards in life 
skills education, evidence of effectiveness and exemplary professional 
development.
    Lions Quest has extensive experience with Federal programs. Lions 
Quest Skills for Adolescence received a ``Promising Program'' rating 
from the U.S. Department of Education Safe and Drug Free Schools and a 
``Model'' rating from the U.S. Department of Health and Human Services 
Substance Abuse and Mental Health Services Administration (SAMHSA).
    Lions Quest also has extensive experience of partnering with State 
service commissions to reach more schools and engage more young people 
in service learning. Successful partnerships have been active in 
Michigan, New York, Oklahoma, Tennessee and West Virginia with progress 
being made in Texas and Ohio.

Social and Emotional Learning Programs
    In addition, Lions Clubs recommends Congressional support for 
social and emotional learning (SEL) programs that stimulate growth 
among schools nationwide through distribution of materials and teacher 
training, and to create opportunities for youth to participate in 
activities that increase their social and emotional skills. Not only do 
SEL curricula contribute to the social and emotional development of 
youth, but they also provide invaluable support to students' school 
success, health, well-being, peer and family relationships, and 
citizenship. While still conducting scientific research and reviewing 
the best available science evidence, over time Lions Clubs and its SEL 
partners have increasingly worked to provide SEL practitioners, 
trainers and school administrators with the guidelines, tools, 
informational resources, policies, training, and support they need to 
improve and expand SEL programming.
    Overall, SEL training programs and curricula have outstanding 
benefits for school-aged children:
  --SEL prevents a variety of problems such as alcohol and drug use, 
        violence, truancy, and bullying. SEL programs for urban youth 
        emphasize the importance of cooperation and teamwork.
  --Positive outcomes increase in students who are involved in social 
        and emotional learning programming by an average of 11 
        percentile points over other students.
  --With greater social and emotional desire to learn and commit to 
        schoolwork, participants benefit from improved attendance, 
        graduation rates, grades, and test scores.

                               CONCLUSION

    Lions Clubs remains committed to domestic activities such as major 
sight initiatives and positive youth development and youth service 
programs. Today we face great health and educational challenges, and 
Lions Clubs International understands the importance not only of 
community service but of instilling those among members of our next 
generation. The success of nonprofit entities such as Lions Clubs show 
what the service sector can do for economic and social development of 
communities that are especially hard hit by the recession, and we are 
committed to forming more effective alliances and partnerships to 
increase our domestic impact.
                                 ______
                                 
          Prepared Statement of the March of Dimes Foundation

    The 3 million volunteers and nearly 1,300 staff members of the 
March of Dimes Foundation appreciate the opportunity to submit Federal 
funding recommendations for fiscal year 2012.
    The March of Dimes was founded in 1938 by President Franklin D. 
Roosevelt to support research to prevent polio. Today, the Foundation 
aims to improve the health of women, infants and children by preventing 
birth defects, premature birth, and infant mortality through scientific 
research, community services, education and advocacy.
    The March of Dimes is a unique partnership of scientists, 
clinicians, parents, members of the business community and other 
volunteers affiliated with 51 chapters and 213 divisions in every 
State, the District of Columbia and Puerto Rico. Additionally, in 1992, 
the March of Dimes extended its mission globally and now operates 
through partnerships in 33 countries on four continents.
    The March of Dimes is aware that the current fiscal environment 
necessitates restrictions on Federal funding increases and program 
expansions. However, it is our hope that these budgetary limitations 
will not put at risk our vital mission on which affected families rely. 
Therefore, the March of Dimes recommends the following funding levels 
for programs and initiatives that are essential investments in maternal 
and child health.

                             PRETERM BIRTH

    In 2008, one in eight infants was born preterm (before 37 weeks). 
Preterm birth is the leading cause of newborn mortality (death within 
the first month) and the second leading cause of infant mortality 
(death within the first year). In 2009, the National Center for Health 
Statistics (NCHS) reported that the primary reason for the higher 
infant mortality rate in the United States compared to other high 
resource countries is the greater percentage of preterm births--12.4 
percent in the United States compared to 5.5 percent in Ireland. But 
survival alone does not necessarily result in good health for these 
infants. Among those who survive, one in five faces health problems 
that persist for life. Prematurity-related conditions include cerebral 
palsy, intellectual disabilities, chronic lung disease, blindness and 
deafness. A comprehensive report published by the Institute of Medicine 
in 2007 estimated that preterm births cost the United States more than 
$26 billion in 2005 alone, with costs climbing each year.
    As a result of legislation enacted in 2006 (Public Law 109-450), 
the U.S. Surgeon General sponsored a conference in 2008 of more than 
200 of the country's foremost experts that convened for 2 days to 
develop a strategy to address the costly and serious problems of 
preterm birth. The meeting resulted in an action plan that included 
several overarching themes and recommendations. Among the most 
important were the enhancement of biomedical and epidemiological 
research and strengthening our Nation's data resources that document 
the health status of pregnant women and infants. The Foundation's 
funding requests regarding preterm birth are based on these 
recommendations.

National Institutes of Health
    The March of Dimes commends members of the Subcommittee for their 
continuing support of the National Children's Study (NCS). For fiscal 
year 2012, the Foundation supports the President's funding 
recommendation of $193.9 million for the NCS and we urge the 
Subcommittee to support this recommendation as well. The NCS is the 
largest and most comprehensive study of children's health and 
development ever planned in the United States. The 37 ``vanguard 
centers'' have recruited nearly 3,000 participants thus far and more 
than 650 children have been born into the study. When fully 
implemented, this study will follow a representative sample of 100,000 
children in the United States from before birth until age 21. The data 
from this important study will help scientists at universities and 
research organizations across the country and around the world identify 
precursors of diseases and develop new strategies for treatment and 
prevention. Specifically, the first data generated by the NCS will 
provide information concerning disorders of birth and infancy, 
including preterm birth and its health consequences. The Foundation 
remains committed to supporting a well-designed NCS that promotes 
research of the highest quality and asks the Subcommittee to do the 
same.

Eunice Kennedy Shriver National Institute of Child Health and Human 
        Development (NICHD)
    For fiscal year 2012, the March of Dimes recommends at least $1.35 
billion for the NICHD. This $30 million increase compared to the fiscal 
year 2011 enacted level will enable NICHD to expand its support for 
preterm birth-related research through the Maternal-Fetal Medicine 
Units, Neonatal Research Network, and Genomic and Proteomic Network for 
Preterm Birth Research. In addition, it will allow for planning grants 
to begin establishing a network of integrated trans-disciplinary 
research centers, as recommended by the Institute of Medicine report 
and the aforementioned 2008 Surgeon General's Conference. The causes of 
preterm birth are multi-faceted and necessitate a coordinated and 
collaborative approach integrating many disciplines. These trans-
disciplinary centers would serve as a national resource for 
investigators to design and share new research approaches and 
strategies to comprehensively address preterm birth.

Centers for Disease Control and Prevention--Preterm Birth
    The National Center for Chronic Disease Prevention and Health 
Promotion's Safe Motherhood Program works to promote optimal 
reproductive and infant health. In 2009, CDC created a robust research 
agenda to prevent preterm birth by improving derivation of accurate 
data to understand preterm birth; developing, implementing and 
evaluating prevention methods; and conducting targeted etiologic and 
epidemiologic studies. For fiscal year 2012, the March of Dimes 
recommends a $6 million increase in the CDC's preterm birth budget 
compared to the fiscal year 2011 enacted level (for a total of $8 
million) to strengthen our national data systems and to expand preterm 
birth research as authorized by the PREEMIE Act (Public Law 109-450).

Centers for Disease Control and Prevention--National Center for Health 
        Statistics
    The National Center for Health Statistics' (NCHS) vital statistics 
program collects birth and death data that are used to monitor the 
Nation's health status, set research and intervention priorities, and 
evaluate the effectiveness of existing health programs. It is 
imperative that data collected by NCHS be comprehensive and timely. 
Unfortunately, one-quarter of the States and territories lack the 
capacity to use the most recent (2003) birth certificate format and 
only two-thirds have adopted the most recent (2003) death certificate 
format. The March of Dimes supports the President's recommendation to 
provide $162 million for the NCHS in fiscal year 2012 and urges the 
Subcommittee to support this recommendation in both the bill language 
and in the accompanying committee report as well.

Health Resources and Services Administration--Healthy Start
    The Maternal and Child Health Bureau's Healthy Start Program is a 
collection of community-based projects focused on reducing infant 
mortality, low birth weight, and racial disparities in perinatal 
outcomes among high-risk populations by strengthening local health 
systems and resources. Communities with Healthy Start programs have 
seen significant improvements in perinatal health outcomes. The March 
of Dimes supports the President's recommendation to provide $105 
million for Healthy Start in fiscal year 2012 and urges the 
Subcommittee to support this recommendation as well.

                             BIRTH DEFECTS

    According to the Centers for Disease Control and Prevention, an 
estimated 120,000 infants in the United States are born with major 
structural birth defects each year. Genetic or environmental factors, 
or a combination of both, can cause various birth defects; yet the 
causes of more than 70 percent are unknown. Many birth defects result 
in childhood and adult disability that require costly, lifelong 
treatments and special care. Additional Federal resources are sorely 
needed to support research to discover causes of all birth defects and 
for the development of effective interventions to prevent or at least 
reduce their prevalence.

CDC's National Center on Birth Defects and Developmental Disabilities 
        (NCBDDD)
    The NCBDDD conducts programs to protect and improve the health of 
children by preventing birth defects and developmental disabilities and 
by promoting optimal development and wellness among children with 
disabilities. For fiscal year 2012, the March of Dimes requests at 
least $144 million for NCBDDD. In addition, we encourage the 
Subcommittee to allocate an additional $5 million specifically to 
support birth defects research and surveillance and an additional $2 
million specifically to support folic acid education. A source for this 
$7 million in additional funding could be the Prevention and Public 
Health Fund. Investing in the work of the NCBDDD will promote wellness 
and preventive strategies aimed at children, reduce health disparities, 
and enable CDC to more effectively support transition to adulthood for 
children with lifelong disabilities.
    Allocating an additional $5 million to support genetic analysis of 
the research samples already obtained through the NCBDDD's National 
Birth Defects Prevention Study--the largest case-controlled study of 
birth defects ever conducted--would be a sound investment. This 
analysis would enable researchers to begin the work needed to translate 
their findings into effective birth defects intervention and treatment 
programs. The study has already yielded rich results. In 2009 alone, 29 
articles regarding risk factors for birth defects--for example maternal 
diabetes, obesity, use of certain medications, and smoking--were 
published in medical and health journals. In addition, this investment 
would make possible the continuation of NCBDDD's State-based birth 
defects surveillance grant program. Surveillance is the backbone of the 
public health network and its support should be a Subcommittee 
priority. Because of the current fiscal situation facing many States, 
funding for State-based surveillance systems is in jeopardy and 
requires increased Federal support to ensure the survival of essential 
birth defects surveillance programs.
    Allocating an additional $2 million to NCBDDD will allow the CDC to 
expand its effective national education campaign aimed at reducing the 
incidence of spina bifida and anencephaly by promoting consumption of 
folic acid. Since the institution of fortification of U.S. enriched 
grain products with folic acid, the rate of neural tube defects has 
decreased by 26 percent. However, CDC estimates that up to 70 percent 
of neural tube defects could be prevented if all women of childbearing 
age consumed 400 micrograms of folic acid daily. To raise awareness 
among women of childbearing age and thereby increase the use of folic 
acid, NCBDDD's national education campaign must be expanded.
    The March of Dimes is very concerned about the Administration's 
recommendation that the NCBDDD's budget lines be consolidated into 
three categories: Child Health and Development, Health and Development 
for People with Disabilities, and Public Health Approach to Blood 
Disorders. As proposed, the Birth Defects and Developmental 
Disabilities budget line would be renamed Child Health and Development 
and existing sub-categories would be eliminated (e.g. Birth Defects, 
Fetal Alcohol Syndrome, Folic Acid). While the March of Dimes 
recognizes and supports program flexibility for CDC management, we are 
concerned that the title ``Child Health and Development'' fails to make 
clear the overall purpose of the programs covered, masking the urgency 
and importance of the need for ongoing support from Congress. We urge 
the Subcommittee to modify the Administration's proposal by retaining 
the term ``Birth Defects'' as a sub-line with the category ``Child 
Health and Development.'' We believe this adjustment is needed to 
ensure that the content of these essential programs to reduce birth 
defects is clearly articulated.

                           NEWBORN SCREENING

    Newborn screening is a vital public health activity used to 
identify genetic, metabolic, hormonal and functional disorders in 
newborns so that treatment can be provided. Screening detects 
conditions in newborns that, if left untreated, can cause disability, 
developmental delays, intellectual disabilities, serious illnesses or 
even death. If diagnosed early, many of these disorders can be 
successfully managed. Across the Nation, State and local governments 
are experiencing significant budget shortfalls. Because of this fiscal 
pressure, discontinuing screening for certain conditions or postponing 
the purchase of necessary technology is a serious threat that, if left 
unresolved, will put infants at risk of permanent disability or even 
death. For fiscal year 2012, an additional $5 million for HRSA's 
heritable disorders program, as authorized by the Newborn Screening 
Saves Lives Act (Public Law 110-204), is necessary to increase support 
for State efforts to improve screening, enhance counseling, and 
increase capacity to reach and educate health professionals and parents 
about newborn screening programs and follow-up services.

                                 OTHER

Agency for Health Research and Quality (AHRQ)
    AHRQ supports research to improve healthcare quality, reduce costs 
and broaden access to essential health services. For fiscal year 2012, 
the March of Dimes recommends $405 million total for AHRQ to continue 
its important work, including the development and dissemination of 
maternal and pediatric quality measures and comparative effectiveness 
research. Moreover, with the historic enactment of health reform last 
year, AHRQ's research is needed more than ever to build the evidence-
base that will be used to improve health and healthcare coverage.

Health Resources and Services Administration--Maternal and Child Health 
        Block Grant
    Title V of the Social Security Act, the Maternal and Child Health 
Block Grant, supports a growing number of community-based programs 
(e.g. home visiting, respite care for children with special healthcare 
needs, and supplementary services for pregnant women and children 
enrolled in Medicaid and the State Children's Health Insurance 
Program), but Federal support has not kept pace with increased 
enrollment and demand for these services. For fiscal year 2012, the 
March of Dimes recommends $700 million for the Maternal and Child 
Health Block Grant--$44 million more than the fiscal year 2011 enacted 
level.

CDC National Immunization Program
    Infants are particularly vulnerable to infectious diseases, which 
is why it is critical to protect them through immunization. In 2008, 
the national estimated immunization coverage among children 19-35 
months of age was 76 percent. The CDC's National Immunization Program 
supports States, communities and territorial public health agencies 
through grants to reduce the incidence of disability and death 
resulting from vaccine-preventable diseases. The March of Dimes is 
requesting $685 million in fiscal year 2012 for the National 
Immunization Program.

CDC Polio Eradication
    Since its creation as an organization dedicated to research and 
services related to polio, the March of Dimes has been committed to the 
eradication of this disabling disease. We support the Administration's 
Global Polio Eradication Strategic Plan for the remaining endemic 
countries, and urge the Subcommittee to approve the President's request 
for $112 million in fiscal year 2012 to support CDC's Polio Eradication 
Program.

                                CLOSING

    Thank you for the opportunity to testify on the federally supported 
programs of highest priority to the March of Dimes. The Foundation's 
volunteers and staff in every State, the District of Columbia and 
Puerto Rico look forward to working with Members of this Subcommittee 
to secure the resources needed to improve the health of the Nation's 
mothers, infants and children.

       MARCH OF DIMES FISCAL YEAR 2012 FEDERAL FUNDING PRIORITIES
------------------------------------------------------------------------
                                            Fiscal year
                                           2011 funding
                                           (w/prevention  March of Dimes
                 Program                    fund add-on     fiscal year
                                               where       2012 request
                                            applicable)
------------------------------------------------------------------------
National Institutes of Health (Total)...        $30.77 B           $35 B
    National Children's Study...........        191.05 M         193.9 M
    Common Fund.........................        543.02 M         556.9 M
    National Institute of Child Health            1.32 B          1.35 B
     and Human Development..............
    National Human Genome Research               511.5 M         524.8 M
     Institute..........................
    National Center on Minority Health          209.71 M         214.6 M
     and Disparities....................
Centers for Disease Control and                   6.26 B           7.7 B
 Prevention (Total).....................
    Birth Defects Research &                      20.3 M          25.3 M
     Surveillance.......................
    Folic Acid Campaign.................           2.8 M           4.8 M
    Immunization........................        525.57 M           685 M
    Polio Eradication...................         101.6 M           112 M
    Preterm Birth (Safe Motherhood).....          1.97 M             8 M
    National Center for Health                  168.68 M           162 M
     Statistics.........................
Health Resources and Services                     6.29 B          7.65 B
 Administration (Total).................
    Maternal and Child Health Block             656.32 M           700 M
     Grant..............................
    Newborn Screening...................          9.95 M            15 M
    Newborn Hearing Screening...........         18.88 M            19 M
    Community Health Centers............          2.48 B          2.56 B
    Healthy Start.......................        104.36 M           105 M
Agency for Healthcare Research and              392.05 M           405 M
 Quality (Total)........................
------------------------------------------------------------------------

                                 ______
                                 
    Prepared Statement of the Meals On Wheels Association of America

    Thank you for the opportunity to present testimony to your 
subcommittee concerning fiscal year 2012 funding for Senior Nutrition 
Programs administered by the Administration on Aging (AoA) within the 
U.S. Department of Health and Human Services (HHS). I am Enid A. 
Borden, President and CEO of the Meals On Wheels Association of America 
(MOWAA), the oldest and largest national organization representing 
local, community-based Senior Nutrition Programs--both congregate and 
home-delivered (commonly referred to as Meals On Wheels)--and the only 
national organization and network dedicated solely to ending senior 
hunger in America. I speak on behalf not only of that national network 
of Senior Nutrition Programs but also for the hundreds of thousands of 
seniors in communities across this Nation who depend upon those 
programs for access to nutritious meals. I speak for them because many 
are behind closed doors, invisible and without a voice of their own. 
But it is not only for those particular seniors that I bring our 
concerns before you. I also speak for those other seniors who like 
their peers need meals, but who do not receive them, not because we 
lack the infrastructure and expertise to serve them but because our 
Senior Nutrition Programs lack the adequate financial resources to 
provide them. At MOWAA we call those individuals the hidden hungry, and 
we call the situation that lets them remain so a national tragedy and 
morally unacceptable circumstance in the richest Nation on earth. 
Those, I realize, are strong words. But they are also carefully chosen 
and in no way hyperbolic. Later I will attempt to put impartial numbers 
to those words, and then some humanity.
    But before I do that, let me stop and offer MOWAA's sincere thanks 
to this Subcommittee, and in particular to you, Mr. Chairman, for your 
longstanding support of Senior Nutrition Programs as well as for your 
leadership in ensuring that these programs received increases in 
appropriations the past several fiscal years. We are quite mindful that 
the chairman's mark of the Senate version of the fiscal year 2011 bill, 
crafted by this Subcommittee and approved by the full Committee, 
contained increases of $38 million above the fiscal year 2010 level for 
these programs. We are grateful for those actions at the same time that 
we are extremely disheartened that the final fiscal year 2011 
continuing resolution did not provide for any increases.
    Today Senior Nutrition Programs are struggling to maintain 
services; many are unable to do so and therefore are forced to reduce 
services. That is today, and as prices of gasoline and food continue to 
climb, more and more programs will find themselves in that predicament. 
More starkly, homebound seniors who cannot shop and prepare meals for 
themselves, who have no other access to nutritious food, will be forced 
to go without meals. The consequences of that are something for which 
we will all pay. I use the word ``pay'' both literally and 
figuratively. If we leave frail seniors languishing in their homes 
without proper nutrition, their health will inevitably fail. If they 
survive, they will end up hospitalized or institutionalized at a cost 
to the Government that far exceeds the cost of providing adequate funds 
to Senior Nutrition Programs to enable them to furnish seniors meals in 
the homes and other settings. Senior Nutrition Programs can provide 
meals for nearly 1 year for roughly the cost of one Medicare day in the 
hospital. We can quantify the savings that can accrue when seniors 
receive nutritious meals immediately following a hospital stay for an 
acute condition.
    Our evidence in this regard is based on 2006 data (in 2006 dollars) 
from a special project that MOWAA carried out in partnership with a 
major national insurance company. The findings were presented in 
December 2006 in Washington at a Leadership Summit sponsored by AoA. 
Through the special partnership, Medicare Advantage patients in select 
markets across the United States were offered without cost to 
themselves 10 meals, delivered by local Meals On Wheels programs, 
immediately following hospital discharge. Participation was purely 
voluntary. Individuals who chose to receive the service were typically 
sicker than those who declined it. Despite this, the insurance data 
show that those seniors who received meals had first month post-
discharge healthcare costs on average $1,061 lower than those who did 
not. The beneficial affects were also lasting. The third month after 
receiving those meals, the average per person savings were $316. 
Individuals who did not receive meals had both more inpatient hospital 
days and more inpatient admissions per 1,000 than those who did receive 
meals. I cannot calculate the savings had meals been provided to every 
senior who was discharged from the hospital, or even to half of them, 
but I know that it is significant. According to PricewaterhouseCoopers, 
preventable hospital readmissions cost the Nation approximately $25 
billion each year. One out of every five Medicare patients discharged 
from a hospital is readmitted within 30 days at an annual cost to 
Medicare of $17 billion. Given these facts, providing adequate funds 
for Senior Nutrition Programs can only be regarded as a strong and 
demonstrable value proposition. Beyond that, from a human and humane 
perspective, and from the perspective of the value of individuals and 
their liberty--principals on which this Nation was founded and for 
which it still stands--it is the only acceptable and right thing to do.
    As you are well aware, however, the President's fiscal year 2012 
budget proposes continued funding for these programs for another fiscal 
year at the fiscal year 2010 level. If that occurs it will not only be 
costly on the other side of the Federal ledger but it will also be 
nothing less than disastrous for seniors who are already vulnerable. So 
we appeal to this Subcommittee to provide substantial increases above 
the President's request for Title III C1 (Congregate Meals), Title III 
C2 (Home-Delivered Meals) and Nutrition Services Incentive Program 
(NSIP). We ask knowing that the fiscal context in which you are working 
for this fiscal year 2012 appropriation bill is extraordinarily 
challenging, and we ask knowing that providing increases to our 
programs means reducing or eliminating others. But we also ask knowing 
that without such increases vulnerable seniors will go hungry.
    One of the great strengths of community-based Senior Nutrition 
Programs is that they are strong public-private partnerships that rely 
on the community to contribute significant financial support to augment 
those Federal funds furnished through this Labor, Health and Human 
Services, Education and Related Agencies appropriation bill. A host of 
partners give generously, and without them Senior Nutrition Programs 
could not operate. But without a strong Federal commitment in the form 
of adequate appropriations most Senior Nutrition Programs could not 
leverage these other funds effectively. In fiscal year 2009, the last 
year for which AoA has data, only 28.4 percent of the expenditures for 
Title III C2 home-delivered meals were Title III dollars. The remainder 
was from other sources. For Title III C1 congregate meals the Title III 
share was 41 percent. Funds are not the only invaluable resources that 
communities contribute to Senior Nutrition Programs. The programs 
typically rely on volunteers to perform many of the critical functions 
of the operation, such as meal delivery. We are proud to claim what we 
believe to be the largest volunteer army in the world, numbering in the 
neighborhood of 1.7 million individuals each year. Despite all of these 
assets Senior Nutrition Programs will fail to reach the most vulnerable 
elderly in their communities without adequate Federal financial 
support.
    Simply put, Senior Nutrition Programs are lifelines to those men 
and women they serve. Regrettably they are reaching only a small 
proportion of the population needing services. A February 2011 
Government Accountability Office (GAO) report prepared for Senator Herb 
Kohl paints a grim picture. The GAO (GAO-11-237) found that ``. . . 
approximately 9 percent of an estimated 17.6 million low-income older 
adults received meal services like those provided by Title III 
programs. However, many more older adults likely needed services, but 
did not receive them . . . For instance, an estimated 19 percent of 
low-income older adults were food insecure and about 90 percent of 
these individuals did not receive any meal services [emphasis added]. 
Similarly approximately 17 percent of those with low incomes had two or 
more types of difficulties with daily activities that could make it 
difficult to obtain or prepare food. An estimated 83 percent of those 
individuals with such difficulties did not receive meal services 
[emphasis added].
    As dire as this report is, we wish to point out that it undercounts 
the percentage of the population needing services that fail to receive 
them. This is due to the fact that the GAO confined their investigation 
to low-income seniors. Title III and NSIP funded meal programs are 
explicitly prohibited by the Older Americans Act (OAA) from means-
testing and many individuals with incomes above the Federal poverty 
line receive services based on their physical condition, homebound 
status, social or geographic isolation and other factors that create an 
inability to access nutritious food from any other source. If you 
factor individuals meeting these criteria into the equation, the 
percentage of seniors needing meal services but who do not get them 
will certainly increase. Surely our Federal and national commitment to 
our most vulnerable elders should reach more than 10 percent of those 
needing meals.
    Given the current economic situation and the exponential growth of 
the aging population, if funding remains static it is unavoidable that 
the percentage of people needing services to whom Senior Nutrition 
Programs will be able to provide services will erode substantially. 
Sky-rocketing food and fuel prices are having a deleterious impact on 
programs that are dependent upon these two items. MOWAA has determined 
that every 1 cent increase in the price of gasoline results in a 
$250,000 increase in the cost of providing services. Gasoline prices 
for the week of May 9, 2011 were $1.06 higher than for the same week of 
2010. This means that costs nationally of delivering services based on 
this factor alone increased by $26,500,000. It is true that some, but 
not all, of these costs are borne by volunteers who donate the use of 
their vehicles, but as gas prices increase many of these individuals, a 
number of whom are older and on fixed incomes themselves, are either 
requesting reimbursement from programs or suspending their volunteer 
activities. When this happens, Senior Nutrition Programs often must 
bear the costs. The point is that factors far outside the control of 
Senior Nutrition Programs are increasing their costs; so flat funding 
will translate into a significant reduction or curtailment of nutrition 
services to our most vulnerable seniors.
    Last year, MOWAA engaged an expert actuary to examine Federal 
funding for Senior Nutrition Programs for the past two decades. Looking 
at population data and appropriations, he determined a per capita 
commitment to seniors and Senior Nutrition Programs in fiscal year 
1992. Then, taking into account the growth in the ages 60+ and the 85+ 
population and the changes in the CPI-U, he projected what the fiscal 
year 2012 total appropriation for Title III C1, Title III C2 and NSIP 
would be in fiscal year 2011 if that per capita commitment were 
maintained. The current year (fiscal year 2011) figure would be 
$1,275,571,000 based on the 60+ population and $1,743,182,000 based on 
the 85+ population. We are not asking for either of those funding 
levels, the latter of which be more than double the current year 
appropriation of $819,474,000 for the three line items combined. But we 
do believe that this provides a reasonable context in which to make 
decisions. Surely the senior citizens of today are as valuable and 
deserving of life sustaining meals as those seniors of two decades ago 
were. Meals are not dispensable. To live and live healthily people must 
eat. To ensure that frail seniors do, Congress must increase funding 
for Senior Nutrition Programs. We respectfully request that increases 
of no less than your Subcommittee originally approved for fiscal year 
2011, that is of at least $38 million for Title III C combined with a 
commensurate increase for NSIP, should be the baseline.
    In closing I would like to thank this Subcommittee again for its 
longstanding support, acknowledge that MOWAA understands the difficulty 
of your task and the boldness of our ``ask'' in this difficult budget 
year. We mean no disrespect. But part of our role, in addition to 
supporting our member Senior Nutrition Programs in providing meals, is 
to call attention to the need to afford those older adults, who 
contributed so much to this Nation, the respect that they are due. It 
is in that spirit that we make our request. As you consider it and as 
you make the difficult funding decisions that the Subcommittee must, we 
respectfully request that you think of Senior Nutrition Programs not 
simply as one of the hundreds of programs supported through the Labor, 
Health and Human Services, Education and Related Agencies appropriation 
bill, but instead as an essential service. For what is more essential 
to the sustaining of life than nutritious food and hydration? Those are 
the fundamental services Senior Nutrition Programs deliver.
    Again, we thank you for the opportunity to present this testimony 
to you.
                                 ______
                                 
 Prepared Statement of the Medical Library Association and Association 
                 of Academic Health Sciences Libraries

            SUMMARY OF RECOMMENDATIONS FOR FISCAL YEAR 2011

    Continue the commitment to the National Library of Medicine (NLM) 
by increasing funding levels to $402 million for fiscal year 2012.
    Continue to support the medical library community's role in NLM's 
outreach, telemedicine, disaster preparedness and health information 
technology initiatives and the implementation of healthcare reform.

                              INTRODUCTION

    The Medical Library Association (MLA) and the Association of 
Academic Health Sciences Libraries (AAHSL) thank the Subcommittee for 
the opportunity to submit testimony regarding fiscal year 2012 
appropriations for the National Library of Medicine (NLM), a division 
of the National Institutes of Health. Working in partnership with other 
parts of the NIH and other Federal agencies, NLM is the key link in the 
chain that translates biomedical research into practice, making the 
results of research readily available worldwide.
    MLA is a nonprofit, educational organization with approximately 
4,000 health sciences information professional members worldwide. 
Founded in 1898, MLA provides lifelong educational opportunities, 
supports a knowledge base of health information research, and works 
with a global network of partners to promote the importance of quality 
information for improved health to the healthcare community and the 
public. AAHSL is composed of the directors of 123 libraries of 
accredited U.S. and Canadian medical schools, and 26 associate members. 
AAHSL's goals are to promote excellence in academic health sciences 
libraries and to ensure that the next generation of health 
practitioners is trained in information seeking skills that enhance the 
quality of information delivery. Together, MLA and AAHSL address health 
information issues and legislative matters of importance to both our 
organizations.

           THE IMPORTANCE OF ANNUAL FUNDING INCREASES FOR NLM

    We are pleased that the fiscal year 2010 appropriations package 
contained funding increases for NIH and NLM which
    bolstered their baseline budgets, and that the proposed fiscal year 
2011 budget included increases. In today's challenging budget 
environment, we recognize the difficult decisions Congress faces as it 
seeks to improve our Nation's fiscal stability. We appreciate and thank 
the Subcommittee for its commitment to strengthening the NIH and NLM 
budget.
    MLA and AAHSL believe that increased funding for NLM is essential 
to maximize the return on the investment in research conducted by the 
NIH and other organizations. By collecting, organizing, and making the 
results of biomedical information more accessible to other researchers, 
clinicians, business innovators, and the public, NLM enables such 
information be used more efficiently and effectively to drive 
innovation and improve the national's health. This role has become more 
important as the volume of biomedical data produced each year expands 
exponentially driven by the influx of data from high-throughput genome 
sequencing systems and genome-wide association studies. NLM plays a 
critical role in accelerating nationwide deployment of health 
information technology, including electronic health records (EHRs) by 
leading the development, maintenance and dissemination of key standards 
for health data interchange that are now required of certified EHRs. 
NLM also contributes to Congressional priorities related to drug safety 
through its efforts to expand its clinical trial registry and results 
database in response to recent legislation requirements, and to the 
nation's ability to prepare for and respond to disasters.
    We encourage the Subcommittee to continue to provide meaningful 
annual increases for NLM in the coming years and recommend an increase 
to $402 million for fiscal year 2012. Recovery funding and the fiscal 
year 2010 budget increases stimulated the economy and biomedical 
research. For NLM, Recovery Act funding allowed timely and much needed 
increases in support of leading edge research and training in 
biomedical informatics--the kinds of programs that will influence 
future health information technology developments. In fiscal year 2012 
and beyond, it is critical to augment NLM's baseline budget to 
accommodate expansion of its information resources, services, and 
programs which must collect, organize, and make accessible rapidly 
expanding volumes of biomedical knowledge.

Growing Demand for NLM's Basic Services
    The National Library of Medicine is the world's largest biomedical 
library and the source of trusted health information. Every day, 
medical librarians across the Nation assist clinicians, students, 
researchers, and the public in accessing the information they need to 
save lives and improve health. NLM delivers more than a trillion bytes 
of data to millions of users every day to help researchers advance 
scientific discovery and accelerate its translation into new therapies; 
provides health practitioners with information that improves medical 
care and lowers its costs; and gives the public access to resources and 
tools that promote wellness and disease prevention. Without NLM, our 
Nation's medical libraries would be unable to provide the quality 
information services that our Nation's health professionals, educators, 
researchers and patients have come to expect.
    NLM's data repositories and online integrated services such as such 
as GenBank, PubMed, and PubMed Central are helping to revolutionize 
medicine and advance science to the next important era which includes 
individualized medicine based on an individual's unique genetic 
differences. GenBank, with its international partners, has become the 
definitive source of gene sequence information and organizing, along 
with NLM's other genetic databases, the volumes of data that are needed 
to detect associations between genes and disease and translate that 
knowledge into better diagnosis and treatments. PubMed, with more than 
20 million citations to the biomedical literature, is the world's most 
heavily used source of information about published results of 
biomedical research. Approximately 700,000 new citations are added each 
year, and it is searched more than 2.2 million times each day. PubMed 
Central, NLM's freely accessible digital repository of biomedical 
journal articles, has become a valuable resource for researchers, 
clinicians, consumers and librarians. On a typical weekday more than 
420,000 users download 740,000 full-text articles. We commend the 
Appropriations Committee for its support of the NIH public access 
policy which requires all NIH-funded researchers to deposit their 
final, peer-reviewed manuscripts in NLM's PubMed Central database 
within 12 months of publication. This highly beneficial policy is 
improving access to timely and relevant scientific information, 
stimulating discovery, informing clinical care, and improving public 
health literacy. We ask the Committee to remain a strong voice in 
support of the NIH policy and to support the extension of public access 
policies to other Federal science and education agencies because this 
would bring the benefits of public access to other research disciplines 
and because research in other fields is increasingly relevant to 
biomedicine.
    As the world's largest and most comprehensive medical library, 
NLM's traditional print and electronic collections continue to steadily 
increase each year. These collections stand at more than 11.4 million 
items--books, journals, technical reports, manuscripts, microfilms, 
photographs and images. By selecting, organizing and ensuring permanent 
access to health science information in all formats, NLM is ensuring 
the availability of this information for future generations, making it 
accessible to all Americans, irrespective of geography or ability to 
pay, and ensuring that each citizen can make the best, most informed 
decisions about their healthcare.
    Clearly, NLM is a national treasure which is making a difference in 
patients' lives and healthcare outcomes. For example, an MLA member 
shared that recently a surgeon came to the library 12 minutes before 
surgery to find an article on the complex procedure he was about to 
perform. By searching NLM's PubMed/Medline database, the librarian 
found illustrations that guided the surgeon during surgery enabling him 
to save the man's foot.
     encourage nlm partnerships with the medical library community

Outreach and Education
    NLM's outreach programs are of interest to both MLA and AAHSL. 
These activities are designed to educate medical librarians, health 
professionals and the general public about NLM's services and to train 
them in the most effective use of these services. NLM has taken a 
leadership role in promoting educational outreach aimed at public 
libraries, secondary schools, senior centers and other consumer-based 
settings. Furthermore, NLM's emphasis on outreach to underserved 
populations assists the effort to reduce health disparities among large 
sections of the American public. One example of NLM's leadership is the 
``Partners in Information Access'' program which is designed to improve 
the access of local public health officials to information needed to 
prevent, identify and respond to public health threats. With nearly 
6,000 members in communities across the country, the National Network 
of Libraries of Medicine (NNLM) is well positioned to ensure that every 
public health worker has electronic health information services that 
can protect the public's health.
    NLM is also at the forefront of efforts to provide consumers with 
trusted, reliable health information. Its MedlinePlus system provides 
consumer-friendly information on more than 80 topics in English and 
Spanish and has become a top destination for those seeking information 
on the Internet, attracting more than half-million visitors per day. 
Librarians at Louisiana State University's Health Sciences Center 
Medical Library in Shreveport provide in-person support for patients 
and the public seeking health information and have also established 
``healthelinks.org'', a website with information on diseases and 
conditions, medicines, procedures and surgical operations, lab tests, 
and more from NLM's MedlinePlus system. With help from Congress, NLM, 
NIH and the Friends of NLM launched NIH MedlinePlus Magazine in 
September 2006. This quarterly publication is distributed in doctors' 
waiting rooms and provides the public will access to high-quality, 
easily understood health information. Its readership is now estimated 
at 5 million people nationwide and is poised to grow thanks to the 
launch of a Spanish/English version, NIH MedlinePlus Salud, in January 
2009. NLM also continues to work with medical librarians and health 
professionals to encourage doctors to provide MedlinePlus ``information 
prescriptions'' to their patients, directing them to relevant 
information on NLM's consumer-oriented MedlinePlus information system. 
This initiative also encourages genetics counselors to prescribe the 
use of NLM's Genetic Home Reference website. Using NLM's new 
MedlinePlus Connect utility, a growing number of clinical care 
organizations are implementing specific links from their electronic 
health record systems to relevant patient education materials in 
MedlinePlus, enabling them to achieve an emerging criterion for 
achieving meaningful use of health information technology. MedinePlus 
Connect was recently named a winner in the HHS Innovates competition.
    NLM also provides access to information about clinical research for 
a wide range of diseases. Launched in February 2000, ClinicalTrials.gov 
contains registration information for some 105,000 trials. The database 
is a free and invaluable resource for patients and families who are 
interested in participating in cutting-edge treatments for serious 
illnesses. In recent years, it has become more valuable for patients, 
clinicians, researchers, and others, including librarians, who help 
patients identify relevant trials and provide clinicians and 
researchers with access to information about specific products such as 
new drugs under study. In response to the Food and Drug Administration 
Amendments Act of 2007, NLM has expanded ClinicalTrials.gov to accept 
summary results of clinical trials, including adverse events. Such 
information is not available systematically from other publicly 
accessible resources, and all too often is not published in the 
scientific literature. The system currently contains results for more 
than 3,200 trials, and the Library receives approximately 50 new 
results submission each week. More than 50,000 users visit the site ach 
day.
    MLA and AAHSL applaud the success of NLM's outreach initiatives, 
particularly those initiatives that reach out to the medical libraries 
and health consumers. We ask the Committee to encourage NLM to continue 
to coordinate its outreach activities with the medical library 
community in fiscal year 2012.

Emergency Preparedness and Response
    NLM has a long history of programs and resources that support 
disaster preparedness and response activities. Building on its 
experiences in responding to Hurricane Katrina, NLM established a 
Disaster Information Management Research Center to collect and organize 
disaster-related health information, ensure effective use of libraries 
and librarians in disaster planning and response, and develop 
information services to assist responders. MLA and NLM are developing a 
Disaster Information Specialization (DIS) program aimed at building the 
capacity of librarians and other interested professionals to provide 
disaster-related health information outreach. Earlier this year, NLM 
convened a Disaster Information Outreach Symposium for information 
professionals across the country. This highly successful program 
addressed strategies for assessing and meeting the information needs of 
disaster managers and responders; communications, social media and 
disasters; using library facilities to support disaster needs during 
response and recovery, workforce development; disaster resources for 
librarians; and tools for providing disaster health information. 
Working with libraries and American publishers, NLM has established an 
Emergency Access Initiative that makes available free full-text 
articles from hundreds of biomedical journals and reference books for 
use by medical teams responding to disasters. This initiative has been 
activated multiple times in the last 15 months to assist relief efforts 
in Japan, Pakistan, and Haiti. It organized and made available health 
information resources relevant to the Gulf Oil spill. MLA and AAHSL see 
a clear role for NLM and the Nation's health sciences libraries in 
disaster preparedness and response activities, and we ask the 
Subcommittee to support NLM's role in this initiative which has a major 
objective of ensuring continuous access to health information and 
effective use of libraries and librarians when disasters occur.
    MLA and AAHSL see a clear role for NLM and the Nation's health 
sciences libraries in disaster preparedness and response activities, 
and we ask the Subcommittee to support NLM's role in this initiative 
which has a major objective of ensuring continuous access to health 
information and effective use of libraries and librarians when 
disasters occur.

Health Information Technology and Bioinformatics
    NLM has played a pivotal role in creating and nurturing the field 
of medical informatics which is the intersection of information 
science, computer science and healthcare. Health informatics tools 
include computers, clinical guidelines, formal medical terminologies, 
and information and communication systems. For nearly 35 years, NLM has 
supported informatics research, training and the application of 
advanced computing and informatics to biomedical research and 
healthcare delivery including a variety of telemedicine projects. Many 
of today's informatics leaders are graduates of NLM-funded informatics 
research programs at universities across the country. Many of the 
country's exemplary electronic and personal health record systems 
benefits from NLM grant support.
    The importance of NLM's work in health information technology 
continues to grow as the Nation moves toward more interoperable health 
information technology systems. A leader in supporting, licensing, 
developing and disseminating standard clinical terminologies for free 
United States-wide use (e.g., SNOWMED), NLM works closely with the 
Office of the National Coordinator for Health Information Technology 
(ONCHIT) to promote the adoption of interoperable electronic records, 
It has developed tools to make it easier for EHR developers and users 
to implement accepted health data standards in their systems.
    MLA and AAHSL encourage the Subcommittee to continue their strong 
support for NLM's medical informatics and genomic science initiatives, 
at a point when the linking of clinical and genetic data holds 
increasing promise for enhancing the diagnosis and treatment of 
disease. MLA and AAHSL also support health information technology 
initiatives in ONCHIT that build upon initiatives housed at NLM.

Building and Facility Needs
    The tremendous growth in NLM's basic functions related to the 
acquisition, organization and preservation of its ever-expanding 
collection of biomedical literature, combined with its growing 
contributions to healthcare reform, health information technology, drug 
safety, and exploitation of genomic information is straining the 
Library's physical resources. During times of economic hardship, NLM's 
role becomes increasingly important and it often serves as an archive 
of last resort for medical libraries looking for ways to cut back and 
trim their own collections.
    NLM now houses 1,100 staff in a facility built to accommodate 650. 
This increase in the volume of biomedical information and in the number 
of personnel has led to a serious space shortage. Digital archiving--
once thought to be a solution to the problem of housing physical 
collections--has only added to the challenge, as materials must often 
be stored in multiple formats and as new digital resources consume 
increasing amounts of data center storage space. As a result, the space 
needed for computing facilities has also grown, and a new facility is 
urgently needed. This need has been recognized by the NLM Board of 
Regents as well as the Subcommittee in Senate Report 108-345 that 
accompanied the fiscal year 2005 appropriations bill. However, the 
economic challenges of the last several years have hampered movement on 
this project.
    While Congress continues to face tremendous funding challenges in 
fiscal year 2012, MLA and AAHSL encourage the Subcommittee to 
acknowledge the need for construction of the new building to take place 
when the Federal budget stabilizes so that information-handling 
capabilities and biomedical research are not jeopardized. At a time 
when medical and health science libraries across the Nation face 
growing financial and space constraints, ensuring that NLM continues to 
serve as the archive of last resort for biomedical collections is 
critical to the medical library community and the public we serve.
    Thank you again for the opportunity to present the views of the 
medical library community.
                                 ______
                                 
           Prepared Statement of the Meharry Medical College

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present my views before you today. I am Dr. Wayne J. 
Riley, President and CEO of Meharry Medical College in Nashville, 
Tennessee. I have previously served as vice-president and vice dean for 
health affairs and governmental relations and associate professor of 
medicine at Baylor College of Medicine in Houston, Texas and as 
assistant chief of medicine and a practicing general internist at 
Houston's Ben Taub General Hospital. In all of these roles, I have seen 
firsthand the importance of minority health professions institutions 
and the Title VII Health Professions Training programs.
    Mr. Chairman, time and time again, you have encouraged your 
colleagues and the rest of us to take a look at our Nation and evaluate 
our needs over the next 10 years. I took you seriously and came here 
prepared to offer my best judgments. First, I want to say that it is 
clear that health disparities among various populations and across 
economic status are rampant and overwhelming. Over the next 10 years, 
we will need to be able to deliver more culturally relevant and 
culturally competent healthcare services. Bringing healthcare delivery 
up to this higher standard can serve as our Nation's own preventive 
healthcare agenda keeping us well positioned for the future.
    Minority health professional institutions and the Title VII Health 
Professions Training programs address this critical national need. 
Persistent and severe staffing shortages exist in a number of the 
health professions, and chronic shortages exist for all of the health 
professions in our Nation's most medically underserved communities. Our 
Nation's health professions workforce does not accurately reflect the 
racial composition of our population. For example, African Americans 
represent approximately 15 percent of the U.S. population while only 2-
3 percent of the Nation's healthcare workforce is African American.
    There is a well established link between health disparities and a 
lack of access to competent healthcare in medically underserved areas. 
As a result, it is imperative that the Federal Government continue its 
commitment to minority health profession institutions and minority 
health professional training programs to continue to produce healthcare 
professionals committed to addressing this unmet need.
    An October 2006 study by the Health Resources and Services 
Administration (HRSA), entitled ``The Rationale for Diversity in the 
Health Professions: A Review of the Evidence'' found that minority 
health professionals serve minority and other medically underserved 
populations at higher rates than non-minority professionals. The report 
also showed that; minority populations tend to receive better care from 
practitioners who represent their own race or ethnicity, and non-
English speaking patients experience better care, greater 
comprehension, and greater likelihood of keeping follow-up appointments 
when they see a practitioner who speaks their language. Studies have 
also demonstrated that when minorities are trained in minority health 
profession institutions, they are significantly more likely to: (1) 
serve in rural and urban medically underserved areas, (2) provide care 
for minorities and (3) treat low-income patients.
    As you are aware, Title VII Health Professions Training programs 
are focused on improving the quality, geographic distribution and 
diversity of the healthcare workforce in order to continue eliminating 
disparities in our Nation's healthcare system. These programs provide 
training for students to practice in underserved areas, cultivate 
interactions with faculty role models who serve in underserved areas, 
and provide placement and recruitment services to encourage students to 
work in these areas. Health professionals who spend part of their 
training providing care for the underserved are up to 10 times more 
likely to practice in underserved areas after graduation or program 
completion.
    Institutions that cultivate minority health professionals have been 
particularly hard-hit as a result of the cuts to the Title VII Health 
Profession Training programs in fiscal year 2006 and fiscal year 2007 
funding resolution passed earlier this Congress. Given their historic 
mission to provide academic opportunities for minority and financially 
disadvantaged students, and healthcare to minority and financially 
disadvantaged patients, minority health professions institutions 
operate on narrow margins. The cuts to the Title VII Health Professions 
Training programs amount to a loss of core funding at these 
institutions and have been financially devastating.
    Mr. Chairman, I feel like I can speak authoritatively on this issue 
because I received my medical degree from Morehouse School of Medicine, 
a historically black medical school in Atlanta. I give credit to my 
career in academia, and my being here today, to Title VII Health 
Profession Training programs' Faculty Loan Repayment Program. Without 
that program, I would not be the president of my father's alma mater, 
Meharry Medical College, another historically black medical school 
dedicated to eliminating healthcare disparities through education, 
research and culturally relevant patient care.
    Minority Centers of Excellence.--COEs focus on improving student 
recruitment and performance, improving curricula in cultural 
competence, facilitating research on minority health issues and 
training students to provide health services to minority individuals. 
COEs were first established in recognition of the contribution made by 
four historically black health professions institutions (the Medical 
and Dental Institutions at Meharry Medical College; The College of 
Pharmacy at Xavier University; and the School of Veterinary Medicine at 
Tuskegee University) to the training of minorities in the health 
professions. Congress later went on to authorize the establishment of 
``Hispanic'', ``Native American'' and ``Other'' Historically black 
COEs. For fiscal year 2012, I recommend a funding level of $24.602 
million for COEs.
    Health Careers Opportunity Program (HCOP).--HCOPs provide grants 
for minority and non-minority health profession institutions to support 
pipeline, preparatory and recruiting activities that encourage minority 
and economically disadvantaged students to pursue careers in the health 
professions. Many HCOPs partner with colleges, high schools, and even 
elementary schools in order to identify and nurture promising students 
who demonstrate that they have the talent and potential to become a 
health professional. Over the last three decades, HCOPs have trained 
approximately 30,000 health professionals including 20,000 doctors, 
5,000 dentists and 3,000 public health workers. For fiscal year 12, I 
recommend a funding level of $22.133 million for HCOPs.

National Institutes of Health (NIH)
    Research Centers at Minority Institutions.--The Research Centers at 
Minority Institutions program (RCMI) at the National Center for 
Research Resources has a long and distinguished record of helping our 
institutions develop the research infrastructure necessary to be 
leaders in the area of health disparities research. Although NIH has 
received unprecedented budget increases in recent years, funding for 
the RCMI program has not increased by the same rate. Therefore, the 
funding for this important program grow at the same rate as NIH overall 
in fiscal year 2012.
    National Institute on Minority Health and Health Disparities.--The 
National Institute on Minority Health and Health Disparities (NIMHD) is 
charged with addressing the longstanding health status gap between 
minority and nonminority populations. The NIMHD helps health 
professional institutions to narrow the health status gap by improving 
research capabilities through the continued development of faculty, 
labs, and other learning resources. The NIMHD also supports biomedical 
research focused on eliminating health disparities and develops a 
comprehensive plan for research on minority health at the NIH. 
Furthermore, the NIMHD provides financial support to health professions 
institutions that have a history and mission of serving minority and 
medically underserved communities. For fiscal year 2012, I recommend 
that this Institute's funding grow proportionally with the funding of 
the NIH.

Department of Health and Human Services
    Office of Minority Health: Specific programs at OMH include:
  -- Assisting medically underserved communities with the greatest need 
        in solving health disparities and attracting and retaining 
        health professionals,
  --Assisting minority institutions in acquiring real property to 
        expand their campuses and increase their capacity to train 
        minorities for medical careers,
  --Supporting conferences for high school and undergraduate students 
        to interest them in healthcareers, and
  --Supporting cooperative agreements with minority institutions for 
        the purpose of strengthening their capacity to train more 
        minorities in the health professions.
    The OMH has the potential to play a critical role in addressing 
health disparities. For fiscal year 2012, I recommend a funding level 
of $65 million for the OMH.

Department of Education
    Strengthening Historically Black Graduate Institutions Program.--
The Department of Education's Strengthening Historically Black Graduate 
Institutions program (Title III, Part B, Section 326) is extremely 
important to MMC and other minority serving health professions 
institutions. The funding from this program is used to enhance 
educational capabilities, establish and strengthen program development 
offices, initiate endowment campaigns, and support numerous other 
institutional development activities. In fiscal year 2012, an 
appropriation of $65 million is suggested to continue the vital support 
that this program provides to historically black graduate institutions.
    Mr. Chairman, please allow me to express my appreciation to you and 
the members of this subcommittee. With your continued help and support, 
Meharry Medical College along with other minority health professions 
institutions and the Title VII Health Professions Training programs can 
help this country to overcome health and healthcare disparities. 
Congress must be careful not to eliminate, paralyze or stifle the 
institutions and programs that have been proven to work. Meharry and 
other minority health professions schools seek to close the ever 
widening health disparity gap. If this subcommittee will give us the 
tools, we will continue to work towards the goal of eliminating that 
disparity as we have done for 1876.
    Thank you, Mr. Chairman, for this opportunity.
                                 ______
                                 
         Prepared Statement of the Morehouse School of Medicine

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present my views before you today. I am Dr. John E. 
Maupin, President of Morehouse School of Medicine (MSM) in Atlanta, 
Georgia. I have previously served as President of Meharry Medical 
College, executive vice-president at Morehouse School of Medicine, 
director of a community health center in Atlanta, and deputy director 
of health in Baltimore, Maryland. In all of these roles, I have seen 
firsthand the importance of minority health professions institutions 
and the Title VII Health Professions Training programs.
    I want to say that minority health professional institutions and 
the Title VII Health Professionals Training programs address a critical 
national need. Persistent and sever staffing shortages exist in a 
number of the health professions, and chronic shortages exist for all 
of the health professions in our Nation's most medically underserved 
communities. Furthermore, our Nation's health professions workforce 
does not accurately reflect the racial composition of our population. 
For example while blacks represent approximately 15 percent of the U.S. 
population, only 2-3 percent of the Nation's health professions 
workforce is black. Morehouse is a private school with a very public 
mission of educating students from traditionally underserved 
communities so that they will care for the underserved. Mr. Chairman, I 
would like to share with you how your committee can help us continue 
our efforts to help provide quality health professionals and close our 
Nation's health disparity gap.
    There is a well established link between health disparities and a 
lack of access to competent healthcare in medically underserved areas. 
As a result, it is imperative that the Federal Government continue its 
commitment to minority health profession institutions and minority 
health professional training programs to continue to produce healthcare 
professionals committed to addressing this unmet need.
    An October 2006 study by the Health Resources and Services 
Administration (HRSA), entitled ``The Rationale for Diversity in the 
Health Professions: A Review of the Evidence'' found that minority 
health professionals serve minority and other medically underserved 
populations at higher rates than non-minority professionals. The report 
also showed that; minority populations tend to receive better care from 
practitioners who represent their own race or ethnicity, and non-
English speaking patients experience better care, greater 
comprehension, and greater likelihood of keeping follow-up appointments 
when they see a practitioner who speaks their language. Studies have 
also demonstrated that when minorities are trained in minority health 
profession institutions, they are significantly more likely to: (1) 
serve in rural and urban medically underserved areas, (2) provide care 
for minorities and (3) treat low-income patients.
    As you are aware, Title VII Health Professions Training programs 
are focused on improving the quality, geographic distribution and 
diversity of the healthcare workforce in order to continue eliminating 
disparities in our Nation's healthcare system. These programs provide 
training for students to practice in underserved areas, cultivate 
interactions with faculty role models who serve in underserved areas, 
and provide placement and recruitment services to encourage students to 
work in these areas. Health professionals who spend part of their 
training providing care for the underserved are up to 10 times more 
likely to practice in underserved areas after graduation or program 
completion.
    Given the historic mission, of institutions like MSM, to provide 
academic opportunities for minority and financially disadvantaged 
students, and healthcare to minority and financially disadvantaged 
patients, minority health professions institutions operate on narrow 
margins. The slow reinvestment in the Title VII Health Professions 
Training programs amounts to a loss of core funding at these 
institutions and have been financially devastating.
    Mr. Chairman, I feel like I can speak authoritatively on this issue 
because I received my dental degree from Meharry Medical College, a 
historically black medical and dental school in Nashville, Tennessee. I 
have seen first hand what Title VII funds have done to minority serving 
institutions like Morehouse and Meharry. I compare my days as a student 
to my days as president, without that Title VII, our institutions would 
not be here today. However, Mr. Chairman, since those funds have been 
slowly replenished, we are standing at a cross roads. This committee 
has the power to decide if our institutions will go forward and thrive, 
or if we will continue to try to just survive. We want to work with you 
to eliminate health disparities and produce world class professionals, 
but we need your assistance.
    Minority Centers of Excellence: COEs focus on improving student 
recruitment and performance, improving curricula in cultural 
competence, facilitating research on minority health issues and 
training students to provide health services to minority individuals. 
COEs were first established in recognition of the contribution made by 
four historically black health professions institutions (the Medical 
and Dental Institutions at Meharry Medical College; The College of 
Pharmacy at Xavier University; and the School of Veterinary Medicine at 
Tuskegee University) to the training of minorities in the health 
professions. Congress later went on to authorize the establishment of 
``Hispanic'', ``Native American'' and ``Other'' Historically black 
COEs. For fiscal year 2012, I recommend a funding level of $24.602 
million for COEs.
    Health Careers Opportunity Program (HCOP): HCOPs provide grants for 
minority and non-minority health profession institutions to support 
pipeline, preparatory and recruiting activities that encourage minority 
and economically disadvantaged students to pursue careers in the health 
professions. Many HCOPs partner with colleges, high schools, and even 
elementary schools in order to identify and nurture promising students 
who demonstrate that they have the talent and potential to become a 
health professional. Over the last three decades, HCOPs have trained 
approximately 30,000 health professionals including 20,000 doctors, 
5,000 dentists and 3,000 public health workers. For fiscal year 2012, I 
recommend a funding level of $22.133 million for HCOPs.

National Institutes of Health (NIH)
    National Institute on Minority Health and Health Disparities.--The 
National Institute on Minority Health and Health Disparities (NIMHD) is 
charged with addressing the longstanding health status gap between 
minority and nonminority populations. The NIMHD helps health 
professional institutions to narrow the health status gap by improving 
research capabilities through the continued development of faculty, 
labs, and other learning resources. The NIMHD also supports biomedical 
research focused on eliminating health disparities and develops a 
comprehensive plan for research on minority health at the NIH. 
Furthermore, the NIMHD provides financial support to health professions 
institutions that have a history and mission of serving minority and 
medically underserved communities through the Minority Centers of 
Excellence program. For fiscal year 2012, I recommend a funding 
increase proportional to any increase given to the NIH for the NIMHD.
    Research Centers at Minority Institutions.--The Research Centers at 
Minority Institutions program (RCMI), currently administered at the 
National Center for Research Resources, has a long and distinguished 
record of helping our institutions develop the research infrastructure 
necessary to be leaders in the area of health disparities research. 
Although NIH has received unprecedented budget increases in recent 
years, funding for the RCMI program has not increased by the same rate. 
Therefore, the funding for this important program grow at the same rate 
as NIH overall in fiscal year 2012.

Department of Health and Human Services
    Office of Minority Health.--Specific programs at OMH include: (1) 
Assisting medically underserved communities with the greatest need in 
solving health disparities and attracting and retaining health 
professionals; (2) Assisting minority institutions in acquiring real 
property to expand their campuses and increase their capacity to train 
minorities for medical careers; (3) Supporting conferences for high 
school and undergraduate students to interest them in healthcareers, 
and (4) Supporting cooperative agreements with minority institutions 
for the purpose of strengthening their capacity to train more 
minorities in the health professions. The OMH has the potential to play 
a critical role in addressing health disparities, and with the proper 
funding this role can be enhanced. For fiscal year 2012, I recommend a 
funding level of $65 million for the OMH.

Department of Education
    Strengthening Historically Black Graduate Institutions.--The 
Department of Education's Strengthening Historically Black Graduate 
Institutions program (Title III, Part B, Section 326) is extremely 
important to MSM and other minority serving health professions 
institutions. The funding from this program is used to enhance 
educational capabilities, establish and strengthen program development 
offices, initiate endowment campaigns, and support numerous other 
institutional development activities. In fiscal year 2012, an 
appropriation of $65 million is suggested to continue the vital support 
that this program provides to historically black graduate institutions.
    Mr. Chairman, please allow me to express my appreciation to you and 
the members of this subcommittee. With your continued help and support, 
Morehouse School of Medicine along with other minority health 
professions institutions and the Title VII Health Professions Training 
programs can help this country to overcome health and healthcare 
disparities. Congress must be careful not to eliminate, paralyze or 
stifle the institutions and programs that have been proven to work. MSM 
and other minority health professions schools seek to close the ever 
widening health disparity gap. If this subcommittee will give us the 
tools, we will continue to work towards the goal of eliminating that 
disparity as we have since our founding day.
    Thank you, Mr. Chairman, and I welcome every opportunity to answer 
questions for your records.
                                 ______
                                 
          Prepared Statement of the National AHEC Organization

    The National AHEC Organization (NAO) is the professional 
organization representing Area Health Education Centers (AHECs). Our 
message is simple:
  --The Area Health Education Center program is effective and provides 
        vital services and national infrastructure.
  --Area Health Education Centers are the workforce development, 
        training and education machine for the Nation's healthcare 
        safety-net programs.
    AHEC is one of the Title VII Health Professions Training programs, 
originally authorized at the same time as the National Health Service 
Corps (NHSC) to create a complete mechanism to provide primary care 
providers for Community Health Centers (CHCs) and other direct 
providers of healthcare services for underserved areas and populations. 
The plan envisioned by creators of the legislation was that the CHCs 
would provide direct service. The NHSC would be the mechanism to fund 
the education of providers and supply providers for underserved areas 
through scholarship and loan repayment commitments. The AHEC program 
would be the mechanism to recruit providers into primary health 
careers, diversify the workforce, and develop a passion for service to 
the underserved in these future providers, i.e. Area Health Education 
Centers are the workforce development, training and education machine 
for the Nation's healthcare safety-net programs. The AHEC program is 
focused on improving the quality, geographic distribution and diversity 
of the primary care healthcare workforce and eliminating the 
disparities in our Nation's healthcare system.
    AHECs develop and support the community based training of health 
professions students, particularly in rural and underserved areas. They 
recruit a diverse and broad range of students into health careers, and 
provide continuing education, library and other learning resources that 
improve the quality of community-based healthcare for underserved 
populations and areas.
    The Area Health Education Center program is effective and provides 
vital services and national infrastructure. Nationwide, over 379,000 
students have been introduced to health career opportunities, and over 
33,000 mostly minority and disadvantaged high school students received 
more than 20 hours each of health career exposure. Over 44,000 health 
professions students received training at 17,530 community-based sites, 
and furthermore; over 482,000 health professionals received continuing 
education through AHECs. AHECs perform these education and training 
services through collaborative partnerships with Community Health 
Centers (CHCs) and the National Health Service Corps (NHSC), in 
addition to Rural Health Clinics (RHCs), Critical Access Hospitals, 
(CAHs), Tribal clinics and Public Health Departments.

Justification for Recommendations
    Imbalances in our healthcare system result in marked inequities in 
access to and quality of healthcare services. This perpetuates 
disparities in health status and the under-representation of minority 
and disadvantaged individuals in the healthcare workforce. AHEC 
programs play a key role in correcting these inequities and 
strengthening the Nation's healthcare safety net.
    In order to continue the progress that the Title VII Health 
Professions Training programs, especially AHECs, have already made 
toward their goal, an additional Federal investment is required. NAO 
recommends that the AHEC program is funded at $75 million. Investment 
at this level and at this time will be the first step toward full 
investment at the authorized level of $125 million.
                                 ______
                                 
Prepared Statement of the National Alliance for Eye and Vision Research

                           EXECUTIVE SUMMARY

    NAEVR requests fiscal year 2012 NIH funding at $35 billion, which 
reflects a $3 billion increase over President Obama's proposed funding 
level of $32 billion. Funding at $35 billion, which reflects NIH net 
funding levels in both fiscal year 2009 and fiscal year 2010, ensures 
it can maintain the number of multi-year investigator-initiated 
research grants, the cornerstone of our Nation's biomedical research 
enterprise.
    The vision community commends Congress for $10.4 billion in NIH 
funding in the American Recovery and Reinvestment Act (ARRA), as well 
as fiscal year 2009 and fiscal year 2010 funding increases that enabled 
NIH to keep pace with biomedical inflation after 6 previous years of 
flat funding that resulted in a 14 percent loss of purchasing power. 
Fiscal year 2012 NIH funding at $35 billion enables it to meet the 
expanded capacity for research--as demonstrated by the significant 
number of high-quality grant applications submitted in response to ARRA 
opportunities--and to adequately address unmet need, especially for 
programs of special promise that could reap substantial downstream 
benefits, as identified by NIH Director Francis Collins, M.D., Ph.D. in 
his top five priorities. As President Obama has stated repeatedly, most 
recently during the 2011 State of the Union Address, biomedical 
research has the potential to reduce healthcare costs, increase 
productivity, and ensure the global competitiveness of the United 
States.
    NAEVR requests that Congress increase NEI funding above the 1.8 
percent proposed by the President--even if it does not fund NIH at $35 
billion--since the proposed increase does not match biomedical 
inflation.
    In 2009, Congress spoke volumes in passing S. Res. 209 and H. Res. 
366, which designated 2010-2020 as The Decade of Vision, in which the 
majority of 78 million Baby Boomers will turn 65 years of age and face 
greatest risk of aging eye disease. This is not the time for a less-
than-inflationary increase that nets a loss in the NEI's purchasing 
power, which eroded by 18 percent in the fiscal year 2003-fiscal year 
2008 timeframe. NEI-funded research is resulting in treatments and 
therapies that save vision and restore sight, which can reduce 
healthcare costs, maintain productivity, ensure independence, and 
enhance quality of life.

  THE BIPARTISAN NIH SUPPORT DISPLAYED AT THE SUBCOMMITTEE'S MARCH 30 
HEARING WITH SECRETARY SEBELIUS DEMONSTRATES THE VALUE OF INCREASED AND 
                         TIMELY APPROPRIATIONS

    NAEVR was pleased to hear the level of bipartisan support expressed 
for NIH at the March 30 Senate L-HHS Appropriations Subcommittee 
hearings with Department of Health and Human Services (DHHS) Secretary 
Kathleen Sebelius and was especially impressed by two sets of comments:
  --Senate Ranking Member Richard Shelby (R-AL) cautioned against 
        across-the-board cuts and urged Congress to sustain programs 
        that are effective--where he cited NIH as ``one of the most 
        results-driven aspects of our entire Federal budget.'' He added 
        that ``research conducted at NIH reduces disabilities, prolongs 
        life, and is an essential component to the health of all 
        Americans. NIH programs consistently meet their performance and 
        outcomes measures, as well as achieve their overall mission.'' 
        These comments are stated so well that NAEVR will not expand 
        upon them, other than to cite vision examples in the next 
        sections.
  --Senator Barbara Mikulski (D-MD) noted that a government shutdown, 
        NIH cuts, or delayed appropriations, individually or in 
        combination, will have far-reaching consequences, especially 
        for academic Institutions across the country which receive 
        funding.
      To demonstrate that point, in late January 2011, NAEVR hosted 11 
        domestic and 6 international members of the Association for 
        Research in Vision and Ophthalmology (ARVO) in Capitol Hill 
        visits. They educated staff that a cutback to the fiscal year 
        2008 level would reduce NEI funding by $30 plus million and 
        reduce the number of grants by 43--any one of which could hold 
        the key to saving or restoring vision. The advocates also 
        described the impact of delayed appropriations, in terms of 
        continuity of research and retention of trained staff. If a 
        department does not have bridge or philanthropic funding to 
        retain staff while awaiting full funding of awards, it will 
        need to let staff go, and that usually means a highly trained 
        person is lost to another area of research or an institution in 
        another State, or even another country.

 FISCAL YEAR 2012 NIH FUNDING AT $35 BILLION ENABLES THE NEI TO BUILD 
UPON THE IMPRESSIVE RECORD OF BASIC AND CLINICAL/TRANSLATIONAL RESEARCH 
THAT MEETS NIH'S TOP FIVE PRIORITIES AND WAS FUNDED THROUGH FISCAL YEAR 
        2009/2010 ARRA AND INCREASED ``REGULAR'' APPROPRIATIONS

    NEI's research addresses the preemption, prediction, and prevention 
of eye disease through basic, translational, epidemiological, and 
comparative effectiveness research which also address the top five NIH 
priorities, as identified by Dr. Collins: genomics, translational 
research; comparative effectiveness; global health, and empowering the 
biomedical enterprise.
    With respect to translational research, in June 2010, NEI hosted a 
Translational Research and Vision conference as the last of a series of 
NIH-campus based educational events recognizing its 40th anniversary 
(previous events addressed genetics/genomics, optical imaging, stem 
cell therapies, and the latest glaucoma research). In keynote comments, 
Dr. Collins recognized NEI as a leader in translational research. He 
specifically cited NEI's leadership in ocular genetics, noting that NEI 
has worked collaboratively with other NIH Institutes, especially the 
National Human Genome Research Institute (NHGRI) to elucidate the basis 
of eye disease and to develop treatments. As NEI Director Paul Sieving, 
M.D., Ph.D. has stated, one-quarter of all genes identified to date are 
associated with eye disease/visual impairment.
    Dr. Collins also lauded the NEI's use of Genome-Wide Association 
Studies (GWAS) to determine the increased risk of developing age-
related macular degeneration (AMD) from gene variants in the Complement 
Factor H (CFH) immune pathway, noting that ``this was the first 
demonstration that GWAS is a useful tool to make the connection between 
gene variants and disease conditions.'' He added that, ``Twenty years 
ago we could do little to prevent or treat AMD. Today, because of new 
treatments and procedures based on NIH/NEI research, 1.3 million 
Americans at risk for severe vision loss from AMD over the next 5 years 
can receive potentially sight-saving therapies.''
    With increased ``regular'' fiscal year 2009/2010 appropriations and 
ARRA funding, NEI has been able to build upon past research in two 
important areas:
    Genetic Basis of AMD.--In 2010, NEI initiated the International AMD 
Genetics Consortium, reflecting researchers on five continents who will 
be sharing and analyzing GWAS results to further elucidate the genetic 
basis of AMD. This may lead to new diagnostics and treatments for this 
leading blinding eye disease, growing in incidence with the aging of 
the population and with potential significant costs to the Medicare 
program.
    Treatment of Diabetic Macular Edema.--In May 2010, the NEI's 
Diabetic Retinopathy Clinical Research (DRCR) Network--a multi-center 
network dedicated to facilitating clinical research into diabetic 
retinopathy, diabetic macular edema, and associated conditions--
reported results of a comparative effectiveness trial. The study 
confirmed that laser treatment for diabetic macular edema, when 
combined with injections of the Food and Drug Administration (FDA)-
approved anti-angiogenic drug Lucentis, is more effective than laser 
treatment alone, the latter of which has been the standard of care for 
the past 25 years. With NIH's recent announcement of a new strategic 
plan to combat diabetes, led by the National Institute of Diabetes and 
Digestive and Kidney Diseases (NIDDK), this research is more important 
than ever within the larger context of NIH priorities. The current DRCR 
Network is a successor to several previous networks, all of which 
involved NEI-NIDDK collaboration. NEI's emphasis on diabetic 
retinopathy reflects the fact that it is the leading cause of vision 
loss in the working-age population and occurs with disproportionately 
greater incidence in the Hispanic population.

 IF CONGRESS DOES NOT INCREASE FISCAL YEAR 2012 NIH FUNDING ABOVE THE 
PRESIDENT'S REQUEST, IT IS EVEN MORE VITAL TO IMPROVE UPON THE PROPOSED 
                      1.8 PERCENT INCREASE FOR NEI

    The NIH budget proposed by the administration and finalized by 
Congress during the second year of the congressionally designated 
Decade of Vision should not contain a less-than-inflationary increase 
for the NEI due to the enormous challenges it faces in terms of the 
aging population, the disproportionate incidence of eye disease in 
fast-growing minority populations, and the visual impact of chronic 
disease (e.g., diabetes). If Congress is unable to fund NIH at $35 
billion in fiscal year 2012 (NEI level of $794.5 million) and adopts 
the President's proposal, the 1.8 percent increase in funding must be 
increased to at least an inflationary level of 2.4 percent to prevent 
any further erosion in NEI's purchasing power. NEI funding is an 
especially vital investment in the overall health, as well as the 
vision health, of our Nation. It can ultimately delay, save, and 
prevent health expenditures, especially those associated with the 
Medicare and Medicaid programs, and is, therefore, a cost-effective 
investment.

  VISION LOSS IS A MAJOR PUBLIC HEALTH PROBLEM: INCREASING HEALTHCARE 
         COSTS, REDUCING PRODUCTIVITY, DIMINISHING LIFE QUALITY

    The NEI estimates that more than 38 million Americans age 40 and 
older experience blindness, low vision, or an age-related eye disease 
such as AMD, glaucoma, diabetic retinopathy, or cataracts. This is 
expected to grow to more than 50 million Americans by year 2020. The 
economic and societal impact of eye disease is increasing not only due 
to the aging population, but to its disproportionate incidence in 
minority populations and as a co-morbid condition of chronic disease, 
such as diabetes.
    Although the NEI estimates that the current annual cost of vision 
impairment and eye disease to the United States is $68 billion, this 
number does not fully quantify the impact of indirect healthcare costs, 
lost productivity, reduced independence, diminished quality of life, 
increased depression, and accelerated mortality. NEI's fiscal year 2010 
baseline funding of $707 million reflects just a little more than 1 
percent of this annual costs of eye disease. The continuum of vision 
loss presents a major public health problem, as well as a significant 
financial challenge to the public and private sectors.

NAEVR URGES CONGRESS TO FUND THE NIH AT $35 BILLION IN FISCAL YEAR 2012 
   WHICH WILL ENSURE THE MOMENTUM OF BREAKTHROUGH NEI-FUNDED VISION 
            RESEARCH AND THE RETENTION OF TRAINED PERSONNEL
                              ABOUT NAEVR

    The National Alliance for Eye and Vision Research (NAEVR) is a 
501(c)4 nonprofit advocacy coalition comprised of 55 professional 
(ophthalmology and optometry), patient and consumer, and industry 
organizations involved in eye and vision research. Visit NAEVR's Web 
site at www.eyeresearch.org.
                                 ______
                                 
Prepared Statement of the National Alliance of State & Territorial AIDS 
                               Directors

    The National Alliance of State & Territorial AIDS Directors 
(NASTAD) represents the Nation's chief State health agency staff who 
have programmatic responsibility for administering HIV/AIDS and viral 
hepatitis healthcare, prevention, education, and supportive service 
programs funded by State and Federal governments. On behalf of NASTAD, 
we urge your support for increased funding for Federal HIV/AIDS and 
viral hepatitis programs in the fiscal year 2012 Labor-HHS-Education 
Appropriations bill, and thank you for your consideration of the 
following critical funding needs for HIV/AIDS, viral hepatitis and STD 
programs in fiscal year 2012. These funding needs support activities 
aligned with the goals set forth in the National HIV/AIDS Strategy 
(NHAS)--a game-changing blueprint for tackling the Nation's HIV/AIDS 
epidemic.
    As we approach 30 years into the HIV/AIDS epidemic, we must be 
mindful that HIV/AIDS is still a crisis in the United States, not just 
a global issue. HIV/AIDS is an emergency and while there are life-
saving medications that did not exist 20 years ago, there is still no 
cure, and we still see new infections--about 56,000 annually. The 
Nation's prevention efforts must match our commitment to the care and 
treatment of infected individuals. First and foremost we must address 
the devastating impact on racial and ethnic minority communities, 
particularly African Americans and Latinos, as well as gay men and 
other men who have sex with men (MSM) of all races and ethnicities, 
substance users, women and youth. To be successful, we must expand 
outreach, scale-up and consider new and innovative approaches to arrest 
the epidemic here at home.
    The President's fiscal year 2012 budget proposal provides increases 
to HIV/AIDS prevention, care and the Ryan White Program in support of 
the National HIV/AIDS Strategy for a total investment of $3.5 billion. 
The Budget prioritizes HIV/AIDS resources within high burden 
communities and among high-risk groups, including MSM, African 
Americans and Hispanics, and realigns resources within CDC, HRSA, 
SAMHSA, and the Office of the Secretary to support the National HIV/
AIDS Federal Implementation Plan. Additionally, the budget allows CDC 
and States to transfer up to 5 percent across HIV/AIDS, tuberculosis, 
STD and viral hepatitis programs to improve coordination and 
integration.

HIV/AIDS Care and Treatment Programs
    The Health Resources and Services Administration (HRSA) administers 
the $2.2 billion Ryan White Program that provides health and support 
services to more than 500,000 persons living with HIV/AIDS (PLWHA). The 
President's budget includes an increase of $63 million for a total of 
$2.4 billion for the entire Ryan White Program. The Budget also 
includes $940 million for AIDS Drug Assistance Programs (ADAPs), an 
increase of $55 million.
    NASTAD requests a minimum increase of $183 million in fiscal year 
2012 for State Ryan White Part B grants compared to the President's 
budget of flat funding Part B at its fiscal year 2010 level of $418.8 
million and requesting a $55 million increase or a total of $940 
million for ADAPs. We are requesting an increase of $77 million for the 
Part B Base and $106 million or a total of $991 million for ADAPs. 
ADAPs truly need an increase of $360 million in fiscal year 2012 to 
maintain their programs and fill the structural deficits that have 
built up during the last several years. With these funds States and 
territories provide care, treatment and support services to PLWHA, who 
need access to HIV clinicians, life-saving and life-extending 
therapies, and a full range of support services to ensure adherence to 
complex treatment regimens. All States have reported to NASTAD a 
significant increase in the number of individuals seeking Part B Base 
and ADAP services.
    State ADAPs provide medications to low-income uninsured or 
underinsured PLWHA. In fiscal year 2009, over 213,000 clients were 
enrolled in ADAPs nationwide. Due to many factors such as unemployment, 
economic challenges, increased HIV testing and linkages to care, and 
new HIV treatment guidelines calling for earlier therapeutic 
treatments, program demand has increased dramatically, and thus ADAPs 
are ever more in crisis. As of May 19, 2011, there 8,310 individuals 
are on waiting lists in 13 States to receive their life-sustaining 
medications through ADAP:
  --Alabama: 15 individuals
  --Arkansas: 59 individuals
  --Florida: 3,938 individuals
  --Georgia: 1,520 individuals
  --Idaho: 14 individuals
  --Louisiana: 696 individuals
  --Montana: 26 individuals
  --North Carolina: 242 individuals
  --Ohio: 413 individuals
  --South Carolina: 693individuals
  --Utah: 6 individuals
  --Virginia: 684 individuals
  --Wyoming: 4 individuals
    Last year, as of April 2010, there were 10 States with less than 
900 individuals on waiting lists. Thus, we have seen an over 900 
percent increase in individuals on waiting lists in the last year.

HIV/AIDS Prevention and Surveillance Programs
    One of the major goals of the NHAS is to lower the annual number of 
new infections from 56,300 to 42,225 by 2015. In order to meet this 
ambitious goal, NASTAD requests an increase of $90 million above fiscal 
year 2011 funding levels for a total of $555 million compared to the 
President's request of a $4 million increase for State and local health 
department HIV prevention and surveillance cooperative agreements in 
order to provide comprehensive prevention programs. By providing 
adequate resources to State and local health departments to scale up 
HIV prevention and surveillance programs, we will be closer to meeting 
the NHAS goal of reducing new HIV infections by 25 percent by 2015. In 
addition, NASTAD fully supports the President's request to allocate 
$30.4 million from the Prevention and Public Health Fund for HIV 
prevention activities consistent with the allocation of these resources 
in fiscal year 2010.
    Of the total increase requested, NASTAD supports an increase of $60 
million above fiscal year 2011 levels compared to the President's 
request of a $6.4 million increase for the HIV prevention cooperative 
agreements with health departments in order to scale up effective 
prevention programs and enable CDC to implement a new funding formula 
that would provide equitable funding to all jurisdictions based on 
disease burden without dismantling existing prevention efforts in some 
jurisdictions. Moreover, these additional resources will allow health 
departments to increase their efforts in a variety of areas such as: 
expanding the reach of activities targeting men who have sex with men 
(MSM). According to the September 2010 CDC Fact Sheet HIV/AIDS Among 
Gay and Bisexual Men, MSM account for nearly half (48 percent) of the 
more than 1 million people living with HIV/AIDS and account for 53 
percent of new infections. Young men from racial and ethnic minority 
communities bear a disproportionate burden of the disease and there are 
more new HIV infections among young Black MSM (aged 13-29) than among 
any other age and racial group of MSM. Additional funding will allow 
heath departments to continue developing and implementing innovative, 
cost effective and evidence-based prevention programming. Increased 
funding will also allow health departments to expand services to other 
disproportionately impacted populations including Black women, persons 
who inject drugs and youth. With additional funding, health departments 
will expand outreach, targeted and routine HIV testing, partner 
services and linkage to care and other evidence-based prevention 
interventions. Increased funding will also allow for the expansion of 
additional core prevention services such as partner services (the 
identification, notification and counseling of partners of persons whom 
have tested HIV positive), capacity building and technical assistance 
to implement routine HIV testing and highly targeted behavior change 
interventions to community-based organizations and healthcare providers 
as well as public education campaigns to reinforce accurate, evidence-
based information and begin to reduce the stigma associated with the 
disease.
    In addition, NASTAD believes increased funding should be directed 
toward critical HIV surveillance efforts and requests an increase of 
$30 million above fiscal year 2011 levels compared to the President's 
request of a decrease of nearly $2 million. Additional resources will 
allow improvements in core surveillance and expand surveillance for HIV 
incidence, behavioral risk, and receipt of care information including 
CD4 and viral load reporting. HIV surveillance data are the mechanism 
through which the success at achieving the goals of the NHAS will be 
measured. The completeness of national HIV surveillance activities is 
critical to monitor the HIV/AIDS epidemic and to provide data for 
targeting with greater precision the delivery of HIV prevention, care, 
and treatment services.
    The funding increase will also allow for the continuation of the 
Expanded Testing Program, Enhanced Comprehensive HIV Prevention 
Planning (ECHPP) and Program Collaboration and Service Integration 
(PCSI) activities. NASTAD supports maintaining funding at $70 million 
to health departments to continue the highly successful Expanded 
Testing Program (ETP), which targets African Americans, Latinos, gay 
and bisexual men of all races and ethnicities, and persons who inject 
drugs. For the 30 jurisdictions currently funded for ETP, the program 
has been an effective way to implement routine HIV testing in clinical 
settings--increasing the number of people who know their HIV status and 
linking those with HIV to care and treatment. During the first 3 years 
of the program approximately 2.6 million tests were conducted with an 
estimated 28,000 being confirmed HIV positive. Reducing new HIV 
infections relies heavily on ``knowing your status.'' This program 
should be preserved with adequate funding to ensure that more 
individuals learn their HIV status and are linked to care.
    The first step in the NHAS is to ``intensify HIV prevention efforts 
in communities where HIV is most heavily concentrated.'' In response, 
in August 2010, the CDC funded ECHPP. Eligible jurisdictions were 
awarded on September 30, 2010 with an average award of $960,000. 
Through ECHPP, these highly impacted urban areas were awarded resources 
to test and evaluate new approaches to integrate planning, monitoring 
and delivering HIV prevention and care services in their specific 
localities. NASTAD supports continuing ECHPP funding at $12 million in 
order to fund the next round of State health departments for this 
important activity.
    NASTAD also requests continued support for Program Collaboration 
and Service Integration (PCSI) to enable health departments to 
integrate prevention services for HIV, STD, viral hepatitis, and TB at 
the client level. Currently six jurisdictions are funded by CDC for 
PCSI activities.

HIV School-based Prevention for Youth
    NASTAD also supports an increase for evidence-based programs for 
youth funded through the CDC. An increase of $10 million above the 
President's fiscal year 2012 level of $40 million should be supported 
for HIV school health for a total of $50 million. CDC currently funds 
HIV school health programs through the Division of Adolescent and 
School Health (DASH). The President's budget proposal moves HIV-
specific DASH funding to the National Center for HIV/AIDS, Viral 
Hepatitis, STD and TB Prevention to ensure closer coordination with 
other HIV prevention programs, which NASTAD supports. One-third of all 
new infections are among young people under the age of 29, the largest 
share of any age group of new infections.

Viral Hepatitis Prevention Programs
    NASTAD requests an increase of $40 million for a total of $59.8 
million in fiscal year 2012 compared to the President's request of $5.2 
million for a total of $25 million. Funding increases would go to the 
CDC's Division of Viral Hepatitis (DVH) to support the HHS Action Plan 
on Viral Hepatitis for a national testing, education and surveillance 
initiative as outlined in the Division's professional judgment budget 
submitted to Congress last year. While we are hopeful about the first-
ever HHS Viral Hepatitis Action Plan, funding is needed to support 
increased capacity at the HHS Office of the Assistant Secretary for 
Health (ASH) for supporting the implementation of this plan.
    We believe that testing to identify over 3 million people or 65-75 
percent of chronic hepatitis B and C patients who do not know they are 
infected is the highest priority for reducing illness and death related 
to viral hepatitis. Testing must accompany education efforts to reach 
those already infected and at high risk of death and of spreading the 
disease. Surveillance is needed to monitor disease trends and evaluate 
evidence-based interventions. Unlike other infectious diseases, viral 
hepatitis lacks a national surveillance system. Further this funding 
would enhance the role of Adult Viral Hepatitis Prevention Coordinators 
(AVHPCs) based in State health departments to implement and integrate 
testing, education and surveillance into the existing public health 
infrastructure. States and cities receive an average funding award from 
DVH of $90,000, which supports a single staff position and is not 
sufficient for the provision of core prevention services. Therefore, 
NASTAD requests funding to State adult viral hepatitis prevention 
coordinators be increased from $5 to $10 million.
    In addition, we encourage Congress to work with CDC to provide 
adequate hepatitis B vaccination through the Section 317 program as 
proposed in CDC's fiscal year 2012 budget. In years past, cost-savings 
from the Section 317 program supported an at-risk adult hepatitis B 
vaccine initiative with a funding high of $20 million. While this 
funding went to vaccine-purchase only and not staff capacity or 
infrastructure, it was a highly successful initiative at administering 
nearly 1 million doses of vaccine. Unfortunately cost-savings for the 
program were expended in fiscal year 2011.
    Further we encourage the utilization of health reform's Prevention 
and Public Health Fund to support a broad testing and screening 
initiative that would include neglected diseases such as viral 
hepatitis in order to capture patients before they progress in their 
liver disease and increase costs to public healthcare systems.

STD Prevention Programs
    NASTAD supports an increase of $212.7 million for a total of $367.4 
million in fiscal year 2012 compared to the President's request of a $7 
million increase for STD prevention, treatment and surveillance 
activities undertaken by State and local health departments. CDC's 
Division of STD Prevention has prioritized four disease prevention 
goals--Prevention of STD-related infertility, STD-related adverse 
pregnancy outcomes, STD-related cancers and STD-related HIV 
transmission. CDC estimates that 19 million new infections occur each 
year, almost half of them among young people ages 15 to 24. In one 
year, the United States may spend over $8 billion to treat the symptoms 
and consequences of STDs. Untreated STDs contribute to infant 
mortality, infertility, and cervical cancer. Additional Federal 
resources are needed to reverse these alarming trends and reduce the 
Nation's health spending. The teen pregnancy prevention initiative 
should be expanded to include prevention of HIV and STDs and funded at 
$20 million above the President's 2012 request of $114.5 million. Such 
an increase would allow providers to serve an additional 100,000 youth.
    As you contemplate the fiscal year 2012 Labor, HHS and Education 
Appropriations bill, we ask that you consider all of these critical 
funding needs. We thank the Chairman, Ranking Member and members of the 
Subcommittee, for their thoughtful consideration of our 
recommendations. Our response to the HIV, viral hepatitis and STD 
epidemics in the United States defines us as a society, as public 
health agencies, and as individuals living in this country. There is no 
time to waste in our Nation's fight against these infectious and often 
chronic diseases. The Nation's prevention efforts must match our 
commitment to the care and treatment of infected individuals.
                                 ______
                                 
   Prepared Statement of the National Association for Public Health 
                   Statistics and Information Systems

    The National Association for Public Health Statistics and 
Information Systems (NAPHSIS) welcomes the opportunity to provide this 
written statement for the public record as the Labor, Health and Human 
Services (HHS), Education and Related Agencies Appropriations 
Subcommittee prepares its fiscal year 2012 appropriations legislation. 
NAPHSIS represents the 57 vital records jurisdictions that collect, 
process, and issue birth and death records in the United States and its 
territories, including the 50 States, New York City, the District of 
Columbia and the five territories. NAPHSIS coordinates and enhances the 
activities of the vital records jurisdictions by developing standards, 
promoting consistent policies, working with Federal partners, and 
providing technical assistance.
    NAPHSIS respectfully requests that the Subcommittee provide the 
National Center for Health Statistics (NCHS) $162 million, consistent 
with the President's budget request. This funding will enable the 
National Vital Statistics System to support States and territories as 
they implement the 2003 Standard Certificates of Birth, Death, and 
Fetal Deaths and move toward electronic collection of vital events 
data. This infrastructure investment will address the Healthy People 
2020 goal of increasing the number of States that record vital events 
using the latest U.S. standard certificates (PHI-10.1-10.3). 
Ultimately, this investment will lead to timelier, richer data that 
will facilitate public health planning, surveillance, service delivery, 
and evaluation. Specifically, such data will facilitate tracking of 
other Healthy People 2020 objectives in maternal, infant, and child 
health, cancer, diabetes, heart disease, respiratory disease, injury 
and prevention, and substance abuse, among others.
    Collection of birth and death data through vital records is a State 
function and thus governed under State laws. NCHS purchases birth and 
death data from the States to compile national data on vital events--
births, deaths, marriages, divorces, and fetal deaths. These data are 
used to monitor disease prevalence and our Nation's overall health 
status, develop programs to improve public health, and evaluate the 
effectiveness of those interventions. For example, birth data have been 
used to:
  --Establish the relationship of smoking and adverse pregnancy 
        outcomes;
  --Link the incidence of major birth defects to environmental factors;
  --Establish trends in teenage births;
  --Determine the risks of low birth weight; and
  --Measure racial disparities in pregnancy outcomes.
    Just as fundamentally, death data are used to:
  --Monitor the infant mortality rate as a leading international 
        indicator of the Nation's health status;
  --Track progress and regress in reducing mortality from the leading 
        causes of death, such as heart disease, cancer, stroke, and 
        diabetes;
  --Document racial disparities; and
  --Otherwise provide sound information for programmatic interventions.
    Years of chronic underfunding at NCHS have threatened the 
collection of these important data on the national level, to the extent 
that in fiscal year 2007 NCHS would have been unable to collect a full 
12 months of vital statistics data from States. Had the Subcommittee 
not intervened with a small but critical budget increase to continue 
vital statistics collection, the United States would have been the 
first nation in the industrialized world to be without a complete 
year's worth of vital data. Countless national programs and businesses 
that depend on vital events information would have been immeasurably 
affected.
    Since that time, the Subcommittee has continually supported NCHS's 
vital statistics cooperative with the States. NAPHSIS and the broader 
public health community deeply appreciate these efforts. We are pleased 
that the President has once again followed the Subcommittee's lead in 
seeking to build a 21st century national statistical agency, requesting 
a $23 million increase for NCHS in fiscal year 2012, and directing NCHS 
to support the modernization of the National Vital Statistics System. 
This funding increase will support States as they upgrade their 
outdated and vulnerable paper-based vital statistics systems, 
addressing critical needs for activities that have been on hold or 
curtailed because of budget constraints.
    As we make significant strides in implementing and meaningfully 
using health information technology, it is imperative that we similarly 
invest in building a modern vital statistics system that monitors our 
citizens' health, from birth until death. The requested funding will 
move us toward a timelier and more comprehensive vital statistics 
infrastructure where all States collect the same data and all States 
collect these data electronically. Two forms of birth and death 
certificates are in use by States--the older 1989 standard certificate 
and the newer 2003 standard certificate This more recent birth 
certificate revision includes data on insurance and access to prenatal 
care, labor and delivery complications, delivery methods, congenital 
anomalies of the newborn, maternal morbidity, mother's weight and 
height, breast feeding status, maternal infections, and smoking during 
pregnancy, among other factors. The 2003 death certificate includes 
data on smoking-related, pregnancy-related, and job-related deaths.
    Currently, only 75 percent of the States and territories use the 
2003 standard birth certificate and 65 percent have adopted the 2003 
standard death certificate (see Table 1). Many States continue to rely 
on paper-based records, a practice which compromises the timeliness and 
interoperability of these data. Jurisdictions that had planned and 
budgeted to upgrade their certificates and systems have seen funding 
for these projects erode as States face severe budget shortfalls. These 
jurisdictions need the Federal Government's help to complete building a 
21st century vital statistics system. The President's requested down 
payment will help in this regard, allowing all jurisdictions to 
implement the 2003 birth certificate and electronic birth record 
systems. Approximately $30 million is needed to modernize the death 
statistics system; but the President's budget request is nonetheless an 
important first step.

                                                         TABLE 1.--JURISDICTIONS REQUIRING SUPPORT TO MODERNIZE VITAL STATISTICS SYSTEM
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                    Incomplete Electronic Birth                                                                     Incomplete Electronic Death
   No 2003 Birth Certificate       No Electronic Birth Records              Records \1\              No 2003 Death Certificate      No Electronic Death Records             Records \2\
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Total = 20                       Total = 17                       Total = 4                       Total = 19                      Total = 24                      Total = 27

Alabama                          Alaska                           Alabama                         Alabama                         Alaska                          Alabama
Alaska                           American Samoa                   Hawaii                          Alaska                          American Samoa                  Arizona
American Samoa                   Arizona                          Mississippi                     American Samoa                  Arkansas                        Delaware
Arizona                          Arkansas                         Rhode Island                    Colorado                        Colorado                        Washington, DC
Arkansas                         Connecticut                                                      Guam                            Connecticut                     Georgia
Connecticut                      Guam                                                             Iowa                            Florida                         Hawaii
Guam                             Louisiana                                                        Louisiana                       Iowa                            Idaho
Louisiana                        Maine                                                            Maryland                        Kentucky                        Illinois
Maine                            Massachusetts                                                    Massachusetts                   Louisiana                       Indiana
Massachusetts                    Minnesota                                                        Mississippi                     Maine                           Michigan
Minnesota                        New Jersey                                                       North Carolina                  Maryland                        Minnesota
Mississippi                      Northern Mariana                                                 Northern Mariana                Massachusetts                   Montana
New Jersey                       North Carolina                                                   Pennsylvania                    Mississippi                     Nebraska
Northern Mariana                 Puerto Rico                                                      Puerto Rico                     Missouri                        Nevada
North Carolina                   Virgin Islands                                                   Tennessee                       New York                        New Hampshire
Rhode Island                     West Virginia                                                    Virgin Islands                  North Carolina                  New Jersey
Virgin Islands                   Wisconsin                                                        Virginia                        Oklahoma                        New Mexico
Virginia                                                                                          West Virginia                   Pennsylvania                    New York City
West Virginia                                                                                     Wisconsin                       Rhode Island                    North Dakota
Wisconsin                                                                                                                         Tennessee                       Ohio
                                                                                                                                  Virginia                        Oregon
                                                                                                                                  Washington                      South Carolina
                                                                                                                                  West Virginia                   South Dakota
                                                                                                                                  Wisconsin                       Texas
                                                                                                                                                                  Utah
                                                                                                                                                                  Vermont
                                                                                                                                                                  Wyoming
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Has an electronic birth record but does not collect all 2003 data items; requires funding to modify the electronic birth record to collect the 2003 data items.
\2\ Has an electronic death record but requires funding to finish enrolling physicians and funeral directors in the system.

Source: NAPHSIS Survey of Vital Statistics Jurisdictions.

    The data NCHS collects are needed to track Americans' health and 
evaluate our progress improving it. The President's requested increase 
of $23 million for NCHS and the National Vital Statistics System will 
move us toward a timelier and more comprehensive system where all 
States collect the same data and all States collect these data 
electronically, enabling us to better compare critical information on a 
local, State, regional, and national basis. Without additional funding, 
a potential erosion of State data infrastructure and lack of 
standardized data will undeniably create enormous gaps in critical 
public health information and may have severe and lasting consequences 
on our ability to appropriately assess and address critical health 
needs.
    NAPHSIS appreciates the opportunity to submit this statement for 
the record and looks forward to working with the Subcommittee. If you 
have questions about this statement, please do not hesitate to contact 
NAPHSIS Executive Director, Patricia W. Potrzebowski, Ph.D., at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6d1d1d02191f17080f021a1e06042d030c1d051e041e43021f0a">[email&#160;protected]</a> or (301) 563-6001. You may also contact our 
Washington representative, Emily Holubowich, at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1d78757271687f726a747e755d797e307e6f79337e7270">[email&#160;protected]</a> 
or (202) 484-1100.
                                 ______
                                 
  Prepared Statement of the National Association of Community Health 
                                Centers

Introduction
    Chairman Harkin, Ranking Member Shelby, and Distinguished Members 
of the Subcommittee: My name is Dan Hawkins, and I am the Senior Vice 
President for Public Policy and Research at the National Association of 
Community Health Centers. On behalf of the 23 million patients served 
nationwide by health centers; 150,000 full-time health center staff; 
and countless volunteer board members; I would like to express my 
heartfelt appreciation to the Subcommittee for your support of 
America's healthcare safety net, and specifically of our mission to 
deliver affordable and accessible care to all Americans. I am pleased 
to have an opportunity to submit testimony for your consideration as 
you prepare the fiscal year 2012 Labor-Health and Human Services-
Education and Related Agencies Appropriations bill.
About Community Health Centers
    Health centers offer cost-effective, high-quality, and patient-
directed primary and preventive care in 8,000 rural and urban 
underserved communities across the United States. In Iowa and Alabama, 
respectively, health centers deliver care to 154,020 patients in 108 
communities and 315,670 patients in 140 communities.\1\ By statute, 
health centers must be located in a medically underserved area (MUA) or 
serve a medically underserved population (MUP) and provide 
comprehensive primary care services to all community residents 
regardless of insurance status--offering care on a sliding fee scale. 
Because of this, health centers serve as the ``healthcare home'' for 
America's most vulnerable populations, including one-third of 
individuals living below poverty, one in seven Medicaid beneficiaries, 
and one in seven of America's uninsured. And nearly half of health 
center organizations are located in our Nation's rural areas.
---------------------------------------------------------------------------
    \1\ See http://www.nachc.com/state-healthcare-data-list.cfm for 
State Fact Sheets on Health Centers.
---------------------------------------------------------------------------
    Presidents of both parties and Senators on both sides of the 
aisle--including many members of this Subcommittee--have long-
recognized the value of health centers. As a result and with bipartisan 
support, health centers have been on an expansion path for over a 
decade. Within the past 2 years, and as a result of investments this 
Subcommittee made through the American Recovery and Reinvestment Act, 
127 new health centers opened and over 4.3 million new patients 
received access to care at virtually every health center in the 
country. I'd like to elaborate on why the Health Centers program is 
such a worthwhile investment that produces documented savings to the 
entire health system--a primary reason this program has been able to 
count on the Subcommittee's support for several decades.
    Health centers save the country money by keeping patients out of 
costlier healthcare settings (like emergency departments and 
hospitals), coordinating care amongst providers of many health 
disciplines, and effectively managing chronic conditions. Medicaid 
beneficiaries who rely on health centers for routine care are 19 
percent less likely to use the emergency department (ED) and 11 percent 
less likely to be hospitalized for ambulatory care-sensitive (ACS) 
conditions when compared to beneficiaries who see other providers.\2\ 
Additionally, counties with at least one health center have 25 percent 
fewer ED visits for ACS conditions than counties without a health 
center presence.\3\ By providing timely and appropriate care, health 
centers save over $1,200 per person per year, lowering costs across the 
healthcare system--from ambulatory care settings to hospital stays.\4\ 
All told, health centers currently generate $24 billion in savings each 
year. This is all possible through an investment of just $1.67 per 
patient per day.\5\
---------------------------------------------------------------------------
    \2\ Falik M, et al. ``Comparative Effectiveness of Health Centers 
as Regular Source of Care.'' January-March 2006 Journal of Ambulatory 
Care Management 29(1):24-35.
    \3\ Rust G, et al. ``Presence of a Community Health Center and 
Uninsured Emergency Department Visit Rates in Rural Counties.'' Winter 
2009 Journal of Rural Health 25(1):8-16.
    \4\ Ku L, et al. Strengthening Primary Care to Bend the Cost Curve: 
The Expansion of Community Health Centers Through Health Reform. Geiger 
Gibson/RCHN Community Health Foundation Collaborative at the George 
Washington University. June 30 2010. Policy Research Brief No. 19.
    \5\ Bureau of Primary Health Care, Health Resources and Services 
Administration, DHHS. 2009 Uniform Data System.
---------------------------------------------------------------------------
    Health centers meet or exceed national practice standards for 
chronic condition treatment and ensure that their patients receive more 
recommended screening and health promotion services than patients of 
other providers--despite serving underserved and traditionally at-risk 
populations.\6\ The Institute of Medicine (IOM) and the U.S. Government 
Accountability Office (GAO) have recognized health centers as models 
for screening, diagnosing, and managing a wide array of relatively 
common and costly chronic conditions such as diabetes, cardiovascular 
disease, asthma, depression, cancer, and HIV.\7\ Specifically related 
to diabetes, a leading cause of death and disability, health centers 
significantly reduce the expected lifetime incidence of diabetes 
complications, including blindness, kidney failure, and certain forms 
of heart disease.\8\ America's health centers also play an important 
role in improving access to prenatal care and improving birth outcomes. 
Health centers have demonstrated their ability to reduce the disparity 
of low birth weight by at least 50 percent compared to the national 
average.\9\
---------------------------------------------------------------------------
    \6\ Shi L, Tsai J, Higgins PC, Lebrun La. (2009). Racial/ethnic and 
socioeconomic disparities in access to care and quality of care for 
U.S. health center patients compared with non-health center patients. 
Journal of Ambulatory Care Management 32(4): 342-50. Hing E, Hooker RS, 
Ashman JJ. (2010). Primary Health Care in Community Health Centers and 
Comparison with Office-Based Practice. Journal of Community Health. 
2010 Nov 3 epublished.
    \7\ U.S. General Accounting Office. (2003). Healthcare: Approaches 
to address racial and ethnic disparities. Publication No. GAO-03-862R. 
Institute of Medicine. Unequal Treatment: Confronting Racial and Ethnic 
Disparities in Healthcare. Washington, DC: National Academy of Sciences 
Press; 2003.
    \8\ Huang E, et al. ``The Cost-effectiveness of Improving Diabetes 
Care in U.S. Federally Qualified Community Health Centers.'' 2007 
Health Services Research, 42(6): 2174-93.
    \9\ Politzer R, Yoon J, Shi L, Hughes R, Regan J, and Gaston M. 
``Inequality in America: The Contribution of Health Centers in Reducing 
and Eliminating Disparities in Access to Care.'' 2001 Medical Care 
Research and Review 58(2):234-248.
---------------------------------------------------------------------------
    A key driver of the success of the health center model is that each 
non-profit entity is locally-owned and directed by a patient majority 
board that ensures the health center is accountable and responsive to 
the needs of the community it serves. Research has demonstrated that 
this type of consumer participation on governing boards ensures higher 
quality care, lower costs of services, and better results.\10\ In 
addition to tailoring their services to make healthcare delivery 
individualized to unique local circumstances, health centers also have 
a substantial and positive economic impact on their communities. In 
2009 alone, health centers generated $20 billion in total economic 
benefit and created 189,158 jobs.\11\
---------------------------------------------------------------------------
    \10\ Crampton P, et al. ``Does Community-Governed Nonprofit Primary 
Care Improve Access to Services?'' 2005 International Journal of Health 
Services 35(3): 465-78.
    \11\ NACHC, Capital Link. Community Health Centers as Leaders in 
the Primary Care Revolution. August 2010. www.nachc.com/research-
data.cfm.
---------------------------------------------------------------------------
Funding Background
    The Health Resources and Services Administration (HRSA) fiscal year 
2011 spending or operating plan, pursuant to Section 1863 of Public Law 
112-10, provides $1.581 billion in discretionary funding for the Health 
Centers program--a reduction of $604.4 million relative to the fiscal 
year 2010-enacted level of $2.185 billion. Together with the $1.0 
billion in fiscal year 2011 funding available for health centers 
through the Affordable Care Act (ACA), health centers have a net 
increase of $395.6 million in total programmatic funding for fiscal 
year 2011.
    While we await word from HRSA about how available fiscal year 2011 
programmatic funding will be allocated between existing and new health 
center efforts, we are heartened that there should be no interruption 
of existing health center activities, including the new centers and 
patients added in the past 2 years. We strongly support prioritizing 
fiscal year 2011 funding to maintain existing health center activities. 
It is worth noting, however, that most of the nearly $400 million 
programmatic increase in the fiscal year 2011 CR is needed to continue 
ongoing operations--leaving very limited funding to support expansion 
efforts that would otherwise have been possible if the $1.0 billion in 
new ACA resources were not being redirected to continue existing 
operations.
    Currently, 60 million Americans lack access to a routine source of 
care.\12\ And even with implementation of ACA, it is imperative that as 
more Americans become insured, they have access to care through a 
healthcare home in their community. Prior to the completion of fiscal 
year 2011 appropriations, health centers were on track to double their 
capacity and serve 40 million patients over the next 5 years, reaching 
a sizeable portion of the medically underserved individuals who would 
otherwise be forced to seek care in EDs, or delay care until 
hospitalization is the only option.
---------------------------------------------------------------------------
    \12\ NACHC, the Robert Graham Center, and Capital Link. Access 
Granted: The Primary Care Payoff. August 2007. www.nachc.com/
accessreports.cfm.
---------------------------------------------------------------------------
    HRSA previously announced several fiscal year 2011 funding 
opportunities, including grants for new health centers and support for 
expanded capacity at virtually every existing health center nationwide. 
These opportunities produced: (1) over 800 applications submitted for 
350 New Access Point (new health center) awards in communities not 
currently served by existing health centers, demonstrating the great 
need across the country for new centers to serve patients who most need 
access to primary care; and (2) nearly 1,100 health center grantee 
applications submitted to expand health center services to reach 
additional individuals in need in their current communities, adding new 
medical, oral, behavioral, pharmacy, and vision capacity. The reduction 
to the Health Center program's fiscal year 2011 discretionary funding 
leaves HRSA far short of the funding needed to make their previously-
announced awards at this time.

Fiscal Year 2012 Funding Request
    Health centers stand ready to continue working to ensure that 
everyone has access to primary and preventive healthcare services. In 
fiscal year 2012, we respectfully ask that the Subcommittee provide a 
discretionary funding level of no less than $1.79 billion for the 
Health Centers program. This funding level, together with ACA funding 
available in fiscal year 2012, will allow health centers to extend 
cost-effective primary care over 3 million Americans this year alone. 
It will also allow HRSA to fund remaining and worthwhile applications 
that will go unfunded in fiscal year 2011, including over 200 new 
health center applications and funding for expanded medical, oral, 
behavioral, pharmacy, and vision health services at existing health 
centers.

Conclusion
    As the Congress works to tackle our Nation's deficit, I understand 
Members of this Subcommittee are faced with incredibly difficult 
decisions about funding levels for the programs within the fiscal year 
2012 Labor-Health and Human Services-Education and Related Agencies 
Appropriations bill. However, health centers have proven time and time 
again that the Federal investment in the Health Centers program is 
prudent--translating to improved health outcomes for our most 
vulnerable Americans and reduced healthcare expenditures for this 
Nation. I'd ask for this Subcommittee's support in continuing the 
bipartisan expansion of health centers in fiscal year 2012 to ensure 
that our shared goal of improved access to high-quality and cost-
effective care is realized.
                                 ______
                                 
   Prepared Statement of the National Association of County and City 
                            Health Officials

Summary
    The National Association of County and City Health Officials 
(NACCHO) represents the Nation's 2,800 local health departments (LHDs). 
These governmental agencies work every day in their communities to 
protect people, prevent disease, and promote wellness. Local health 
departments have a unique and distinctive role and set of 
responsibilities in the larger health system and within every 
community. The Nation depends upon the capacity of local health 
departments to play this role well.
    The Nation's current financial challenges are compounded by those 
in State and local government further diminishing the ability of local 
health departments to measure population-wide illness, take steps to 
prevent disease and prolong quality of life, and to serve the public in 
ways others don't. Repeated rounds of budget cuts and lay-offs continue 
to erode local health department capacity. NACCHO surveys have found 
that from 2008 to 2010, local health departments have lost 29,000 jobs 
due to budget reductions. This represents a nearly 20 percent reduction 
in local public workforce. These are jobs in local communities 
nationwide.
    On a fraying shoestring, local health departments continue to 
respond to an ever changing set of challenges, including ongoing public 
health emergency threats like floods, hurricanes, oil spills, 
infectious and chronic disease epidemics. The protection offered by 
local health departments can't be taken for granted. To help maintain 
the stability of LHDs, the Federal Government should invest in the 
following programs in fiscal year 2012 appropriations: National Public 
Health Improvement Initiative, Public Health Emergency Preparedness 
cooperative agreements, Advanced Practice Centers, Public Health 
Workforce Development, Chronic Disease Prevention and Health Promotion 
Grants, and Community Transformation Grants.

Public Health Recommendations
            National Public Health Improvement Initiative
NACCHO request: $50 million
Fiscal Year 2012 President's Budget: $40.2 million
Fiscal Year 2010: $50 million
    The National Public Health Improvement Initiative (NPHII) increases 
local health departments' capability to meet national public health 
standards and conduct effective performance management. This initiative 
promotes the effective and efficient use of resources in local health 
departments across the country while strengthening our public health 
infrastructure. In addition, these funds improve public health policies 
and decisionmaking crucial to protecting our communities from public 
health threats. NPHII boosts the ability of local health departments to 
reengineer their systems to meet 21st century challenges including 
implementation of the full range of science-based approaches to 
improving community health. As local health departments prepare to meet 
newly established national accreditation standards, NACCHO recommends 
$50 million in funding for fiscal year 2012 to continue to improve 
efficiency and effectiveness at local health departments.

            Public Health Workforce Development
NACCHO request: $73 million
Fiscal Year 2012 President's Budget: $73 million
Fiscal Year 2010: $38 million
    The Nation suffers an acute shortage of trained public health 
professionals, including epidemiologists, laboratorians, public health 
nurses, and public health informaticians. This investment in public 
health education and training is essential to maintain a prepared and 
sustainable public health workforce. With the increasing variety and 
magnitude of public health threats, it is vital to train new public 
health staff and provide continuous education for existing staff in 
order to maintain and upgrade the skills needed to protect our 
communities. This funding also supports the Centers for Disease Control 
and Prevention (CDC) Prevention Corps, a workforce program to recruit 
and train new talent for assignments in State and local health 
departments. This new program will also address retention by requiring 
professionals to commit to a designated timeframe in State and local 
health departments as a condition of the fellowship. NACCHO recommends 
$73 million in funding for fiscal year 2012 to bolster the public 
health workforce.

Emergency Preparedness Recommendations
            Public Health Emergency Preparedness Cooperative Agreements
NACCHO request: $730 million
Fiscal Year 2012 President's Budget: $643 million
Fiscal Year 2010: $715 million
    Constant readiness for both new and emerging public health threats 
requires an established local public health team that can plan, train, 
and practice on a regular basis. Emergency response capabilities and 
tasks, such as distributing medical countermeasures, addressing the 
needs of at-risk individuals, conducting drills, and organizing 
collaboration among staff in public health departments, schools, 
businesses and with volunteers, requires continuous attention and 
ongoing preparation. These are not supplies purchased once and stored 
until needed. If a community is not prepared to respond to multiple 
hazards, capacity to respond will not be immediately available when 
disasters happen. Valuable time will be lost and people will suffer, 
particularly the elderly, disabled and disenfranchised, low-income 
residents, vulnerable populations. The only way to ensure that local 
health departments and their community partners are ready to respond to 
emergencies is to maintain consistent funding. With this funding, local 
health departments can sustain their level of readiness to meet 
benchmarks that align with the Pandemic and All Hazards Preparedness 
Act.
    With recent progress in nationwide preparedness, now is not the 
time to reduce Federal funding that helps health departments continue 
their progress and address new, emerging threats. Especially when local 
health departments are under great stress from the loss of over 29,000 
jobs in the last few years, the Nation cannot afford to lose the gains 
made by recent Federal investment in public health. Continuous training 
and exercising of all health department staff so that they are all 
ready for the next emergency must continue. A loss of readiness is 
inevitable if the level of Federal investment is reduced.
    The safety and well-being of America's communities is dependent on 
the capacity of their health departments to respond in any emergency 
that threatens human health, including bioterrorism, infectious disease 
outbreaks, nuclear emergencies and natural disasters. The CDC has 
explicitly adopted an ``all-hazards'' approach to preparedness, 
recognizing that the capabilities necessary to respond to differing 
public health threats have many common elements. Through the Public 
Health Emergency Preparedness cooperative agreements CDC supports State 
and local health departments so that they can adequately prepare for 
and respond to such emergencies. NACCHO recommends $730 million in 
funding for fiscal year 2012 to continue to support emergency 
preparedness in our communities.

            Advanced Practice Centers
NACCHO request: $5.4 million
Fiscal Year 2012 President's Budget: 0
Fiscal Year 2010: $5.4 million
    The Advanced Practice Center program started as a CDC pilot project 
in 1999, and has since expanded to a national program. The APC program 
funds exemplary local health departments to be innovative leaders in 
public health preparedness to develop, evaluate, and promote products 
and resources that other local health department practitioners can use 
to meet the preparedness requirements expected for their organization 
or community. Since its inception, the APC program has created over 150 
products and hosted numerous workshops, webinars, and other 
presentations to local health departments. NACCHO recommends level 
funding in fiscal year 2012 of $5.4 million for the Advanced Practice 
Center program administered by CDC's Office of Public Health 
Preparedness and Response.

Disease Prevention Recommendations
            Chronic Disease Prevention and Health Promotion Grants
NACCHO request: $705 million
Fiscal Year 2012 President's Budget: $705 million
    Chronic diseases such as heart disease, cancer, stroke and diabetes 
are responsible for 7 of 10 deaths among Americans each year and 
account for 75 percent of healthcare spending. The President's budget 
consolidates several previously existing grants for disease prevention 
and health promotion to provide State and local health departments with 
greater flexibility to target funds to those diseases that most burden 
their jurisdictions, using the most effective strategies for the 
populations they serve. The program recognizes that many chronic 
diseases have common risk factors such as obesity and physical 
inactivity.
    Supporting effective approaches to reducing contributing factors 
and therefore rates of chronic disease will not only make our 
communities healthier, but save money for taxpayers and the Government 
in the long run. NACCHO recommends $705 million in funding for fiscal 
year 2012 to reduce chronic disease in our communities and looks 
forward to working with Congress on the array of details that will 
ensure successful, efficient, accountable implementation of a 
consolidated grant program that enables communities to address their 
chronic disease burden.

            Community Transformation Grants
NACCHO request: $221 million
Fiscal Year 2012 President's Budget: $221 million
    This program builds on the success of its predecessors: Healthy 
Communities, Racial and Ethnic Approaches to Community Health, and 
Communities Putting Prevention to Work. These funds are awarded on a 
competitive basis to State or local government agencies, territories, 
national networks of community based organizations, State or local 
nonprofit organizations and Indian tribes or tribal organizations to 
reduce health disparities and leading causes of death. Communities will 
use these resources to invest in evidence-based approaches to creating 
a healthy population by promoting smoking cessation, active living, 
healthy eating, and prevention of injuries. NACCHO recommends an 
allocation process which makes these funds available to communities of 
all sizes. NACCHO recommends $221 million in funding for fiscal year 
2012 to continue proven approaches to protecting public health in our 
communities.
    As the Subcommittee drafts the fiscal year 2012 Labor-Health and 
Human Services-Education Appropriations bill, we ask for consideration 
of NACCHO's recommendations for these programs that are critical to 
protecting people and improving the public's health. We are fully aware 
of the budgetary challenges facing Congress and the need to reduce 
deficit spending. Budgetary cuts must be made carefully to cause the 
least disruption to critical public health functions and protect the 
health of the U.S. population.
    NACCHO thanks the Subcommittee members for their previous support 
of public health initiatives that support work in local communities and 
welcomes the opportunity to discuss these requests further.
                                 ______
                                 
 Prepared Statement of the National Association of Nutrition and Aging 
                           Services Programs

    On behalf of NANASP, the National Association of Nutrition and 
Aging Services Programs, I thank you for providing an opportunity to 
submit testimony as you consider an fiscal year 2012 Labor-HHS and 
Education Appropriations bill. NANASP is a national membership 
organization for persons across the country working to provide older 
adults healthful food and nutrition through community-based services. 
NANASP has 14 members in Iowa and 17 members in Alabama.
    I am writing today to urge you to provide a much needed increase to 
President Obama's fiscal year 2012 funding proposal for two major 
programs in the Older Americans Act: the senior nutrition programs and 
Community Service Employment for Older Adults.
    The congregate and home-delivered (Meals on Wheels) nutrition 
programs and the Nutrition Services Incentive Program (NSIP) are the 
largest and most visible component of the Older Americans Act. Next 
year, the senior nutrition program celebrates its 40th anniversary of 
helping to keep millions of the vulnerable elderly healthy and 
independent in their homes and communities. This is a much more 
fiscally sound solution than having our seniors institutionalized 
because of the detrimental effects of hunger and malnutrition.
    The President's budget proposes no increase for the senior 
nutrition programs in fiscal year 2012. This is extremely alarming as 
these same programs were deemed worthy of increases for the past 5 
fiscal years. The need for an increase in funding for meals for our 
seniors remains today. According to the Administration on Aging (AoA), 
flat funding for the nutrition programs means that 36 million fewer 
home-delivered and congregate meals will be served in fiscal year 2012 
compared to fiscal year 2010. These meals are especially critical for 
the health of the 58 percent of congregate and 60 percent of home-
delivered meal participants who report that they receive the majority 
of their daily food intake from the nutrition program.
    The second major program we ask you to consider for increased 
funding is the Community Service Employment for Older Adults, also 
known as the Senior Community Service Employment Program or SCSEP. 
Administered by the Labor Department, SCSEP provides part-time jobs to 
thousands of low-income seniors, about one-fourth of them working in 
senior nutrition and other programs serving the elderly. These 
disadvantaged and previously unemployed seniors earn the minimum wage 
as they re-enter the job market.
    In fiscal year 2012, the President's budget proposes to reduce the 
number of SCSEP participants by 25 percent below the fiscal year 2008 
level. SCSEP is the only Federal job training program targeted for 
older workers, who continue to suffer in today's economy. While the 
current unemployment rate among older adults is lower than among 
younger workers, older workers are less likely to find new employment, 
and when they do find new jobs, their job search has taken longer. For 
example, nearly 30 percent of unemployed people aged 55+ were jobless 
for an entire year or more, a rate that exceeds that of all other age 
groups. Such a drastic cut in funding would not only eliminate over 
22,000 job opportunities for older workers, but also take away 12 
million hours of staffing for senior nutrition and other programs 
serving the community.
    At NANASP we always say, ``It is more than just a meal.'' Our 
programs provide much needed socialization for older adults and the 
link between nutrition and health is irrefutable. The senior nutrition 
and community service employment programs play a key role in health 
promotion and disease prevention. Our programs keep the very vulnerable 
elderly healthy, engaged, and independent and out of expensive long-
term care institutions that are very costly to the Medicaid program. We 
hope you will strongly consider an increase in funding for the 
nutrition and community service employment programs in your Labor-HHS, 
Education Appropriations bill for fiscal year 2012.
                                 ______
                                 
 Prepared Statement of the National Association of State Comprehensive 
                         Health Insurance Plans

    The National Association of State Comprehensive Health Insurance 
Plans (NASCHIP) appreciates the opportunity to submit testimony as you 
consider an fiscal year 2012 Labor-HHS and Education Appropriations 
bill. NASCHIP represents the State high risk pools which were 
established by statute initially passed 10 years before the Federal 
high risk pool program (PCIP) was created by the ACA, the Affordable 
Care Act. Our programs operate in 35 States including your States, Mr. 
Chairman and Mr. Shelby. We serve more than 200,000 people providing 
them with insurance notwithstanding their preexisting conditions. This 
number reflects a 7 percent increase from 2009 levels which we consider 
a significant indicator of the value and necessity of our programs.
    We are here to urge that you support a level of $75 million for the 
Federal grant program for State high risk pool programs for fiscal year 
2012. This was the authorization level contained in our statute the 
State High-Risk Pool Funding Extension Act of 2006. This funding allows 
many States to provide means based premium subsidies to their citizens 
who might otherwise not be able to afford coverage.
    We consider this level of funding the essential minimum for us to 
continue to do our work of providing a vital safety net to individuals 
who might otherwise be uninsured. For the current fiscal year, the 
Federal grant program for State high risk pool programs has $55 million 
in available funding which represents only a fraction of the total 
costs of care for State high risk pools. In fact, total State pool 
expenses in 2009 were approximately $2.2 billion.
    We were disappointed that the President only requested $44 million 
in funding for the Federal grant program for State high risk pools in 
his fiscal year 2012 budget proposal. It was based in part on an 
incorrect premise that as enrollments grow in the PCIP program it would 
lessen enrollment in our programs. The request also ignores the reality 
of increased enrollment into our programs in 2010. Only by receiving 
$75 million in funding for fiscal year 2012 would we stand a chance of 
serving the individuals we need to serve.
    The issues related to the PCIP program and either lower or higher 
than expected enrollments should have no bearing on the funding level 
we request. We have and will continue to work with administration 
officials to improve enrollments in PCIP as we want to see this program 
succeed. However, the State high risk pools serve a growing population 
and are in need of continued funding. We urge you to include $75 
million in your Labor-HHS and Education appropriations bill for fiscal 
year 2012.
                                 ______
                                 
  Prepared Statement of the National Association of State Head Injury 
                             Administrators

    Thank you for this opportunity to submit testimony regarding the 
fiscal year 2012 budget as it pertains to funding for programs 
authorized by the Traumatic Brain Injury (TBI) Act of 1996, as amended 
in 2008. The TBI Act authorizes funding to the U.S. Department of 
Health and Human Services (HHS) to carry out the intent of the Act 
through the (1) Centers for Disease Control and Prevention (CDC) for 
purposes of brain injury surveillance, prevention and education; and 
the (2) Health Resources and Services Administration (HRSA) for grants 
to State governmental agencies and to Protection and Advocacy Systems 
to improve and increase access to rehabilitation services and community 
services and supports for individuals with TBI and their families.
    NASHIA is a nonprofit organization representing State governmental 
officials who administer an array of short-term and long-term 
rehabilitation and community services and supports for individuals with 
TBI and their families. These services are generally financed through 
an array of Federal, State and dedicated funds (State trust funds) with 
the HRSA Federal TBI grants used to support and improve the necessary 
infrastructure to support these service systems. While NASHIA is well 
aware that Federal funds are becoming increasingly difficult to obtain, 
NASHIA is recommending increased funding for the Federal TBI Act 
programs because:
  --The number of Americans who sustain a TBI is increasing, especially 
        among the elderly and young children, and among our men and 
        women in uniform as a result of the wars in Iraq and 
        Afghanistan, while at the same time,
  --States are experiencing significant budget cuts impacting 
        rehabilitation and community services and supports for 
        individuals with TBI, yet
  --The number of States receiving grants has been reduced from 49 to 
        21 due to recent changes in HRSA policy and the level of 
        appropriations to support State grant activities.
    These factors, as well as the overall economy, are creating a 
strain on State TBI systems. As the TBI Act program is the only Federal 
funding to help States to better serve individuals with TBI, NASHIA 
recommends:
  --$10 million for the CDC programs to support TBI registries and 
        surveillance; to develop Brain Injury Acute Care Guidelines, 
        and to expand prevention and public education regarding injury 
        prevention, including sports-related concussions (mild TBI);
  --$ 8 million for the HRSA Federal TBI State Grant Program to 
        increase the number of grants to States; and
  --$ 4 million for the HRSA Federal TBI Protection & Advocacy (P&A) 
        Systems Grant Program to increase the amount of grant awards.
                  hrsa federal tbi state grant program
    Since 1997, HRSA has awarded grants to 48 States, District of 
Columbia and one Territory to develop and improve services and systems 
to address the short-term and long-term needs. These grants have been 
time limited and are relatively small. Two years ago, HRSA increased 
the amount of the award from approximately $100,000 to $250,000 to make 
it more feasible for States to carry out their grant goals and the 
legislative intent. While this increased amount is more attractive to 
States, this change reduced the number of grantees from 49 to 21--less 
than half of the States and Territories. As a result, States that do 
not have Federal funding are finding it increasingly more difficult to 
sustain their previous efforts, let alone expand and improve, due to 
other budget constraints in their States.
    Over the course of the grant program, States, depending on 
individual State needs, have developed State plans for improving 
service delivery; information and referral systems; service 
coordination systems; outreach and screening among unidentified 
populations such as children, victims of domestic violence, and 
veterans; and training programs for direct care workers and other 
staff. States have also conducted public awareness and educational 
activities that have helped States to leverage and coordinate funding 
in order to maximize resources to the benefit of individuals with TBI.
    In keeping with the HRSA Federal TBI State Grant Program most 
States have identified a lead State agency responsible for providing 
and coordinating services and an advisory board to plan and coordinate 
public policies to better serve individuals who frequently needs 
assistance from multiple agencies and funding streams in order to 
address the complexity of their needs.
      state collaborative efforts to address the needs of veterans
    The HRSA grant funding has been used to address the needs of 
returning service members and veterans with TBI and their families. 
Since service members and veterans first began to return from Iraq and 
Afghanistan, States have been contacted by families and returning 
servicemembers, especially those who served in the National Guard and 
Reserves, to obtain community resources in order to return to work, 
home and community.
    NASHIA and some individual States have reached out to U.S. 
Department of Veterans Affairs (VA), particularly staff from individual 
Polytrauma Centers, to promote collaboration in order to better 
understand VA benefits for veterans that may be seeking State services, 
and for VA to understand what is available in the communities. In 
addition, some States have added representatives from VA, National 
Guard and Reserves, State Veterans Affairs, and/or veterans 
organizations to serve on their State advisory board in order to 
improve communications and policies across these programs.

           THE INCIDENCE AND PREVALENCE OF TBI IS ON THE RISE

    CDC released new data last year showing that the incidence and 
prevalence of TBI in the United States is on the rise. CDC reported 
that each year, an estimated 1.7 million people sustain a TBI. Of that 
amount: 52,000 die; 275,000 are hospitalized; and 1.365 million (nearly 
80 percent) are treated and released from an emergency department. TBI 
is a contributing factor to a third (30.5 percent) of all injury-
related deaths in the United States. About 75 percent of TBIs that 
occur each year are concussions or other forms of mild TBI. The number 
of people with TBI who are not seen in an emergency department or who 
receive no care is unknown.'' (www.cdc.gov/TraumaticBrainInjury/
statistics.hml)
    The data collected by CDC relies heavily on State data, gathered 
through State registries and hospital discharge data. These numbers do 
not include the veterans who sustained TBIs in Iraq or Afghanistan and 
now use private or State funded resources for care, or undiagnosed 
TBIs.

                   ABOUT STATE RESOURCES AND SERVICES

    Since the 1980s, States have developed services and supports 
largely in response to families who often seek help in crisis 
situations, such as loss of job due to TBI; or out of control behaviors 
or substance abuse that may result in family violence or dangerous 
situations to self and others; and the need for overall help in 
providing care to their family members who have extensive medical, 
behavioral and cognitive problems. A critical service that States 
provide is service coordination to help coordinate and maximize 
resources and supports for individuals with TBI and their families.
    Over the past 25 years, States have developed service delivery 
systems that generally offer information and referral, service 
coordination, rehabilitation, in-home support, personal care, 
counseling, transportation, housing, vocational and other support 
services for persons with TBI and their families. These services are 
funded by State appropriations, designated funding (trust funds), 
Medicaid and Rehabilitation Act programs and are administered by 
programs located in the State public health, Vocational Rehabilitation, 
mental health, Medicaid, developmental disabilities, education or 
social services agencies.
    Approximately half of all States have a dedicated funding 
mechanism, mainly through traffic related fines, and about half of all 
States also administer a Medicaid Home and Community-Based Services 
(HCBS) Waiver for individuals with brain injury who are Medicaid 
eligible. Individuals with TBI are also served in other State waiver 
programs designed for physical disabilities, developmental 
disabilities, elderly and other populations. Some States have the 
advantage of both waiver and trust fund programs, in addition to other 
State and Federal resources.
    As private insurance generally does not provide for extended 
rehabilitation and long-term care, supports and services, most long-
term services and supports for persons with TBI are administered by the 
States. These programs are funded mainly through the shared Federal/
State Medicaid Home and Community-based Services Waivers (HCBS) program 
and Medicaid State Plan services, such as personal assistance, nursing 
homes and in-home care.
    Medicaid HCBS Waivers for Individuals with TBI have grown 
significantly in recent years, doubling from 5,400 individuals served 
in 2002 to 11,214 in 2006, at a cost of $155 million in 2002 to $327 
million in 2006 (Kaiser Commission on Medicaid and the Uninsured (2007, 
December); Medicaid Home and Community-Based Service Programs: Data 
Update, The Henry J. Kaiser Family Foundation, Washington, DC).
    Without appropriate services and supports, individuals with TBI may 
become homeless, or inappropriately placed in institutional settings or 
end up in State or local Correctional facilities due to their cognitive 
and behavioral disabilities. A recent report issued by the Centers for 
Disease Control and Prevention (CDC) cited other jail and prison 
studies indicating that 25-87 percent of inmates report having 
experienced a TBI as compared to 8.5 percent in a general population 
reporting a history of TBI.

                              ABOUT NASHIA

    The mission of NASHIA is to assist State government in promoting 
partnerships and building systems to meet the needs of individuals with 
brain injury and their families. Since 1990, NASHIA has held an annual 
State-of-the-States conference, and has served as a resource to State 
TBI program managers. NASHIA also maintains a website (www.nashia.org) 
containing State program contacts and other resources. NASHIA members 
include State officials administering public TBI programs and services, 
and associate members who are professionals, provider agencies, State 
affiliates of the Brain Injury Association of America (BIAA), family 
members and individuals with brain injury.
    Should you wish additional information on State services and 
resources, or other information, please do not hesitate to contact 
Rebeccah Wolfkiel, Governmental Consultant at 202-480-8901 (office) or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="beccc9d1d2d8d5d7dbd2feccd7dad9dbced1d2d7ddc7d9ccd1cbce90ddd1d390">[email&#160;protected]</a> You may also contact Susan L. Vaughn, 
Director of Public Policy, at 573-636-6946 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="027277606e6b61726d6e6b617b426c63716a6b632c6d7065">[email&#160;protected]</a> 
or William A.B. Ditto, Chair of the Public Policy Committee, at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="691e000505000804080b0d001d1d0629080605470a060447">[email&#160;protected]</a>
    Thank you.
                                 ______
                                 
   Prepared Statement of the National Association of Workforce Boards

    Thank you for the opportunity to comment on the Administration's 
proposed 2012 budget for the Department of Labor. The National 
Association of Workforce Boards (NAWB) is a member association, which 
represents a majority of the 575 local employer-led Workforce 
Investment Boards and their nearly 13,000 employer member volunteers.
    We write in support of the Administration's fiscal year 2012 
overall appropriations request for the Training and Employment Services 
account under the Department of Labor. Adequate funding for the public 
workforce system has never been more critical. While the worst of the 
economic downturn seems behind us, one-stop centers across the Nation 
continue to deal with large numbers of unemployed individuals who seek 
advice about career options and whose skills need upgraded. In short, 
our employment crisis is not expected to ease in the foreseeable 
future.
    The annual Economic Report of the President indicated that 
unemployment would remain above 8 percent through 2012. In April of 
this year the rate stood at 9 percent. Federal Reserve Chairman Ben S. 
Bernanke said the unemployment rate is likely to remain high ``for some 
time'' even after the biggest 2-month drop in the jobless rate since 
1958.
    Mr. Bernanke appearing before the House Budget Committee in 
February 2011, said that while the declines in the jobless rate in 
December and January ``do provide some grounds for optimism,'' he 
cautioned that ``with output growth likely to be moderate for a while 
and with employers reportedly still reluctant to add to their payrolls, 
it will be several years before the unemployment rate has returned to a 
more normal level.''
    Workforce Investment Act programs have been on the front lines of 
assisting job seekers impacted by the recession. Over the past year, 
Title I of the Workforce Investment Act (WIA) system has seen over 8 
million American workers turn to it for help in navigating the labor 
market in search of jobs and/or the training individuals need to be 
competitive in their labor market. This continues the trend of an over 
234 percent increase in the numbers of people who have sought 
assistance over the last two reporting years.
    Despite a ratio of four/five job seekers nationally for every 
available job, over 4 million were helped back into the labor force. In 
short, those who received WIA services were likely to find jobs with 
the likelihood increasing the higher the service level. Information for 
the quarter ending September 30, 2010 shows the following results:
Performance Results
    Workforce Investment Act Adult Program
  --Entered Employment Rate 53.1 percent
  --Employment Retention Rate 75.3 percent
  --Average 6 months Earnings $13,482
    Workforce Investment Act Dislocated Worker Program
  --Entered Employment Rate 50.3 percent
  --Employment Retention Rate 79 percent
  --Average 6 months Earnings $17,227
    Workforce Investment Act Youth Program
  --Placement in Employment or Education rate 59.5 percent
  --Attainment of Literacy and Numeracy gains 49.5 percent
    The ability of the pubic workforce system to maintain this level of 
success on behalf of job seekers and employers seeking skilled workers 
is incumbent upon the continuation of adequate funding. We encourage 
the Subcommittee to fund WIA formula programs at a minimum at the 
administration's request levels, as we expect to continue to face the 
challenges brought about by high unemployment for the foreseeable 
future.

Program Funding
    We applaud the Administration's proposal for a Workforce Innovation 
Fund. We believe that the State and local workforce boards have 
developed a host of promising practices since WIA was enacted in 1998, 
particularly in helping address the large numbers of persons dislocated 
during this recession or shut-out of the labor market due to a lack of 
appropriate skills. The Workforce Innovation Fund will allow local 
areas to engage with community partners and quickly scale effective 
practices on behalf of jobseekers in need.
    However, we strongly urge the Subcommittee to fully fund the 
administration's request for WIA formula programs before allocating 
funding for the Workforce Innovation Fund, as these formula funds are 
essential to our ability to provide services to job seekers at the 
local level around the Nation.
    The protection of the WIA formula programs to support the locally 
delivered services is critical as the system continues to deal with 
large numbers of individuals seeking work. The Continuing Resolution 
passed in April contained budget reductions that are already having the 
impact of local areas having to close and consolidate local career one-
stop centers.

Policy Riders
    NAWB would strongly encourage the committee to continue the policy 
riders that prohibit the re-designation of local areas or changes to 
the definition of administrative costs until WIA is reauthorized. There 
have been instances where there has been arbitrary action to 
reconfigure local areas and NAWB believes these riders will prevent any 
State v. local conflict until reauthorization.
    We urge the Subcommittee to continue to provide the support 
necessary for the workforce system to help our jobseekers retool for 
employment in high demand sectors and maintain our global 
competitiveness.

Summer Youth employment
    While our testimony is focused on fiscal year 2012 funding, we 
would be remiss if we did not express our support for summer youth 
funding. Youth unemployment remains at all-time highs. The unemployment 
rate in April 2011 was listed as 9 percent for the total civilian labor 
force, but for youth the rate is over 24 percent for 16-19 year olds. 
In summer 2009 utilizing ARRA funding for WIA Youth programs, 313,000 
young people had a summer job. Youth reported to us that their wages 
provided much needed income to the household for basic needs of their 
family and for the expenses in returning to school. Lack of youth funds 
imperils business finding job-ready youth to fill their employment 
needs as the ``boomer'' generation begins to retire. Serving youth that 
are at-risk and/or school drop-outs with the level of service needed 
requires intense intervention that combines academic, as well as, 
experiential learning techniques. The summer youth employment project 
allowed the system to provide youth practical work experience that 
reinforced classroom academics. Without it, employers in the private 
sector become the work-ready trainers; training that we have reason to 
believe employers are ill-prepared and/or unwilling to provide.
    We understand these budget times, but would hope that at some point 
the Congress would take-up the issue of youth unemployment and we are 
prepared to assure Congress that any additional funding for WIA Youth 
programs would allow us to better address the crisis we are facing in 
youth employment.
    Thank you for the opportunity to testify.
                                 ______
                                 
  Prepared Statement of the National Coalition for Cancer Survivorship

    It is my pleasure to submit this statement regarding fiscal year 
2012 funding for the National Institutes of Health (NIH) and the 
Centers for Disease Control and Prevention (CDC) on behalf of the 
National Coalition for Cancer Survivorship (NCCS) and the 12 million 
cancer survivors living in the United States. NCCS advocates for 
quality healthcare for survivors of all forms of cancer, and we believe 
the Federal Government should play a strong leadership role, through 
basic and clinical cancer research and delivery of survivorship 
services, to boost the quality of cancer care from diagnosis and for 
the balance of life. These research and survivorship programs should be 
conducted in partnership with private sector organizations.
    In this statement, NCCS will focus on the need for a balanced 
program of basic, translational, and clinical research at the National 
Institutes of Health (NIH) and the National Cancer Institute (NCI) as 
well as the urgent need for Centers for Disease Control and Prevention 
(CDC) leadership to strengthen educational and informational services 
for survivors and improve access to cancer screening for the medically 
underserved.
    Two recent reports--the Annual Report to the Nation on the Status 
of Cancer, 1975-2007, Featuring Tumors of the Brain and Other Nervous 
System and the Morbidity and Mortality Weekly Report of March 11, 2011, 
reporting on the number of cancer survivors in 2007--provide a 
compelling portrait of the progress the Nation has made in the fight 
against cancer, the work still to be done, and the pressing needs of 
millions of cancer survivors who are still in active treatment or 
living as long-term survivors.
    The Annual Report notes that the incidence of cancer is decreasing; 
the decrease is statistically significant for women although not for 
men, because of a recent increase in prostate cancer incidence. The 
cancer death rates are decreasing for both sexes. The decreases in 
incidence and mortality are attributed to progress in cancer 
prevention, early detection, and treatment. Despite the overall 
progress, there are increasing incidence rates for some cancers and low 
survival for certain forms of cancer. For example, pediatric cancer 
incidence is increasing, although death rates are down. The survival 
from melanoma, pancreatic cancer, liver cancer, and many forms of 
malignant brain tumors remains much too short.
    Those who do survive cancer experience a myriad of late and long-
term effects. In the editorial note accompanying the Morbidity and 
Mortality Weekly Report that found almost 12 million American cancer 
survivors, CDC stressed the need for more research to identify those 
cancer survivors at risk of recurrence, second cancers, and the late 
effects of cancer and its treatment. CDC also recommended that special 
attention be paid to the burden of survivorship for the medically 
underserved and the older cancer survivor.

Recommendations for Fiscal Year 2012 Funding
    NCCS recommends smart, effective, and aggressive Federal 
investments in initiatives to improve the quality of care and quality 
of life for cancer survivors. We recommend:
  --A strong and sustained investment in NIH and NCI in fiscal year 
        2012 to support basic, translational, and clinical research 
        aimed at answering fundamental questions about cancer, 
        advancing new and improved cancer treatments, identifying the 
        side effects of cancer treatments, and strengthening 
        interventions for the late and long term effects of cancer and 
        treatment. No reductions should be made in NIH funding in 
        fiscal year 2012, in order to prevent interruption of both 
        basic and clinical studies and to sustain the progress in 
        cancer treatment that we are making through research.
  --Steady progress in the overhaul of the NCI clinical trials system. 
        The Institute of Medicine (IOM) has outlined a plan for 
        modernizing the clinical trials system and eliminating 
        inefficiencies, and NCI leaders have taken steps to implement 
        the IOM recommendations. We urge completion of this reform 
        effort, to guarantee that patients are willing to enroll in 
        clinical research studies because they know they will be 
        studies of high quality investigating important issues and 
        treatments. An improved system will also ensure that research 
        studies are efficiently completed and questions related to new 
        treatments are answered without delay.
  --A strong investment in survivorship research that will discover 
        those at risk of late and long-term effects from cancer and 
        treatment and appropriate interventions for those individuals.
  --A sustained commitment to basic research aimed at detecting 
        subtypes of cancer and contributing to the development of 
        targeted, or personalized, cancer therapies.
  --Maintenance of the Federal cancer screening programs--including the 
        breast and cervical cancer screening program and the colorectal 
        cancer screening program--in a manner that will support 
        services to medically underserved individuals and ensure early 
        detection and diagnosis. The proposal to create a block grant 
        of chronic disease programs should not include the screening 
        programs, which do not lend themselves to effective 
        administration through a block grant.
  --A strong program of education and information regarding 
        survivorship services for the 12 million cancer survivors 
        living in the United States. CDC has provided grant funding to 
        support a survivorship resource center, and we urge that steps 
        be taken to ensure that the services offered through the center 
        reflect the latest knowledge about the problems of survivors 
        and the most appropriate interventions. Morever, special 
        populations, including the medically underserved and the 
        elderly, should be provided adequate and appropriate 
        information and services.
    Federal research and survivorship programs have yielded better 
treatments and enhanced quality of life for millions of American cancer 
patients. These programs should be sustained through continued Federal 
support so that the needs of a growing population of cancer survivors 
can be met.
                                 ______
                                 
   Prepared Statement of the National Coalition for Osteoporosis and 
                         Related Bone Diseases

    The National Coalition for Osteoporosis and Related Bone Diseases 
(Bone Coalition) would like to take this opportunity to thank you all 
for your continued visionary support of the National Institutes of 
Health--the Nation's biomedical research agency. Because of your past 
efforts and your appreciation of the potential and value of medical 
research, new scientific opportunities are being pursued that hold 
potential for better diagnosis, treatment, prevention and eventually 
cures for diseases such as osteoporosis, osteogenesis imperfecta, 
Paget's disease of bone, and a wide range of rare bone diseases.
    Recommendation.--The National Coalition for Osteoporosis and 
Related Bone Diseases joins with hundreds of health and medical 
organizations of the Ad Hoc Group for Medical Research Funding in 
urging the Committee to provide an appropriation of $35 billion in 
fiscal year 2012 for the National Institutes of Health. This increase 
will create substantial opportunities for scientific and health 
advances, while also providing key economic scientific support in 
communities across the Nation.
    Organized in the early 1990s, the Bone Coalition is dedicated to 
increasing Federal research funding for bone diseases through advocacy 
and education. Five leading national bone disease groups comprise the 
Bone Coalition: two professional societies, the American Academy of 
Orthopaedic Surgeons and the American Society for Bone and Mineral 
Research; and three voluntary health organizations, the National 
Osteoporosis Foundation, the Osteogenesis Imperfecta Foundation, and 
the Paget Foundation for Paget's Disease of Bone and Related Disorders.
    Osteoporosis and related bone diseases are omnipresent--affecting 
people of all ages, ethnicities, and gender. These diseases profoundly 
alter the quality of life and constitute a tremendous burden to 
patients, society and the economy--causing loss of independence, 
disability, pain and death. The annual direct and indirect costs for 
bone and joint healthcare are $849 billion--7.7 percent of the U.S. 
gross domestic product.
  --Osteoporosis is a bone-thinning disease in which the skeleton can 
        become so fragile that the slightest movement, even a cough or 
        a sneeze can cause a bone to fracture. About 10 million 
        Americans already have the disease, and another 34 million 
        people have low bone density, which puts them at risk for 
        osteoporosis and bone fractures. According to estimated 
        figures, osteoporosis was responsible for more than 2 million 
        fractures in 2005, including hip, spine, wrist, and other 
        fractures. The number of fractures due to osteoporosis is 
        expected to rise to more than 3 million by 2025. Approximately 
        1 in 2 women and up to 1 in 4 men over age 50 will break a bone 
        because of osteoporosis, and an average of 24 percent of hip 
        fracture patients age 50 and older will die in the year 
        following their fracture. Individuals with certain diseases are 
        at higher risk of developing osteoporosis. For example: 
        diabetes patients are at increased risk for developing an 
        osteoporosis-related fracture; cancer patients are at increased 
        risk because many cancer therapies, such as chemotherapy and 
        corticosteroids, have direct negative effects on bone; and 
        certain cancers, including prostate and breast cancer, may be 
        treated with hormonal therapy, which can cause bone loss.
  --Osteogenesis imperfecta, or ``brittle bone disease,'' is an 
        inherited genetic disorder characterized by fragile bones which 
        fracture easily, often from no apparent cause. A severely 
        affected child begins fracturing before birth. Hundreds of 
        fractures can be experienced in a lifetime, as well as hearing 
        loss, short stature, skeletal deformities, weak muscles and 
        respiratory difficulties. As many as 50,000 Americans may be 
        affected by this disease.
  --Paget's disease of bone is a geriatric disorder that results in 
        enlarged and deformed bones in one or more parts of the body. 
        Excessive bone breakdown and formation can result in bone which 
        is structurally disorganized, resulting in an overall decrease 
        in bone strength and an increase in susceptibility to bowing of 
        limbs and fractures. Pain is the most common symptom. Other 
        complications include arthritis and hearing loss if Paget's 
        disease affects the skull. Paget's disease of bone affects 1\1/
        2\ to 8 percent of older adults depending on a person's age and 
        where he or she lives. Approximately 700,000 Americans over the 
        age of 60 are affected.
    Past investments in NIH by your Committee have paid dividends for 
patients in the many advances in the bone research field, and these 
investments have had significant impact on public health. In just one 
example, researchers have recently discovered that bisphosphonate drugs 
commonly prescribed for osteoporosis and Paget's disease significantly 
reduce death rates by preventing fractures among older adults, 
producing mortality rates five times lower than those over 60 taking no 
bone medications. Years of basic research by NIH established the 
scientific foundation for development of this type of medication now 
producing significant results.
    And while progress to date has clearly been impressive, there is 
still no cure for osteoporosis, osteogenesis imperfecta, Paget's 
disease or numerous other diseases and conditions that affect the 
skeleton. Depending on the disease, the opportunity to build on recent 
discoveries for new treatments, cures and preventive measures has never 
been greater. With that in mind, the Coalition has identified the 
following areas where further intensive investigation is warranted:
    Office of the NIH Director.--The Coalition urges the Director to 
work with all relevant Institutes to enhance interdisciplinary research 
leading to targeted therapies for improving the density, quality and 
strength of bone for all Americans. More scientific knowledge is needed 
in a number of key areas involving bone and muscle, fat, and the 
central nervous system. Research is also urgently needed to improve the 
identification of populations who might require earlier treatment 
because they are at risk of rapid bone loss due to a wide range of 
conditions or diseases: obesity, diabetes, chronic renal failure, 
cancer, HIV, conditions that affect absorption of nutrients or 
medications, or addiction to tobacco, alcohol or other opiates. The 
Coalition encourages NIH to develop a plan to expand genetics and other 
research on rare bone diseases, including: osteogenesis imperfecta, 
Paget's disease of bone, fibrous dysplasia, osteopetrosis, fibrous 
ossificans progressiva, melorheostosis, X-linked hypophosphatemic 
rickets, multiple hereditary exostoses, multiple osteochondroma, 
Gorham's disease, and lymphangiomatosis.
    National Institute of Arthritis and Musculoskeletal and Skin 
Diseases (NIAMS).--The Coalition urges support for research into the 
pathophysiology of bone loss in diverse populations. The information 
gained will be critical in developing targeted therapies to reduce 
fractures and improve bone density, quality and strength. Efforts are 
needed to determine appropriate levels of calcium and vitamin D for 
bone health at different life stages. Research is also needed in 
assessing bone microarchitecture and remodeling rates for determining 
fracture risk, anabolic approaches to increase bone mass, novel 
molecular and cell-based therapies for bone and cartilage regeneration, 
and discerning the clinical utility of new, non-invasive bone imaging 
techniques to measure bone architecture and fragility. Support for 
studies on the molecular basis of bone diseases such as Paget's 
disease, osteogenesis imperfecta and other rare bone diseases should 
also be a priority.
    National Cancer Institute (NCI).--The Coalition urges 
investigations on how to repair bone defects caused by cancer cells. 
Translational research is also needed to understand the impact of 
metastasis on the biomechanical properties of bone and the mechanisms 
by which bone marrow and tumor derived cells can influence metastatic 
growth, survival and therapeutic resistance.
    National Institute on Aging (NIA).--The Coalition encourages 
research to better define the causes of age-related bone loss and 
fractures, reduced physical performance and frailty, including 
identifying epigenetic changes, with the aim of translating basic and 
animal studies into new therapeutic approaches. Critical research is 
also needed on changes in bone structure and strength with aging, and 
the relationship of age-related changes in other organ systems. The 
prevention and treatment of other metabolic bone diseases, including 
osteogenesis imperfecta, glucocorticoid-induced osteoporosis, and bone 
loss due to kidney disease should also be priority research areas.
    National Institute of Child Health and Human Development (NICHD).--
The Coalition urges research in the new, emerging field of metabolic 
disease and bone in children and adolescents, especially childhood 
obesity, anorexia nervosa and other eating disorders. Research is also 
needed on what the optimal Vitamin D levels should be in children to 
achieve bone health, and the implications of chronic or seasonal 
Vitamin D deficiency to the growing skeleton. Development and testing 
of therapies and bone building drugs for pediatric patients are also a 
pressing clinical need. The committee is encouraged by results thus far 
from the Bone Mineral Density in Childhood Study (BMDCS) that will 
serve as a valuable resource for clinicians and investigators to assess 
bone deficits in children and risk factors for impaired bone health. 
However the committee is concerned that without further funding to 
continue the study, there will be inadequate data on bone development 
in adolescents and different ethnic groups. Therefore the committee 
encourages NIH to extend the study and to explore research that will 
lead to better understanding and prevention of osteopenia and 
osteoporosis.
    National Institute of Dental and Craniofacial Research (NIDCR).--
The Coalition urges continued research support on the effects of 
systemic bone active therapeutics on the craniofacial skeleton, 
including factors predisposing individuals to osteonecrosis of the jaw, 
as well as new approaches to facilitate bone regeneration. The 
Coalition commends NIDCR for its longstanding intramural program on 
fibrous dysplasia.
    National Institute of Diabetes and Digestive and Kidney Diseases 
(NIDDK).--The Coalition encourages support for research on the 
relationship between Vitamin D and morbidity and mortality in chronic 
kidney disease. Research is also needed on the value of anti-resorptive 
therapies, the link between renal insufficiency and diabetic bone 
disease, the differences in calcification of blood vessels, the 
mechanisms of metastasis of renal cell carcinoma, and diseases that 
occurs in patients with end stage chronic renal disease on 
hemodialysis.
    National Institute of Neurological Disorders and Stroke (NINDS).--
The Coalition encourages research support into the pathophysiology of 
spinal cord, brachial plexus, and peripheral nerve injuries in order to 
develop targeted therapies to improve neural regeneration and 
functional recovery.
    National Institute of Biomedical Imaging and Bioengineering 
(NIBIB).--The Coalition encourages critical research to advance our 
ability to treat bone diseases and disorders through bone imaging, as 
well as managing the loss of bone and soft tissue associated with 
trauma by advancing tissue engineering strategies to replace and 
regenerate bone and soft tissue.

Centers for Disease Control and Prevention
    On another front, prevention is of major concern to the Coalition. 
As the population ages and the ranks of senior citizen Baby Boomers 
expand, the annual cost of acute and long-term care for osteoporosis, 
alone, is projected to increase dramatically from $19 billion annually 
to more than $25 billion by 2025. Without significant intervention now, 
chronic diseases such as osteoporosis will overwhelm efforts to contain 
healthcare costs. Thanks to medical research better diagnosis, 
prevention and screening strategies and treatment therapeutics are now 
available to address the growing problem of osteoporosis.
    The recent HHS report, ``Enhancing Use of Clinical Preventive 
Services Among Older Adults: Closing the Gap,'' calls attention to the 
potential of preventive measures for osteoporosis. The report shows new 
data outlining critical gaps with a high percentage of women on 
Medicare reporting never having received osteoporosis screenings. Yet, 
as the report states, studies have proven that osteoporosis screening 
using hip scans and follow-up management can reduce hip fractures by 36 
percent. In 1999 alone, Medicare spent more than $8 billion to treat 
injuries to seniors, with fractures accounting for two-thirds of the 
spending.
    The Coalition, therefore, urges the Director of the Centers for 
Disease Control to develop an education and outreach plan in 
consultation with the patient and medical community to begin laying the 
ground work to address osteoporosis on a public health basis.
                                 ______
                                 
         Prepared Statement of the National Consumer Law Center

    The Federal Low Income Home Energy Assistance Program (LIHEAP) \1\ 
is the cornerstone of Government efforts to help needy seniors and 
families stay warm and avoid hypothermia in the winter, as well as stay 
cool and avoid heat stress (even death) in the summer. LIHEAP is an 
important safety net program for low-income, unemployed and 
underemployed families struggling in this economy. The demand for 
LIHEAP assistance remains at record high levels for a third year in a 
row. In fiscal year 2011, the program is expected to help an estimated 
9 million low-income households afford their energy bills. The 
unemployment and poverty forecasts for fiscal year 2012 indicate that 
the number of struggling households will also remain at these high 
levels. In light of the crucial safety net function of this program in 
protecting the health and well-being of low-income seniors, the 
disabled, and families with very young children, we respectfully 
request that LIHEAP be fully funded at its authorized level of $5.1 
billion for fiscal year 2012 and that advance funding of $5.1 billion 
be provided for the program in fiscal year 2013.
---------------------------------------------------------------------------
    \1\ 42 U.S.C. Sec. Sec. 8621 et seq.
---------------------------------------------------------------------------
LIHEAP Provides Critical Help With Home Energy Bills for The Large 
        Number of Low-Income Households Struggling to Move Forward in 
        These Difficult Economic Times
    Funding LIHEAP at $5.1 billion for the regular program in fiscal 
year 2011 is essential in light of the sharp increase in poverty and 
unemployment and the steady climb in home energy prices in recent 
years.\2\ One indicator of the growing need for energy assistance is 
the growing number of disconnections. In States like Ohio that track 
utility disconnections, the disconnection numbers for gas and electric 
residential customers have increased by 23.9 percent over 5 years. For 
the year ending December 2010, there were 452,221 disconnections. For 
the year ending December 2006, there were 364,912 gas and electric 
disconnections. For the years ending December 2009, 2008, and 2007, 
there were 476,490, 424,952, and 424,411 gas and electric 
disconnections respectively. LIHEAP helps bring the cost of essential 
heating and cooling within reach for an estimated 9 million low-income 
households and helps keep these struggling households connected to 
essential utility service.
---------------------------------------------------------------------------
    \2\ See, Chad Stone, Arloc Sherman and Hannah Shaw, 
Administration's Rational For Severe Cut in Low-Income Home Energy 
Assistance is Weak, Figure 2 (CBPP calculation of winter fuel price 
index from EIA) Center on Budget and Policy Priorities, February 18, 
2011.
---------------------------------------------------------------------------
    The demand for LIHEAP increases when residential home energy prices 
increase, such as the fly up in home heating oil and propane in the 
winter of fiscal year 2011.\3\ Since the winter of 2005-2006, energy 
costs have increased from $1,337 to $2,291 for households heating with 
home heating oil; $1,275 to $2,040 for households heating with propane, 
and $723 to $947 for households heating with electricity. Households 
heating with natural gas have experience more moderate increases from 
$813 to $990. Home energy is also more expensive during prolonged 
periods of extreme temperatures because households use more fuel to 
keep the home at safe temperatures. For example, a colder than normal 
winter can result in higher heating bills than in years past. The third 
variable that drives up the demand for LIHEAP is the number of 
households that are struggling with unemployment, underemployment and 
the number of households in poverty.
---------------------------------------------------------------------------
    \3\ Id.
---------------------------------------------------------------------------
    Unfortunately, the number of households that are struggling to make 
ends meet remains very high. According a Pew Fiscal Analysis Initiative 
report, as of December 2010, 30 percent of the 14 million unemployed 
have been unemployed for a year or longer.\4\ While long-term 
unemployment has affected all age groups, older workers have been hit 
particularly hard by this downturn.\5\ CBO's budget and economic 
outlook report projects that unemployment will be 8.2 percent by the 
fourth quarter in fiscal year 2012, far from the 5.3 percent that CBO 
estimates is the natural rate of unemployment.\6\ A recent Brookings 
Center on Children & Families analysis looks at the correlation between 
unemployment rates and poverty rates and estimates that the poverty 
rate will increase to over 15 percent in 2012.\7\ Thus indications are 
that the demand for LIHEAP in fiscal year 2012 will remain very strong 
as this program helps struggling households in a number of ways. LIHEAP 
protects the health and safety of the frail elderly, the very young and 
those with chronic health conditions, such as diabetes, that increase 
susceptibility to temperature extremes. LIHEAP assistance also helps 
keep families together by keeping homes habitable during the bitter 
cold winter and sweltering summers.
---------------------------------------------------------------------------
    \4\ Pew Economic Policy Group Fiscal Analysis Initiative, Addendum: 
A Year or More: The High Cost of Long-Term Unemployment, January 27, 
2011.
    \5\ Id. (``More than 40 percent of unemployed workers older than 55 
have been out of work for at least a year'').
    \6\ CBO, The Budget and Economic Outlook: Fiscal Years 2011 to 
2021, Summary (January 2011 at Summary Table 2).
    \7\ Emily Monea and Isabel Sawhill, An Update to ``Simulating the 
Effect of the `Great Recession' on Poverty'', Brookings Center on 
Children and Families (September 16, 2010).
---------------------------------------------------------------------------
LIHEAP Is a Critical Safety Net Program for the Elderly, the Disabled 
        and Households With Young Children
    Dire Choices and Dire Consequences.--Recent national studies have 
documented the dire choices low-income households face when energy 
bills are unaffordable. Because adequate heating and cooling are tied 
to the habitability of the home, low-income families will go to great 
lengths to pay their energy bills. Low-income households faced with 
unaffordable energy bills cut back on necessities such as food, 
medicine and medical care.\8\ The U.S. Department of Agriculture has 
released a study that shows the connection between low-income 
households, especially those with elderly persons, experiencing very 
low food security and heating and cooling seasons when energy bills are 
high.\9\ A pediatric study in Boston documented an increase in the 
number of extremely low weight children, age 6 to 24 months, in the 3 
months following the coldest months, when compared to the rest of the 
year.\10\ Clearly, families are going without food during the winter to 
pay their heating bills, and their children fail to thrive and grow. A 
2007 Colorado study found that the second leading cause of homelessness 
for families with children is the inability to pay for home energy.\11\
---------------------------------------------------------------------------
    \8\ See e.g., National Energy Assistance Directors' Association, 
2008 National Energy Assistance Survey, Tables in section IV, G and H 
(April 2009) (to pay their energy bills, 32 percent of LIHEAP 
recipients went without food, 42 percent went without medical or dental 
care, 38 percent did not fill or took less than the full dose of a 
prescribed medicine, 15 percent got a payday loan). Available at http:/
/www.neada.org/communications/press/2009-04-28.htm.
    \9\ Mark Nord and Linda S. Kantor, Seasonal Variation in Food 
Insecurity Is Associated with Heating and Cooling Costs Among Low-
Income Elderly Americans, The Journal of Nutrition, 136 (Nov. 2006) 
2939-2944.
    \10\ Deborah A. Frank, MD et al., Heat or Eat: The Low Income Home 
Energy Assistance Program and Nutritional and Health Risks Among 
Children Less Than 3 years of Age, AAP Pediatrics v.118, no.5 (Nov. 
2006) e1293-e1302. See also, Child Health Impact Working Group, 
Unhealthy Consequences: Energy Costs and Child Health: A Child Health 
Impact Assessment Of Energy Costs And The Low Income Home Energy 
Assistance Program (Boston: Nov. 2006) and the Testimony of Dr. Frank 
Before the Senate Committee on Health, Education, Labor and Pensions 
Subcommittee on Children and Families (March 5, 2008).
    \11\ Colorado Interagency Council on Homelessness, Colorado 
Statewide Homeless Count Summer, 2006, research conducted by University 
of Colorado at Denver and Health Sciences Center (Feb. 2007).
---------------------------------------------------------------------------
    When people are unable to afford paying their home energy bills, 
dangerous and even fatal results occur. In the winter, families resort 
to using unsafe heating sources, such as space heaters, ovens and 
burners, all of which are fire hazards. Space heaters pose 3 to 4 times 
more risk for fire and 18 to 25 times more risk for death than central 
heating. In 2007, space heaters accounted for 17 percent of home fires 
and 20 percent of home fire deaths.\12\ In the summer, the inability to 
keep the home cool can be lethal, especially to seniors. According to 
the CDC, older adults, young children and persons with chronic medical 
conditions are particularly susceptible to heat-related illness and are 
at a high risk of heat-related death. The CDC reports that 3,442 deaths 
resulted from exposure to extreme heat during 1999-2003.\13\ The CDC 
also notes that air-conditioning is the number one protective factor 
against heat-related illness and death.\14\ LIHEAP assistance helps 
these vulnerable seniors, young children and medically vulnerable 
persons keep their homes at safe temperatures during the winter and 
summer and also funds low-income weatherization work to make homes more 
energy efficient.
---------------------------------------------------------------------------
    \12\ John R. Hall, Jr., Home Fires Involving Heating Equipment 
(Jan. 2010) at ix and 33. Also, 40 percent of home space heater fires 
involve devices coded as stoves.
    \13\ CDC, ``Heat-Related Deaths--United States, 1999-2003'' MMWR 
Weekly, July 28, 2006.
    \14\ CDC, ``Extreme Heat: A Prevention Guide to Promote Your 
Personal Health and Safety'' available at http://emergency.cdc.gov/
disasters/extremeheat/heat_guide.asp.
---------------------------------------------------------------------------
    LIHEAP is an administratively efficient and effective targeted 
health and safety program that works to bring fuel costs within a 
manageable range for vulnerable low-income seniors, the disabled and 
families with young children. LIHEAP must be fully funded at its 
authorized level of $5.1 billion in fiscal year 2012 in light of 
unaffordable, but essential heating and cooling needs of millions of 
struggling households due to the record high unemployment levels.
    In addition, fiscal year 2013 advance funding would facilitate the 
efficient administration of the State LIHEAP programs. Advance funding 
provides certainty of funding levels to States to set income guidelines 
and benefit levels before the start of the heating season. States can 
also better plan the components of their program year (e.g., amounts 
set aside for heating, cooling and emergency assistance, 
weatherization, self-sufficiency and leveraging activities) if there is 
forward funding. Forward funding is critical to LIHEAP running 
smoothly.
                                 ______
                                 
     Prepared Statement of the National Council of Social Security 
                        Management Associations

    On behalf of the National Council of Social Security Management 
Associations (NCSSMA), thank you for the opportunity to submit our 
written testimony on the fiscal year 2012 funding for the Social 
Security Administration (SSA) to the Subcommittee. I am the President 
of NCSSMA and have been the District Manager of the Social Security 
office in Newburgh, New York for 10 years. I have worked for the Social 
Security Administration for 31 years, with 27 years in management.
    NCSSMA is a membership organization of nearly 3,400 SSA managers 
and supervisors who provide leadership in 1,299 community based Field 
Offices and Teleservice Centers throughout the country. We are the 
front-line service providers for SSA in communities all over the 
Nation. We are also the Federal employees with whom many of your staff 
members work to resolve problems and issues for your constituents who 
receive Social Security retirement, survivors and disability benefits, 
and Supplemental Security Income. Since the founding of our 
organization over 41 years ago, NCSSMA has considered our top priority 
to be a strong and stable Social Security Administration, one that 
delivers quality and prompt locally delivered service to the American 
public. We also consider it a top priority to be good stewards of the 
taxpayers' moneys.
    Appropriations to the Social Security Administration are an 
excellent investment and return on taxpayer dollars. We are very 
appreciative of the support for SSA funding the Subcommittee has 
provided in recent years. The additional funding SSA received in fiscal 
years 2008-2010 helped significantly to prevent workloads from 
spiraling out of control and assisted with improving service to the 
American public.
    NCSSMA strongly supports the President's fiscal year 2012 budget 
request for SSA. The total SSA budget request is $12.667 billion, which 
includes $12.522 billion in administrative funding through the 
Limitation on Administrative Expenses (LAE) account. We respectfully 
request that the Subcommittee provides at the least the President's 
full budget request for SSA in fiscal year 2012. Full funding of this 
request is critical to maintain staffing in SSA's front-line 
components, cover inflationary increases, continue efforts to reduce 
hearing and disability backlogs, and increase deficit-reducing program 
integrity work.

Current State of SSA Operations
    NCSSMA has critical concerns about the dramatic growth in SSA 
workloads, and the need to receive necessary funding to maintain 
service levels vital to 60 million Americans. Despite agency strategic 
planning, expansion of online services, significant productivity gains, 
and the best efforts of management and employees, SSA is still faced 
with many challenges to providing the service that the American public 
has earned and deserves.
    Over the last 7 years, SSA has experienced a dramatic increase in 
Retirement, Survivor, Dependent, Disability, and Supplementary Security 
Income (SSI) claims. The additional claims receipts are driven by the 
initial wave of the nearly 80 million baby boomers who will be filing 
for Social Security benefits by 2030--an average of 10,000 per day! 
Concurrently, there has been a surge in claims filed due to poor 
economic conditions and rising unemployment levels.
    The need for resources in SSA Field Offices is critical to process 
these additional claims and provide other vital services to the 
American public. Field Offices are responsible for processing 2.4 
million SSI redeterminations in fiscal year 2011, a 100 percent 
increase compared to fiscal year 2008. Nationally, visitors to Field 
Offices increased from 41.9 million in fiscal year 2007 to 45.4 million 
in fiscal year 2010. SSA is also experiencing unprecedented telephone 
call volumes, and in fiscal year 2010, SSA completed 67 million 
transactions over the 800 number network--the most ever. In addition to 
the transactions over the 800 number network, NCSSMA estimates that 
Field Offices receive 32 million public telephone contacts annually.

SSA Funding for Fiscal Year 2011
    NCSSMA strongly supported the President's fiscal year 2011 budget 
request of $12.379 billion for SSA's administrative expenses. Much of 
this increase was needed to cover inflationary costs for fixed 
expenses. Funding at this level would have assured that SSA could meet 
its public service obligations. Despite SSA's enormous challenges, with 
the Federal deficit concerns, attaining this level of funding was not 
possible. SSA's fiscal year 2011 appropriation for administrative 
funding through the LAE account was $10.7755 billion, which is $25 
million below the fiscal year 2010 enacted level and $275 million was 
rescinded from SSA's Carryover Information Technology funds.
    Inadequate funding of SSA in fiscal year 2011 and additional 
rescissions will have major repercussions for SSA including a hiring 
freeze, reduction of overtime, and postponements of initiatives to 
improve efficiency. Reducing resources at the same time SSA workloads 
are increasing is a prescription for making a very productive agency 
that efficiently uses the taxpayers' moneys into one with significant 
service delays and backlogs. Service deterioration and backlogs 
resulting from inadequate fiscal year 2011 funding levels will have a 
collateral negative impact on fiscal year 2012.

Field Office Service Delivery Challenges
    SSA Field Offices are experiencing tremendous stress because of 
increased workloads and additional visitors. The effect of funding SSA 
in fiscal year 2011 below fiscal year 2010 levels exacerbates the 
situation and has already had a significant impact on local Field 
Offices around the country.
  --Frontline feedback from our busiest urban offices indicates that 
        some have seen their visitor traffic explode with overflowing 
        reception areas and increased waiting times.
  --Most of SSA has been under a hiring freeze because of the current 
        funding situation. A hiring freeze for all of fiscal year 2011 
        could result in a loss of over 2,500 SSA Federal employees.
  --A November 2010, Office of the Inspector General (OIG) Report, 
        ``Threats against SSA employees or Property,'' indicates, ``SSA 
        has experienced a dramatic increase in the number of reported 
        threats against its employees or property. The number of 
        threats . . . increased by more than 50 percent in fiscal year 
        2009 and by more than 60 percent in fiscal year 2010.''
  --SSA projects 50 percent of its employees, including 66 percent of 
        supervisors, will be eligible to retire by fiscal year 2018. 
        Serious concerns exist about SSA's ability to sustain service 
        levels with the tremendous loss of institutional knowledge from 
        front-line personnel.
  --Geographical staffing disparities will occur with attrition leaving 
        some offices significantly understaffed. This is problematic 
        for rural SSA Field Offices, whose customers often live vast 
        distances away, may have no Internet service, and lack access 
        to public transportation.

SSA Online eServices to Assist with Service Delivery Challenges
    The expansion of services available to the American public via the 
Internet has helped to alleviate the number of visitors and telephone 
calls to SSA. However, the Internet is not keeping pace with the 
increasing demand for service. High-volume transactions, such as Social 
Security cards and benefit verifications are not available on the 
Internet, or are only being used to a limited degree. This represents 
over 40 percent of the 45.4 million visitors to SSA Field Offices.
    NCSSMA believes that SSA must be properly funded in fiscal year 
2012 and beyond so that it may continue to invest in improved user-
friendly online services to allow more online transactions. If 
individuals were able to successfully transact their request for 
services online, this would result in fewer contacts with Field 
Offices, improved efficiencies, and better public service.

Disability Workload Processes
    Nationwide, over 3.2 million new disability claims were filed and 
sent to State Disability Determination Services in fiscal year 2010. 
This surge of increased claims has created backlogs. At the end of 
fiscal year 2010, the number of pending initial disability claims was 
at an all-time high of 824,192 cases--a 46 percent increase from the 
end of fiscal year 2008. SSA's largest backlogs are hearings, appealing 
initial disability decisions processed by the Office of Disability 
Adjudication and Review. Hearing receipts continue to rise, and through 
April 2011, 734,666 hearings were pending which is over 29,000 more 
hearings than at the end of fiscal year 2010.
    Despite these unprecedented challenges, SSA continues to make 
progress. In March 2011, the average processing time for a hearing was 
359 days, the lowest level since December 2003. Unfortunately, the 
number of claims and hearings pending is still not acceptable to 
Americans who need Social Security to support their families. Progress 
was undermined by the fiscal year 2011 budget impasse, resulting in the 
suspension of opening eight planned Hearing Offices in Alabama, 
California, Indiana, Michigan, Minnesota, Montana, New York, and Texas. 
This significantly threatens to prevent SSA from eliminating the 
hearings backlog by fiscal year 2013.
    It is important to understand that annual appropriated funding 
levels for SSA have a critical impact on the hearings backlog. One of 
the most significant reasons for the increase in the hearings backlog 
was the significant underfunding of SSA from fiscal year 2004 through 
fiscal year 2007.

President's Proposed Fiscal Year 2012 SSA Budget
    NCSSMA strongly supports the President's fiscal year 2012 budget 
request for SSA and requests that Congress provide full funding to 
sustain the momentum achieved to allow the agency to:
  --Reduce the initial disability claims backlog to 632,000 by 
        processing over 3 million claims;
  --Conduct disability hearings for 822,500 cases and reduce the 
        waiting time for a hearing decision below a year for the first 
        time in a decade;
  --Reduce pending hearings to 597,000 from the fiscal year 2010 level 
        of 705,367; and
  --Complete additional program integrity workloads yielding nearly 
        $9.3 billion in savings over 10 years, including Medicare and 
        Medicaid savings--process 592,000 medical Continuing Disability 
        Reviews (CDRs) and 2.6 million SSI redeterminations.
    SSA issues $800 billion in benefit payments annually to 60 million 
people and the agency takes its stewardship responsibilities seriously. 
The fiscal year 2012 budget request includes $938 million dedicated to 
program integrity. Investment in program integrity reviews saves 
taxpayer dollars and is fiscally prudent in reducing the Federal budget 
and deficit.
  --CDRs determine whether an individual is still disabled, or if 
        benefits should be ceased because of medical improvement. SSA 
        has accumulated a backlog of nearly 1.5 million CDRs. Medical 
        CDRs yield $10 in lifetime program savings for every $1 spent.
  --SSI redeterminations review nonmedical factors of eligibility, such 
        as income and resources, to identify payment errors. SSI 
        redeterminations yield a return on investment of $7 in program 
        savings over 10 years for each $1 spent, including Medicaid 
        savings accruals.
    NCSSMA recommends consideration of legislative proposals included 
in the fiscal year 2012 budget request, which can improve the effective 
administration of the Social Security program, with minimal effect on 
program dollars. We believe these proposals have the potential to 
reduce operational costs and increase administrative efficiency. This 
includes enacting the Work Incentives Simplification Pilot, requiring 
quarterly reporting of wages, workers compensation automatic reporting, 
and developing an automated system to report state and local pensions.

Conclusion
    NCSSMA recognizes in the current budget environment that it will be 
difficult to provide adequate funding for SSA. However, Social Security 
is one of the most successful Government programs in the world and 
touches the lives of nearly every American family. We are a very 
productive agency and a key component of the Nation's economic safety 
net for the aged and disabled, but sufficient resources are necessary. 
A strong Social Security program equates to a strong America and it 
must be maintained as such for future generations.
    NCSSMA sincerely appreciates the Subcommittee's interest in the 
vital services Social Security provides, and your ongoing support to 
ensure SSA has the resources necessary to serve the American public. We 
respectfully request your support of full funding of the President's 
fiscal year 2012 budget request on behalf of our agency and the 
American public we serve. We remain confident increased investments in 
SSA will benefit our entire Nation.
    On behalf of NCSSMA members nationwide, thank you for the 
opportunity to submit this written testimony. We respectfully ask that 
you consider our comments, and would appreciate any assistance you can 
provide in ensuring the American public receives the critical and 
necessary service they deserve from the Social Security Administration.
                                 ______
                                 
       Prepared Statement of the National Head Start Association

    Chairman Harkin, Ranking Member Shelby, and Members of the 
Subcommittee, thank you for allowing the National Head Start 
Association (NHSA) to submit written testimony in support of funding 
for Head Start and Early Head Start. As the Head Start community's 
voice, NHSA believes that Head Start centers nationwide need the 
resources necessary to provide quality school readiness opportunities 
for young children and their families. The essence of Head Start is a 
national commitment to provide critical early education, health, 
nutrition, child care, parent involvement and family support services 
in return for a lifelong measurable impact on the low-income children 
and families enrolled in Head Start. Today, as our Nation's children 
face greater obstacles than ever before, there is a significant need to 
prepare the next generation for success in school and later in life, 
and Head Start has a proven track record of accomplishing this. The 
Head Start community is pleased to offer the following recommendation 
to Congress as it begins its consideration of fiscal year 2012 funding 
levels.
    NHSA is grateful that the President and Congress made a solid 
commitment to quality early childhood education in the fiscal year 2011 
Continuing Resolution by providing the funds necessary to at least 
maintain services for children currently served by Head Start and Early 
Head Start programs across the country. Quality early education 
prepares the Nation's youngest children for a lifetime of learning. In 
fact, studies show that for every $1 invested in a Head Start child, 
society earns at least $7 back through increased earnings, employment, 
and family stability; and decreased welfare dependency, crime costs, 
grade repetition, and special education. NHSA supports President 
Obama's fiscal year 2012 budget request for $8.1 billion for Head Start 
and Early Head Start. These funds will enable Head Start and Early Head 
Start centers to continue to serve the entire, increasingly vulnerable 
Head Start community for an additional school year, and complete some 
necessary program improvements both to ensure accountability and 
quality, as well as meet the requirements of the 2007 Head Start 
Reauthorization Act.

Increased Needs of an Increased At-Risk Population
    One of Head Start's greatest challenges is an increasingly needy 
population--both among those served and those eligible for service. 
Today more than one in five children are born into poverty--less than 
$22,050 per year for a family of four. In many areas, Head Start 
directors are seeing a rapid increase of homeless families/children 
enrolled. The Administration's request aims to address some of this 
growing need by allocating a significant portion of the additional 
funds to increasing the number of available Migrant and Seasonal, and 
American Indian and Alaskan Native spaces.
    Though funding for Head Start has increased in recent budget years, 
the cost of serving families has risen at a much faster pace. When 
surveyed, a full 83 percent of Head Start centers reported that their 
costs have increased just over the past year--in fact, 25 percent of 
those who responded report that their fixed costs, including 
maintenance, transportation, and insurance, have increased by more than 
11 percent over the last 12 months. This puts many local centers in the 
awkward position of choosing between serving fewer children and 
families better and according to the statutory quality standards, or 
serving as many as possible with perhaps lesser quality.
    Additionally, Head Start and Early Head Start centers often do not 
have adequate resources during the enrollment process to perform a 
comprehensive needs assessment on all potential enrollees. 
Specifically, targeted funds would enable center directors to 
coordinate more fully with families before enrollment to determine 
their needs and match those needs with the capacity of the center, and 
work with partner organizations that may be better equipped to handle 
special issues. In Kansas City, Kansas, the Project EAGLE Community 
Programs has implemented a sort of ``community triage'' system, whereby 
families are assessed more fully, and dollars are spent much more 
wisely. This approach may also enable many more at-risk families that 
were previously on Head Start waiting lists to receive assistance from 
a multitude of partnering organizations--placing perhaps a higher 
income, yet still impoverished family to a more fitting type of service 
provider and providing a waiting list slot for a needier family.
    Though Head Start and Early Head Start centers are able to accept a 
limited number of children from families with incomes slightly above 
the poverty threshold (up to 130 percent, or $29,055 for a family of 
four) and are required to accept children with special needs, the Head 
Start community shares a commitment to identifying and targeting 
resources, especially in these economic circumstances, to the absolute 
neediest of families. Additional program funds to enable better 
monitoring, needs-assessments, and collaboration will assist Head Start 
providers in meeting this goal.

Necessary Accountability Improvements
    Head Start and Early Head Start directors are also eager for the 
Administration on Children and Families to fully implement the quality 
improvement provisions included in the 2007 Head Start Reauthorization. 
The law put in place new minimum education requirements for Head Start 
and Early Head Start teachers and caretakers. Though employing highly 
qualified individuals is a goal shared by the National Head Start 
Association, the education requirements necessitate a higher salary 
range in many areas to attract and keep these highly educated 
professionals, putting a strain on the administrative budgets of Head 
Start and Early Head Start Centers. Head Start directors, when 
surveyed, report that they are having difficulty competing with other 
educational entities in their services areas; in many cases, they 
cannot match the salaries provided to qualified individuals in the K-12 
system or in other private pre-schools.
    One of the most anticipated provisions yet to be implemented will 
require Head Start grantees designated as low-performing to compete for 
continuation of their grant. This competition is an enormous 
undertaking for the Office of Head Start and will certainly require 
additional funds to design, fully staff, and execute.
    However, the law also enables the creation of rigorous performance 
standards for each Head Start and Early Head Start center. These have 
not yet been publicly drafted or finalized, though the Head Start 
community is eager to work with Office of Head Start to inform the 
effective design and implementation of these performance standards. 
Further, we hope that the centers can be evaluated against these new 
standards, particularly as they relate to the impending recompetition/
redesignation. We very much hope that Congress includes report language 
directing the Administration to ensure that Head Start and Early Head 
Start grantees are given the opportunity to realign and monitor 
themselves against the full set of new performance standards before 
being judged as to whether they will be subject to a recompetition/
redesignation. This will ensure that all grantees, in all areas, are 
judged on consistent standards in competitions going forward.

Maintenance of Quality
    Lastly, the National Head Start Association supports the 
Administration's proposal to provide $202 million for Training and 
Technical Assistance Activities. Within those funds, we suggest that 
Congress direct the Administration to continue supporting the 10 
Centers of Excellence in Early Childhood that were named last year--in 
the following localities: Greensburg, Pennsylvania; Baltimore, 
Maryland; Mount Vernon, Ohio; Houghton, Michigan; Owensboro, Kentucky; 
Morganton, North Carolina; Birmingham, Alabama; Denver, Colorado; 
Albuquerque, New Mexico; and Dunkirk, New York. Head Start directors 
very much value the advice of fellow practitioners, and the resources 
and tools these Centers have designed and provided to the Head Start 
community are considered effective, well-designed, and serve as models 
for other Head Start and Early Head Start programs to emulate. Their 
innovative practices and collaborative community approaches will be in 
more demand as practitioners adjust to the requirements of the 2007 
law.

Head Start Works
    Since 1965, Head Start (and now Early Head Start as well) has been 
providing a proven, evidence-based comprehensive program to prepare at-
risk children and families for a stable, successful life. Head Start 
improves the odds and the options for at-risk kids for a lifetime. Kids 
that have been through Head Start and Early Head Start are healthier, 
more academically accomplished, more likely to be employed, commit 
fewer crimes, and contribute more to society. Head Start is a smart 
investment--one of the smartest and most effective we make. Study after 
study has demonstrated that Head Start has yielded a benefit-cost ratio 
as large as $7 to $1.\1\
---------------------------------------------------------------------------
    \1\ Ludwig, J. and Phillips, D. (2007). The Benefits and Costs of 
Head Start. Social Policy Report. 21 (3: 4); Meier, J. (2003, June 20). 
Interim Report. Kindergarten Readiness Study: Head Start Success. 
Preschool Service Department, San Bernardino County, California.
---------------------------------------------------------------------------
    Head Start saves our hard-earned tax dollars by decreasing the need 
for children to receive special education services in elementary 
schools.\2\ For example, data analysis of a recent Montgomery County 
Public Schools evaluation found that a MCPS child receiving full-day 
Head Start services requires 62 percent fewer special education 
services and saves taxpayers $10,100 per child annually.\3\ States can 
save $29,000 per year for each prisoner that they incarcerate because 
Head Start children are 12 percent less likely to have been charged 
with a crime.\4\
---------------------------------------------------------------------------
    \2\ Barnett, W. (2002, September 13). The Battle Over Head Start: 
What the Research Shows. Presentation at a Science and Public Policy 
Briefing Sponsored by the Federation of Behavioral, Psychological, and 
Cognitive Sciences.
    \3\ NHSA Public Policy and Research Department analysis of data 
from a Montgomery County Public Schools evaluation. See Zhao, H. & 
Modarresi, S. (2010, April). Evaluating lasting effects of full-day 
prekindergarten program on school readiness, academic performance, and 
special education services. Office of Shared Accountability, Montgomery 
County Public Schools.
    \4\ Reuters. (2009, March). Cost of locking up Americans too high: 
Pew study; Garces, E., Thomas, D. and Currie, J. (2002, September). 
Longer-term effects of Head Start. American Economic Review, 92 (4): 
999-1012.
---------------------------------------------------------------------------
    Head Start families with increased health literacy experience 
immediate healthcare benefits, including lower Medicaid costs--on 
average $232 lower per family. The program has also reduced mortality 
rates for 5- to 9-year olds by as much as 50 percent.\5\ Studies have 
shown that the program reduces healthcare costs for employers and 
individuals because Head Start children are less obese, \6\ 8 percent 
more likely to be immunized, \7\ and 19 to 25 percent less likely to 
smoke as an adult.\8\
---------------------------------------------------------------------------
    \5\ Ludwig, J. and Phillips, D. (2007) Does Head Start improve 
children's life chances? Evidence from a regression discontinuity 
design. The Quarterly Journal of Economics, 122 (1): 159-208.
    \6\ Frisvold, D. (2006, February). Head Start participation and 
childhood obesity. Vanderbilt University Working Paper No. 06-WG01.
    \7\ Currie, J. and Thomas, D. (1995, June). Does Head Start Make a 
Difference? The American Economic Review, 85 (3): 360.
    \8\ Anderson, K.H., Foster, J.E., & Frisvold, D.E. (2009). 
Investing in health: The long-term impact of Head Start on smoking. 
Economic Inquiry, 48 (3), 587-602.
---------------------------------------------------------------------------
    And these benefits last a lifetime. Head Start produces measurable, 
long-term results such as school-readiness, increased high school 
graduation rates, and reduced needs for special education. And the more 
than 27 million Head Start graduates are working every day in our 
communities to make our country and our economy strong.
    The Head Start community understands the budgetary pressures the 
Federal Government is facing and while reductions in early childhood 
education may produce short-term savings, as a Nation we cannot afford 
the lasting impact such cuts would impose on our most vulnerable 
children today and on our children's futures. The research shows that 
the ``achievement gap'' is apparent as early as the age of 18 months--
we will spend substantially more downstream if these same young people 
are not prepared to graduate high-school, attend college and lead 
prosperous lives. We urge the Subcommittee to fully fund the 
President's budget request of $8.1 billion for Head Start and Early 
Head Start in fiscal year 2012.
    Thank you for your time and consideration.
                                 ______
                                 
           Prepared Statement of the National Health Council

    The National Health Council (NHC) is the only organization of its 
kind that brings together all segments of the healthcare community to 
provide a united voice for the more than 133 million people with 
chronic diseases and disabilities and their family caregivers. Made up 
of more than 100 national health-related organizations and businesses, 
its core membership includes approximately 50 of the Nation's leading 
patient advocacy groups, which control its governance. Other members 
include professional societies and membership associations, nonprofit 
organizations with an interest in health, and major pharmaceutical, 
medical device, biotechnology, and insurance companies.
    The NHC is well aware of the challenging fiscal environment facing 
the Subcommittee--indeed the entire country. We recognize that Federal 
resources must be carefully targeted to ensure that such investments 
produce the greatest good for the American people. This will involve 
very tough decisions on healthcare priorities by the Subcommittee.
    As work begins on the fiscal year 2012 Labor-HHS appropriations 
bill, the NHC urges the Subcommittee to take a ``global'' view of the 
healthcare system as it identifies funding priorities for the coming 
year. The NHC and its membership, particularly those groups 
representing the patient community, stress that no one aspect of the 
healthcare system--research, public health, healthcare delivery--can be 
considered as a separate, stand-alone component. For a true benefit and 
service to the American people, especially those living with chronic 
conditions, the healthcare system must function through the effective 
and productive interaction of its many parts.
    NHC's members have specific interests that span the entire 
healthcare system. However, a recent survey of our members demonstrated 
that they share a common concern for the entire continuum of the 
healthcare system.
    One aspect of the healthcare system that is of concern to the NHC 
is patient access to care. With healthcare costs rising and a growing 
number of uninsured Americans, far too many people living with chronic 
conditions are not able to access the care needed to maintain their 
health and productivity. This is a concern not just for each individual 
patient but the health system as a whole, which will face greater costs 
due to declining public health. While the NHC views the entire 
healthcare system as important, we recognize that the most vitally 
important piece is for patients to be able to obtain high quality, 
patient-focused care. Without this, the various components are unable 
to serve their intended function and the system as a whole falters.
    Another large concern of the patient community is the lack of 
effective cures and treatments. Too many people who are facing serious 
and life-threatening conditions are doing so without the hope of a cure 
or even a treatment for their symptoms. Funding for biomedical research 
at the National Institutes of Health (NIH) offers this hope. But the 
drug development pipeline does not end with the NIH. Many therapeutics 
are taking longer to reach patients due to a backlog at the Food and 
Drug Administration (FDA). While the scope of FDA regulation has grown 
to the point that it is now regulating one-third of the U.S. economy, 
the agency's funding has remained relatively consistent. This fact is 
troubling to the patient advocacy organizations that represent people 
who lack effective cures and treatments. Both NIH and FDA must be 
adequately funded to increase the likelihood that these patients will 
live longer, healthier, and more productive lives.
    The NHC appreciates the opportunity to submit this written 
testimony to the Subcommittee. We understand that you face many hard 
decisions and again urge that you focus on the healthcare system as 
continuum that patients must be able to access in order to best serve 
the needs of Americans living with chronic conditions.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
   Prepared Statement of the National Healthy Mothers Healthy Babies 
                               Coalition

    Highlighting the urgent need to address the startling infant 
mortality rates in the United States by strengthening programs at 
HRSA's Maternal and Child Health Bureau.
    Mr. Chairman and Members of the Subcommittee, thank you for giving 
the National Healthy Mothers, Healthy Babies Coalition (HMHB) the 
opportunity to provide testimony as the Subcommittee begins to consider 
funding priorities for fiscal year 2012. My name is Judy Meehan and I 
am the Chief Executive Officer of HMHB, an organization founded in 
1981, prompted by the U.S. Surgeon General's conference on infant 
mortality. Since its founding, HMHB has become a recognized leader and 
resource in maternal and child health, reaching an estimated 10 million 
healthcare professionals, parents, and policymakers annually through 
its membership of over 100 local, State and national organizations.
    Mr. Chairman, I would like to limit my testimony today to discuss 
an exciting program of HMHB, referred to as the text4baby program. This 
program is focused on improving the health outcomes of mothers and 
babies and demonstrating the potential of mobile health technology to 
reach underserved populations with critical health information. Of the 
33 countries that the International Monetary Fund describes as 
``advanced economies'' the United States now has the highest infant 
mortality rate according to data from the World Bank. In 1980, we were 
13th and in 2000 we were 2d. In the United States approximately 28,000 
babies die before their first birthday, despite a volume of science 
around behaviors that improve a baby's chances for a healthy birth and 
opportunity to thrive. The text4baby program was launched to help 
address this problem.
    Though the text4baby program has been financed by generous funding 
from Founding Sponsor Johnson & Johnson, with technical and in-kind 
support from Voxiva and CTIA--The Wireless Foundation, we are hopeful 
that with your leadership, the Health Resources and Services Maternal 
and Child Health Bureau can commit to helping us expand this program in 
two States where there is demonstrated and significant need. The 
Maternal and Child Health Block Grant program provides a flexible 
source of funding that allows States to target their most urgent 
maternal and child health needs. The program supports a broad range of 
activities including reducing infant mortality. HMHB recommends that 
funding from within the base of the block grant's Special Projects of 
Regional and National Significance (SPRANS) be provided to text4baby so 
that enrollment in this program could be expanded to targeted and 
special populations in Louisiana and Mississippi, the two States that 
have the worst infant mortality outcomes. Mr. Chairman, HMHB also 
recommends fiscal year 2012 funding for the Maternal and Child Health 
Block Grant program of $695 million, an increase of $33 million or 5 
percent above the level provided in the fiscal year 2011 continuing 
resolution.

Text4baby Program
    Text4baby, a free mobile information service designed to promote 
maternal and child health, was developed to deliver evidence-based 
health information to the women who need it most: the 1.5 million women 
on Medicaid who give birth each year. While many of these women may 
lack access to the Internet and other sources of health information, 
the vast majority of them do have a cell phone, and a reported 80 
percent of Medicaid beneficiaries are active texters. Text4baby 
provides pregnant women and new moms with information they need to take 
care of their health and give their babies the best possible start in 
life. Women who sign up for the service receive free SMS text messages 
each week, timed to their due date or baby's date of birth. Since its 
launch in February 2010, text4baby has enrolled over 157,000 users and 
delivered over 12 million evidence-based tips to help them women keep 
themselves and their babies healthy. That's a great start but it's not 
enough. Thanks to the grassroots efforts of more than 500 text4baby 
partners across the country, we are on track to achieve our goal of 
bringing the service to 1 million moms by 2012 and delivering over 100 
million timely and relevant health messages.
    The text4baby program was developed in collaboration with the 
Centers for Disease Control and Prevention (CDC), Health Resources and 
Services, Administration (HRSA), American Academy of Pediatrics (AAP), 
and other experts. Text4baby messages cover topics like immunization, 
nutrition, smoking cessation, safe sleep, and the importance of early 
prenatal care. The content also connects women to services such as 
health insurance, childcare, and toll-free ``quitlines'' for assistance 
in becoming smoke- and drug-free. Text4baby has also delivered urgent 
infant product alerts at the request of the Food and Drug 
Administration and outbreak and immunization alerts at the request of 
CDC. Just last month, text4baby moms saw: ``Breaking news! The American 
Academy of Pediatrics announced new car seat guidelines. Kids should 
now ride in rear facing-car safety seats until age 2.''

Evaluation of the Program
    Mr. Chairman, we know that the program is effective. Over 96 
percent of those enrolled in the program say they would refer a friend 
to the service. Also, preliminary data analysis indicates that 
text4baby is reaching the target audience: for example, analysis of 
enrollment data in Virginia in October, 2010 showed that text4baby 
utilization is highest in zip codes with lower income levels and higher 
incidence rates of low birth weight babies. However, we also want to 
understand if and how text4baby is improving knowledge and changing 
behavior. There are currently six formal evaluations underway to 
examine text4baby's impact. The largest study, funded by the Department 
of Health and Human Services (HHS) and conducted by Mathematica Policy 
Research, is a mixed mode study and includes a mobile survey of 
text4baby users, focus groups, a community survey, electronic health 
record review, and interviews with key partners. This study will assess 
utilization of recommended care during prenatal and postpartum periods 
(considering things such as prenatal visits, postpartum visit, well-
child visits, dental visits, and immunization); adherence to 
recommended health practices (such as breastfeeding and infant sleep 
position); and adoption of healthy behaviors (such as smoking 
cessation, healthy eating and exercise).
    Even before the formal study results are in, we know that 
delivering over 12 million important evidence-based health tips to over 
160,000 individuals (and, by the end of next year, 100 million messages 
to 1 million moms) is an important national service.

Expanding the Program
    Glaring disparities in infant mortality exist within certain 
populations in the United States suggesting the need for a targeted 
expansion of the program. For example, babies born to African American 
mothers are most at risk with a rate of 13.5 deaths per 1,000 births. 
The States with the highest rates of infant mortality are Louisiana (10 
babies per 1,000 died before their first birthday) and Mississippi 
(10.5 babies per 1,000 died before their first birthday). In order to 
demonstrate the full impact of text4baby, HMHB proposes a targeted 
outreach and support initiative in those two States. Specifically, HMHB 
proposes to leverage its great array of activities at the national, 
regional, State, and local level to meet the ultimate goal of seeing 
that every woman in Louisiana and Mississippi who is pregnant or a 
mother of a child less than 1 year enrolls in the service and receives 
the valuable health information she needs. This targeted outreach will 
include the development of state-wide implementation teams, technical 
assistance in the way of event planning and media relations, 
fulfillment of requests for information, speakers and promotional 
materials, and support for local data and assessment activities. It 
will also include targeted outreach for African-American and Hispanic 
communities. HMHB's zip-code based analysis will allow tracking of the 
impact of targeted outreach activities with enrollment in real time.

Mississippi and Louisiana Statistics
    Since its launch in February 2010, text4baby has enlisted 1,276 
users in Mississippi and over 2,768 users in Louisiana; however, in 
2007, 46,491 babies were born in Mississippi and 66,301 babies were 
born in Louisiana. So, clearly, there is work to be done to increase 
enrollment in these States. Unfortunately, these two States are among 
the bottom in the Nation in terms of preterm births, low birth weight, 
and rates of death among children before their first birthday. They are 
also among the top in terms of smoking and obesity rates (see table 
below). These are two States in desperate need of a new way to receive 
information to help them care for their health and give their babies 
the best possible start in life.

                                                  [In percent]
----------------------------------------------------------------------------------------------------------------
                                                                    Mississippi      Louisiana       National
----------------------------------------------------------------------------------------------------------------
Preterm.........................................................            18.3            16.6            12.7
Low birth weight................................................            12.3            11.2             8.2
IMR.............................................................            10.5            10.0             6.7
Women smokers...................................................            21.9            22.1            19.6
Men smokers.....................................................            27.2            25.1            19.6
Obesity in women................................................            37.1            31.5            24.4
----------------------------------------------------------------------------------------------------------------

Summary and Conclusion
    Mr. Chairman, again we wish to thank the Subcommittee for the 
opportunity to submit testimony and for your leadership in these 
difficult times. While HMHB recognizes the demands on our Nation's 
resources, we believe the continuing decline of our Nation's health and 
the increase in infant mortality justifies a targeted and specific 
effort. In conclusion, we specifically urge that funding from within 
the Maternal and Child Health Bureau's SPRANS program be made available 
for a targeted effort to increase program enrollment among 
disproportionately impacted populations in Louisiana and Mississippi, 
the two States with the worst overall outcomes. We also recommend that 
$695 million be provided in fiscal year 2012 for the Maternal and Child 
Health Block Grant Program, an increase of $33 million or 5 percent 
over the fiscal year 2011 continuing resolution.
                                 ______
                                 
  Prepared Statement of the National Hispanic Council on Aging (NHCOA)

    Thank you for the opportunity to submit written testimony. The 
National Hispanic Council on Aging (NHCOA) is the leading organization 
working to improve the lives of Hispanic older adults, their families, 
and caregivers--the fastest growing segment of the U.S.'s rapidly 
expanding aging population. For more than 30 years, NHCOA has been a 
strong voice dedicated to ensuring our Nation's Hispanic seniors enjoy 
healthy and happy golden years. Alongside its nearly 40 local 
affiliates across the country, NHCOA reaches ten million Hispanics each 
year.
    Hispanic older adults experience myriad challenges as they seek to 
obtain a good quality of life in their later years, including health 
inequities and economic insecurity. They are disproportionately 
affected by several health afflictions--among them diabetes, 
hypertension, obesity, and Alzheimer's disease. Exacerbating these 
problems is the low rate of access to preventative care. Hispanics are 
disproportionately employed in low-paying jobs that require low levels 
of formal education or skills and often depend on Social Security as 
their sole source of income later in life.
    NHCOA writes to you today to urge an increase in the funding for 
the Corporation for National and Community Service's Senior Corps and 
the Administration on Aging's Older Americans Act Programs. Senior 
Corps' three programs, the Retired Senior Volunteer Program (RSVP), the 
Foster Grandparent Program, and the Senior Companion Program, keep the 
elderly active and allow the community to benefit from their years of 
wisdom and experience. RSVP connects seniors to volunteer opportunities 
available in their communities. Foster Grandparents tutor and mentor 
at-risk children. The Senior Companion Program provides support to 
volunteers ages 55+ who provide care and friendship to frail elderly. 
Increasing funding to Senior Corps would provide valuable services to 
communities while saving Federal funds. According to Pamela Carre of 
Senior Volunteer Services in Broward County, Florida, during fiscal 
year 2009, the volunteer work provided by Senior Volunteer Services 
valued $6.3 million. All of this work came from Senior Corps 
volunteers. The Older Americans Act provides a wide variety of 
nutrition, caretaking, and training programs to thousands of service 
providers across the country.
    The Older Americans Act's National Family Caregiver Support Program 
and Senior Corps' Senior Companion Program are particularly effective 
and beneficial for Hispanic older adults. Additional funding to these 
programs will help meet the needs of Hispanic older adults in a 
culturally sensitive and effective manner while also easing the 
financial burden on Medicare and Medicaid.
    The Senior Companion program reduces the isolation that can easily 
trap an elderly person. The Program trains volunteers ages 55+ to 
assist vulnerable elderly people. In addition to training and 
placement, the Program also provides a stipend of $2.65 an hour, 
reimbursed travel expenses, and accident and liability insurance. 
Senior Companions assist the elderly, whether by accompanying them on 
visits to the doctor or running their errands. Administrators of the 
Senior Companion Program, like Ms. Carre, highlight the importance of 
the flexible and individualized service these companions provide to 
other older adults. The main service that all Senior Companions provide 
is friendship.
    The Senior Companion Program benefits the elderly and the economy. 
Senior Companions provide assistance that allows elderly people to 
remain independent and out of institutionalized care. Keeping the 
elderly out of nursing homes and assisted living facilities reduces the 
cost of healthcare and keeps people from using Medicaid funds. 
According to Ms. Carre, it costs $4,800 to support one Senior Companion 
annually, while one year in a nursing home costs over $70,000. 
Additionally, Senior Companions can act as home health aides, providing 
assistance in the basic activities of daily living. Senior Companions 
are able to cook for elders, remind them to take their medication, 
perform housekeeping, and keep family aware of their loved one's needs 
and condition. This service, also offered by Medicaid and Medicare, can 
be fulfilled in a cost-effective manner through the Senior Companion 
Program. In a conversation about the value of senior volunteer 
programs, Becky Snider, of Pacific Retirement Services in Medford, 
Oregon, explained that State and local governments recognize the great 
value these programs provide.
    The Senior Companion program has the potential to effectively serve 
Hispanic older adults in a way that other programs cannot. Many in this 
group view formal service providers as impersonal and lacking in 
cultural sensitivity. A dearth of services able to adequately provide 
assistance to Hispanic older adults further exacerbates this problem. 
The Senior Companion program can effectively serve Hispanic older 
adults by offering them friendly and linguistically and culturally 
sensitive services in their own homes. Senior Companions can help 
Hispanic older adults manage their health while also providing 
attention and friendship in a way that home health aides and doctors do 
not. Ms. Leticia Martinez, the administrator of Senior Companion 
Volunteer Service of Los Angeles, states that she has heard from many 
older adults that Senior Companions are often the only people they see 
on a regular basis and that, ``they wouldn't be around without their 
Senior Companion.'' Instead of receiving treatment from a home health 
aide, Senior Companions provide a daily visit from a good friend.
    Like a good friend, Senior Companions advocate for, and protect, 
the older adults with whom they interact. Ms. Martinez stressed that 
many Senior Companions helped their clients identify and avoid 
financial abuse. The Senior Companion Program saves money for our 
seniors.
    Although the Senior Companion program can improve the health of 
seniors and our economy, it is underfunded. The Edward M. Kennedy Serve 
America Act authorized $55 million to be appropriated in fiscal year 
2010, however, only $46.9 million was appropriated that year. In fact, 
the Senior Companion program has not received a substantial increase in 
funding in at least 10 years. The Senior Companion program deserves an 
appropriation of at least $55 million in order to carry out its 
important duties.
    Similar to the Senior Companion Program, the Administration on 
Aging's National Family Caregiver Support Program (NFCSP) plays a vital 
role in protecting older adults. The NFCSP provides grants to States to 
create programs to assist people who care for elderly relatives. These 
programs support family members in providing the best care possible. 
The Administration on Aging grants funds for five broad categories: (1) 
providing information to caregivers about effective caretaking methods 
and available services; (2) assistance in accessing services; (3) 
creation of caregiver support groups and training sessions; (4) funds 
for home health aides to give respite to family caregivers; and (5) on 
a limited basis, supplemental services.
    The NFCSP reduces the financial strain on Medicare and Medicaid. By 
focusing on maintenance of health and prevention of serious problems, 
the NFCSP can keep Hispanic older adults out of nursing homes and off 
Medicaid. Additionally, the ability of NFCSP to provide funding for 
home health aides and training and respite for family caregivers makes 
it less likely for older adults to require a Medicare-financed home 
health aide.
    The NFCSP is perfectly suited to help Hispanic older adults, their 
families, and caregivers. There are valuable, effective programs 
available to help older adults afford healthcare and nursing home 
treatment, but many Hispanics feel that traditional healthcare and 
nursing home programs are too impersonal. The NFCSP addresses this 
problem by providing respite care and training for effective caregiving 
and by improving access to caregiving services. Delivering effective, 
personalized care for older adults in their homes can help manage 
health issues in a comfortable setting. Furthermore, home health aide 
services can provide enough respite care for a family caregiver to take 
on a part-time job, reducing the likelihood that the family will have 
to turn to Medicaid or other forms of public assistance.
    The NFCSP provides support to people who are unexpectedly drawn 
into helping an older family member. While cleaning and errands may be 
the first help given to an elderly loved one, these tasks can quickly 
multiply. The NFCSP teaches family members how to effectively care for 
their elderly relatives and cope with the stress of such care. 
Regarding the value of caregiver training and support groups, Mr. Jose 
Perez, Executive Director of Senior Community Outreach Services in 
Alamo, Texas says, ``I have seen people break down into tears because 
the stress of caring for their father and how close it brought them to 
physically abusing their loved one. Training and support groups help 
them ease this burden.''
    President Obama's fiscal year 2012 budget request recognizes the 
importance of the NFCSP and requests a substantial funding increase. In 
the last several years, the program has received between $153 million 
and $155 million. For fiscal year 2012, President Obama has requested 
over $192 million for the NFCSP. This increased funding will help to 
reduce healthcare costs for seniors while also allowing them to 
maintain their independence and receive effective treatment from those 
who know them best. Hispanic older adults will benefit from increased 
NFCSP funding due to the program's ability to deliver culturally 
sensitive care to a group that traditional healthcare providers have 
thus far struggled to adequately serve.
    Mr. Perez describes the effectiveness of these two programs with a 
simple phrase: ``Everybody wins.'' Senior Companions win the 
satisfaction of helping their fellow citizens and the pride of earning 
wages for productive work. The elderly win by receiving the care and 
attention that they deserve. Families win when they learn how to care 
for their loved ones. The government wins because these programs keep 
the elderly healthy, independent, and off Medicaid.
    NHCOA urges you to appropriate at least $55 million for the 
Corporation for National and Community Service's Senior Companion 
Program. Additionally, we request that you follow President Obama's 
recommendation and appropriate at least $192 million for the 
Administration on Aging's National Family Caregiver Support Program. 
These two programs will not only effectively serve Hispanic older 
adults in a way other programs do not, but they will also ease the 
financial strain on Medicare and Medicaid. Thank you for your 
consideration, and please feel free to contact NHCOA with any questions 
or concerns.
                                 ______
                                 
          Prepared Statement of the National Kidney Foundation

    In 2008, the number of Americans with End Stage Renal Disease 
(ESRD), which requires dialysis or a kidney transplant to survive, 
reached 535,000. In that year alone, 110,000 progressed to ESRD. 
Medicare covers dialysis or transplantation regardless of age or other 
disability, the only disease-specific coverage under the program. 
Despite this social and economic impact, no national public health 
program focusing on early detection and treatment existed until fiscal 
year 2006, when Congress provided $1.8 million for the first of 5 years 
of support to initiate a Chronic Kidney Disease Program at the Centers 
for Disease Control and Prevention (CDC). Congressional concern 
regarding kidney disease education and awareness also is found in Sec. 
152 of the Medicare Improvements for Patients and Providers Act of 2008 
(MIPPA, Public Law 110-275), in which it directed the Secretary to 
establish pilot projects to increase screening for Chronic Kidney 
Disease (CKD) and enhance surveillance systems to better assess the 
prevalence and incidence of CKD. Treatments exist to potentially slow 
progression of kidney disease and prevent its complications, but only 
if individuals are diagnosed before the latter stages of CKD.
    The CDC program is designed to identify members of populations at 
high risk for CKD, develop community-based approaches for improving 
detection and control, and educate health professionals about best 
practices for early detection and treatment. The National Kidney 
Foundation respectfully urges the Committee to maintain line-item 
funding in the amount of $2.1 million for the Chronic Kidney Disease 
Program in the CDC's Division of Diabetes Translation. We are 
encouraged by the fiscal year 2011 Operating Plan for CDC, which 
recommends only a $39,000 reduction from the fiscal year 2010 
appropriation for the CKD program. Continued support will benefit 
kidney patients and Americans who are at risk for kidney disease, 
advance the objectives of Healthy People 2020 and the National Strategy 
for Quality Improvement in Health Care, and fulfill the mandate created 
by Sec. 152 of MIPPA.
    The prevalence of CKD in the United States, when last measured, was 
higher than a decade earlier. This is partly explained by the 
increasing prevalence of the related diseases of diabetes and 
hypertension. It is estimated that CKD affects 26 million adult 
Americans \1\ and that the number of individuals in this country with 
CKD who will have progressed to kidney failure, requiring chronic 
dialysis treatments or a kidney transplant to survive, will grow to 
712,290 by 2015 \2\. Furthermore, a task force of the American Heart 
Association noted that decreased kidney function has consistently been 
found to be an independent risk factor for cardiovascular disease (CVD) 
outcomes and all-cause mortality and that the increased risk is present 
with even mild reduction in kidney function.\3\ Therefore addressing 
CKD is a way to achieve one of the priorities in the National Strategy 
for Quality Improvement in Health Care: Promoting the Most Effective 
Prevention and Treatment of the Leading Causes of Mortality, Starting 
with Cardiovascular Disease.
---------------------------------------------------------------------------
    \1\ Josef Coresh, et al. ``Prevalence of Chronic Kidney Disease in 
the United States,'' JAMA, November 7, 2007.
    \2\ D.T. Gilbertson, et al., Projecting the Number of Patients with 
End-Stage Renal Disease in the United States to the Year 2015. J Am Soc 
Nephrol 16: 3736-3741, 2005.
    \3\ Mark J. Sarnak, et al. Kidney Disease as a Risk Factor for the 
Development of Cardiovascular Disease: A Statement from the American 
Heart Association Councils on Kidney in Cardiovascular Disease, High 
Blood Pressure Research, Clinical Cardiology, and Epidemiology and 
Prevention. Circulation 2003: 108: 2154-69.
---------------------------------------------------------------------------
    Despite the extent of the problem, CKD is an under-recognized and 
under-treated public health challenge in the United States. 
Accordingly, Healthy People 2020 Objective CKD-2 is to ``increase the 
proportion of persons with chronic kidney disease (CKD) who know they 
have impaired renal function.'' One reason CKD is neglected is that it 
is often asymptomatic, especially in the early stages, and, therefore, 
laboratory testing is required to detect it. Increasing the proportion 
of persons with CKD who know they are affected requires expanded public 
and professional education programs and screening initiatives targeted 
at populations who are at high risk for CKD. Thanks to the interest 
that this Committee has expressed in CKD in the past, through directed 
appropriations, the National Center for Chronic Disease Prevention and 
Health Promotion at CDC has instituted a series of projects that could 
assist in attaining the Healthy People 2020 objective. However, this 
forward momentum will be stifled and CDC's investment in CKD to date 
jeopardized if line-item funding is not continued.
    As noted in CDC's Preventing Chronic Disease: April 2006, Chronic 
Kidney Disease meets the criteria to be considered a public health 
issue: (1) the condition places a large burden on society; (2) the 
burden is distributed unfairly among the overall population; (3) 
evidence exists that preventive strategies that target economic, 
political, and environmental factors could reduce the burden; and (4) 
evidence shows such preventive strategies are not yet in place. 
Furthermore, CDC convened an expert panel in March 2007 to outline 
recommendations for a comprehensive public health strategy to prevent 
the development, progression, and complications of CKD in the United 
States.
    The CDC Chronic Kidney Disease program consists of three projects 
to promote kidney health by identifying and controlling risk factors, 
raising awareness, and promoting early diagnosis and improved outcomes 
and quality of life for those living with CKD. These projects include 
the following:
  -- Establishing a surveillance system for Chronic Kidney Disease in 
        the United States.
  --Demonstrating effective approaches for identifying individuals at 
        high risk for chronic kidney disease through State-based 
        screening (CKD Health Evaluation and Risk Information Sharing, 
        or CHERISH).
  --Conducting an economic analysis by the Research Triangle Institute, 
        under contract with the CDC, on the economic burden of CKD and 
        the cost-effectiveness of CKD interventions.
    Pursuant to CHERISH, individuals at high risk for CKD have been 
screened in eight locations in four States. The goals of the 
demonstration project have been:
  --To educate providers and the public that simple tests can be used 
        to identify CKD in the target population and to assess risk 
        factors for intervention (obesity, hypertension, cardiovascular 
        disease, lipid disorders, diabetes, and glycemic control).
  --Evaluate whether providers change practice patterns after being 
        consulted by a person who went through the detection program.
    The demonstration project should be replicated at eight sites in 
four additional States in order to confirm initial findings. If we fail 
to do so, we could be forfeiting the valuable insight that has been 
gained thus far.
    We believe it is possible to distinguish between the CKD program 
and other categorical chronic disease initiatives at CDC, because the 
CKD program does not provide funds to State health departments. 
Instead, CDC has been making available seed money for feasibility 
studies in the areas of epidemiological research and health services 
investigation. Because the CKD program does not provide funds to State 
health departments, we maintain it should be exempted from the changes 
in the structure and budget of the National Center for Chronic Disease 
Prevention and Health Promotion, at least until surveillance planning, 
and studies of detection feasibility and economic impact are completed.
    Thank you for your consideration of our testimony.
                                 ______
                                 
         Prepared Statement of the National League for Nursing

    The National League for Nursing (NLN) is the premiere organization 
dedicated to promoting excellence in nursing education to build a 
strong and diverse nursing workforce to advance the Nation's health. 
With leaders in nursing education and nurse faculty across all types of 
nursing programs in the United States--doctorate, master's, 
baccalaureate, associate degree, diploma, and licensed practical--the 
NLN has more than 1,200 nursing school and healthcare agency members, 
34,000 individual members, and 24 regional constituent leagues.
    The NLN urges the subcommittee to fund the following Health 
Resources and Services Administration (HRSA) nursing programs:
  --The Nursing Workforce Development Programs, as authorized under 
        Title VIII of the Public Health Service Act, at $313.075 
        million in fiscal year 2012; and
  --The Nurse Managed Health Clinics, as authorized under Title III of 
        the Public Health Service Act, at $20 million in fiscal year 
        2012.

Nursing Education is a Jobs Program
    According to the U.S. Bureau of Labor Statistics (BLS), the 
registered nurse (RN) workforce will grow by 22 percent from 2008 to 
2018, resulting in 581,500 new jobs. This growth will be much faster 
than the average for all occupations. The April 1, 2011 BLS Employment 
Situation Summary--March 2011 likewise reinforces the strength of the 
nursing workforce to the Nation's job growth. While the Nation's 
overall unemployment rate was little changed at 8.8 percent for March 
2011, the employment in healthcare increased in March with the addition 
of 37,000 jobs (i.e., a 36.6 percent rise from February 2011) at 
ambulatory healthcare services, hospitals, and nursing and residential 
care facilities.
    Nursing is the predominant occupation in the healthcare industry, 
with more than 3.78 million active, licensed RNs in the United States 
in 2009. BLS notes that healthcare is a critically important industrial 
complex in the Nation. Growing steadily even during the depths of the 
recession, healthcare is virtually the only sector that added jobs to 
the economy on a net basis since 2001. Over the last 12 months, 
healthcare added 283,000 jobs, or an average of 24,000 jobs per month.
    The Nursing Workforce Development Programs provide training for 
entry-level and advanced degree nurses to improve the access to, and 
quality of, healthcare in underserved areas. These Title VIII nursing 
education programs are fundamental to the infrastructure delivering 
quality, cost-effective healthcare. The NLN applauds the subcommittee's 
bipartisan efforts to recognize that a strong nursing workforce is 
essential to a health policy that provides high-value care for every 
dollar invested in capacity building for a 21st century nurse 
workforce.
    Yet, the current $243.872 million in fiscal year 2010 for the Title 
VIII programs falls short of the healthcare inequities facing our 
Nation. Absent consistent support, recent boosts to Title VIII will not 
fulfill the expectation of paying down on asset investments to generate 
quality health outcomes; nor will episodic increases in funding fill 
the gap generated by a 13-year nurse shortage felt throughout the 
entire U.S. health system.

The Nurse Pipeline and Education Capacity
    Although the recession resulted in some stability in the short-term 
for the nurse workforce, policy makers must not lose sight of the long-
term growing demand for nurses in their own districts and States. For 
the complete perspective, the NLN's findings from the Annual Survey of 
Schools of Nursing--Academic Year 2009-2010 cast a wide net on all 
types of nursing programs, from doctoral through diploma, to determine 
rates of application, enrollment, and graduation. The survey creates a 
true picture of nursing education. Key findings include:
  --Expansion of nursing education programs impeded by shortage of 
        faculty and clinical placements. The overall systemic capacity 
        of prelicensure nursing education continues to fall well short 
        of demand. Fully 42 percent of all qualified applications to 
        basic RN programs were met with rejection in 2010. Associate 
        degree in nursing (ADN) programs rejected 46 percent of 
        qualified applications, compared with 37 percent of 
        baccalaureate of science in nursing (BSN) programs. Notably, 
        the Nation's practical nursing (PN) programs turned away 40 
        percent of qualified applications.
  --Yield rates continued to grow. Yield rates--a classic indicator of 
        the competitiveness of college admissions--remain 
        extraordinarily high among both pre- and post-licensure nursing 
        programs. A stunning 94 percent of all applicants accepted into 
        ADN programs, and 93 percent of those accepted in PN programs, 
        went on to enroll in 2010. Yield rates among the other program 
        types were nearly as high, averaging 89 percent for RN-to-BSN 
        programs; 86 percent for RN diploma programs, master's in 
        nursing (MSN) programs, and doctoral programs; and 84 percent 
        for BSN programs.

Nurse Shortage Affected by Faculty Shortage
    A strong correlation exists between the shortage of nurse faculty 
and the inability of nursing programs to keep pace with the demand for 
new RNs. Increasing the productivity of education programs is a high 
priority in most States, but faculty recruitment is a glaring problem 
that likely will grow more severe. Without faculty to educate our 
future nurses, the shortage cannot be resolved.
    The NLN's findings from the 2009 Faculty Census show that:
  --Shortages of faculty and clinical placements impeded expansion. A 
        shortage of faculty continues to be cited most frequently as 
        the main obstacle to expansion by RN-to-BSN and doctoral 
        programs--indicated by 47 and 53 percent, respectively. By 
        contrast, prelicensure programs are more likely to point to a 
        lack of available clinical placement settings as the primary 
        obstacle to expanding admissions.
  --Inequities in faculty salaries added to shortage difficulties. 
        Despite a national shortage of nurse educators, in 2009 the 
        salaries of nurse educators remained notably below those earned 
        by similarly ranked faculty across higher education. At the 
        professor rank nurse educators suffer the largest deficit with 
        salaries averaging 45 percent lower than those of their non-
        nurse colleagues. Associate and assistant nursing professors 
        were also at a disadvantage, earning 19 and 15 percent less 
        than similarly ranked faculty in other fields, respectively.

Title VIII Federal Funding Reality
    Today's undersized supply of appropriately prepared nurses and 
nurse faculty does not bode well for our Nation. The Title VIII Nursing 
Workforce Development Programs are a comprehensive system of capacity-
building strategies that provide students and schools of nursing with 
grants to strengthen education programs, including faculty recruitment 
and retention efforts, facility and equipment acquisition, clinical lab 
enhancements, and loans, scholarships, and services that enable 
students to overcome obstacles to completing their nursing education 
programs. HRSA's Title VIII data below provide perspective on a few of 
the current Federal investments.
    Nurse Education, Practice, Quality, and Retention Grants (NEPQR).--
NEPQR funds projects addressing the critical nursing shortage via 
initiatives designed to expand the nursing pipeline, promote career 
mobility, provide continuing education, and support retention. In 
fiscal year 2010, NEPQR funded 108 infrastructure grants, including the 
launching of 22 nurse-managed health centers, four nurse internships, 
and five new accelerated baccalaureate programs. Also in fiscal year 
2010, the program expanded with the Nursing Assistant (NA) and Home 
Health Aide (HHA) program awarding grants to 10 colleges or community-
based training programs.
    Comprehensive Geriatric Education Program (CGEP).--CGEP funds 
training, curriculum development, faculty development, and continuing 
education for nursing personnel who care for older citizens. In 
academic year 2009-2010, 27 CGEP grantees provided education and 
training to 3,030 RNs/RN students; 260 advanced practice registered 
nurses (APRNs); 221 faculty; 110 HHSs; 483 LPNs/LPN students; 730 NAs; 
810 allied health professionals; and 929 laypersons, guardians, 
activity directors.
    Advanced Nursing Education (ANE) Program.--ANE supports 
infrastructure grants to schools of nursing for advanced practice 
programs preparing nurse-midwives, nurse anesthetists, clinical nurse 
specialists, nurse administrators, nurse educators, public health 
nurses, or other advanced level nurses. In addition, the Advanced 
Nursing Education Expansion (ANEE) program provides grants to schools 
of nursing to accelerate the production of primary care advanced 
practice nurses. In fiscal year 2009, 151 schools of nursing received 
grants through the ANE Program and enrolled 7,518 advanced nursing 
education students. In fiscal year 2010, 26 schools of nursing received 
grants under ANEE to support the production of over 600 primary care 
APRNs.

Nurse Managed Health Clinics (NMHC)
    Most leading authorities recognize that there will be a shortage of 
primary care providers over the next decade. With the recent growth of 
NMHCs, APRNs have demonstrated their flexibility as they practice 
independently or collaborate with physicians in both primary care and 
specialty areas. This shift suggests that professionals' practice can 
be directed to changing workforce and population needs as the increased 
use of APRNs holds the potential for improving access, reducing costs 
for high-value care, and changing patterns of care.
    NMHCs deliver comprehensive primary healthcare services, disease 
prevention, and health promotion in medically underserved areas for 
vulnerable populations. Approximately 58 percent of NMHC patients 
either are uninsured, Medicaid recipients, or self-pay. The complexity 
of care for these patients presents significant financial barriers, 
heavily affecting the sustainability of these clinics.
    In fiscal year 2010, HRSA awarded $15,268,000 for 10 3-year 
infrastructure grants to community-based NMHCs. While providing access 
points in areas where primary care providers are in short supply, the 
expansion of the NMHCs also increased the number of structured clinical 
teaching sites available to train nurses and other primary care 
providers. These clinics funded by HRSA in fiscal year 2010 expect to 
train 900 primary care nurse practitioners during their 3-year grants. 
Appropriating $20 million in fiscal year 2012 to NMHCs would increase 
access to primary care for thousands of uninsured people in rural and 
underserved urban communities. The funding of additional NMHCs likewise 
will enable schools of nursing to increase innovative clinical teaching 
site opportunities for nursing students, which will directly expand the 
capacity of nursing school enrollments.
    The NLN can state with authority that the deepening health 
inequities, inflated costs, and poor quality of healthcare outcomes in 
this country will not be reversed until the concurrent shortages of 
nurses and qualified nurse educators are addressed. Your support will 
help ensure that nurses exist in the future who are prepared and 
qualified to take care of you, your family, and all those who will need 
our care. Without national efforts of some magnitude to match the 
healthcare reality facing our Nation today, a calamity in nurse 
education and in healthcare generally may not be avoided.
    The NLN urges the subcommittee to strengthen the Title VIII Nursing 
Workforce Development Programs by funding them at a level of $313.075 
million in fiscal year 2012. We also recommend that the Nurse Managed 
Health Clinics, as authorized under Title III of the Public Health 
Service Act, be funded at $20 million in fiscal year 2012.
                                 ______
                                 
          Prepared Statement of the National Marfan Foundation

    Mr. Chairman, thank you for the opportunity to submit testimony 
regarding the fiscal year 2012 budget for the National Heart, Lung and 
Blood Institute, the National Institute of Arthritis, Musculoskeletal 
and Skin Diseases, and the Centers for Disease Control and Prevention. 
The National Marfan Foundation is grateful for the subcommittee's 
strong support of the NIH and CDC, particularly as it relates to life-
threatening genetic disorders such as Marfan syndrome. Thanks in part 
to your leadership we are at a time of unprecedented hope for our 
patients.
    It is estimated that 200,000 people in the United States are 
affected by Marfan syndrome or a related condition. Marfan syndrome is 
a genetic disorder of the connective tissue that can affect many areas 
of the body, including the heart, eyes, skeleton, lungs and blood 
vessels. It is progressive condition and can cause deterioration in 
each of these body systems. The most serious and life-threatening 
aspect of the syndrome is a weakening of the aorta. The aorta is the 
largest artery carrying oxygenated blood from the heart. Over time, 
many Marfan syndrome patients experience a dramatic weakening of the 
aorta which can cause the vessel to dissect and tear.
    Early surgical intervention can prevent a dissection and strengthen 
the aorta and the aortic valves. If preventive surgery is performed 
before a dissection occurs, the success rate of the procedure is over 
95 percent. If surgery is initiated after a dissection has occurred, 
the success rate drops below 50 percent. Aortic dissection is a leading 
killer in the United States, and 20 percent of the people it affects 
have a genetic predisposition, like Marfan syndrome, to developing the 
complication.
    Fortunately, new research offers hope that a commonly prescribed 
blood pressure medication might be effective in preventing this 
frequent and devastating event.

            FISCAL YEAR 2012 APPROPRIATIONS RECOMMENDATIONS

National Institutes of Health
    Mr. Chairman, hope for a better quality of life for patients with 
Marfan syndrome and related connective tissue disorders lies in NIH-
sponsored biomedical research. With that in mind, NMF joins with other 
voluntary patient and medical organizations in recommending an 
appropriation of $35 billion for the National Institutes of Health in 
fiscal year 2012. , This level of funding will ensure continued 
expansion of research on rare diseases like Marfan syndrome and build 
upon the significant investment provided to the NIH in the American 
Recovery and Reinvestment Act.

National Heart, Lung, and Blood Institute
            Pediatric Heart Network Clinical Trial
    NMF applauds the National Heart, Lung and Blood Institute for its 
leadership in advancing a landmark clinical trial on Marfan syndrome. 
Under the direction of Dr. Lynn Mahoney and Dr. Gail Pearson, the 
institute's Pediatric Heart Network (PHN) has spearheaded a multicenter 
study focused on the potential benefits of a commonly prescribed blood 
pressure medication (losartan) on aortic growth in Marfan syndrome 
patients.
    Dr. Hal Dietz, the Victor A. McKusick Professor of Genetics in the 
McKusick-Nathans Institute of Genetic Medicine at the Johns Hopkins 
University School of Medicine, and the director of the William S. 
Smilow Center for Marfan Syndrome Research, is the driving force behind 
this groundbreaking research. Dr. Dietz uncovered the role that the 
growth factor TGF-beta plays in aortic enlargement, and demonstrated 
the benefits of losartan in halting aortic growth in mice. He is the 
reason we have reached this time of such promise and NMF is proud to 
have supported Dr. Dietz's cutting-edge research for many years.
    After 4 years of recruitment and patient screening, the PHN trial 
reached its enrollment target of 604 subjects on February 2, 2011. 
Marfan syndrome patients (age 6 months to 25 years) are enrolled in the 
study. Patients are randomized onto either losartan or atenolol (a beta 
blocker that is the current standard of care for Marfan patients with 
an enlarged aortic root).
    We anxiously await the results of this first-ever clinical trial 
for our patient population. It is our hope that losartan will emerge as 
the new standard-of-care and greatly reduce the need for surgery in at-
risk patients.
    Mr. Chairman, NMF is proud to actively support the losartan 
clinical trial in partnership with the Pediatric Heart Network. 
Throughout the life of the trial we have provided support for patient 
travel costs, coverage of select echocardiogram examinations, and 
funding for ancillary studies. These ancillary studies will explore the 
impact that losartan has on other manifestations of Marfan syndrome.

            Evaluation of Surgical Options for Marfan Syndrome Patients
    Mr. Chairman, we are grateful for the subcommittee's previous 
recommendations encouraging NHLBI to support research on surgical 
options for Marfan syndrome patients.
    For the past several years, the NMF has supported an innovative 
study looking at outcomes in Marfan syndrome patients who undergo 
valve-sparing surgery compared with valve replacement. Initial findings 
were published last year in the Journal of Thoracic and Cardiovascular 
Surgery. Some short term questions have been answered, most importantly 
that valve-sparing can be done safely on Marfan patients by an 
experienced surgeon. The consensus among the investigators however is 
that long-term durability questions will not be answered until patients 
are followed for at least 10 years.
    Confirming the utility and durability of valve sparing procedures 
will save our patients a host of potential complications associated 
with valve replacement surgery. We hope to partner with the NIH on this 
important work moving forward.

            NHLBI ``Working Group on Research in Marfan Syndrome and 
                    Related Conditions''
    In 2007, NHLBI convened a ``Working Group on Research in Marfan 
Syndrome and Related Conditions.'' Chaired by Dr. Dietz, this panel was 
comprised of experts in all aspects of basic and clinical science 
related to the disorder. The panel was charged with identifying key 
recommendations for advancing the field of research in the coming 
decade. The recommendations of the Working Group are as follows:

    Scientific opportunities to advance this field are conferred by 
technological advances in gene discovery, the ability to dissect 
cellular processes at the molecular level and imaging, and the 
establishment of multi-disciplinary teams. The barriers to progress are 
addressed through the following recommendations, which are also 
consistent with Goals and Challenges in the NHLBI Strategic Plan.
  --Existing registries should be expanded or new registries developed 
        to define the presentation, natural history, and clinical 
        history of aneurysm syndromes.
  --Biological and aortic tissue sample collection should be 
        incorporated into every clinical research program on Marfan 
        syndrome and related disorders and funds should be provided to 
        ensure that this occurs. Such resources, once established, 
        should be widely shared among investigators.
  --An Aortic Aneurysm Clinical Trials Network (ACTnet) should be 
        developed to test both surgical and medical therapies in 
        patients with thoracic aortic aneurysms.
  --The identification of novel therapeutic targets and biomarkers 
        should be facilitated by the development of genetically defined 
        animal models and the expanded use of genomic, proteomic and 
        functional analyses. There is a specific need to understand 
        cellular pathways that are altered leading to aneurysms and 
        dissections, and to develop robust in vivo reporter assays to 
        monitor TGFb and other cellular signaling cascades.
  --The developmental underpinnings of apparently acquired phenotypes 
        should be explored. This effort will be facilitated by the 
        dedicated analysis of both prenatal and early postnatal tissues 
        in genetically defined animal models and through the expanded 
        availability to researchers of surgical specimens from affected 
        children and young adults.
    We look forward to working closely with NHLBI to pursue these 
important research goals and ask the Subcommittee to support the 
recommendations of the Working Group.

National Institute of Arthritis and Musckuloskeletal and Skin Diseases
    NMF is proud of its longstanding partnership with the National 
Institute of Arthritis and Musculoskeletal and Skin Diseases, which is 
celebrating its 25th anniversary this year. Dr. Steven Katz has been a 
strong proponent of basic research on Marfan syndrome during his tenure 
as NIAMS director and has generously supported several ``Conferences on 
Heritable Disorders of Connective Tissue.'' Moreover, the Institute has 
provided invaluable support for Dr. Dietz's mouse model studies. The 
discoveries of fibrillin-1, TGF-beta, and their role in muscle 
regeneration and connective tissue function were made possible in part 
through collaboration with NIAMS.
    As the losartan trial continues to move forward, we hope to expand 
our partnership with NIAMS to support related studies that fall under 
the mission and jurisdiction of the Institute. One of the areas of 
great interest to researchers and patients is the role that losartan 
may play in strengthening muscle tissue in Marfan patients. We would 
welcome an opportunity to partner with NIAMS on this and other 
research.

Centers for Disease Control and Prevention
    Mr. Chairman, one of the most important things we can do to prevent 
untimely deaths from aortic aneurysms is to increase awareness of 
Marfan syndrome and related connective tissue disorders.
    Last year, the American College of Cardiology and the American 
Heart Association issued landmark practice guidelines for the treatment 
of thoracic aortic aneurysms and dissections. The NMF is promoting 
awareness of the new guidelines in collaboration with other 
organizations through a new Coalition known as TAD; the Thoracic Aortic 
Disease Coalition. We hope to partner with the CDC in fiscal year 2012 
to increase awareness of the guidelines so all patients will be 
adequately diagnosed and treated. For fiscal year 2012, NMF joins with 
the CDC Coalition in recommending an appropriation of $7.7 billion for 
CDC's core-programs.
                                 ______
                                 
        Prepared Statement of the National Minority AIDS Council

    The National Minority AIDS Council (NMAC) represents a coalition of 
over 3,000 community based organizations and AIDS service organizations 
delivering HIV/AIDS services in communities of color nationwide. Our 
constituents are on the front lines of the HIV epidemic and are the 
most affected when funding for HIV/AIDS programs are reduced or 
eliminated.
    Our Nation is facing difficult decisions on how to stabilize the 
economy and pass a sensible Federal budget. Although we support 
efficient, cost-effective spending, we cannot support reducing 
healthcare funding which would adversely affect the health and well 
being of the most vulnerable: minority communities, with higher rates 
of poverty where poor health outcomes are often linked to poor access 
to care. While budget negotiations often focus on cold numbers, it is 
easy to lose sight of the fact that human lives are at stake.
    Cost-effective research and prevention programs that prevent life-
threatening diseases such as HIV/AIDS, as well as life-saving access to 
care and medications for those already infected are critical in 
preventing avoidable infections, serious illness, and deaths. Although 
funding has failed to keep up with demand, it is impossible to deny the 
strides in prevention, research, and treatment of HIV/AIDS that has 
been supported by previous appropriations.
    We now have a National HIV/AIDS Strategy which sets attainable 
goals in reducing the devastation caused by this epidemic. The Strategy 
calls for a reduction of new infections by 25 percent in the next 5 
years as well as improved access to care for those already infected. As 
we continue to move forward in trying to reduce new infections and 
saving precious lives through the Strategy, it is imperative that the 
existing public health and safety net infrastructure be adequately 
funded.

Health Care Reform
    In addition to the Strategy, implementation of healthcare reform 
offers a monumental opportunity to make progress in reducing the impact 
of the domestic HIV epidemic by greatly increasing the number of 
Americans eligible for healthcare access. As such, we request full 
funding of the President's fiscal year 2012 budget request for 
healthcare reform programs aimed at reducing health disparities. Many 
of the programs under the Patient Protection and Affordable Care Act 
(ACA) are funded through discretionary budgets. Increased access to 
medical care through venues such as Community Health Centers are 
welcomed as they provide care in cost effective settings when compared 
to the emergency room, which are too often the primary source of 
medical care for communities of color.

Minority AIDS Initiative (MAI)
    MAI programs seek to improve HIV-related health outcomes for racial 
and ethnic minority communities that are disproportionately affected by 
HIV/AIDS. Central to these goals is the MAI's focus on efforts to 
strengthen the organizational capacity of community-based providers, in 
particular minority providers; improve the quality of HIV services; and 
expand the pool of HIV service providers. NMAC strongly recommends this 
Committee fund MAI programs at $610 million for fiscal year 2012 as 
minority communities continue to carry a disproportionate burden of the 
epidemic. NMAC does appreciate the President's fiscal year 2012 budget 
request of $430.7 million as a minimum budget for MAI.

HIV/AIDS Bureau of the Health Resources and Services Administration 
        (HRSA)
    The number of people living with HIV in the United States has grown 
to over 1.1 million people. That fact coupled with the skyrocketing 
costs of medical care creates a dire need for substantial increases in 
funding for care and treatment. We urge you to increase funding for the 
Ryan White program by $350 million in fiscal year 2012. At minimum, we 
strongly urge you to support the President's proposed fiscal year 2012 
increase of $69.3 million for the Ryan White program over fiscal year 
2010.
    As a payer of last resort, Ryan White provides critical access to 
treatment and medications to under-insured and uninsured people. Part A 
funds are used to provide a continuum of care for people living with 
HIV disease. To support this critical component, we request an increase 
of $74.2 million when compared to fiscal year 2010. Part B funds are 
provided to States to improve their capacity to provide medical care. 
It also funds the AIDS Drug Assistance program (ADAP), which currently 
has a wait list of over 8,100 people with no other means to access 
medications. Eleven States have implemented waiting lists and many 
others have implemented cost containment strategies since funding is 
not keeping up with demand. We request an increase of $76.8 million in 
funding to States as compared to fiscal year 2010 and an increase of 
$106 million for ADAP.

Centers for Disease Control and Prevention's (CDC) National Center for 
        HIV/AIDS, Viral Hepatitis, STD, and TB Prevention (NCHHSTP)
    With over 56,000 new infections annually, a renewed emphasis on 
prevention and early HIV screening is critical at this juncture. NMAC 
urges total fiscal year 2012 funding of $1,983.9 million for the CDC's 
NCHHSTP. This includes funding of $1,325.7 million for HIV prevention 
and surveillance, $59.8 million for viral hepatitis and $231 million 
for tuberculosis prevention. We appreciate that the President proposed 
a $1,178.5 million budget for HIV prevention at the CDC, and at a bare 
minimum we urge the Committee to meet this request.

National Institutes of Health (NIH)--Office of AIDS Research
    HIV/AIDS research has made great strides in understanding and 
improving HIV treatment, viral suppression, and various prevention 
tools. Continued commitment to a thorough AIDS research portfolio is 
necessary to build on past innovation. In order to build on this 
research and continue to see how these interventions affect communities 
of color, NMAC requests $3.5 billion to support the Office of AIDS 
Research. Additionally, NMAC believes that $35 billion to fund NIH's 
overall programs and infrastructure.
    Investments in prevention, treatment and research for HIV, as well 
as co-morbidities, must keep pace with the epidemic if we are to see 
real progress in reducing new infections, disease burden, and untimely 
deaths due to this devastating disease.
                                 ______
                                 
         Prepared Statement of the National Minority Consortia

    The National Minority Consortia (NMC) submits this statement on the 
fiscal year 2014 Advance appropriation for the Corporation for Public 
Broadcasting (CPB). The NMC is a coalition of five national 
organizations dedicated to bringing the unique voices and perspectives 
from America's diverse communities into all aspects of public 
broadcasting and to other media, including content transmitted 
digitally over the Internet. The role we fulfill in this regard has 
been crucial to public broadcasting's mission for over 30 years. We are 
unique as organizations and as a coalition of organizations in the 
services we provide in access, training and support for important and 
timely public interest content to our communities and to public 
broadcasting. We ask the Committee to:
  --Direct CPB to increase its efforts for diverse programming with 
        commensurate increases for minority programming and for 
        organizations and stations located within underserved 
        communities;
  --Direct CPB to establish a percentage basis for biennial funding of 
        the National Minority Consortia to permit long range financial 
        and strategic planning;
  --Direct CPB to establish an annual ``report card'' on diversity to 
        track efforts to better represent the full breadth of the 
        American people and their experiences through public 
        television, public radio and non-profit media online;
  --Direct CPB to publish on the Internet clear and enforced guidelines 
        for all CPB-directed funding, including funds jointly 
        administered by PBS and NPR, and end the closed-door funding 
        processes historically in place, especially as the current 
        practices favor existing relationships and can be seen as 
        biased against minority applicants, in particular.
    Report Language.--We ask for report language, which recognizes the 
contribution of the NMC and directs that the CPB partnership with us be 
expanded. Specifically:

    ``The Committee recognizes the importance of the partnership CPB 
has with the National Minority Public Broadcasting Consortia, which 
helps develop, acquire, and distribute public television programming to 
serve the needs of African American, Asian American, Latino, Native 
American, Pacific Islander, and many other viewers. As many communities 
in the Nation welcome increased numbers of citizens of diverse ethnic 
backgrounds, the local public television stations should strive to meet 
these viewers' needs. With an increased focus on programming to meet 
local community needs, the Committee encourages CPB to support and 
expand this critical partnership.''

    Fiscal Year 2014 Appropriation.--We support a fiscal year 2014 
advance appropriation for CPB of $495 million, which recognizes the 
need to develop content that reaches across traditional media 
boundaries, such as those separating television and radio. However, we 
feel strongly that should CPB receive this appropriation, CPB should be 
directed to engage in transparent and fair funding practices that 
guarantee all applicants equal access to these public resources. In 
particular, we urge Congress to direct CPB to insert language in all of 
its funding guidelines that encourages and rewards public media that 
fully represents and reaches a diverse American public.\1\
---------------------------------------------------------------------------
    \1\ According to the 2008 Public Radio Tech Survey, 90 percent of 
public radio listeners are white. Of those, 84 percent are college-
educated, with 48 percent having graduate degrees. This compares to 
just 9 percent of Americans who have postgraduate degrees. It is 
therefore mandatory that we prioritize actually ``reaching'' a diverse 
audience of Americans and not simply reflecting diverse and often 
misleading staffing numbers to measure public media's effectiveness in 
serving all of the American taxpayers that fund CPB.
---------------------------------------------------------------------------
    While public broadcasting continues to uphold strong ethics of 
responsible journalism and thoughtful examination of American history, 
life and culture, including the ways we are a part of a global society, 
it has not kept pace with our rapidly changing public as far as 
diversity is concerned. Members of minority groups continue to be 
underrepresented on both the programming and oversight levels within 
public broadcasting as well as on the content production side. There 
are fewer than five executives of diverse background at the highest 
levels in the three leading organizations within public broadcasting. 
This is unacceptable in America today, where minorities comprise over 
35 percent of the population.
    Public broadcasting has the potential to be particularly important 
for our Nation's growing minority and ethnic communities, especially as 
we transition to a broadband-enabled, 21st century workforce that 
relies on the skills and talent of all of our citizens. While there is 
a niche in the commercial broadcast and cable world for quality 
programming about our communities and our concerns, it is in the public 
broadcasting sphere where minority communities and producers should 
have more access and capacity to produce diverse high-quality 
programming for national audiences. We therefore, urge Congress to 
insert strong language in this act to ensure that this is the case and 
that these opportunities are made available to minorities and other 
underserved communities.
    About the National Minority Consortia.--With primary funding from 
the CPB, the NMC serves as an important component of American public 
television as well as content delivered over the Internet. By training 
and mentoring the next generation of minority producers and program 
managers as well as brokering relationships between content makers and 
distributors (such as PBS, APT and NETA), we are in a perfect position 
to ensure the future strength and relevance of public television and 
radio television programming from and to our communities. However, 
these efforts are vulnerable because of chronic underfunding and lack 
of meaningful and ongoing representation within CPB's decisionmaking 
processes. This instability, coupled with what is essentially a 
decrease in our funding over time, are the primary reasons that have 
led to a public media that has become less diverse over the past 5 
years.\2\
---------------------------------------------------------------------------
    \2\ CPB funding for the NMC remained flat for 13 years until fiscal 
year 2008, at approximately $1 million per year per consortia. At that 
time, we received a one-time increase of $150,000 per organization. In 
fiscal year 2009, we received another one-time increase of 
approximately $500,000 each, but have been told that does not reflect a 
permanent increase. Over this same 13-year period, CPB's budget nearly 
doubled.
---------------------------------------------------------------------------
    This is obviously not the case in the rest of America. With 
minority populations already estimated at over 35 percent of the U.S. 
population, it is more important that our public institutions reflect 
this reality.
    Individually, each Consortia organization is engaged in cultivating 
ongoing relationships with the independent producer community by 
providing technical assistance and program funding, support and 
distribution. Often the funding we provide is the initial seed money 
for a project, thus allowing it to develop. We also provide numerous 
hours of programming to individual public television and radio 
stations, programming that is beyond the production reach of most local 
stations. To have a real impact, we need funding that recognizes and 
values the full extent of minority participation in public life.
    While the Consortia organizations work on projects specific to 
their communities, the five organizations also work collaboratively. An 
example of a joint production in which the NMC provided the initial 
seed money is ``Unnatural Causes: Is Inequality Making Us Sick?'', a 
multi-part series that uncovers the roots of racial and socio-economic 
disparities in health and spotlights community initiatives to achieve 
health equality. Our seed money enabled the project to go forward and 
to attract additional funding. We are also co-producers of and 
presenters in this series. Additionally, we jointly funded an online 
initiative around the Presidential Election in 2008 and continue to 
explore as a group other topics of national importance.
    CPB Funds for the National Minority Consortia.--The NMC receives 
funds from two portions of the CPB budget: organizational support funds 
from the Systems Support and programming funds from the Television 
Programming funds. The organizational support funds we receive are used 
for operations requirements and also for programming support activities 
and for outreach to our communities and system-wide within public 
broadcasting. The programming funds are re-granted to producers, used 
for purchase of broadcast rights and other related programming 
activities. Each organization solicits applications from our 
communities for these funds. A brief description of our organizations 
follows:
    Center for Asian American Media (CAAM).--CAAM's mission is to 
present stories that convey the richness and diversity of Asian 
American experiences to the broadest audience possible. We do this by 
funding, producing, distributing and exhibiting works in film, 
television and digital media. Over our 25-year history we have provided 
funding for more than 200 projects, many of which have gone on to win 
Academy, Emmy and Sundance awards, examples of which are Daughter from 
Danang; Of Civil Rights and Wrongs: The Fred Korematsu Story; and Maya 
Lin: A Strong Clear Vision. CAAM presents the annual San Francisco 
International Asian American Film Festival and distributes Asian 
American media to schools, libraries and colleges. CAAM's newest 
department, Digital Media is becoming a respected leader in bringing 
innovative content and audience engagement to public media. CAAM is 
partnering with Pacific Islanders in Communications on a documentary 
about YouTube ukulele sensation Jake Shimabukuro.
    Latino Public Broadcasting (LPB).--LPB supports the development, 
production and distribution of public media content that is 
representative of Latino people, or addresses issues of particular 
interest to Latino Americans. Since 1998, LPB has awarded over $6 
million to Latino Independent Producers, provided over 120 hours to 
public television, funded over 200 projects and conducted over 150 
professional development workshops. LPB also produces Voces, the only 
Latino anthology series on public television, which showcases the 
impact of Latino culture on American life through music, sports, 
education and public service. In addition, LPB had several high profile 
programs on PBS including the concert special, In Performance at the 
White House: Fiesta Latina, that was re-broadcast on Telemundo and V-me 
and Latin Music USA, a four part series about the history and impact of 
Latino music on American culture which reached 14.7 million viewers, 16 
percent of whom were Hispanic households (well above the PBS average). 
This past year, LPB launched the Equal Voice Community Engagement 
Campaign using the documentary film Raising Hope: The Equal Voice 
Story, a film about strategies to overcome poverty. The community 
engagement campaign helped PBS stations demonstrate how they too can 
become advocates for their communities. Currently, LPB is working on a 
6 hour series titled The Latino Americans, about the history of Latinos 
in the United States.
    The National Black Programming Consortium (NBPC).--NBPC develops, 
produces and funds television and more recently audio and online 
programming about the black experience for American public media 
outlets. Since its founding in 1979, NBPC has provided hundreds of 
broadcast hours documenting African American history, culture and 
experience to public television and launched major initiatives that 
have brought important public media content to diverse audiences. In 
2010, the National Black Programming Consortium launched an ambitious 
new project designed to re-engineer public media to better involve and 
inform diverse users in the digital era: The Public Media Corps (PMC). 
The PMC is a new national public media service that helps local 
stations to forge relationships with underserved communities through 
content production, local events, and digital media training. By 
recruiting, training and supporting the work of young, tech savvy 
``fellows'' from these communities the PMC provides both stations and 
community partner organizations with a blueprint for not only 
connecting with audiences who have traditionally not found public 
broadcasting relevant to their lives, but also by providing them with 
access to emerging participatory platforms.
    Native American Public Telecommunications (NAPT).--NAPT shares 
Native stories with the world through support of the creation, 
promotion and distribution of Native media. Founded in 1977, through 
various media--public television and radio, and the Internet--NAPT 
brings awareness of Indian and Alaska Native issues.
    In 2010 NAPT presented eight Native American documentaries to PBS 
stations nationwide and launched a search capable educational micro-
site featuring educational guides, post-viewer discussion guides, 
digital media clips, and interactive time lines. NAPT offered producers 
numerous workshops related to media maker topics such as preparation 
for broadcast, marketing your film on a budget, station carriage, 
online promotional tools, podcasting and more through nationwide media 
maker training offerings and conference attendance opportunities. In 
addition NAPT launched the Multimedia Fellowship Program, where two 
full-time Native American journalists wrote and produced multimedia 
projects about national Native American issues. Through our location at 
the University of Nebraska-Lincoln, we offer student employment, 
internships and fellowships. Reaching the general public and the global 
market is the ultimate goal for the dissemination of Native-produced 
media.
    Pacific Islanders in Communications (PIC).--Since 1991, PIC has 
delivered programs and training that bring voice and visibility to 
Pacific Islander Americans. PIC produced the award winning film One 
Voice which tells the story of the Kamehameha Schools Song Contest. 
Other PBS broadcasts include There Once Was an Island, about the 
devastating effects of global warming on the Pacific Islands and 
Polynesian Power: Islanders in Pro Football. Currently PIC is 
developing a multi-part series, Expedition: Wisdom, in partnership with 
the National Geographic Society. PIC offers a wide range of development 
opportunities for Pacific Island producers through travel grants, 
seminars and media training. Producer training programs are held in the 
U.S. territories of Guam and American Samoa, as well as in Hawai`i, on 
a regular basis.
    Thank you for your consideration of our recommendations. We see new 
opportunities to increase diversity in programming, production, 
audience, and employment in the new media environment, and we thank 
Congress for support of our work on behalf of our communities.
                                 ______
                                 
     Prepared Statement of the National Multiple Sclerosis Society

    Multiple sclerosis (MS), an unpredictable, often disabling disease 
of the central nervous system, interrupts the flow of information 
within the brain, and between the brain and body. Symptoms range from 
numbness and tingling to blindness and paralysis. The progress, 
severity, and specific symptoms of MS in any one person cannot yet be 
predicted, but advances in research and treatment are moving us closer 
to a world free of MS. Most people with MS are diagnosed between the 
ages of 20 and 50, with at least two to three times more women than men 
being diagnosed with the disease. MS affects more than 400,000 people 
in the United States.
    The National MS Society recommends the following funding levels for 
agencies and programs that are of vital importance to Americans living 
with MS in fiscal year 2012.

Lifespan Respite Care Program
    Respite care services are a critical part of ensuring quality home-
based care for people living with MS. Because of the importance of 
these services, the National MS Society requests the inclusion of $50 
million in the fiscal year 2012 Labor-HHS-Education appropriations bill 
to fund lifespan respite programs. The Lifespan Respite Care Program, 
enacted in 2006, provides competitive grants to states to establish or 
enhance statewide lifespan respite programs, improve coordination, and 
improve respite access and quality. States provide planned and 
emergency respite services, train and recruit workers and volunteers, 
and assist caregivers in gaining access to services. Perhaps the most 
critical aspect of the program for people living with MS is that 
Lifespan Respite serves families regardless of special need or age--
literally across the lifespan. Much existing respite care has age 
eligibility requirements and since MS is typically diagnosed between 
the ages of 20 and 50, Lifespan Respite Programs are often the only 
open door to needed respite services.
    Up to one-quarter of individuals living with MS require long-term 
care services at some point during the course of the disease. Often, a 
family member steps into the role of primary caregiver to be closer to 
the individual with MS and to be involved in care decisions. 
Approximately 65 million family caregivers in the Nation are 
responsible for 80 percent of long-term care. The value of 
uncompensated family care giving services keeps growing and is 
currently estimated at $375 billion per year--more than total Medicaid 
spending and almost as high as Medicare spending. Family caregiving, 
while essential, can be draining and stressful, with caregivers often 
reporting difficulty managing emotional and physical stress, finding 
time for themselves, and balancing work and family responsibilities. 
The impact is so great, in fact, that American businesses lose an 
estimated $17.1 to $33.36 billion each year due to lost productivity 
costs related to caregiving responsibilities. Providing $50 million for 
Lifespan Respite in fiscal year 2012 would provide the critical 
infrastructure to states to improve access to respite services, 
allowing family caregivers to take a break from the daily routine and 
stress of providing care, improve overall family health, and help 
alleviate the monstrous financial impact that caregiver strain 
currently has on American businesses.

National Institutes of Health
    We urge Congress to continue its investment in innovative medical 
research that can help prevent, treat, and cure diseases such as MS by 
providing $35 billion for the National Institutes of Health (NIH) in 
fiscal year 2012.
    The NIH conducts and sponsors a majority of the MS related research 
carried out in the United States. Approximately $151 million of fiscal 
year 2010 and Recovery Act appropriations were directed to MS-related 
research. An invaluable partner, the NIH has helped make significant 
progress in understanding MS. NIH scientists were among the first to 
report the value of MRI in detecting early signs of MS, before symptoms 
even develop. Advancements in MRI technology allow doctors to monitor 
the progression of the disease and the impact of treatment.
    Research during the past decade has enhanced knowledge about how 
the immune system works, and major gains have been made in recognizing 
and defining the role of this system in the development of MS lesions. 
These NIH discoveries are helping find the cause, alter the immune 
response, and develop new MS therapies that are now available to modify 
the disease course, treat exacerbations, and manage symptoms. The NIH 
also directly supports jobs in all 50 States and 17 of the 30 fastest 
growing occupations in the United States are related to medical 
research or healthcare. More than 83 percent of the NIH's funding is 
awarded through almost 50,000 competitive grants to more than 325,000 
researchers at over 3,000 universities, medical schools, and other 
research institutions in every State. To continue the forward momentum 
in the ability to aggressively combat, treat, and one day cure diseases 
like MS, the National MS Society requests Congress provide $35 billion 
for the NIH in fiscal year 2012.

Centers for Medicare & Medicaid Services
            Medicare
    Medicare programs are a lifeline for people living with MS, as 
approximately one-quarter of people living with MS rely on Medicare for 
access to essential medical care. These programs ensure that 
individuals living with MS have access to doctors, diagnostic 
equipment, durable medical devices, MRIs, and prescription drugs among 
other lifesaving treatments. Medicare also ensures full access to home 
healthcare, which is vital for keeping individuals with disabilities, 
like MS, in their communities and in their homes. Without Medicare, 
people living with MS may not have access to some forms of medical care 
and their quality of life may decrease.
    The National MS Society is concerned about recent budget proposals 
that would essentially convert Medicare from an entitlement program to 
a voucher-type program. While proponents of these proposals believe 
that they will cut costs of the program, in reality the voucher system 
would primarily shift costs from the Medicare program to patients and 
consumers. In fact, the Congressional Budget Office has estimated that 
by 2030, the typical Medicare beneficiary would be required to pay more 
than two-thirds of their medical costs. Additionally, according the 
Kaiser Family Foundation, a typical 65-year-old retiring in 2022 would 
be expected to devote nearly half their monthly Social Security checks 
toward healthcare costs, more than double what they would spend under 
current Medicare law.
    Beginning in 2022, the proposed system would give new beneficiaries 
money to purchase insurance from the private market, under the 
assumption that beneficiaries can make better and more cost-effective 
decisions about healthcare than the government and that this open 
market will create competition that will help keep costs down. However, 
the size of Medicare allows the program to impose lower rates on 
medical services and thus, private plans on average are more expensive. 
Therefore, the proposed voucher system may reduce costs within the 
Medicare program but not within the overall healthcare system because 
it will shift more cost to some of the most vulnerable patients in the 
healthcare system. In order to continue to provide the adequate and 
necessary care individuals with MS and other disabilities require, 

Medicare must maintain its status as an entitlement program.
            Medicaid
    The National MS Society urges Congress to maintain funding for 
Medicaid and reject proposals to cap or block grant the program.
    Approximately 10 percent of people living with MS rely on Medicaid. 
The program has a strong track record of providing services that grant 
individuals with disabilities access to employment, cost-effective 
health services, home- and community-based services, and long-term 
care.
    Capping or block-granting Medicaid will merely shift costs to 
states, forcing states to shoulder a seemingly insurmountable financial 
burden or cut services on which our most vulnerable rely. Capping and 
block-granting could result in many more individuals becoming 
uninsured, compounding the current problems of lack of coverage, over 
flowing emergency rooms, limited access to long term services, and 
increased healthcare costs in an overburdened system. By capping funds 
that support home- and community-based care, such proposals would also 
likely lead to an increased reliance on costlier institutional care 
that contradicts the principles laid forth in the 1999 U.S. Supreme 
Court Olmstead decision of integrating and keeping people with 
disabilities in their communities.
    While the economic situation demands leadership and thoughtful 
action, the National MS Society urges Congress to remember people with 
MS and all disabilities, their complex health needs, and the important 
strides Medicaid has made for persons living with disabilities, 
particularly in the area of community-based care and not modify the 
program to their detriment.

Social Security Administration
    The National MS Society urges Congress to provide $12.522 billion 
for the Social Security Administration's (SSA) Limitations on 
Administrative (LAE) Expenses to fund SSA's day-to-day operational 
responsibilities and make key investments in addressing increasing 
disability and retirement workloads, in program integrity, and in SSA's 
Information Technology (IT) infrastructure.
    Because of the unpredictable nature and sometimes serious 
impairment caused by the disease, SSA recognizes MS as a chronic 
illness or ``impairment'' that can cause disability severe enough to 
prevent an individual from working. During such periods, people living 
with MS are entitled to and rely on Social Security Disability 
Insurance (SSDI) or Supplemental Security Income (SSI) benefits to 
survive. People living with MS, along with millions of others with 
disabilities, depend on SSA to promptly and fairly adjudicate their 
applications for disability benefits and to handle many other actions 
critical to their well-being including: timely payment of their monthly 
benefits; accurate withholding of Medicare Parts B and D premiums; and 
timely determinations on post-entitlement issues, e.g., overpayments, 
income issues, prompt recording of earnings.
    With an expected increase in disability claims of nearly 29 percent 
between fiscal year 2008 and fiscal year 2010, SSA faces an 
unprecedented backlog in unprocessed disability claims. The average 
processing time is fortunately improving due to recent investments in 
and appropriations to SSA and as of March 2010, was approximately 437 
days or a little more than 14 months. This progress must continue.
    Providing at least $12.522 billion for the SSA is necessary to 
continue these programs and advancements, which are integral parts of 
efficiently and effectively getting benefits to individuals with 
disabilities, including those with MS.

Food and Drug Administration
    Because of the tremendous impact the FDA has on the development and 
availability of drugs and devices for individuals with disabilities, 
the National MS Society requests that Congress provide a 15 percent 
increase over the fiscal year 2011 budget.
    Advancements in medical technology and medical breakthroughs play a 
pivotal role in decreasing the societal costs of disease and 
disability. The FDA is responsible for approving drugs for the market 
and in this capacity has the ability to keep healthcare costs down. 
Each dollar invested in the life-science research regulated by the FDA 
has the potential to save upwards of $10 in health gains. Breakthroughs 
in medication and devices can reduce the potential costs of disease and 
disability in Medicare and Medicaid and can help support the healthier, 
more productive lives of people living with chronic diseases and 
disabilities, like MS. The approval of low-cost generic drugs saved the 
healthcare system $140 billion last year and nearly $1 trillion over 
the past decade. However, recent funding constraints have resulted in a 
2 year backlog of generic drug approval applications and could 
potentially cost the Federal Government and patients billions of 
dollars in the coming years. The potential for these cost-saving 
medical breakthroughs and overall healthcare savings relies on a 
vibrant industry and an adequately funded FDA. Therefore, Congress is 
urged to provide the FDA with a 15 percent increase to address this 
backlog.

Conclusion
    The National MS Society thanks the Committee for the opportunity to 
provide written testimony and our recommendations for fiscal year 2012 
appropriations. The agencies and programs we have discussed are of 
vital importance to people living with MS and we look forward to 
continuing to working with the Committee to help move us closer to a 
world free of MS.
                                 ______
                                 
  Prepared Statement of the National Network to End Domestic Violence

Introduction
    I am submitting testimony to request a targeted investment of $196 
million in the Family Violence Prevention and Services Act (FVPSA) and 
the Violence Against Women Act (VAWA) programs administered by the U.S. 
Department of Health and Human Services fiscal year 2012 budget 
(specific requests detailed below).
    Labor, Health and Human Services Chairman Harkin, Ranking Member 
Shelby, Chairman Inouye, Ranking Member Cochran and distinguished 
members of the Appropriations Committee, thank you for this opportunity 
to submit testimony to the Committee on the importance of investing in 
FVPSA and VAWA programs. I sincerely thank the Committee for its 
ongoing support and investment in these lifesaving programs. These 
investments help to bridge the gap created by an increased demand and a 
lack of available resources.
    I am the President of the National Network to End Domestic Violence 
(NNEDV), the Nation's leading voice on domestic violence. We represent 
the 56 State and territorial domestic violence coalitions, including 
those in Iowa, Alabama, Hawaii and Mississippi, their 2,000 member 
domestic violence and sexual assault programs, as well as the millions 
of victims they serve. Our direct connection with victims and victim 
service providers gives us a unique understanding of their needs and 
the vital importance of continued Federal investments.

Incidence, Prevalence, Severity and Consequences of Domestic and Sexual 
        Violence
    The crimes of domestic and sexual violence are pervasive, insidious 
and life-threatening. Nearly one in four women are beaten or raped by a 
partner during adulthood \1\ and 2.3 million people are raped and/or 
physically assaulted by a current or former spouse or partner each 
year.\2\ One in six women and 1 in 33 men have experienced an attempted 
or completed rape.\3\ Of course the most heinous of these crimes is 
murder. Every day in the United States, an average of three women are 
killed by a current or former intimate partner.\4\In 2005 alone, 1,181 
women were murdered by an intimate partner in the United States \5\ and 
approximately one-third of all female murder victims are killed by an 
intimate partner.\6\
---------------------------------------------------------------------------
    \1\ AU.S. Department of Justice, National Institute of Justice and 
Centers for Disease Control and Prevention. (July 2000). Extent, 
Nature, and Consequences of Intimate Partner Violence: Finding from the 
National Violence Against Women Survey. Washington, DC. Tjaden, Pl., & 
Thoennes., N.
    \2\ Ibid.
    \3\ U.S. Department of Justice, Prevalence, Incidence, and 
Consequences of Violence Against Women: Findings from the National 
Violence Against Women Survey (1998).
    \4\ Bureau of Justice Statistics (2008). Homicide Trends in the 
U.S. from 1976-2005. Dept. of Justice.
    \5\ Ibid.
    \6\ Bureau of Justice Statistics, Homicide Trends from 1976-1999. 
(2001)
---------------------------------------------------------------------------
    The cycle of intergenerational violence is perpetuated as children 
are exposed to violence. Approximately 15.5 million children are 
exposed to domestic violence every year.\7\ One study found that men 
exposed to physical abuse, sexual abuse and adult domestic violence as 
children were almost 4 times more likely than other men to have 
perpetrated domestic violence as adults.\8\
---------------------------------------------------------------------------
    \7\ McDonald, R., et al. (2006). ``Estimating the Number of 
American Children Living in Partner-Violence Families.'' Journal of 
Family Psychology, 30(1), 137-142.
    \8\ Greenfield, L. A. (1997). Sex Offences and Offenders: An 
Analysis of Date on Rape and Sexual Assault. Washington, DC. Bureau of 
Justice Statistics, U.S. Department of Justice.
---------------------------------------------------------------------------
    In addition to the terrible cost domestic and sexual violence have 
on the lives of individual victims and their families, these crimes 
cost taxpayers and communities. In fact, the cost of intimate partner 
violence exceeds $5.8 billion each year, of which $4.1 billion is for 
direct medical and mental healthcare services.\9\ Research shows that 
intimate partner violence costs a health insurance plan $19.3 million 
each year for every 100,000 women between the ages of 18 and 64 who are 
enrolled.\10\ Domestic violence costs U.S. employers an estimated $3 to 
$13 billion annually.\11\ Between one-quarter and one-half of domestic 
violence victims report that they lost a job, at least in part, due to 
domestic violence.
---------------------------------------------------------------------------
    \9\ National Center for Injury Prevention and Control. Costs of 
Intimate Partner Violence Against Women in the United States. Atlanta 
(GA): Centers for Disease Control and Prevention; 2003.
    \10\ Ibid.
    \11\ Bureau of National Affairs Special Rep. No. 32, Violence and 
Stress: The Work/Family Connection 2 (1990); Joan Zorza, Women 
Battering: High Costs and the State of the Law, Clearinghouse Rev., 
Vol. 28, No. 4, 383, 385; Supra, see endnote 10.
---------------------------------------------------------------------------
    Despite this grim reality, we know that when a coordinated response 
is developed and immediate, essential services are available, victims 
can escape from life-threatening violence and begin to rebuild their 
shattered lives. Funding these programs is fiscally sound, as they save 
lives, prevent future violence, keep families and communities safe, and 
save our Nation money. While Federal funding cannot meet all the needs 
of victims, it leverages State, private and local dollars to provide 
consistent funding streams to lifesaving services. To address unmet 
needs and build upon its successes, VAWA/FVPSA should receive targeted 
investments in fiscal year 2012.
    Family Violence Prevention and Services Act (FVPSA) (Administration 
for Children and Families)--$140 million request. Since its passage in 
1984 as the first national legislation to address domestic violence, 
FVPSA has remained the only funding directly for shelter programs. For 
more than 25 years, FVPSA has made substantial progress toward ending 
domestic violence. Despite the progress and success brought by FVPSA, a 
strong need remains for FVPSA-funded services for victims.
    Domestic violence is more than a crime--it is a public health 
issue. To address this issue, there are more than 2,000 community-based 
domestic violence programs for victims and their children 
(approximately 1,500 of which are FVPSA-funded through State formula 
grants). These programs offer services such as emergency shelter, 
counseling, legal assistance, and preventative education to millions of 
women, men and children annually and are at the heart of our Nation's 
response to domestic violence.\12\ These effective programs save and 
rebuild lives. A recently released multi-state study conclusively shows 
that the Nation's domestic violence shelters are addressing victims' 
urgent and long-term needs and are helping victims protect themselves 
and their children. This same study indicated that, if shelters did not 
exist, the consequences for victims would be dire, including 
``homelessness, serious losses including children [or] continued abuse 
or death.''
---------------------------------------------------------------------------
    \12\ National Coalition Against Domestic Violence, Detailed Shelter 
Surveys (2001).
---------------------------------------------------------------------------
    According to a report by the National Network to End Domestic 
Violence, in one day in 2010, more than 70,000 victims of domestic 
violence received services, of which 50 percent found refuge in 
emergency shelters and transitional housing. Of the 23,743 victims in 
emergency shelter that day, more than 50 percent were children. 
However, on that same day, more than 9,500 requests for services by 
adults and children were unmet due to lack of funding.

Addressing the Needs of Children and Breaking the Intergenerational 
        Cycle of Violence
    In addition to providing crisis services to adults fleeing 
violence, FVPSA helps to break the intergenerational cycle of violence. 
Approximately one-half to two-thirds of residents in domestic violence 
shelters are children. In 2010, Congress reauthorized FVPSA that 
included a newly authorized program, Specialized Services for Abused 
Parents and Their Children. In fiscal year 2010, Congress appropriated 
nearly $131 million for FVPSA, which for the first time triggered 
spending dedicated to specialized service for children who witness 
domestic violence.
    The newly authorized Children's program is an important step in the 
Federal Government's response to domestic violence. It will build an 
evidence base for services, strategies, advocacy and interventions for 
children and youth exposed to domestic violence. Although many domestic 
violence programs currently serve children, this program will expand 
the capacity of domestic violence programs to address the needs of 
children and adolescents coming into emergency shelters. To ensure that 
children's needs are met in the community, the program will create 
statewide and local improvements in systems and responses to children 
and youth exposed to domestic violence. Finally, the program will 
eventually lead to nationwide dissemination of lessons learned and 
strategies for implementation in communities across the country.
    Currently, four States have received modest funding grants to build 
upon their work and lay groundwork for the national project. The New 
Jersey Coalition for Battered Women will expand an established model 
program, Peace: A Learned Solution (PALS), which provides children ages 
3 through 17 with creative arts therapy to help them heal from exposure 
to domestic violence. The Wisconsin Coalition Against Domestic Violence 
will launch the Safe Together Project, which will increase the capacity 
of Wisconsin domestic violence programs, particularly those serving 
under-represented or culturally specific populations, to support non-
abusing parents and mitigate the impact of exposure to domestic 
violence on their children. The Alaska Network on Domestic Violence and 
Sexual Assault will improve services and responses to Alaska's families 
by addressing the lack of coordination between domestic violence 
agencies and child welfare systems. Together, grantees will serve as 
leaders for expanding a broader network for support; developing 
evidence-based interventions for children, youth and parents exposed to 
domestic violence; and building national implementation strategies that 
will lead to local improvements in domestic violence program and 
community systems interventions.
    Unfortunately, the rescission in the final fiscal year 2011 budget 
cut all funding for the new children's program. If the funding is not 
restored to at least $140 million in fiscal year 2012, these innovative 
and cost-saving projects will be in jeopardy.

The Increased Need for Funding
    Many programs across the country use their FVPSA funding to keep 
the lights on and their doors open. We cannot overstate how important 
this is: victims must have a place to flee to when they are escaping 
life-threatening violence. Countless shelters across the country would 
not be able to operate without FVPSA funding. As increased training for 
law enforcement, prosecutors and court officials has greatly improved 
the criminal justice system's response to victims of domestic violence, 
there is a corresponding increase in demand for emergency shelter, 
hotlines and supportive services. Additionally, demand has increased as 
a result of the economic downturn and victims with fewer personal 
resources become increasingly vulnerable. Since the economic crisis 
began, three out of four domestic violence shelters have reported an 
increase in women seeking assistance from abuse.\13\ As a result, 
shelters overwhelmingly report that they cannot fulfill the growing 
need for these services.
---------------------------------------------------------------------------
    \13\ Mary Kay's Truth About Abuse. Mary Kay Inc. (May 12, 2009).
---------------------------------------------------------------------------
    In the current economic climate, the demand for domestic violence 
services has increased precisely at the time when programs are 
struggling to maintain State and private funding to meet the demand. In 
fact, the National Domestic Violence Census found that in 2010, 1,441 
(82 percent) domestic violence programs reported a rise in demand for 
services, while at the same time, 1,351 (77 percent) programs reported 
a decrease in funding.\14\ Between 2009 and 2010, domestic violence 
programs laid off or did not replace nearly 2,000 staff positions 
including counselors, advocates and children's advocates, and a number 
of shelters around the country closed. In 2009, although FVPSA-funded 
domestic violence programs provided shelter and nonresidential services 
to more than 1 million victims, an additional 167,069 requests for 
lifesaving shelter went unmet due to lack of capacity. In Alabama, the 
problem reflects the rest of the Nation. More than 30 percent of 
Alabama programs reported that they did not have enough funding for 
needed programs and services and 17 percent reported no available beds 
or funding for hotels. In Iowa, nine programs statewide have already 
closed their doors due to funding shortages and many other programs 
have been forced to reduce the types of services provided, including 
eliminating child advocate positions and prevention programs dedicated 
to breaking the cycle of violence.
---------------------------------------------------------------------------
    \14\ Domestic Violence Counts 2010: A 24-Hour census of domestic 
violence shelters and services across the United States. The National 
Network to End Domestic Violence. (Jan. 2011).
---------------------------------------------------------------------------
    We cannot allow the gap between available resources and the 
desperate need of victims to widen. For those individuals who are not 
able to find safety, the consequences can be extremely dire, including 
continued exposure to life-threatening violence or homelessness. It is 
absolutely unconscionable that victims cannot find safety for 
themselves and their children due to a lack of adequate investment in 
these services. In order to meet the immediate needs of victims in 
danger and to continue to break the intergenerational cycle of 
violence, FVPSA funding must be increased to at least $140 million in 
fiscal year 2012.

Additional Requests
            National Domestic Violence Hotline (Administration for 
                    Children and Families)--$5 million request
    For the past 15 years the Hotline has provided 24-hour, toll-free 
and confidential services, immediately connecting callers to local 
service providers. During this economic downturn, crisis calls to the 
Hotline have increased. Additionally, to address the specific needs of 
dating violence victims, the Hotline launched the National Dating Abuse 
Helpline, which has seen increased traffic recently.
            DELTA Prevention Program (Centers for Disease Control and 
                    Injury Prevention)--$6 million request
    DELTA is one of the only sources of funding for domestic violence 
prevention work. The program supports statewide projects that integrate 
primary prevention principles and practices into local coordinated 
community responses that address and reduce the incidence of domestic 
violence. Currently, DELTA funds 56 Coordinated Community Response 
Coalitions nationwide. In the first 3 years that DELTA funded these 
projects, the primary prevention activities in communities increased 
ten-fold. Nineteen States, including Alabama and Iowa, are currently 
funded as DELTA Prep states by the Robert Wood Johnson Foundation. 
Without additional DELTA funding, these States, ready in 2012 to fully 
participate, may not be able to access CDC funding.
            Rape Prevention and Education (RPE) (Centers for Disease 
                    Control and Injury Prevention)--$42.6 million 
                    request
    This VAWA program administered through CDC strengthens national, 
State and local sexual violence prevention efforts and the operation of 
rape crisis hotlines. RPE funding provides formula grants to States and 
territories to support rape prevention and education programs conducted 
by rape crisis centers, State sexual assault coalitions and other 
public and private nonprofit entities. Funding also supports the 
National Sexual Violence Resource Center, which provides up-to-date 
information regarding sexual violence to policymakers, Federal and 
State agencies, college campuses, sexual assault and domestic violence 
coalitions, local programs, the media, and the general public. Despite 
its critical work, RPE has faced funding decreases since fiscal year 
2006.
            Violence Against Women Health Initiative (Office of Women's 
                    Health)--$2.3 million request
    This eight State and two tribe initiative promotes public health 
programs that integrate domestic and sexual violence assessment and 
intervention into basic care. Congress has included the program in the 
last 3 fiscal years, but after the first year, the funding has not been 
on top of the agency's overall budget. As a result, HHS has been forced 
to cut other violence prevention activities to fund the program. 
Funding is needed to identify best practices, conduct general 
evaluation and disseminate the results to the field so that victims 
nationwide can benefit.

Conclusion
    Together, these LHHS programs work to prevent and end domestic and 
sexual violence. While our country has made continued investments in 
the criminal justice response to these heinous crimes, we need an equal 
investment in the human service, public health and prevention response 
in order to holistically address and end violence against women. We 
know that our Nation is facing a difficult financial time and that 
there is pressure to reduce spending. Investments in these vital, cost-
effective programs, however, help break the cycle of violence, reduce 
related social ills and will save our Nation money now and in the 
future.
                                 ______
                                 
      Prepared Statement of the National Postdoctoral Association

    Thank you for this opportunity to testify in regard to the fiscal 
year 2012 funding for the National Institutes of Health (NIH). We are 
writing today in regard to support for postdoctoral scholars, 
specifically in support of the 4-percent increase in the NIH Ruth L. 
Kirschstein National Research Service Awards (NRSA) training stipends, 
as requested in the President's budget.

Background: Postdocs are the Backbone of U.S. Science and Technology
    According to estimates by The National Science Foundation (NSF) 
Division of Science Resource Statistics, there are approximately 89,000 
postdoctoral scholars in the United States\1\. The NIH and the NSF 
define a ``postdoc'' as: An individual who has received a doctoral 
degree (or equivalent) and is engaged in a temporary and defined period 
of mentored advanced training to enhance the professional skills and 
research independence needed to pursue his or her chosen career path. 
The number of postdocs has been steadily increasing. The incidence of 
individuals taking postdoc positions during their careers has risen, 
from about 25 percent of those with a pre-1972 doctorate to 46 percent 
of those receiving their doctorate in 2002-05 \2\. Moreover, the number 
of science and engineering doctorates awarded each year is steadily 
rising with doctorates awarded in the medical/life sciences almost 
tripling between 2003 and 2007 \3\.
---------------------------------------------------------------------------
    \1\ National Science Foundation Division of Science Resource 
Statistics. (January 2010). Science and engineering indicators 2010. 
Arlington, VA: National Science Board.
    \2\ Ibid.
    \3\ Ibid.
---------------------------------------------------------------------------
    Postdocs are critical to the research enterprise in the United 
States and are responsible for the bulk of the cutting edge research 
performed in this country. Consider the following:
  --According to the National Academies, postdoctoral researchers 
        ``have become indispensable to the science and engineering 
        enterprise, performing a substantial portion of the Nation's 
        research in every setting.'' \4\
---------------------------------------------------------------------------
    \4\ COSEPUP. (June 2001). Enhancing the postdoctoral experience for 
scientists and engineers. Washington, D.C.: National Academy Press. p. 
10.
---------------------------------------------------------------------------
  --Postdoctoral training has become a prerequisite for many long-term 
        research projects.\5\ In fact, the postdoc position has become 
        the de facto next career step following the receipt of a 
        doctoral degree in many disciplines.
---------------------------------------------------------------------------
    \5\ COSEPUP. (June 2001). Enhancing the postdoctoral experience for 
scientists and engineers. Washington, D.C.: National Academy Press. p. 
11.
---------------------------------------------------------------------------
  --The retention of women and under-represented groups in biomedical 
        research depends upon their successful and appropriate 
        completion of the postdoctoral experience.
  --Postdoctoral scholars carry the potential to solve many of the 
        world's most pressing problems; they are the principal 
        investigators of tomorrow.
    Unfortunately, postdocs are routinely exploited. They are paid a 
low wage relative to their years of training and are often ineligible 
for workman's compensation, disability insurance, paid maternity or 
paternity leave, employer-sponsored medical benefits, and retirement 
accounts.
    The National Postdoctoral Association (NPA) advocates for policies 
that support and enhance postdoctoral training. NPA members advocate 
for policy change on the national level and also within the research 
institutions that host postdoctoral scholars. To date, more than 150 
institutions have adopted portions of the NPA's recommended practices, 
but low compensation remains one of the serious issues faced by the 
postdoctoral community.

Problem: NRSA Stipends are Low and Don't Meet Cost-of-Living Standards; 
        For Better or Worse, Postdoc Compensation is Based on NRSA 
        Stipends
    The NIH leadership has been aware that the NRSA training stipends 
are too low since 2001, after the publication of the results of the 
National Academy of Sciences (NAS) study, Addressing the Nation's 
Changing Needs for Biomedical and Behavioral Scientists. In response, 
the NIH pledged (1) to increase entry-level stipends to $45,000 by 
raising the stipends at least 10 percent each year and (2) to provide 
automatic cost-of-living increases each year thereafter to keep pace 
with inflation. Most recently, the 2011 NAS study, Research Training in 
the Biomedical, Behavioral, and Clinical Research Sciences, called for, 
among other recommendations, increased funding to support more NRSA 
positions and to fulfill the NIH's 2001 commitment to increase pre-
doctoral and postdoctoral stipends.
    Without sufficient appropriations from Congress, the NIH has not 
been able to fulfill its pledge. In 2007, the stipends were frozen at 
2006 levels and since then have not been significantly increased. The 
stipends were increased by 1 percent each year in 2009 and 2010 and by 
2 percent in 2011. The 2011 entry-level training stipend remains low, 
at $38,496, the equivalent of a GS-8 position in the Federal Government 
(NIH Statement NOT-OD-10-047), despite the postdocs' advanced degrees 
and specialized technical skills. Furthermore, this stipend remains far 
short of the promised $45,000. Certainly, it is not reflective of any 
cost-of-living increases (please see Figure 1).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                Figure 1

    It is not only the NRSA fellows who remain undercompensated; the 
impact of the low stipends extends beyond the NRSA-supported postdocs. 
The NPA's research has shown that the NIH training stipends are used as 
a benchmark by research institutions across the country for 
establishing compensation for postdoctoral scholars. Thus, an 
unintended consequence is that institutions undercompensate all of 
their postdocs, who must then struggle to make ends meet, which in turn 
affects their productivity and undermines their efforts to solve the 
world's most critical problems. Additionally, many are leaving their 
research careers behind because of the low compensation. In order to 
keep the ``best and the brightest'' scientists in the U.S. research 
enterprise, the NPA believes that it is crucial that Congress 
appropriate funding for the 4-percent increase in training stipends, as 
a moderate yet substantial step toward reaching the recommended entry-
level stipend of $45,000.

Solution: Keep the NIH's Original Promise to Raise the Minimum Stipends
    We ask the Subcommittee to appropriate $794 million for the 4-
percent stipend increase, as requested in the President's proposed 
budget (http://www.nih.gov/about/director/budgetrequest/
NIH_BIB_020911.pdf): As part of the President's initiative in fiscal 
year 2012 to emphasize support for science, technology, engineering, 
and mathematics (STEM) education programs, the budget proposes a 4 
percent stipend increase for predoctoral and postdoctoral research 
trainees supported by NIH's Ruth L. Kirschstein National Research 
Service Awards program. A total of $794 million is requested in fiscal 
year 2012 for this training program. The proposed increase in stipends 
will allow NIH to continue to attract high quality research trainees 
that will be available to address the Nation's future biomedical, 
behavioral, and clinical research needs.
    The NPA believes it is fair, just, and necessary to increase the 
compensation provided to these new scientists, who make significant 
contributions to the bulk of the research discovering cures for disease 
and developing new technologies to improve the quality of life for 
millions of people in the United States. Please do not hesitate to 
contact us for more information. Thank you for your consideration.
                                 ______
                                 
      Prepared Statement of the National Primate Research Centers

    The Directors of the eight National Primate Research Centers 
(NPRCs) respectfully submit this written testimony for the record to 
the Senate Appropriations Subcommittee on Labor, Health and Human 
Services, Education and Related Agencies. The NPRCs appreciate the 
commitment that the Members of this Subcommittee have made to 
biomedical research through your support for the National Institutes of 
Health (NIH) and recommend that you provide $31.987 billion for NIH in 
fiscal year 2012, which represents a 3.4 percent increase above the 
fiscal year 2011 level. Within this proposed increase the NPRCs also 
respectfully request that the Subcommittee provide strong support for 
the NPRC P51 (base grant) program, which is essential for the 
operational costs of the eight NPRCs. This support would help to ensure 
that the NPRCs and other animal research resource programs continue to 
serve effectively in their role as a vital national resource.
    The mission of the National Primate Research Centers is to use 
scientific discovery and nonhuman primate models to accelerate progress 
in understanding human diseases, leading to better health. The NPRCs 
collaborate as a transformative and innovative network to support the 
best science and act as a resource to the biomedical research community 
as efficiently as possible. There is an exceptional return on 
investment in the NPRC program; $10 is leveraged for every $1 of 
research support for the NPRCs. It is important to sustain funding for 
the NPRC program and the NIH as a whole to continue to grow and develop 
the innovative plan for the future of NIH.
NPRCs Contributions to NIH Priorities
    The NPRCs activities are closely aligned with NIH's priorities. In 
fact, NPRC investigators conduct much of the Nation's basic and 
translational nonhuman primate research, facilitate additional vital 
nonhuman primate research that is conducted by hundreds of 
investigators from around the country, provide critical scientific 
expertise, train the next generation of scientists, and advance 
cutting-edge technologies. The NPRCs currently are engaged with NIH 
staff in a comprehensive strategic planning process to further enhance 
the capabilities of the NPRCs to serve as a resource across all NIH 
institutes and centers. The NPRC consortium strategic plan has as its 
center and driving force the scientific priorities that drive 
translational work into better interventions and diagnostics for 
improved human health. Outlined below are a few of the overarching 
goals of the plan, including specifics of how the NPRCs are striving to 
achieve these through programs and activities across the centers.
    Advance Translational Research Using Animal Models.--Nonhuman 
primate models bridge the divide between basic biomedical research and 
implementation in a clinical setting. Currently, seven of the eight 
NPRCs are affiliated and collaborate with NIH Clinical and 
Translational Science Awards (CTSA) program through their host 
institution. Specifically, the nonhuman primate models at the NPRCs 
often provide the critical link between research with small laboratory 
animals and studies involving humans. As the closest genetic model to 
humans, nonhuman primates serve in the development process of new 
drugs, treatments, and vaccines to ensure safe and effective use for 
the Nation's public.
    Strengthen the Research Workforce.--The success of the Federal 
Government's efforts in enhancing public health is contingent upon the 
quality of research resources that enable scientific research ranging 
from the most basic and fundamental to the most highly applied. 
Biomedical researchers have relied on one such resource--the NPRCs--for 
nearly 50 years for research models and expertise with nonhuman 
primates. The NPRCs are highly specialized facilities that foster the 
development of nonhuman primate animal models and provide expertise in 
all aspects of nonhuman primate biology. NPRC facilities and resources 
are currently used by over 2,000 NIH funded investigators around the 
country.
    The NPRCs are also supportive of getting students interested in the 
biomedical research workforce pipeline at an early age. For example, 
the Yerkes NPRC supports a program that connects with local high 
schools and colleges in Atlanta, Georgia, and invites students to 
participate in research projects taking place at their field station 
location.
    Offer Technologies to Advance Translational Research and Expand 
Informatics Approaches to Support Research.--The NPRCs have been 
leading the development of a new Biomedical Informatics Research 
Network (BIRN) for linking brain imaging, behavior, and molecular 
informatics in nonhuman primate preclinical models of neurodegenerative 
diseases. Using the cyberinfrastructure of BIRN for data-sharing, this 
project will link research and information to other primate centers, as 
well as other geographically distributed research groups.

Translational Science at the NPRCs
    Animal models are an essential tool for translating basic 
biomedical research to treatments and cures for patients, and the NPRCs 
are a national resource instrumental to this effort. The network of the 
eight NPRCs collaborates across many disciplines and institutions, with 
the goal of advancing biomedical knowledge to understand disease and 
improve human and animal health. Below are specific examples of 
translational research conducted at each of the eight NPRCs.
    In work conducted at the California National Primate Research 
Center, Immunoglobulin G (IgG) antibodies purified from mothers of 
children with autism and mothers of typically developing children were 
injected into pregnant rhesus monkeys. The offspring were then 
evaluated both neurologically and behaviorally. Offspring of mothers 
who received IgG from mothers of children with autism demonstrated 
significantly higher levels of repetitive behaviors than the offspring 
who received control antibodies. There are currently no diagnostic 
tests for autism. This research identifies one potential autoimmune 
cause of autism. Moreover, detection of the maternal autoantibodies may 
become an early diagnostic test for increased risk of having a child 
with autism. This research, which relied on treating pregnant rhesus 
monkeys, could not have been conducted without the facilities provided 
by the national primate center.
    Rhesus monkeys are widely used as animal models across many fields 
of biomedical research because of their genetic, physiological, 
behavioral, and anatomical similarities to humans. Scientists at the 
New England National Primate Research Center are taking advantage of 
the genetic similarity between rhesus monkeys and humans to create the 
first monkey model of alcoholism genetics. Recent studies in human 
alcoholics who are treated with naltrexone, a leading medication for 
alcohol dependence, have shown that the medication works better in 
people who have a specific genetic variant in the OPRM1 gene. 
Scientists at the New England NPRC identified a similar genetic change 
in the rhesus monkey OPRM1 gene, and have shown that monkeys with the 
genetic change not only drink more alcohol but also have a comparable 
genetically determined response to naltrexone to that seen in some 
human alcoholics. This animal model gives scientists a new way to 
create personalized medications for the treatment of alcoholism.
    A new technique developed by a research team at the Oregon National 
Primate Research Center offers a way for women with mitochondrial 
diseases to have their own children without passing on defective 
genetic material. According to the scientists, defective genes in 
mitochondria can be passed to children at a frequency of 1 in 4,000 
births and can lead to a variety of diseases. Symptoms of these 
potentially fatal illnesses include dementia, movement disorders, 
blindness, hearing loss, and problems of the heart, muscle, and kidney. 
Following this successful study in a nonhuman primate model, scientists 
believe that the technique could be applied quickly to humans to 
prevent devastating diseases.
    In 2005, researchers were looking for an animal model in which to 
test a prototype device which might ameliorate degenerative disc 
disease, a major cause of disability in working-age adults. The baboon 
was chosen as an appropriate animal model for safety testing of the new 
device because of its upright posture and the high magnitude of forces 
placed on the vertebral column during the baboon's natural movement. 
After a small pilot study, two subsequent pre-clinical studies were 
performed at the Southwest National Primate Research Center. This was 
an international effort in which specialists from Denmark, Canada, and 
the United Kingdom visited the Primate Center on numerous occasions to 
participate in the studies. The data from these studies along with data 
from human clinical trials are now being assembled for submission to 
the U.S. Food and Drug Administration for approval to use the 
artificial disc in the United States as an alternative for the 
treatment of degenerative lumbar spinal disease.
    Testing the safety and efficacy of potential compounds in nonhuman 
primates is virtually essential to advancing microbicide candidates to 
clinical trials to prevent HIV transmission. There are far too many 
microbicide candidates in development for all of them to be tested in 
human trials. Over the years, the Tulane National Primate Research 
Center has facilitated microbicide studies in nonhuman primates that 
have led to human clinical trials, and have been the only successful 
predictor of success or failure of compounds in these trials. 
Furthermore, candidates that were not sufficiently tested in nonhuman 
primates prior to human trials were shown to fail, and later studies, 
once performed in macaques, confirmed they would have been predictive 
of failure.
    Studies completed at the Tulane NPRC have resulted in Merck 
releasing one of these compounds to the International Partnership for 
Microbicides (IPM) for microbicide development and human clinical 
testing. Based on the positive results in macaque studies, the IPM also 
has been granted license to pursue topical development of Pfizer's 
Maraviroc as a microbicide. Nonhuman primate testing has resulted in a 
wealth of information that has prevented expensive clinical trials in 
humans that would have otherwise been fruitless.
    Recovery of function after stroke, traumatic brain injury or spinal 
cord injury is a significant medical challenge for millions of patients 
in the United States. A promising new treatment for many of these 
disabled survivors is an implantable recurrent brain-computer interface 
(R-BCI). The Washington National Primate Research Center developed R-
BCI, a ``neurochip'' that records neural activity from the brain and 
transforms that activity into stimuli delivered to the brain, spinal 
cord, or muscles during free behavior. R-BCI technology has the 
clinical potential to aid patients paralyzed by ALS or spinal cord 
injury to regain some motor control directly from cortical cells and 
may also be used to strengthen weak connections impaired by stroke.
    Researchers and physicians are getter closer to a novel diagnostic 
test for polycystic ovary syndrome (PCOS), which has staggering adverse 
physiological, psychological, and financial consequences for women's 
reproductive health. Scientists at the Wisconsin National Primate 
Research Center are studying the profile of metabolites in both monkey 
and patient samples of blood, urine, sweat, and breath molecules to 
identify signals in the body's internal chemistry that are consistent 
with the syndrome. From the vast pool of metabolites in their samples, 
they have found a handful that rise to the surface as indicators of 
PCOS. These telltale molecules could become the basis for the first-
ever diagnostic test for the syndrome.
    A recent study based on work conducted at the Yerkes National 
Primate Research Center with nonhuman primates illustrates the promise 
of the Visual Paired Comparison (VPC) task for the detection of mild 
memory impairment associated with Alzheimer's disease (AD). To 
investigate this possibility, the Yerkes NPRC recently extended their 
collaborations to include the Department of Computer Sciences at Emory 
University. The results show that eye movement characteristics 
including fixation duration, saccade length and direction, and re-
fixation patterns can be used to automatically distinguish impaired and 
normal subjects. Accordingly, this generalized approach has proven 
useful for improving early detection of AD, and may be applied, in 
combination with other behavioral tasks, to examine cognitive 
impairments associated with other neurodegenerative diseases. 
Researchers at the Yerkes NPRC have developed two patents based on this 
work.

The Need for Facilities Support
    The NPRC program is a vital resource for enhancing public health 
and spurring innovative discovery. In an effort to address many of the 
concerns within the scientific community regarding the need for funding 
for infrastructure improvements, the NPRCs support the continuation of 
a robust construction and instrumentation grant program at NIH.
    Animal facilities, especially primate facilities, are expensive to 
maintain and are subject to abundant ``wear and tear.'' In prior years, 
funding was set aside that fulfilled the infrastructure needs of the 
NPRCs and other animal research facilities. The NPRCs ask the 
Subcommittee to provide strong support for construction and renovation 
of animal facilities through C06 and G20 programs. Without proper 
infrastructure, the ability for animal facilities, including the NPRCs, 
to continue to meet the high demand of the biomedical research 
community will be unattainable.
    Thank you for the opportunity to submit this written testimony and 
for your attention to the critical need for primate research and the 
continuation of infrastructure support, as well as our recommendations 
concerning funding for NIH in the fiscal year 2012 appropriations bill.
                                 ______
                                 
        Prepared Statement of the National Psoriasis Foundation

                       INTRODUCTION AND OVERVIEW

    The National Psoriasis Foundation (the Foundation) appreciates the 
opportunity to submit written public witness testimony regarding fiscal 
year 2012 Federal funding for psoriasis and psoriatic arthritis data 
collection and research. The Foundation is the largest psoriasis 
patient advocacy organization and charitable funder of psoriatic 
disease research worldwide, and has a primary mission of finding a cure 
for psoriasis and psoriatic arthritis. Psoriasis, the Nation's most 
prevalent autoimmune disease, affecting as many as 7.5 million 
Americans, is a noncontagious, chronic, inflammatory, painful and 
disabling disease for which there is no cure. It appears on the skin, 
most often as red, scaly patches that itch, can bleed and require 
sophisticated medical intervention. Up to 30 percent of people with 
psoriasis also develop potentially disabling psoriatic arthritis that 
causes pain, stiffness and swelling in and around the joints. There are 
other serious risks associated with psoriasis--for example, diabetes, 
cardiovascular disease, stroke and some cancers. Of serious concern is 
that, beyond its terrible physical and psychosocial toll on 
individuals, psoriasis also costs the Nation $11.25 billion annually.
    The Foundation works with the research community and policymakers 
at all levels of government to advance policies and programs that will 
reduce and prevent suffering from psoriasis and psoriatic arthritis. In 
2009, after examining existing scientific literature, clinical practice 
and other components of psoriasis and psoriatic arthritis research and 
care, the Foundation's medical and scientific advisors recommended the 
creation of a federally organized, public health research program for 
psoriasis and psoriatic arthritis to collect the information necessary 
to address the key scientific questions in the study and treatment of 
psoriatic disease. Responding to this recommendation, recognizing the 
significant economic and social costs of psoriasis and psoriatic 
arthritis and acknowledging the sizeable gap in the understanding of 
these devastating conditions, in fiscal year 2010, Congress provided 
$1.5 million to the Centers for Disease Control and Prevention (CDC) to 
commence the first-ever Government effort to collect data on psoriasis 
and psoriatic arthritis. Following this initial investment, in its 
fiscal year 2011 Labor, Health and Human Services, Education (LHHS) 
funding bill, the Senate provided a second allocation of $1.5 million 
to continue these critical public health efforts. While that measure 
was not enacted, we want to thank you and your colleagues for 
recognizing the importance of psoriasis data collection and ask for 
your support again in fiscal year 2012.
    Since the initial appropriation, considerable progress has been 
made in developing this data collection program in a thoughtful and 
deliberate manner, and we commend CDC for its excellent methodology and 
undertaking of this important effort. Thus far, Federal investment in 
this effort has allowed the CDC, along with other Federal stakeholders, 
to identify the key gaps in psoriatic disease data, including: 
prevalence, age of onset, health-related quality of life, healthcare 
utilization, burden of disease (employment, work, etc.), direct and 
indirect costs, health disparities (age, gender, racial and ethnic), 
comorbidities and an understanding of the course of the disease over 
time. To uncover these important public health issues, in 2010, CDC 
researchers collaborated with the Foundation's scientific and medical 
advisors to establish a process by which a common basis for defining 
and diagnosing psoriasis will be created and validated. This work, in 
turn, will provide the insight, information and tools CDC researchers 
need to determine the key psoriasis and psoriatic arthritis public 
health questions to be pursued.
    While the Foundation acknowledges the fiscal realities currently 
facing Congress and this Nation, scientific discovery, at this moment, 
is poised to advance the understanding and treatment of psoriasis and 
psoriatic arthritis. As such, we respectfully request that Congress 
continue to support this important initiative by appropriating level 
funding, $1.5 million, in fiscal year 2012, to enable CDC to refine and 
implement the psoriasis and psoriatic data collection process that has 
been defined with previous funding. With fiscal year 2012 funding, CDC 
researchers will be able to build upon the initial investment and 
integrate psoriasis and psoriatic arthritis questions into existing 
federally funded public health surveys, allowing economies of scale and 
leveraging scarce resources to maximum their utility. The information 
gleaned from this effort will help improve treatments and disease 
management, identify new pathways for future research and drug 
development and inform efforts to reduce the burden of disease on 
patients, their families and society in general.
    In addition, the Foundation urges the Subcommittee to support 
robust fiscal year 2012 funding for the National Institutes of Health 
(NIH). Sustaining Federal investment in biomedical research will help 
support new investigator-initiated research grants for genetic, 
clinical and basic research related to the understanding of the 
cellular and molecular mechanisms of psoriasis and psoriatic arthritis. 
Epidemiologic research at CDC, coupled with biomedical investigations 
through NIH, will help further the Nation's understanding of psoriasis 
and psoriatic arthritis and contribute to the development of better 
therapies, improved treatments and disease management and 
identification of ways in which comorbid conditions (e.g., heart 
attack, cancer and diabetes) can be prevented or mitigated, in turn, 
helping to save money and lives.

     THE IMPACT OF PSORIASIS AND PSORIATIC ARTHRITIS ON THE NATION

    Psoriasis requires steadfast treatment and lifelong attention, 
especially since it most often strikes between ages 15 and 25. People 
with psoriasis also have significantly higher healthcare resource 
utilization, which costs more than that for the general population. Of 
serious and increasing concern is mounting evidence that people with 
psoriasis are at elevated risk for myriad other serious, chronic and 
life-threatening conditions, including cardiovascular disease, 
diabetes, stroke and some cancers. A higher prevalence of 
atherosclerosis, chronic obstructive pulmonary disease, Crohn's 
disease, lymphoma, metabolic syndrome and liver disease are found in 
people with psoriasis, as compared to the general population. In 
addition, people with psoriasis experience higher rates of depression 
and anxiety, and people with severe psoriasis die 4 years younger, on 
average, than people without the disease.
    Despite some recent breakthroughs, many people with psoriasis and 
psoriatic arthritis remain in need of effective, safe, long-term and 
affordable therapies to allow them to function normally without both 
physical and emotional pain. Due to the nature of the disease, patients 
often have to cycle through available treatments, and while there are 
an increasing number of methods to control the disease, there is no 
cure. Many of the existing treatments can have serious side effects and 
can pose long-term risks for patients (e.g., suppress the immune 
system, deteriorate organ function, etc.). The lack of viable, long-
term methods of control for psoriasis can be addressed through Federal 
commitment to epidemiological, genetic, clinical and basic research. 
NIH and CDC research, taken together, hold the key to improved 
treatment of these diseases, better diagnosis of psoriatic arthritis 
and eventually a cure.

     THE ROLE OF CDC IN PSORIASIS AND PSORIATIC ARTHRITIS RESEARCH

    Despite our increased understanding of the autoimmune underpinnings 
of psoriasis and its treatments, there is a dearth of population-based 
epidemiology data on psoriatic disease. The majority of existing 
studies of psoriasis are based on case reports, case series and cross-
sectional studies, which are likely biased toward more severe disease. 
Several analytical studies have been performed to identify potentially 
modifiable risk factors (e.g., smoking, diet, etc.) and some have 
yielded conflicting, or inconsistent, results. Most case-control 
studies looking for risk factors have been hospital-based, or specialty 
clinic-based, and again may be biased toward more severe disease, 
limiting their value for the larger population with psoriasis. Broadly 
representative population-based studies of psoriasis reflecting the 
full spectrum of disease are lacking and needed because there are still 
wide gaps in our knowledge and understanding of psoriatic disease.
    The CDC's psoriatic data collection effort will help to provide 
scientists and clinicians with critical information to further their 
understanding of: (a) how early intervention can prevent or delay the 
development of comorbid conditions; (b) what can trigger relapses and 
remissions; (c) some of the underlying causes of disease; (d) how 
differentiating lifestyle and other environmental triggers might lead 
to approaches that minimize exposure to these factors, thus reducing 
the incidence and severity of disease; and (e) best practice 
treatments, which in turn, would assist in streamlining appropriate 
patient care and help reduce the use of ineffective, unnecessary and 
costly treatments with challenging side effects.

           PSORIASIS AND PSORIATIC ARTHRITIS RESEARCH AT NIH

    It has taken nearly 30 years to understand that psoriasis is, in 
fact, not solely a disease of the skin, but also of the immune system. 
In recent years, scientists finally have identified some of the immune 
cells involved in psoriasis. The last decade has seen a surge in our 
understanding of these diseases, accompanied by new drug development. 
Scientists are poised, as never before, to make major breakthroughs.
    Within the NIH, the National Institute of Arthritis and 
Musculoskeletal and Skin Diseases (NIAMS) is the principal Federal 
Government agency that currently supports psoriasis research. We 
commend NIAMS for its leadership role and very much appreciate its 
steadfast commitment to supporting psoriasis research. Additionally, we 
are pleased that research activities that relate to psoriasis or 
psoriatic arthritis also have been undertaken at the National Institute 
of Allergy and Infectious Diseases (NIAID), the National Cancer 
Institute (NCI), the National Center for Research Resources (NCRR) and 
the National Human Genome Research Institute (NHGRI); however, the 
Foundation maintains that many more NIH institutes and centers--such as 
the National Heart, Lung, and Blood Institute (NHLBI) and the National 
Institute of Diabetes and Digestive and Kidney Diseases (NIDDK)--have a 
role to play, especially with respect to the myriad comorbidities of 
psoriasis, as noted earlier. Although overall NIH funding levels 
improved for psoriasis research in fiscal year 2010, and funding was 
boosted through stimulus funding awards of $3 million in fiscal year 
2009 and (an estimated) $2 million in fiscal year 2010, the Foundation 
remains concerned that total NIH funding generally is not keeping pace 
with psoriasis and psoriatic arthritis research needs. Our scientific 
advisors believe a strong Federal investment in genetic, immunological 
and clinical studies focused on understanding the mechanisms of 
psoriasis and psoriatic arthritis is needed.
    Given the myriad factors involved in psoriatic disease and its 
comorbid conditions, the Foundation advocates increasing overall NIH 
funding, with a focus on the aforementioned institutes. We recognize 
and appreciate that the Nation faces significant budgetary challenges; 
however, we maintain that an increased investment in the Nation's 
biomedical research enterprise will help strengthen both the economy 
and our understanding of psoriasis and psoriatic arthritis.

                           CONCLUSION/SUMMARY

    On behalf of the more than 7.5 million people with psoriasis and 
psoriatic arthritis, I want to thank the Committee for affording us the 
opportunity to submit written testimony regarding the fiscal year 2012 
investments we believe are necessary to ensure that our Nation 
adequately addresses the needs of individuals and families affected by 
psoriatic disease. By sustaining the Nation's biomedical research 
efforts at NIH, coupled with a specific allocation of $1.5 million for 
the CDC's psoriasis data collection efforts, Congress will help ensure 
that the Nation makes progress in understanding the connection between 
psoriasis and its comorbid conditions; uncovering the biologic aspects 
of psoriasis and other risk factors that lead to higher rates of 
comorbid conditions; and identifying ways to prevent and reduce the 
onset of comorbid conditions associated with psoriasis.
    Please feel free to contact the Foundation at any time; we are 
happy to be a resource to Subcommittee members and your staff. Again, 
we very much appreciate the Committee's attention to, and consideration 
of, our fiscal year 2012 requests.
                                 ______
                                 
           Prepared Statement of the National REACH Coalition

    The National REACH Coalition represents more than 40 communities 
and coalitions in 22 States working to eliminate racial and ethnic 
health disparities and improve the health of Native American/Native 
Hawaiian, African American, Latino, and Asian/Pacific Islander 
populations and communities. The coalition is an outgrowth of the 
Racial and Ethnic Approaches to Community Health (REACH U.S.) 2010 
initiative, launched in 1999 by the Centers for Disease Control and 
Prevention (CDC). REACH programs are embedded in communities with 
disproportionately higher rates of chronic disease, hospitalization, 
and premature death than other cities and counties across the country. 
They provide coordination and leadership for the advancement and 
translation of community-based participatory research into evidence-
based practices, policies, and community engagement.
    For the fiscal year 2012 funding cycle, the National REACH 
Coalition requests the Labor, Health and Human Services, Education and 
Related Agencies (Labor-HHS) Subcommittee to fully fund, at current 
levels, the CDC's REACH program as a discrete line item in CDC's 
National Center for Chronic Disease Prevention and Health Promotion or 
as a specific initiative within the Public Health and Prevention Trust.
    The NRC gratefully acknowledges the strong bipartisan support that 
the Senate Labor-HHS Subcommittee has provided to the REACH U.S. 
program over the years. Working in communities that are among the 
hardest hit by the recession, REACH programs provide a cost effective 
strategy to improve health outcomes and close the health gap. We 
understand the purpose of the newly established Community 
Transformation Grants (CTG) program to address health disparities in 
addition to chronic disease. However, the severity of discrepancy in 
health conditions among REACH-serving populations requires specific and 
intentional interventions and it is not sufficient for this to occur 
only through the CTG program. The generalized approach offered by CTG 
has been used over the last several decades and has resulted in no 
significant reduction in health disparities. Research data support the 
conclusion that to effectively close the gap in health outcomes in our 
country, there remains a definitive need for a program committed solely 
to the elimination of racial and ethnic health disparities.
    REACH programs have been successful in mobilizing community 
resources, addressing policy, systems, and environmental change, and 
creating a shared vision to achieve healthy communities for racial and 
ethnic minorities. REACH programs focus on a variety of health issues, 
most notably chronic diseases such as cardiovascular disease, diabetes, 
HIV/AIDS, and cancer, as well as the contributors to these diseases, 
which include smoking, low physical activity, obesity, poor screening 
rates, and lack of prevention and disease management activities. 
Chronic diseases account for the largest health gap among racial and 
ethnic minority populations and are the Nation's leading cause of 
morbidity and mortality, accounting for 70 percent of all deaths. 
Collectively, chronic diseases are responsible for 75 cents of every 
dollar spent on healthcare in the United States.
    REACH U.S. programs are working hard to eliminate these health 
disparities and many have seen successful outcomes in their 
communities. REACH programs nationwide have engaged hundreds of local 
coalition members and improved the lives of thousands of program 
participants. As a result, REACH communities are testing, evaluating, 
and implementing practice and evidence-based interventions that reduce 
the human and financial cost of these preventable diseases and 
associated risk factors. REACH has achieved significant policy and/or 
systems change in public policy, healthcare and preventative services, 
and health education.
    Some of our recent successes in program intervention and policy 
change include:
  --In South Carolina, the REACH Charleston and Georgetown Diabetes 
        Coalition reports that a 21 percent gap in blood sugar testing 
        between African Americans and the general population has been 
        virtually eliminated. Amputations among African-American males 
        with diabetes have been reduced by over 33 percent.
  --In Macon County, Alabama, the REACH Alabama Breast and Cervical 
        Cancer Coalition reports that disparities in mammography 
        screening between the general population and African American 
        women decreased from 15 percent to 2 percent within 5 years.
  --In Lawrence, Massachusetts, Latino CEED: REACH New England improved 
        14 healthcare indicators and outcomes for over 3200 Latinos 
        with diabetes over the past decade, including four indicators 
        now on par with the U.S. general population. One significant 
        improvement was the percentage of Latino patients whose blood 
        sugar was controlled, increasing from 15 percent to 45 percent 
        as a result of REACH interventions.
  --In New York City, Bronx Health REACH led local partners in the ``1 
        percent Or Less'' campaign to eliminate whole milk and reduce 
        the availability of sweetened milk in NYC public schools, where 
        25 percent of children in elementary schools are obese. By 
        eliminating whole milk, the NYC Department of Health and Mental 
        Hygiene calculated that per student per year almost 5,960 
        calories and 619 grams of fat were eliminated, or more than one 
        pound of weight per child per year.
  --In South Los Angeles, Community Health Councils, a REACH grantee, 
        addressed the lack of healthy food options in a predominantly 
        African American community by advocating for local policy 
        changes. These included an incentive package to attract 3 new 
        grocery stores and sit-down restaurants into vulnerable 
        communities and the adoption of an ordinance by the city to 
        prohibit new stand-alone fast food restaurants within one half 
        mile of an existing fast food chain.
    In addition to the individual community improvements, data from the 
REACH national behavioral risk factor survey show that the REACH 
program is having a significant impact in risk reduction and disease 
management across communities and program wide. In 11 REACH communities 
evaluated between 2003 and 2009, there was meaningful improvement for 
all races in 34 out of 48 health risk factors, which include smoking 
prevalence, diabetes management, vaccination, and physical activity. 
REACH has demonstrated for the first time at a significant level that 
the elimination of health disparities is a ``winnable battle''.
    The success of REACH communities in reducing health risk and 
improving patient compliance and disease management is particularly 
striking when compared to overall U.S. trends. Some recent data trends 
include:
  --From 2001 to 2009, the smoking prevalence in REACH communities for 
        Asian men decreased from 30.5 percent to 13.8 percent in 
        contrast to the 16.9 percent of Asian men that smoke in the 
        U.S. overall. Smoking prevalence in Hispanic men decreased from 
        28.8 percent to 17.6 percent in contrast to the 19 percent of 
        Hispanic men that smoke in the U.S. overall.
  --From 2001 to 2004, African Americans transitioned from being less 
        likely to more likely than the general population to have their 
        cholesterol checked.
  --Health education interventions in REACH communities resulted in 
        larger rates (as much as 66 percent) of improvement across 
        racial and ethnic populations for smoking, physical activity, 
        consumption of fruits and vegetables, etc., than national 
        trends between 2001 and 2009.
    In addition to improving health outcomes, REACH programs also build 
capacity in the communities in which they operate. REACH programs train 
community and coalition members to work at the grassroots level on 
health issues, which can lead to employment opportunities at local 
health centers or community outreach programs. REACH also builds the 
capacity of local organizations and institutions to better serve their 
communities by addressing disparities and distributing resources where 
they are most needed. REACH is broadening the field of public health by 
engaging the food retail industry, local parks and recreation 
departments, city and regional land use, planning, housing, and 
transportation agencies, as well as healthcare providers.
    REACH communities across the United States have spent the last 
decade leveraging CDC funding with public private partnerships in order 
to effectively address health disparities. We have demonstrated through 
our research and our community programs that health disparities in 
racial and ethnic populations, once considered expected, are not 
intractable. Though we have made significant progress since REACH's 
inception, we could do a lot more. To move forward and eliminate health 
disparities, we must continue our work within underserved communities 
across the United States and build upon the successes achieved to date. 
Without continued funding for REACH programs, communities with high 
minority populations will continue to bear a disproportionate share of 
the national chronic disease burden. This not only keeps vulnerable 
communities at an increased disadvantage, but drives up healthcare 
costs by requiring long-term and costly medical intervention to treat 
chronic diseases that may have been prevented or better managed.
    The success and cost effectiveness of the REACH program would 
suggest it both practical and fiscally prudent to increase funding for 
the program to expand into additional communities across the country. 
However, given the current budget constraints we strongly urge the 
Committee to fully fund, at current levels, the CDC's REACH program in 
a discrete line item in CDC's National Center for Chronic Disease 
Prevention and Health Promotion or as a specific initiative within the 
Public Health and Prevention Trust. By doing so, we can continue our 
work in underserved communities and achieve marked improvements in the 
health of all Americans. We believe that our efforts will help to 
decrease the approximately 83,000 deaths that occur each year as a 
result of racial and ethnic health disparities, decrease the estimated 
$60 billion a year we spend in direct healthcare expenditures as a 
result of these disparities, and improve health access, quality, and 
outcomes for many people.
    We thank you for this opportunity to present our views to this 
Subcommittee. We look forward to working with you to improve the health 
and safety of all Americans.
                                 ______
                                 
          Prepared Statement of the National Respite Coalition

    Mr. Chairman, I am Jill Kagan, Chair of the ARCH National Respite 
Coalition, a network of respite providers, family caregivers, State and 
local agencies and organizations across the United States who support 
respite. Thirty State respite coalitions are also affiliated with the 
NRC. This statement is presented on behalf of the these organizations, 
as well as the members of the Lifespan Respite Task Force, a coalition 
of over 80 national and 100 State and local groups who supported the 
passage of the Lifespan Respite Care Act (Public Law 109-442). 
Together, we are requesting that the Subcommittee include funding for 
the Lifespan Respite Care Program administered by the U.S. 
Administration on Aging in the fiscal year 2011 Labor, HHS, and 
Education Appropriations bill at $50 million. Given the serious fiscal 
constraints facing the Nation, this request has been reduced by one-
half below the previous fiscal year's authorized and requested amount. 
This will enable:
  --State replication of best practices in Lifespan Respite to allow 
        all family caregivers, regardless of the care recipient's age 
        or disability, to have access to affordable respite, and to be 
        able to continue to play the significant role in long-term care 
        that they are fulfilling today;
  --Improvement in the quality of respite services currently available;
  --Expansion of respite capacity to serve more families by building 
        new and enhancing current respite options, including 
        recruitment and training of respite workers and volunteers; and
  --Greater consumer direction by providing family caregivers with 
        training and information on how to find, use and pay for 
        respite services.

Who Needs Respite?
    In 2009, a national survey found that over 65 million family 
caregivers are providing care to individuals of any age with 
disabilities or chronic conditions (Caregiving in the U.S. 2009. 
Bethesda, MD: National Alliance for Caregiving (NAC) and Washington, 
DC: AARP, 2009). Family caregivers provide an estimated $375 billion in 
uncompensated care, an amount almost as high as Medicare spending ($432 
billion in 2007) and more than total spending for Medicaid, including 
both Federal and State contributions and both medical and long-term 
care ($311 billion in 2005) (Gibson and Hauser, 2008).
    Family caregiving is not just an aging issue, but a lifespan one 
for the majority of the Nation's families. While the aging population 
is growing rapidly, the majority of family caregivers are caring for 
someone under age 75 (56 percent); 28 percent of family caregivers care 
for someone between the ages of 50-75, and 28 percent are caring for 
someone under age 50, including children (NAC and AARP, 2009). Many 
family caregivers are in the sandwich generation--46 percent of women 
who are caregivers of an aging family member and 40 percent of men also 
have children under the age of 18 at home (Aumann, Kerstin and Ellen 
Galinsky, et al. 2008). And 6.7 million children, are in the primary 
custody of an aging grandparent or other relative.
    Families of the wounded warriors--those military personnel 
returning from Iraq and Afghanistan with traumatic brain injuries and 
other serious chronic and debilitating conditions--are at risk for 
limited access to respite. Even with enactment of the new VA Family 
Caregiver Support Program, the need for respite will remain high among 
all veterans and their family caregivers. Among family caregivers of 
veterans whose illness, injury or condition is in some way related to 
military service surveyed in 2010, only 15 percent had received respite 
services from the VA or other community organization within the past 12 
months. Caregivers whose veterans have PTSD are only about half as 
likely as other caregivers to have received respite services (11 
percent vs. 20 percent) (NAC, Caregivers Of Veterans--Serving On The 
Homefront, November 2010). Sixty-eight percent of veterans' caregivers 
reported their situation as highly stressful compared to 31 percent of 
caregivers nationally who feel the same and three times as many say 
there is a high degree of physical strain (40 percent vs. 14 percent) 
(NAC, 2010). Veterans' caregivers specifically asked for up-to-date 
resource lists of respite providers in their local communities and help 
to find services--the very thing Lifespan Respite is charged to provide 
(NAC, 2010).
    National, State and local surveys have shown respite to be the most 
frequently requested service of the Nation's family caregivers 
(Evercare and NAC, 2006). Other than financial assistance for 
caregiving through direct vouchers payments or tax credits, respite is 
the number one national policy related to service delivery that family 
caregivers prefer (NAC and AARP, 2009). Yet respite is unused, in short 
supply, inaccessible, or unaffordable to a majority of the Nation's 
family caregivers. The NAC 2009 survey found that despite the fact that 
among the most frequently reported unmet needs of family caregivers 
were ``finding time for myself'' (32 percent), ``managing emotional and 
physical stress'' (34 percent), and ``balancing work and family 
responsibilities'' (27 percent), nearly 90 percent of family caregivers 
across the lifespan are not receiving respite services at all.
    Together, these family caregivers provide an estimated 80 percent 
of all long-term care in the United States. This percentage will only 
rise in the coming decades with an expected increase in the number of 
chronically ill veterans returning from war, greater life expectancies 
of individuals with Down's Syndrome and other disabling and chronic 
conditions, the aging of the baby boom generation, and the decline in 
the percentage of the frail elderly who are entering nursing homes.

Respite Barriers and the Effect on Family Caregivers
    Barriers to accessing respite include reluctance to ask for help, 
fragmented and narrowly targeted services, cost, and the lack of 
information about how to find or choose a provider. Even when respite 
is an allowable funded service, a critically short supply of well-
trained respite providers may prohibit a family from making use of a 
service they so desperately need. Lifespan Respite is designed to help 
States eliminate these barriers through improved coordination and 
capacity building.
    While most families take great joy in helping their family members 
to live at home, however, it has been well documented that family 
caregivers experience physical and emotional problems directly related 
to their caregiving responsibilities. A majority of family caregivers 
(51 percent) caring for someone over the age of 18 have medium or high 
levels of burden of care, measured by the number of activities of daily 
living with which they provide assistance, and 31 percent of all family 
caregivers were identified as ``highly stressed'' ((NAC and AARP, 
2009). While family caregivers of children with special healthcare 
needs are younger than caregivers of adults, they give lower ratings to 
their health. Only 4 out of 10 consider their health to be excellent or 
very good (44 percent) compared to 6 in 10 (59 percent) caregivers of 
adults; 26 percent say their health is fair or poor, compared to 16 
percent of those caring for adults. Caregivers of children are twice as 
likely as the general adult population to say they are in fair/poor 
health (26 percent vs 13 percent) (Provisional summary Health 
Statistics for US Adults, National Health Interview Survey, 2008, dated 
August 2009).
    The decline of family caregiver health is one of the major risk 
factors for institutionalization of a care recipient, and there is 
evidence that care recipients whose caregivers lack effective coping 
styles or have problems with depression are at risk for falling, 
developing preventable secondary complications such as pressure sores 
and experiencing declines in functional abilities (Elliott & Pezent, 
2008). Care recipients may also be at risk for encountering abuse from 
caregivers when the recipients have pronounced need for assistance and 
when caregivers have pronounced levels of depression, ill health, and 
distress (Beach et al., 2005; Williamson et al., 2001).
    Supports that would ease their burden, most importantly respite, 
are too often out of reach or completely unavailable. Even the simple 
things we take for granted, like getting enough rest or going shopping, 
become rare and precious events. Restrictive eligibility criteria also 
preclude many families from receiving services or continuing to receive 
services for which they once were eligible. A mother of a 12-year-old 
with autism was denied respite by her State DD (Developmental 
Disability) agency because she was not a single mother, was not at 
poverty level, was not exhibiting any emotional or physical conditions 
herself, and had only one child with a disability. As she told us, ``Do 
I have to endure a failed marriage or serious health consequences for 
myself or my family before I can qualify for respite? Respite is 
supposed to be a preventive service.''
    For the millions of families of children with disabilities, respite 
has been an actual lifesaver. However, for many of these families, 
their children will age out of the system when they turn 21 and they 
will lose many of the services, such as respite, that they currently 
receive. In fact, 46 percent of U.S. State units on aging identified 
respite as the greatest unmet need of older families caring for adults 
with lifelong disabilities.
    Respite may not exist at all in some States for adult children with 
disabilities still living at home, or individuals under age 60 with 
conditions such as ALS, MS, spinal cord or traumatic brain injuries, or 
children with serious emotional conditions. In Tennessee, a young woman 
in her twenties gave up school, career and a relationship to move in 
and take care of her 53 year-old mom with MS when her dad left because 
of the strain of caregiving. Fortunately, she lives in Tennessee with a 
State Lifespan Respite Program. Now 31, she wrote, ``And I was young--I 
still am--and I have the energy, but--it starts to weigh. Because we've 
been able to have respite care, it has made all the difference.''

Respite Benefits Families and is Cost Saving
    Respite has been shown to be a most effective way to improve the 
health and well-being of family caregivers that in turn helps avoid or 
delay out-of-home placements, such as nursing homes or foster care, 
minimizes the precursors that can lead to abuse and neglect, and 
strengthens marriages and family stability. A U.S. Department of Health 
and Human Services report prepared by the Urban Institute found that 
higher caregiver stress among those caring for the aging increases the 
likelihood of nursing home entry. Reducing key stresses on caregivers, 
such as physical strain and financial hardship, through services such 
as respite would reduce nursing home entry (Spillman and Long, USDHHS, 
2007). The budgetary benefits that accrue because of respite are just 
as compelling. Delaying a nursing home placement for just one 
individual with Alzheimer's or other chronic condition for several 
months can save thousands of dollars. In an Iowa survey of parents of 
children with disabilities, a significant relationship was demonstrated 
between the severity of a child's disability and their parents missing 
more work hours than other employees. It was also found that the lack 
of available respite appeared to interfere with parents accepting job 
opportunities. (Abelson, A.G., 1999)
    Moreover, data from an ongoing research project of the Oklahoma 
State University on the effects of respite care found that the number 
of hospitalizations, as well as the number of medical care claims 
decreased as the number of respite care days increased (Fiscal Year 
1998 Oklahoma Maternal and Child Health Block Grant Annual Report, July 
1999). A Massachusetts social services program designed to provide 
cost-effective family centered respite care for children with complex 
medical needs found that for families participating for more than 1 
year, the number of hospitalizations decreased by 75 percent, physician 
visits decreased by 64 percent, and antibiotics use decreased by 71 
percent (Mausner, S., 1995).
    In the private sector, the Metropolitan Life Insurance Company and 
the National Alliance for Caregivers found that U.S. businesses lose 
from $17.1 billion to $33.6 billion per year in lost productivity of 
family caregivers. (MetLife and National Alliance for Caregiving, 
2006). A more recent study from the National Alliance on Caregiving and 
Evercare demonstrated that the economic downturn has had a particularly 
harsh effect on family caregivers. Of the 6 in 10 caregivers who are 
employed, 50 percent of them are less comfortable during the economic 
downturn with taking time off from work to care for a family member or 
friend. A similar percentage (51 percent) says the economic downturn 
has increased the amount of stress they feel about being able to care 
for their relative or friend. Respite for working family caregivers 
could help improve job performance and employers could potentially save 
billions.

Lifespan Respite Care Program Will Help
    The Lifespan Respite Care Program is based on the success of 
statewide Lifespan Respite programs in Oregon, Nebraska, Wisconsin and 
Oklahoma. The Federal Lifespan Respite program is administered by the 
U.S. Administration on Aging, Department of Health and Human Services 
(HHS). AoA provides competitive grants to State agencies in concert 
with Aging and Disability Resource Centers working in collaboration 
with State respite coalitions or other State respite organizations. The 
program was authorized at $53.3 million in fiscal year 2009 rising to 
$95 million in fiscal year 2011. Congress appropriated $2.5 million in 
fiscal year 2009 and again in fiscal year 2010 and fiscal year 2011. 
Twenty-four States have received 3-year $200,000 Lifespan Respite 
Grants from AoA since 2009. Another 9 or 10 States are expected to 
receive grants by August 2011.
    The purpose of the law is to expand and enhance respite services, 
improve coordination, and improve respite access and quality. States 
are required to establish State and local coordinated Lifespan Respite 
care systems to serve families regardless of age or special need, 
provide new planned and emergency respite services, train and recruit 
respite workers and volunteers and assist caregivers in gaining access 
to services. Those eligible would include family members, foster 
parents or other adults providing unpaid care to adults who require 
care to meet basic needs or prevent injury and to children who require 
care beyond that required by children generally to meet basic needs.
    Lifespan Respite, which is a coordinated system of community-based 
respite services, helps States use limited resources across age and 
disability groups more effectively, instead of each separate State 
agency or community-based organization being forced to reinvent the 
wheel or beg for small pots of money. Pools of providers can be 
recruited, trained and shared, administrative burdens can be reduced by 
coordinating resources, and savings used to fund new respite services 
for families who may not qualify for existing Federal or State 
programs. For the growing number of veterans returning home with TBI or 
other polytrauma, the shortage of staff qualified to provide respite to 
this population is especially critical. Lifespan Respite systems can 
make all the difference by ameliorating special barriers for this 
population. The Government Accountability Office summarized the 
innovative activities being taken by the 24 States to implement these 
State Lifespan Respite Systems in its report to Congress, Respite Care: 
Grants and Cooperative Agreements Awarded to Implement the Lifespan 
Respite Care Act. GAO-11-28R, October 22, 2010.
    The Administration recommended $10 million for Lifespan Respite in 
fiscal year 2012. This is a doubling of the Administration's previous 
request in fiscal year 2011 of $5 million as part of their Middle Class 
Initiative. We are heartened to see that support for family caregiving 
is recognized as a critical component of a typical family's economic 
and social well-being and extremely grateful for the Administration's 
support. Still, we must not neglect that fact that 90 percent of the 
Nation's family caregivers are not receiving respite at all. More than 
half of them are caring for someone under age 75 with MS, ALS, 
traumatic brain or spinal cord injury, mental health conditions, 
developmental disabilities or cancer. $10 million will not address the 
need for respite. Based on expenditures by State funded Lifespan 
Respite programs in the original best practice States, we estimate that 
an average sized State will need at least $1 million to build a 
Lifespan Respite System that can better coordinate its services and 
funding streams, maximize use of existing resources, and leverage new 
dollars in both the public and private sectors to build respite 
capacity and serve the unserved.
    No other Federal program mandates respite as its sole focus. No 
other Federal program would help ensure respite quality or choice, and 
no current Federal program allows funds for respite start-up, training 
or coordination or to address basic accessibility and affordability 
issues for families. We urge you to include $50 million in the fiscal 
year 2012 Labor, HHS, Education appropriations bill so that Lifespan 
Respite Programs can be replicated in the States and more families, 
with access to respite, will be able to continue to play the 
significant role in long-term care that they are fulfilling today.
                                 ______
                                 
      Prepared Statement of the National Rural Health Association

    The National Rural Health Association (NRHA) is pleased to provide 
the Labor, Health and Human Services, Education and Related Agencies 
Appropriations Subcommittee with a statement for the record on fiscal 
year 2012 funding levels for programs with a significant impact on the 
health of rural America.
    The NRHA is a national nonprofit membership organization with more 
than 20,000 members that provides leadership on rural health issues. 
The Association's mission is to improve the health of rural Americans 
and to provide leadership on rural health issues through advocacy, 
communications, education and research. The NRHA membership consists of 
a diverse collection of individuals and organizations, all of whom 
share the common bond of an interest in rural health.
    The NRHA is advocating for continued full funding for a group of 
rural health programs that assist many rural communities in maintaining 
and building a strong healthcare delivery system into the future. Most 
importantly, these programs help increase the capacity of the rural 
healthcare delivery system. Additional capacity that will be absolutely 
necessary with the addition of many newly insured Americans under the 
Patient Protection and Affordable Care Act. These programs have been 
successful in increasing access to healthcare in rural areas, helping 
communities create new health programs for those in need and training 
the future health professionals that will give care to rural America. 
With modest investments, these programs are able to evaluate, study, 
and implement quality improvement programs and health information 
technology systems.
    While recognizing the constraints of the current economic and 
budgetary climate, we would like to remind you of the critical 
importance of these rural health programs and request modest increases 
to ensure that these programs do not lose any ground. Even small 
investments in these ``rural health safety net'' programs go a long way 
and generate big returns in rural communities. Cuts to these programs 
do more hard than good and in the long run the Federal government will 
pay a much higher cost should these rural programs go away.
    Some important rural health programs supported by the NRHA are 
outlined below.
    Rural Health Outreach and Network Grants provide capital investment 
for planning and launching innovative projects in rural communities 
that later become self-sufficient. These grants are unique in the 
Federal system as they allow the community to choose what is most 
important for their own situation and then build a program around that. 
These grants have led to projects dealing with obesity and diabetes, 
information technology networks, oral screenings, preventive services, 
and many other health concerns. Due to the community nature of the 
grants and a focus on self-sustainability after the terms of the grant 
have run out--85 percent of the Outreach Grantees continue to deliver 
services even 5 full years after Federal funding had ended. Request: 
$59.8 million
    Rural Health Research and Policy forms the Federal infrastructure 
for rural health policy. Without these funds, rural America has no 
coordinated voice in the Department of Health and Human Services (HHS). 
In addition to the expertise provided to agencies such as the Centers 
for Medicare and Medicaid Services, this line item also funds rural 
health research centers across the country. These research centers 
provide the knowledge and the evidence needed for good policy making, 
both in the Federal Government and across the Nation. Additionally, we 
urge the Subcommittee to include in report language instructions to the 
Office of Rural Health Policy to direct additional funding to the State 
rural health associations. The State associations serve to coordinate 
rural health activities at the State level and have a strong record of 
positive outcomes. Request: $10.76 million
    State Offices of Rural Health are the State counterparts to the 
Federal rural health research and policy efforts, and form the State 
infrastructure for rural health policy. They assist States in 
strengthening rural healthcare delivery systems by maintaining a focal 
point for rural health within each State and by linking small rural 
communities with State and Federal resources to develop long term 
solutions to rural health problems. Without these funds, States would 
have diminished capacity to administer many of the rural health 
programs that are so critical to access to care. Request: $10 million
    Rural Hospital Flexibility Grants fund quality improvement and 
emergency medical service projects for Critical Access Hospitals across 
the country. This funding is essential. CAHs are by definition small 
hospitals with fewer than 25 beds; they do not have the size, volume or 
the expertise to do the types of quality improvement or information 
technology activities that they need to do. These grants allow 
statewide coordination and provide expertise to CAHs. Also funded in 
this line is the Small Hospital Improvement Program (SHIP), which 
provides grants to more than 1,500 small rural hospitals (50 beds or 
less) across the country to help improve their business operations, 
focus on quality improvement and to ensure compliance provisions 
related to health information privacy. Request: $43.46 million
    Rural and Community Access to Emergency Devices assists communities 
in purchasing emergency devices and training potential first responders 
in their use. Defibrillators double a victim's chance of survival after 
sudden cardiac arrest, which an estimated 163,221 Americans experience 
every year. Request: $3.49 million
    The Office for the Advancement of Telehealth supports distance-
provided clinical services and is designed to reduce the isolation of 
rural providers, foster integrated delivery systems through network 
development and test a range of telehealth applications. Long-term, 
telehealth promises to improve the health of millions of Americans, 
provide constant education to isolated rural providers and save money 
through reduced office visits and expensive hospital care. These 
approaches are still new and unfolding and continued investment in the 
infrastructure and development is needed. Request: $12.3 million
    National Health Service Corps (NHSC) plays a critical role in 
providing primary healthcare services to rural underserved populations 
by placing healthcare providers in our Nation's most underserved 
communities. Invesment in our healthcare workforce is absolutely vital 
to support the newly insured population resulting from health reform. 
Programs like the NHSC help to maximize the capacity of our health 
system to care for patients. The Patient Protection and Affordable Care 
Act provided additional funding to the NHSC through the HHS Secretary's 
Community Health Center fund. The NRHA is supporting the President's 
request, which will ensure that the NHSC has access to the additional 
dedicated funding through the CHC Fund. Request: $173.2 million
    Title VII Health Professions Training Programs (with a significant 
rural focus):
  --Rural Physician Pipeline Grants will help medical colleges to 
        develop special rural training programs and recruit students 
        from rural communities, who are more likely to return to their 
        home regions to practice. Newly created under the Patient 
        Protection and Affordable Care Act, this ``grow-your-own'' 
        approach is one of the best and most cost-effective ways to 
        ensure a robust rural workforce into the future. Request: $
  --Area Health Education and Centers (AHECs) financially support and 
        encourage those training to become healthcare professionals to 
        choose to practice in rural areas. Without this experience and 
        support while in medical school, far fewer professionals would 
        make the commitment to rural areas and facilities including 
        Community Health Centers, Rural Health Clinics and rural 
        hospitals. It has been estimated that nearly half of AHECs 
        would shut down without Federal funding. The success of this 
        program was recognized through increased authorized levels in 
        the Patient Protection and Affordable Care Act. Request: $75 
        million
  --Geriatric Programs train health professionals in geriatrics, 
        including funding for Geriatric Education Centers (GEC). There 
        are currently 47 GECs nationwide that ensure access to 
        appropriate and quality healthcare for seniors. Rural America 
        has a disproportionate share of the elderly and could see a 
        shortage of health providers without this program. Request: $ 
        35.6 million
    The NRHA appreciates the support throughout the fiscal year 2011 
continuing resolution process and the opportunity to provide our 
recommendations for your fiscal year 2012 appropriations bill. Our 
request for continued funding for the rural health safety net is 
critical to maintaining access to high quality care in rural 
communities. We greatly appreciate the support of the Subcommittee and 
look forward to working with Members of Congress to continue making 
these important investments in rural health in fiscal year 2012 and 
into the future.
                                 ______
                                 
      Prepared Statement of the National Senior Corps Association

    Mr. Chairman, Members of the Committee, I testify today on behalf 
of the National Senior Corps Association, representing the interests 
and ideals of 500,000 senior volunteers and the directors, staff, and 
friends of local Foster Grandparent, Senior Companion, and RSVP 
programs throughout the country.
    The recent agreement for fiscal year 2011 appropriations included a 
20 percent cut in funding for RSVP--a devastating setback that 
threatens to deny 100,000 seniors the opportunity to serve their 
communities. We urge that this funding be restored, first and foremost, 
and that the Corporation for National and Community Service (CNCS) take 
particular care to do so in protecting opportunities for senior 
volunteers without interruption.
    For fiscal year 2012, NSCA requests $111,100,000 for the Foster 
Grandparent Program (FGP), $63,000,000 for RSVP, and $47,000,000 for 
the Senior Companion Program (SCP). This is an aggregate increase of 
$200,000 over the fiscal year 2010 enacted level. In addition, we 
support an appropriation of $5 million for demonstration projects to 
increase high school graduation rates through the Foster Grandparent 
Program and to support independent living for veterans through the 
Senior Companion Program.
    SENIOR CORPS is a federally authorized and funded network of 
national service programs that provides older Americans with the 
opportunity to apply their life experiences to volunteer service. 
Senior Corps is comprised of the Foster Grandparent Program, RSVP, and 
the Senior Companion Program, through which Americans age 55 and older 
provide essential services to cost-effectively address critical 
community needs.
    Foster Grandparent Program.--29,000 Foster Grandparents in 328 
projects provide a cost-effective means to reach and support more than 
280,000 at-risk children with special or exceptional needs annually who 
otherwise may not have the opportunity to receive individual assistance 
and attention from a caring adult. In 2009, Foster Grandparents 
volunteered 24.3 million hours.
  --81 percent of children served demonstrated improvements in academic 
        performance. Mentored children have reduced truancy resulting 
        in reduced school costs and, ultimately, reduced high school 
        dropout rates and increased lifetime earnings.
  --90 percent demonstrated increased self-image. This includes 
        improved health outcomes such as reductions in teen pregnancy 
        and reduced or delayed use of tobacco, alcohol, or illicit 
        drugs.
  --56 percent reported improved school attendance leading to increased 
        graduation rates, increased post-secondary education, and 
        higher lifetime earnings.
  --59 percent reported reduction in risky behavior, including reduced 
        juvenile violence and property crimes, saving victim and court 
        expenses, costly treatment of juvenile offenders, costs of 
        adult crime, crime losses of victims and the societal costs of 
        prosecuting and incarcerating adult offenders.
  --In 2009, FGP volunteers mentored 41,767 children and youth, of 
        which 5,400 were children of prisoners at high risk of 
        repeating their parent's path.
  --FGP intervention reduced need for social services, both short-term 
        costs of counseling and long-term costs of public assistance.
  --Based on conservative assumptions about outcomes and valuations, 
        studies indicate a return benefit of $2.72 for every dollar of 
        resources used for mentoring programs. (Analyzing the Social 
        Return on Investment in Youth Mentoring Programs, prepared by: 
        Paul A. Anton, Wilder Research; and Prof. Judy Temple, 
        University of Minnesota).
    Foster Grandparent Program Profiles.--Foster Grandparent Birda 
Dillon completed the ninth grade, worked doing factory assembly for 25 
years, raised 20+ children--14 of her own as well as grandchildren. She 
is a remarkable Foster Grandparent as the following remarks from her 
teacher in Benton Harbor, Michigan begin to illustrate: ``Grandma is so 
good with these students. She knows just how to work with them to get 
them to read the words themselves. She is positive and knows how to get 
the students to sound the words out. George is reading so much better. 
I was surprised when he told me recently, 'I need another book!''' I 
can't spend one-on-one time with them, and she can. Birda is one of the 
best reading tutors I've encountered in my many years of teaching. She 
knows all of the tricks and tools to help the students help themselves. 
She said much of what she knows she has learned through her training as 
a Foster Grandparent. I appreciate her giftedness very much. We hope we 
can be together for a long, long time.'' From Professional Volunteer 
who assists with site visits (a retired veteran teacher): ``I 
complimented her on her teaching of reading and told her I was a 
reading teacher, too. I told her she was a natural! She said she hadn't 
had any formal training; she wished she'd been a teacher, and I told 
her she was.'' Three of the children Birda tutors have incarcerated 
parents.
    Foster Grandparent Leila Williams: Leila serves in a first grade 
classroom at Washington Elementary School in Coloma, Michigan. ``I had 
no idea how rewarding it would be. And I feel so much better. I love 
having a schedule, being busy, and I sleep so good at night. Thank you, 
for making my life better. I'm 91 years old, and getting younger.'' 
Leila is matched with two children with parents in active military 
service. Leila's teacher reports that as a result of Leila's one-on-one 
attention, her two assigned students have developed positive 
relationships with Leila, improved socialization skills and have both 
improved reading skills, especially sight word recognition and fluency.
    RSVP.--405,000 RSVP volunteers contributed 62 million hours of 
service in 2009 through 741 projects nationwide working with more than 
65,000 community organizations. The average cost to support one RSVP 
volunteer is approximately $145 a year, whereas the average annual 
value per volunteer is more than $3,000. RSVP volunteers saved local 
communities $1.25 billion in 2009.
  --RSVP is continually strengthening its leadership role in engaging 
        volunteers 55+ by providing nonprofit agencies with volunteers 
        trained to recruit and coordinate other community members in 
        support of the nonprofits mission and goals. In 2009, RSVP 
        volunteers recruited 38,000 additional community volunteers.
  --RSVP projects demonstrate that their volunteer services increase 
        literacy scores for the 74,326 children they mentor--the 
        National Education Association states the lowest hourly rate 
        for teacher aides is $10.31 reflecting a savings of $16,858,623 
        in remedial reading assistance.
  --24,370 RSVP volunteers increased the capacity of the organizations 
        where they serve by enhancing both the quality and quantity of 
        services.
  --In 2009, RSVP volunteers mentored 6,400 children of prisoners at 
        high risk of repeating their parent's path.
  --RSVP volunteers provided 23,300 caregivers with respite services. A 
        recent AARP survey of working caregivers reports that 30 
        percent of family caregivers either quit their jobs or reduce 
        their work hours to take on more care giving responsibilities.
  --RSVP volunteers supported 509,000 with Independent Living Services.
  --30 percent of RSVP volunteers provided at least one service in the 
        area of Health/Nutrition which includes in-home and congregate 
        meals, food distribution/collection, immunization, etc. valued 
        at more than $27 million.
    RSVP Program Profile.--The Beginning Alcohol and Addictions Basic 
Education Studies (BABES) program has been operating successfully for 
many years in districts throughout the Portage County, Wisconsin RSVP 
service area. Each year, hundreds of second graders in the various 
districts learn from their puppet friends (via the RSVP volunteers) 
about complex issues like peer pressure, good decisionmaking, and 
asking for help.
    In 2009, over 600 second graders participated in the program. The 
intermediate outcome states that teachers in the second grade classes 
will observe children using phrases from the presentations and 
reminding others about the lessons they have learned. In 2009, the 
target was exceeded as 21 teachers returned surveys and 90 percent (19) 
reported they observed children using phrases from the BABES 
presentations. Teacher comments included: (1) ``They have brought up 
coping, decisionmaking, peer pressure and self image when we are 
reading other stories. They have made a connection from these lessons 
to what is going on in their world.'' (2) ``One student came in from 
recess and said someone was peer pressuring her to do something on the 
playground. It was great hearing the term used!''
    The end outcome states that students in second grade classes who 
complete the BABES program will show an increase in knowledge about 
alcohol and drug use and abuse and seeking help as measured on a pre/
post test. In 2009, the target was exceeded as 74 percent (20 of 27 
classes participating in BABES in 2009) of classes improved their 
scores on the post test by at least 10 percent.
    While the program is successful because volunteers are willing to 
present the lessons, the coordination of the program is also an 
important piece. The RSVP Intergenerational Coordinator provides annual 
volunteer training, ensures volunteers have all the materials they 
need, works with the schools to schedule the program, ensures the pre 
and post tests are completed and returned and analyzes and reports the 
date collected to all the stakeholders.
    Senior Companion Program.--15,200 Senior Companions serving in 194 
projects provided 12.2 million hours of service helping 68,200 frail, 
homebound clients in need of assistance in order to remain living 
independently. Senior Companion Program services prevented premature 
and costly institutionalization at an annual savings well over $200 
million. The national average cost for 1 year in a nursing home is 
$72,270; the assisted living facility yearly average cost is $37,572. 
One Senior Companion volunteer assists 2-6 homebound clients for the 
annual investment of $4,800.
  --Senior Companions offered essential respite to nearly 9,000 primary 
        caregivers who struggle to remain in the regular workforce 
        while caring for their loved one.
  --The Family Caregiver Alliance reports that families with long-term 
        care responsibilities miss an average of 7.5 workdays each 
        year.
  --The MetLife Caregiving Cost Study of July 2006 reports the 
        estimated cost to employers of full-time employed intense 
        caregivers at a total of $17.1 billion in lost productivity 
        annually as well as absenteeism, workday interruptions, costs 
        due to crisis in care, supervision costs associated with 
        caregiver employees, costs with unpaid leave and reducing hours 
        from full-time to part-time.
  --Clients have significant, long-term mental health benefits and 
        reduced rates of depression saving $50-$75 a month in 
        medication.
  --Cost of stress management therapy for one caregiver ($125 per 
        session) vs. respite provided by volunteer (4 hours of respite 
        care = $10.60 plus mileage average cost of $3).
  --Cost for a home health aide after a client's release from the 
        hospital is $21 per hour as compared to $2.65 per hour for a 
        Senior Companion volunteer (at no cost to clients).
    Senior Companion Program Profile.--Julia, an 80 year old woman who 
is blind was faced with having to leave her home in Rochester, NY due 
to her inability to see and complete the tasks of daily living needed 
to stay independent. While she had home health aide service to help her 
bathe, dress and clean her apartment, her family wasn't able to be with 
her during the day and evening due to their work schedules and their 
own family commitments.
    Julia was given two Senior Companion (SC) volunteers. One came each 
day mid-morning after the home health aide left and stayed until early 
afternoon. The SC kept Julia company, escorted her to the bathroom when 
needed, fixed lunch and ensured she was okay daily. The second SC came 
about 5 p.m. each evening. She fixed dinner, visited, cleaned up after 
dinner and helped Julia get ready and into bed each evening.
    Between these two volunteers Julia was able to stay living at home 
an additional 5+ years. At an average cost of $70,000 annually for long 
term care compared to the cost of her SC services at approximately 
$4,800 annually per companion, a savings of over $300,000 was saved.
    It has been stated that baby boomer and senior volunteers represent 
our Nation's single and fastest growing resource. During this 
unprecedented economic crisis facing our Nation, the number of baby 
boomer and senior volunteers should be greatly expanded and mobilized 
as solutions to the problems facing our local communities. NSCA's 2012 
budget request will provide the opportunity for thousands more older 
adults to serve in their communities and enhance the lives of those 
most in need, including children with special needs, the frail and 
isolated elderly striving to maintain independence, and expanding the 
services of local non-profit agencies.
    The 2010 national value of one hour of volunteer service was 
estimated at $21.36.
    Senior Corps volunteers' 98.2 million service hours in 2010 = $2.1 
billion savings.
                                 ______
                                 
  Prepared Statement of the National Technical Institute for the Deaf

    Mr. Chairman and Members of the Committee: I am pleased to present 
the fiscal year 2012 budget request for NTID, one of eight colleges of 
RIT, in Rochester, New York. Created by Congress by Public Law 89-36 in 
1965, we provide university technical and professional education for 
students who are deaf and hard-of-hearing, leading to successful 
careers in high-demand fields for a sub-population of individuals 
historically facing high rates of unemployment and under-employment. We 
also provide baccalaureate and graduate level education for hearing 
students in professions serving deaf and hard-of-hearing individuals. 
As of fall 2010, NTID served a total of 1,521 students from across the 
Nation, including 1,263 deaf and hard-of-hearing undergraduate students 
and 147 hearing undergraduate students. NTID students live, study and 
socialize with more than 15,000 hearing students on the RIT campus.
    NTID has fulfilled its mission with distinction for 43 years.
Budget Request
    As shown below, NTID's fiscal year 2012 budget request was 
$64,677,000 in Operations and $2,000,000 in Construction, as part of a 
plan that would provide NTID with a total of $10,000,000 in 
Construction over the next 5 years to fund needed capital projects. The 
NTID request is a total of $66,677,000; the President's request is 
$63,037,000 in Operations and $2,000,000 in Construction, for a total 
of $65,037,000.

                                     FISCAL YEAR 2012 BUDGET REQUEST STATUS
----------------------------------------------------------------------------------------------------------------
                                                                    Operations     Construction        Total
----------------------------------------------------------------------------------------------------------------
NTID Request....................................................     $64,677,000      $2,000,000     $66,677,000
President's Request \1\.........................................      63,037,000       2,000,000      65,037,000
                                                                 -----------------------------------------------
      Difference................................................       1,640,000  ..............       1,640,000
----------------------------------------------------------------------------------------------------------------
\1\ For fiscal years 2009, 2010 and most likely, 2011, NTID's Operations budget has been funded at $63,037,000;
  the President's recommended Operations budget for fiscal year 2012 would mark four consecutive years of
  funding at the same amount.

    For the past 3 years, NTID has been able to absorb the same level 
of funding in Operations primarily due to two factors: (1) a self-
initiated budget-reduction/revenue enhancement campaign from fiscal 
year 2003 through fiscal year 2007; and (2) limited RIT-mandated salary 
increases in recent years. However, realized savings from the campaign 
now have been reallocated and are no longer available. Furthermore, the 
limited increases from fiscal year 2009 through fiscal year 2011 mean 
that NTID has fallen significantly behind its salary benchmarks. RIT 
has mandated a 3 percent salary increase for all faculty and staff in 
the coming fiscal year.
    While NTID certainly would benefit from a budget increase to 
support upcoming strategic initiatives (see below), we understand the 
resource challenges facing the Committee this year. While an additional 
$1,640,000 beyond the President's recommended Operations funding for 
fiscal year 2012 is needed, we are amenable to meeting this need by 
shifting funds designated in the President's 2012 budget from 
Construction to Operations. This would ensure NTID stays within the 
total allocation proposed in the President's 2012 budget of 
$65,037,000, and will allow us to better meet our Operations needs. In 
the meantime, we will continue to seek non-Federal funding to support 
immediate construction/renovation needs while continuing to communicate 
about critical long-term construction needs.

Enrollment
    In fiscal year 2011 (fall 2010), we attracted the largest 
enrollment in our 43-year history. Truly a national program, NTID has 
enrolled students from all 50 States. Our current enrollment is 1,521. 
Over the last 5 years our enrollment has increased 22 percent (271 
students). For fiscal year 2012, NTID anticipates maintaining this 
record high enrollment level. Our enrollment history over the last 5 
years is shown below:

                                                           NTID ENROLLMENTS: FIVE-YEAR HISTORY
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                            Deaf/Hard-of-Hearing Students                       Hearing Students
                                                --------------------------------------------------------------------------------------------
                  Fiscal Year                                                                        Interpreting                            Grand total
                                                  Undergrad     Grad RIT       MSSE       Subtotal      Program        MSSE       Subtotal
--------------------------------------------------------------------------------------------------------------------------------------------------------
2007...........................................        1,017           47           31        1,095           130           25          155        1,250
2008...........................................        1,103           51           31        1,185           130           28          158        1,353
2009...........................................        1,212           48           24        1,284           135           31          166        1,450
2010...........................................        1,237           38           32        1,307           138           29          167        1,474
2011...........................................        1,263           40           29        1,332           147           42          189        1,521
--------------------------------------------------------------------------------------------------------------------------------------------------------

Student Accomplishments
    For our graduates, over the past 5 years, an average of 93 percent 
have been placed in jobs commensurate with the level of their education 
(using the Bureau of Labor Statistics methodology). Of our fiscal year 
2009 graduates (the most recent class for which numbers are available), 
59 percent were employed in business and industry, 21 percent in 
education/nonprofits, and 20 percent in Government.
    Graduation from NTID has a demonstrably positive effect on 
students' earnings over a lifetime, and results in a noteworthy 
reduction in dependence on Supplemental Security Income (SSI), Social 
Security Disability Insurance (SSDI) and public assistance programs. In 
fiscal year 2007, NTID, the Social Security Administration, and Cornell 
University examined approximately 13,000 deaf and hard-of-hearing 
individuals who applied and attended NTID over our entire history. We 
learned that graduating from NTID has significant economic benefits. By 
age 50, deaf and hard-of-hearing baccalaureate graduates earned on 
average $6,021 more per year than those with associate degrees, who in 
turn earned $3,996 more per year on average than those who withdrew 
before graduation. Students who withdrew earned $4,329 more than those 
not admitted. Students who withdrew experienced twice the rate of 
unemployment as graduates.
    The same studies showed 78 percent of these individuals were 
receiving SSI benefits at age 19, but when they were 50 years old, only 
1 percent of graduates drew these benefits, while on average 19 percent 
of individuals who withdrew or were not admitted continued to 
participate in the SSI program. Graduates also accessed SSDI, an 
unemployment benefit, at far lesser rates than students who withdrew; 
by age 50, 34 percent of non-graduates were receiving SSDI, while 22 
percent of baccalaureate graduates and 27 percent of associate 
graduates were receiving them. Considering the reduced dependency on 
these Federal income support programs, the Federal investment in NTID 
returns significant societal dividends.
    NTID clearly makes a significant, positive difference in earnings, 
and in lives.

Strategic Initiatives Beginning Fiscal Year 2011
    In 2010, NTID completed Strategic Decisions 2020, a strategic plan 
based on our founding mission statement. This statement sets forth our 
institutional responsibility to work with students to develop their 
academic, career and life-long learning skills as future contributors 
in a rapidly changing world. It also recognizes our role as a special 
resource for preparing individuals who are deaf and hard-of-hearing, 
for conducting applied research in areas critical to the advancement of 
individuals who are deaf and hard-of-hearing, and for disseminating our 
collective and cumulative expertise.
    Strategic Decisions 2020 establishes key initiatives responding to 
future challenges and shaping future opportunities. These initiatives, 
which began implementation in fiscal year 2011, include:
  --Pursuing enrollment targets and admissions and programming 
        strategies that will result in increasing numbers of our 
        graduates achieving baccalaureate degrees and higher, while 
        maintaining focus and commitment to quality associate-level 
        degree programs leading directly to the workplace;
  --Improving services to under-prepared students through working with 
        regional partners to implement intensive summer academic 
        preparation programs in selected high-growth, ethnically 
        diverse areas of the country. Through this initiative, NTID 
        will identify those students demonstrating promise for success 
        in career-focused degree-level programs and beyond, and provide 
        consultation to others regarding postsecondary educational 
        alternatives;
  --Expanding NTID's role as a National Resource Center of Excellence 
        regarding the education of deaf and hard-of-hearing students in 
        senior high school (grades 10, 11 and 12) and at the 
        postsecondary level. Components of this role as a National 
        Resource Center of Excellence will include:
    --Center for Excellence in STEM Education.--NTID currently is 
            working to develop an externally funded Center of 
            Excellence on STEM Education for Deaf and Hard-of-Hearing 
            Students. This is an example of making our expertise 
            available nationally and enhancing deaf and hard-of-hearing 
            students' access to STEM fields.
    --NTID Research Centers.--NTID will organize research resources 
            into Research Centers focused on the following strategic 
            areas of research: Teaching and Learning; Communication; 
            Technology, Access, and Support Services; and Employment 
            and Adaptability to Social Changes and the Global 
            Workplace.
    --Outreach Programs.--Extending outreach activities to junior and 
            senior high school students who are deaf and hard-of-
            hearing, many of who represent AALANA populations, to 
            expand their horizons regarding a college education. We 
            also support other colleges and universities serving 
            students who are deaf and hard-of-hearing, as well as post-
            college adults who are deaf and hard-of-hearing.
  --Enhancing efforts to become a recognized national leader in the 
        exploration, adaptation, testing, and implementation of new 
        technologies to enhance access to, and support of, learning by 
        deaf and hard-of-hearing individuals.

NTID Academic Programs
    NTID offers high quality, career-focused associate degree programs 
preparing students for specific well-paying technical careers. NTID 
also is expanding the number of its transfer associate degree programs, 
currently numbering seven, to better serve the higher achieving segment 
of our student population seeking bachelor's and master's degrees in an 
increasingly demanding marketplace. These transfer programs provide 
seamless transition to baccalaureate studies in the other colleges of 
RIT. In support of those deaf and hard-of-hearing students enrolled in 
the other RIT colleges, NTID provides a range of access services 
(including interpreting, real-time speech-to-text captioning, and note-
taking) as well as tutoring services. One of NTID's greatest strengths 
is our outstanding track record of assisting high-potential students to 
gain admission to, and graduate from, the other colleges of RIT at 
rates comparable to their hearing peers.
    A cooperative education (co-op) component is an integral part of 
academic programming at NTID and prepares students for success in the 
job market. A co-op gives students the opportunity to experience a 
real-life job situation and focus their career choice. Students develop 
technical skills and enhance vital personal skills such as teamwork and 
communication, which will make them better candidates for full-time 
employment after graduation. Over 250 students each year participate in 
10-week co-op experiences that augment their academic studies, refine 
their social skills, and prepare them for the competitive working 
world.

Summary
    It is extremely important that our funding be provided at the full 
level requested by the President as we continue our mission to prepare 
deaf and hard-of-hearing people to enter the workplace and society. We 
ask only that the funds provided by the President for Construction be 
moved into Operations.
    Our alumni have demonstrated that they can achieve independence, 
contribute to society, and find sustainable employment as a result of 
NTID. Research shows that NTID graduates over their lifetimes are 
employed at much higher rates, earn substantially more (therefore 
paying significantly more in taxes), and participate at a much lower 
rate in SSI, SSDI, and public assistance programs than those who 
withdraw or who apply but do not attend NTID.
    We are hopeful that the members of the Committee will agree that 
NTID, with its long history of successful stewardship of Federal funds 
and outstanding educational record of service with people who are deaf 
and hard-of-hearing, remains deserving of your support and confidence.
                  fiscal year 2012 ntid budget request

                                       FISCAL YEAR 2012 NTID BUDGET STATUS
----------------------------------------------------------------------------------------------------------------
                                                                    Operations     Construction        Total
----------------------------------------------------------------------------------------------------------------
NTID fiscal year 2011 funding...................................     $65,437,000        $240,000     $65,677,000
NTID original request...........................................      64,677,000       2,000,000      66,677,000
NTID updated request \1\........................................      65,437,000       1,240,000      66,677,000
----------------------------------------------------------------------------------------------------------------
\1\ Note: Our updated request keeps within the limits of our original request; however, it moves money from our
  Construction request to maintain our Operations funding at the 2011 level.

Context
    Enrollment is the highest in NTID history with 1,521 students, a 22 
percent increase over the past 5 years.
    In an effort to maximize non-Federal revenues, NTID increased 
tuition by 5 percent for fiscal year 2012. From fiscal year 2006-fiscal 
year 2012, student tuition has increased by 40 percent.
    Support for NTID is an investment with significant returns in the 
form of increased employment and reduced dependence on Federal SSI and 
SSDI payments for our students. NTID's employment rate in 2010 was 89 
percent in spite of a challenging job market and averages to be 93 
percent over the past 5 years.
    Prior to fiscal year 2011, NTID had received $63,037,000 in 
Operations for 2009 and 2010 and was slated to receive that sum again 
in 2011. NTID was able to accommodate level funding in the past through 
a combination of additional non-Federal revenues and targeted fiscal 
control strategies with minimal impact on services and programs for 
students. However, the $65,437,000 that NTID received in Operations for 
fiscal year 2011 was crucial in order to offset record student 
enrollment and use of access services, prevent enrollment caps, and 
avoid the elimination of outreach programs, equipment purchases, and 
matching endowments.
    NTID's updated budget request for fiscal year 2012 maintains 
Operations funding at the fiscal year 2011 level, to support our 
increased enrollment, increased provision of services, and upcoming 
strategic initiatives. It contains $1,240,000 requested for 
Construction to begin major renovations to a building designed 30 years 
ago that houses 3 major NTID programs.

Possible actions if less than fiscal year 2011 operations funding 
        received
    Limit admission of new students for Fall 2012.--NTID has never 
limited the number of qualified students who can enroll--to do so would 
mean denying deaf and hard-of-hearing students the opportunity to 
receive a state-of-the-art technical education with the unparalleled 
access services found at NTID.
    Hiring freeze and possible staff furloughs.--83 percent of NTID's 
resources support salaries/wages--NTID would have to reduce 
expenditures with a hiring freeze and possible furlough of staff, 
leaving positions vacant while serving more students than ever before.
    Substantial reduction or elimination of summer outreach programs.--
This would affect deaf and hard-of-hearing pre-college youth, 
especially young women and African-American and Latino-American youth, 
by eliminating programs that encourage them to continue on to college, 
especially in the STEM fields.
    Substantial reduction or elimination of equipment purchases.--
NTID's mission is to prepare deaf and hard-of-hearing students for 
technical and professional careers in fields characterized by cutting-
edge technologies. Without the most technologically updated equipment 
available, the education of our students will be impaired 
significantly.
    Substantial reduction or elimination of matching endowment funds.--
NTID would be unable to fulfill its commitment to match endowment 
donations to the Institute, decreasing the level of scholarship support 
for students.
                                 ______
                                 
                     Prepared Statement of Nemours

    Nemours thanks Chairman Harkin, Ranking Member Shelby and members 
of the Subcommittee for the opportunity to submit written testimony on 
the fiscal year 2012 Labor, Health and Human Services, Education and 
Related Agencies Appropriations bill. Nemours, one of the Nation's 
leading child health systems, is dedicated to improving children's 
health and well-being by offering a spectrum of clinical treatment, 
research, advocacy, educational health, and prevention services 
extending to families in the communities it serves.

About Nemours
    Nemours has developed a model of care that integrates clinical 
preventive and treatment services for children with population-based 
prevention initiatives. No other health system in the Nation has made 
the same level of investment in community-based prevention programs, 
policies and practices to reach all children in the community, not just 
those who cross our doors. Nemours Health and Prevention Services 
(NHPS) has developed a comprehensive, multi-sector obesity prevention 
initiative to reach all children in Delaware. To achieve the greatest 
impact, NHPS considers the many places where children and families 
spend their time: schools, child care, healthcare settings, community 
centers and neighborhoods. The goal is to reinforce consistent messages 
through policy and practice changes in each setting to help children 
make healthy food and lifestyle choices and to stay physically active.
    In school settings, NHPS works with district-level teams of 
administrators, teachers, counselors, school nurses, parents and 
students to encourage wellness policies and provide training and 
educational tools that support policy and environmental changes to 
encourage healthier eating and more physical activity on school 
campuses. In the child care setting, Nemours worked with government 
leaders to help Delaware become a frontrunner for policies that support 
healthy eating and physical activity. NHPS provides training and 
educational tools to help child care providers promote healthy 
behaviors for young children.
    In the primary care setting, Nemours convened pediatric primary 
care providers from across the State to participate in a learning 
collaborative focused on improving office-based weight management and 
health promotion skills. Practitioners learned about new interventions 
and received tools for use in the office setting, as well as take-home 
materials for families. In the community, NHPS works with youth-serving 
organizations to promote healthy eating and physical activity and to 
develop champions who will model the behavior and help spread the 
message. We also work to create an environment that promotes healthy 
lifestyles.

Community-based Prevention
    As an integrated health system that is very engaged with the 
community, Nemours sees first-hand the impact of chronic disease on our 
Nation's children. We treat obese young children at our clinics, and we 
know that unhealthy habits that contribute to obesity are starting at a 
very young age. In fact, nationally, over 24 percent of children ages 
2-5 are already overweight or obese. Much of what influences their 
health is outside the realm of the healthcare system, which is why we 
have made and will continue to make significant investments in 
community-based prevention. We believe that investing in clinical and 
community-based prevention is an important way to ensure that children 
grow up to be healthy adults. We are supportive of the Prevention and 
Public Health Fund and urge the Committee to utilize the resources 
provided from this Fund to support the integration of clinical and 
community-based prevention and to evaluate the outcomes associated with 
those investments. In particular, we are supportive of Community 
Transformation Grants.
    Community Transformation Grants draw upon the best of what we know 
works: strong coalitions, multi-sector, public-private partnerships, 
evidence-based approaches, and evaluation. In Delaware, Nemours has 
successfully used this combination of approaches to stem the rising 
childhood obesity curve between 2006 and 2008. These grants allow us to 
build upon this foundation and spread what works to other communities. 
The purpose of the grants is to support the implementation, evaluation, 
and dissemination of evidence-based community preventive health 
activities in order to reduce chronic disease rates, prevent the 
development of secondary conditions, address health disparities, and 
develop a stronger evidence-base of effective prevention programming. 
In short, these grants would help us in our efforts to help children 
grow up healthy. If we are serious about the commitment to improving 
health, then we need to transform the places where children live, learn 
and play, which is exactly what these grants are designed to 
accomplish. We urge the Committee to provide $221.06 million for 
Community Transformation Grants in fiscal year 2012, which is the level 
requested by the President.

Children's Hospital Graduate Medical Education
    Another important priority for Nemours is the healthcare workforce, 
particularly the pediatric workforce. Children's hospitals care for 
large numbers of children with complex health conditions. In order to 
achieve high quality clinical care and outcomes, these specialty 
hospitals need to have well-trained residents and physicians. The 
Children's Hospital Graduate Medical Education program (CHGME) provides 
support for graduate medical education to freestanding children's 
hospitals that train resident physicians. The CHGME program was created 
to correct an unintended inequity in the GME financing system, which is 
tied to the number of Medicare beneficiaries being treated at a 
hospital. Freestanding children's hospitals generally do not provide 
care to Medicare-eligible patients, and were therefore largely left out 
of the GME financing system. The CHGME program has addressed this 
issue.
    CHGME supports 55 freestanding children's hospitals that train 
approximately 40 percent of all pediatricians, 43 percent of all 
pediatric specialists, and many pediatric researchers and physicians 
who require pediatric training. In 2009, CHGME supported the training 
of 5,439 pediatric resident physicians. This is a very important 
contribution to training our pediatric workforce, which continues to 
experience shortages, particularly in pediatric specialty care. A 2009 
survey by the National Association of Children's Hospitals and Related 
Institutions (NACHRI) found that national shortages contribute to 
vacancies in children's hospitals that commonly last 12 months or 
longer for a number of pediatric specialties. These vacancies often 
result in longer wait times for children to see pediatric specialists.
    At the Alfred I. duPont Hospital for Children, over 300 residents 
are trained each year. Under the supervision of physicians, these 
residents provide care for inpatients and also provide primary and 
specialty care in outpatient settings, including clinics. In 2010, 
CHGME covered approximately 54 percent of the cost of the Nemours 
residency program.
    Unfortunately, the President's budget proposes to eliminate funding 
for this critical program. We urge Congress to reject this short-
sighted cut and to continue to provide support for training the next 
generation of pediatricians, pediatric specialists and pediatric 
researchers. Nemours urges the Subcommittee to provide $317.5 million 
for CHGME in fiscal year 2012, the same amount that was provided in 
fiscal year 2010.

Conclusion
    Nemours appreciates the opportunity to submit written testimony. As 
an integrated child health system, we have prioritized investments in 
clinical and community-based prevention and our workforce because we 
believe that in the long-run these investments will bend the health 
curve and the cost curve. We recognize that the Nation's fiscal 
situation requires a close examination of the programs and priorities 
that the Federal Government funds. As you make these critical funding 
decisions, we hope that prevention and the healthcare workforce will 
remain priorities of the Subcommittee in fiscal year 2012.
                                 ______
                                 
             Prepared Statement of the Nephcure Foundation

    Nephrotic syndrome (NS) is a collection of signs and symptoms 
caused by diseases that attack the kidney's filtering system. These 
diseases include focal segmental glomerulosclerosis (FSGS), Minimal 
Change Disease (MCD) and Membranous Nephropathy (MN). When affected, 
the kidney filters leak protein from the blood into the urine and often 
cause kidney failure which requires dialysis or kidney transplantation. 
According to a Harvard University report, 73,000 people in the United 
States have lost their kidneys as a result of FSGS. Unfortunately, the 
causes of FSGS and other filter diseases are very poorly understood.
    FSGS is the second leading cause of NS and is especially difficult 
to treat. There is no known cure for FSGS and current treatments are 
difficult for patients to endure. These treatments include the use of 
steroids and other dangerous substances which lower the immune system 
and contribute to severe bacterial infections, high blood pressure and 
other problems in patients, particularly child patients. In addition, 
children with NS often experience growth retardation and heart disease. 
Finally, NS caused by FSGS, MCD or MN is idiopathic and can often 
reoccur, even after a kidney transplant.
    FSGS disproportionately affects minority populations and is five 
times more prevalent in the African American community. In a 
groundbreaking study funded by NIH, researchers found that FSGS is 
associated with two APOL1 gene variants. These variants are common in 
African Americans but not in European Americans, and it is thought that 
these variants developed as an evolutionary response to African 
sleeping sickness.
    FSGS also has a large social impact on the United States. FSGS 
leads to end-stage renal disease (ESRD) which is one of the most costly 
chronic diseases to manage. In 2007, the Medicare program alone spent 
$24 billion, 6 percent of its entire budget, on ESRD. In 2005, FSGS 
accounted for 12 percent of ESRD cases in the United States, at an 
annual cost of $3 billion. It is estimated that there are currently 
approximately 20,000 Americans living with ESRD due to FSGS.
    Research on FSGS could achieve tremendous savings in Federal 
healthcare costs and reduce health status disparities--both critical 
and appropriate themes of the current administration. For this reason, 
and on behalf of the thousands of families that are significantly 
affected by this disease, we recommend the following:
  --$35 billion for the National Institutes of Health (NIH) and a 
        corresponding increase to the National Institute of Diabetes 
        and Digestive and Kidney Diseases (NIDDK).
  --Continue to support the Nephrotic Syndrome Rare Disease Clinical 
        Research Network at the Office of Rare Diseases Research 
        (ORDR).
  --Support continued expansion of the FSGS/NS research portfolio at 
        NIDDK and the National Institute on Minority Health and Health 
        Disparities (NIMHD) by funding more research proposals for 
        glomerular disease.
  --Support awareness activities through the Centers for Disease 
        Control and Prevention Chronic Kidney Disease Program.

Encourage FSGS/NS Research at NIH
    There is no known cause or cure for FSGS and scientists tell us 
that much more research needs to be done on the basic science behind 
FSGS/NS. More research could lead to fewer patients undergoing ESRD and 
tremendous savings in healthcare costs in the United States.
    With collaboration from other Institutes and Centers, ORDR 
established the Rare Disease Clinical Research Network. This network 
provided an opportunity for the NephCure Foundation, the University of 
Michigan, and other university research health centers to come together 
to form the Nephrotic Syndrome Study Network (NEPTUNE). NEPTUNE is a 
relatively new collaboration and has tremendous potential to make 
significant advancements in NS and FSGS research because it pools 
resources and develops a database of NS patients who are interested in 
participating in clinical trials. The addition of Federal resources, as 
well as NIH coordination of this important initiative, is crucial to 
ensuring the best possible outcomes for RDCRN and NEPTUNE.
    The NephCure Foundation is also grateful to the NIDDK for issuing a 
program announcement (PA) that serves to initiate grant proposals on 
glomerular disease. This PA was issued in March of 2007 and utilizes 
utilize the R01 mechanism to award funding to glomerular disease 
researchers. In February, 2010 the PA was re-released and is now 
scheduled to expire in 2013. We ask the subcommittee to encourage NIDDK 
to continue to issue glomerular disease PAs.
    Due to the disproportionate burden of FSGS on minority populations, 
the NephCure Foundation feels that it is appropriate for NIMHD to 
develop an interest in this research. However, NIMHD has not supported 
any research on FSGS. We ask the Subcommittee to encourage ORDR, NIDDK, 
and NIMHD to collaborate on research that studies the incidence and 
cause of this disease among minority populations. We also ask the 
Subcommittee to urge NIDDK and the NIMHD undertake culturally 
appropriate efforts aimed at educating minority populations about 
glomerular disease.

Raise Glomerular Disease Awareness at CDC
    When glomerular disease strikes, the resulting NS causes a loss of 
protein in the urine and edema. The edema often manifests itself as 
puffy eyelids, a symptom that many parents and physicians mistake as 
allergies. With experts projecting a substantial increase in nephrotic 
syndrome in the coming years, there is a clear need to educate 
pediatricians and family physicians about glomerular disease and its 
symptoms.
    It would be of great benefit for CDC to begin raising public 
awareness of the glomerular diseases in an attempt to diagnose patients 
earlier.
    We ask the Subcommittee to encourage CDC to establish a glomerular 
disease education and awareness program aimed at both the general 
public and healthcare providers.
                                 ______
                                 
             Prepared Statement of Neurofibromatosis, Inc.

    Thank you for the opportunity to submit testimony to the 
Subcommittee on the importance of continued funding at the National 
Institutes of Health (NIH) for Neurofibromatosis (NF), a terrible 
genetic disorder closely linked to many common diseases widespread 
among the American population.
    On behalf of Neurofibromatosis, Inc., a national coalition of NF 
advocacy groups, I speak on behalf of the 100,000 Americans who suffer 
from NF as well as approximately 175 million Americans who suffer from 
diseases and conditions linked to NF such as cancer, brain tumors, 
heart disease, memory loss and learning disabilities. Thanks in large 
measure to this Subcommittee's strong and enduring support, scientists 
have made enormous progress since the discovery of the NF1 gene in 1990 
resulting in clinical trials now being undertaken at NIH with broad 
implications for the general population.

What is Neurofibromatosis (NF)?
    NF is a genetic disorder involving the uncontrolled growth of 
tumors along the nervous system which can result in terrible 
disfigurement, deformity, deafness, blindness, brain tumors, cancer, 
and even death. NF can also cause other abnormalities such as unsightly 
benign tumors across the entire body and bone deformities. In addition, 
approximately one-half of children with NF suffer from learning 
disabilities. While not all NF patients suffer from the most severe 
symptoms, all NF patients and their families live with the uncertainty 
of not knowing whether they will be seriously affected because NF is a 
highly variable and progressive disease.
    NF is not rare. It is the most common neurological disorder caused 
by a single gene and three times more common than Muscular Dystrophy 
and Cystic Fibrosis combined, but it is not widely known because it has 
been poorly diagnosed for many years. Approximately 100,000 Americans 
have NF, and it appears in approximately 1 in every 2,500 births. It 
strikes worldwide, without regard to gender, race or ethnicity. 
Approximately 50 percent of new NF cases result from a spontaneous 
mutation in an individual's genes and 50 percent are inherited. There 
are three types of NF: NF1, which is more common, NF2, which primarily 
involves tumors causing deafness and balance problems, and 
schwannomatosis, the hallmark of which is severe pain. In addition, 
advances in NF research stand to benefit over 175 million Americans in 
this generation alone because NF is directly linked to many of the most 
common diseases affecting the general population.
    When a child is diagnosed with NF it means tumors can grow anytime, 
anywhere on his/her nervous system, from the day he/she is born until 
the day he/she dies with no way to predict when or how severely the 
tumors will affect his/her body--and no viable way to treat the disease 
outside of surgery--which often results in more tumors that grow twice 
as fast. That same child then has a 50 percent chance to pass the gene 
to his/her children. That is an overwhelming diagnosis and it bears 
repeating: NF is one of the most common genetic disorders in our 
country and has no cure and no viable treatment. But that is changing. 
The immediate future holds real promise.

Link to Other Illnesses
    Researchers have determined that NF is closely linked to cancer, 
heart disease, learning disabilities, memory loss, brain tumors, and 
other disorders including deafness, blindness and orthopedic disorders, 
primarily because NF regulates important pathways common to these 
disorders such as the RAS, cAMP and PAK pathways. Research on NF 
therefore stands to benefit millions of Americans:
    Cancer.--NF is closely linked to many of the most common forms of 
human cancer, affecting approximately 65 million Americans. In fact, NF 
shares these pathways with 70 percent of human cancers. Research has 
demonstrated that NF's tumor suppressor protein, neurofibromin, 
inhibits RAS, one of the major malignancy causing growth proteins 
involved in 30 percent of all cancer. Accordingly, advances in NF 
research may well lead to treatments and cures not only for NF 
patients, but for all those who suffer from cancer and tumor-related 
disorders. Similar studies have also linked epidermal growth factor 
receptor (EGF-R) to malignant peripheral nerve sheath tumors (MPNSTs), 
a form of cancer which disproportionately strikes NF patients.
    Heart disease.--Researchers have demonstrated that mice completely 
lacking in NF1 have congenital heart disease that involves the 
endocardial cushions which form in the valves of the heart. This is 
because the same ras involved in cancer also causes heart valves to 
close. Neurofibromin, the protein produced by a normal NF1 gene, 
suppresses ras, thus opening up the heart valve. Promising new research 
has also connected NF1 to cells lining the blood vessels of the heart, 
with implications for other vascular disorders including hypertension, 
which affects approximately 50 million Americans. Researchers believe 
that further understanding of how an NF1 deficiency leads to heart 
disease may help to unravel molecular pathways involved in genetic and 
environmental causes of heart disease.
    Learning disabilities.--Learning disabilities are the most common 
neurological complication in children with NF1. Research aimed at 
rescuing learning deficits in children with NF could open the door to 
treatments affecting 35 million Americans and 5 percent of the world's 
population who also suffer from learning disabilities. In NF1 the 
neurocognitive disabilities range includes behavior, memory and 
planning. Recent research has shown there are clear molecular links 
between autism spectrum disorder and NF1; as well as with many other 
cognitive disabilities. Tremendous research advances have recently led 
to the first clinical trials of drugs in children with NF1 learning 
disabilities. These trials are showing promise. In addition because of 
the connection with other types of cognitive disorders such as autism, 
researchers and clinicians are actively collaborating on research and 
clinical studies, pooling knowledge and resources. It is anticipated 
that what we learn from these studies could have an enormous impact on 
the significant American population living with learning difficulties 
and could potentially save Federal, State, and local governments, as 
well as school districts, billions of dollars annually in special 
education costs resulting from a treatment for learning disabilities.
    Memory loss.--Researchers have also determined that NF is closely 
linked to memory loss and are now investigating conducting clinical 
trials with drugs that may not only cure NF's cognitive disorders but 
also result in treating memory loss as well with enormous implications 
for patients who suffer from Alzheimer's disease and other dementias.
    Deafness.--NF2 accounts for approximately 5 percent of genetic 
forms of deafness. It is also related to other types of tumors, 
including schwannomas and meningiomas, as well as being a major cause 
of balance problems.

Scientific Advances
    Thanks in large measure to this Subcommittee's support; scientists 
have made enormous progress since the discovery of the NF1 gene in 
1990. Major advances in just the past few years have ushered in an 
exciting era of clinical and translational research in NF with broad 
implications for the general population.
    These recent advances have included:
  --Phase II and Phase III clinical trials involving new drug therapies 
        for both cancer and cognitive disorders;
  --Creation of a National Clinical and Pre-Clinical Trials 
        Infrastructure and NF Centers;
  --Successfully eliminating tumors in NF1 and NF2 mice with the same 
        drug;
  --Developing advanced mouse models showing human symptoms;
  --Rescuing learning deficits and eliminating tumors in mice with the 
        same drug;
  --Determining the biochemical, molecular function of the NF genes and 
        gene products; and
  --Connecting NF to more and more diseases because of NF's impact on 
        many body functions.

Congressional support for NF research
    The enormous promise of NF research, and its potential to benefit 
over 175 million Americans who suffer from diseases and conditions 
linked to NF, has gained increased recognition from Congress and the 
NIH. This is evidenced by the fact that 12 institutes at NIH are 
currently supporting NF research (NCI, NHLBI, NINDS, NIDCD, NHGRI, 
NCRR, NIMH, NIGMS, NEI, NIA, NICHD, and OD), and NIH's total NF 
research portfolio has increased from $3 million in fiscal year 1990 to 
an estimated $24 million in fiscal year 2011. Given the potential 
offered by NF research for progress against a range of diseases, we are 
hopeful that NIH will continue to build on the successes of this 
program by funding this promising research and thereby continuing the 
enormous return on the taxpayers' investment.
    We respectfully request that you include the following report 
language on NF research at the National Institutes of Health within 
your fiscal year 2012 Labor, Health and Human Services, Education 
Appropriations bill.
    Neurofibromatosis [NF].--NF is an important research area for 
multiple NIH Institutes; therefore the Committee supports efforts to 
increase funding and resources toward NF research and treatment. As NF 
is connected to many forms of cancer in children and adults; the 
Committee encourages the NCI to substantially increase its NF research 
portfolio in pre-clinical and clinical trials by applying newly 
developed and existing drugs. The Committee also encourages the NCI to 
support NF centers, clinical trials consortia, patient databases, and 
biospecimen repositories. The Committee also urges additional focus 
from the NHLBI, given NF's involvement with hypertension and congenital 
heart disease. Because NF causes tumors to grow on the nerves 
throughout the body, the Committee urges the NINDS to continue 
aggressive research on nerve damage and repair which has strong 
implications not only for NF but for spinal cord and brain injury, 
learning disabilities and attention deficit disorders. In addition, the 
Committee continues to encourage the NICHD and NIMH to expand funding 
of clinical trials for NF patients in the area of learning 
disabilities. Children with NF1 are prone to the development of severe 
bone deformities, including scoliosis; the Committee encourages NIAMS 
to expand its NF1 research portfolio. NF2 accounts for approximately 5 
percent of genetic forms of deafness; the Committee therefore 
encourages the NIDCD to expand its NF2 research portfolio. The 
Committee encourages NEI to expand its NF research portfolio to advance 
the cause of treating Optic gliomas, vision loss and cataracts, major 
clinical problems associated with NF. The Committee encourages the 
NHGRI to expand its NF portfolio given that NF represents an ideal 
model to study the genomics of cancer predisposition, learning and 
behavior, and bone disease translatable to personalized medicine for 
affected individuals.
    We appreciate the Subcommittee's strong support for NF research and 
will continue to work with you to ensure that opportunities for major 
advances in NF research are aggressively pursued. Thank you.
                                 ______
                                 
              Prepared Statement of the Nursing Community

    The Nursing Community is a forum for professional nursing 
organizations to collaborate on a wide spectrum of healthcare and 
nursing issues, including practice, education, and research. These 56 
organizations are committed to promoting America's health through 
nursing care. Collectively, the Nursing Community represents over 
850,000 Registered Nurses (RNs), Advanced Practice Registered Nurses 
(APRNs--including certified nurse-midwives, nurse practitioners, 
clinical nurse specialists, and certified registered nurse 
anesthetists), nurse executives, nursing students, nursing faculty, and 
nurse researchers. Together, our organizations work collaboratively to 
increase funding for the Nursing Workforce Development programs 
(authorized under Title VIII of the Public Health Service Act [42 
U.S.C. 296 et seq.]), the National Institute of Nursing Research 
(NINR), and to secure authorized funding for Nurse-Managed Health 
Clinics so that American nurses have the support needed to provide high 
quality healthcare to the Nation.
    Nurses are involved in every aspect of healthcare, and if the 
nursing workforce is not strengthened, the healthcare system will 
continue to suffer. Currently, RNs comprise the largest group of health 
professionals with approximately 3.1 million licensed providers. Nurses 
offer essential care to patients as well as our Nation's active duty 
military and veterans in a variety of settings, including hospitals, 
ambulatory care clinics, long-term care facilities, community or public 
health areas, schools, workplaces, and private homes. In addition, many 
nurses pursue graduate degrees to assume roles as advanced practice 
registered nurses who practice autonomously; become nurse faculty, 
nurse researchers, nurse administrators, and advanced public health 
nurses. Nurses also specialize in areas such as mental and women's 
health, pain management, hospice and palliative care, nephrology, 
oncology, rehabilitation, forensics, dermatology, urology, and care 
coordination. They are critical team members in all departments such as 
intensive and critical care, pediatrics, geriatrics, medical surgical, 
and operating rooms. RNs and APRNs hold a holistic view of health.
    With the Patient Protection and Affordable Care Act [Public Law 
111-148] (ACA) focus on creating a system that will increase access to 
quality care, emphasize prevention, and decrease cost, it is critical 
that a substantial investment be made in our RN and APRN workforce, in 
the scientific research that provides the basis for nursing practice, 
and in the safety-net facilities they operate.
    In an article published in the July/August 2009 issue of Health 
Affairs, Dr. Peter Buerhaus, a noted health professions workforce 
analyst, and colleagues confirmed that although the economic recession 
has led to a temporary easing of the nursing shortage in some parts of 
the country, the overall shortfall in the number of nurses needed is 
expected to grow to 260,000 by the year 2025. Three major factors 
contribute to this growing demand for nursing care. First, over 275,000 
practicing RNs are over the age of 60 according to the 2008 National 
Sample Survey of Registered Nurses. When the economy rebounds, many of 
these nurses will seek retirement. Second, America's population is 
aging. Older Americans will seek more healthcare services creating an 
influx of consumers and necessitate the need for quality nursing care. 
Finally, the ACA will expand the number of individuals seeking care by 
32 million.
    Furthermore, in a report released by the Institute of Medicine and 
Robert Wood Johnson Foundation titled, The Future of the Nursing: 
Leading Change, Advancing Health, clear and evidence based guidance was 
provided on how to shape nursing's role in healthcare delivery as the 
system undergoes considerable changes. The report's key messages 
include:
  --Nurses should practice to the full extent of their education and 
        training; scope of practice limitations should be removed.
  --Nurses should achieve higher levels of education and training 
        through an improved education system that promotes seamless 
        academic progression.
  --Nurses should be full partners with other healthcare professionals 
        in redesigning healthcare in the United States.
  --Effective workforce planning and policymaking require better data 
        collection and an improved information infrastructure.
    To achieve these goals, different levels of support will be needed 
for all nurses and each of the funding requests outlined below will 
help to meet not only the goals of the IOM report, but the larger 
national goals of access to high quality, cost effective care.
     addressing the demand: nursing workforce development programs
    The Nursing Workforce Development programs, authorized under Title 
VIII of the Public Health Service Act (42 U.S.C. 296 et seq.), helped 
build the supply and distribution of qualified nurses to meet our 
Nation's healthcare needs since 1964. Over the last 47 years, these 
programs addressed all aspects of supporting the workforce--education, 
practice, retention, and recruitment. The Title VIII programs bolster 
nursing education at all levels, from entry-level preparation through 
graduate study, and provide support for institutions that educate 
nurses for practice in rural and medically underserved communities. 
Today, the Title VIII programs are essential to ensure the demand for 
nursing care is met. Between fiscal year 2006 and 2009, the Title VIII 
programs supported over 347,000 nurses and nursing students as well as 
numerous academic nursing institutions, and healthcare facilities.
    Results from the American Association of Colleges of Nursing's 
(AACN) 2010-2011 Title VIII Student Recipient Survey included responses 
from 1,459 students who noted that these programs played a critical 
role in funding their nursing education. The survey showed that 80 
percent of the students receiving Title VIII funding are attending 
school full-time. By supporting full-time students, the Title VIII 
programs are helping to ensure that students enter the workforce 
without delay. The programs also address the current demand for primary 
care providers. Nearly one-third of respondents reported that their 
career goal is to become a nurse practitioner. Approximately 80 percent 
of nurse practitioners provide primary care services throughout the 
United States. Additionally, the respondents identified working in 
rural and underserved areas as future goals, with becoming a nurse 
faculty member, a nurse practitioner, or a certified registered nurse 
anesthetist as the top three nursing positions for their career 
aspirations.
    The Nursing Community respectfully requests $313.075 million for 
the Nursing Workforce Development programs authorized under Title VIII 
of the Public Health Service Act in fiscal year 2012 as recommended in 
the President's fiscal year 2012 budget proposal.
    building the science: the national institute of nursing research
    As one of the 27 Institutes and Centers at the National Institutes 
of Health (NIH), the NINR funds research that establishes the 
scientific basis for quality patient care. Nurse researchers make 
significant advances in and contributions to health prevention and 
care. In addition, they work collaboratively as well as part of 
multidisciplinary research teams with colleagues from other fields and 
are vital in setting the national research agenda.
    The Nursing Community respectfully requests $163 million for the 
National Institute of Nursing Research in fiscal year 2012. Nursing 
research is an essential part of scientific endeavors to improve the 
Nation's health. Knowledge of care across the lifespan is critical to 
the present and future health of the Nation. Research funded at the 
NINR helps to integrate biology and behavior as well as design new 
technology and tools. At a time when healthcare needs are changing, 
nursing care must be firmly grounded in nursing science. The four 
strategic areas of emphasis for research at NINR are promoting health 
and preventing disease, eliminating health disparities, improving 
quality of life, and setting directions for end-of-life research.
    The science advanced at NINR is integral to the future of the 
Nation's healthcare system. Through grants, research training, and 
interdisciplinary collaborations, NINR addresses care management of 
patients during illness and recovery, reduction of risks for disease 
and disability, promotion of healthy lifestyles, enhancement of quality 
of life for those with chronic illness, and care for individuals at the 
end of life. NINR's research fosters advances in nursing practice, 
improves patient care, and attracts new students to the profession.

     SUPPORTING SAFETY NET FACILITIES: NURSE-MANAGED HEALTH CLINICS

    The ACA amended Sec. 330 of the Public Health Service Act to 
provide grant eligibility to Nurse-Managed Health Clinics (NMHCs) to 
support operating costs and authorized up to $50 million a year for 
this purpose. NMHCs are defined as a nurse-practice arrangement, 
managed by APRNs, that provides primary care or wellness services to 
underserved or vulnerable populations and that is associated with a 
school, college, university or department of nursing, federally 
qualified health center, or independent nonprofit health or social 
services agency. Nurse-Managed Health Clinics successfully engage 
communities and address critical health needs for underserved 
populations.
    The Nursing Community respectfully requests $20 million for the 
Nurse-Managed Health Clinics authorized under Title III of the Public 
Health Service Act in fiscal year 2012 as recommended in the 
President's fiscal year 2012 budget proposal.
    NMHCs provide care to clients and patients in clinics located in 
places like public housing, on blighted urban streets, on Native 
American reservations, in rural communities, in senior citizen centers, 
in elementary schools, in storefronts, and even in churches. The 
services these clinics provide include primary care, health promotion, 
and disease prevention. Furthermore, NMHCs also act as important 
teaching and practice sites for nursing students.
    The care provided in these sites directly contributes to positive 
health outcomes and savings in the long term. In one U.S. city alone, 
nurses at an NMHC see their patients almost twice as frequently as 
other providers, and their patients are hospitalized 30 percent less 
and use the emergency room 15 percent less often than those of other 
healthcare providers. Providing funding for these centers is a direct 
investment in the specific health needs of localized communities.
    Without a workforce of well-educated nurses providing evidence-
based care to those who need it most, including our growing aging 
population, the healthcare system is not sustainable. The Nursing 
Community's request of $313.075 million in fiscal year 2012 for the 
Title VIII Nursing Workforce Development programs, $163 million for the 
NINR, and $20 million for NMHCs will help ensure access to quality care 
provided by America's nursing workforce.

       MEMBERS OF THE NURSING COMMUNITY SUBMITTING THIS TESTIMONY

Academy of Medical-Surgical Nurses
American Academy of Ambulatory Care Nursing
American Academy of Nurse Practitioners
American Academy of Nursing
American Assembly for Men in Nursing
American Association of Colleges of Nursing
American Association of Critical-Care Nurses
American Association of Nurse Anesthetists
American Association of Nurse Assessment Coordinators
American College of Nurse Practitioners
American College of Nurse-Midwives
American Holistic Nurses Association
American Nephrology Nurses' Association
American Nurses Association
American Organization of Nurse Executives
American Psychiatric Nurses Association
American Society for Pain Management Nursing
American Society of PeriAnesthesia Nurses
Association of Community Health Nursing Educators
Association of periOperative Registered Nurses
Association of Rehabilitation Nurses
Association of State and Territorial Directors of Nursing
Association of Women's Health, Obstetric and Neonatal Nurses
Commissioned Officers Association
Dermatology Nurses' Association
Gerontological Advanced Practice Nurses Association
Hospice and Palliative Nurses Association
Infusion Nurses Society
International Association of Forensic Nurses
International Nurses Society on Addictions
International Society of Psychiatric Nurses
National Association of Clinical Nurse Specialists
National Association of Nurse Practitioners in Women's Health
National Association of Pediatric Nurse Practitioners
National Black Nurses Association
National Coalition of Ethnic Minority Nurse Associations
National Nursing Centers Consortium
National Organization of Nurse Practitioner Faculties
Nurses Organization of Veterans Affairs
Oncology Nursing Society
Public Health Nursing Section, American Public Health Association
Society of Urologic Nurses and Associates
                                 ______
                                 
           Prepared Statement of the Oncology Nursing Society

                                OVERVIEW

    The Oncology Nursing Society (ONS) appreciates the opportunity to 
submit written comments for the record regarding fiscal year 2012 
funding for cancer and nursing related programs. ONS, the largest 
professional oncology group in the United States, composed of more than 
35,000 nurses and other health professionals, exists to promote 
excellence in oncology nursing and the provision of quality care to 
those individuals affected by cancer. As part of its mission, the 
Society honors and maintains nursing's historical and essential 
commitment to advocacy for the public good.
    In 2010, an estimated 1.529 million Americans were diagnosed with 
cancer, and more than 569,490 lost their battle to this terrible 
disease; at the same time the national nursing shortage is expected to 
worsen. Overall, age is the number one risk factor for developing 
cancer. Approximately 77 percent of all cancers are diagnosed at age 55 
and older.\1\ Despite these grim statistics, significant gains in the 
war against cancer have been made through our Nation's investment in 
cancer research and its application. Research holds the key to improved 
cancer prevention, early detection, diagnosis, and treatment, but such 
breakthroughs are meaningless, unless we can deliver them to all 
Americans in need. Moreover, a recent survey of ONS members found that 
the nursing shortage is having an impact in oncology physician offices 
and hospital outpatient departments. Some respondents indicated that 
when a nurse leaves their practice, they are unable to hire a 
replacement due to the shortage--leaving them short-staffed and posing 
scheduling challenges for the practice and the patients. These 
vacancies in all care settings create significant barriers to ensuring 
access to quality care.
---------------------------------------------------------------------------
    \1\ American Cancer Society. Cancer Facts and Figures 2010. http://
www.cancer.org/Research/CancerFactsFigures/CancerFactsFigures/cancer-
facts-and-figures-2010.
---------------------------------------------------------------------------
    To ensure that all people with cancer have access to the 
comprehensive, quality care they need and deserve, ONS advocates 
ongoing and significant Federal funding for cancer research and 
application, as well as funding for programs that help ensure an 
adequate oncology nursing workforce to care for people with cancer. ONS 
stands ready to work with policymakers at the local, State, and Federal 
levels to advance policies and programs that will reduce and prevent 
suffering from cancer and sustain and strengthen the Nation's nursing 
workforce. We thank the Subcommittee for its consideration of our 
fiscal year 2012 funding request detailed below.

    SECURING AND MAINTAINING AN ADEQUATE ONCOLOGY NURSING WORKFORCE

    Oncology nurses are on the front lines in the provision of quality 
cancer care for individuals with cancer--administering chemotherapy, 
managing patient therapies and side-effects, working with insurance 
companies to ensure that patients receive the appropriate treatment, 
providing treatment education and counseling to patients and family 
members, and engaging in myriad other activities on behalf of people 
with cancer and their families. Cancer is a complex, multifaceted 
chronic disease, and people with cancer require specialty-nursing 
interventions at every step of the cancer experience. People with 
cancer are best served by nurses specialized in oncology care, who are 
certified in that specialty.
    As the overall number of nurses is expected to decline in the 
coming years, we likely will experience a commensurate decrease in the 
number of nurses trained in the specialty of oncology. With an 
increasing number of people with cancer needing high-quality 
healthcare, coupled with an inadequate nursing workforce, our Nation 
could quickly face a cancer care crisis of serious proportion, with 
limited access to quality cancer care, particularly in traditionally 
underserved areas. A study in the New England Journal of Medicine found 
that nursing shortages in hospitals are associated with a higher risk 
of complications--such as urinary tract infections and pneumonia, 
longer hospital stays, and even patient death.\2\ Without an adequate 
supply of nurses, there will not be enough qualified oncology nurses to 
provide the quality cancer care to a growing population of people in 
need, and patient health and well-being could suffer.
---------------------------------------------------------------------------
    \2\ Needleman J., Buerhaus P., Mattke S., Stewart M., Zelevinsky K. 
``Nurse-Staffing Levels and the Quality of Care in Hospitals.'' New 
England Journal of Medicine 346:, (May 30, 2002): 1715-1722.
---------------------------------------------------------------------------
    Of additional concern is that our Nation also will face a shortage 
of nurses available and able to conduct cancer research and clinical 
trials. With a shortage of cancer research nurses, progress against 
cancer will take longer because of scarce human resources coupled with 
the reality that some practices and cancer centers' resources could be 
funneled away from cancer research to pay for the hiring and retention 
of oncology nurses to provide direct patient care. Without a sufficient 
supply of trained, educated, and experienced oncology nurses, we are 
concerned that our Nation may falter in its delivery and application of 
the benefits from our Federal investment in research.
    ONS joins our colleagues from all nursing sectors and specialties 
to request $313.075 million for the Health Resources and Services 
Administrations (HRSA) Title VIII programs in fiscal year 2012, as 
recommended in the President's fiscal year 2012 budget. With additional 
funding in fiscal year 2012, the HRSA Workforce Development Programs 
will have much-needed resources to address the multiple factors 
contributing to the nationwide nursing shortage. Advanced nursing 
education programs play an integral role in supporting registered 
nurses interested in advancing in their practice and becoming faculty. 
As such, these programs must be adequately funded in the coming year.
    ONS strongly urges Congress to provide HRSA with this amount to 
ensure that the agency has the resources necessary to fund a higher 
rate of nursing scholarships and loan repayment applications and 
support other essential endeavors to sustain and boost our Nation's 
nursing workforce. Nurses--along with patients, family members, 
hospitals, and others--have joined together in calling upon Congress to 
provide this essential level of funding. The National Coalition for 
Cancer Research (NCCR), a nonprofit organization comprised of 23 
national cancer organizations, and One Voice Against Cancer (OVAC), a 
collaboration of 39 national nonprofit organizations, are also 
advocating $313.075 million in fiscal year 2012 for the Nurse 
Reinvestment Act. ONS and its allies have serious concerns that without 
full funding, the Nurse Reinvestment Act will prove an empty promise, 
and the current and expected nursing shortage will worsen, and people 
will not have access to the quality care they need and deserve.

            SUSTAIN AND SEIZE CANCER RESEARCH OPPORTUNITIES

    Our Nation has benefited immensely from past Federal investment in 
biomedical research at the National Institutes of Health (NIH). ONS has 
joined with the broader health community in advocating a $35 billion 
for NIH in fiscal year 2012. This level of investment will allow NIH to 
sustain and build on its research progress, while avoiding the severe 
disruption to advancement that could result from a minimal increase. 
Cancer research is producing amazing breakthroughs--leading to new 
therapies that translate into longer survival and improved quality of 
life for cancer patients. In recent years, we have seen extraordinary 
advances in cancer research, resulting from our national investment, 
which have produced effective prevention, early detection, and 
treatment methods for many cancers. To that end, ONS calls upon 
Congress to allocate $5.740 billion to the National Cancer Institute 
(NCI), as well as $231 million to the National Center for Minority 
Health and Health Disparities in fiscal year 2012 to support the battle 
against cancer.
    The National Institute of Nursing Research (NINR) supports basic 
and clinical research to establish a scientific basis for the care of 
individuals across the life span--from management of patients during 
illness and recovery, to the reduction of risks for disease and 
disability and the promotion of healthy lifestyles. These efforts are 
crucial in translating scientific advances into cost-effective 
healthcare that does not compromise quality of care for patients. 
Additionally, NINR fosters collaborations with many other disciplines 
in areas of mutual interest, such as long-term care for older people, 
the special needs of women across the life span, bioethical issues 
associated with genetic testing and counseling, and the impact of 
environmental influences on risk factors for chronic illnesses, such as 
cancer. ONS joins with others in the nursing community and NCCR in 
advocating a fiscal year 2012 allocation of $163 million for NINR.

 BOOST OUR NATION'S INVESTMENT IN CANCER PREVENTION, EARLY DETECTION, 
                             AND AWARENESS

    Approximately two-thirds of cancer cases are preventable through 
lifestyle and behavioral factors and improved practice of cancer 
screening. Although the potential for reducing the human, economic, and 
social costs of cancer by focusing on prevention and early detection 
efforts remains great, our Nation does not invest sufficiently in these 
strategies. The Nation must make significant and unprecedented Federal 
investments today to address the burden of cancer and other chronic 
diseases, and to reduce the demand on the healthcare system and 
diminish suffering in our Nation, both for today and tomorrow.
    As the Nation's leading prevention agency, the Centers for Disease 
Control and Prevention (CDC) plays an important role in translating and 
delivering, at the community level, what is learned from research. 
Therefore, ONS joins with our partners in the cancer community in 
calling on Congress to provide additional resources for the CDC to 
support and expand much-needed and proven effective cancer prevention, 
early detection, and risk reduction efforts. Specifically, ONS 
advocates the following fiscal year 2012 funding levels for the 
following CDC programs:
  --$275 million for the National Breast and Cervical Cancer Early 
        Detection Program;
  --$65 million for the National Cancer Registries Program;
  --$70 million for the Colorectal Cancer Prevention and Control 
        Initiative;
  --$50 million for the Comprehensive Cancer Control Initiative;
  --$25 million for the Prostate Cancer Control Initiative;
  --$5 million for the National Skin Cancer Prevention Education 
        Program;
  --$10 million for the Gynecologic Cancer and Education and Awareness 
        (Johanna's Law);
  --$10 million for the Ovarian Cancer Control Initiative; and
  --$6 million for the Geraldine Ferraro Blood Cancer Program.

                               CONCLUSION

    ONS maintains a strong commitment to working with Members of 
Congress, other nursing and oncology groups, patient organizations, and 
other stakeholders to ensure that the oncology nurses of today continue 
to practice tomorrow, and that we recruit and retain new oncology 
nurses to meet the unfortunate growing demand that we will face in the 
coming years. By providing the fiscal year 2012 funding levels detailed 
above, we believe the Subcommittee will be taking the steps necessary 
to ensure that our nation has a sufficient nursing workforce to care 
for the patients of today and tomorrow and that our nation continues to 
make gains in our fight against cancer.
                                 ______
                                 
       Prepared Statement of the Ovarian Cancer National Alliance

    The Ovarian Cancer National Alliance (the Alliance) appreciates the 
opportunity to submit comments for the record regarding the Alliance's 
fiscal year 2012 funding recommendations. We believe these 
recommendations are critical to ensure advances to help reduce and 
prevent suffering from ovarian cancer.
    For 14 years, the Alliance has worked to increase awareness of 
ovarian cancer and advocate for additional Federal resources to support 
research that would lead to more effective diagnostics and treatments. 
As an umbrella organization with approximately 50 national, State and 
local organizations, the Alliance unites the efforts of survivors, 
grassroots activists, women's health advocates and healthcare 
professionals to bring national attention to ovarian cancer. The 
Ovarian Cancer National Alliance is the foremost advocate for women 
with ovarian cancer in the United States. To advance the interests of 
women with ovarian cancer, the organization advocates at a national 
level for increases in research funding for the development of an early 
detection test, improved healthcare practices and life-saving treatment 
protocols. The Ovarian Cancer National Alliance educates healthcare 
professionals and raises public awareness of the risks, signs and 
symptoms of ovarian cancer.
    According to the American Cancer Society, in 2010, more than 22,000 
American women were diagnosed with ovarian cancer and approximately 
15,000 lost their lives to this terrible disease. Ovarian cancer is the 
fifth leading cause of cancer death in women. Currently, more than half 
of the women diagnosed with ovarian cancer will die within 5 years. 
While ovarian cancer has symptoms, there is no reliable early detection 
test. Most women are diagnosed in Stage III or Stage IV, when survival 
rates are low. If diagnosed early, more than 90 percent of women will 
survive for 5 years, but when diagnosed later, less than 30 percent 
will.
    Only a few treatments have been approved by the Food and Drug 
Administration (FDA) for ovarian cancer treatment. These are platinum-
based therapies and women needing further rounds of treatment are 
frequently resistant to them. More than 70 percent of ovarian cancer 
patients will have a recurrence at some point, underlying the need for 
treatments to which patients do not grow resistant.
    For all of these reasons, we urgently call on Congress to 
appropriate funds to find solutions.
    As part of this effort, the Alliance advocates for continued 
Federal investment in the Centers for Disease Control and Prevention's 
(CDC) Ovarian Cancer Control Initiative. The Alliance respectfully 
requests that Congress provide $10 million for the program in fiscal 
year 2012.
    The Alliance also fully supports Congress in taking action on 
educating Americans about ovarian cancer through providing funding for 
The Gynecologic Cancer Education and Awareness Act (Johanna's Law) 
[Public Law 111-324]. The Alliance respectfully requests that Congress 
provide $10 million to implement The Gynecologic Cancer Education and 
Awareness Act (Johanna's Law) in fiscal year 2012.
    Further, the Alliance urges Congress to continue funding the 
Specialized Programs of Research Excellence (SPOREs), including the 
five ovarian cancer sites. These programs are administered through the 
National Cancer Institute (NCI) of the National Institutes of Health 
(NIH). The Alliance respectfully requests that Congress provide $5.74 
billion to the National Cancer Institute for fiscal year 2012.

               CENTERS FOR DISEASE CONTROL AND PREVENTION
                 THE OVARIAN CANCER CONTROL INITIATIVE

    As the statistics indicate, late detection and, therefore, poor 
survival are among the most urgent challenges we face in the ovarian 
cancer field. The CDC's cancer program, with its strong capacity in 
epidemiology and excellent track record in public and professional 
education, is well positioned to address these problems. As the 
Nation's leading prevention agency, the CDC plays an important role in 
translating and delivering at the community level what is learned from 
research, especially ensuring that those populations disproportionately 
affected by cancer receive the benefits of our Nation's investment in 
medical research.
    Congress established the Ovarian Cancer Control Initiative at the 
CDC in November 1999 with bipartisan, bicameral support. Congress' 
directive to the agency was to develop an appropriate public health 
response to ovarian cancer and conduct several public health activities 
targeted toward reducing ovarian cancer morbidity and mortality.
    The CDC's Ovarian Cancer Control Initiative conducts research about 
early detection, treatment and survivorship nationwide to increase 
understanding of ovarian cancer. Some of the Ovarian Cancer Control 
Initiative's notable studies include: a study of women who died of 
ovarian cancer within three managed care organizations to investigate 
end-of-life care; the Ovarian Cancer Treatment Patterns and Outcomes 
study, which attempted to determined how the stage of cancer, the 
specialty of a surgeon and the success of the surgery contributed to 
the survival of ovarian cancer patients diagnosed between 1997 and 
2000; and a study to examine geographic access to subspecialists for 
treating ovarian cancer.

   THE GYNECOLOGIC CANCER EDUCATION AND AWARENESS ACT (JOHANNA'S LAW)

    It is critical for women and their healthcare providers to be aware 
of the signs, symptoms and risk factors of ovarian and other 
gynecologic cancers. Often, women and providers mistakenly confuse 
ovarian cancer signs and symptoms with those of gastrointestinal 
disorders or early menopause. While symptoms may seem vague--bloating, 
pelvic or abdominal pain, increased abdominal size and bloating and 
difficulty, eating or feeling full quickly, or urinary symptoms 
(urgency or frequency)--the underlying disease can be deadly without 
proper medical intervention.
    In recognition of the need for awareness and education, Congress 
unanimously passed Johanna's Law in 2006, enacted in early 2007. This 
law provides for an education and awareness campaign that will increase 
providers' and women's awareness of all gynecologic cancers including 
ovarian. Johanna's Law was reauthorized in 2010.
    Thanks to funding under Johanna's Law, more women are learning how 
to identify the signs and symptoms of gynecologic. From September 2010 
to January 2011, the broadcast PSAs have been played 68,630 times, 
generating 154,632,815 audience impressions (the number of times they 
have been seen or heard), worth $7,491,846 in donated placements. 
Additionally, since October 2010:
  --there have been 25,706 plays of the TV PSAS, worth $2,800,805 in 
        donated airtime,
  --there have been 9,701 plays of English TV spots,
  --there have been 16,005 plays of Spanish TV spots,
  --the PSAs have aired in the top markets, including Los Angeles, 
        Chicago, Philadelphia, San Francisco, Boston, Dallas/Fort 
        Worth, Atlanta, Tampa/St. Petersburg, Pittsburgh, PA, Salt Lake 
        City, Raleigh/Durham, Green Bay, Baltimore, Tucson, Cleveland, 
        Phoenix, Tulsa, Orlando, Hartford/New Haven, Houston, Spokane, 
        and Seattle/Tacoma, among others, and
  --English spots have aired during popular programs such Today, Good 
        Morning America, CBS Morning News, Access Hollywood, Cold Case, 
        Real Housewives of Orange County, The Bachelor, The View, Dr. 
        Oz Show, Ellen DeGeneres Show, The Doctors, Entertainment 
        Tonight, and Late Night with David Letterman during the hours 
        of 8 a.m. to midnight.
    With continued funding, the CDC will be able to continue to print 
and distribute brochures, maintain and update the web resources, 
develop additional educational materials such as posters for physician 
offices, complete continuing education materials for healthcare 
providers, and reach out to women beyond the original 40-60 year-old 
initial target group.

               CDC CHRONIC DISEASE PROGRAM CONSOLIDATION

    The President's budget proposal for fiscal year 2012 recommends 
consolidating all of the Centers for Disease Control and Prevention's 
(CDC) chronic disease programs that are focused on heart disease and 
stroke, diabetes, cancer, arthritis, nutrition, and other health-
related issues into one competitive grant program. It is our 
understanding that the Gynecologic Cancer Education and Awareness Act 
(Johanna's Law) and the Ovarian Cancer Control Initiative would be 
included in this all-encompassing competitive grant program. These 
programs, with congressional support, have been able to increase 
understanding and raise awareness of ovarian and other women's cancers 
that afflict Americans.
    While we support efforts to improve the efficiency of Federal 
programs, we oppose shifting control and funding of these programs away 
from Congress. Moreover, given that ovarian cancer mortality rates have 
remained virtually unchanged for decades and currently there is no 
early detection test for the disease, we feel strongly that the CDC 
should maintain dedicated efforts focused on reducing ovarian cancer 
mortality and morbidity. As such, we recommend that Johanna's Law and 
the Ovarian Cancer Control Initiative remain standalone line items in 
the fiscal year 2012 Labor, Health and Human Services, and Education 
(LHHS) appropriations bill.

                       NATIONAL CANCER INSTITUTE

    The National Cancer Institute is the chief funder of ovarian cancer 
research in the United States and the world. In 2009, the National 
Cancer Institute funded over 170 studies solely dedicated to bettering 
our scientific understanding of ovarian cancer. These studies 
investigated diverse topics such as the effect of Vitamin D on ovarian 
cancer prevention and treatment, whether Prolactin is a risk biomarker 
of ovarian cancer, and whether viruses can be converted into ovarian 
cancer-fighting agents. Research investigators who receive funding from 
the National Cancer Institute study cancer are located all across the 
United States. According to Families USA, every dollar in Federal 
research spending generates about $2 in economic activity in local 
economies where funded projects are located.

SPECIALIZED PROGRAMS OF RESEARCH EXCELLENCE IN THE NATIONAL INSTITUTES 
                               OF HEALTH

    The Specialized Programs of Research Excellence were created by the 
NCI in 1992 to support translational, organ site-focused cancer 
research. The ovarian cancer SPOREs began in 1999. There are five 
currently funded Ovarian Cancer SPOREs located at the MD Anderson 
Cancer Center, the Fred Hutchinson Cancer Research Center, the Fox 
Chase Cancer Center, the Dana Farber/Harvard Cancer Center and the Mayo 
Clinic Cancer Center.
    These SPORE programs have made outstanding strides in understanding 
ovarian cancer, as illustrated by their more than 300 publications as 
well as other notable achievements, including the development of an 
infrastructure between Ovarian SPORE institutions to facilitate 
collaborative studies on understanding, early detection and treatment 
of ovarian cancer.

                            CLINICAL TRIALS

    The National Cancer Institute supports clinical research--the only 
way to test the safety and efficacy of potential new treatments for 
ovarian cancer. An example of NCI-funded clinical research is a new 5-
year study addressing the lack of knowledge about causes and risk 
factors for ovarian cancer in African American women conducted by 
University Hospitals Case Medical Center and Case Western Reserve 
University School of Medicine. Another study funded by the National 
Cancer Institute compared the efficacy and safety of a dose-dense 
regimen of single-agent cisplatin with a standard 3-weekly schedule in 
first-line chemotherapy for advanced epithelial ovarian cancer. The 
study found that increasing dose intensity of cisplatin does not 
improve PFS or OS compared with standard chemotherapy.
    NCI supports the Gynecology Oncology Group, a more than 50-member 
collaborative focusing on cancers of the female reproductive system. 
From 2008 until present, the GOG has published 103 articles about 
ovarian cancer. An important and recent finding from the GOG, the GOG 
218 study, was that women with advanced cancer who received 
chemotherapy followed by maintenance use of Avastin increased survival 
time without their disease worsening compared to chemotherapy alone.

                                SUMMARY

    The Alliance maintains a long-standing commitment to work with 
Congress, the administration, and other policy makers and stakeholders 
to improve the survival rate for women with ovarian cancer through 
education, public policy, research and communication. Please know we 
appreciate and understand that our Nation faces many challenges and 
Congress has limited resources to allocate; however, we are concerned 
that without increased funding to bolster and expand ovarian cancer 
education, awareness and research efforts, the nation will continue to 
see growing numbers of women losing their battle with this terrible 
disease.
    On behalf of the entire ovarian cancer community--patients, family 
members, clinicians and researchers--we thank you for your leadership 
and support of Federal programs that seek to reduce and prevent 
suffering from ovarian cancer. We request your support for our 
appropriations requests for fiscal year 2012 that include $10 million 
for the CDC's Ovarian Cancer Control Initiative, $10 million for The 
Gynecologic Cancer Education and Awareness Act (Johanna's Law) and 
$5.74 billion to NCI.
                                 ______
                                 
       Prepared Statement of the Pancreatic Cancer Action Network

    Mr. Chairman and members of the Subcommittee: My name is Julie 
Fleshman and I am submitting this testimony on behalf of the Pancreatic 
Cancer Action Network.
    Founded in 1999, the Pancreatic Cancer Action Network is a 
nationwide network of individuals dedicated to advancing research, 
supporting patients and fostering hope for the families and loved ones 
affected by this disease.
    Pancreatic cancer continues to be one of the deadliest cancers in 
this country. In fact, it is the only cancer tracked by both the 
American Cancer Society and the National Cancer Institute (NCI) that 
still has a 5-year survival rate in the single digits. This is even 
more astounding because the overall 5-year survival rate for all 
cancers was 50 percent in the 1970s and is now 68 percent. Last year, 
pancreatic cancer struck more than 43,000 Americans and resulted in 
36,800 deaths. The similarity of these statistics underscores its 
deadliness: indeed, most patients die within months of their diagnosis.
    There is no question that we have made important progress in many 
forms of cancer. There is also no question that this progress has been 
lacking in pancreatic cancer. The fact remains that there are still no 
early detection tools or effective treatments. A patient diagnosed 
today generally hears the same words as a patient diagnosed 40 years 
ago, ``I'm sorry, but there is not much that we can do for you. Go home 
and get your affairs in order.'' The Pancreatic Cancer Action Network 
believes that the time has come for bold action and has launched a new 
mission to double the 5-year survival rate by 2020. This is an 
ambitious but achievable goal.
    Dismal as the picture is today, unless something is done soon, it 
will only get worse. A recently published study in the Journal of 
Clinical Oncology predicts that the number of new pancreatic cancer 
cases will increase by 55 percent over the next two decades.
    Why has there been so little change in the mortality rate 
associated with pancreatic--and what can be done about it?
    Progress has been slow in large part because the Federal 
Government's investment in pancreatic cancer research has been weak. 
The Pancreatic Cancer Action Network recently published a report, 
``Pancreatic Cancer: A trickle of Federal funding for a river of 
need'', analyzing the investment made by the NCI into this disease. The 
analysis shows that pancreatic cancer is behind in nearly every 
important grant category funded by the Federal Government.
  --Currently, research dedicated to pancreatic cancer receives a mere 
        2 percent of the Federal dollars distributed by the NCI. By 
        contrast, the other four of the top five cancer killers in the 
        United States (lung, colon, breast and prostate cancer) 
        received 2.8 to 6.3 fold more NCI funding in 2009 than 
        pancreatic cancer.
  --The average dollar amount of basic research (R) grants in 
        pancreatic cancer was 18 to 29 percent less than R grants for 
        the other four top cancer killers. The R grant mechanisms are 
        the mainstay of scientific discovery in cancer research.
  --Training grant funding in pancreatic cancer decreased by 15 percent 
        from 2008 to 2009, a decline larger than in any other leading 
        cancer. Pancreatic cancer trainees were awarded between 2.4 and 
        6.5 fold less grant money in 2009 than young researchers 
        studying the other four top cancer killers.
  --American Recovery & Reinvestment Act (ARRA) funding represented a 
        unique opportunity for the NCI to direct research monies toward 
        the deadliest cancers, including pancreatic cancer. 
        Unfortunately, this opportunity was missed, as pancreatic 
        cancer research received only slightly more than 1 percent of 
        the NCI ARRA budget.
    As has been noted by this Subcommittee and others in Congress in 
recent years, what is lacking is a well-defined, long-term 
comprehensive strategic plan in place to: advance the understanding of 
the biology of pancreatic cancer, examine its natural history and the 
genetic and environmental factors that contribute to its development; 
expand research on ways to screen and detect pancreatic cancer in much 
earlier stages; and launch innovative clinical trials to test targeted 
therapeutics and novel agents that will extend the survival and improve 
the quality of life of patients.
    In addition, there must be a robust and sustained commitment of 
resources by the NCI and its sister institutes and centers at the 
National Institutes of Health (NIH).
    Thanks to you and your colleagues, Mr. Chairman, and under the 
leadership of Dr. Harold Varmus, NCI has taken some encouraging steps 
in the right direction.
    In 2010 NCI convened an internal group to develop an action plan 
for pancreatic cancer research and training. NCI brought together 
pancreatic cancer researchers and program staff from within the 
Institute to form the Pancreatic Cancer Action Planning Group, charged 
with developing an Action Plan that summarizes the fiscal year 2011 
research and training portfolio and identifies research gaps and 
opportunities for collaboration within NCI and with other members of 
the National Cancer Program, including advocacy groups, academia, and 
industry. This Action Plan was developed based on discussions at a 
Planning Group meeting held in July 2010 and continued interactions 
following the meeting. While it was not the long-term comprehensive 
strategic plan that we would still like to see the NCI develop for 
pancreatic cancer, we do believe that it was a good first step.
    In addition to the initiatives and activities already included in 
the fiscal year 2011 portfolio, the Planning Group identified several 
opportunities for NCI to advance pancreatic cancer research. Emphasis 
was placed on activities with a high likelihood of improving survival 
rates, which have remained low despite improvements in many other 
cancer types. It was recognized that given the range of research 
conducted within and funded by NCI, the Institute is uniquely poised to 
support activities and provide services that other stakeholders are 
unable or unwilling to do. The Planning Group identified several 
opportunities for collaboration with advocacy organizations and the 
private sector to gain momentum in pancreatic cancer research.
    The Action Plan reviewed the research activities that were planned 
for fiscal year 2011. We look forward to hearing from the NCI about the 
outcome of these plans. It also identified a few potential new 
initiatives such as a program announcement for R01 grants focused on 
pancreatic cancer. We strongly believe that a program announcement 
would be a positive step in the right direction and would urge you to 
find ways to encourage NCI to implement this idea. We hope to have the 
opportunity to work with NCI to implement the steps outlined in the 
plan.
    Some ideas that emerged--such as promoting interaction and 
increased use of existing resources--will likely involve only modest 
financial investment, while others, like new program announcements, 
will require more resources. We therefore join with our colleagues in 
the One Voice Against Cancer (OVAC) coalition in highlighting the 
important role that NCI plays in our economy and in cancer research 
worldwide and ask this Committee to do everything in its power to safe-
guard and expand this important resource.
    Mr. Chairman, research is the only hope. We ask that you strongly 
urge the National Cancer Institute to put in place a long-term 
comprehensive strategic plan for pancreatic cancer research and ensure 
that there is funding available to implement that plan.
    Thank you.
                                 ______
                                 
  Prepared Statement of the Physician Assistant Education Association

    On behalf of its membership, the 156 accredited physician assistant 
(PA) education programs in the United States, the Physician Assistant 
Education Association (PAEA) is pleased to submit these comments on the 
fiscal year 2012 appropriations for PA education programs that are 
authorized through Title VII of the Public Health Service Act.
    PAEA is a member of the Health Professions and Nursing Education 
Coalition (HPNEC) and we support the HPNEC recommendation for funding 
of at least $762.5 million in fiscal year 2012 for the health 
professions education programs authorized under Title VII and VIII of 
the Public Health Service Act and administered through the Health 
Resources and Services Administration (HRSA). HPNEC is an informal 
alliance of more than 60 national organizations representing schools, 
programs, health professionals, and students and dedicated to ensuring 
that the healthcare workforce is trained to meet the needs of the 
country's growing, aging, and diverse population.

Need for Increased Federal Funding
    Faculty development is one of the profession's critical needs. In 
order to attract the best qualified to teaching, PA education programs 
must have the resources to train faculty in academic skills, such as 
curriculum development, teaching methods, and laboratory instruction. 
The challenges of teaching are broad and varied and include 
understanding different pedagogical theories, writing instructional 
objectives, and learning and applying educational technology. Most 
educators come from clinical practice and these skills are essential to 
transitioning to teaching. Educators are a critical element of meeting 
the Nation's demand for an increased supply of primary care clinicians.
    Generalist training, workforce diversity, and practice in 
underserved areas are key priorities identified by HRSA. It is 
increasingly important that the health workforce better represents 
America's changing demographics, as well as addresses the issues of 
disparities in healthcare. PA programs have been successful in 
attracting students from underrepresented minority groups and 
disadvantaged backgrounds. Studies have found that health professionals 
from underserved areas are three to five times more likely to return to 
underserved areas to provide care.

Physician Assistant Practice
    Physician assistants (PAs) are licensed health professionals who 
practice medicine as members of a team with their supervising 
physicians. PAs exercise autonomy in medical decisionmaking and provide 
a broad range of medical and therapeutic services to diverse 
populations in rural and urban settings. In all 50 States, PAs carry 
out physician-delegated duties that are allowed by law and within the 
physician's scope of practice and the PA's training and experience. 
Additionally, PAs are delegated prescriptive privileges by their 
physician supervisors in all 50 States, the District of Columbia, and 
Guam. This allows PAs to practice in rural, medically underserved areas 
where they are often the only full-time medical provider.

Physician Assistant Education
    There are currently 156 accredited PA education programs in the 
United States--a growth of 22 percent in less than 5 years; together 
these programs graduate nearly 6,000 PA students each year. PAs are 
educated as generalists in medicine; their flexibility allows them to 
practice in more than 60 medical and surgical specialties. More than 
one-third of PA program graduates practice in primary care.
    The average PA education program is 27 months in length. Typically, 
1 year is devoted to classroom study and approximately 15 months is 
devoted to clinical rotations. The typical curriculum includes 400 
hours of basic sciences and nearly 600 hours of clinical medicine.
    As of today, approximately 20 programs are in the pipeline at 
various stages of development, moving toward accredited status. The 
growth rate in the applicant pool is even more remarkable. In March 
2006, there were a total of 7,608 applicants to PA education programs; 
as of March 2011, there were 16,112 applicants to PA education 
programs. This represents a 112 percent increase in Centralized 
Application Service (CASPA) applicants over the past 5 years.
    The PA profession is expected to continue to grow as a result of 
the projected shortage of physicians and other healthcare 
professionals, the growing demand for professionals from an aging 
population, and the continuing strong PA applicant pool, which has 
grown by more than 10 percent each year since the year 2000. The Bureau 
of Labor Statistics projects a 39 percent increase in the number of PA 
jobs between 2008 and 2018. With its relatively short initial training 
time and the flexibility of generalist-trained PAs, the PA profession 
is well-positioned to help fill projected shortages in the numbers of 
healthcare professionals.
    The continued growth of the profession heightens the need for 
additional resources to help meet the challenges of recruiting 
qualified faculty, shortages of preceptors and clinical sites, and 
increasing the diversity of faculty and program applicants.

Title VII Funding
    Title VII funding is the only opportunity for PA programs to apply 
for Federal funding and plays a crucial role in developing and 
supporting PA education programs.
    Title VII funding fills a critical need for curriculum development 
and faculty development. Funding enhances clinical training and 
education, assists PA programs with recruiting applicants from minority 
and disadvantaged backgrounds, and funds innovative programs that focus 
on educating a culturally competent workforce. Title VII funding 
increases the likelihood that PA students will practice in medically 
underserved communities with health professional shortages. The absence 
of this funding would result in the loss of care to patients in 
underserved areas.
    Title VII support for PA programs has been strengthened with the 
enactment of the Patient Protection and Affordable Health Care Act 
(Public Law 111-148), which provides a 15 percent carve out in the 
appropriations process for PA programs. This funding will enhance 
capabilities to train a growing PA workforce and is likely to increase 
the pool for faculty positions as a result of PA programs now being 
eligible for faculty loan repayment. Huge loan burdens serve as 
barriers for physician assistant entry into academia.
    Here we provide several examples of how PA programs have used Title 
VII funds to creatively expand care to underserved areas and 
populations, as well as to develop a diverse PA workforce.
  --One Texas program has used its PA training grant to support the 
        program at a distant site in an underserved area. This grant 
        provides assistance to the program for recruiting, educating, 
        and training PA students in the largely Hispanic South Texas 
        and mid-Texas/Mexico border areas and supports new faculty 
        development.
  --A Utah program has used its PA training grant to promote 
        interprofessional teams--an area of strong emphasis in the 
        Patient Protection and Affordable Care Act. The grant allowed 
        the program to optimize its relationship with three service-
        learning partners, develop new partnerships with three service-
        learning sites, and create a model geriatric curriculum that 
        includes didactic and clinical education.
  --An Alabama program used its PA training grant to update and expand 
        the current health behavior educational curriculum and HIV/STD 
        training. They were also able to include PA students from other 
        programs who were interested in rural, primary care medicine 
        for a 4-week comprehensive educational program in HIV disease 
        diagnosis and management.
  --A South Carolina program has developed a model program that offers 
        a 2-year academic fellowship for recent PA graduates with at 
        least one year of clinical experience. To further enhance an 
        evidence-based approach to education and practice, two specific 
        evidence-based practice projects were embedded in the 
        fellowship experience. Fellows direct and evaluate PA students' 
        involvement in the ``Towards No Tobacco'' curriculum, aimed at 
        fifth graders, and the PDA Patient Data experience, aimed at 
        assessing healthcare services.

Recommendations on fiscal year 2012 Funding
    The Physician Assistant Education Association requests the 
Appropriations Committee to support funding for Title VII and VIII 
health professions programs at a minimum of $762.5 million for fiscal 
year 2012. This level of funding is crucial to support the Nation's 
demand for primary care practitioners, particularly those who will 
practice in medically underserved areas and serve vulnerable 
populations. Additionally we encourage support for the new programs and 
responsibilities contained in the Patient Protection and Affordable 
Care Act (Public Law 111-148), including a minimum of $10 million to 
support PA education programs. We thank the members of the subcommittee 
for their support of the health professions and look forward to your 
continued support of solutions to the Nation's health workforce 
shortage. We appreciate the opportunity to present the Physician 
Assistant Education Association's fiscal year 2012 funding 
recommendation.
                                 ______
                                 
Prepared Statement of PolicyLink, The Food Trust, and The Reinvestment 
                                  Fund

    Chairman and distinguished Senators of the Committee, thank you for 
the opportunity to share our support for a Healthy Food Financing 
Initiative (HFFI). PolicyLink is a national research and action 
institute advancing economic and social equity by Lifting Up What 
Works; The Food Trust is a nonprofit organization working to ensure 
that everyone has access to affordable, nutritious food; and The 
Reinvestment Fund is a Community Development Financial Institution that 
creates wealth and opportunity for low-wealth people and places through 
the promotion of socially and environmentally responsible development.
    Our three organizations, along with a diverse coalition of 
stakeholders, which includes representatives from the grocery industry, 
health, civil rights, agriculture and the community development finance 
community, support the creation of HFFI to address the problem of 
``food deserts'' in urban and rural areas across the Nation. This 
problem can be solved in many communities using a successful model that 
is underway in the State of Pennsylvania and is now being replicated 
throughout the country.
    HFFI is a program worthy of investment as it promotes health, 
creates jobs and sparks economic development. HFFI will provide loan 
and grant financing to attract grocery stores and other fresh food 
retail to underserved urban, suburban, and rural areas, and renovate 
and expand existing stores so they can provide the healthy foods that 
communities want and need. Over time, with continued investment, HFFI 
could solve the problem of food deserts in urban and rural communities 
across the country.
    For decades, low-income communities, particularly communities of 
color, have suffered from a lack of access to healthy, fresh food. USDA 
research determined that more than 23.5 million Americans are living in 
communities without access to high-quality, fresh food. Studies 
repeatedly show that residents of many low-income neighborhoods must 
travel long distances for healthy food, or rely on corner stores and 
fast food outlets offering high fat, high sugar foods. For instance, a 
recent multistate study found that low-income census tracts had half as 
many supermarkets as wealthy tracts, and four times as many smaller 
grocery stores. Another multistate study found that 8 percent of 
African Americans live in a tract with a supermarket, compared to 31 
percent of whites. Nationally, low-income zip codes have 30 percent 
more convenience stores, which tend to lack healthy food, than middle 
income zip codes.
    And, a nationwide analysis found there are 418 rural food desert 
counties where all residents live more than 10 miles from a supermarket 
or a supercenter--this is 20 percent of rural counties. In rural 
communities, inadequate transportation can be a particular challenge. 
In Mississippi, which has the highest obesity rate of any State, over 
70 percent of food stamp eligible households travel more than 30 miles 
to reach a supermarket. Adults living in rural Mississippi food desert 
counties are 23 percent less likely to consume the recommended fruits 
and vegetables than those in counties that have supermarkets, 
controlling for age, sex, race, and education.
    Controlling for population density, rural areas have fewer food 
retailers of any types compared to urban areas, and only 14 percent the 
number of chain supermarkets. For instance, in New Mexico, rural 
residents have access to fewer grocery stores than urban residents, pay 
more for comparable items, and have less selection. The same market 
basket of groceries costs $85 for rural residents versus $55 for urban 
residents.
    The results of this lack of healthy food options are grim--these 
communities have significantly higher rates of obesity, diabetes, and 
other related health issues. Over the past decade, obesity rates have 
more than doubled in children and tripled in adolescents. In 2010, 
PolicyLink and The Food Trust conducted a review of more than 130 
studies on the issue of access to healthy food and found a direct 
correlation between diet-related diseases and access. A California 
study found that obesity and diabetes rates were 20 percent higher for 
those living in the least healthy ``food environments.'' In 
Indianapolis, a study found that BMI values corresponded with access to 
supermarkets and fast food restaurants. Researchers estimated that 
adding a new grocery store to a high poverty neighborhood translates 
into a 3 pound weight decrease.
    Fortunately, changing access changes eating habits. For every 
additional supermarket in a census tract, produce consumption increases 
32 percent for African Americans and 11 percent for whites, according 
to a multistate study. A survey of produce availability in New Orleans' 
small neighborhood stores found that for each additional meter of shelf 
space devoted to fresh vegetables, residents eat an additional .35 
servings per day. In fact, of 14 studies that examine food access and 
consumption of healthy foods, all but one of them found a correlation 
between greater access and better eating behaviors. This is also true 
for food stamp recipients. Proximity to a supermarket was found to be 
associated with increased fruit and vegetable consumption.
    The problems associated with lack of access go beyond health. Low-
income communities are cut off from all the economic development 
benefits that come with a local grocery store: the creation of steady 
jobs at decent wages and the sparking of complementary retail stores 
and services nearby. Grocery stores operate as important economic 
anchors for communities, providing a vital service and bringing 
customers that can also support other nearby business. Securing new or 
improved local grocery stores can improve local economies and create 
jobs.
    President Barack Obama's proposed fiscal year 2012 budget includes 
a proposal to invest $330 million, including $250 million in New 
Markets Tax Credits, in a national HFFI. Specifically, the initiative 
would provide:
  --$35 million through USDA's Office of the Secretary, with additional 
        ``other funds of Rural Development and the Agricultural 
        Marketing Service available to support the USDA's portion of 
        the Healthy Food Financing Initiative'';
  --$25 million through the Treasury Department's CDFI Fund;
  --$20 million through Health and Human Services; and
  --$250 million through the Treasury Department's New Markets Tax 
        Credits Program.
    A Healthy Food Financing Initiative would attract investment in 
underserved communities by providing critical loan and grant financing. 
These one-time resources will help fresh food retailers overcome the 
higher initial barriers to entry into underserved, low-income urban and 
rural communities, and would also support renovation and expansion of 
existing stores so they can provide the healthy foods that communities 
want and need. The program would be flexible and comprehensive enough 
to support innovations in healthy food retailing and to assist 
retailers with different aspects of the store development and 
renovation process.
    Grocery industry representatives find that there are obstacles to 
grocery store development in underserved low-income communities, but 
also that those obstacles can be overcome. The development process for 
building a new grocery store is lengthy and complex, and retailers 
often find that stores in low-income communities have high start-up 
costs, appropriate sites are hard to find, and securing financing is 
difficult. Grocery operators in both urban and rural areas cite lack of 
access to flexible financing as one of the top barriers hindering the 
development of stores in underserved areas.
    HFFI is modeled after the successful Pennsylvania Fresh Food 
Financing Initiative (FFFI), a public/private partnership launched in 
2004. Using a State investment of $30 million, the program has led to:
  --projects totaling more than $190 million;
  --88 stores built or renovated in underserved communities in urban 
        and rural areas across the State;
  --improved access to healthy food for more than 400,000 residents;
  --more than 5,000 jobs created or retained;
  --increased local tax revenues; and
  --much-needed additional economic development in these communities.
    Stores range from full-service 70,000 square foot supermarkets to 
900 square food shops; and from traditional grocery stores to farmers' 
markets, cooperatives, and corner stores selling healthy food. 
Approximately two-thirds of the projects were in rural areas and small 
towns with the remainder in urban areas.
    HFFI is a viable, effective, and economically sustainable solution 
to the problem of limited access to healthy foods. It can bring triple 
bottomline benefits, achieving multiple goals: reducing health 
disparities and improving the health of families and children; creating 
jobs; and, stimulating local economic development in low-income 
communities.
    HFFI would incorporate the key components that allowed the 
Pennsylvania program to be so effective at attracting private dollars, 
garnering the commitment of store operators, getting fresh food retail 
stores and markets successfully developed, and stimulating local 
economies.
    The Pennsylvania FFFI has been cited as an innovative model by the 
U.S. Centers for Disease Control and Prevention, the National 
Conference of State Legislatures, Harvard's Kennedy School of 
Government, and the National Governors Association. There is 
significant momentum in many States and cities across the country to 
address the lack of grocery access in underserved communities. Several 
States and/or cities are in the process of replicating the successful 
Pennsylvania Fresh Food Financing Initiative Program, and many others 
have begun to examine the needs and opportunities in their communities. 
For example:
  --The State of New York has launched the Healthy Food, Healthy 
        Communities Initiative, a business financing program to 
        encourage supermarket and other fresh food retail investment in 
        underserved areas throughout the State that will provide loans 
        and grants to eligible projects. New York City has launched a 
        complementary FRESH program that will encourage supermarket 
        development through tax and zoning incentives and a single 
        point of access to city government for supermarket operators.
  --The City of New Orleans recently launched the Fresh Food Retailer 
        Initiative Program (FFRI) that will provide direct financial 
        assistance to retail businesses by awarding forgivable and/or 
        low-interest loans to grocery stores and other fresh food 
        retailers.
  --The California Endowment, NCB Capital Impact, and other community, 
        supermarket industry, and government partners have been working 
        to create a supermarket financing program in California that is 
        expected to be launched in the first half of 2011.
    A national Healthy Food Financing Initiative could amplify the 
impact in each of these States and leverage the work already underway 
to ensure swift implementation. Moreover, a national HFFI would insure 
that all State and communities could solve their food desert problems 
with new stores and other healthy food retail projects.
    In the midst of our current economic downturn, the need for a 
comprehensive Federal policy to address the lack of fresh food access 
in low-income is critical. We urge the Committee to support full 
funding for a Healthy Food Financing Initiative, for the benefit of 
communities across the Nation. Thank you for the opportunity to share 
our perspectives with you today. If you should need additional 
information about HFFI please contact Judith Bell from PolicyLink 
(<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0f457a6b667b674f7f6063666c766366616421607d68">[email&#160;protected]</a>), Pat Smith from The Reinvestment Fund 
(<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="22524356504b414b430c514f4b564a6256504444574c460c4d5045">[email&#160;protected]</a>), or John Weidman from The Food Trust 
(<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="59132e3c303d343837192d313c3f36363d2d2b2c2a2d77362b3e">[email&#160;protected]</a>)
                                 ______
                                 
Prepared Statement of the Population Association of America/Association 
                         of Population Centers

Background on the PAA/APC and Demographic Research
    The Population Association of America (PAA) is a scientific 
organization comprised of over 3,000 population research professionals, 
including demographers, sociologists, statisticians, and economists. 
The Association of Population Centers (APC) is a similar organization 
comprised of over 40 universities and research groups that foster 
collaborative demographic research and data sharing, translate basic 
population research for policy makers, and provide educational and 
training opportunities in population studies. Population research 
centers are located at public and private research institutions 
nationwide.
    Demography is the study of populations and how or why they change. 
Demographers, as well as other population researchers, collect and 
analyze data on trends in births, deaths, and disabilities as well as 
racial, ethnic, and socioeconomic changes in populations. Major policy 
issues population researchers are studying include the demographic 
causes and consequences of population aging, trends in fertility, 
marriage, and divorce and their effects on the health and well being of 
children, and immigration and migration and how changes in these 
patterns affect the ethnic and cultural diversity of our population and 
the Nation's health and environment.
    The NIH mission is to support research that will improve the health 
of our population. The health of our population is fundamentally 
intertwined with the demography of our population. Recognizing the 
connection between health and demography, the NIH supports extramural 
population research programs primarily through the National Institute 
on Aging (NIA) and the National Institute of Child Health and Human 
Development (NICHD).

National Institute on Aging
    According to the Census Bureau, by 2029, all of the baby boomers 
(those born between 1946 and 1964) will be age 65 years and over. As a 
result, the population age 65-74 years will increase from 6 percent to 
10 percent of the total population between 2005 and 2030. This 
substantial growth in the older population is driving policymakers to 
consider dramatic changes in Federal entitlement programs, such as 
Medicare and Social Security, and other budgetary changes that could 
affect programs serving the elderly. To inform this debate, 
policymakers need objective, reliable data about the antecedents and 
impact of changing social, demographic, economic, and health 
characteristics of the older population. The NIA Division of Behavioral 
and Social Research (BSR) is the primary source of Federal support for 
research on these topics.
    In addition to supporting an impressive research portfolio, that 
includes the prestigious Centers of Demography of Aging and Roybal 
Centers for Applied Gerontology Programs, the NIA BSR program also 
supports several large, accessible data surveys. One of these surveys, 
the Health and Retirement Study (HRS), has become one of the seminal 
sources of information to assess the health and socioeconomic status of 
older people in the United States. Since 1992, the HRS has tracked 
27,000 people, providing data on a number of issues, including the role 
families play in the provision of resources to needy elderly and the 
economic and health consequences of a spouse's death. HRS is 
particularly valuable because its longitudinal design allows 
researchers: (1) the ability to immediately study the impact of 
important policy changes such as Medicare Part D; and (2) the 
opportunity to gain insight into future health-related policy issues 
that may be on the horizon, such as HRS data indicating an increase in 
pre-retirees self-reported rates of disability. In August 2011, HRS 
will release genotyping data, enhancing the ability of researchers to 
track the onset and progression of diseases and conditions affecting 
the elderly.
    Currently, the NIA is paying grant applications requesting less 
than $500,000 in direct costs through the 11th percentile, while grants 
seeking $500,000 or more are being paid through the 8th percentile--
making it one of the lowest paylines at NIH. As research costs 
increase, NIA faces the prospect of funding fewer grants to sustain 
larger ones in its commitment base. With additional support in fiscal 
year 2012, the NIA BSR program could fully fund its large-scale 
projects, including the existing centers programs and ongoing surveys, 
without resorting to cost cutting measures, such as cutting sample 
size, while continuing to support smaller investigator initiated 
projects

Eunice Kennedy Shriver National Institute on Child Health and Human 
        Development
    Since its establishment in 1968, the Eunice Kennedy Shriver NICHD 
Center for Population Research has supported research on population 
processes and change. Today, this research is housed in the Center's 
Demographic and Behavioral Sciences Branch (DBSB). The Branch 
encompasses research in four broad areas: family and fertility, 
mortality and health, migration and population distribution, and 
population composition. In addition to funding research projects in 
these areas, DBSB also supports a highly regarded population research 
infrastructure program and a number of large database studies, 
including the National Longitudinal Study of Adolescent Health (Add 
Health), Panel Study of Income Dynamics, and National Longitundinal 
Study of Youth.
    NIH-funded demographic research has consistently provided critical 
scientific knowledge on issues of greatest consequence for American 
families: work-family conflicts, marriage and childbearing, childcare, 
and family and household behavior. However, in the realm of public 
health, demographic research is having an even larger impact, 
particularly on issues regarding adolescent and minority health. 
Understanding the role of marriage and stable families in the health 
and development of children is another major focus of the NICHD DBSB. 
Consistently, research has shown children raised in stable family 
environments have positive health and development outcomes. 
Policymakers and community programs can use these findings to support 
unstable families and improve the health and well being of children.
    One of the most important programs the NICHD DBSB supports is the 
Population Research Infrastructure Program (PRIP). Through PRIP, 
research is conducted at private and public research institutions 
nationwide. The primary goal of PRIP is ``to facilitate 
interdisciplinary collaboration and innovation in population research, 
while providing essential and cost-effective resources in support of 
the development, conduct, and translation of population research.'' 
Population research centers supported by PRIP are focal points for the 
demographic research field where innovative research and training 
activities occur and resources, including large-scale databases, are 
developed and maintained for widespread use.
    With additional support in fiscal year 2012, NICHD could sustain 
full funding to its large-scale surveys, which serve as a resource for 
researchers nationwide. Furthermore, the Institute could apply 
additional resources toward improving its funding payline, which has 
fallen from the 13th percentile in fiscal year 2010 to the 11th 
percentile in fiscal year 2011. Additional support could be used to 
support and stabilize essential training and career development 
programs necessary to prepare the next generation of researchers and to 
support and expand proven programs, such as PRIP.

National Center for Health Statistics
    Located within the Centers for Disease Control (CDC), the National 
Center for Health Statistics (NCHS) is the Nation's principal health 
statistics agency, providing data on the health of the U.S. population 
and backing essential data collection activities. Most notably, NCHS 
funds and manages the National Vital Statistics System, which contracts 
with the States to collect birth and death certificate information. 
NCHS also funds a number of complex large surveys to help policy 
makers, public health officials, and researchers understand the 
population's health, influences on health, and health outcomes. These 
surveys include the National Health and Nutrition Examination Survey 
(NHANES), National Health Interview Survey (HIS), and National Survey 
of Family Growth. Together, NCHS programs provide credible data 
necessary to answer basic questions about the state of our Nation's 
health.
    Despite recent steady funding increases, NCHS continues to feel the 
effects of long-term funding shortfalls, compelling the agency to 
undermine, eliminate, or further postpone the collection of vital 
health data. For example, in 2009, sample sizes in HIS and NHANES were 
cut, while other surveys, most notably the National Hospital Discharge 
Survey, were not fielded. In 2009, NCHS proposed purchasing only ``core 
items'' of vital birth and death statistics from the States (starting 
in 2010), effectively eliminating three-fourths of data routinely used 
to monitor maternal and infant health and contributing causes of death. 
Fortunately, Congress and the new Administration worked together to 
give NCHS adequate resources and avert implementation of these 
draconian measures. Nonetheless, the agency continues to operate in a 
precarious state.
    The Administration recommends NCHS receive $161.9 million in fiscal 
year 2011; however, ultimately, the agency received $23.2 million less 
than the Administration requested. This reduced amount has postponed 
important initiatives to, for example, re-engineer collection of the 
Nation's vital statistics, using standard birth and death certificate 
items.
    PAA and APC, as members of The Friends of NCHS, support the 
Administration's request for fiscal year 2012, $162 million, in hopes 
many initiatives proposed by the Administration in fiscal year 2011 can 
proceed, including an effort to fully support electronic birth records 
in all 50 States.

Bureau of Labor Statistics
    During these turbulent economic times, data produced by the Bureau 
of Labor Statistics (BLS) are particularly relevant and valued. PAA and 
APC members have relied historically on objective, accurate data from 
the BLS. In recent years, our organizations have become increasingly 
concerned about the state of the agency's funding.
    We are pleased the Administration has requested BLS receive a total 
of $647 million in fiscal year 2012. According to the agency, this 
funding level would enable BLS, for example, to add the Contingent Work 
Supplement to the Current Population Survey, making more data available 
on changing workplace arrangements and continue its work on developing 
an alternative poverty measure.

Summary of fiscal year 2012 Recommendations
    In sum, the PAA and APC support the Administration's fiscal year 
2012 request for the National Institutes of Health, National Center for 
Health Statistics and the Bureau of Labor Statistics. With respect to 
the NIH, however, we support the Administration's request as a floor 
and encourage the Subcommittee to consider providing the NIH with 
funding as high as $35 billion. This amount, endorsed by the Ad Hoc 
Group for Medical Research, reflects not only inflation, but also the 
additional investment needed to sustain the new research capacity 
created by the American Recovery and Reinvestment Act.
    Thank you for considering our requests and for supporting Federal 
programs that benefit the population sciences.
                                 ______
                                 
            Prepared Statement of Prevent Blindness America

                        FUNDING REQUEST OVERVIEW

    Prevent Blindness America appreciates the opportunity to submit 
written testimony for the record regarding fiscal year 2012 funding for 
vision and eye health related programs. As the Nation's leading 
nonprofit, voluntary health organization dedicated to preventing 
blindness and preserving sight, Prevent Blindness America maintains a 
long-standing commitment to working with policymakers at all levels of 
government, organizations and individuals in the eye care and vision 
loss community, and other interested stakeholders to develop, advance, 
and implement policies and programs that prevent blindness and preserve 
sight. Prevent Blindness America respectfully requests that the 
Subcommittee provide the following allocations in fiscal year 2012 to 
help promote eye health and prevent eye disease and vision loss:
  --Provide at least $3.23 million to maintain vision and eye health 
        efforts at the Centers for Disease Control and Prevention 
        (CDC).
  --Support the Maternal and Child Health Bureau's (MCHB) National 
        Center for Children's Vision and Eye Health (Center).
  --Provide additional resources for the National Eye Institute (NEI).

                       INTRODUCTION AND OVERVIEW

    Vision-related conditions affect people across the lifespan from 
childhood through elder years. Good vision is an integral component to 
health and well-being, affects virtually all activities of daily 
living, and impacts individuals physically, emotionally, socially, and 
financially. Loss of vision can have a devastating impact on 
individuals and their families. An estimated 80 million Americans have 
a potentially blinding eye disease, 3 million have low vision, more 
than 1 million are legally blind, and 200,000 are more severely 
visually blind. Vision impairment in children is a common condition 
that affects 5 to 10 percent of preschool age children. Vision 
disorders (including amblyopia (``lazy eye''), strabismus (``cross 
eye''), and refractive error are the leading cause of impaired health 
in childhood.
    Alarmingly, while half of all blindness can be prevented through 
education, early detection, and treatment, the NEI reports that ``the 
number of Americans with age-related eye disease and the vision 
impairment that results is expected to double within the next three 
decades.'' \1\ Among Americans age 40 and older, the four most common 
eye diseases causing vision impairment and blindness are age-related 
macular degeneration (AMD), cataract, diabetic retinopathy, and 
glaucoma.\2\ Refractive errors are the most frequent vision problem in 
the United States--an estimated 150 million Americans use corrective 
eyewear to compensate for their refractive error.\2\ Uncorrected or 
under-corrected refractive error can result in significant vision 
impairment.\2\
---------------------------------------------------------------------------
    \1\ ``Vision Problems in the U.S.: Prevalence of Adult Vision 
Impairment and Age-Related Eye Disease in America,'' Prevent Blindness 
America and the National Eye Institute, 2008.
    \2\ Ibid.
---------------------------------------------------------------------------
    To curtail the increasing incidence of vision loss in America, 
Prevent Blindness America advocates sustained and meaningful Federal 
funding for programs that help promote eye health and prevent eye 
disease, vision loss, and blindness; needed services and increased 
access to vision screening; and vision and eye disease research. We 
thank the Subcommittee for its consideration of our specific fiscal 
year 2012 funding requests, which are detailed below.

 VISION AND EYE HEALTH AT THE CDC: HELPING TO SAVE SIGHT AND SAVE MONEY

    The CDC serves a critical national role in promoting vision and eye 
health. Since 2003, the CDC and Prevent Blindness America have 
collaborated with other partners to create a more effective public 
health approach to vision loss prevention and eye health promotion. The 
CDC works to:
  --Promote eye health and prevent vision loss.
  --Improve the health and lives of people living with vision loss by 
        preventing complications, disabilities, and burden.
  --Reduce vision and eye health related disparities.
  --Integrate vision health with other public health strategies.

Integrating Vision Health into Broader Disease Prevention and Health 
        Promotion Efforts
    One of the cornerstone activities of the vision and eye health work 
at the CDC is its support and encouragement of efforts to better 
integrate State-level initiatives to address vision and eye disease by 
approaching vision health through other public health prevention, 
treatment, and research efforts. Vision loss is associated with a 
myriad of other serious chronic, life threatening, and disabling 
conditions, including diabetes, depression, unintentional injuries, and 
other health problems and behavioral risk factors such as tobacco use. 
Leveraging scarce resources and recognizing the numerous connections 
between eye health and other diseases, the CDC works to integrate and 
connect vision health initiatives to other State, local, and community 
health programs.
    To advance State-based vision health integration, CDC funds are 
supporting a joint effort between the New York State Department of 
Health and Prevent Blindness Tri-State, focused on integrating vision-
related services at the State and local level. Working together, these 
partners are promoting vision loss prevention strategies within the 
State Department of Health. One initiative resulting from this 
partnership has been the launch of a statewide tobacco cessation media 
campaign highlighting the impact of smoking on potential vision loss. 
Other examples include State-based programs to prevent and reduce 
diabetes, including efforts to educate patients and healthcare 
providers of the relationship between diabetes and certain eye 
problems, such as diabetic retinopathy and cataracts. A similar effort 
has recently been initiated in Texas.
    The goal of these integration efforts is to ensure that vision loss 
and eye health promotion are incorporated into all relevant local, 
State, and Federal public health interventions, prevention and 
treatment programs, and other initiatives that impact causes of--and 
factors that contribute to--vision problems and blindness. By 
integrating efforts and coordinating approaches in this manner, Federal 
and State resources will be used more efficiently, eye health problems 
and vision loss can be reduced, and the overall health and well-being 
of individuals and communities will be improved.

Identifying and Preventing Vision Problems through Community-Based 
        Strategies
    The CDC supports private sector efforts to develop and evaluate 
better ways to identify and treat individuals with potential eye 
disease, vision loss, and other ocular conditions. Among other efforts, 
CDC funding is currently supporting:
  --A study to assess the overall effectiveness and costs associated 
        with implementing an adult vision and eye health history and 
        risk assessment/referral program. This study, being conducted 
        by Johns Hopkins University, in partnership with Prevent 
        Blindness Ohio, is working in collaboration with the 
        Physician's Free Clinic in Columbus, Ohio and Akron Community 
        Health Resources to investigate the best methods for 
        identifying patients who need eye care services and providing 
        linkages to follow-up care.
  --An initiative spearheaded by Duke University and Prevent Blindness 
        North Carolina to evaluate the benefit of pediatric and school-
        based vision screening. The project identified the need to 
        ensure proper ongoing training and education of pediatricians 
        on vision screening. In collaboration with the American Board 
        of Pediatrics, the project has developed maintenance of 
        certification module to improve office-based preschool vision 
        screening.

Data Collection
    Understanding the breadth and depth of vision and eye health issues 
across the Nation is paramount to ensuring appropriate allocation of 
resources and effective deployment of targeted interventions. Thus, the 
CDC supports programs and systems that collect, evaluate, and 
disseminate critical vision health data.
  --The CDC developed the first optional Behavioral Risk Factor 
        Surveillance System (BRFSS) \3\ vision module, which collects 
        State-based information on access to eye care and the 
        prevalence of eye disease and eye injury. Early in 2011, the 
        CDC will publish a report describing visual impairment as a 
        serious public health issue affecting more than 2.9 million 
        Americans. Unfortunately, in part due to insufficient funding, 
        only 19 States currently use the vision module; this lack of 
        broad adoption precludes the CDC, Congress, and other 
        stakeholders from having the information they need to 
        understand and address the full scope of vision loss and eye 
        health problems facing the Nation.
---------------------------------------------------------------------------
    \3\ BRFSS is a State-based system of health surveys that collects 
information on chronic disease and injury.
---------------------------------------------------------------------------
  --CDC funding is supporting a joint endeavor between Duke University 
        and Prevent Blindness America to conduct a systematic evidence 
        review to describe the delivery systems of vision-related 
        services and to identify new areas for policy evaluation or 
        clinical research. This information will help identify the most 
        at-risk populations and highlight gaps in care and service 
        delivery to ensure that public and private resources are 
        allocated to areas of greatest need.
    To that end, Prevent Blindness America respectfully requests the 
Subcommittee provide a $3.23 million allocation for vision and eye 
health initiatives at the CDC. This level of investment will help the 
CDC sustain its efforts to address the growing public health threat of 
preventable vision loss among at-risk and underserved populations. 
fiscal year 2012 resources will support strengthened State-based public 
health integration efforts to address vision and eye health and the 
development of additional evidence-based public health interventions 
that improve eye health among the Nation's most at-risk and 
underserved.

    INVESTING IN THE VISION OF OUR NATION'S MOST VALUABLE RESOURCE--
                                CHILDREN

    While the risk of eye disease increases after the age of 40, eye 
and vision problems in children are of equal concern. If left 
untreated, they can lead to permanent and irreversible visual loss and/
or cause problems socially, academically, and developmentally. Although 
more than 12.1 million school-age children have some form of a vision 
problem, only one-third of all children receive eye care services 
before the age of six.\4\
---------------------------------------------------------------------------
    \4\ ``Our Vision for Children's Vision: A National Call to Action 
for the Advancement of Children's Vision and Eye Health, Prevent 
Blindness America,'' Prevent Blindness America, 2008.
---------------------------------------------------------------------------
    In 2009, the Maternal and Child Health Bureau established the 
National Center for Children's Vision and Eye Health, a national vision 
health collaborative effort aimed at developing the public health 
infrastructure necessary to promote eye health and ensure access to a 
continuum of eye care for young children. Prevent Blindness America is 
requesting ongoing support for the National Center for Children's 
Vision and Eye Health.
    With this support the Center, will continue to:
  --Provide national leadership in the development of best practices 
        and guidelines for public health infrastructure, national 
        vision screening guidelines, and statewide strategies that 
        ensure early detection, vision screening, and a continuum of 
        vision and eye healthcare for children.
  --Determine mechanisms for advancing State-based performance 
        improvement systems, screening guidelines, and a mechanism for 
        uniform data collection and reporting.
  --Collaborate with States to develop and implement statewide 
        strategies for vision screening, establish quality improvement 
        strategies, and determine mechanisms for the improvement of 
        data systems and reporting of children's vision and eye health 
        services.

            ADVANCE AND EXPAND VISION RESEARCH OPPORTUNITIES

    Prevent Blindness America calls upon the Subcommittee to provide 
additional support for the NEI to bolster its efforts to identify the 
underlying causes of eye disease and vision loss, improve early 
detection and diagnosis of eye disease and vision loss, and advance 
prevention and treatment efforts. Research is critical to ensure that 
new treatments and interventions are developed to help reduce and 
eliminate vision problems and potentially blinding eye diseases facing 
consumers across the country. In 2009, Congress commended the NEI's 
leadership in basic and translational research through H. Res. 366 and 
S. Res. 209 (111th Congress), which recognized NEI's 40 years as the 
National Institutes of Health (NIH) Institute that leads the Nation's 
commitment to save and restore vision. The Resolutions also designated 
2010-2020 as the Decade of Vision in recognition of the increasing 
health and economic burden of eye disease, mainly as a result of an 
aging population.
    Through additional support, the NEI will be able to continue to 
grow its efforts to:
  --Expand capacity for research, as demonstrated by the significant 
        number of high-quality grant applications submitted in response 
        to American Recovery and Reinvestment Act opportunities.
  --Address unmet need, especially for programs of special promise that 
        could reap substantial downstream benefits.
  --Fund research to reduce healthcare costs, increase productivity, 
        and ensure the continued global competitiveness of the United 
        States.
    By providing additional funding for the NEI at the NIH, essential 
efforts to identify the underlying causes of eye disease and vision 
loss, improve early detection and diagnosis of eye disease and vision 
loss, and advance prevention, treatment efforts and health information 
dissemination will be bolstered.

                               CONCLUSION

    On behalf of Prevent Blindness America, our Board of Directors, and 
the millions of people at risk for vision loss and eye disease, we 
thank you for the opportunity to submit written testimony regarding 
fiscal year 2012 funding for the CDC's vision and eye health 
initiatives, the MCHB's National Center for Children's Vision and Eye 
Health, and the NEI. Please know that Prevent Blindness America stands 
ready to work with the Subcommittee and other Members of Congress to 
advance policies that will prevent blindness and preserve sight. Please 
feel free to contact us at any time; we are happy to be a resource to 
Subcommittee members and your staff. We very much appreciate the 
Subcommittee's attention to--and consideration of--our requests.
                                 ______
                                 
                   Prepared Statement of ProLiteracy

    Chairman Harkin, Ranking Member Shelby, and members of the 
Subcommittee, on behalf of the millions of adult learners working to 
improve their basic reading, writing, math, and computer skills and 
pursue greater economic opportunity for themselves and their families, 
thank you for the opportunity to provide written testimony regarding 
the President's fiscal year 2012 budget request for adult education and 
family literacy, provided for under the Workforce Investment Act, Title 
II. We would be pleased to testify and participate in any future 
hearings regarding adult literacy and basic education.
    We strongly urge you to approve at the very least, the President's 
request of $658.3 million for Adult Basic and Literacy Education in 
fiscal year 2012 to better assist the one in seven adults nationally 
who struggle with illiteracy. At a time when millions of Americans are 
struggling to find work, it is essential to invest in adult learning in 
order to put more American families on the road to self-sufficiency and 
economic security.

Background: ProLiteracy
    ProLiteracy is the world's oldest and largest organization of adult 
literacy and basic education programs in the United States. ProLiteracy 
traces its roots to two premiere adult literacy organizations: Laubach 
Literacy International and Literacy Volunteers of America. In 2002, 
these two organizations merged to create ProLiteracy.
    ProLiteracy represents more than 1,000 community-based 
organizations and adult basic education programs in the United States, 
and we partner with literacy organizations in 50 developing countries. 
In communities across the United States, these organizations use 
trained volunteers, teachers, and instructors to provide one-on-one 
tutoring, classroom instruction, and specialized classes in reading, 
writing, math, technology, English language skills, job-training and 
workforce literacy skills, GED preparation, and citizenship. Our 
members are located in all 50 States and in the District of Columbia. 
Through education, training and advocacy, ProLiteracy supports the 
frontline work of these organizations with regional conferences and 
other training events; credentialing; and the publication of materials 
and products used to teach adults basic literacy and English-as-a-
second-language and to prepare adults for the U.S. citizenship exam and 
GED Tests.

The Urgent Need to Invest in Adult Education
    In 2003, the U.S. Department of Education conducted the National 
Assessment of Adult Literacy (NAAL) in order to gauge the English 
reading and comprehension skills of individuals in the United States 
over the age of 16 on daily literacy tasks such as reading a newspaper 
article, following a printed television guide, and completing a bank 
deposit slip. The results indicated that 30 million adults--14 percent 
of this country's adult population--had below basic literacy skills; 
that is, their ability to read was so poor, they could not complete a 
job application without help or follow the directions on a medicine 
bottle. An additional 63 million adults read only slightly better, for 
a total of 93 million American adults who are considered low literate.
    Because under-educated adults are more likely to be unemployed and 
require public assistance, the high percentage of low-literate adults 
is having an adverse affect on our Nation's efforts to reduce 
unemployment and reduce the deficit. In 2009, 14.6 percent of those 
without a high school diploma were unemployed compared to 9.7 percent 
of high school graduates; 8.6 percent of those with some college; 6.8 
percent with an associate's degree; 4.6 percent with a 4-year degree or 
more.\1\ And the trends for these adults are not encouraging. For 
example, while 67 percent of the service industry's jobs in 1983 
required a high school diploma or less, this percentage is expected to 
drop to zero by 2018.\2\
---------------------------------------------------------------------------
    \1\ http://www.bls.gov/cps/cpsaat7.pdf.
    \2\ http://cew.georgetown.edu/(see Figure 4.17, pg. 86).
---------------------------------------------------------------------------
    In addition, we will fail to meet President Obama's goal of once 
again leading the world in college degree attainment unless we support 
more adults without college degrees to enroll in post-secondary 
education. To meet the President's goal, it is estimated that the 
United States will need to move at least 3.4 million adults with high 
school diplomas but no college degrees into postsecondary education.\3\ 
Increasing the number of adults with high-school degrees or 
equivalents, and with the skills to succeed in college, will help us 
achieve this goal.
---------------------------------------------------------------------------
    \3\ http://www.womeningovernment.org/files/onemillion_letter.pdf.
---------------------------------------------------------------------------
    The bottom line is that a greater investment in adult education 
will increase employment and postsecondary enrollments, move 
individuals off of public assistance, and ultimately reduce the 
deficit.
    Despite the critical role that adult education plays in reducing 
unemployment and increasing postsecondary attainment, the adult 
education system currently only has the capacity to serve approximately 
2.5 million of these 93 million adults each year. Adult education has 
been basically flat funded for a decade, seeing only a modest overall 
increase from 2001-2010.\4\ In fiscal year 2011, the number of 
individuals served will almost certainly be reduced as a result of the 
$32.1 million cut to Title II State grants in the final fiscal year 
2011 CR. This cut comes at a time when many States are responding to 
drastically declining revenues by slashing budgets for education, 
training, and human services, including their investments in adult 
education.
---------------------------------------------------------------------------
    \4\ http://www2.ed.gov/about/overview/budget/history/edhistory.pdf.
---------------------------------------------------------------------------
The Proposed Adult Basic and Literacy Education Budget
    The proposed fiscal year 2012 budget includes several significant 
features that we strongly support. First, the President requested $635 
million for State formula grants for adult education through the 
Workforce Investment Act (WIA), Title II, an increase of $6.8 million 
compared to the 2010 appropriation. As we have discussed above, the 
need for increased investment in adult education is clear, and we 
welcome the President's call for a modest increase.
    We recognize that in the current fiscal environment, the 
subcommittee will be reluctant to increase spending in many areas of 
the budget above this year's level. If an increase is not possible, it 
is critically important to hold spending for adult education and 
literacy at current levels. An additional cut to Title II funding on 
top of the $31 million cut in fiscal year 2011 would be devastating to 
State adult education systems around the country, and, as we have 
noted, would likely increase unemployment and contribute to the 
deficit.

Workforce Innovation
    The administration proposes to set aside $50.8 million from the 
State formula funds to support a Workforce Innovation Fund (WIF), which 
will also include $30 million in funding from the Rehabilitation 
Services and Disability Research account, and almost $298 million from 
the Department of Labor.
    ProLiteracy applauds the administration's commitment to innovation. 
We urge the Subcommittee to ensure that innovation funding will benefit 
adults at all skill levels, particularly the millions who are estimated 
to possess less than basic literacy skills served by community-based 
organizations. We suggest, in fact, competitive priority for proposals 
that will address those at the lowest levels of literacy and those with 
significant barriers to learning.
    However, we also caution that after experiencing a dramatic cut to 
State formula funding in fiscal year 2011, care must be taken to ensure 
that State formula funding is sufficient to ensure the survival of 
existing programs. ProLiteracy urges the Subcommittee to ensure that 
the WIF, if it moves forward, is funded on top of annual WIA formula 
funds, rather than as a carve out of existing formula funds.

National Leadership
    The President's proposal also includes an additional $12 million 
for national leadership funds to the Department of Education that would 
be used to evaluate the impact of college bridge programs that assist 
adult learners in transitioning from adult basic education to 
postsecondary education and training, and for building greater 
technology infrastructure for adult learners and adult educators.
    We believe these ideas reflect real needs in our field, and if 
these initiatives lead to new resources and better services on the 
ground for learners and the programs that serve them, than this could 
be a very positive development. Again, however, we would urge that any 
new programming that would not have an immediate, direct, benefit to 
adult learners not come at the expense of State formula funds.

WIA Reauthorization and Use of National Leadership Funds
    The President's budget request also supports the reauthorization of 
WIA, and specifically calls for better alignment between Title I and 
Title II. We share the administration's desire for more streamlined 
service delivery systems that are more engaged with employers, and the 
promotion of innovative career pathways models--but in particular for 
those learners at the lowest levels of literacy.
    We strongly urge, therefore, expanding funding opportunities for 
community-based programs that have successfully implemented strategies 
for delivering basic literacy instruction together with employment 
training so that they may document and disseminate best practices 
related to the integration of title I job training programs with title 
II adult literacy programs.
    Through both reauthorization of the Workforce Investment Act and 
use of national leadership funding, we also recommend that the 
Department examine and publish successful strategies and best practices 
that can help adults with low literacy levels improve their overall 
skills and employment opportunities.
    We note that learners at the lowest levels of literacy often 
receive literacy instruction at community-based organizations (CBOs) 
that utilize trained volunteers. For decades, volunteers, and other 
types of non-career instructors such as such as VISTA or AmeriCorps 
members, have been a vital component in the delivery of education 
services for adults with low literacy in the United States. Volunteers 
serve in non-instructional roles as well such as mentoring, counseling, 
recruiting students, and serving as teaching aides to paid instructors.
    However, adult education career pathway programs are based largely 
on traditional career pathways programs that connect secondary and 
postsecondary students to further education and work in a specific 
industry. As a result, the limited existing research on career pathway 
approaches used with adult learners is largely focused on students with 
higher-level literacy skills.
    We therefore urge the subcommittee to ensure that CBOs that utilize 
trained volunteers are integrated into the Department's career pathways 
strategies. We suggest that the Department identify and disseminate 
successful strategies and best practices that will assist community-
based organizations that utilize adult literacy volunteers to support 
the Department's career pathways initiatives; and implement strategies 
to increase participation by community-based organizations that utilize 
trained volunteers in any related technical assistance efforts.
    Thank you for the opportunity to present this testimony. We would 
be happy to respond to any questions that you may have.
                                 ______
                                 
            Prepared Statement of the Prostatitis Foundation

    We are the unpaid volunteers at the Prostatitis Foundation 
representing thousands of men nationwide with prostatitis. Our mission 
for 15 years has been to:
  --Educate the public about the prevalence of prostatitis by our 
        website www.prostatitis.org, our newsletters, and newspaper and 
        magazine articles. It is estimated that 10 percent of all males 
        suffer from chronic prostatitis/pelvic pain syndrome (CP/PPS) 
        and 50 percent of men will experience (CP/PPS) during their 
        lifetime. Symptoms can include severe pelvic pain, urinary and 
        sexual dysfunction and infertility. The possible connection of 
        prostatitis to prostate cancer is uncertain and not adequately 
        researched. Prostatitis is common in young men who are at an 
        age where they are reluctant to discuss such personal matters 
        as pelvic pain, voiding problems and sexual dysfunction with 
        family, friends or co-workers. The result has been an 
        unpublicized crisis and a costly, hopeless medical condition.
  --Encourage research funding. We have worked with the NIH research 
        team personnel and research centers over three sets of multi-
        year clinical trial programs going back to 1996. We are now 
        assisting with the fourth group of nationwide research centers. 
        The Map Network is a group of researchers who have been 
        assembled by National Institute of Diabetes and Digestive and 
        Kidney Diseases (NIDDK) to include specialties besides urology 
        to get some basic scientific research that will lead to 
        determining a cause and cure for (CP/PPS). Everyone has too 
        much time and expense invested to let these efforts expire 
        without pushing to complete this search for a cause and cure 
        for (CP/PPS). If we do not build on the efforts of the three 
        previous accumulations of data to determine a cause and cure it 
        will be lost and the next group will have to start at the 
        beginning again.
    We request continuing funding and direction through The National 
Institutes of Health (NIH) to National Institute of Diabetes and 
Digestive and Kidney Diseases (NIDDK) who are over seeing this Mapp 
Network of research centers.
                                 ______
                                 
      Prepared Statement of the Pulmonary Hypertension Association

    Mr. Chairman, thank you for the opportunity to submit testimony on 
behalf of the Pulmonary Hypertension Association (PHA).
    I would like to extend my sincere thanks to the Subcommittee for 
your past support of pulmonary hypertension (PH) programs at the 
National Institutes of Health, Centers for Disease Control and 
Prevention, and Health Resources and Services Administration. These 
initiatives have opened many new avenues of promising research, helped 
educate hundreds of physicians in how to properly diagnose PH, and 
raised awareness about the importance of organ donation and 
transplantation within the PH community.
    I am honored today to represent the hundreds of thousands of 
Americans who are fighting a courageous battle against a devastating 
disease. Pulmonary hypertension is a serious and often fatal condition 
where the blood pressure in the lungs rises to dangerously high levels. 
In PH patients, the walls of the arteries that take blood from the 
right side of the heart to the lungs thicken and constrict. As a 
result, the right side of the heart has to pump harder to move blood 
into the lungs, causing it to enlarge and ultimately fail.
    PH can occur without a known cause or be secondary to other 
conditions such as: collagen vascular diseases (i.e., scleroderma and 
lupus), blood clots, HIV, sickle cell, or liver disease. PH impacts 
patients of all races, genders, and ages. Preliminary data from the 
REVEAL Registry suggests that the ratio of women to men who develop PH 
is 4:1. Patients develop symptoms that include shortness of breath, 
fatigue, chest pain, dizziness, and fainting.
    Unfortunately, these symptoms are frequently misdiagnosed, leaving 
patients with the false impression that they have a minor pulmonary or 
cardiovascular condition. By the time many patients receive an accurate 
diagnosis, the disease has progressed to a late stage, making it 
impossible to receive a necessary heart or lung transplant. PH is 
chronic and incurable with a poor survival rate. Fortunately, new 
treatments are providing a significantly improved quality of life for 
patients with some managing the disorder for 20 years or longer.
    In 1990, when three PH patients found each other with the help of 
the National Organization for Rare Diseases, and founded the Pulmonary 
Hypertension Association, there were less than 200 diagnosed cases of 
this disease. It was virtually unknown among the general population and 
not well known in the medical community. They soon realized that this 
was unacceptable, and formally established PHA, which is headquartered 
in Silver Spring, Maryland. I am pleased to report that we are making 
good progress in our fight against this deadly disease. Nine 
medications for the treatment of PH have been approved by the FDA in 
the past 16 years.
    Today, PHA includes:
  --More than 20,000 members and supporters.
  --A network of 230+ patient support groups and an active patient-to-
        patient telephone helpline.
  --Three research programs that, through partnerships with the 
        National Heart, Lung and Blood Institute, American Heart 
        Association and the American Thoracic Society, have leveraged 
        our donors' funds to commit more than $10 million toward PH 
        research as of 2011.
  --Numerous electronic and print publications, including the first 
        medical journal devoted to pulmonary hypertension--published 
        quarterly and distributed to all cardiologists, pulmonologists, 
        and rheumatologists in the United States.
  --A state-of-the-art website(www.phassociation.org) dedicated to 
        providing educational and support resources to patients, 
        caregivers, and the public.
  --A medical education website (www.phaonlineuniv.org), supported in 
        part by the CDC, providing accredited medical education and 
        resources to the medical community

            FISCAL YEAR 2012 APPROPRIATIONS RECOMMENDATIONS

National Heart, Lung And Blood Institute
    Less than two decades ago, a diagnosis of PH was essentially a 
death sentence, with only one approved treatment for the disease. 
Thanks to advancements made through the public and private sector, 
patients today are living longer and better lives with a choice of nine 
FDA approved medications. Recognizing that we have made tremendous 
progress, we are also mindful that we are a long way from where we want 
to be in (1) the management of PH as a treatable chronic disease, and 
(2) a cure.
    We are grateful to the National Heart, Lung and Blood Institute for 
their leadership in advancing research on PH. Our Association is proud 
to jointly sponsor investigator training grants (K awards) with NHLBI 
aimed at supporting the next generation of pulmonary hypertension 
researchers.
    Moreover, we were very pleased that NHLBI recently convened some of 
the community's leading scientists for a Working on Group on Lung 
Vascular Research. The panel produced recommendations that should guide 
pulmonary vascular disease research and treatment, including PH 
research, in coming years. Their recommendations, published in the 
American Journal of Respiratory and Critical Care Medicine in October, 
2010 are as follows:
  --Advance basic scientific research in lung vascular biology 
        utilizing emerging technologies.
  --Advance and coordinate basic and clinical knowledge of the 
        pulmonary circulation-right heart axis through novel research 
        efforts utilizing multidisciplinary teams.
  --Define interactions between lung vascular components and 
        circulating elements and systemic circulations by fostering 
        novel collaborations.
  --Encourage systems analysis to understand and define interactions 
        between lung vascular genetics, epigenetics, metabolic 
        pathways, andmolecular signaling.
  --Develop strategies using appropriate animal models to improve the 
        understanding of the lung vasculature in health and in 
        conditions that reflect human disease.
  --Enhance translational research in lung vascular disease by 
        comparing cellular and tissue abnormalities identified in 
        animal models to those in human specimens.
  --Improve lung vascular disease molecular and clinical phenotype 
        coupling.
  --Develop in vivo imaging techniques which assess structural changes 
        in lung vasculature, metabolic shifts, functional cell 
        responses and right ventricular function.
  --Develop research consortia that advance basic, translational, and 
        clinical studies, allow for multi-center epidemiological study 
        feasibility, and support junior investigators' training in lung 
        vascularbiology and disease.
    We encourage the Subcommittee to support the full implementation of 
these recommendations by the National Institutes of Health.
    Mr. Chairman, expanding clinical research remains a top priority 
for patients, caregivers, and PH investigators. We are particularly 
interested in establishing a pulmonary hypertension research network. 
Such a network would link leading researchers around the United States, 
providing them with access to a wider pool of shared patient data. In 
addition, the network would provide researchers with the opportunities 
to collaborate on studies and to strengthen the interconnections 
between basic and clinical science in the field of pulmonary 
hypertension research. Such a network is in the tradition of the NHLBI, 
which, to its credit and to the benefit of the American public, has 
supported numerous similar networks including the Acute Respiratory 
Distress Syndrome Network and the Idiopathic Pulmonary Fibrosis 
Clinical Research Network. We encourage the NHLBI to move forward with 
the establishment of a PH network in fiscal year 2012.
    For fiscal year 2012, PHA joins with other voluntary patient and 
medical organizations in recommending an appropriation of $35 billion 
for the National Institutes of Health. This level of funding will 
ensure continued expansion of research on rare diseases like pulmonary 
hypertension.

Centers For Disease Control And Prevention
    Mr. Chairman, we are grateful to the subcommittee for providing 
past support of PHA's Pulmonary Hypertension Awareness Campaign. We 
know for a fact that Americans are dying due to a lack of awareness of 
PH, and a lack of understanding about the many new treatment options. 
This unfortunate reality is particularly true among minority and 
underserved populations. More needs to be done to educate both the 
general public and healthcare providers if we are to save lives.
    To that end, PHA has utilized the funding provided through the CDC 
to: (1) launch a successful media outreach campaign focusing on both 
print and online outlets; (2) expand our support programs for 
previously underserved patient populations; and (3) establish PHA 
Online University, an interactive curriculum-based website for medical 
professionals that targets pulmonary hypertension experts, primary care 
physicians, specialists in pulmonology/cardiology/rheumatology, and 
allied health professionals. The site is continually updated with 
information on early diagnosis and appropriate treatment of pulmonary 
hypertension. It serves as a center point for discussion among PH-
treating medical professionals and offers Continuing Medical Education 
and CEU credits through a series of online classes.
    In fiscal year 2012, we encourage the subcommittee to establish a 
specific program at CDC to provide ongoing support for PH education and 
awareness activities. This would make a tremendous difference in the 
fight against this devastating disease.

``Gift Of Life'' Donation Initiative at HRSA
    PHA applauds the success of the Health Resources and Services 
Administration's ``Gift of Life'' Donation Initiative. This important 
program is working to increase organ donation rates across the country. 
Unfortunately, the only ``treatment'' option available to many late-
stage PH patients is a lung, or heart and lung, transplantation. This 
grim reality is why PHA established ``Bonnie's Gift Project.''
    ``Bonnie's Gift'' was started in memory of Bonnie Dukart, one of 
PHA's most active and respected leaders. Bonnie battled with PH for 
almost 20 years until her death in 2001 following a double lung 
transplant. Prior to her death, Bonnie expressed an interest in the 
development of a program within PHA related to transplant information 
and awareness.
    PHA has had a very successful partnership with HRSA's ``Gift of 
Life'' Donation Program in recent years. Collectively, we have worked 
to increase organ donation rates and raise awareness about the need for 
PH patients to ``early list'' on transplantation waiting lists. For 
fiscal year 2012, PHA recommends an appropriation of $26 million for 
this important program.

Social Security Disability
    Finally Mr. Chairman, PHA would like to thank the subcommittee for 
its commitment to address the longstanding backlog of disability claims 
at the Social Security Administration. We greatly appreciate this 
investment as a growing number of our patients are applying for 
disability coverage. On a related note, the SSA recently convened an 
Institute of Medicine panel to recommend revisions to the disability 
criteria for cardiovascular diseases. The IOM worked closely with our 
medical experts to update the disability criteria for our patient 
population and we were pleased to receive their recommendations earlier 
this year. We encourage Congress to support this process moving 
forward.
                                 ______
                                 
 Prepared Statement of the Research Working Group of the Federal AIDS 
                           Policy Partnership

    Chairman Harkin, Ranking Member Shelby and members of the 
Committee, thank you for the opportunity to provide testimony on the 
National Institutes of Health (NIH) budget overall and for AIDS 
research in fiscal year 2012. Tomorrow's scientific and medical 
breakthroughs depend on your vision, leadership and commitment toward 
robust NIH funding over the next year. To this end, the Research 
Working Group (RWG) urges this Committee to support--at minimum--the 
President's NIH budget request and also recommends a funding target of 
$35 billion in fiscal year 2012 to maintain the U.S.'s position as the 
world leader in medical research and innovation.
    Investments in health research via NIH have paid enormous dividends 
in the health and well-being of people in the United States and around 
the world. NIH funded HIV and AIDS research has supported innovative 
basic science for better drug therapies, evidence-based behavioral and 
biomedical prevention interventions and vaccines which have saved and 
improved the lives of millions and holds great promise for 
significantly reducing HIV infection rates and providing more effective 
treatments for those living with HIV/AIDS in the coming decade.
    Despite these advances, the number of new HIV/AIDS cases continues 
to rise in various populations in the United States and around the 
world. There are over 1 million HIV-infected people in the United 
States, the highest number in the epidemic's 30-year history; 
additionally over 56,000 Americans become newly infected every year. 
The evolving HIV epidemic in the United States disproportionately 
affects the poor, sexual and racial minorities and the most 
disenfranchised and stigmatized members of our communities. However, 
with proper funding coupled with the promotion of evidence based 
policies, 2012 will be a time of great scientific progress in 
prevention science, vaccines and finding a cure for HIV as well as 
addressing the co-morbid illnesses that affect patients with HIV such 
as viral hepatitis and tuberculosis. Further, as Washington, DC is set 
to host the International AIDS Conference in the summer of 2012, the 
gains in science made by NIH funded research programs will reflect our 
preeminence as the world's most powerful research enterprise fighting 
this deadly epidemic.
    Major advances over the last 2 years in HIV prevention 
technologies--in particular with microbicides, HIV vaccines, 
circumcision, antiretroviral treatment as prevention and pre exposure 
prophylaxis using antiretrovirals (PrEP)--demonstrate that adequately 
resourced NIH programs can transform our lives. Federal support for 
AIDS research has also led to new treatments for other diseases, 
including cancer, heart disease, Alzheimer's, hepatitis, osteoporosis 
and a wide range of autoimmune disorders. Over the years, NIH has 
sponsored the evaluation of a host of vaccine candidates, some of which 
are advancing to efficacy trials. The recent successful iPrEx and HPTN 
052 trials have shown the potential of antiretroviral drugs to prevent 
HIV infection. Moreover increased funding will support the future 
testing of new microbicides and therapeutics in the pipeline via the 
implementation of a newly restructured, cross-cutting HIV clinical 
trials network which translates NIH funded scientific innovation into 
critical quality of life gains for those most affected with HIV.
    Increased funding for NIH in fiscal year 2012 makes good bipartisan 
economic sense, especially in shaky times. Robust funding for NIH 
overall will enable research universities to pursue scientific 
opportunity, advance public health, and create jobs and economic 
growth. In every State across the country, the NIH supports research at 
hospitals, universities, private enterprises and medical schools. This 
includes the creation of jobs that will be essential to future 
discovery. Sustained investment is also essential to train the next 
generation of scientists and prepare them to make tomorrow's HIV 
discoveries. NIH funding puts 350,000 scientists to work at research 
institutions across the country. According to NIH, each of its research 
grants creates or sustains six to eight jobs and NIH supported research 
grants and technology transfers have resulted in the creation of 
thousands of new independent private sector companies. Strong, 
sustained NIH funding is a critical national priority that will foster 
better health and economic revitalization.
    Let's not jeopardize our future. Since 2003, funding for the NIH 
has failed to keep up with our existing research needs--damaging the 
success rate of approved grants and leaving very little money to fund 
promising new research. The real value of the increases prior to 2003 
has been precipitously reduced because of the relatively higher 
inflation rate for the cost of research and development activities 
undertaken by NIH. According to the Biomedical Research and Development 
Price Index--which calculates how much the NIH budget must change each 
year to maintain purchasing power--between fiscal year 2003 and fiscal 
year 2011, the cost of NIH activities according to the BRDI will have 
increased by 32.8 percent. By comparison, the overall budget of the NIH 
increased by $3.6 billion or 13.4 percent over fiscal year 2003. So in 
real terms, the NIH has already sustained budget decreases of close to 
20 percent over the past 9 years due to inflation alone. As such, any 
further cuts to NIH will have the clear and devastating effects of 
undermining our Nation's leadership in health research and our 
scientists' ability to take advantage of the expanding opportunities to 
advance healthcare. The race to find better treatments and a cure for 
cancer, heart disease, AIDS and other diseases, and for controlling 
global epidemics like AIDS, tuberculosis and malaria, all depend on a 
robust long term investment strategy for health research at NIH.
    In conclusion, the RWG calls on Congress to continue the bipartisan 
Federal commitment toward combating HIV as well as other chronic and 
life threatening illnesses by increasing funding for NIH to $35 billion 
in fiscal year 2012, including funds for transfer to the Global Fund 
for HIV/AIDS, Tuberculosis, and Malaria. A meaningful commitment toward 
stemming the epidemic and securing the well being of people with HIV 
cannot be met without prioritizing the research investment at NIH that 
will lead to tomorrow's lifesaving vaccines, treatments and cures. 
Thank you for the opportunity to provide these comments.
                                 ______
                                 
                 Prepared Statement of Research!America

    Thank you for the opportunity to submit testimony regarding fiscal 
year 2012 appropriations for the Subcommittee on Labor, Health, and 
Human Services, Education and Related Agencies. Research!America is the 
Nation's largest 501(c)(3) alliance working to make research to improve 
health a higher national priority. Research!America's member 
organizations together represent the voices of more than 125 million 
Americans. Our mission is grounded in strong and consistent expression 
by the American public for robust funding and policies in support of 
health research in the public and private sector. We use evidence-based 
advocacy to demonstrate the benefits of research that improves public 
health, productivity, longevity, and prosperity while solidifying 
America's standing as the world's engine of innovation.
    Our remarks will focus on funding for the National Institutes of 
Health (NIH), the Centers for Disease Control and Prevention (CDC), the 
Food and Drug Administration (FDA) and the Agency for Healthcare 
Research and Quality (AHRQ)--agencies that play a pivotal role in 
advancing the health of Americans and fueling economic growth across 
our Nation. In addition to these agencies, Research!America also 
advocates for the National Science Foundation (NSF), which fosters 
basic science and discovery that also impacts the health of Americans.
    Research!America appreciates the subcommittee's past support for 
robust research funding conducted and supported by NIH, CDC, FDA, and 
AHRQ. Health research is in our Nation's best short- and long-term 
interests. Investing in research saves lives, saves dollars, produces 
jobs across multiple sectors of our economy, and positions our Nation 
for sustained global competitiveness.
    The Nation is facing a debt crisis. Our debt burden will increase 
if we underfund agencies that drive economic growth and the private 
sector innovation critical to our global competitiveness. Robust 
support for health research agencies is critical for solving the debt 
crisis, reigning in the cost of medical care, and getting the economy 
back on track.
    NIH, CDC, AHRQ and FDA each contribute in multifaceted ways to 
improved health and the economic growth our Nation.
  --Research funded by the National Institutes of Health at research 
        institutions across the country provides the groundwork for new 
        product development in the private sector, which creates jobs 
        and pumps dollars into local economies.
  --The Centers of Disease Control and Prevention engage in 
        epidemiological and public health research that stems deadly 
        and costly pandemics, bolsters our Nation's defenses against 
        bioterrorism, and addresses public health threats like drug-
        resistant infections that increase hospital costs and threaten 
        lives.
  --Research supported by the Agency for Healthcare Research and 
        Quality improves the efficiency and quality of healthcare in 
        this country by reducing duplication and waste and improving 
        healthcare outcomes;
  --By ensuring the safety and efficacy of new medicines and medical 
        devices, The Food and Drug Administration plays a pivotal role 
        in translating health research into improved treatments for 
        patients.
    As polling commissioned by Research!America clearly demonstrates, 
the American public strongly supports robust investment in health and 
medical research. A recent poll that surveyed a mix of self-described 
conservatives (32 percent), liberals (32 percent) and moderates (36 
percent) found that, as we emerge from the recession:
  --78 percent of Americans think Federal funding for health research 
        is important for job creation and the economy;
  --61 percent say accelerating our Nation's investment in research to 
        improve health is a priority;
  --76 percent think global health R&D is important to the U.S. 
        economy;
  --84 percent think it is important that the Government plays a role 
        in research for prevention and wellness; and
  --53 percent of Americans think that spending cuts are necessary, but 
        the United States must invest strategically to improve the 
        health of the economy.
    The poll also confirms that Americans value public/private 
collaboration in order to rapidly build on discoveries made in 
federally funded labs to bring new drugs and devices to market. Some 84 
percent of Americans think it is important to invest in regulatory 
science, an increasingly important area of focus at FDA and NIH, to 
make the drug and device development process more efficient for 
businesses and safer for patients.
    Additional findings from Research!America polling include:
  --91 percent of Americans think R&D is important to their State's 
        economy;
  --83 percent agree that basic scientific research should be funded by 
        the Federal government;
  --66 percent think research to improve health is part of the solution 
        to rising healthcare costs.
    The American public knows that research not only saves lives, but 
money. Disease and disability pose a major economic threat to our 
Nation, as the aging of our population and rising obesity rates 
increase the prevalence of heart disease, cancer, stroke, diabetes, 
Parkinson's disease, Alzheimer's disease and other major illnesses. It 
is estimated that chronic disease alone costs the United States $1.7 
trillion each year.\1\ Research conducted by both the public and 
private sectors is a potent weapon against rising healthcare costs. For 
example:
---------------------------------------------------------------------------
    \1\ Partnership to Fight Chronic Disease, Almanac of Chronic 
Disease, 2009.
---------------------------------------------------------------------------
  --An NIH-sponsored clinical trial showed treatment with aspirin could 
        reduce stroke in Atrial Fibrillation (AF) victims by 80 
        percent, resulting in a 10-year net benefit of $1.27 
        billion.\2\
---------------------------------------------------------------------------
    \2\ Johnston SC, Rootenberg JD, Katrak S, et. al. Effect of a US 
NIH programme of clinical trials on public health and costs. The Lancet 
2006;367:1319-1327.
---------------------------------------------------------------------------
  --A breast cancer diagnostic test developed by a private company 
        using data from the publicly funded human genome project saves 
        an estimated $2,000 per patient by reducing the number of women 
        who are prescribed chemotherapy.\3\
---------------------------------------------------------------------------
    \3\ Lyman, G.H. et al. Impact of a 21-gene RT-PCR assay on 
treatment decisions in early-stage breast cancer. Cancer. 2007; 
109:1011-1118.
---------------------------------------------------------------------------
  --A recent NIH-funded study shows that vaccinating healthy, employed 
        adults (ages 18 to 50) against the flu saves as much as $31 per 
        person.\4\
---------------------------------------------------------------------------
    \4\ Lee, Patrick Y. ``Economic Analysis Of Influenza Vaccination 
And Antiviral Treatment For Healthy Working Adults.'' Annals of 
Internal Medicine 137 (2002): 225-31.
---------------------------------------------------------------------------
    U.S. research leading to the control and eradication of global 
illnesses can dramatically increase global productivity, while helping 
to protect Americans. In addition to benefiting our troops abroad, U.S. 
research focused on global diseases is actually an investment in the 
health of Americans. International travel means that it is not a matter 
of if, but when, deadly global threats, such as multiple-drug resistant 
tuberculosis reach the United States. Every year, 60 million Americans 
travel to other countries and 50 million people from abroad travel to 
the United States.\5\
---------------------------------------------------------------------------
    \5\ ITA (International Trade Administration), Office of Travel and 
Tourism Industries, ``Total International Travelers Volume to and from 
the U.S. 1995-2005,'' available online at http://tinet.ita.doc.gov/
outreachpages/inbound.total_intl_travel_volume_1995-2005.html.
---------------------------------------------------------------------------
    In an interconnected world, U.S. global research helps grow our 
economy and saves lives at home and abroad.
    Both the NIH and the CDC work closely with other agencies, like the 
U.S. Agency for International Development (USAID) to support the 
development of new biomedical, diagnostic, and other global health-
related technologies. Through public private partnerships (PPP), 
including product development partnerships (PDP), these agencies 
leverage expertise from academia, private sector, and others to create 
new tools to combat neglected diseases throughout the world. This 
innovative collaborative PDP model has resulted in 12 novel products 
that could prove transformative for global health. We urge the 
committee to provide continued and robust support for these programs 
that touch every corner of our world, save lives, and strengthen the 
U.S. economy.
    Whether the goal is to save lives, bend the cost curve by 
progressively reducing the cost of treating chronic and life-
threatening health conditions, or promote the kind of innovation that 
positions our Nation for global economic leadership now and in the 
future, ample funding for NIH, CDC, FDA, and AHRQ is a cost-effective 
investment. Research!America appreciates the difficult task facing the 
subcommittee and urges that you recognize the return on investment that 
these four Federal agencies bring to our country. Investing in these 
agencies is the right, and smart, choice.
                                 ______
                                 
               Prepared Statement of Rotary International

    Chairman Harkin, members of the Subcommittee, Rotary International 
appreciates this opportunity to submit testimony to the in support of 
the polio eradication activities of the U.S. Centers for Disease 
Control and Prevention (CDC). The Global Polio Eradication Initiative 
is an unprecedented model of cooperation among national governments, 
civil society and U.N. agencies to work together to reach the most 
vulnerable through a safe, cost-effective public health intervention, 
and one which is increasingly being combined with opportunistic, 
complementary interventions such as the distribution of life-saving 
vitamin A drops, oral rehydration therapy, zinc supplements, and even 
something as simple as the distribution of soap. The goal of a polio 
free world is within our grasp because polio eradication strategies 
work even in the most challenging environments and circumstances.

           PROGRESS IN THE GLOBAL PROGRAM TO ERADICATE POLIO

    Thanks to this committee's leadership in appropriating funds, 
progress toward a polio-free world continues.
  --Only 4 countries (Nigeria, India, Pakistan and Afghanistan) are 
        polio-endemic--the lowest number in history.
  --The number of polio cases has fallen from an estimated 350,000 in 
        1988 to less than 1300 in 2010--a more than 99 percent decline 
        in reported cases.
  --As of April 21, 2011, Uttar Pradesh (UP) in India celebrated 1 year 
        without reporting a single case of polio. The state has 
        traditionally been a major exporter of virus to other parts of 
        India and the world, and has been described as one of the most 
        difficult places to eradicate polio.
  --The number of polio cases in the polio endemic countries of India 
        and Nigeria declined by more than 90 percent in 2010 as 
        compared to 2009. As of 2011, India has reported only 1 case; 
        Nigeria--5 cases.
  --Incidence of type 3 polio, which accounted for 70 percent of all 
        polio cases in 2009, decreased significantly in 2010 accounting 
        for only 8 percent of all cases.
  --Bivalent oral polio vaccine, which was introduced at the end of 
        2009, has proven to effectively target both of the remaining 
        strains of polio, and has been a major factor in the progress 
        made in 2010.
  --A shortfall in the funding needed for polio eradication activities 
        in polio affected and at-risk countries continues to pose a 
        serious threat the achievement of a polio free world.
    In summary, significant operational progress was made in 2010 
despite funding challenges and outbreaks which, will continue to 
threaten polio free countries until polio eradication is achieved. 
Rotary, as a spearheading partner of the GPEI, will continue to pursue 
aggressive progress as outlined in the Strategic Plan for 2010-12 which 
has already demonstrated results in terms of reducing the number of 
cases in 2010 and into 2011.
    The ongoing support of donor countries is essential to assure the 
necessary human and financial resources are made available to polio-
endemic countries to take advantage of the window of opportunity to 
forever rid the world of polio. Access to children is needed, 
particularly in conflict-affected areas such as Afghanistan and its 
shared border with Pakistan. Polio-free countries must maintain high 
levels of routine polio immunization and surveillance. The continued 
leadership of the United States is essential to ensure we meet these 
challenges.

                    THE ROLE OF ROTARY INTERNATIONAL

    Rotary International, a global association of more than 32,000 
Rotary clubs in more than 170 countries with a membership of over 1.2 
million business and professional leaders (more than 365,000 of which 
are in the United States), has been committed to battling polio since 
1985. Rotary International has contributed more than US$1 billion 
toward a polio free world--representing the largest contribution by an 
international service organization to a public health initiative ever. 
Rotary also leads the United States Coalition for the Eradication of 
Polio, a group of committed child health advocates that includes the 
March of Dimes Foundation, the American Academy of Pediatrics, the Task 
Force for Global Health, the United Nations Foundation, and the U.S. 
Fund for UNICEF. These organizations join us in thanking you for your 
staunch support of the Polio Eradication Initiative.

 THE ROLE OF THE U.S. CENTERS FOR DISEASE CONTROL AND PREVENTION (CDC)

    Rotary commends CDC for its leadership in the global polio 
eradication effort, and greatly appreciates the Subcommittee's support 
of CDC's polio eradication activities. The investment in this global 
effort has helped to make the United States the leader among donor 
nations in the drive to eradicate this crippling disease. Due to 
congressional support, in fiscal year 2010 and fiscal year 2011 CDC was 
able to:
  --Support the international assignment of more than 358 long- and 
        short-term epidemiologists, virologists, and technical officers 
        to assist the World Health Organization and polio-endemic 
        countries to implement polio eradication strategies while on 
        temporary duty travel from Atlanta, and 31 technical staff on 
        direct 2-year assignments to WHO and UNICEF to assist polio-
        endemic and polio-reinfected countries.
  --Perform the lead technical monitoring role for the Global Polio 
        Eradication Initiative (GPEI) Strategic Plan 2010-2012 released 
        in May 2010. On a quarterly basis, beginning in Q4, 2010, CDC 
        provided a detailed epidemiologic report and risk assessment on 
        the progress toward achieving the goals outlined in the 
        Strategic Plan to the Independent Monitoring Board (IMB) for 
        policy and decisionmaking.
  --Provide $53.4 million in fiscal year 2010 to UNICEF for 
        approximately 292 million doses of polio vaccine and $7.3 
        million for operational costs for NIDs in all polio-endemic 
        countries and other high-risk countries in Asia, the Middle 
        East and Africa. Most of these NIDs would not take place 
        without the assurance of CDC's support.
  --Collaborate with WHO, UNICEF, Rotary International, U.N. Foundation 
        and the Bill and Melinda Gates Foundation to facilitate World 
        Bank financing through its buy-down mechanism for the purchase 
        of OPV. In 2010, this mechanism provided $14.1 million to 
        Nigeria and $37.3 million to Pakistan. For 2011, Nigeria has 
        been approved for $60 million, 1-year credit and Pakistan is 
        eligible for a $41 million, 1-year credit.
  --Provide $30.9 million in fiscal year 2010 to WHO for surveillance, 
        technical staff and NIDs' operational costs, primarily in 
        Africa. As successful NIDs take place, surveillance is critical 
        to determine where polio cases continue to occur. Effective 
        surveillance can save resources by eliminating the need for 
        extensive immunization campaigns if it is determined that polio 
        circulation is limited to a specific locale.
  --Train virologists from around the world in advanced poliovirus 
        research and public health laboratory support. CDC's Atlanta 
        laboratories are a global reference center and training 
        facility.
  --Provide, as the leading specialize polio reference lab in the 
        world, the largest volume of operational (poliovirus isolation) 
        and technologically sophisticated (genetic sequencing of polio 
        viruses) lab support to the 145 laboratories of the global 
        polio laboratory network.
  --Provide scientific and technical expertise to WHO on research 
        issues regarding: (1) laboratory containment of wild poliovirus 
        stocks following polio eradication, and (2) when and how to 
        stop or modify polio vaccination following global certification 
        of polio eradication.
  --Provide critical support for post-polio-eradication planning 
        through research, new product development, strategy formulation 
        and policy development.
  --Train and deploy public health professionals to improve AFP 
        surveillance and to help plan, implement, and evaluate 
        vaccination campaigns, communications, etc. through CDC's Stop 
        Transmission of Polio (STOP) program. Since 1999, more than 
        1,000 STOP team members have participated in 3-month 
        assignments in 60 countries, providing 262 person-years of 
        support at the national and State levels. In 2010, the STOP 
        program deployed 185 professionals to 69 countries.
  --Launch a customized N (national)-STOP initiative in March 2011 in 
        collaboration with the Pakistan Ministry of Health, WHO and the 
        USAID Mission in Islamabad. Sixteen national epidemiologists 
        from CDC's Field Epidemiology Training Program (FETP) were 
        trained and deployed to the highest risk districts for 
        circulation of wild polio virus in an effort to help improve 
        the quality of disease surveillance and immunization activities 
        there and to strengthen routine immunization systems.
  --Deploy E (enhanced)-STOP initiative teams to Nigeria, S. Sudan, 
        Angola, Chad, and DRC. Those serving in E-STOP are assigned to 
        support efforts in strategic areas, are more experienced, and 
        serve for a longer durations. As part of E-STOP in 2010, 28 
        professionals were deployed to Nigeria, 35 to South Sudan, 7 to 
        Angola, 5 to Chad, and 5 to DRC. This initiative was 
        facilitated by an expanding partnership with the Organization 
        of Islamic Conference (OIC) facilitating outreach to Muslim 
        states and the Pan American Health Organization facilitating 
        Brazilian and Southern Cone support for Angola. With available 
        funding, CDC plans to expand the number of participants in E-
        STOP in 2011.
  --Support global polio eradication by participating in technical 
        advisory groups, EPI manager and other key meetings. The CDC 
        also published 14 updates on progress toward polio eradication 
        in the Morbidity and Mortality Weekly Report (MMWR) and other 
        peer-reviewed journals.

                    FISCAL YEAR 2012 BUDGET REQUEST

    For fiscal year 2012, we respectfully request that this 
subcommittee include $112 million for the targeted polio eradication 
efforts of the Centers for Disease Control and Prevention, the same 
level included in the President's fiscal year 2012 request. The funds 
we are seeking will allow CDC to continue intense supplementary 
immunization activities in Asia and to improve the quality of 
immunization campaigns in Africa to interrupt transmission of polio in 
these regions as quickly as possible. These funds will also help 
maintain certification standard surveillance. This will ensure that we 
protect the substantial investment we have made to protect the children 
of the world from this crippling disease by supporting the necessary 
eradication activities to eliminate polio in its final strongholds--in 
South Asia and sub-Saharan Africa.
    The United States' commitment to polio eradication has stimulated 
other countries to increase their support. Other countries that have 
followed America's lead and made special grants for the global Polio 
Eradication Initiative include the United Kingdom ($900.03 million), 
Japan ($418.65 million), Germany ($390.94 million), and Canada ($289.53 
million). Since 2002, the members of the G8 have committed to provide 
sufficient resources to eradicate polio. G8 member states, many of 
which were already leading donors to the Polio Eradication Initiative, 
have encouraged other donors to provide support, and have emphasized 
the importance of polio eradication when meeting with leaders of polio-
endemic countries. As a result, the base of donor nations that have 
contributed to the Global Polio Eradication Initiative has expanded to 
include Spain, Sweden, Saudi Arabia, and even contributions from United 
Arab Emirates, Kuwait, Hungary, and Turkey.
    Endemic nations are also providing funds to support polio 
eradication activities. It is noteworthy that India has provided US$692 
million in funding for polio eradication activities there since 2003 
and Nigeria provided approximately US$61.75 million, and Pakistan has 
provided US$50 million.

                     BENEFITS OF POLIO ERADICATION

    Since 1988, over 5 million people who would otherwise have been 
paralyzed will be walking because they have been immunized against 
polio. Tens of thousands of public health workers have been trained to 
manage massive immunization programs and investigate cases of acute 
flaccid paralysis. Cold chain, transport and communications systems for 
immunization have been strengthened. The global network of 145 
laboratories and trained personnel established for polio eradication 
also tracks measles, rubella, yellow fever, meningitis, and other 
deadly infectious diseases and will do so long after polio is 
eradicated. NIDs for polio have also been used to distribute essential 
vitamin A, thereby saving the lives of over 1.25 million children since 
1988.
    A study published in the November 2010 issue of the journal Vaccine 
estimates that the global polio eradication initiative to eradicate 
polio could provide net benefits of at least $40-50 billion if 
transmission of wild polio viruses is stopped within the next 5 years. 
Polio eradication is a cost-effective public health investment, as its 
benefits accrue forever. On the other hand, more than 10 million 
children will be paralyzed in the next 40 years if the world fails to 
capitalize on the more than $8 billion already invested in eradication. 
Success will ensure that the significant investment made by the United 
States, Rotary International, and many other countries and entities, is 
protected in perpetuity.
                                 ______
                                 
    Prepared Statement of the Ryan White Medical Providers Coalition

Introduction
    I am James Raper, a nurse practioner and Director of the 1917 HIV/
AIDS Outpatient Clinic at the University of Alabama at Birmingham. I am 
submitting written testimony on behalf of the Ryan White Medical 
Providers Coalition.
    Thank you for the opportunity to discuss the important HIV/AIDS 
care conducted at Ryan White Part C funded programs nationwide. 
Specifically, the Ryan White Medical Provider Coalition, the HIV 
Medicine Association, the CAEAR Coalition, and the American Academy of 
HIV Medicine estimate that approximately $407 million is needed to 
provide the standard of care for all Part C program patients. (This 
estimate is based on the current cost of care and the number of 
patients that Part C clinics serve.) Because these are exceptionally 
challenging economic times, we request $272 million for Ryan White Part 
C programs in fiscal year 2012, the amount that Congress authorized for 
Part C programs in its 2009 reauthorization of the Ryan White Program.
    The Ryan White Medical Providers Coalition was formed in 2006 to be 
a voice for medical providers across the Nation delivering quality care 
to their patients through Part C of the Ryan White program. We 
represent every kind of program, from small and rural to large urban 
sites in every region in the country. We speak for those who often 
cannot speak for themselves and we advocate for a full range of primary 
care services for these patients. Sufficient funding for Part C is 
essential to providing appropriate care for individuals living with 
HIV/AIDS.
    Part C of the Ryan White Program funds comprehensive Early 
Intervention Services (EIS) for HIV care and treatment, that are 
directly responsible for the dramatic decreases in AIDS-related 
mortality and morbidity over the last decade. The Centers for Disease 
Control and Prevention estimate that there are more than 1.1 million 
persons living with HIV/AIDS, and approximately 240,000, or almost 1 in 
4, of these individuals received services from Part C medical 
providers--a dramatic 30 percent increase in patients in less than 10 
years.

The Cost of Care Is Reasonable; The Reimbursement for Care Isn't
    On average it costs $3,501 per person per year to provide the 
comprehensive outpatient care and treatment available at Part C funded 
programs (excluding medication costs), including lab work, STD/TB/
Hepatitis screening, ob/gyn care, dental care, mental health and 
substance abuse treatment, and case management. Part C funding covers 
only a small percentage of the total cost of this comprehensive care, 
with some programs receiving $450 (12 percent of the total cost) or 
less per patient per year to cover the cost of care.

Part C Programs Save Both Lives and Money
    Investing in Part C services improves lives and saves money. In the 
United States, nearly 50 percent of persons living with HIV/AIDS who 
are aware of their status are not in continuing care. Early and 
reliable access to HIV care and treatment both helps patients with HIV 
live relatively healthy and productive lives and is more cost 
effective. One study from my Part C Clinic at the University of Alabama 
at Birmingham found that patients treated at the later stages of HIV 
disease required 2.6 times more healthcare dollars than those receiving 
earlier treatment meeting Federal HIV treatment guidelines.

Patient Loads Are Increasing at an Unsustainable Rate
    Patient loads have been increasing at Part C clinics nationwide, 
despite the fact that there has not been significant new Federal 
funding, and in most cases, State and/or local funding has been cut. A 
steady increase in patients has occurred on account of higher diagnosis 
rates and declining insurance coverage resulting in part from the 
economic downturn. The CDC reports that the number of HIV/AIDS cases 
increased by 15 percent from 2004 to 2007 in 34 States.\1\
---------------------------------------------------------------------------
    \1\ Centers for Disease Control and Prevention. HIV/AIDS 
Surveillance Report, 2007. Vol. 19. U.S. Department of Health and Human 
Services, Centers for Disease Control and Prevention; 2009:5. 
www.cdc.gov/hiv/topics/surveillance/resources/reports/.
---------------------------------------------------------------------------
    For example, at a clinic in Greensboro, North Carolina, the number 
of patients has more than doubled from 321 patients in 2002 to more 
than 800 in 2009. The clinic continues to deliver care in the same 
space with the same staffing as in 2002 despite the 250 percent 
increase in patients. In Sonoma County, California, funding became so 
scarce that the Part C clinic there closed its doors, and had to patch 
together new medical homes in other locations for 350 patients. In New 
York, when St. Vincent's Hospital in New York City closed, including 
the HIV/AIDS clinic, a Part C clinic at St. Luke's-Roosevelt Hospital 
had to absorb almost the entire St. Vincent's clinic, approximately 
1,000 patients, over the course of just a few days.
    Our patients struggle in times of plenty, and during this economic 
downturn they have relied on Part C programs more than ever. While 
these programs have been under-funded for years, State and local 
economic pressures are creating a crisis in our communities. Clinics 
are discontinuing primary care and other critical medical services, 
such as laboratory monitoring; suffering eviction from their clinic 
locations; operating only 4 days per week; and laying off staff just to 
get by. Years of nearly flat funding combined with large increases in 
the patient population and the recent economic crisis are negatively 
impacting the ability of Part C providers to serve their patients.
    The following graph demonstrates the growing disparity between 
funding for Part C and the increasing patient population. I refer to 
this gap between funding and patients as the ``Triangle of Misery'' 
because it represents both the thousands of patients who deserve more 
than we can offer and the Part C programs nationwide that are 
struggling to serve them with shrinking resources.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Conclusion
    These are challenging economic times, and we recognize the severe 
fiscal constraints Congress faces in allocating limited Federal 
dollars. The significant financial and patient pressures that we face 
in our clinics at home propel us to make this funding request for 
fiscal year 2012 funding of Ryan White Part C programs. This funding 
would help to support medical providers nationwide in delivering 
appropriate and effective HIV/AIDS care to their patients. As the 
survey below of Part C providers nationwside shows, this Federal 
support is urgently needed.
    Thank you for your time and consideration of our request. If you 
have any questions, please do not hesitate to contact me at the 1917 
HIV/AIDS Outpatient Clinic, University of Alabama at Birmingham, 
Birmingham, Alabama 35294-2050, e-mail at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="02686b6f7063726770427763602c6766772c">[email&#160;protected]</a>

 RWMPC SURVEY: BUDGETARY CONSTRAINTS CONTINUE TO DRIVE CUTBACKS IN HIV 
                                  CARE

    In January 2011, the Ryan White Medical Providers Coalition, which 
represents Ryan White Part C programs nationwide that provide 
comprehensive HIV medical care and treatment, asked members to indicate 
their top three concerns as well as their frontline experiences 
providing HIV care and treatment in the current, constrained economic 
environement. The results of the brief survey included:
  --The top three concerns (in order of importance):
    --Funding cuts/shortfalls
    --Sustaining the Ryan White Program and Part C programs and 
            preparing for health reform
    --Clinic management issues, including:
      -- HIV medical workforce recruitment and retention
      -- Access to medications for patients (including the amount of 
            work that clinics are doing to secure this access now that 
            the ADAP crisis has worsened)
      -- Increasing patient loads and the fact that clinics are 
            reaching the limits of what they can do within their 
            current financial and workforce resources.
  --For those who are worried about funding cuts and shortfalls, 57 
        percent are worried about cuts to Federal funds.
  --More than 56 percent of respondents have made cuts or changes to 
        their programs because of funding cuts or shortfalls (both 
        state and Federal).
  --The types of cuts or changes that have been made include:
    --More than 32 percent of clinics have either reduced or cut the 
            services they provide.
    --21.5 percent have either frozen their hiring or laid off staff
    --13.5 percent have reduced coverage for lab monitoring
    These survey results indicate the need to support and increase the 
investment in Part C programs, a valuable, effective and cost efficient 
resource that provides medical homes to tens of thousands of persons 
with HIV nationwide. Unless Part C programs receive additional funding, 
more services and infrastructure will be lost during this critical time 
period before the implementation of healthcare reform in 2014. Loss of 
such resources and infrastructure would reduce the availability of 
quality HIV care and treatment at just the time when the National HIV/
AIDS Strategy is hoping to increase access to these life-saving 
services.
                                 ______
                                 
            Prepared Statement of the Scleroderma Foundation

            FISCAL YEAR 2012 APPROPRIATIONS RECOMMENDATIONS

    Funding for the National Institutes of Health (NIH) at a level of 
$35 million.
    An increase for the National Institute of Arthritis and 
Musculoskeletal and Skin Diseases (NIAMS) concurrent with the overall 
increase to NIH.
    Committee recommendation encouraging the Centers for Disease 
Control and Prevention to partner with the Scleroderma Foundation in 
promoting increased awareness of scleroderma among the general public 
and healthcare providers.
    Mr. Chairman, I am Cynthia Cervantes, I am 12 and in the ninth 
grade. I live in Southern California and in October 2006 I was 
diagnosed with scleroderma. Scleroderma means ``hard skin'' which is 
literally what scleroderma does and, in my case, also causes my 
internal organs to stiffen and contract. This is called diffuse 
scleroderma. It is a relatively rare disorder effecting only about 
300,000 Americans.
    About 2 years ago I began to experience sudden episodes of 
weakness, my body would ache and my vision was worsening, some days it 
was so bad I could barely get myself out of bed. I was taken to see a 
doctor after my feet became so swollen that calcium began to ooze out. 
It took the doctors (period of time) to figure out exactly what was 
wrong with me, because of how rare scleroderma is.
    There is no known cause for scleroderma, which affects three times 
as many women as men. Generally, women are diagnosed between the ages 
of 25 and 55, but some kids, like me, are affected earlier in life. 
There is no cure for scleroderma, but it is often treated with skin 
softening agents, anti-inflammatory medication, and exposure to heat. 
Sometimes a feeding tube must be used with a scleroderma patient 
because their internal organs contract to a point where they have 
extreme difficulty digesting food.
    The Scleroderma Foundation has been very helpful to me and my 
family. They have provided us with materials to educate my teachers and 
others about my disease. Also, the support groups the foundation helps 
organize are very helpful because they help show me that I can live a 
normal, healthy life, and how to approach those who are curious about 
why I wear gloves, even in hot weather. It really means a lot to me to 
be able to interact with other people in the same situation as me 
because it helps me feel less alone.
    Mr. Chairman, because the causes of scleroderma are currently 
unknown and the disease is so rare, and we have a great deal to learn 
about it in order to be able to effectively treat it. I would like to 
ask you to please significantly increase funding for the National 
Institute of Health so treatments can be found for other people like me 
who suffer from scleroderma. It would also be helpful to start a 
program at the Centers for Disease Control and Prevention to educate 
the public and physicians about scleroderma.

                 OVERVIEW OF THE SCLERODERMA FOUNDATION

    The Scleroderma Foundation is a nonprofit organization based in 
Danvers, Massachusetts with a three-fold mission: support, education, 
and research. The Foundation provides support for people living with 
scleroderma and their families through programs such as peer 
counseling, doctor referrals, and educational information, along with a 
toll-free telephone helpline for patients.
    The Foundation also provides education about the disease to 
patients, families, the medical community, and the general public 
through a variety of awareness programs at both the local and national 
levels. Over $1 million in peer-reviewed research grants are awarded 
annually to institutes and universities to stimulate progress in the 
search for a cause and cure for scleroderma.

                         WHO GETS SCLERODERMA?

    There are many clues that define the susceptibility to develop 
scleroderma. A genetic basis for the disease has been suggested by the 
fact that it is more common among patients whose family members have 
other autoimmune diseases (such as lupus). In rare cases, scleroderma 
runs in families, although for the vast majority of patients there is 
no other family member affected. Some Native Americans and African 
Americans suffer a more severe form of the disease Caucasians. Women 
between the ages of 25-55 are more likely to develop scleroderma.

                         CAUSES OF SCLERODERMA

    The cause of scleroderma is unknown. However, we do understand a 
great deal about the biological processes involved. In localized 
scleroderma, the underlying problem is the overproduction of collagen 
(scar tissue) in the involved areas of skin. In systemic sclerosis, 
there are three processes at work: blood vessel abnormalities, fibrosis 
(which is overproduction of collagen) and immune system dysfunction, or 
autoimmunity.

                                RESEARCH

    Unfortunately, support for scleroderma research at the National 
Institutes of Health over the past several years has been flat funded 
at $19 million since fiscal year 2009, and is again estimated at $19 
million for fiscal year 2012. This absence of increase is extremely 
frustrating to our patients who recognize biomedical research as their 
best hope for a better quality of life. It is also of great concern to 
our researchers who have promising ideas they would like to explore if 
resources were available.

                          TYPES OF SCLERODERMA

    There are two main forms of scleroderma: systemic (systemic 
sclerosis, SSc) that usually affects the internal organs or internal 
systems of the body as well as the skin, and localized that affects a 
local area of skin either in patches (morphea) or in a line down an arm 
or leg (linear scleroderma), or as a line down the forehead 
(scleroderma en coup de sabre). It is very unusual for localized 
scleroderma to develop into the systemic form.

Systemic Sclerosis (SSc)
    There are two major types of systemic sclerosis or SSc: limited 
cutaneous SSc and diffuse cutaneous SSc. In limited SSc, skin 
thickening only involves the hands and forearms, lower legs and feet. 
In diffuse cutaneous disease, the hands, forearms, the upper arms, 
thighs, or trunk are affected.
    People with the diffuse form of SSc are at risk of developing 
pulmonary fibrosis (scar tissue in the lungs that interferes with 
breathing, also called interstitial lung disease), kidney disease, and 
bowel disease. The risk of extensive gut involvement, with slowing of 
the movement or motility of the stomach and bowel, is higher in those 
with diffuse rather than limited SSc. Symptoms include feeling bloated 
after eating, diarrhea or alternating diarrhea and constipation.
    Pulmonary Hypertension (PH) is high blood pressure in the blood 
vessels of the lungs. It is totally independent of the usual blood 
pressure that is taken in the arm. This tends to develop in patients 
with limited SSc after several years of disease. The most common 
symptom is shortness of breath on exertion. However, several tests need 
to be done to determine if PH is the real culprit. There are now many 
medications to treat PH.

Localized Scleroderma
            Morphea
    Morphea consists of patches of thickened skin that can vary from 
half an inch to 6 inches or more in diameter. The patches can be 
lighter or darker than the surrounding skin and thus tend to stand out. 
Morphea, as well as the other forms of localized scleroderma, does not 
affect internal organs.
            Linear scleroderma
    Linear scleroderma consists of a line of thickened skin down an arm 
or leg on one side. The fatty layer under the skin can be lost, so the 
affected limb is thinner than the other one. In growing children, the 
affected arm or leg can be shorter than the other.
            Scleroderma en coup de sabre
    Scleroderma en coup de sabre is a form of linear scleroderma in 
which the line of skin thickening occurs on the forehead or elsewhere 
on the face. In growing children, both linear scleroderma and en coup 
de sabre can result in distortion of the growing limb or lack of 
symmetry of both sides of the face.
                                 ______
                                 
           Prepared Statement of Senior Service America, Inc.

    We urge the subcommittee to restore funding for the Senior 
Community Service Employment Program (SCSEP), currently administered by 
the Department of Labor, to no less than $600 million for fiscal year 
2012. would return funding for this proven and unique Federal 
employment and training program to pre-ARRA levels.
    SCSEP is the only Federal program targeted at assisting low income 
workers over the age of 55 either regain employment or provide minimum 
wage employment through community service in communities across the 
Nation. A restoration of funding for SCSEP to $600 million would 
provide community service employment to an additional 24,000 unemployed 
and low-income older workers and at least 7 million lost staffing hours 
in participants' community service to local government agencies and 
nonprofit organizations meeting basic human needs.
    We estimate that the public return on investment is more than 
double its appropriations level. The value of the community service by 
SCSEP participants would exceed $900 million. In addition to the value 
of the this service, SCSEP produces savings to the Federal Government 
by helping many thousands of vulnerable older adults to avoid becoming 
totally dependent on government transfer payments, including Medicaid, 
Supplemental Security Income, and early receipt of Social Security 
benefits.
    SCSEP's severe cut in fiscal year 2011 will have devastating impact 
on older workers and communities.--Restoring funding in fiscal year 
2012 would lessen the impact of the 45 percent reduction in SCSEP as a 
result of the fiscal year 2011 year-long Continuing Resolution, The cut 
of $375 million from fiscal year 2010 is larger than the WIA core 
funding cut. As a result, during the year starting July 1, 2011, nearly 
50,000 fewer jobless older adults will be employed and almost 35 
million staff hours will be lost by over 30,000 local agencies and 
programs throughout the 50 States. Using tables from the Independent 
Sector, the value of these lost SCSEP community service hours exceeds 
$740 million.
    SCSEP currently supports a wide range of community services and 
local government programs. For example, in 2011 over 1,100 public 
libraries (at least one in every State, most in rural areas) employed 
at least one SCSEP participant in a variety of library-related 
assignments. About one-fourth of all SCSEP community service hours are 
performed in service to other older adults, such as senior centers, 
nutrition, Meals on Wheels, and adult day care centers.
    SCSEP is a unique Federal workforce development program.--According 
to a January 2011 GAO report on multiple employment and training 
programs, SCSEP is one of only three Federal workforce development 
programs that do not overlap with any other program. Since 1998, it is 
the only Federal program targeted to assist older adults return to the 
workforce and serves almost twice the number of adults 55 and over who 
receive training under WIA. Previous research by GAO and others have 
documented that WIA has consistently underserved older jobseekers.
    Older adults, especially those eligible for SCSEP, continue to 
suffer in the current economy. Older workers have been described as the 
``new unemployables'' in a recent report by Rutgers University. The 
current jobless rate for all older workers continues to be lower than 
the rate for all workers, but in 2010 the unemployment rate of older 
adults 55-74 years of age eligible for SCSEP was 23 percent, more than 
three times the national average for all adult workers. Among displaced 
workers 55 and older, the reemployment rate was only 38 percent, the 
lowest of any age group, with those from lower income households and 
with less than a college education faring the worst. Finally, the 
average duration of unemployment among adults 55 and over continued to 
increase in April 2011 to 53.6 weeks, with more than half of all older 
jobseekers out of work for 27 or more weeks, also an increase from the 
prior month. (More information is available from AARP and Senior 
Service America websites.)
    The job market is not likely to improve significantly for most of 
these low-income and disadvantaged older job seekers in the foreseeable 
future. Too many will remain out of work and be forced to sustain 
themselves by becoming totally reliant on government transfers such as 
Medicaid, Supplemental Security Income, and early receipt of Social 
Security income benefits. Many will be highly unlikely to return to the 
labor force. Restoring SCSEP appropriations to pre-ARRA levels is a 
wise investment in a program of demonstrated effectiveness operated by 
a network of proven performers.
    DOL's SCSEP grantee network consistently achieves its performance 
measures.--According to official statistics, in PY2009 the aggregate 
performance of the 18 national grantees and 56 State and territorial 
grantees achieved 98 percent or more of each of the common performance 
measures established for the program by DOL. For example, the grantee 
network achieved a 46.2 percent Entered Employment Rate (compared to 
the goal of 47 percent established by DOL); 70 percent Retention (68 
percent goal); and $6,900 6 month earnings ($6,229 goal). For 
comparison, the Entered Employment Rate achieved was 48.1 percent in 
PY2008 and 52.4 percent in PY2007.
    In addition, ratings by SCSEP participants and participating host 
agencies using the American Customer Satisfaction Index have been 
consistently higher for SCSEP than for WIA. In PY2009, participants 
gave SCSEP an ACSI score of 82.7 and host agencies gave a score of 
81.3. Additional information from these independent national surveys:
SCSEP Participants (number of respondents=24,358)
    ACSI score of 82.7 (about the same as prior year's score)
    Nearly 92 percent of respondents reported that, compared to the 
time before they entered SCSEP, their physical health is the same or 
better, 73 percent reported that their outlook on life is a little more 
positive or much more positive.
    Participants were in moderate to strong agreement (7.9 on a scale 
of 1 to 10) with the statement that their community service wages have 
made a substantial improvement in their quality of life.
SCSEP Host Agencies (number of respondents=10,567)
    ACSI score of 81.3 (nearly identical to prior year's score)
    75 percent indicated that participation in SCSEP increased their 
ability to provide services to the community either ``somewhat'' or 
``significantly.''
    The impact of the fiscal year 2011 cuts to SCSEP will be felt in 
every State. For example:
    Impact on Iowa: Loss of nearly $5 million in SCSEP funding and over 
$7 million in services.
    During fiscal year 2010, about 490 local programs in 153 Iowa towns 
and cities hosted at least one SCSEP participant, including: 171 local 
and State government agencies; 71 programs serving older adults, 
including at least 20 senior centers; 36 schools and post-secondary 
institutions; 31 workforce development offices; 24 public libraries and 
11 museums; and 10 community action agencies.

----------------------------------------------------------------------------------------------------------------
                                                             Current fiscal     Final fiscal
                                                                year 2010         year 2011          Impact
                                                             appropriations     funding level
----------------------------------------------------------------------------------------------------------------
Funding Allocation for Iowa (all SCSEP grantees)..........     $10.5 million      $5.6 million     -$4.9 million
Number of Participants in Paid Community Service               1,520 persons       880 persons      -640 persons
 Employment in Iowa.......................................
Number of SCSEP Hours Serving Iowa Communities............     944,700 hours     507,700 hours    -437,000 hours
Value of SCSEP Hours Serving Iowa Communities @$16.77/hour     $15.8 million      $8.5 million     -$7.3 million
 (www.independentsector.org/volunteer_time)...............
----------------------------------------------------------------------------------------------------------------

    The U.S. Department of Labor awards SCSEP funding for Iowa to the 
AARP Foundation, Experience Works, Senior Service America, Inc., and 
the Iowa Dept. on Aging. Local agencies in Iowa that operate SCSEP are 
Community Action Agency of Siouxland, Generations Area Agency on Aging, 
Hawkeye Area Community Action Program, and West Central Community 
Action.
    Impact on Alabama: A loss of $6.4 million in SCSEP funding and $10 
million in services.
    During fiscal year 2010, more than 600 local government and 
nonprofit programs hosted at least one SCSEP participant, including:
  --Nearly 300 local government agencies and programs, including 35 
        libraries and 31 senior centers, and
  --More than 220 nonprofit organizations, including the American Red 
        Cross, Boys and Girls Clubs, and Chambers of Commerce.
    Starting July 1, 2011, the fiscal year 2011 cut in SCSEP funding 
will mean over 800 fewer job opportunities and 568,000 fewer community 
service hours to Alabama agencies (valued at least $10 million, 
according to tables provided by the Independent Sector).

----------------------------------------------------------------------------------------------------------------
                                                             Current fiscal     Final fiscal
                                                                year 2010         year 2011          Impact
                                                             appropriations     funding level
----------------------------------------------------------------------------------------------------------------
Funding Allocation for Alabama (all SCSEP grantees).......     $14.5 million      $8.1 million     -$6.4 million
Number of Participants in Paid Community Service               2,090 persons     1,280 persons      -810 persons
 Employment in Alabama....................................
Number of SCSEP Hours Serving Alabama Communities.........    1,302,000 hrs.      734,000 hrs.     -568,000 hrs.
Value of SCSEP Hours Serving Iowa Communities @$17.70/hour       $23 million       $13 million      -$10 million
 (www.independentsector.org/volunteer_time)...............
----------------------------------------------------------------------------------------------------------------

    The U.S. Department of Labor provides SCSEP funding to the Alabama 
Department of Senior Services, Easter Seals, and Senior Service 
America, Inc.
    The following local government agencies in Alabama receive SCSEP 
funding: Alabama-Tombigbee Regional Commission, East Alabama Regional 
Planning and Development Commission, Jefferson County Commission, 
Middle Alabama Area Agency on Aging, North-central Alabama Regional 
Council of Governments, Northwest Alabama Council of Local Governments, 
South Central Alabama Development Commission, Southeast Alabama 
Regional Planning and Development Commission, Top of Alabama Regional 
Council of Governments, and West Alabama Regional Commission.

Summary
    We recognize that these are challenging times for the Subcommittee 
and difficult funding decisions must be made. A partial restoration of 
SCSEP funding to $600 million will ensure that an additional 24,000 of 
the hardest to reemploy, low income older workers will be able to 
provide an additional 7 million hours in service to communities across 
the Nation, with a return on investment double the appropriations 
provided to SCSEP. Thank you for considering this funding request.
About Senior Service America, Inc.
    Senior Service America, Inc. (SSAI) has been awarded a national 
SCSEP grant from DOL since 1968, including competitive grants in 2003 
and 2006. As the third largest national grantee, SSAI operates SCSEP 
exclusively through subgrants to 81 local organizations that serve 430 
counties in 16 States. Its diverse network of subgrantees includes 25 
area agencies on aging, 11 community action agencies, 10 regional 
councils of government, 13 workforce development agencies, eight faith-
based organizations, two community colleges, and one local United Way.
    For more information, please visit www.seniorserviceamerica.org. or 
contact Tony Sarmiento, Executive Director, at 301-578-8469, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fc888f9d8e919599928893bc8f8f9dd195d2938e9b">[email&#160;protected]</a>,
                                 ______
                                 
  Prepared Statement of the Sickle Cell Disease Association of America

    Mr. Chairman and distinguished Members of the Subcommittee, my name 
is Sonja L. Banks. I was recently elected President and Chief Operating 
Officer of the Sickle Cell Disease Association of America, Inc (SCDAA). 
Since 1971, SCDAA has served as the Nation's only volunteer 
organization working full time on a national level to resolve issues 
surrounding sickle cell disease. We have grown to approximately 55 
community-based member organizations focused on serving the needs of 
individuals with Sickle Cell Disease or Sickle Cell Trait, their 
families, and over 300 communities nationwide and in Canada.
    On behalf of the organization, I am honored to submit this 
testimony to your Subcommittee as a public witness in conjunction with 
your consideration of fiscal year 2012 Appropriations legislation.
    SCDAA respectfully urges the Subcommittee to support President 
Obama's continuation of funding for the Sickle Cell Anemia 
Demonstration Program, and the Registry and Surveillance System for 
Hemoglobinopathy and Hemoglobinopathy Program Initiative. We also urge 
the Subcommittee to restore funding to the Sickle Cell Disease and 
Newborn Screening Program, a crucial program to fulfilling Secretary 
Kathleen Sebelius' charge to the Department of Health and Human 
Services (HHS) to make SCD a priority area of focus.
    SCD is an inherited blood disorder that is a major problem in the 
United States. An estimated 72,000 Americans live with the disease. 
More than 2.5 million Americans have the Sickle Cell Trait (SCT), 
including 1 in 12 African Americans. The average life span of an adult 
with SCD is only 45 years.
    Common complications include early childhood death from infection, 
stroke in young children and adults, infection of the lungs similar to 
pneumonia, pulmonary hypertension, chronic damage to organs such as the 
kidney resulting in chronic kidney failure, and frequent severe painful 
episodes. These unpredictable, intermittent, devastating pain events 
can begin as early as six months of age and can span a lifetime, 
impacting school and work attendance.
    As the Nation addresses issues associated with healthcare reform, a 
real and rare opportunity exists to support, a population in dire need 
of treatment and care through innovative research and improved care.
    First, we respectfully request that the Subcommittee provide 
$4,740,000 for the Sickle Cell Anemia Demonstration Program and Data 
Coordination Center. In fiscal year 2011, the Program received an 
appropriation of $4,750,000, and for fiscal year 2012 the President's 
budget recommends $4,740,000. Funding this national program will 
improve the lives of SCD patients through disease management programs 
to help them live longer, healthier lives while supporting research 
toward a comprehensive cure and providing community education about 
this disease and its treatment options.
    Second, we respectfully request that the Subcommittee include 
$20,165,000 for the Public Health Approach to Blood Disorders Program. 
The President's fiscal year 2012 budget request consolidates existing 
budget sub-lines into one line called ``Public Health Approach to Blood 
Disorders.'' As part of this coordinated effort, a Hemoglobinopathy 
Data Center will operate surveillance and registry program entitled 
RuSH (Registry and Surveillance System for Hemoglobinopathies) in seven 
States for 2 years.
    The RuSH health data systems will provide researchers, policy 
makers, and the public with imperative information about SCD and SCD-
related diseases that is currently unavailable. The lack of this type 
of data system for Sickle-Cell-related diseases limits the research and 
treatment communities' ability to fully understand the impact of the 
disease and to develop healthcare planning at the local, State, and 
national levels. Additionally, funding also will support a multi-agency 
collaboration to form an HHS Hemoglobinopathy Program Initiative to 
offer more effective care and lower societal and medical costs for 
individuals affected by blood disorders such as SCD.
    Finally, we respectfully request that the Subcommittee restore 
$3,774,000 for the Sickle Cell Disease and Newborn Screening Program 
(SCD-NBS). Unfortunately, the President has proposed to eliminate this 
program in fiscal year 2012. On the other hand, Secretary Sebelius has 
launched an SCD initiative aimed at increasing access to and improving 
care. We believe that continuing the SCD-NBS program is critical to the 
initiative's goal, and invaluable to families and individuals suffering 
from this debilitating disease.
    The SCD-NBS Program provides a continuity of medical services, 
education and counseling from birth to adulthood for persons afflicted 
with Sickle Cell Disease and Sickle Cell Trait. Since 2002, the project 
has supported a National Coordinating and Evaluation Center and 17 
community-based demonstration sites across the country. Because of 
changes in the eligibility requirements for demonstration sites due 
next month, we also ask that report language be included in the fiscal 
year 2012 Subcommittee bill to direct the Program's funding to 
community-based or faith-based organizations involved with Sickle Cell 
Disease.
    Thank you for considering these requests. We look forward to 
working with the Senate Appropriations Subcommittee on Labor, Health, 
and Education to fund these three critical programs that will help 
African Americans and other historically underserved children and 
families with Sickle Cell Disease live longer and healthier lives.
                                 ______
                                 
     Prepared Statement of the Society for Maternal-Fetal Medicine

    Mr. Chairman and Members of the Committee: The Society for 
Maternal-Fetal Medicine is pleased to have the opportunity to submit 
testimony on behalf of the fiscal year 2012 budget for the Eunice 
Kennedy Shriver National Institute of Child Health and Human 
Development (NICHD). We urge the Committee, as you move forward with 
your deliberations on the fiscal year 2012 budget for the National 
Institutes of Health (NIH), to keep in mind the enormous lost 
opportunities that the NIH, and in particular the NICHD, will 
experience if the level of funding is not sustained.
    Established in 1977, the Society for Maternal-Fetal Medicine (SMFM) 
is dedicated to improving maternal and child outcomes; and raising the 
standards of prevention, diagnosis, and treatment of maternal and fetal 
disease.
    Maternal-fetal medicine specialists, also known as MFM specialists, 
perinatologists, and high-risk pregnancy physicians, are highly trained 
obstetrician/gynecologists with advanced expertise in obstetric, 
medical, and surgical complications of pregnancy and their effects on 
the mother and fetus.
    The most common medical illnesses managed by MFM's include 
hypertension, diabetes, seizure disorders, autoimmune diseases, and 
blood clotting disorders. We also provide care for women who are at 
increased risk for preterm birth, including multiple gestations, women 
with cervical insufficiency who may require a surgery to prevent 
preterm birth, and women with placental problems such as bleeding from 
premature separation. In addition, MFM specialists are often 
responsible for the management of preterm labor, premature rupture of 
membranes, and other complications during labor that have the potential 
to impact newborn and long-term infant outcomes.
    The special problems faced by these mothers may lead to death, 
short-term or in some cases life-long problems for their babies. For 
example:
  --Pre-term birth (birth before the fetus is at 37 weeks' 
        gestation).--Over half a million children are born preterm each 
        year. Preterm infants are at high risk for a variety of 
        disorders, including mental retardation, cerebral palsy, and 
        vision impairment. These infants are also at risk for long-term 
        health issues, including cardiovascular disease (heart attack, 
        stroke, and high blood pressure) and diabetes. The annual cost 
        to society (medical, educational, and lost productivity) of 
        preterm birth is at least $26 billion (in 2005 dollars).
  --Hypertension.--High blood pressure during pregnancy endangers the 
        health of both the mother and the baby and is increasingly 
        common as women delay pregnancy until they are older, and as 
        they are more frequently overweight. Chronic hypertension 
        complicating pregnancy is associated with a risk of fetal 
        growth restriction and a risk of preterm birth. Hypertension in 
        pregnancy is also the second leading cause of maternal death in 
        the United States.
  --Diabetes.--The hormonal changes of pregnancy often bring about a 
        diabetic state (gestational diabetes) in predisposed women or 
        can seriously worsen preexisting diabetes. Whether diabetes 
        mellitus existed before conception or gestational diabetes 
        develops during pregnancy, maternal glucose intolerance can 
        have significant medical consequences. Poorly controlled 
        diabetes is associated with miscarriage, congenital 
        malformations, abnormal fetal growth, stillbirth, obstructed 
        labor, increased cesarean delivery, and neonatal complications.
    NICHD's commitment to basic, clinical and translational research 
has lead to new ways to treat and improve the health of pregnant women 
and infants. One of the most successful approaches for testing research 
questions is the NICHD Maternal-Fetal Medicine Units (MFMU) Network 
which allows researchers from across the country to coordinate clinical 
studies to improve maternal, fetal and neonatal health. The studies to 
date have not only identified new therapies and evaluated technologies 
used in maternal fetal medicine, but also have helped to abolish 
practices that are not useful.
  --Researchers supported through the MFMU were responsible for the 
        groundbreaking finding related to preterm birth and 
        progesterone. Following a series of studies in the 1970s and 
        1980s, a national clinical trial showed that progesterone 
        treatment resulted in a substantial reduction in the rate of 
        preterm delivery among women who had a previous preterm birth, 
        reduced the risk of newborn complications, and was effective in 
        both African American and Non-African American women. This 
        preventive therapy has been translated into practice. The drug 
        was widely available through compounding pharmacies at a cost 
        of $15-$30 per injection or $300 for a 20 week treatment 
        course. However, in February 2011 the FDA granted KV 
        Pharmaceutical orphan status for its drug named Makena, a 
        manufactured version of the identical compound drug. After 
        which, KV Pharmaceutical increased the price of the drug to 
        $1,500 per injection, and later reduced it to $690 per 
        injection. (SMFM is actively engaged in efforts to ensure that 
        this medication is accessible and affordable to every pregnant 
        woman who is at risk for recurrent preterm birth.)
  --Until recently, there was no evidence to show whether treating the 
        mild form of gestational diabetes benefited or posed risks for 
        mothers and infants. A recent Network study found women who 
        were treated for mild gestational diabetes were half as likely 
        to have an unusually large baby, and their babies were half as 
        likely to experience shoulder dystocia, an emergency condition 
        in which the baby's shoulder becomes lodged inside the mother's 
        body during birth. Treated women in the study also had fewer 
        caesarean deliveries. In addition, they had fewer problems with 
        hypertension and preeclampsia, a life-threatening complication 
        of pregnancy that can lead to maternal seizures and death. 
        Research supported by the MFMU provided the first conclusive 
        evidence that treating pregnant women who have even the mildest 
        form of gestational diabetes can reduce the risk of common 
        birth complications among infants, as well as blood pressure 
        disorders among mothers. These findings will change clinical 
        practice.
  --Recent research conducted by the network found that antenatal 
        magnesium sulfate, when administered to women at risk of 
        delivering preterm, reduces the risk of cerebral palsy in 
        surviving preterm infants by 45 percent. This finding has been 
        translated into clinical practice.
      Cerebral palsy refers to a group of neurological disorders 
        affecting control of movement and posture and which limit 
        activity. The brain may be injured or develop abnormally during 
        pregnancy, birth or in early childhood. The causes of cerebral 
        palsy are not well understood. Both economically and 
        emotionally, the burden of cerebral palsy is enormous. The 
        Centers for Disease Control and Prevention (CDC) estimates the 
        lifetime costs including direct medical, direct non-medical, 
        and indirect for all people born with cerebral palsy in 2000 to 
        be $11.5 billion (in 2003 dollars).
    Research that disproves a current therapy or treatment can also 
provide valuable guidance to clinicians and their patients.
  --Translational research in the 1990s found that the use of 
        corticosteroids in pregnancies at risk of preterm birth 
        improved the outcomes for infants born preterm, reducing rates 
        of breathing problems, bleeding into the brain, and problems 
        with the intestines. However, NICHD sponsored research that 
        evaluated the use of repeated doses of corticosteroids found 
        that repeated doses resulted in smaller birth weights and head 
        circumstances. Researchers also found a concerning increase in 
        cerebral palsy in children who were exposed to four or more 
        courses of corticosteroids. This study, along with an NIH 
        Consensus Development Conference to pull together all available 
        data, stopped the routine use of repeated courses of antenatal 
        corticosteroids.
    NICHD is at the forefront of several novel and important research 
areas, but there are still many areas about maternal health, pregnancy, 
fetal well-being, labor and delivery and the developing child that are 
not close to being understood. The challenges of the NICHD to 
investigate these problems remain. For example:
  --Preterm Birth and Stillbirth.--Preterm birth and stillbirth 
        represent two of the most important complications of pregnancy. 
        Prevention of preterm birth and stillbirth depends on 
        identifying women at risk and understanding the mechanisms of 
        disease. It is imperative that NICHD take advantage of high 
        throughput technologies to understand the causes of preterm 
        birth and stillbirth and support genomics, proteomics, and 
        metabolomics studies focusing on prediction and prevention of 
        preterm birth and stillbirth, as well as the use of existing 
        biobanks. The promise of these new technologies is that a 
        better understanding of the biologic processes involved in 
        pregnancy and pregnancy complications will lead to improved 
        prediction, prevention, and treatment strategies that will 
        improve maternal and infant health.
  --Severe, Early Adverse Pregnancy Outcomes.--Women with severe, early 
        adverse pregnancy outcome, such as multiple losses, demises, 
        and severe preeclampsia, are at increased risk for long-term 
        chronic health problems, including hypertension, stroke, 
        diabetes, and obesity. Studies have shown that women who have 
        had preeclampsia are more likely to develop chronic 
        hypertension, to die from cardiovascular disease and to require 
        cardiac surgery later in life. In addition, approximately 50 
        percent of women with gestational diabetes will develop 
        diabetes later in life. Studies to identify women at risk for 
        long term morbidity, and to develop strategies to prevent long 
        term adverse outcomes in these women are urgently needed.
  --Maternal Fetal Medicine Units Network.--Vigorous support of the 
        MFMU Network is needed so that therapies and preventive 
        strategies that have significant impact on the health of 
        mothers and their babies will not be delayed. Until new options 
        are created for identifying those at risk and developing cause 
        specific interventions, preterm birth will remain one of the 
        most pressing problems in obstetrics.
    SMFM applauds NICHD efforts to move forward with the development of 
a scientific vision process for the Institute that will set an 
ambitious agenda and inspire the Institute, the research community, and 
its many partners to achieve critical scientific goals and meet 
pressing public health needs.
    Mr. Chairman, we understand the budgetary constraints that are 
facing the Congress, but as providers of care for women with high-risk 
pregnancies we have seen emerging technologies that have provided 
greater opportunity to evaluate and treat the complicated problems 
involving the mother and fetus. Without a sustained investment in the 
critical medical research being conducted by the National Institutes of 
Health, and the National Institute of Child Health and Human 
Development in particular, the health of pregnant women and their 
babies will be at risk and NICHD's mission of promoting healthy 
development throughout the lifespan will be hindered.

Recommendation
    The Society for Maternal-Fetal Medicine joins with the Ad Hoc Group 
for Medical Research in urging the Committee to provide an 
appropriation of $35 billion in fiscal year 2012 for the National 
Institutes of Health.
    The Society joins with the Friends of the National Institute of 
Child Health and Human Development in support of a fiscal year 2012 
budget of $1.352 billion for the National Institute of Child Health and 
Human Development.
    Thank you for the opportunity to submit our concerns to the 
Committee.
                                 ______
                                 
           Prepared Statement of the Society for Neuroscience

Introduction
    Mr. Chairman and Members of the Subcommittee, my name is Susan 
Amara, Ph.D. I am the Thomas Detre Professor of Neuroscience and Chair 
of the Department of Neurobiology as well as Co-Director of the Center 
for Neuroscience at the University of Pittsburgh and President of the 
Society for Neuroscience. My major research efforts have been focused 
on the structure, physiology, and pharmacology of a group of proteins 
in the brain that are the primary targets for addictive drugs including 
cocaine and amphetamines, for the class of therapeutic antidepressants, 
known as reuptake inhibitors, and for methylphenidate, which is used to 
treat attention deficit hyperactivity disorders.
    On behalf of the more than 41,000 members of the Society for 
Neuroscience (SfN) and myself, I would like to thank you for your past 
support of neuroscience research at the National Institutes of Health 
(NIH). Over the past century, researchers have made tremendous progress 
in understanding cell biology, physiology, and chemistry of the brain. 
Research funded by NIH has made it possible to make advances in brain 
development, imaging, genomics, circuit function, computational 
neuroscience, neural engineering and many other disciplines. In this 
testimony, I will highlight how these advances have benefited taxpayers 
and why we should continue to strengthen this investment, even as the 
Nation makes difficult budget choices.

Fiscal Year 2012 Budget Request
    The Society respectfully requests that Congress provide a fiscal 
year 2012 appropriation in the amount of $35 billion for NIH. This 
level of funding will enable the field to serve the long-term needs of 
the Nation by continuing to improve health for the benefit of the 
American people and the world, advance science, and promote America's 
near-term and long-range economic strength. This level will build on 
the research activities supported under prior year appropriations, 
enabling neuroscience-related NIH institutions to aggressively fund 
strategic plans that will significantly advance the understanding of 
the brain and the nervous system. In so doing, these investments will 
contribute to economic growth in hundreds of communities nationwide, as 
more than 83 percent of NIH funding is distributed to more than 3,000 
institutions in communities in every State. Moreover, it will help 
preserve and expand America's role as leader in biomedical research, 
which fosters a wide range of private enterprises in the 
pharmaceutical, biotechnology, medical device, hospitality industries 
as well as many others.
    SfN hopes that such an appropriation will be the first step on the 
path to providing a consistent and reliable long-term investment in the 
NIH and in particular the field neuroscience. This will ensure that 
there is not a dramatic drop in research activity or a loss of jobs, 
and serve as an inducement to keeping our young researchers in the 
training pipeline.

What is the Society for Neuroscience
    SfN is a nonprofit membership organization of basic scientists and 
physicians who study the brain and nervous system. The SfN mission is 
to:
  --Advance the understanding of the brain and the nervous system by 
        bringing together scientists of diverse backgrounds, by 
        facilitating the integration of research directed at all levels 
        of biological organization, and by encouraging translational 
        research and the application of new scientific knowledge to 
        develop improved disease treatments and cures.
  --Provide professional development activities, information and 
        educational resources for neuroscientists at all stages of 
        their careers, including undergraduates, graduates, and 
        postdoctoral fellows, and increase participation of scientists 
        from a diversity of cultural and ethnic backgrounds.
  --Promote public information and general education about the nature 
        of scientific discovery and the results and implications of the 
        latest neuroscience research. Support active and continuing 
        discussions on ethical issues relating to the conduct and 
        outcomes of neuroscience research.
  --Inform legislators and other policymakers about new scientific 
        knowledge and recent developments in neuroscience research and 
        their implications for public policy, societal benefit, and 
        continued scientific progress.

What is Neuroscience?
    Neuroscience is the study of the nervous system. It advances the 
understanding of human function on every level: movement, thought, 
emotion, behavior, and much more. Neuroscientists use tools ranging 
from computers to special dyes to examine molecules, nerve cells, 
networks, brain system, and behavior. From these studies, they learn 
how the nervous system develops and functions normally and what goes 
wrong in neurological and psychiatric disorders.
    Neuroscience is now a unified field that integrates biology, 
chemistry, and physics with studies of structure, physiology, and 
behavior, including human emotional and cognitive functions. 
Neuroscience research includes genes and other molecules that are the 
basis for the nervous system, individual neurons, and ensembles of 
neurons that make up systems and behavior. Through their research, 
neuroscientists work to demonstrate normal functions of the brain and 
determine how the nervous system develops, matures, and maintains 
itself through life. They seek to prevent or cure many devastating 
neurological and psychiatric disorders.
    As the committee works to set funding levels for critical research 
initiatives for fiscal year 2012 and beyond we need to do more than 
establish a budget that is ``workable'' in the context of the current 
fiscal situation. We ask you to help establish a national commitment to 
advance the understanding of the brain and the nervous system--an 
effort that has the potential to transform the lives of thousands of 
people living with brain-based diseases and disorders. Help us to 
fulfill our commitment to overcoming the most difficult obstacles 
impeding progress, and to identifying critical new directions in basic 
neuroscience.

Brain Research and Discoveries
    The power of basic science unlocks the mysteries of the human body 
by exploring the structure and function of molecules, genes, cells, 
systems, and complex behaviors. Every day, neuroscientists are 
advancing scientific knowledge and medical innovation by expanding our 
knowledge of the basic makeup of the human brain. In doing so, 
researchers exploit these findings and identify new applications that 
foster scientific discovery which can lead to new and ground-breaking 
medical treatments. Basic research funded by the National Institutes of 
Health continues to be essential to ensuring discoveries that will 
inspire scientific pursuit and medical progress for future generations. 
The funds provided in the past have helped neuroscientists make 
tremendous strides in diagnosing and treating neurological and 
psychiatric disorders. Due to federally funded research, scientists and 
healthcare providers now have a much better understanding of how the 
brain functions.
    As we look ahead to the long-term trajectory for NIH funding, 
steady, sustainable growth is essential to maintaining a continuous 
research pipeline that spans from basic science to clinical outcomes. 
Without a long-term sustainable plan for investing in research, 
dramatic swings in the funding cycle have a stifling, often 
irreversible impact on progress, shutting down laboratories, driving 
away talented young investigators and disillusioning students who have 
just discovered a passion for biomedical research. As support declines, 
gaps emerge between levels of funding and the need for scientific 
advance. There are two kinds of gap--the ones you see and the ones you 
don't. In times of limited resources, it is easier to deal 
strategically with the gaps you know. For example, with an aging 
population it makes sense to maintain support for research on 
Alzheimer's and other chronic neurodegenerative diseases. But it's the 
gaps we are unaware of that I also worry about. We know from past 
experience that it is not always clear where the next critical 
breakthrough or innovative approach will come from--progress in science 
depends on imaginative curiosity-driven research that makes leaps in 
ways no one could have anticipated. Where would neuroscience and cell 
biology be without a rainbow of fluorescent proteins from jellyfish, 
which are now illuminating neurological diseases and disorders? Where 
would cutting edge work in systems neuroscience be today without 
research on channel rhodopsins from algae, which now hold promise for 
novel, noninvasive treatments for brain disorders? When resources are 
limited, balancing support for high-risk high-payoff ideas with 
disease-driven translational research presents a huge challenge--it is 
easy to see why the latter is important, yet ultimately both kinds of 
research have the potential to contribute to the development of life 
changing therapies and cures for different diseases. More than ever is 
it important to support and fund research at many levels from the most 
basic to translational. The following are just two of the many basic 
research success stories in neuroscience research emerging now thanks 
to strong historic investment in NIH and other research agencies:
            Nicotine Addiction
    Although tobacco has been used legally for hundreds of years, 
nicotine addiction takes effect through pathways similar to those 
involving cocaine and heroin. During addiction, drugs activate brain 
areas that are typically involved in the motivation for other 
pleasurable rewards such as eating or drinking. These addictions leave 
the body with a strong chemical dependence that is very hard to get 
over. In fact, almost 80 percent of smokers who try to quit fail within 
their first year. The lack of a reliable cessation technique has 
profound consequences. Tobacco-related illnesses kill as many as 
440,000 Americans every year, and thus the human and economic costs of 
nicotine addiction are staggering. One out of every five U.S. deaths is 
related to smoking.
    Past Federal funding has enabled scientists to understand the 
mechanisms of nicotine addiction, enabling them develop successful 
treatments for smoking cessation. The discoveries that lead to these 
findings started back in the 1970's, when scientists identified the 
substance in the brain that nicotine acted on to transmit its 
pleasurable effects. They found that nicotine was hijacking a receptor, 
a protein used by the brain to transmit information. This receptor, 
called the nicotinic acetylcholine receptor, regulates the release of 
another key transmitter, dopamine, which in turn acts within reward 
circuits of the brain to mediate both the positive sensations and 
eventual addiction triggered by nicotine consumption. This knowledge 
has been the basis for the development of several therapeutic 
strategies for smoking cessation: nicotine replacement, drugs that 
target nicotine receptors, as well as drugs that prevent the reuptake 
of dopamine have all been shown to increase the long-term odds of 
quitting by several fold.
    More recently, using mice genetically modified to have their 
nicotinic acetylcholine receptors contain one specific type of subunit, 
scientists determined that some kinds of receptor subunits are more 
sensitive to nicotine than others, and because each subunit is 
generated from its own gene, this discovery indicated that genetics can 
influence how vulnerable a person is to nicotine addiction. Further 
research to spot genetic risk factors and to generate genetically 
tailored treatment options is ongoing. Other studies are also testing 
whether a vaccine that blocks nicotine's effects can help discourage 
the habit. Since people who are able to quit smoking immediately lower 
their risk for certain cancers, heart disease and stroke, reliable and 
successful treatments are clearly needed. Today's continued research 
funding can make it possible for these emerging therapies to ultimately 
help people overcome the challenges of nicotine addiction.
            Brain-machine interface
    The brain is in constant communication with the body in order to 
perform every minute motion from scratching an itch to walking. 
Paralysis occurs when the link between the brain and a part of the body 
is severed, and eliminates the control of movement and the perception 
of feeling in that area. Almost 2 percent of the U.S. population is 
affected by some sort of paralysis resulting from stroke, spinal cord 
or brain injury as well as many other causes. Previous research has 
focused on understanding the mechanisms by which the brain controls a 
movement. Research during which scientists were able to record the 
electrical communication of almost 50 nerve cells at once showed that 
multiple brain cells work together to direct complex behaviors. 
However, in order to use this information to restore motor function, 
scientists needed a way to translate the signals that neurons give into 
a language that an artificial device could understand and convert to 
movement.
    Basic science research in mice lead to the discovery that thinking 
of a motion activated nerve cells in the same way that actually making 
the movement would. Further studies showed that a monkey could learn to 
control the activity of a neuron, indicating that people could learn to 
control brain signals necessary for the operation of robotic devices. 
Thanks to these successes, brain-controlled prosthetics are being 
tested for human use. Surgical implants in the brain can guide a 
machine to perform various motor tasks such as picking up a glass of 
water. These advances, while small, are a huge improvement for people 
suffering from paralysis. Scientists hope to eventually broaden the 
abilities of such devises to include thought-controlled speech and 
more. Further research is also needed to develop non-invasive 
interfaces for human-machine communication, which would reduce the risk 
of infection and tissue damage. Understanding how neurons control 
movement has had and will continue to have profound implications for 
victims of paralysis.
    A common theme of both these examples of basic research success 
stories is that they required the efforts of basic science researchers 
discovering new knowledge, of physician scientists capable adapting 
those discoveries into better treatments for their patients and of 
companies willing to build on all of this knowledge to develop new 
medications and devices.

The future of American science
    Finally, as the subcommittee considers this year's funding levels 
and in future years, I hope that the members will consider that 
significant advancements in the biomedical sciences often come from 
younger investigators who bring new insights and approaches to bear on 
old or intractable problems. Without sustained investment, I fear that 
flat or falling funding will begin to take a toll on the imagination, 
energy and resilience of younger investigators and I wonder about the 
impact of these events on the next generation. America's scientific 
enterprise--and its global leadership--has been built over generations, 
but without sustained investment, we could lose that leadership 
quickly, and it will be difficult to rebuild. When we undermine a 
research enterprise--whether a single lab or a national infrastructure 
built through decades of Federal funding--it is a loss to us all and 
difficult to recover. In the United States--traditionally a pacesetter 
for strong investment--threatened cuts in science funding jeopardize a 
global training system that fosters and encourages scientific 
creativity, flexibility, and enterprise. As a young girl interested in 
science, I was inspired by the idea that the United States was a place 
where anyone with imagination, drive, and a passion for research could 
come, learn, and potentially do something great. Without funding, that 
culture of entrepreneurship and curiosity--driven research could be 
hindered for decades.

Conclusion
    We live at a time of extraordinary opportunity in neuroscience. 
When I read an exciting research article, I get a sense of awe and 
pride at the extraordinary progress in our field. A myriad of questions 
once impossible to consider are now within reach as a consequence of 
new technologies, an ever-expanding knowledge base, and a willingness 
to embrace many disciplines.
    As a result of NIH investments, the field of neuroscience research 
holds great potential for making great progress to understand basic 
biological principles and for addressing the numerous neurological and 
psychiatric illnesses that strike more than 100 million Americans 
annually. And we have entered an era in which knowledge of nerve cell 
function has brought us to the threshold of a more profound 
understanding of behavior and of the mysteries of the human mind. 
However, continued progress can only be accomplished by a consistent 
and reliable funding source.
    An NIH appropriation of $35 billion for fiscal year 2012 and 
sustained reliable growth is required to take the research to the next 
level in order to improve the health of Americans and to maintain 
American leadership in science worldwide. As a field we look forward to 
realizing that goal. Thank you for this opportunity to testify.
                                 ______
                                 
     Prepared Statement of the Society for Women's Health Research

    The Society for Women's health Research (SWHR) and the Women's 
Health Research Coalition (WHRC), is pleased to have the opportunity to 
submit the following testimony in support of ongoing Federal funding 
for biomedical research--specifically sex differences and total women's 
health research--within the Department of Health and Human Services 
(HHS) at the National Institutes of Health (NIH), Centers for Disease 
Control and Prevention (CDC), and the Agency for Healthcare and 
Research Quality (AHRQ).
    SWHR and WHRC believe that sustained funding for biomedical and 
women's health research programs conducted and supported across the 
Federal agencies is absolutely essential if the United States is going 
to meet the health needs of women and men. A well-designed and 
appropriately funded Federal research agenda does more than avoid 
dangerous and expensive ``trial and error'' medicine for patients--it 
advances the Nation's research capability, continues growth in a sector 
with proven return on investment, and takes a proactive approach to 
maintaining America's position as world-wide leader in medical 
research, education, and development.
    SWHR and WHRC believe that sustained funding for biomedical and 
women's health research programs conducted and supported across the 
Federal agencies is absolutely essential if the United States is to 
meet the health needs of women, and men, and advance the nation's 
research capability.
    As President Obama stated in his State of the Union Address, 
investment in biomedical research ``will strengthen our security, 
protect our planet, and create countless new jobs for our people''. 
Proper investment in health research will save valuable dollars that 
are currently wasted on inappropriate treatments and procedures. 
Further, SWHR and WHRC want targeted research into sex differences that 
will help in determining targeted treatments that will help women and 
men to receive quality appropriate care.

National Institutes of Health
    Past Congressional investment for the NIH positioned the United 
States as the world's leader in biomedical research and has provided a 
direct and significant impact on women's health research and the 
careers of women scientists over the last decade. In recent years, that 
investment has declined along with America's place as the Number 1 in 
biomedical research. These two facts are interrelated. Cutting NIH 
funding threatens scientific advancement, substantially delays cures 
becoming available in the United States, and puts the innovative 
research practices and reputation that America is known for in 
jeopardy.
    When faced with budget cuts, NIH is left with no other option but 
to reduce the number of grants it is able to fund. The number of new 
grants funded by NIH had dropped steadily with declining budgets, 
growing at a percent less than that of inflation since fiscal year 
2003. Cuts to investments in biomedical research also negatively impact 
the economy. A shrinking pool of available grants has a significant 
impact on scientists who depend upon NIH support to cover both salaries 
and laboratory expenses to conduct high quality biomedical research, 
putting both medical advancement and job creation at risk. More than 83 
percent of NIH funding is spent in communities across the Nation, 
creating jobs at more than 3,000 universities, medical schools, 
teaching hospitals, and other research institutions in every State.
    Reducing the number of grants available to researchers further 
decreases publishing of new findings and decreases the number of 
scientists gaining experience in research, both reducing a scientist's 
likelihood of achieving tenure in a university setting. New and less 
established researchers are forced to consider other careers, or take 
positions outside the United States, and results in the loss of the 
skilled bench scientists and researchers so desperately needed to 
sustain America's cutting edge in biomedical research.
    While the U.S. deficit requires careful consideration of all 
funding and investments, cutting relatively small discretionary funding 
within the NIH budget will not make a substantial impact on the 
deficit, but will drastically hamper the ability of the United States 
to remain the global leader in biomedical research. SWHR and WHRC 
recommend that Congress set, at a minimum, a budget that matches the 
administration's request for a $1 billion increase for NIH for fiscal 
year 2012.
            Study of Sex Differences
    It has only been within the past decade that scientists have begun 
to uncover the significant biological and physiological differences 
between women and men and its impact health and medicine. Sex-based 
biology, the study of biological and physiological differences between 
women and men, has revolutionized the way that the scientific community 
views the sexes. Sex differences play an important role in disease 
susceptibility, prevalence, time of onset and severity and are evident 
in cancer, obesity, heart disease, immune dysfunction, mental health 
disorders, and many other illnesses. Medications can have different 
effects in woman and men, based on sex specific differences in 
absorption, distribution, metabolism and elimination. It is imperative 
that research addressing these important differences be supported and 
encouraged.
    SWHR recommends that NIH, with the funds provided, report sex/
gender differences in all research findings. Further, NIH should seek 
to expand its inclusion of women in basic, clinical and medical 
research to Phase I, II, and III studies. By currently only mandating 
sufficient female subjects in Phase III, researchers often miss out on 
the chance to look for variability by sex in the early phases of 
research, where scientists look at treatment safety and determine safe 
and effective dose levels for new medications. By mandating that sex 
differences research occur in earlier phases of clinical research 
studies, the NIH can continue to serve as a role model for industry 
research, as well as other nations. Only by gaining more information on 
how therapies work in women will medicine be able to advance toward 
more targeted and effective treatments for all patients, women and men 
alike.

Office of Research on Women's Health
    The NIH's Office of Research on Women's Health (ORWH) serves as the 
focal point for coordinating women's health and sex differences 
research at NIH, advising the NIH Director on matters relating to 
research on women's health and sex differences research, strengthening 
and enhancing research related to diseases, disorders, and conditions 
that affect women; working to ensure that women are appropriately 
represented in research studies supported by NIH; and developing 
opportunities for and support of recruitment, retention, re-entry and 
advancement of women in biomedical careers. In September 2010, ORWH 
celebrated its 20th anniversary and unveiled a new strategic plan for 
women's health and sex difference research, Moving Into The Future With 
Dimensions and Strategies: A Vision For 2020 For Women's Health 
Research.
            BIRCWH and SCOR
    The Building Interdisciplinary Research Careers in Women's Health 
(BIRCWH) and Specialized Centers of Research on Sex and Gender Factors 
Affecting Women's Health (SCOR) are two ORWH programs that benefit the 
health of both women and men through sex and gender research, 
interdisciplinary scientific collaboration, and provide tremendously 
important support for young investigators in a mentored environment.
    The BIRCWH program, created in 2000, is an innovative, trans-NIH 
career development program that provides protected research time for 
junior faculty by pairing them with senior investigators in an 
interdisciplinary mentored environment. Each BIRCWH receives 
approximately $500,000 a year, most from the ORWH budget. To date, 407 
scholars have been trained in 41 centers, and 80 percent of those 
scholars are female. The BIRCWH centers have produced over 1,300 
publications, 750 abstracts, 200 NIH grants and 85 awards from industry 
and institutional sources.
    SCORs, established in 2003, are designed to increase innovative, 
interdisciplinary research focusing on sex differences and major 
medical problems that affect women through centers that facilitate 
basic, clinical, and translational research. Each SCOR program results 
in unique research and in 2010, resulted in over 150 published journal 
articles, 214 abstracts and presentations and 44 other publications.
    Additionally, ORWH has created several additional programs to 
advance the science of sex differences research and research into 
women's health. The Advancing Novel Science in Women's Health Research 
(ANSWHR) program, created in 2007, promotes innovative new concepts and 
interdisciplinary research in women's health research and sex/gender 
differences. The Research Enhancement Awards Program (REAP) supports 
meritorious research on women's health that otherwise would have missed 
the IC pay line.
    In addition to its funding of research on women's health and sex 
differences research, ORWH has established several methods for 
dissemination information about women's health and sex differences 
research. ORWH created the Women's Health Resources web portal in 
collaboration (http://www.womenshealthresources.nlm.nih.gov) with that 
National Library of Medicine, to serve as a resource for researchers 
and consumers on the latest topics in women's health and uses social 
media to connect the public to health awareness campaigns.
    To allow ORWH's programs and research grants to continue make their 
impact on research and the public, Congress must direct that NIH 
continue its support of ORWH and provide it with $1 million budget 
increase, bringing its fiscal year 2012 total to $43.9 million.
Health and Human Services' Office of Women's Health
    The HHS Office of Women's Health (OWH) is the Government's champion 
and focal point for women's health issues. It works to redress 
inequities in research, healthcare services, and education that have 
historically placed the health of women at risk. Without OWH's actions, 
the task of translating research into practice would be only more 
difficult and delayed.
    Under HHS, the agencies currently with offices, advisors or 
coordinators for women's health or women's health research include the 
Food and Drug Administration, Centers for Disease Control and 
Prevention, Agency for Healthcare Quality and Research, Indian Health 
Service, Substance Abuse and Mental Health Services Administration, 
Health Resources and Services Administration, and Centers for Medicare 
and Medicaid Services. It is imperative that these offices are funded 
at levels which are adequate for them to perform their assigned 
missions, and are sustainable so as to support needed changes in the 
long term. We ask that the committee report reflect Congress's support 
for these Federal women's health offices, and recommend that they are 
appropriately funded on a permanent basis to ensure that these programs 
can continue and be strengthened in the coming fiscal year.
    It is only through consistent funding that the OWH will be able to 
achieve its goals. The budgets for theses offices have been flat-lined 
in recent years, which results in effectively a net decrease due to 
inflation. Considering the impact of women's health programs from OWH 
on the public, we urge Congress to provide an increase of $1 million 
for the HHS OWH, a total $34.7 million requested for fiscal year 2012.
            Centers for Disease Control and Prevention
    SWHR supports the national and international work of the CDC, 
especially the work of CDC's Office of Women's Health (OWH). While SWHR 
is delighted that the CDC's OWH is now codified in statue, we are 
concerned that proposed cuts to the CDC budget by the administration 
will significantly jeopardize programs that benefit women, leaving them 
with even fewer options for sound clinical information. Research and 
clinical medicine are still catching up from decades of a male-centric 
focus, and when diseases strike women, there remains a paucity of basic 
knowledge on how diseases affect female biology, a lack of drugs that 
have been adequately tested in women, and now even fewer options for 
information through the many educational outreach programs of the CDC.
    The OWH within CDC is fundamental to promoting and improving the 
health, safety, and quality of life of women across their lifespan. The 
office led the CDC in the collaboration and development of text4baby, 
which sends free text messages on health and pregnancy issues, to 
pregnant women and new moms. In the year since its launch, over 135,000 
subscribers have signed up for the service and millions of text 
messages have been sent. More than 300 outreach partners, including 
national, State, business, academic, nonprofit, and other groups, help 
to promote the service.
    With its small budget, the OWH actively participated with others in 
CDC, HHS, and the State Department in the early development of the 
Global Health Initiative, and routinely collaborates with other 
agencies to advance the knowledge and research into women's health 
issues. This year, OWH worked closely with HHS OWH on the development 
of the Action Agenda on Women's Health: Beyond 2010 and with NIH on the 
development of the research conference on Advances in Uterine 
Leiomyoma. SWHR and WHRC recommend that Congress provide the CDC OWH 
with a 1.06 percent increase for fiscal year 2012, bringing their total 
to $478,000.
            Agency for Healthcare and Research Quality
    The Agency for Healthcare Research and Quality's work serves as a 
catalyst for change by promoting the results of research findings and 
incorporating those findings into improvements in the delivery and 
financing of healthcare. Through AHRQ's research projects, lives have 
been saved. For example, it was AHRQ who first discovered that women 
treated in emergency rooms are less likely to receive life-saving 
medication for a heart attack. AHRQ funded the development of two 
software tools, now standard features on hospital electrocardiograph 
machines, which have improved diagnostic accuracy and dramatically 
increased the timely use of ``clot-dissolving'' medications in women 
having heart attacks. As efforts to improve the quality of care, not 
just the quantity of care, progress, findings such as these coming out 
of AHRQ reveal where relatively modest investments can offer 
significant improvement to women's health outcomes, as well as a better 
return on investment for scarce healthcare dollars.
    While AHRQ has made great strides in women's health research, its 
budget has been dismally funded for years, though targeted funding 
increases in recent years for dedicated projects, including funds from 
the American Recovery and Reinvestment Act (ARRA), moved AHRQ in the 
right direction. ARRA funds more than doubled AHRQ's investment in 
patient-centered research relevant to women. AHRQ is now supporting 
studies that examining comparative effectiveness in diabetes and breast 
cancer prevention in women, and comprehensive care for adults with 
serious mental illness.
    With the ARRA funds, total investment in women's health increased 
from $52 million to $109 million, however, more core and sustained 
funding is needed to help AHRQ continue doing the research that helps 
patients and doctors make better medical decisions. Lack of investment 
in AHRQ will hinder advancements that will improve medical 
decisionmaking of doctors and patients and will result in improved 
health outcomes. Any decreased level of funding seriously jeopardizes 
the research and quality improvement programs that Congress mandates 
from AHRQ.
    SWHR and WHRC recommend Congress fund AHRQ at $405 million for 
fiscal year 2012, an increase 2 percent over 2010 enacted levels. This 
investment ensures that adequate resources are available for high 
priority research, including women's healthcare, sex- and gender-based 
analyses, and health disparities--valuable information that can help to 
better personalize treatments, lower overall medical spending, and 
improve outcomes for female and male patients nationwide.
    In conclusion, Mr. Chairman, we thank you and this Committee for 
its strong record of support for medical and health services research 
and its commitment to the health of the Nation through its support of 
peer-reviewed research. We look forward to continuing to work with you 
to build a healthier future for all Americans.
                                 ______
                                 
           Prepared Statement of the Spina Bifida Association

Background and Overview
    On behalf of the estimated 166,000 individuals and their families 
who are affected by all forms of Spina Bifida--the Nation's most 
common, permanently disabling birth defect--Spina Bifida Association 
(SBA) appreciates the opportunity to submit public written testimony 
for the record regarding fiscal year 2012 funding for the National 
Spina Bifida Program and other related Spina Bifida initiatives. SBA is 
a national voluntary health agency, working on behalf of people with 
Spina Bifida and their families through education, advocacy, research 
and service. SBA stands ready to work with Members of Congress and 
other stakeholders to ensure our Nation mounts and sustains a 
comprehensive effort to reduce and prevent suffering from Spina Bifida.
    Spina Bifida, a neural tube defect (NTD), occurs when the spinal 
cord fails to close properly within the first few weeks of pregnancy 
and most often before the mother knows that she is pregnant. Over the 
course of the pregnancy--as the fetus grows--the spinal cord is exposed 
to the amniotic fluid, which increasingly becomes toxic. It is believed 
that the exposure of the spinal cord to the toxic amniotic fluid erodes 
the spine and results in Spina Bifida. There are varying forms of Spina 
Bifida occurring from mild--with little or no noticeable disability--to 
severe--with limited movement and function. In addition, within each 
different form of Spina Bifida the effects can vary widely. 
Unfortunately, the most severe form of Spina Bifida occurs in 96 
percent of children born with this birth defect.
    The result of this NTD is that most people with it suffer from a 
host of physical, psychological, and educational challenges--including 
paralysis, developmental delay, numerous surgeries, and living with a 
shunt in their skulls, which seeks to ameliorate their condition by 
helping to relieve cranial pressure associated with spinal fluid that 
does not flow properly. As we have testified previously, the good news 
is that after decades of poor prognoses and short life expectancy, 
children with Spina Bifida are now living into adulthood and 
increasingly into their advanced years. These gains in longevity, 
principally, are due to breakthroughs in research, combined with 
improvements generally in healthcare and treatment. However, with this 
extended life expectancy, our Nation and people with Spina Bifida now 
face new challenges, such as transitioning from pediatric to adult 
healthcare providers, education, job training, independent living, 
healthcare for secondary conditions, and aging concerns, among others. 
Individuals and families affected by Spina Bifida face many 
challenges--physical, emotional, and financial. Fortunately, with the 
creation of the National Spina Bifida Program in 2003, individuals and 
families affected by Spina Bifida now have a national resource that 
provides them with the support, information, and assistance they need 
and deserve.
    As is discussed below, the daily consumption of 400 micrograms of 
folic acid by women of childbearing age, prior to becoming pregnant and 
throughout the first trimester of pregnancy, can help reduce the 
incidence of Spina Bifida, by up to 70 percent. The Centers for Disease 
Control and Prevention (CDC) calculates that there are approximately 
3,000 NTD births each year, of which an estimated 1,500 are Spina 
Bifida, and, as such, with the aging of the Spina Bifida population and 
a steady number of affected births annually, the Nation must take 
additional steps to ensure that all individuals living with this 
complex birth defect can live full, healthy, and productive lives.

Cost of Spina Bifida
    It is important to note that the lifetime costs associated with a 
typical case of Spina Bifida--including medical care, special 
education, therapy services, and loss of earnings--are as much as $1 
million. The total societal cost of Spina Bifida is estimated to exceed 
$750 million per year, with just the Social Security Administration 
payments to individuals with Spina Bifida exceeding $82 million per 
year. Moreover, tens of millions of dollars are spent on medical care 
paid for by the Medicaid and Medicare programs. Efforts to reduce and 
prevent suffering from Spina Bifida will help to not only save money, 
but will also save--and improve--lives.

Improving Quality-of-Life through the National Spina Bifida Program
    Since 2001, SBA has worked with Members of Congress and staff at 
the CDC to help improve our Nation's efforts to prevent Spina Bifida 
and diminish suffering--and enhance quality-of-life--for those 
currently living with this condition. With appropriate, affordable, and 
high-quality medical, physical, and emotional care, most people born 
with Spina Bifida will likely have a normal or near normal life 
expectancy. The CDC's National Spina Bifida Program works on two 
critical levels--to reduce and prevent Spina Bifida incidence and 
morbidity and to improve quality-of-life for those living with Spina 
Bifida.
    The National Spina Bifida Program established the National Spina 
Bifida Resource Center housed at the SBA, which provides information 
and support to help ensure that individuals, families, and other 
caregivers, such as health professionals, have the most up-to-date 
information about effective interventions for the myriad primary and 
secondary conditions associated with Spina Bifida. Among many other 
activities, the program helps individuals with Spina Bifida and their 
families learn how to treat and prevent secondary health problems, such 
as bladder and bowel control difficulties, learning disabilities, 
depression, latex allergies, obesity, skin breakdown, and social and 
sexual issues. Children with Spina Bifida often have learning 
disabilities and may have difficulty with paying attention, expressing 
or understanding language, and grasping reading and math. All of these 
problems can be treated or prevented, but only if those affected by 
Spina Bifida--and their caregivers--are properly educated and given the 
skills and information they need to maintain the highest level of 
health and well-being possible. The National Spina Bifida Program's 
secondary prevention activities represent a tangible quality-of-life 
difference to the estimated 166,000 individuals living with all forms 
of Spina Bifida, with the goal being living well with Spina Bifida.
    An important resource to better determine best clinical practices 
and the most cost effective treatments for Spina Bifida is the National 
Spina Bifida Registry, now in its third year. Nine sites throughout the 
Nation are collecting patient data, which supports the creation of 
quality measures and will assist in improving clinical research that 
will truly save lives, while also realizing a significant cost savings.
    SBA understands that the Congress and the Nation face unprecedented 
budgetary challenges. However, the progress being made by the National 
Spina Bifida Program must be sustained to ensure that people with Spina 
Bifida--over the course of their lifespan--have the support and access 
to quality care they need and deserve. To that end, SBA respectfully 
urges the Subcommittee to Congress allocate $6.25 million (level 
funding) in fiscal year 2012 to the program, so it can continue and 
expand its current scope of work; further develop the National Spina 
Bifida Patient Registry; and sustain the National Spina Bifida Resource 
Center. Sustaining funding for the National Spina Bifida Program will 
help ensure that our Nation continues to mount a comprehensive effort 
to prevent and reduce suffering from--and the costs of--Spina Bifida.

Preventing Spina Bifida
    While the exact cause of Spina Bifida is unknown, over the last 
decade, medical research has confirmed a link between a woman's folate 
level before pregnancy and the occurrence of Spina Bifida. Sixty-five 
million women of child-bearing age are at-risk of having a child born 
with Spina Bifida. As mentioned above, the daily consumption of 400 
micrograms of folic acid prior to becoming pregnant and throughout the 
first trimester of pregnancy can help reduce the incidence of Spina 
Bifida, by up to 70 percent. There are few public health challenges 
that our nation can tackle and conquer by nearly three-fourths in such 
a straightforward fashion. However, we must still be concerned with 
addressing the 30 percent of Spina Bifida cases that cannot be 
prevented by folic acid consumption, as well as ensuring that all women 
of childbearing age--particularly those most at-risk for a Spina Bifida 
pregnancy--consume adequate amounts of folic acid prior to becoming 
pregnant.
    Since 1968, the CDC has led the Nation in monitoring birth defects 
and developmental disabilities, linking these health outcomes with 
maternal and/or environmental factors that increase risk, and 
identifying effective means of reducing such risks. The good news is 
that progress has been made in convincing women of the importance of 
folic acid consumption and the need to maintain a diet rich in folic 
acid. This public health success should be celebrated, but still too 
many women of childbearing age consume inadequate daily amounts of 
folic acid prior to becoming pregnant, and too many pregnancies are 
still affected by this devastating birth defect. The Nation's public 
education campaign around folic acid consumption must be enhanced and 
broadened to reach segments of the population that have yet to heed 
this call--such an investment will help ensure that as many cases of 
Spina Bifida can be prevented as possible.
    The goal is to increase awareness of the benefits of folic acid, 
particularly for those at elevated risk of having a baby with neural 
tube defects (those who have Spina Bifida themselves, or those who have 
already conceived a baby with Spina Bifida). With continued funding in 
fiscal year 2012, CDC's folic acid awareness activities could be 
expanded to reach the broader population in need of these public health 
education, health promotion, and disease prevention messages. SBA 
advocates that Congress provide adequate funding to CDC to allow for a 
targeted public health education and awareness focus on at-risk 
populations (e.g., Hispanic-Latino communities) and health 
professionals who can help disseminate information about the importance 
of folic acid consumption among women of childbearing age.
    In addition to a $6.25 million fiscal year 2012 allocation for the 
National Spina Bifida Program, SBA urges the Subcommittee to provide 
$5.126 million for the CDC's national folic acid education and 
promotion efforts to support the prevention of Spina Bifida and other 
NTD; $26.342 million to strengthen the CDC's National Birth Defects 
Prevention Network; and $144 million to fund the National Center on 
Birth Defects and Developmental Disabilities.

Improving Health Care for Individuals with Spina Bifida
    As you know, Agency for Health Research and Quality's (AHRQ) 
mission is to improve the outcomes and quality of healthcare, reduce 
healthcare costs, improve patient safety, decrease medical errors, and 
broaden access to essential health services. AHRQ's work is vital to 
the evaluation of new treatments, which helps ensure that individuals 
living with Spina Bifida continue to receive state-of-the-art care and 
interventions. To that end, we request a $405 million fiscal year 2012 
allocation for AHRQ, to help improve quality of care and outcomes for 
people with Spina Bifida.

Sustain and Seize Spina Bifida Research Opportunities
    Our Nation has benefited immensely from our past Federal investment 
in biomedical research at the NIH. SBA joins with other in the public 
health and research community in advocating that NIH receive increased 
funding in fiscal year 2012. This funding will support applied and 
basic biomedical, psychosocial, educational, and rehabilitative 
research to improve the understanding of the etiology, prevention, cure 
and treatment of Spina Bifida and its related conditions. In addition, 
SBA respectfully requests that the Subcommittee include the following 
language in the report accompanying the fiscal year 2012 L-HHS 
appropriations measure:
    ``The Committee encourages NIDDK, NICHD, and NINDS to study the 
causes and care of the neurogenic bladder in order to improve the 
quality of life of children and adults with Spina Bifida; to support 
research to address issues related to the treatment and management of 
Spina Bifida and associated secondary conditions, such as 
hydrocephalus; and to invest in understanding the myriad co-morbid 
conditions experienced by children with Spina Bifida, including those 
associated with both paralysis and developmental delay.''

Conclusion
    Please know that SBA stands ready to work with the Subcommittee and 
other Members of Congress to advance policies and programs that will 
reduce and prevent suffering from Spina Bifida. Again, we thank you for 
the opportunity to present our views regarding fiscal year 2012 funding 
for programs that will improve the quality-of-life for the estimated 
166,000 Americans and their families living with all forms of Spina 
Bifida.
                                 ______
                                 
                Prepared Statement of The AIDS Institute

    The AIDS Institute, a national public policy research, advocacy, 
and education organization, is pleased to comment in support of 
critical HIV/AIDS and Hepatitis programs as part of the fiscal year 
2012 Labor, Health and Human Services, Education and Related Agencies 
appropriation measure. We thank you for your past support of these 
programs and hope you will do your best to adequately fund them in the 
future in order to provide for and protect the public health.

                                HIV/AIDS

    HIV/AIDS remains one of the world's worst health pandemics in 
history. According to the CDC, over 617,000 people have died of AIDS in 
the United States and there are 56,300 new infections each year. At the 
end of 2007, an estimated 1.1 million people in the United States were 
living with HIV/AIDS. Persons of minority races and ethnicities are 
disproportionately affected. African Americans account for half of the 
cases. HIV/AIDS disproportionately affects the poor and about 70 
percent of those infected rely on publicly funded healthcare.
    The vast majority of the discretionary programs supporting HIV/AIDS 
efforts domestically are funded through your Subcommittee. The AIDS 
Institute, working in coalition, has developed funding requests for 
each of these programs. We ask that you do your best to adequately fund 
them at the requested level.
    We are keenly aware of budget constraints and competing interests 
for limited dollars, but programs that prevent and treat HIV are 
inherently Federal, as they help protect the public health against a 
highly infectious virus, which if left untreated will most likely lead 
to death and increased infections. Federal funding is particularly 
critical at this time since State and local budgets are being severely 
cut during the economic downturn.

National HIV/AIDS Strategy
    President Obama released a comprehensive National HIV/AIDS Strategy 
(NHAS) which seeks to reduce new HIV infections, increase access to 
care and improving health outcomes for people living with HIV, and 
reduce HIV-related health disparities. The Strategy sets ambitious 
goals and seeks a more coordinated national response with a focus on 
those communities most affected and on programs that work. In order to 
attain the goals, additional investment will be needed and health 
reform must be implemented.
    The budget proposed by the President requests that up to 1 percent 
of HHS discretionary funds appropriated for domestic HIV/AIDS 
activities be provided to the Office of the Assistant Secretary for 
Health to foster collaborations across HHS agencies and finance high 
priority initiatives in support of the NHAS. Such initiatives would 
focus on improving linkages between prevention and care, coordinating 
Federal resources within targeted high-risk populations, enhancing 
provider capacity, and monitoring key Strategy targets. The AIDS 
Institute supports this provision and encourages you to include it in 
the fiscal year 2012 appropriation measure.

Centers for Disease Control and Prevention--HIV Prevention and 
        Surveillance
Fiscal year 2011--$800.4 million
Fiscal year 2012 community request--$1,325.7 million

    The United Staes allocates only about 4 percent of its domestic 
HIV/AIDS spending on prevention. Investing in prevention today will 
save money tomorrow. Preventing all the new 56,000 cases in just one 
year would translate into an astounding $20 billion in lifetime medical 
costs.
    The CDC is focused on carrying out several goals of the NHAS by 
2015. Specifically, they are seeking to lower the annual number of new 
infections by 25 percent, reduce the HIV transmission rate by 30 
percent, and increase from 79 to 90 the percentage of people living 
with HIV who know their serostatus.
    While it is estimated that an increase of over $500 million would 
be needed to achieve the goals of the NHAS, The AIDS Institute supports 
an increase of at least the $57.2 million over fiscal year 2011 as the 
President has proposed, including $30.4 million from the Prevention and 
Public Health Fund. We are also supportive of a transfer of $40 million 
from the Chronic Disease Prevention and Public Health Promotion for HIV 
school health programs to achieve closer coordination of CDC's HIV 
prevention programs.
    With this funding, the CDC would improve surveillance and use of 
community viral load, enhance prevention among most affected 
communities, integrate care and prevention, expand HIV testing and 
linkage to care, build capacity, develop social marketing campaigns, 
and improve monitoring.
Ryan White HIV/AIDS Programs
Fiscal year 2011--$2,336.7 million
Fiscal year 2012 community request--$2,687.0 million

    The centerpiece of the Government's response to caring and treating 
low-income people with HIV/AIDS is the Ryan White HIV/AIDS Program, 
which currently serves over half a million low-income, uninsured, and 
underinsured people. In fiscal year 2011, almost all parts of the 
Program experienced funding cuts at a time of increased need and 
demands on the program. Consider the following:
  --Caseloads are increasing. People are living longer due to 
        lifesaving medications, there are over 56,000 new infections 
        each year, and increased testing programs identify thousands of 
        new people infected with HIV. With rising unemployment, people 
        are losing their employer-sponsored health coverage.
  --State and local budgets are experiencing cutbacks due to the 
        economic downturn. A survey by the National Alliance of State 
        and Territorial AIDS Directors found that State funding 
        reductions totaled more than $170 million in 29 States during 
        fiscal year 2009.
  --States are cutting and the Federal Government is proposing massive 
        cuts to Medicaid. As the payer of last resort cuts to 
        entitlement programs, such as Medicaid, place further pressure 
        on the Ryan White Program.
  --There are significant numbers of people in the United States who 
        are not receiving life-saving AIDS medications. An IOM report 
        concluded that 233,069 people in the United States who know 
        their HIV status do not have continuous access to Highly Active 
        Antiretroviral Therapy.
    Specifically, The AIDS Institute requests the following funding 
levels for each part of the Program:
    Part A provides medical care and vital support services for persons 
living with HIV/AIDS in the metropolitan areas most affected by HIV/
AIDS. We request an increase of $74.2 million, for a total of $752 
million.
    Part B base provides essential services including diagnostic, viral 
load testing and viral resistance monitoring, and HIV care to all 50 
States, District of Columbia, Puerto Rico, and the territories. We are 
requesting a $76.8 million increase, for a total of $495 million.
    The AIDS Drug Assistance Program (ADAP) provides life-saving HIV 
drug treatment to over 200,000 people, or about one in four HIV 
positive people in care in the United States. The majority of whom are 
people of color and very poor. ADAPs are experiencing unprecedented 
growth and are in crisis. Over the course of 1 year, HRSA reported an 
increase of over 30,000 new people to the program. Because of a lack of 
funding, there are currently 8,100 people in 13 States on waiting 
lists, thousands more have been removed from the program due to lowered 
eligibility requirements, and drug formularies have been reduced.
    According to NASTAD's recent annual ADAP monitoring report, State 
funding for ADAPs increased 61 percent in fiscal year 2009 to a total 
of $346 million, and drug company rebates grew 5 percent to $522 
million. The Federal share of the overall ADAP budget has decreased to 
less than 50 percent.
    The AIDS Institute is very appreciative of the $50 million increase 
to ADAP in fiscal year 2011, but it is far from what is currently 
required to meet the growing number of new people needing ADAP 
medications in the coming year. The true need is an increase of $360 
million. The AIDS Institute requests that you provide an increase that 
is as close as possible to that amount. We note the President has 
requested an increase of $55 million, which would only provide 
medications to fewer than 4,800 people.
    Part C provides early medical intervention and other supportive 
services to over 248,000 people at over 380 directly funded clinics. We 
are requesting a $66.6 million increase, for a total of $272 million.
    Part D provides care to over 84,000 women, children, youth, and 
families living with and affected by HIV/AIDS. We are requesting a $5.8 
million increase, for a total of $83.1 million.
    Part F includes the AIDS Education and Training Centers (AETCs) 
program and the Dental Reimbursement program. We are requesting a $15.4 
million increase for the AETC program, for a total of $50 million, and 
a $5.5 million increase for the Dental Reimbursement program, for a 
total of $19 million.
National Institutes of Health--AIDS Research
Fiscal year 2011--$3.07 billion
Fiscal year 2012 community request--$3.5 billion

    The NIH conducts research to better understand HIV and its 
complicated mutations, discover new drug treatments, develop a vaccine 
and other prevention programs such as microbicides, and ultimately 
develop a cure. The critically important work performed by the NIH not 
only benefits those in the United States, but the entire world. This 
research has already helped in the development of many highly effective 
new drug treatments, prolonging the lives of millions of people. NIH 
also conducts the necessary behavioral research to learn how HIV can be 
prevented best in various affected communities. We ask the Committee to 
fund critical AIDS research at the community requested level of $3.5 
billion.

Comprehensive Sexuality Education
    Since the vast majority of HIV infection occurs through sex, age 
appropriate education on how HIV is transmitted and HIV prevention is 
critical. It is for this reason, The AIDS Institute is supportive of 
funding the Teen Pregnancy Prevention Initiative for a total of $135 
million and we oppose funding of abstinence only education programs, 
which have proven not to be effective.

Minority AIDS Initiative
    The AIDS Institute supports increased funding for the Minority AIDS 
Initiative, which is funded by numerous Federal agencies to address the 
disproportionate impact that HIV has on communities of color. For 
fiscal year 2012, we are requesting a total of $610 million.

Policy Riders
    The AIDS Institute is opposed to using the appropriations process 
as a vehicle to repeal or prevent the implementation of current law or 
ban funding for certain activities or organizations, such as the 
Affordable Care Act and syringe exchange programs which are 
scientifically proven to be effective in the prevention of HIV and 
Hepatitis.

                            VIRAL HEPATITIS

    The Institute of Medicine (IOM) report Hepatitis and Liver Cancer: 
A National Strategy for Prevention and Control of Hepatitis B and C 
outlines recommendations on how the incidence of Hepatitis B and C 
infections can be decreased. They include increased public awareness 
campaigns, heightened testing and vaccination programs, continued 
research, along with improved surveillance. The Administration recently 
announced the first ever national strategy to eliminate Viral 
Hepatitis.
    In fiscal year 2011, Congress funded CDC's Viral Hepatitis Division 
at only $19.8 million. Given the huge impact that Hepatitis B and C 
have on the health of so many people, and the large treatment costs, 
and to begin to implement the IOM recommendations and the national 
strategy, The AIDS Institute urges the Federal Government to make a 
greater commitment to Hepatitis prevention. For fiscal year 2012, we 
request a total of $59.8 million.
    The AIDS Institute asks that you give great weight to our testimony 
as you develop the fiscal year 2012 appropriation bill. Should you have 
any questions or comments, feel free to contact Carl Schmid, Deputy 
Executive Director, The AIDS Institute or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0e6d7d6d6663676a4e7a666b6f676a7d67607d7a677a7b7a6b20617c6920">[email&#160;protected]</a>
    Thank you very much.
                                 ______
                                 
              Prepared Statement of The Endocrine Society

    The Endocrine Society is pleased to submit the following testimony 
regarding fiscal year 2012 Federal appropriations for biomedical 
research, with an emphasis on appropriations for the National 
Institutes of Health (NIH). The Endocrine Society is the world's 
largest and most active professional organization of endocrinologists 
representing more than 14,000 members worldwide. Our organization is 
dedicated to promoting excellence in research, education, and clinical 
practice in the field of endocrinology. The Society's membership 
includes thousands of scientists and clinicians who receive Federal 
support for their research and, in turn, contribute greatly to the 
Nation's scientific and healthcare advances.
    A half century of sustained investment by the United States Federal 
Government in biomedical research has dramatically advanced the health 
and improved the lives of the American people. The NIH specifically has 
had a significant impact on the United State's global preeminence in 
research and fostered the development of a biomedical research 
enterprise that is unrivaled throughout the world. As the world's 
largest supporter of biomedical research, the NIH competitively awards 
extramural grants and supports in-house research. However, with the 
continued decline in real dollars allocated to biomedical research each 
year by the Federal Government, the opportunities to discover life-
changing cures and treatments have already begun to decrease.
    Biomedical research funds allocated by the Federal government 
support both basic and translational research, ensuring that the 
discoveries made in the laboratory become realistic treatment options 
for patients suffering from debilitating and life-threatening diseases. 
Diabetes is a devastating condition that affects an increasingly large 
number of Americans and requires a large proportion of the Nation's 
healthcare spending. Almost 26 million people (8.3 percent of the U.S. 
population) have diabetes, and the estimated cost of diabetes was $174 
billion in 2007.\1\
---------------------------------------------------------------------------
    \1\ Centers for Disease Control and Prevention. National Diabetes 
Fact Sheet, 2011.
---------------------------------------------------------------------------
    No new diabetes medications would have been developed without 
federally supported basic and clinical research. The discovery of 
insulin and the collaborative research effort of basic and clinical 
scientists eventually led to the approval of a new class of medications 
for diabetes, essentially the first new treatments of diabetes in the 
past 80 years. Without the continued support of both basic and clinical 
research in diabetes, these medications would have never been 
developed. Now, with this broadened portfolio of treatments, it is 
possible to help most people with diabetes achieve optimal blood sugar 
control.
    Beyond the multitude of health benefits that result from NIH-funded 
research, national and local economies benefit from the dollars that 
flow out of NIH into the communities. Researchers in all 50 States and 
90 percent of congressional districts receive funding from NIH, and 
these funds stimulate local economies through salaries and purchase of 
equipment, laboratory supplies, and vendor services. For instance, for 
each dollar of taxpayer investment, UCLA generates almost $15 in 
economic activity, resulting in a $9.3 billion impact on the Los 
Angeles region. The estimated economic impact of Baylor on the 
surrounding community in Houston is more than $358 million, generating 
more than 3,300 jobs.\2\ The governors of 25 States acknowledged the 
economic impact that NIH-funded research has on their States in an 
April 2010 letter to House and Senate Budget Committee members. The 
letter states,

    \2\ Federation of American Societies for Experimental Biology. NIH 
Advocacy Slides: California, Texas.
---------------------------------------------------------------------------
    ``During a time of recession, investment in biomedical research 
makes sense because it leads to cures and treatments for debilitating 
diseases while at the same time generating significant economic 
activity for local communities throughout the country.''

    The Endocrine Society remains deeply concerned about the future of 
biomedical research in the United States without sustained support from 
the Federal Government. The Society strongly supports the continued 
increase in Federal funding for biomedical research in order to provide 
the additional resources needed to enable American scientists to 
address the burgeoning scientific opportunities and new health 
challenges that continue to confront us. The Endocrine Society 
recommends that NIH receive at least $35 billion in fiscal year 2012 to 
ensure the steady and sustainable growth necessary to continue building 
on the advances made by scientists and physicians during the past 
decade.
                                 ______
                                 
     Prepared Statement of The Humane Society of the United States

    On behalf of The Humane Society of the United States (HSUS) and the 
Humane Society Legislative Fund (HSLF), and our joint membership of 
over 11 million supporters nationwide, we appreciate the opportunity to 
provide testimony on our top NIH funding priorities for the Senate 
Labor, Health and Human Services, Education and Related Agencies 
Appropriations Subcommittee in fiscal year 2012.

                  BREEDING OF CHIMPANZEES FOR RESEARCH

    The HSUS requests that no Federal funding be appropriated for the 
breeding of chimpanzees for laboratory research. The basis of our 
request is as follows:
  --The National Center for Research Resources (NCRR) of the National 
        Institutes of Health (NIH), responsible for the oversight and 
        maintenance of federally owned and supported chimpanzees, 
        placed a moratorium on breeding federally owned and supported 
        chimpanzees in 1995, primarily due to the excessive costs of 
        lifetime care of chimpanzees in laboratory settings. NCRR 
        extended the moratorium indefinitely in 2007. As a result, none 
        of the 500 federally owned chimpanzees should have given birth 
        or sired infants since 1995.
  --There is evidence, however, that at least one laboratory has used 
        millions of Federal dollars in recent years to support breeding 
        of government owned chimpanzees. There are major financial 
        implications to the Federal Government and taxpayers if this 
        breeding continues. Therefore, we seek to simply reinforce NIH 
        policy and ensure that no laboratory can use funding provided 
        by NIH or any other HHS agency for breeding of government-owned 
        or supported chimpanzees.
  --According to records provided by the New Iberia Research Center 
        (NIRC) and the National Institutes of Health 123 infants were 
        born to a federally owned mother and/or federally owned father 
        at NIRC between 2000 and 2009.
  --The cost of maintaining chimpanzees in laboratories is exorbitant, 
        up to $67 per day per chimpanzee; over $1,000,000 per 
        chimpanzee over an individual's approximately 60-year lifetime. 
        Breeding of additional chimpanzees into laboratories will only 
        perpetuate and increase the burdens on the government in 
        supporting and managing the chimpanzee research colony.
  --The U.S. currently has a surplus of chimpanzees available for use 
        in research due to overzealous breeding for HIV research and 
        subsequent findings that they are a poor HIV model.\1\
---------------------------------------------------------------------------
    \1\ NRC (National Research Council) (1997) Chimpanzees in research: 
strategies for their ethical care, management and use. National 
Academies Press: Washington, D.C.
---------------------------------------------------------------------------
  --Expansion of the chimpanzee population in laboratories only creates 
        more concerns than presently exist about their quality of 
        care--an issue of great public concern.

Background and history
    Beginning in 1995, the National Research Council (NRC) confirmed a 
chimpanzee surplus and recommended a moratorium on breeding of 
federally owned or supported chimpanzees,\1\ which includes nearly all 
of the approximately 1,000 chimpanzees available for research in the 
United States. On May 22, 2007 the NCRR of NIH indefinitely extended 
its moratorium on breeding federally-owned and supported chimpanzees. 
Further, it has also been noted that ``a huge number'' of chimpanzees 
are not being used in active research protocols and are therefore 
``just sitting there.'' \2\ If no breeding is allowed, it is projected 
that the government will have almost no financial responsibility for 
the chimpanzees it owns within 30 years due to the age of the 
population--any breeding today will extend this financial burden to 60 
years.
---------------------------------------------------------------------------
    \2\ Cohen, J. (2007) Biomedical Research: The Endangered Lab Chimp. 
Science. 315:450-452.
---------------------------------------------------------------------------
    There is no justification for breeding of additional chimpanzees 
for research; therefore lack of Federal funding for breeding will 
ensure that no breeding of federally owned or supported chimpanzees for 
research will occur in fiscal year 2012.
Concerns regarding chimpanzee care in laboratories
    A nine month undercover investigation by The HSUS at University of 
Louisiana at Lafayette New Iberia Research Center (NIRC)--the largest 
chimpanzee laboratory in the world--revealed some chimpanzees living in 
barren, isolated conditions and documented over 100 alleged violations 
of the Animal Welfare Act at the facility regarding conditions for and 
treatment of chimpanzees. The U.S. Department of Agriculture (USDA) and 
NIH's Office of Laboratory Animal Welfare (OLAW) launched formal 
investigations into the facility and NIRC paid an $18,000 stipulation 
for violations of the Animal Welfare Act.
    Aside from the HSUS investigation, inspections conducted by the 
USDA demonstrate that basic chimpanzee standards are often not being 
met. Inspection reports for other federally funded chimpanzee 
facilities have reported violations of the Animal Welfare Act in recent 
years, including the death of a chimpanzee during improper transport, 
housing of chimpanzees in less than minimal space requirements, 
inadequate environmental enhancement, and/or general disrepair of 
facilities. These problems add further argument against the breeding of 
even more chimpanzees into this system.

Chimpanzees have often been a poor model for human health research
    The scientific community recognizes that chimpanzees are poor 
models for HIV because chimpanzees do not develop AIDS even after being 
infected with HIV. Similarly, chimpanzees do not model the course of 
the human hepatitis C virus yet they continue to be used for this 
research, adding to the millions of dollars already spent without a 
sign of a promising vaccine. According to the chimpanzee genome, some 
of the greatest differences between chimpanzees and humans relate to 
the immune system, \3\ calling into question the validity of infectious 
disease research using chimpanzees.
---------------------------------------------------------------------------
    \3\ The Chimpanzee Sequencing and Analysis Consortium/Mikkelsen, 
TS, et al.,(1 September 2005) Initial sequence of the chimpanzee genome 
and comparison with the human genome, Nature 437, 69-87.
---------------------------------------------------------------------------
Ethical and public concerns about chimpanzee research
    Chimpanzee research raises serious ethical issues, particularly 
because of their extremely close similarities to humans in terms of 
intelligence and emotions. Americans are clearly concerned about these 
issues: 90 percent believe it is unacceptable to confine chimpanzees 
individually in government-approved cages (as we documented during our 
investigation at NIRC); 71 percent believe that chimpanzees who have 
been in the laboratory for over 10 years should be sent to sanctuary 
for retirement \4\; and 54 percent believe that it is unacceptable for 
chimpanzees to ``undergo research which causes them to suffer for human 
benefit.'' \5\
---------------------------------------------------------------------------
    \4\ 2006 poll conducted by the Humane Research Council for Project 
Release & Restitution for Chimpanzees in laboratories.
    \5\ 2001 poll conducted by Zogby International for the Chimpanzee 
Collaboratory.
---------------------------------------------------------------------------
    We respectfully request the following bill or committee report 
language:

    ``No funds made available in this Act, or any prior Act, may be 
used for ``The Committee directs that no funds provided in this Act be 
used to support the breeding of federally owned or federally supported 
chimpanzees for research.''

    We appreciate the opportunity to share our views for the Labor, 
Health and Human Services, Education and Related Agencies 
Appropriations Act for Fiscal Year 2012. We hope the Committee will be 
able to accommodate this modest request that will save the government a 
substantial sum of money, benefit chimpanzees, and allay some concerns 
of the public at large. Thank you for your consideration.

 HIGH THROUGHPUT SCREENING, TOXICITY PATHWAY PROFILING, AND BIOLOGICAL 
 INTERPRETATION OF FINDINGS--NATIONAL INSTITUTES OF HEALTH--OFFICE OF 
                              THE DIRECTOR

    In 2007, the National Research Council published its report titled 
``Toxicity Testing in the 21st Century: A Vision and a Strategy.'' This 
report catalyzed collaborative efforts across the research community to 
focus on developing new, advanced molecular screening methods for use 
in assessing potential adverse health effects of environmental agents. 
It is widely recognized that the rapid emergence of omics technologies 
and other advanced technologies offers great promise to transform 
toxicology from a discipline largely based on observational outcomes 
from animal tests as the basis for safety determinations to a 
discipline that uses knowledge of biological pathways and molecular 
modes of action to predict hazards and potential risks.
    In 2008, NIH, NIEHS and EPA signed a memorandum of understanding 
\6\ to collaborate with each other to identify and/or develop high 
throughput screening assays that investigate ``toxicity pathways'' that 
contribute to a variety of adverse health outcomes (e.g., from acute 
oral toxicity to long-term effects like cancer). In addition, the MOU 
recognized the necessity for these Federal research organizations to 
work with ``acknowledged experts in different disciplines in the 
international scientific community.'' Much progress has been made, 
including FDA joining the MOU, but there is still a significant amount 
of research, development and translational science needed to bring this 
vision forward to where it can be used with confidence for safety 
determinations by regulatory programs in the government and product 
stewardship programs in the private sector. In particular, there is a 
growing need to support research to develop the key science-based 
interpretation tools which will accelerate using 21st century 
approaches for predictive risk analysis. We believe the Office of the 
Director at NIH can play a leadership role for the entire U.S. 
Government by funding both extramural and intramural research.
---------------------------------------------------------------------------
    \6\ http://www.genome.gov/pages/newsroom/currentnewsreleases/
ntpncgcepamou121307finalv2.pdf.
---------------------------------------------------------------------------
    We respectfully request the following committee report language, 
which is supported by The HSUS, HSLF, Procter & Gamble, and the 
American Chemistry Council.

    ``The Committee supports the implementation of the National 
Research Council's report ``Toxicity Testing in the 21st Century: A 
Vision and a Strategy'' to create a new paradigm for chemical risk 
assessment based on the incorporation of advanced molecular biological 
and computational methods in lieu of animal toxicity tests within 
integrated evaluation strategies, and urges the National Institutes of 
Health to play a leading role by funding a coordinated, long-term 
program of relevant intramural and extramural research. Current 
activities at the NIH Chemical Genomics Center, National Institute of 
Environmental Health Sciences, the Environmental Protection Agency and 
the Food and Drug Administration show considerable potential and the 
NIH Director should explore opportunities to augment this effort by 
identifying additional resources that could be directed to priority 
research projects. The Director shall report on the NIH funding of and 
progress on these activities to the Committee commencing September 30, 
2012 and annually thereafter.''
                                 ______
                                 
    Prepared Statement of the University of Virginia Medical Center

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to submit testimony on behalf of the University of Virginia 
Medical Center. As members of this committee you have jurisdiction for 
funding the agencies responsible for the delivery of healthcare in the 
United States. As a healthcare provider in Virginia and a 
representative of a major institution responsible for training the 
healthcare providers of tomorrow, I want to use this opportunity to 
discuss the vital importance of Federal funding for Graduate Medical 
Education (GME) in the United States. I urge you to support an increase 
in the number of appropriately trained physicians in the United States 
while protecting the integrity and structure of the GME program.

Overview of the University of Virginia Health System
    The University of Virginia Health System is an academic medical 
center composed of the Hospital and its satellite facilities and 
programs, the School of Medicine, School of Nursing, other allied 
health programs, and faculty physicians. The University of Virginia 
Health System plays a critical role in the Nation's healthcare 
structure as well as the healthcare structure of Virginia. We have 
multiple key missions: training the next generation of healthcare 
workers, caring for the sickest patients and the underserved who have 
nowhere to turn, providing innovative treatments with state-of-the-art 
technology, and performing medical research. Our key missions are what 
distinguish us from regular community hospitals.
    The University of Virginia Medical Center and its Graduate Medical 
Education training programs provide an essential bridge for medical 
school graduates to become well-trained practicing physicians. At the 
University of Virginia Medical Center, we continuously provide an 
environment of excellence in which our trainees gain the necessary 
experience to practice in their specialties in a setting that 
emphasizes quality and patient safety.
    Our training programs have been recognized by the Accreditation 
Council for Graduate Medical Education for their compliance in meeting 
the necessary training standards and for their innovative educational 
techniques. We currently sponsor 68 accredited core specialty and 
subspecialty training programs. All of our programs are fully 
accredited, and many have been awarded the maximum accreditation cycle 
length.
    Our programs are well positioned to meet the growing national 
workforce shortages in primary care (Family Medicine, Internal Medicine 
including General Medicine, Obstetrics and Gynecology, Pediatrics, and 
General Surgery), as well as in those specialties where workforce 
shortages have been identified in the Commonwealth of Virginia 
(Emergency Medicine, Child and Adolescent Psychiatry).
    We have excellent training programs that are well-suited to train 
physicians who will care for our aging population, including 
Geriatrics, Palliative and Hospice Medicine, Orthopedic Surgery 
(including Reconstructive Spine), Endocrinology (Diabetes, Obesity, and 
Osteoporosis), Cardiology and Cardiothoracic Surgery, Oncology, and 
Neurology (Alzheimer's Disease).

Funding of Graduate Medical Education
    Training of future physicians is a core mission that distinguishes 
academic medical centers and teaching hospitals like the University of 
Virginia Medical Center from other healthcare institutions. Congress 
has recognized the critical role that teaching hospitals play in the 
training of America's physicians; however, this key endeavor is very 
expensive. Consequently, Congress has agreed that teaching hospitals 
should be paid for their increased patient care expenses as well as for 
their costs associated with GME training programs. This is accomplished 
through two mechanisms: Direct Graduate Medical Education (DGME) 
payments and the Indirect Medical Education (IME) adjustment.
    The Direct Graduate Medical Education payment (DGME) is a Medicare 
payment intended to reimburse teaching hospitals directly for resident 
stipends, the costs of teaching by attending physicians, the expenses 
incurred with educational classrooms and the administrative costs of 
the residency program office. Medicare DGME payments are based upon the 
number of residents and the number of Medicare beneficiaries in the 
hospital (i.e., it does not cover the entire cost of teaching to the 
institution.) Currently UVa Medical Center is reimbursed under DGME for 
approximately 38 percent of the cost of training each resident.
    The Indirect Medical Education adjustment (IME) was created in 1983 
by Congress. ``This adjustment is provided in light of doubts . . . 
about the ability of the DRG case classification system to account 
fully for factors such as severity of illness of patients requiring the 
specialized services and treatment programs provided by teaching 
institutions and the additional costs associated with the teaching of 
residents . . . . The adjustment for indirect medical education costs 
is only a proxy to account for a number of factors which may 
legitimately increase costs in teaching hospitals.'' (House Ways and 
Means Committee Report, No. 98-25, March 4, 1983 and Senate Finance 
Committee Report, No. 98-23, March 11, 1983).
    The IME adjustment is based on a complex formula that was 
empirically determined to be related to the ratio of residents to beds 
(IRB). The hospital's IME payment is determined by its individual 
intern/resident-to-bed ratio in a formula established under the 
Medicare statute. For every Medicare case paid, a teaching hospital 
receives an additional IME payment, calculated as a percentage add-on 
to the basic price per case. In 1983, payments added 11.59 percent to 
each DRG amount for every 10 percent increase in the IRB. The IME 
adjustment as originally calculated, in conjunction with DGME payments, 
more satisfactorily reimbursed teaching hospitals for the cost of 
training the next generation of doctors. However, the Balanced Budget 
Act of 1997 (BBA) caused the IME adjustment to substantially decline. 
Over time, Congress has periodically reduced the adjustment--by 30 
percent since 1997--to the current 5.5 percent adjustment.
    According to the American Association of Medical Colleges (AAMC), 
the Medicare program annually provides about $3 billion in DGME 
payments and $6 billion in IME payments to nearly 1,100 teaching 
hospitals. While these payments represent less than 2 percent of total 
Medicare payments, for teaching hospitals they are extremely important 
in supporting the mission of training physicians. These payments 
provide the backbone for our Nation's healthcare system, and they 
ultimately contribute to better patient care by providing the support 
necessary for excellent training programs.
    The BBA also capped the number of resident slots that Medicare will 
support. It limited the number of allopathic and osteopathic resident 
physicians who may be counted for purpose of calculating IME and DGME 
reimbursement to the number that the teaching hospital reported on its 
1996 Medicare cost report. This cap is preventing academic medical 
centers and teaching hospitals from expanding the number of residents 
and fellows even while the Nation continues to suffer a physician 
shortage. At a time when we should be producing more physicians, 
especially in the key areas mentioned previously, this outdated rule is 
thwarting our efforts.
    The University of Virginia Medical Center trains more than 750 
residents and fellows each year. It is significantly over its Medicare 
limit or cap for training slots. For purposes of Direct Graduate 
Medical Education, the University of Virginia's cap is 538 residents, 
and it is 121 positions over its cap; for purposes of Indirect Graduate 
Medical Education, the University of Virginia's cap is 508 residents, 
and it is 131 positions over its cap. The cost of training a resident 
is approximately $100,000 per year, thus, the University of Virginia 
Medical Center is spending about $12,100,000 per year on resident 
positions over the cap.
    Graduate Medical Education training helps ensure that healthcare 
delivery in the United States continues to be the highest quality. The 
additional costs incurred at teaching hospitals for the training of 
tomorrow's doctors are real and should be reimbursed at a level 
commensurate with the expense. Without specific appropriate 
reimbursement from Medicare, teaching hospitals will run deficit 
budgets and be forced to cut the very programs that differentiate them 
and allow them to provide the best and most innovative care.

Challenges Facing Graduate Medical Education
    Recently, the National Commission on Fiscal Responsibility and 
Reform recommended reducing the IME adjustment from 5.5 percent to 2.2 
percent annually, which represents an approximate two-thirds cut in the 
IME payment. The potential loss of approximately two-thirds support 
from the Federal Government would severely compromise the ability of 
the University of Virginia Medical Center, and other academic medical 
centers, to fund this crucial educational mission. The estimated impact 
of this reduction on the University of Virginia Medical Center is 
approximately $26,700,000 per year.
    Although we recognize the importance of a balanced Federal budget 
and the need to control healthcare spending, reducing the funds 
available for training future physicians will lead to a severe lack of 
access to healthcare in the near future. This will occur at the very 
time that hospitals are being asked to expand access to care.
    For example, the Patient Protection and Affordable Care Act (i.e., 
the healthcare reform law) will provide health insurance coverage to 32 
million more Americans; however, health insurance does not guarantee 
timely access to care. There must be a well trained workforce to care 
for the additional patients to ensure that implementation of the new 
healthcare reform law is successful. Unfortunately, the United States 
is already experiencing a shortage of physicians. As healthcare reform 
is fully implemented and the population of the United States continues 
to age, the shortage of physicians is expected to worsen. By 2020 the 
demand for physicians will significantly outweigh the supply. According 
to the AAMC's Center for Workforce Studies, by 2020 there will be a 
shortage of 45,000 primary care physicians, and a shortage of 46,000 
surgeons and medical specialists.
    Only 700 Medicare-funded training slots were awarded during the 
most recent reallocation authorized by the healthcare reform law. Most 
teaching hospitals, including the University of Virginia, did not 
receive any additional Medicare-funded residency slots. Unless the cap 
is increased or lifted, it is expected that there will be more medical 
school graduates than residency positions in the near future. Indeed, 
in its April GME e-letter (http://www.ama-assn.org/resources/doc/med-
ed-products/gmee-04-2011.pdf) the American Medical Association stated 
that we may have already reached the point where U.S. medical school 
graduates are not able to find a residency position because there are 
now more graduates than available GME slots.
    Specifically, the University of Virginia School of Medicine, along 
with dozens of medical schools nationally, has increased class size to 
meet the needs of the impending workforce shortages. However, medical 
students looking to join a residency program have begun to face a 
significant bottleneck after graduation. While institutions like the 
University of Virginia are graduating exceptional medical students, the 
University of Virginia Medical Center can only accept a finite number 
Medicare-funded residency positions due to the cap. Thus, the shortage 
of open residency positions for medical students creates another 
barrier to the supply of well-trained physicians.
    To address the severe doctor shortage crisis facing the United 
States and to ensure that there is a well-trained healthcare workforce 
to successfully care and treat the increasing number of patients in the 
future, it is critical that Congress support Graduate Medical Education 
by increasing the number of resident slots available for medical 
students, and continue to invest in Graduate Medical Education. I 
respectfully request that this committee do everything within its 
jurisdiction to achieve these important goals.
                                 ______
                                 
           Prepared Statement of the Tri-Council for Nursing

    The Tri-Council for Nursing, comprised of the American Association 
of Colleges of Nursing, the American Nurses Association, the American 
Organization of Nurse Executives, and the National League for Nursing, 
respectfully request $313.075 for the Nursing Workforce Development 
programs authorized under Title VIII of the Public Health Service Act 
(42 U.S.C. 296 et seq.) in fiscal year 2012. This is the amount 
requested in the recommended funding levels for the President's fiscal 
year 2012 budget.
    The Tri-Council is a long-standing nursing alliance focused on 
leadership and excellence in the nursing profession. This marks the 
13th year of the nurse and nurse faculty shortages which have eroded 
the ability of the nursing profession to provide the highest quality of 
care that all patients rightfully desire and morally deserve. As the 
Nation looks toward restructuring the healthcare system by focusing on 
expanding access, decreasing cost, and improving quality, a significant 
investment must be made in strengthening the nursing workforce, a 
profession which The U.S. Bureau of Labor Statistics expects a 22 
percent growth in employment through 2018.
                                 ______
                                 
          Prepared Statement of the United Negro College Fund

    Mr. Chairman and distinguished Members of the subcommittee, I am 
Dr. Michael L. Lomax, President and CEO of UNCF--the United Negro 
College Fund. I want to thank you for allowing me to submit funding 
recommendations and priorities relevant to the fiscal year 12 Labor-
HHS-Education Appropriations bill.
    Statistically, HBCUs graduate a preponderant share of all black 
Americans receiving postsecondary degrees. While comprising only 3 
percent of the Nation's 4,197 institutions of higher learning, the 106 
HBCUs are responsible for producing approximately 25 percent of all 
bachelor's degrees, 10 percent of all master's degrees and 26 percent 
of all first professional degrees earned by African Americans annually.
    UNCF institutions are a critical component and significant subset 
of the larger community of HBCUs. Specifically, UNCF is the national 
fundraising and advocacy representative for 38 private historically 
black colleges and universities. There are more than 350,000 persons 
who are counted as alumni of UNCF member colleges and universities. Our 
alumni include persons such as Rev. Dr. Martin Luther King, Jr., Brown 
University President Dr. Ruth Simmons, three former surgeon generals, 
numerous current Members of Congress and a host of noted authors, 
poets, attorneys, professors and philanthropists.
    UNCF--the Nation's oldest and most successful minority higher 
education assistance organization--fulfills its primary goal by 
increasing opportunities for access to higher education. During its 66-
year existence, UNCF has raised more than $3 billion to support its 
historically black college and university member institutions and 
administered nearly 400 programs, including scholarships, mentoring 
programs, summer enrichment, study abroad, curriculum, faculty, and 
leadership development. Today, UNCF supports more than 65,000 students 
at over 900 colleges and universities across the country.
    We recognize that working with the Administration and Congress will 
continue to be particularly challenging in a budget-constrained 
environment where more diverse students with unique academic and 
familial circumstances are dependent upon need-based aid. The face of 
our Nation is changing and nowhere is the change more evident than in 
education. Compared with the last century, we are increasingly changing 
with more of us being born in other nations, speaking other languages 
and carrying different cultures. Minority
    populations are growing more quickly than the U.S. population as a 
whole. In keeping with this, UNCF continues to endorse the following 
policies and positions as the focal point of its legislative agenda for 
fiscal year 2012. These recommendations continue a basic commitment to 
enrolling, nurturing, and graduating students, some of whom lack the 
social, educational, and financial advantages of other college bound 
populations. This agenda reflects what is needed to level the playing 
field for both UNCF member schools and students as we continue to 
pursue educational excellence.
    The following fiscal year 2012 programs are of particular relevance 
and importance to UNCF.

Title III, Part B, Strengthening Historically Black Colleges and 
        Universities--$267 million (Section 323)
    Because of its flexibility, this program is the fundamental source 
of institutional assistance for HBCUs and is used to support strategic 
planning initiatives, academic enhancements, administrative and fiscal 
management, student services, physical plant improvements, and general 
institutional development.
    The current level of funding to Title III, Part B must be 
maintained in order to continue to enhance and sustain the quality of 
HBCUs, and to meet the national challenges associated with global 
competitiveness, job creation and changing demographics. For fiscal 
year 2012, UNCF requests $267 million to support Section 323.

Title III, Part D, HBCU Capital Financing Program--a minimum of $20.58 
        million, plus increase the statutory cap to at least $1.7 
        billion. Bill language is needed to make funding available to 
        institutions that have a need but fall into a category that has 
        exhausted resources within the current cap of $1.1 billion.
    Funded through Title III, Part D of the Higher Education Act, the 
HBCU Capital Financing Program is intended to provide low-interest 
capital financing loans to historically disadvantaged institutions 
throughout the HBCU community. In light of economic hardships and 
challenges confronting several of our member institutions, UNCF has 
worked with national stakeholders, officials at the Department of 
Education, and Congressional leadership to propose a comprehensive 
revision of the capital financing provisions.
    For fiscal year 2012, UNCF requests at least $20.58 million to 
allow the Secretary to support the administration of additional loans 
through the Capital Financing Program. Further, we request the 
assistance of Federal leaders in working with the HBCU Capital 
Financing Board to ensure that recommendations made to Congress will 
promote increased participation within the program among all eligible 
institutions.

The Hawkins Centers of Excellence Program--$40 million
    Under this budget proposal, the Administration proposes giving 
grants to minority-serving institutions to prepare teachers by 
providing extensive training, creating a system for tracking program 
graduates and raising exit standards. The Centers are named after the 
recently deceased Augustus F. Hawkins in honor of his historic 
leadership as a champion for expanding education as well as job 
opportunity.
    For fiscal year 2012, UNCF requests $40 million to implement the 
Hawkins Centers of Excellence Program. This program would help expand 
the pool of effective minority teachers thus working to close the 
achievement gap for minority students.

Pell Grants Program--$5,550 (current maximum reward)
    This program assists so many deserving students in getting into 
college. As college costs increase, the amount of jobs available to 
solely high school graduates is rapidly decreasing. It is imperative to 
preserve the maximum award of $5,550 and continue to fund Pell at the 
appropriate level. The budget would call for a cut of $100 billion in 
Pell grants over 10 years, paid for by eliminating the ``Two Pell'' 
benefits and the in-school interest subsidy for graduate and 
professional student loans.
    For fiscal year 2012, UNCF requests the current maximum awards of 
$5,550 to continue the support of the Pell Grants Program. Maintaining 
the maximum Pell award is critical to ensure that the growing pool of 
first generation and low income college students are provided much 
needed financial support to access higher education and minimize the 
burden of costly education loans.
    UNCF and our member schools have, among them, many years of 
experience in making the dream of a college education a reality for 
low-income students and the colleges they attend. My staff and I, as 
well as the presidents of our member schools, stand ready to continue 
to work closely with your committee to formulate and craft a plan that 
will work for all the young people who are seek and deserve college 
education.
                                 ______
                                 
       Prepared Statement of the United Network for Organ Sharing

    Highlighting the urgent need to address the ever-growing waiting 
list for organs for transplantation and the number of people that die 
every day just waiting for an organ, by strengthening programs at HRSA, 
the National Institutes of Health and within the Office of the 
Secretary.
    Mr. Chairman and Members of the Subcommittee, thank you for giving 
the United Network for Organ Sharing (UNOS) the opportunity to provide 
testimony as the Subcommittee begins to consider funding priorities for 
fiscal year 2012. My name is Mary Ellison and I am the Acting Executive 
Director of UNOS, the organization with the Federal contract to 
coordinate the Nation's organ transplant system, providing vital 
services to meet the needs of men, women and children awaiting 
lifesaving organ transplants. Based in Richmond, Virginia, UNOS is a 
private, nonprofit membership organization. UNOS members encompass 
every transplant hospital, tissue matching laboratory and organ 
procurement organization in the United States, as well as voluntary 
health and professional societies, ethicists, transplant patients and 
organ donor advocates.
    Transplantation has saved and enhanced the lives of more than 
450,000 people in the United States. It is the leading form of 
treatment for many forms of end-stage organ failure. With this success, 
however, has come increasing demand for donated organs. Living donation 
(transplanting all or part of an organ from a living person) has 
increased dramatically in the last few years, helping increase the 
number of transplants performed. In addition, UNOS has enacted a number 
of policies to encourage more efficient use of available organs, such 
as ``splitting'' livers from deceased donors to allow two recipients to 
be transplanted. The only long-term solution to the organ shortage, 
however, is for more people to agree to become organ donors. UNOS works 
closely with medical professionals to increase their understanding and 
support of the organ donation process.
    Mr. Chairman, as you know the primary Federal agency with 
jurisdiction over organ transplantation issues is the Health Resources 
Services Administration. However, as we will describe below, the Office 
of the Secretary and NIH also have important roles to play to help 
people in need of an organ transplant.
Health Resources Services Administration
    Even with advances in the use of living liver donors, the increase 
in the demand for organs needed for transplantation will continue to 
exceed the number available. The need to increase the rate of organ 
donation is critical. On April 11, 2011 there were 110,676 men, women 
and children on the national transplantation waiting list. Last year an 
average of 74 patients were transplanted each day; however a daily 
average of 18 patients died because the organ they needed did not 
become available in time to save them. HRSA's Division of 
Transplantation has a proven track record of successfully increasing 
the rate of organ donation with limited resources.
    Recognizing the importance of this issue, Congress passed, and the 
President signed, the Organ Donation and Recovery Improvement Act of 
2004 (Public Law 108-216) authorizing an increase of $25 million for 
organ donation activities in the first year, and such sums as necessary 
in following years, and yet, it was only last year that additional 
funding of $1 million has been provided to implement this legislation. 
To address these needs, UNOS recommends that the Division of 
Transplantation receive a $2 million increase in fiscal year 2012, to 
allow the Division to more aggressively pursue program efforts to 
increase the supply of organs available for transplantation.
    In addition, the shortage of organs for donation can be positively 
impacted by healthcare professionals, particularly physicians, nurse, 
and physician assistants that are frequently the first to identify and 
refer a potential donor. These professionals also have an established 
relationship with the family members that weigh the option to donate 
their loved one's organs. In order to improve the knowledge and skills 
of the several key health professions, UNOS requests funding to develop 
curriculum and continuing medical education programs for targeted 
health professions. To launch a new 5 year effort to improve the 
competency of health professionals to help meet the goal of increasing 
the number or organs available for transplantation $450,000 is 
requested for the United Network for Organ Sharing (UNOS) to be made 
available from within the base funding of the Division of Health 
Professions based on the authority provided in Section 765 of Title VII 
to improve the workforce.

Office of the Secretary
    On March 3, 2008 the Department published a request for information 
in the Federal Register to gather information to assist the Department 
to determine whether it should engage in a rulemaking with respect to 
vascularized composite allografts (VCAs). Three years later, the 
Department still has not finalized this decision. As it currently 
stands, the Food and Drug Administration has jurisdiction over VCA 
transplants, as they are currently defined as human tissue. However, as 
the numbers of these transplants are growing, finalizing the decisions 
associated with this issue and allowing HRSA's Division of 
Transplantation to have jurisdiction over VCA's will permit this 
category of transplants to benefit from the policy oversight and 
expertise of the Organ Procurement Transplant Network (OPTN).
    Worldwide there have been more than two dozen limb transplants, a 
growing number of transplants of portions of the face, and a small 
number of transplants of other anatomical parts. Although the body 
parts vary significantly, they share important common characteristics 
with organ transplantation. As with organs, the VCA graft is subject to 
damage or death from the lack of blood flow and the need for 
revascularization is done through a surgical reconnection of blood 
vessels. Additionally, all the expertise and skills of healthcare 
professional trained to work with families, individuals and hospitals 
in the organ donation and procurement process are also needed in the 
donation and procurement of VCAs. All of these vital activities are 
already performed and overseen by the organ transplant community. 
Further, for 25 years the OPTN has overseen the processes and crafted 
policies to regulate them under Federal contract. It therefore seems 
logical, efficient and will serve the best interests of patients and 
the Nation's transplant system to bring VCAs under the umbrella of the 
OPTN.
    UNOS urges the Office of the Secretary to take action on this 
decision, and issue the rule and begin the necessary process of 
amending the definition of human organs. This is especially critical 
given the recent activities of private entities that, lacking Federal 
leadership, have begun taking the necessary steps to form registries 
for VCAs. As we learned over 20 years ago when the OPTN was 
established, it is crucial to have Government oversight over registries 
such as this in order to establish fair and ethical distribution of 
body parts.

National Institutes of Health
    Mr. Chairman, as you know, the National Institute of Allergy and 
Infectious Diseases has jurisdiction over transplantation research at 
the NIH. Recent research funded by NIAID has resulted in the 
development of desensitization protocols related to kidney 
transplantation that have shown remarkable progress in helping allow 
the most vulnerable of patients live with a transplant. Up to 30 
percent of the people on the renal transplant waiting list--without 
special intervention--will likely never have the chance to receive a 
transplant due to an inability to find a compatible donor. These 
patients have become ``sensitized'' to human antigens (HLA) through 
pregnancy, transfusions, or prior transplants and therefore must wait 
significantly longer for a compatible donor. This added time on the 
wait list directly increases both their disease-related complications 
and mortality.
    To improve access to transplantation for most these broadly 
sensitized patients, desensitization protocols have evolved to decrease 
the breadth and strength of their antibodies. Survival rates are 
excellent, equaling or exceeding the rates for kidney transplantation 
generally. It is reasonable to estimate that if these protocols were 
confirmed to be as safe and effective as early peer reviewed data has 
suggested, a large number of these long-suffering people could be 
successfully transplanted and removed from the waiting list each year. 
UNOS recommends that NIAID support a multi-center initiative with a 
companion data collection and analysis center to facilitate the use of 
this protocol at an increasing number of transplant centers across the 
country.

Summary and Conclusion
    Mr. Chairman, again we wish to thank the Subcommittee for the 
opportunity to submit testimony and for your leadership in these 
difficult times. While UNOS recognizes the demands on our Nation's 
resources, we believe the ever-growing waiting list for organs for 
transplantation, and the number of people that die every day just 
waiting for an organ, continue to justify higher funding levels for 
HRSA's Division of Transplantation.
    In conclusion, we specifically request the following for fiscal 
year 2012:
  --A $2 million increase for HRSA's Division of Transplantation;
  --$450,000 from within the base funding of the Division of Health 
        Professions to develop curriculum and continuing medical 
        education programs for targeted health professions;
  --Report language urging the Office of the Secretary to finalize a 
        decision to amend the definition of human organs to include 
        vascularized composite allografts, and allow this category to 
        come under the umbrella of the OPTN; and
  --Report language within the National Institute of Allergy and 
        Infectious Disease to support a multi-center initiative focused 
        on ``desensitizing ``patients previously found incompatible 
        with most human organs.
                                 ______
                                 
       Prepared Statement of the United Tribes Technical College

    For 42 years, United Tribes Technical College (UTTC) has provided 
postsecondary career and technical education, job training and family 
services to some of the most impoverished, high risk Indian students 
from throughout the Nation. We are governed by the five tribes located 
wholly or in part in North Dakota. We are not part of the North Dakota 
State college system and do not have a tax base or State-appropriated 
funds on which to rely. We have consistently had excellent retention 
and placement rates and are a fully accredited institution. Section 117 
Carl Perkins Act funds represent about half of our operating budget and 
provide for our core instructional programs. The requests of the United 
Tribes Technical College Board for fiscal year 2012 is for the 
following authorized Department of Education programs:
  --$10 million for base funding authorized under Section 117 of the 
        Carl Perkins Act for the Tribally Controlled Postsecondary 
        Career and Technical Institutions program (20 U.S.C. Section 
        2327). This is $1.8 million above the fiscal year 2010 level 
        and the President's requests for fiscal years 2011 and 2012. 
        These funds are awarded competitively and are distributed via 
        formula.
  --$30 million as requested by the American Indian Higher Education 
        Consortium for Title III-A (Section 316) of the Higher 
        Education Act (Strengthening Institutions program).
  --Maintain Pell Grants at the $5,550 maximum award level.

                             AUTHORIZATION

    United Tribes Technical College began operations in 1969. We 
realized that in order to more effectively address the unique needs of 
Indian people to acquire the academic knowledge and skills necessary to 
enter the workforce we needed to expand our curricula and services. We 
were scraping by with small amounts of money from the Bureau of Indian 
Affairs, and so decided to work for an authorization in the Department 
of Education. That came about in 1990 when the Carl Perkins Act was 
reauthorized and it included specific authorization for what is now 
called the Tribally Controlled Postsecondary Career and Technical 
Institutions program (Section 117). The Perkins Act has been 
reauthorized twice since then--in 1998 and in 2006, with Congress each 
time continuing the Section 117 Perkins program.
    Some Important Facts About United Tribes Technical College.--We 
have:
  --A dedication to providing an educational setting that takes a 
        holistic approach toward the full spectrum of student needs--
        educational, cultural, necessary life skills--thus enhancing 
        chances for success.
  --Services including campus security, a Child Development Center, a 
        family literacy program, a wellness center, area 
        transportation, a K-8 elementary school, tutoring, counseling, 
        and family and single student housing.
  --A semester completion rate of 80-90 percent.
  --A graduate placement rate of 94 percent (placement into jobs and 
        higher education).
  --A projected return on Federal investment of 20-1 (2005 study).
  --Highest level of accreditation from the North Central Association 
        of Colleges and Schools.
  --Over 30 percent of our graduates move on to 4-year or advanced 
        degree institutions.
  --A student body representing 87 tribes who come mostly from high-
        poverty, high unemployment tribal nations in the Great Plains; 
        many students have children or dependents.
  --81 percent of undergraduate students receive Pell Grants, the 
        highest percentage of Pell Grant recipients of any North Dakota 
        college.
  --21 2-year degree programs, eight 1-year certificates, and 3 
        bachelor degree programs pending final accreditation this 
        spring.
  --An expanding curricula to meet job-training needs for growing 
        fields including law enforcement, energy auditing and health 
        information management. We have also broadened our online 
        program offerings.
  --A critical role in the regional economy. Our presence brings $31.8 
        million annually to the economy of the Bismarck region.
  --A workforce of over 300 people.
  --An award-winning annual powwow which last year had participants 
        from 70+ tribes, featuring over 1,500 dancers and drummers, and 
        drawing over 20,000 spectators. We annually feature indigenous 
        dance groups from other countries.

                            FUNDING REQUESTS

    Section 117 Perkins Base Funding.--Funds requested under Section 
117 of the Perkins Act above the fiscal year 2010 level are needed to: 
(1) maintain 100 year-old education buildings and 50 year-old housing 
stock for students; (2) upgrade technology capabilities; (3) provide 
adequate salaries for faculty and staff (who have not received a cost 
of living increase for the past 2 years and who are in the bottom 
quartile of salary for comparable positions elsewhere); and (4) fund 
program and curriculum improvements, including at least three 4-year 
degree programs.
    Acquisition of additional base funding is critical as UTTC has more 
than tripled its number of students within the past 8 years while 
actual base funding, including Interior Department funding, have not 
increased commensurately (increased from $6 million to $8 million for 
the two programs combined). Our Perkins funding provides a base level 
of support while allowing the college to compete for desperately needed 
discretionary contracts and grants leading to additional resources 
annually for the college's programs and support services.
    Title III-A (Section 316) Strengthening Institutions.--We support 
Title III-A funding for tribal colleges. Among its statutorily 
allowable uses is facility construction and maintenance. We are 
constantly in need of additional student housing, including family 
housing. We work hard to cobble together various sources for housing 
construction. We would like to educate more students but lack of 
housing has at times limited the admission of new students. With the 
completion this past year of a new Science and Math building on our 
South Campus on land acquired with a private grant, we urgently need 
housing for up to 150 students, many of whom have families. New housing 
on the South Campus could also accommodate those persons we expect to 
enroll in a new police training program.
    While UTTC has constructed three housing facilities using a variety 
of sources in the past 20 years, approximately 50 percent of students 
are housed in the 100-year-old buildings of the old Fort Abraham 
Lincoln, as well as in duplexes and single family dwellings that were 
donated to UTTC by the Federal Government along with the land and Fort 
buildings in 1973. These buildings require major rehabilitation. New 
buildings for housing are actually cheaper than trying to rehabilitate 
the old buildings that now house students.
    Pell Grants.--We support maintaining the Pell Grant maximum amount 
to at least a level of $5,550. As mentioned above, 81 percent of our 
students are Pell Grant-eligible. This program makes all the difference 
in the world of whether these students can attend college. We also 
support the continuation of appropriations to fund two scheduled award 
years per year, as this has helped many of our students shorten the 
time to obtain their degrees.

                GOVERNMENT ACCOUNTABILITY OFFICE REPORT

    As you know, the Government Accountability Office (GAO) in March of 
this year issued two reports regarding Federal programs which may have 
similar or overlapping services or objectives (GAO-11-318SP of March 1 
and GAO-11-474R of March 18). Funding from the Bureau of Indian 
Education (BIE) and the Department of Education's Perkins Act for 
Tribally Controlled Postsecondary Career and Technical Institutions 
were among the programs listed in the supplemental report of March 18. 
The GAO did not recommend defunding these or other programs; in some 
cases consolidation or better coordination of programs was recommended 
to save administrative costs. We are not in disagreement about possible 
consolidation or coordination of the administration of these funding 
sources so long as funds are not reduced.
    Perkins funds represent about 46 percent of UTTC's core operating 
budget. The Perkins funds supplement, but do not duplicate, the BIE 
funds. It takes both sources of funding to frugally maintain the 
institution. In fact, even these combined sources do not provide the 
resources necessary to operate and maintain the college. Therefore, 
UTTC actively seeks alternative funding to assist with academic 
programming, deferred maintenance of its physical plant and scholarship 
assistance, among other things.
    Second, as mentioned, UTTC and other tribally chartered colleges 
are not part of State educational systems and do not receive State-
appropriated general operational funds for their Indian students. The 
need for postsecondary career and technical education in Indian Country 
is so great and the funding so small, that there is little chance for 
duplicative funding.
    There are only two institutions targeting American Indian/Alaska 
Native career and technical education and training at the postsecondary 
level--United Tribes Technical College and Navajo Technical College. 
Combined, these institutions received less than $15 million in fiscal 
year 2010 Federal funds ($8 million from Perkins; $7 million from the 
BIE). That is not an excessive amount of money for two campus-based 
institutions which offer a broad (and expanding) array of programs 
geared toward the educational and cultural needs of their students and 
toward job-producing skills.
    UTTC offers services that are catered to the needs of our students, 
many of whom are first generation college attendees and many of whom 
come to us needing remedial education and services to address the 
sociobehavioral, socioeconomic, and academic characteristics that pose 
problems. Our students disproportionately possess more high risk 
characteristics than other student populations. We also provide 
services for the children and dependents of our students. Although BIE 
and Section 117 funds do not pay for remedial education services, UTTC 
must make this investment with our student population through other 
sources of funding to ensure they succeed at the postsecondary level.
    Federal funding for American Indian/Alaska Native employment and 
training is barely 1 percent of the annual Federal employment and 
training budget but has an enormous impact on the people and 
communities it serves.
    Perkins funds are central to the viability of our core 
postsecondary educational programs. Very little of the other funds we 
receive may be used for core career and technical educational programs; 
they are competitive, often one-time supplemental funds which help us 
provide the services our students need to be successful. We cannot 
continue operating without Carl Perkins funds. Thank you for your 
consideration of our requests.
                                 ______
                                 
    Prepared Statement of the U.S. Hereditary Angioedema Association

    Thank you for the opportunity to present the views of the U.S. 
Hereditary Angeioedema Association (USHAEA) regarding the importance of 
hereditary angioedema (HAE) research.
    USHAEA was founded in 1999 with the express purpose of helping 
those living with HAE and their families to live healthy lives, provide 
support, and find a cure. The Association provides patient services to 
those living with HAE, including referrals to knowledgeable healthcare 
providers and information on the disease. USHAEA also provides research 
funding to scientific investigators to increase the knowledge base on 
HAE. Additionally, USHAEA also provides research materials and forums 
to educate the patients and their families, healthcare providers, and 
the general public on HAE. Finally, USHAEA acts as a voice for those 
living with HAE to the world at large.
    HAE is caused by a genetic defect which controls C1-Inhibitor blood 
protein, causing an inability to regulate complex biochemical 
interactions in blood-based systems involved in disease fighting, 
inflammatory response, and coagulation. Episodes of HAE are 
characterized by swelling in the body including the hands, feet, 
gastrointestinal tract, face, and airway. During an episode, HAE 
patients experience abdominal pain, nausea, vomiting, and airway 
swelling, which can lead to asphyxiation. Episodes are often caused by 
infections, minor injuries or dental procedures, emotional or mental 
stress, and certain hormonal or blood medications. HAE impacts 
approximately 1 in 10,000 to 1 in 50,000, making proper diagnosis 
difficult. Many of the initial HAE episodes occur in children and 
adolescents. In families were one parent has HAE, there is a 50 percent 
probability that their children will inherit this condition. HAE has an 
annual cost which can exceed $500,000 per year per patient in addition 
to the human and economic burdens associated with the disease.

Research Through the National Institutes of Health
    In years past, HAE research was conducted at the National 
Institutes of Health (NIH) through the National Institute of Allergy 
and Infectious Diseases, the National Institute of Neurological 
Disorders and Stroke, the National Heart, Lung, and Blood Institute, 
the National Institute of Child Health and Human Development, National 
Center for Research Resources, and the National Institute on Diabetes 
and Digestive and Kidney Diseases. However, NIH has not engaged in any 
basic or clinical research on HAE since 2009, nor is there any Federal 
research as it relates to HAE. As a rare disease, HAE stands to benefit 
from from recent NIH commitments such as the Cures Acceleration Network 
and the Therapeutics for Rare and Neglected Diseases program, as well 
coordination with the Office of Rare Diseases Research.
    In order to enable research to resume on HAE, it is vital that NIH 
receive increased support in fiscal year 2012. USHAEA recommends an 
overall funding level of $35 billion for NIH in fiscal year 2012 and 
the inclusion of recommendations emphasizing the importance of HAE 
research.
    Thank you for the opportunity to present the view of the HAE 
community.
                                 ______
                                 
                     Prepared Statement of YWCA USA

    Thank you Chairman Harkin, Ranking Member Shelby and members of the 
Subcommittee for the opportunity to submit testimony. My name is Gloria 
Lau, and I am the Chief Executive Officer of the YWCA USA. As Congress 
works on the appropriations and priorities for the fiscal year 2012 
Federal budget, I am here to speak about one priority in particular 
under the jurisdiction of this subcommittee: the critical need for 
childcare for women and families.
    The YWCA USA is a national not-for-profit (501(c)(3)) membership 
organization committed to social service, advocacy, education, 
leadership development, economic empowerment and racial justice. The 
YWCA is dedicated to eliminating racism, empowering women and promoting 
peace, justice, freedom and dignity for all. We represent more than 2 
million women and girls, and we can be found in many communities in the 
United States. With nearly 300 local associations nationwide, we serve 
thousands of women, girls, and their families annually through a 
variety of programs; including violence prevention and recovery 
programs, housing programs, job training and employment programs, 
childcare and early education programs, and more. Our clients include 
women and girls from all walks of life, including those escaping 
violence, low-income women and children, women veterans, elderly women, 
disabled women, and homeless women and their families.
    The YWCA is one of the largest providers of childcare in the United 
States. Many of our associations provide accessible, affordable, and 
high-quality childcare services to working families nationwide. In one 
example close to the Nation's Capital, the YWCA of Baltimore, Maryland, 
an association committed to providing quality childcare for all 
children, serves more than 600 children annually. At this and other 
YWCA childcare centers, the day is designed to meet the developmental 
needs and the interests of each child. Each day includes a variety of 
intellectual, physical, social, emotional, and creative activities as 
well as opportunities to interact with other children and adults. In 
another example, the childcare program at the YWCA in Lawrence, 
Massachusetts has been ranked in the top 10 childcare programs in 
Massachusetts by Root Cause, an organization that encourages social 
innovation and helps corporations source exceptional programs. Starting 
with this program, many children join YWCA as infants or toddlers and 
stay in programming into their teen years, which provides continuity of 
care for children and siblings. Finally, at the YWCA Greater 
Cincinnati, the State of Ohio has recognized that association's 
programs with a three-star rating for having met all State benchmarks 
for quality. If members of the Subcommittee wish, we can provide you 
far more examples of how YWCAs are providing quality childcare critical 
to the country's children and their families.
    As a major provider of childcare throughout the United States, the 
YWCA is a strong supporter of the Childcare Development Block Grant 
(CCDBG). Across the country, YWCAs use CCDBG funding for a variety of 
programs, including childcare for infants and toddlers, and before- and 
after-school care for children in school. CCDBG also provides childcare 
subsidies for low-income and moderate-income YWCA clients who attend 
our job training programs, live in our housing facilities, or are 
served by domestic violence and sexual assault programs. Every day, in 
communities across this country, we witness the important role CCDBG 
plays in helping parents find and keep employment and in helping 
children learn and grow.
    Because of our strong support for the CCDBG, the YWCA asks the 
Subcommittee to concur--at a minimum--with the President's fiscal year 
2012 funding request, which includes $2.9 billion for the CCDBG in the 
Department of Health and Human Services. This call for support comes 
directly from communities across the country, as local YWCA 
associations surveyed in December 2010 identified this vital block 
grant as one of their most critical funding sources. We also support 
Head Start and Early Head Start, which the President has requested for 
fiscal year 2012 at $8.1 billion and which rounds out the continuum of 
services for young children and their families.
    The YWCA wholeheartedly supports the core purpose of the CCDBG, 
which is to help make quality childcare affordable for low-income and 
moderate-income women and families, through block grant funding for 
States and tribes. CCDBG is not a cookie-cutter/one size fits all 
program: it provides States flexibility in developing childcare 
programs and policies most appropriate to fulfill the needs of children 
and parents within that State, as well as empowers working parents to 
make their own decisions on childcare services that best suit their 
family's needs. CCDBG helps keep parents educated about their childcare 
options through consumer information so that they can make informed 
choices, while helping them to achieve economic stability and 
independence.
    The need is simple--if working parents do not have access to 
affordable, quality childcare for their children, they cannot be full 
contributors to the economy. Each week, more than 11 million children 
under 5 years of age are in some type of childcare setting \1\.
---------------------------------------------------------------------------
    \1\ U.S. Census Bureau, 2006-2008 American Community Survey. U.S. 
Census Bureau. (2008, March). Who's minding the kids? Childcare 
arrangements: Spring 2005: Detailed tables. Retrieved April 19, 2010, 
from http://www.census.gov/population/www/socdemo/child/ppl-2005.html.
---------------------------------------------------------------------------
    The problem is: childcare costs are high--compared to family income 
and household expenses--and they are growing. The average amount 
parents paid for full-time care for an infant in a center ranged from 
more than $4,560 in Mississippi to more than $18,773 a year in 
Massachusetts ($5,356 in Alabama and $8,273 a year in Iowa) \2\. 
Furthermore, the average center-based childcare fees for an infant 
exceeded the average annual amount that families spent on food in every 
region of the country. In addition, childcare fees per month for two 
children of any age exceeded the median monthly amount for rent, and 
were nearly as high, or even higher than, the average monthly mortgage 
payment in every State. YWCAs offer quality childcare at a low cost to 
the families they serve, but many of them would have to turn people 
away or simply end programs without State CCDBG funds. This, in turn, 
would result in parents losing childcare which would impact their 
ability to work and could possibly result in children being placed in 
unfit or unsafe childcare situations, further impacting their ability 
to learn and grow.
---------------------------------------------------------------------------
    \2\ Parents and the High Cost of Childcare: 2010 Update from the 
National Association of Childcare Resource and Referral Agencies 
(provides average costs of childcare for infants, 4-year-olds, and 
school-age children in centers and family childcare homes in every 
State), http://www.naccrra.org/publications/naccrra-publications/
parents-and-the-high-cost-of-child-care.php.
---------------------------------------------------------------------------
    Investments in early education are critical to our effort to build 
a smarter and stronger country, even in economic times that call for 
budget-cutting measures. Quality, affordable early childhood care and 
education result in positive outcomes for children, such as preparing 
them for school and helping parents find and keep jobs. It also 
benefits taxpayers and enhances economic vitality. Research\3\--by 
Nobel Prize-winners and Federal Reserve economists, in economic studies 
in dozens of States and counties, and in longitudinal studies spanning 
40 years--demonstrate that return on public investment in high quality 
childhood education is substantial.
---------------------------------------------------------------------------
    \3\ Early Childhood Education for All: A Wise Investment. U.S. 
Census Bureau (2005, April). ``The Economic Impacts of Childcare and 
Early Education: Financing Solutions for the Future;'' a conference 
sponsored by Legal Momentum's Family Initiative and the MIT Workplace 
Center. Retrieved April 7, 2011, from http://web.mit.edu/
workplacecenter/docs/Full%20Report.pdf.
---------------------------------------------------------------------------
    Specifically, it was found that, in the short term, quality, 
affordable childcare provides significant return as an industry: 
employing nearly 3 million people nationwide; providing employees wages 
to spend, pay taxes and purchase goods and services; and enabling 
employers to attract and retain employees and increase productivity. In 
the long term, quality, affordable childcare has been found to result 
in lower costs for remedial and special education and grade repetition; 
higher rates of completing school and building skills; improved job 
preparedness and ability to meet future labor force demands; and higher 
incomes and tax payments from those who complete school.
    As stated in a letter to both of you and the Chair and Ranking 
Member of the Senate Appropriations Committee signed by 17 Senators on 
February 24, 2011, ``noted economists agree that investing in early 
childhood education is fiscally responsible because it yields a 
tremendous return on investment, ranging from $3 to $17 for every 
dollar invested.'' The letter goes on to state, ``Given these gaps and 
the importance of early learning to our country's economic success, the 
American Recovery and Reinvestment Act (ARRA) included a prudent and 
essential expansion of these programs. We strongly believe that 
Congress must build on this progress, not reverse it.'' \4\ The YWCA 
strongly believes that as Congress focuses on effective and efficient 
uses of Federal funds, Congress should not overlook the benefits of 
allocating Federal dollars toward childcare and early education 
programs, particularly to cultivate younger generations.
---------------------------------------------------------------------------
    \4\ The letter includes support for Head Start and Early Head 
Start.
---------------------------------------------------------------------------
    Congress and several Presidential administrations have historically 
shown strong bipartisan support for CCDBG. Even so, for the 21 years 
CCDBG has been in existence, the program has always been underfunded 
and supply has never met demand. Even before the current economic 
downturn, it was estimated that only 1 in every 7 children who were 
eligible for CCDBG received assistance. It was also not uncommon for 
children and their families to be put on waiting lists, to see their 
assistance cut, or to see it eliminated altogether. The economic 
downturn has exacerbated this already alarming situation as States 
continue to cut back social service programs more than they had been 
scaled back, prior to economic collapse.
    In a positive response, as referred to in the joint Senate letter 
to the Appropriations Committee referenced earlier, the ARRA made a 
major, $2 billion investment in childcare. The significant increase for 
CCDBG included in the President's fiscal year 2012 budget request would 
allow children served by ARRA funding to continue receiving services. 
This level of funding would allow 1.7 million children to receive 
childcare assistance, an increase of 220,000 children--at great relief 
to their working parents. The $1.3 billion increase would translate 
into an increase of $800 million for discretionary funding (which does 
not require a State match) and $500 million for mandatory funding 
(which requires a State match. Approving the President's proposed level 
of funding will ensure positive impact to the working women and 
families that are an essential part of our Nation's economic recovery.
    The need for and importance of investments in childcare and early 
childhood education, including CCDBG funding, to the viability of our 
country is now greater than ever. In addition, the current budget 
crises facing States across this Nation illustrate why Federal 
investments in quality childcare and early educations programs are both 
necessary and vital. For example, the National Women's Law Center 
(NWLC) reported on April 7, 2011 \5\, States have begun to cut back on 
childcare assistance:
---------------------------------------------------------------------------
    \5\ Additional Childcare Funding Essential to Prevent State Cuts 
from the National Women's Law Center. Retrieved April 8, 2011, from 
http://www.nwlc.org/resource/additional-child-care-funding-essential-
prevent-state-cuts.

    ``Until recently, most States have managed to maintain their 
childcare assistance programs, largely thanks to an additional $2 
billion in Childcare Development Block Grant (CCDBG) funding for fiscal 
year 2009 and fiscal year 2010 from the American Recovery and 
Reinvestment Act (ARRA). However, as States exhaust these funds, and as 
State budget gaps persist, many will be forced to scale back childcare 
assistance for families unless additional Federal funding is provided. 
Already, a number of States and communities have begun to cut back on 
childcare assistance''. . . .
  --California's governor is proposing to eliminate childcare 
        assistance for 11- and 12-year-olds, lower the income 
        eligibility limit for childcare assistance from 75 percent of 
        State median income to 60 percent of State median income, and 
        reduce reimbursement rates to childcare providers serving 
        children receiving childcare assistance--which would likely 
        result in families being forced to make up the difference.
  --Florida's waiting list for childcare assistance increased from 
        approximately 67,000 children in early 2010 to 89,000 children 
        as of December 2010.
  --Maryland will place all families who apply for childcare assistance 
        after February 28, 2011 on a waiting list.
  --North Carolina's waiting list for childcare assistance increased 
        from approximately 37,900 children in early 2010 to nearly 
        45,700 children in December 2010.
  --New York City's mayor is proposing to cut childcare assistance to 
        more than 16,600 children.

    YWCA childcare programs in these States, and many more States 
across the country, are already being impacted by State cutbacks. These 
cutbacks will be amplified, and their impacts will be amplified, if 
CCDBG funding does not continue at the levels requested by the 
President's fiscal year 2012 budget request. For the YWCA, this means 
our associations will have to cut vital programs and services, reduce 
the number of families served, and possibly even close YWCA facilities 
leaving many women and families without affordable, quality, childcare 
to allow them to work and provide their children a safe, 
developmentally appropriate environment.
    The YWCA recognizes these are unique times in our Nation's history 
and we agree that our Nation must address its deficit and debt. Yet, 
the YWCA believes strongly that investments in childcare and early 
education programs are wise uses of Federal funds that provide 
substantial returns to our Nation. Childcare and early education 
programs help not only our Nation's current workforce, but also help 
prepare the next generation our Nation's children. On behalf of YWCAs 
nationwide and the many women, children and families we serve, we look 
to you for a continued commitment to women and families through the 
provision of essential childcare resources. That is why we respectfully 
ask you to support the President's fiscal year 2012 budget request for 
$1.3 billion in additional funding for CCDBG. Thank you once again for 
the opportunity to provide testimony in support of childcare services, 
and CCDBG especially, to your Subcommittee. Your attention and 
assistance are greatly appreciated.

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
